<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                 DEPARTMENTS OF COMMERCE, JUSTICE, AND

                   STATE, THE JUDICIARY, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 HAROLD ROGERS, Kentucky             JOSE E. SERRANO, New York
 JIM KOLBE, Arizona                  ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina   LUCILLE ROYBAL-ALLARD, California
 RALPH REGULA, Ohio                  ROBERT E. ``BUD'' CRAMER, Jr., 
 TOM LATHAM, Iowa                    Alabama
 DAN MILLER, Florida                 PATRICK J. KENNEDY, Rhode Island 
 DAVID VITTER, Louisiana            
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Mike Ringler, Christine Kojac, Leslie Albright, and John F. Martens
                           Subcommittee Staff
                                ________
                                 PART 6
                          DEPARTMENT OF JUSTICE
                                                                   Page
 Federal Bureau of Investigation..................................    1
 Attorney General.................................................   95
 Drug Enforcement Programs........................................  273
 Immigration and Naturalization Service...........................  355
 Prisons and Related Issues.......................................  485

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 82-579                     WASHINGTON : 2002





                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     

                 James W. Dyer, Clerk and Staff Director

                                  (ii)




 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              

                                          Wednesday, March 6, 2002.

                    FEDERAL BUREAU OF INVESTIGATION

                                WITNESS

ROBERT S. MUELLER, III, DIRECTOR, FEDERAL BUREAU OF INVESTIGATION

                  Opening Remarks of Congressman Wolf

    Mr. Wolf. The committee will come to order. We welcome you 
to the subcommittee today. We would like to hear from you, to 
the extent you can, in this open forum. Maybe there will be an 
opportunity to have you back sometime in a closed forum whereby 
you may feel more comfortable speaking on this issue.
    But if you could, give us a brief update on the terrorism 
investigation, anthrax and all of the other issues that are 
going on. To the best of your ability in open session, if you 
can do that today, we would appreciate it.
    Your first few months as director were baptism by fire. The 
world changed dramatically on September 11th, just a few short 
weeks after you were sworn in as director.
    The FBI is our Nation's premier law enforcement agency. I 
want to put on the record and urge you to go back and tell your 
people that we appreciate very much the dedication, the hard 
work and the effectiveness that your agents and support staff 
do. Please thank them on behalf of the committee and certainly 
for myself.


                         FY 2003 BUDGET REQUEST


    This afternoon we are here to talk about the Bureau's 
fiscal year 2003 budget request. The FBI is requesting a total 
of $4.2 billion in appropriations, a programmatic increase of 
$446 million, or about a 20 percent increase.
    You have requested an increase of 887 new positions 
including 181 new agent positions. This new funding is in 
addition to the $745 million and 823 new positions, including 
266 new agents that the FBI received in the Counter-terrorism 
Supplemental that was passed by the Congress in December.
    Your request in the Supplemental was for $539 million. The 
Congress provided you with $207 million more, actually, than 
you requested. These are significant increases in resources and 
the committee would like to be fully informed as to the 
obligation of these funds, particularly on all the issues, 
especially Trilogy, and with regard to hiring.
    It is now up to you, obviously, and your leadership and the 
28,000 employees, to make sure that these funds are put to 
proper use in the fight with regard to terrorism.
    So, I do welcome you and I thank you. You really came on at 
a very difficult time. I remember reading that you had just had 
an operation and you just came into this job, I think, a few 
days later. I think you have handled yourself very, very well. 
I want to thank you personally and thank the men and women that 
work with you.
    I now recognize Mr. Serrano.

                 Opening Remarks of Congressman Serrano

    Mr. Serrano. Thank you, Mr. Chairman. I am sorry that I 
arrived a little late. I was on the House Floor. As you know, 
we spent a lot of time this morning, Mr. Chairman, speaking 
about Colombia. There was a resolution on the Floor that I was 
trying to get to speak on, but I ran out of time before I 
could.
    I want to welcome you, sir, and I have enjoyed the many 
conversations that we have had. I will be very brief. I know 
that your task and the task of the agency now more than ever 
has all Americans doing all that they can do. As I have said to 
you in private, the concern that I would voice for a while now 
is that in the process of doing what the FBI has to do, that we 
make sure that we don't sacrifice anybody's civil liberties, 
that we not create a situation which will make us feel bad 
about it years from now.
    I know that you are as much interested in the future of the 
agency as you are interested in knowing the past. We discussed 
that. The past at times has had some very bad results for some 
Americans. How you balance it is a very difficult job to do and 
I understand that. That is why I am not criticizing in any way, 
just reminding us all. I say ``us'' rather than ``you.'' During 
this very difficult time, when we know that there is an enemy 
that we have to get and that the situation, the terrorist 
attacks that we have had should never occur again, at the same 
time we don't think that gives us an excuse or an opportunity 
to trample on civil liberties.
    What a tragedy it would be if we got rid of terrorism and 
at the same time lost part of our democracy.
    Thank you.
    Mr. Mueller. Mr. Chairman, I do have a short statement. I 
have submitted with the pleasure of the subcommittee a longer 
statement.
    Mr. Wolf. Your full statement will appear in the record.

                    FBI Director's Opening Statement

    Mr. Mueller. I want to say good afternoon Mr. Chairman, 
Congressman Serrano and members of the subcommittee. I want to 
thank you for all of the support that each of you have provided 
to the FBI both before September 11th but also in the wake of 
September 11th.
    As the Chairman pointed out, I started in this job shortly 
before the attacks of September 11th. Since the attacks, the 
subcommittee and the committee have provided the FBI with 
unstinting support.
    A national crisis such as this offers the country an 
opportunity to unite and to move forward together to meet the 
challenge. Your support has allowed the FBI to focus its full 
attention on preventing future terrorist attacks against those 
in the United States and future attacks against American 
interests around the world.
    But I would, by the same token, say in response to the 
opening remarks of Congressman Serrano that it is equally 
important that as we address terrorism around the world that we 
take into account our Constitution and the privileges that 
attend to that Constitution so that when we address terrorism 
around the world we always keep in mind the civil rights of the 
individuals in the United States, whether they be citizens or 
non-citizens.


                  SEPTEMBER 11TH IMPACT ON THE BUREAU


    I will say that the attacks of September 11th have had a 
profound impact on the Bureau, underscoring the urgency for 
change. We know at the Bureau that the old ways will not 
suffice, no office, no program, no procedure is beyond 
scrutiny. 9/11 has become a new word in the FBI lexicon as it 
has become a new word in the lexicon of our nation.
    For the Bureau I believe when future historians look back, 
they will see it as a watershed moment in our history. I will 
say prior to September 11th there was substantial recognition 
both up on the Hill and off the Hill of the need for change at 
the FBI and I have said also that many times, and I have said 
this many times, the FBI's greatest resource is its people and 
they certainly have risen to the challenge in the wake of 
September 11th. They are superb individuals who have, 
unfortunately, increasingly been straight-jacketed by 
management organizational structures that lacked clear focus 
and were unable to adequately support a larger, more complex 
FBI and we have not kept pace, as I believe the subcommittee 
know, technologically.


                       CHALLENGES FACING THE FBI


    Pre-September 11th, the Bureau was facing other problems 
that had been building over a period of time. In terms of our 
workforce, we lack a sufficient number of employees with a full 
range of skills, especially technical skills that we need and 
in addition our agents are not diverse enough to serve a 
diverse America.
    We lack a sufficient number of agents and analysts with a 
full range of language skills as we require today. In part this 
was because we operated largely under the assumption that 
agents, as general purpose investigators, could and should be 
place in highly technical positions because of their 
investigative expertise.
    However, in many areas, this assumption no longer accords 
with reality, given that we have a world where specialists have 
become absolutely necessary. Perhaps nowhere is this more 
evident than with the information infrastructure technology. We 
have allowed ourselves to become out of date with respect to 
our in-house technology, but at the same time we provide 
cutting edge support to other law enforcement, as we see with 
our fingerprint systems and other systems out at the Criminal 
Justice Information Services (CJIS) and in our laboratory.
    There are other problems as well. As the Hanssen case 
showed, our security systems were not up the trust the American 
people had placed in us.
    As the McVeigh documents problem showed, our records 
administration left a great deal to be desired. Both issues 
were discussed at your hearing last year and the Bureau at that 
time and even before, began to fix these problems.
    These were some of the problems that faced us prior to 9/11 
and it was a daunting challenge even then. But September 11th 
did two things. It substantially increased the urgency for 
solving these existing problems, and it added as an over-
arching challenge the need to substantially shift resources 
devoted to counterterrorism as we shift our focus from 
prosecution to prevention.
    This need also increases the emphasis on another challenge 
we face and that is the need to increase our cooperation with 
our federal counterparts and our state and local law 
enforcement partners. We need to acknowledge that at times the 
Bureau has not been as forthcoming as it should be with our law 
enforcement partners. I do think we have made substantial 
improvements in recent years, but we still have a ways to go.
    I want to emphasize that these challenges or problems are 
our responsibility. This committee and Congress as a whole has 
been very generous to the Bureau. Most recently you have given 
us the resources and the support needed to get the 
infrastructure back on track and have created the opportunity 
for us to acquire the people and the skill sets we desperately 
need in a number of areas critical to counterterrorism, 
prevention, and in support of our technical needs. We are 
grappling with these problems and we appreciate the help you 
have given us in fixing them.
    I can assure you that there is an unmistakable sense of 
urgency to get these things done.
    In my view, remaking the FBI to meet these challenges has 
four major overlapping components. One is structural 
reorganization. Two is re-focused priorities. Three is improved 
technology. And four is an operational commitment to cooperate 
with other federal, state and local law enforcement officials.


                             REORGANIZATION


    The first of these, the structural reorganization, is under 
way. In December of last year we implemented Phase I of the 
organization, and I am grateful to the subcommittee for its 
advice and prompt approval of this reorganization. The purpose 
of this first phase was relatively simple, greater 
accountability, increased management oversight and better 
coordination and information sharing.
    As I believe the subcommittee is aware, rather than one 
deputy, I have four Executive Assistant Deputies with a range 
of responsibilities in particular areas and we also created in 
that reorganization a Security Division, Cyber Crime Division, 
a Records Management Division, an Office of Law Enforcement 
Coordination, as well as an Office of Intelligence.
    We are currently working on the next phase of this 
reorganization. Its basic thrust is to develop a comprehensive 
strategy for combating, and more importantly, preventing 
terrorism.


                         REFOCUS FBI PRIORITIES


    This phase brings into play the second element of the 
reform that I mentioned, which is the need for the FBI to 
refocus its priorities, a comprehensive strategy for combating 
terrorism will mean not only new resources, but given the size 
of the effort, a permanent reallocation of existing resources.
    It will mean no longer doing some of the things we are 
currently doing and that will not be without its costs. Let me 
give you some sense of the magnitude of the task. At the peak 
of the FBI's investigation of the September 11th attacks, 
approximately 6,000, or almost 60 percent of our 11,000 Special 
Agents were dedicated to the investigation.
    In recent days, our ongoing September 11th efforts have 
involved approximately 4,000 agents. It is my hope that with 
the reforms of the second phase of the reorganization that the 
FBI will commit a permanent cadre of at least 2,000 agents 
along with appropriate analytic and support staff, essentially 
doubling our pre-9/11 effort in terms of numbers of agents and 
going far beyond that with huge increases in our analytical 
capability.
    I hope that other changes we will be making, especially in 
terms of technology and increased cooperation with other law 
enforcement counterparts, will serve as a substantial force 
multiplier in this area.
    Mr. Wolf. Mr. Director, excuse me. We have only five 
minutes for a vote. Why don't we recess for 15 minutes and then 
we can come back.
    Mr. Mueller. Thank you, Mr. Chairman.
    Mr. Wolf. I think that is the last vote for today, so we 
should not be interrupted.
    Mr. Mueller. Thank you, Mr. Chairman.
    [Recess]
    Mr. Wolf. All right, you may proceed.


               PHASE II REORGANIZATION AND FY 2003 BUDGET


    Mr. Mueller. As I was mentioning before the recess, 
refocusing our priorities in the second part of this 
reorganization raises complex issues. What will the FBI not do? 
This is an issue we are currently debating. This will be an 
important national discussion and during our trying to figure 
out what we will not be doing, I welcome the views of members 
of this subcommittee.
    It is my expectation that in the near future I will return 
to discuss with you the outline of our initial thinking on this 
phase and its implications to include a new strategic plan more 
reflective of today's realities.
    The FBI's budget request for fiscal year 2003 in 
conjunction with its fiscal year 2002 budget and a 
counterterrorism supplemental is designed to set the stage for 
this reorganization and allow the FBI to refocus its mission. 
For fiscal year 2003, over 673 new positions, 181 of them 
agents and $225 million in incremental spending are targeted 
for counterterrorism programs.
    When added to the resources provided by the subcommittee in 
the Supplemental, the fiscal year 2003 budget request will 
provide the Bureau with the capability and the analytic skills 
to make a major step forward in refocusing its priorities to 
thwarting future terrorist attacks.


                           TECHNOLOGY REFORM


    The fiscal year 2003 budget also provides additional 
resources to another FBI priority and that is technology 
excellence. Indeed, the importance of technology is so 
pervasive in everything we need to do and our need to improve 
our technological infrastructure is so extreme, I consider it 
to be the second major area of reform. Make no mistake about 
it, technological investments are investments in 
counterterrorism.
    We simply cannot be fully effective in this area without 
vast improvements in our technology. That is critical to allow 
us to collect, to analyze and to share information, which is 
the lifeblood of any successful effort to prevent terrorism.
    By adding $145 million to funds provided last fall, the 
fiscal year 2003 budget will allow the Bureau to deploy its 
Trilogy Program and to upgrade the Bureau's core information 
technology infrastructure. This effort has served as a lever 
through which the Bureau has begun assembling the technical 
expertise it needs to keep pace with rapid change in 
technology.
    Let me make one more point on technology before I leave 
this area. As I indicated, we have let ourselves fall behind in 
this area. I know we have been asking for a lot. This 
subcommittee has been very generous. But we will be asking for 
more. Trilogy is only part of what we need to do to bring 
ourselves up to date.
    There will be substantial additional needs, including in 
our Personnel and Budget systems. Then there will be ongoing 
expenditures for technology refreshment so that we do not find 
ourselves back in this situation in 5 or 10 years. I am 
committed to the normal business practice of incremental 
improvements, so complete rebuilds with the associated costs 
and risks can be avoided in the future.
    The third major priority of the fiscal year 2003 budget is 
security. In the wake of the Hanssen case the FBI has created a 
new Security Division and we are requesting an additional $78 
million to upgrade security within the Bureau. This improvement 
not only consists of resources and new leadership, but also a 
more proactive, integrated approach on initiatives such as 
financial disclosure, the use of polygraphs, security 
education, and a comprehensive information assurance program.
    With additional funds for counterterrorism, information 
technology and security, the fiscal year 2003 budget is a 
commitment to a new refocused FBI.


            COOPERATION WITH OTHER LAW ENFORCEMENT OFFICIALS


    The fourth and last major component of the reform and 
restructuring involves our relationship with other federal, 
state and local law enforcement officials. The job we have is 
simply too big for any one entity to do alone. We need help and 
we need to work in a more cooperative manner to obtain it.
    To this end we have established a new office of Law 
Enforcement Coordination to coordinate the Bureau's efforts 
with our state and local officials.
    We are also expanding our Joint Terrorism Task Forces into 
all 56 field offices. I am committed to making our 
relationships with our law enforcement partners a true 
partnership. Six hundred and fifty thousand state and local law 
enforcement officers represent an asset that the Bureau must 
take advantage of if future terrorist attacks are to be 
prevented.
    September 11th was a sophisticated attack, planned and 
financed overseas and executed in the United States. It was the 
product of years of effort that included al-Qaeda training 
camps in Afghanistan, sophisticated financing arrangements in 
the Middle East and a planning unit in Hamburg, Germany that 
then executed its plan on American soil.
    In the face of such a sophisticated, determined adversary, 
all of the nation's resources, federal, state and local, must 
be marshaled. There is simply no room for turf battles. The 
demands the nation is placing on the Bureau, prevention of 
further devastating acts of terrorism, have never been greater. 
The challenges we face are substantial. But with the help of 
this subcommittee, the help that this subcommittee has given in 
the past, for which we are extremely thankful, and the help of 
the subcommittee in the future and with the dedication of our 
employees, I am confident that the dedicated men and women of 
the FBI are up to those challenges.
    Thank you very much for the opportunity to give these short 
remarks.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. As part of your statement, if you could, I would 
ask, can we hear from you a brief update on the terrorism 
investigation, as well as an update on the anthrax case, as you 
saw in the paper yesterday or the other day, President Mubarak 
talked about sleeper cells operating here in the United States.
    I understand we are in open session and there may be some 
things you can't go into, but can you, for the good of the 
order or for the good of the public, just comment on them 
before we go to the questions?


                         ANTHRAX INVESTIGATION


    Mr. Mueller. Yes. If I might at the outset, talk briefly 
about the anthrax investigation. That has proceeded in a number 
of avenues. We do not discount any possibility. I know there 
have been statements out there in the press about we are 
looking at individuals from laboratories or we are looking 
overseas. We have not excluded any possibility at this point.
    The investigation is going on several paths. We have 
conducted more than 500 interviews of individuals at various 
laboratories around the United States and overseas. We have 
engaged a number of laboratories to assist us in looking at the 
anthrax that was contained in the Leahy letter which we found 
after reviewing that batch of correspondence that has been 
sequestered subsequent to the receipt of the Daschle letter.
    We are looking at that anthrax to determine its strain, its 
genetic profiling and its sequencing. Those laboratory tests 
are ongoing. We have, over a period of time, looked at a number 
of individuals who both have the capacity and have had the 
accessibility to the type of equipment that would be necessary 
to commit this type of crime.
    I will tell you that we have no one person specifically 
that stands out above others at this juncture. That is to say, 
contrary to what some reports have been that we are focusing on 
a particular individual and for whatever reasons we are not 
pursuing, we are not pursuing that individual. That is just 
false.
    We are still looking at a number of individuals. As I say, 
it is proceeding on the track of interviewing a number of 
persons related to various laboratories in the United States 
and also pursuing what would be identified as something close 
to fingerprinting with regard to the anthrax that was contained 
in the Leahy letter.
    We periodically receive information about individuals who 
are either, according to the information, motivated to 
undertake this type of attack, have the experience and the 
background to undertake this type of attack, and also have the 
access to the type of equipment that would be necessary to 
manufacture this anthrax.
    Whenever we get those reports, we take them exceptionally 
seriously and do a full-scale investigation on those 
individuals. There are a number of those that are currently 
being undertaken. I am confident that we will determine who is 
responsible for this and I am confident that when we do so the 
investigation that we have conducted to date will produce the 
evidence necessary to present in court so that the person can 
be successfully prosecuted.
    That is a broad-brush overview of where we are on the 
anthrax investigation.


              INVESTIGATIONS SUBSEQUENT TO SEPTEMBER 11TH


    With regard to the attacks of September 11, our initial 
thrust of our investigation subsequent to September 11th was to 
identify those responsible for the attacks and within several 
weeks after that, by going through the manifests and by 
investigating in every nook and cranny of this country and 
overseas, we are quite confident that we identified the 19 
individuals who were responsible for the attacks of 9/11.
    We also are confident that 15 of them were from Saudi 
Arabia. One was from Egypt. One was from Lebanon and I believe 
two from the United Arab Emirates. We also learned during the 
course of the investigation that they had come into this 
country a year or longer or six months or longer prior to the 
attack with the expectation of raising no concern in any 
aspects of the community, whether it be law enforcement or 
otherwise, and for the sole purpose of committing this attack.
    We also learned that the planning for it, quite probably, 
was undertaken overseas, principally in Hamburg, Germany. In 
close association and working with our counterparts overseas, 
we were able to paint the picture of the planning phase as well 
as the execution phase by these 19 individuals.
    Our principal concerns in the wake of September 11th was 
that other individuals might be in the United States, part of 
the same cadre of individuals who were seeking to undertake a 
similar plan, hijacking, and for one reason or other may not 
have made the planes that day or were looking to execute a 
second wave.
    Consequently, we undertook, subsequent to September 11th, a 
nationwide investigation to determine whether there were any 
associates, supporters, and financial supporters of these 
individuals in the United States who were intent on replicating 
what had happened on September 11th.
    That investigation has been ongoing. The 4,000 agents that 
are still assigned to portions of the investigation are still 
following leads to determine whether or not there are any 
associates, financial supporters or others that are in the 
United States, intent on committing the same acts.
    At the same time, we have throughout understood that it is 
critically important for us to prevent the next attack, whether 
it be by associates of the 19 or by others who were sent in 
unbeknownst to or not knowledgeable to the 19 or having no 
association with the 19.
    So, every threat we received, every piece of information we 
or the CIA receives with regard to a possible attack is 
immediately investigated until we can determine the credibility 
of the threat, whether it is credible or not credible, and to 
the extent that it has any credibility whatsoever, we move 
heaven and earth to try to diffuse the situation.
    Whether it be in the United States or around the world, 
there have been successes. But the mere fact that there have 
been successes does not in any way, shape or form mean that we 
are confident that there will not be another attack. To the 
contrary, we believe that we are still targeted, that there are 
al-Qaeda associated individuals around the world, some in the 
United States, that are intent on committing terrorist acts 
within the country.
    One of the areas where we have expanded the investigation 
has been with the assistance of the CIA and the Defense 
Department and that is the exploitation of the documents and 
witnesses coming out of Afghanistan. We have, along with the 
military, and the CIA, put in place a document exploitation 
procedure to be sure that we scrutinize every document and 
every other piece of evidence that comes out of Afghanistan to 
determine whether it has any intelligence, any intelligence 
worth and to assure that whether it bears on the military 
mission or the CIA's mission or a law enforcement mission, that 
it is understood, utilized, and to the extent that it assists 
us in understanding what is happening, put into that matrix.
    Likewise, we have with the military and the CIA undertaken 
initial questioning of those individuals who have been 
detained, al-Qaeda individuals where they have been detained in 
Afghanistan or transported from Afghanistan to Guantanamo Bay 
in an effort again to gather what information is available on 
al-Qaeda, the intentions of al-Qaeda, the individuals who are 
members of al-Qaeda and the future intentions of al-Qaeda.
    That again is a brief overview of where we have been and 
where we are, Mr. Chairman.

              THE TEAM REVIEWING INTELLIGENCE/INFORMATION

    Mr. Wolf. The team is made up of military, CIA, FBI and 
others, so all documents are examined, they look at it for all 
of the aspects?
    Mr. Mueller. That's correct. Quite obviously, the first cut 
is for the military in Afghanistan. Everyone wants to assure 
that any tactical information that may be helpful to saving the 
lives of our military in Afghanistan is not overlooked. Then it 
is looked at for intelligence value in the effort in 
Afghanistan and then is looked at for law enforcement purposes 
also. By law enforcement I don't mean to exclude the role of 
either the Defense Department, the CIA, or the FBI in looking 
at information coming out and putting it into an intelligence 
matrix that would give us some idea from whence we can expect 
an attack and who might be involved in such an attack.

             PLACEMENT OF FBI AGENTS IN 9/11 INVESTIGATION

    Mr. Wolf. Are you still interviewing the people that were 
arrested in Afghanistan? Do you still have agents in 
Afghanistan?
    Mr. Mueller. We still have agents in Afghanistan, yes. They 
are working exceptionally cooperatively with their 
counterparts, with the military and with the CIA.
    Mr. Wolf. So, they are interviewed there and then when they 
come to wherever they come, Guantanamo Bay, the interrogation 
begins, correct?
    Mr. Mueller. Correct. We have had agents in Bagram. We have 
had agents in Kandahar and we have agents down in Guantanamo 
Bay.
    Mr. Wolf. Are you going to have a permanent legal attache 
office in Afghanistan?
    Mr. Mueller. I would hope to eventually, yes.
    Mr. Wolf. When the group came in that committed the crimes 
on 9/11, did they specifically come in for that act?
    Mr. Mueller. We have to look at circumstantial evidence 
because they are all dead, quite obviously. But in looking at 
the circumstantial evidence, they had no jobs and they were 
financed from overseas. The monies that were sent to bank 
accounts here were sent in denominations that were under 
$10,000 so it would raise no flags.
    Their time in the United States was spent, as far as we can 
tell, in making preparations for the attacks. As I say, none of 
them had jobs here. So, based on the circumstantial evidence 
and what we know and have learned subsequent to that, it is our 
belief that they came here solely for the purpose of committing 
this act.
    Mr. Wolf. Do you believe there was another aircraft or do 
you think this was the sum total of that group?
    Mr. Mueller. There have been periodic reports as to the 
possibility of another aircraft. We have not identified 
additional persons who would have been the team for that other 
aircraft. That does not mean to say that there could not have 
been another team in the United States of which we are not 
aware and for some reason aborted the attack and then left the 
country.

        EGYPT'S PRESIDENT ON SLEEPER CELLS IN THE UNITED STATES

    Mr. Wolf. Without getting into too much detail publicly, do 
you believe there is credibility in what President Mubarak said 
two days ago in the Washington Times with regard to sleeper 
cells? I was wondering, did he just give that interview sitting 
in his office in Cairo or was it well thought-out that he knew 
precisely what he was talking about?
    Mr. Mueller. I confess, Mr. Chairman, I do not recall 
specifically what he said.
    Mr. Wolf. It was in the Washington Times on Monday or 
Tuesday. They interviewed President Mubarak in his office in 
Cairo as he was preparing to come here to the United States. He 
said, it is a long interview, but the top of the story that 
there are sleeper cells in the United States, he said, and they 
are just waiting for a period of calm before they respond.
    Mr. Mueller. I am not certain upon what he bases that 
opinion.
    Mr. Wolf. Well, I just have to ask it. You can get back to 
us privately. I would hope that our people have picked up the 
phone and said, please tell us, you said that, is this sort of 
a feeling that you had because you understand the society or do 
you know and do your intelligence people know because of your 
work with regard to their plans?
    But give us a readout. I think that has to be solid because 
it is very, very specific. I would urge your people to get the 
interview from the Times. That was Monday or Tuesday.
    Mr. Mueller. If I may just response briefly on that, I know 
that we had a very close relationship with our counterparts 
overseas. The extent to which he had specific information upon 
which to base that opinion, I am quite confident that we would 
have had access to that.
    Mr. Wolf. Do you have an office there?
    Mr. Mueller. We do. We have a legal attache in Egypt. When 
I was there I stopped in, maybe a month or a month and a half 
ago, and met with our counterparts over there. We have a very 
good relationship with our counterparts there.

                                TRILOGY

    Mr. Wolf. Okay. I will just ask one question on a budgetary 
matter and then I will recognize Mr. Serrano.
    One other thing, too, I just went through your statement 
and obviously I was impressed. It was very non-typical of 
testimony. You said on Page 3, ``We allowed ourselves to become 
out of date.'' You also went on to say, ``There were other 
problems as well. As the Hanssen case showed, our security 
systems were not up to par.''
    In another paragraph, you say, ``We need to acknowledge 
that at times the FBI is not as forthcoming as it should be 
with our law enforcement partners.''
    You then went on to say, ``I want to emphasize that these 
challenges and problems are our responsibility.'' And there are 
some other phrases which I won't read. But I want to commend 
you on this candor. Constructive mistakes that I make, 
sometimes it is just better to tell people, you know, I made a 
mistake. I'm sorry. I wish I could have done better. But I am 
not going to rest with that. I am going to change.
    I commend you for your testimony. I think it is very, very 
refreshing to hear. Generally, people will be saying, ``Well, 
the reason this happened was because of this or because of 
this.'' So, I think it is very, very refreshing.
    The one question on Trilogy: The committee has given you a 
large amount of money and Mr. Rogers, when he was chairman, 
also did the same thing. It should be funded. Actually, I think 
you were given $132 million, more than your actual request. 
Congress actually gave you more than you asked for.
    Can you bring us up to speed on Trilogy, when it is going 
to be in all the field offices, when will it be in effect? I 
know you still have the gentleman from IBM. Do you, on a period 
basis, go out and talk to some of the top technology people in 
the country on a kind of ad hoc basis to say, here is where we 
are, this is what we were thinking of doing. Does this make 
sense? Do you bounce ideas off of them?
    Mr. Mueller. Surely. My goal for the Bureau is to move it 
from a paper-reliant organization into a paperless 
organization. A lot flows from that. Were we able to do that, 
we would be much better able to gather digitally the 
information from our various offices better than we have today. 
Also we would be able to analyze it better and we would be able 
to disseminate it better.
    What I have come to find is Trilogy as was defined prior to 
September really was the backbone of a computer system. The 
WANS, the wide area networks, local area networks, desktop 
computers, printers and scanners were in that project that was 
identified as being a Trilogy along with the migration of five 
of the investigative software programs.
    The timeframe and the funding that was initially laid out 
for Trilogy prior to September 11, in my mind was just too 
long. We cannot afford to wait. To the extent that we are not 
technologically proficient, we are not doing our job. We cannot 
call ourselves the premier law enforcement agency in the world 
if our agents do not have the tools with which to do the job, 
analytical tools and the like.
    So, one of our first challenges was to speed up the 
process, to get the computers on the desks of the agents and 
the support staff and the analysts. We moved up the first stage 
of what we will call the Trilogy Project. That is the area 
networks, the servers, the desktop computers, the printers and 
the scanners, which will all be in by July of this year.
    In addition to that, there will be an upgrade to the 
Windows 2000 operating system and Office 2000 software 
packages, which includes the spreadsheets, Word, and the like. 
It is replacing computers that are 4 to 8 years old in many of 
the FBI offices throughout the country. An agent would have to 
wait a minute or more given the antiquated computers, 386s, 
486s, he might have to wait for a minute or so to get a piece 
of information out of the computer. It is just unacceptable.
    So, the first phase of putting in the new computers, the 
scanners, the printers and the like is ongoing. We'll finish 
that in July. I was just up in New York yesterday. We had just 
done that office. With that comes the upgrading operating 
system and the office software packages.

                         AUTOMATED CASE SYSTEM

    What is critical to a law enforcement agency is what is 
called in the FBI the ``automated case system'' where all your 
information, your reports go in and from that database of 
reports, and they call them 302s, the Bureau's write-ups of the 
interviews, comes your ability to dissect and analyze 
information.
    Our automated case system is antiquated and is not 
susceptible to analytical review as many other systems. For 
instance, and I will give you an example, we don't have a 
capability for a soundex search. If you put in a name like 
mine, Mueller, you can spell it M-u-e-l-l-e-r, you can spell it 
M-u-l-l-e-r. What you would want to be able to do is put in a 
search item, M-u-l-l-e-r and M-e-l-l-e-r, anything that sounds 
the same. The CIA has that. We do not have that. You have to 
put in M-u-e-l-l-e-r. You will just pull up that. If you get it 
misspelled, M-u-l-l-e-r then you will pull up all that, but you 
don't get them both. That really inhibits our analytical 
capacity.
    Consequently, we have to take our databases and migrate 
them into a modern database structure. We are going to an 
Oracle 9-I, which is one of the more modern database 
architectures. Hopefully, that will be completed by May of next 
year. I had hoped to get it up. I had pressed and beat up on 
people, including Mr. Dies, who is maybe about a foot taller 
than I am, and he knows far more about this than I do, but I 
pressed hard to get this on line earlier.
    But the fact of the matter is, when you are going through a 
process such as this, it is critically important that you have 
the adequate security. You make certain that all of the data is 
migrated over in such a way that you do not lose it. You have 
to do it in such a way that you don't have to go back and 
replicate it because you have messed it up.
    To assure all of those things are accomplished, we had to 
extend the timeframe until May of next year. I will tell you in 
the same vein, we can get the hardware and put new hardware in. 
You can put new software in, but you have to make it user 
friendly for the agents and the support staff and everybody 
else who is going to use this computer system.
    What we are in the process of doing is developing a virtual 
case file, which replicates the case file, the paper case file, 
that the FBI agent would be using, on the screen. So, it will 
be digital and user-friendly so that it will be simple for the 
older, I should not put it this way, but the less-
technologically efficient agent to use, as well as the support 
staff and everybody else. If you have that user-friendly system 
and everybody uses it, then you can move to a paperless office. 
That is the way we are going, but it takes time to develop the 
user interface to make certain that when you do your file 
reviews, when you get a lead that there is some way of 
monitoring.
    If I get a lead, if I am an agent in the Washington field 
and I get it from Seattle, when it comes in the lead is 
assigned by a supervisor digitally. It is assigned to an agent 
digitally. Then there is a tracking system so that that lead is 
followed up on within a certain amount of time and there is an 
automatic tickler that kicks up on the computer if that lead 
has not been processed in a particular period of time. That 
requires us to take the workings of the Bureau and digitize it. 
We are in the process of doing it, but it is not a simple 
process. But we are getting there.
    Mr. Wolf. Mr. Serrano.

                       NEW CHALLENGES FOR THE FBI

    Mr. Serrano. Thank you so much. Let me first also join the 
chairman in commending you for the work you have done. Those of 
us from New York City know how much you have been working and 
your agency has been working. I commend not only you, but your 
staff and all of the force for the service you have given New 
York.
    You know, I listened to you about the computer. Try putting 
in Serrano. You come up with Saran Wrap, and Cyrano de Bergerac 
and the Sierra Club. I could go on for days.
    Before September 11th, well, after September 11th also, the 
FBI has always been seen as the premier law enforcement agency 
in the country. Some people loved you. Some feared you. But 
everyone knew that you were the law enforcement agency in the 
country.
    You also dealt with everything from bank robberies to the 
winter Olympics and drugs and cyber crime in the last few 
years. Now, with this whole new undertaking, both friends and 
foes are questioning whether you are either spread out too thin 
or whether you are in fact prepared to continue to do what you 
did before and also take on a new challenge.
    So, my question to you is what can you tell me about that? 
What should we be nervous about or not nervous about? That 
leads to a second question. That is: Is the concentration on 
terrorism going to allow some very bad guys in the society, or 
women, to get a way with things ordinarily they wouldn't get 
away with?
    Mr. Mueller. This is a difficult and complex question that 
we are wrestling with. I start from the premise that we need to 
put whatever resources are necessary to respond, to be 
preemptive as opposed to reactive when it comes to addressing 
the terrorist threat.
    I have had lengthy discussions with the special agents in 
charge. Twice they came in to discuss this issue. We are 
looking at what we need, office by office, to address the 
challenges of being proactive in each of the various offices 
around the country. We have come up with a figure of additional 
man and woman power that we need to assign to the 
counterterrorism cases, whether it be special agent, analytical 
or support staff.
    Where are we going to get those individuals? Some of you 
have given us additional positions, but we also have to look at 
whatever responsibilities we have. My own view is we look at 
each of the districts in the past, the Bureau I think, and 
perhaps in part attributable to funding, has taken a cookie 
cutter approach to its programs across the country without 
being sufficiently sensitive to what are the threats in a 
particular field office.
    In other words, the threats in New York City are different 
than what I saw when I was out in San Francisco, for instance, 
where they have Silicon Valley. Also, they would be different 
from what you see in Des Moines or San Antonio.
    If you are the special agent in charge, you know you have 
to take ten agents from some place and put them on 
counterterrorism because you perceive that threat there. The 
issue is where are you going to take them. In many of the 
districts around the country they will be taken from a number 
of our programs. It may well be narcotics. In my own view, we 
should stay in narcotics. We should stay in Organized Crime 
Drug Enforcement Task Force YOSDEF cases and the High Intensity 
Drug Trafficking area HIDA Program, because we leverage our 
particular capabilities.
    We have some strengths and we have some weaknesses, but 
there are those cases where we have expertise that can be 
helpful and we ought to stay in those task forces. Where we 
overlap with the DEA, for instance, in doing cartel cases or on 
smaller narcotics cases, we ought to allow and assist our 
brother agencies or sister agencies to do those cases.
    We mentioned bank robberies. I had a recent discussion with 
Bill Berger who is the current head of the International 
Association of Chiefs of Police, ICAP, who said, amongst other 
things, that you have to stay in bank robberies that cut across 
county lines because you are the only agency that really can do 
that, and in armed bank robberies. We probably will not have to 
do one-note robberies that can be handled by the state and 
locals.
    So, going down category by category, we are going to be 
looking to see where we can take our resources with a paring 
knife, as opposed to a cleaver and say, ``Okay, we are not 
going to do narcotics, we are not going to do this and we are 
not going to do that'' and see if we can come up with those 
resources. We are in the process of doing that now.
    I also understand that if we are not going to do anything, 
if we are going to take persons off, then we have an obligation 
to sit down and discuss with state and locals or with the DEA 
or with the Secret Service or some other agency that has to 
pick up the slack on what we are not doing and what impact it 
will have on that agency. That is part of the dialogue that we 
are currently having.
    Coupled with that is our programs that come from Congress 
and to the extent that we are participating in a program and 
have jurisdiction, it has been at the will of Congress. 
Consequently, if we are not going to do as much as we have in a 
particular area, we must come and explain what our plan is, our 
strategy is, and obtain input from the Hill.
    So, we are in the process of trying to put together the 
strategy, talking to both the state and locals as well as our 
sister agencies with the expectation in the next month or so, 
coming up and soliciting your input.

                 AGENCIES SHARING CREDIBLE INFORMATION

    Mr. Serrano. Let me take you on to another area. I am going 
to ask these questions one after the other because if I ask 
them at different times I will be accused of contradicting 
myself, so I don't want to do that. On one hand, there are 
folks that are saying, ``The FBI every so often in the last few 
months has come forward and said, 'This Saturday could be a bad 
day for this country,' '' and what kind of information did we 
have to put that out? Some people claimed that that created 
situations that were expensive to localities, perhaps, or to 
the FBI. What was it based on?
    On the other hand, you have a situation where Time Magazine 
reports that in October high-ranking Federal officials became 
aware of the possibility that a terrorist might smuggle a 
nuclear device into New York City and detonate it, with the 
potential of enormous loss of life. Yet this threat was not 
shared with government officials in New York, who are outraged 
and you can understand that.
    My understanding is that this threat was also not shared 
with the FBI. So, my questions here are: What is the FBI doing 
to deal with the criticism in some circles that you are not 
being responsible, you know, alerting us to something that may 
not be an issue for the public to be that concerned about.
    Secondly, is it true that the FBI was not informed of this 
situation in New York and if you were, then how do we explain 
not telling at least New York City officials? Now, listen, I 
didn't need to know. As a member of Congress representing the 
Bronx, if you want to tell me I will be sick for the next two 
weeks, but I didn't need to know.
    But some folks needed to know. The Police Department needed 
to know. The police commissioner needed to know.
    What do you know and what can you tell us?
    Mr. Mueller. Let me start with the previous warnings, the 
general warnings that have been issued. There have been several 
occasions where we have received exceptionally credible 
information from overseas that the United States can expect to 
be attacked. The only further information we have is that it 
would be in a window of time. I think the first alert we put 
out was for a three-day period, maybe the second one for a 
four-day period. The third one was towards the end of Ramadan. 
In each of those cases, there has been information from an 
exceptionally credible source that this would happen. The 
credibility had been vetted. But there was no specificity as to 
place, no specificity as to particular time.
    The decision was made that with that credible information 
the country should be alerted, understanding the frustration 
that we all feel, including myself, as to the lack of 
specifics. The question immediately rises in your mind, well, 
okay, what do we as the FBI do with this credible information 
being responsible for protecting the United States, but without 
any specificity as to place or mechanism.
    The belief was on these occasions, because of the 
credibility of the information and because there were time 
frames, and it is important to put the United States on alert 
and consequently the alerts were put out.
    In the case of Ramadan, particularly towards the end of 
Ramadan, it was not just one credible report, but a number of 
credible reports. Consequently, again, under those 
circumstances a warning was put out.
    With regard to the last warning which identified an 
individual and several associates with their pictures, the 
information came from several sources. The information came 
together the day before February 12th. The information was 
specific as to the day the attack would take place, but again 
there was not specificity as to the mechanism. There was no 
specificity as to the place. But there was specificity as to 
the individual. We had a picture of the individual and there 
was specificity as to the specific day.
    Under those circumstances, because we had a photograph of 
the individual and his associates, we believed it was important 
to alert law enforcement within the United States and 
consequently that alert was put out.
    I will tell you generally, without talking specifics of any 
particular instance reported, even those reported recently, 
that whenever we have specific and credible information of an 
attack on a particular locality or place, we have provided that 
information immediately to the special agent in charge with 
instructions for the special agent in charge to pass that 
information on to state and locals and to immediately work 
together with the state and local law enforcement to put 
together a plan to prevent that attack from happening.
    Whenever we have received specific and credible information 
and in those instances where we may have received information 
that is specific and we do not know the credibility, but the 
timeframe is such that we have been unable to determine the 
credibility, we nonetheless have taken precautions to prevent 
that attack.
    In those instances where we have the opportunity to 
undertake and look at the credibility of the individual threat 
and it is washed out, there may be occasions where we believe 
that it has washed out. In those circumstances, we may or may 
not inform others.
    Lastly, we realize that the system is not perfect. I 
shouldn't say ``perfect.'' It is so far from perfect that 
everybody is frustrated by the warning system out there. 
Governor Ridge is working on input not only from us but from 
law enforcement around the country. A threat warning system 
that would be graduated and would also have attendant to each 
level of threat proposed steps to be taken with each threat 
level. We are hopeful that that will be out relatively shortly.
    Mr. Serrano. Well, you have certainly, Mr. Director, 
answered forcefully and eloquently the first part of the 
question. The second part, however, am I then to assume that 
the lack of involvement with the New York City authorities 
meant that you didn't take that particular one that has been 
reported in Time Magazine as a credible threat?
    Mr. Mueller. No. I wouldn't. I would be happy to discuss 
this but I think it would be difficult for me to do so in open 
session.
    Mr. Serrano. I understand.
    Mr. Mueller. So, I don't mean to have anybody read into 
what I am saying any comment on the report in Time Magazine. I 
do want to make it clear, however, that where we have specific 
and credible threats, we have on each occasion that I am aware 
of informed the state and locals of that threat.
    Mr. Serrano. Thank you.
    Mr. Wolf. Mr. Rogers?

           SOLVING THE LACK OF DATA SHARING BETWEEN AGENCIES

    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Director, welcome to your first appearance before this 
subcommittee. I have been on the subcommittee 19 years, and 
chairman of it the last six before Mr. Wolf.
    One of the biggest headaches that we have attempted to try 
to solve is the lack of data sharing between agencies of 
government. I want to talk to you about that briefly here. We 
gather information from all sorts of places. The government, 
the CIA, FBI, the INS, the State Department, the military and 
so on. It all comes from various agencies. We pick up some 
important information about somebody that might be a threat. 
But in the past that information was not shared with other 
agencies that might be able to prevent the threat.
    9/11 was a little bit about that. In the past we have tried 
to force-feed the State Department and INS, for example, to 
share data and information to help prevent illegal aliens from 
coming across the border.
    We never could get INS and State to merge their data bases, 
much less the law enforcement agencies and the intelligence 
community, and then share that data with people like the FAA at 
airports so we could watch out for these people or share that 
with local police forces. So when we stop somebody for a 
traffic ticket they find out they are a big time terrorist 
possibility.
    So, reassure me that we are going to start sharing data 
across agencies in a shared database and then share that with 
people in the country that can use it for great worth.
    Mr. Mueller. I would like to. I can give you some 
reassurance, but I can tell you that the relationships, 
certainly since September, since I have been here, with CIA and 
other agencies has been remarkable in terms of our working 
together and sharing.
    The exchange of personnel, we do a joint threat matrix 
which requires us to merge any information on threats and then 
address threats together. But information sharing is difficult 
without the technology to support it. The fact of the matter is 
we need in the Bureau to put into place the databases that will 
give us the capability of better sharing information with other 
agencies.
    But it is not going to happen overnight. What one has to do 
is have a database that allows one to put meta data in another 
database that is accessible by other agencies who have their 
own databases, some sort of meta indexing systems so that 
somebody from the CIA, when they put in the name Mueller, will 
understand that not only is it hitting on the databases in CIA, 
but also in INS and also in the FBI.
    But I have to put in place a data base structure that 
enables us to do that as a platform for that kind of digital 
exchange which we all want and we are all driving towards. But, 
as I said, I have to clean up our own house before we can do 
what I would like to do tomorrow.
    Mr. Rogers. Is that being worked on?
    Mr. Mueller. It is absolutely being worked on. Trilogy and 
the monies you have given us will put us in the position to be 
able to do that. I also have had numerous discussions, for 
instance, with George Tenant. I have gone over on numerous 
occasions to see their computer systems and make certain that 
what we put into place will speak with what they have in place.
    I will tell you that I look at state and local law 
enforcement and as I think we may have discussed, it may be 
unique in your state. There is the capability of 2 police 
departments talking to each other because quite often they put 
in different data elements in their police reports. If you put 
in different data elements, while their software package is out 
there that will convert data elements to another data element 
in another program, it is difficult to set up.
    So, on the one hand there is absolutely the willingness and 
the desire to share. I would say also that there are dramatic 
improvements that we have done to share information, but we 
still have a ways to make it go to make it technologically 
seamless.

                           HOMELAND SECURITY

    Mr. Rogers. Is this something the Homeland Security Agency 
is working on?
    Mr. Mueller. It is.
    Mr. Rogers. There has to be a holistic approach and it has 
to be a government-wide system into which each of its principal 
parts, like yourself, can feed and be communicable.
    Mr. Mueller. That is absolutely right. The Homeland 
Security is working on that umbrella system.
    Mr. Rogers. Well, it has not happened because of a lack of 
money. We have shoveled money at Justice, State, and others to 
do this very thing for years. I remember talking to the 
Attorney General, the head of INS, the Secretary of State. In 
1985 or '86, at the beginning of this, we shoveled money at 
them and nothing ever happened.
    Are you telling me that finally the barriers are now broken 
down bureaucratically so that we will see something happen?
    Mr. Mueller. Yes, I do think they are broken down 
bureaucratically. I think everybody in the wake of 9/11 
understands the mandate and the necessity and the urgency of 
accomplishing this.
    Mr. Rogers. Well, we will see. I just think it is 
absolutely imperative that that happen. So that the person 
screening a person going on planes, knows that when such and so 
tries to get on, we have a hit on him, we have turned up some 
intelligence there.
    You ought not let that person on that plane or on that 
cruise ship or if somebody is arrested for a traffic ticket in 
Western Kentucky, that we know that they are wanted somewhere 
else for a national security violation. That is vitally 
important, would you not agree?
    Mr. Mueller. I absolutely agree. I would at the same time 
say that we have to be careful when we develop these systems, 
to make certain that we maintain them and oversee them because 
if you get false information into a database that requires a 
person to be stopped, or a person has been interviewed and no 
longer is a person that law enforcement wants to interview, it 
is critically important that the systems are overseen so that 
that person's name comes out of it.
    While we can have the technology to bring the information 
together, we also must be caretakers of that information to 
assure that it is not abused, to assure that it is overseen so 
that innocent people or persons with a similar but different 
name are not stopped or do not suffer the indignities of being 
barred from taking a plane.
    So, we are looking at it from both sides. We want the 
exchange of information. We also want to make certain that we 
do it in a responsible fashion.

            VIRTUAL KNOWLEDGE DATABASE 2003 FUNDING REQUEST

    Mr. Rogers. Well now, you have a $53 million request to 
integrate from the remaining FBI systems and other applications 
into what you call a Virtual Knowledge Database. What is that 
for?
    Mr. Mueller. We have in the FBI what I would have to call 
stovepipe systems. In fact, one of the things I will remember 
is going into the FBI Building and going down to the computer 
center on the ground floor. Their servers have gotten smaller, 
so part of that computer center there are a lot of small 
servers there that are doing a heck of a job.
    On the other side, there was all this computer equipment. 
You had Gateway there; you had Apples, using a variety of 
operating systems all in this area. I said, ``What is that?''
    He said, ``Well, these are the computer systems from the 
various divisions, whether it be criminal, intelligence, or 
counterterrorism. They had developed their own computer systems 
that could not talk to each other.'' The data elements that are 
in their separate computer systems are unavailable. If you were 
in a computer system for counterterrorism, you couldn't talk to 
the computer system for counterintelligence or criminal.
    The data warehouse puts those data elements in one location 
on a server. A person with a particular need to pull out pieces 
of that information uses a software interface that will provide 
them the information they need off of that data warehouse. It 
is important that a data warehouse be built with the 
appropriate security safeguards, since you don't want somebody 
who was not granted access to counterintelligence information 
to go in that data warehouse and pull out the information.
    But nonetheless, you can have a number of ways of getting 
into that data warehouse to pull out pieces of information that 
may be useful for a variety of different applications, whether 
it be a counterintelligence or a criminal investigation. That 
is where we have to be down the road and it is where we have to 
be if we want to build a platform upon which we set another 
database that is accessible by CIA or even state and locals 
ultimately, with some sort of indexing system or pointer system 
in it.
    Mr. Rogers. How soon will that happen?
    Mr. Mueller. Well, if I recall correctly, we hope to have 
our database migrated into what I call a data warehouse by, I 
believe, it is May of 2003.

              INFORMATION TECHNOLOGY 2003 FUNDING REQUEST

    Mr. Rogers. You have also got $145 million in your request 
for Information Technology. What is that money for?
    Mr. Mueller. Would you excuse me one second and let me 
check on that particular figure.
    Mr. Rogers. You and I have talked about the need for law 
enforcement at all levels, particularly local law enforcement 
and first responders like emergency technicians or fire 
departments, to be able to talk to each other locally or even 
across county or city lines or with the Federal agencies.
    Is this money aimed at that problem?
    Mr. Mueller. I'm having trouble tying in the $145 million. 
I think you said $145 million.
    Mr. Rogers. Yes.
    Mr. Mueller. Excuse me just one second.
    Mr. Rogers. It is on Page 91.
    Mr. Mueller. It is a number of items that we are asking for 
in that $145 million. Let me just back off and say that what 
you were talking about, I believe, in terms of the ability to 
communicate with federal law enforcement, with state and local, 
as we discussed the other day, is a communication system which 
means we are all on the same bandwidth or have the capability 
of speaking across the same bandwidths, whether it be a first 
responder or FBI agent or Secret Service Agent. I know that is 
a huge issue also.
    I also was led to believe that what is being undertaken in 
Kentucky is putting our computers in squad cars in various 
counties and those computers presumably will have the same 
software packages and the same data will be input into those 
computers in the same way, regardless of which county you are 
in, which gives you the capability then of analyzing data 
across all the counties, which is, a goal, I think, for law 
enforcement around the country.
    Going to what we have in that $145 million, one of the 
items is $8 million for computer specialists to upgrade our 
systems; $11 million to enable us to talk to the outside world, 
as I have indicated elsewhere in the past, that we still don't 
have e-mail in or out of the building because we have to put up 
special precautions to assure that our computers are not 
accessible from hackers on the outside.
    Part of that money goes to digital storage and retrieval. 
One of the things in my mind we have to do in getting away from 
paper is having the scanning and coding capabilities so that if 
an agent takes notes in the course of an interview, those notes 
are then written up, and scanned in. They are handwritten, so 
they are scanned into a database, coded to the report that is 
based on those notes and readily available at a push of the 
button down the road.
    Mr. Rogers. That would get at the problem that we had in 
the McVeigh investigation, would it not?
    Mr. Mueller. Yes, absolutely.
    Mr. Rogers. Where you mistakenly overlooked some documents 
that were to have been delivered to the court, they simply 
weren't found.
    Mr. Mueller. That should assist in that, absolutely. Part 
of it goes to our continuity of operations. What you put in a 
computer system, you have to make absolutely certain that there 
is a plan to back it up and have the same capacity and data at 
a backup facility, so if one goes down, the other one can kick 
in or if one is lost, the backup facility is available.
    Generally, what we have as well, I probably shouldn't go 
into in open session, but we have put into place plans to 
assure appropriate backup. Our legal attaches around the world 
need the same information technology that we have here in the 
United States.
    I talked about the data warehousing, and secure video 
teleconferencing. If you are trying to run a Bureau with 56 
offices, quite often, both to assure accountability, but also 
to be brought up to date on what is happening in a particular 
office, rather than traveling to that office, video 
teleconferencing is critically important.
    If you have an incident, a substantial incident elsewhere 
in the country, you would want video conferencing to bring all 
minds to bear on how to resolve it. Then just another aspect of 
it are the analytical tools that I talked about. One of them is 
Soundex. There are also analytical tools that we can utilize to 
analyze telephone toll records and other bits and pieces of 
information that are critical to painting a picture of those 
who might be intent on committing another terrorist act among 
other crimes.
    Mr. Rogers. Thank you, Mr. Director.
    Mr. Wolf. Thank you, Mr. Rogers.

               SECURITY OF SHARING SENSITIVE INFORMATION

    I am going to recognize Mr. Mollohan. Before I do, I just 
want to say this and you don't even have to answer, 
necessarily, now. I listened to all of this, which we commend 
you for, the sharing and everything. But there ought to be some 
mechanism to safeguard information. Several years ago there was 
a story that happened to be made public, that IRS employees 
were acquiring data and files of individuals. They were looking 
at them or sharing them, if you will.
    I think it ought to be very clear, particularly since you 
are going to be sharing very sensitive information, that there 
be some mechanism to be sure it is not abused and secondly, 
that if it is there is severe punishment, because I know you 
are broadening out to the number of local law enforcement 
people that will be available, squad cars and things like that.
    It is good. I think it is necessary. Mr. Rogers was really 
in the forefront of this. But I think you have to make sure 
that there is no opportunity for somebody and I know your 
people are good people, but you find one person who goes out, 
ala Hanssen, who goes out and all of a sudden he begins to 
breach security.
    So, I really think there must be some clear message that 
any violation of this----
    Mr. Mueller. May I respond to that briefly if I might have 
a moment?
    Mr. Wolf. Yes.
    Mr. Mueller. We recognize, particularly in the wake of the 
Hanssen matter, the necessity for security. Security had been 
lodged in one of the divisions in the past and perhaps it was 
not a principal focus, which is why we have established a 
Security Division with a very experienced individual from the 
CIA who is steeped in not only the physical security of 
documents, but also computer security because it is critically 
important that the safeguards be placed, as we develop the 
technology, that the safeguards be there, the audit trails, the 
computer audit trails be there. You couple that with 
polygraphs. You couple that with financial disclosure 
statements and an emphasis on security throughout the 
organization.
    That is what we are trying to do to assure that we try to 
prevent another Hanssen.
    Mr. Wolf. If you had that you would have prevented Hanssen. 
He was in there looking at things.
    Mr. Mollohan?
    Mr. Mollohan. Thank you, Mr. Chairman.

                    EXPLOSIVES DETECTION TECHNOLOGY

    Mr. Director, I understand that there has been a crash 
program put on for substance identification purposes, vehicular 
explosives, and the President has directed a couple of labs to 
move forward. I actually read that, I think, in a department 
report.
    In 1998, the committee put a directive in the conference 
report, and I will read it into the record. ``In addition, the 
conferees note the importance and usefulness of the development 
of explosives detection technology in assisting law enforcement 
personnel in the detection of explosive materials before a 
bombing incident.''
    Then it was directed within the amount provided, ``The 
conferees expect the Federal Bureau of Investigation to pursue 
research and development of explosives detection technology.''
    For the record, I would like for you to bring us up-to-date 
on that effort.
    Mr. Mueller. Well, we have a very substantial Weapons of 
Mass Destruction Unit in our laboratory that is looking at 
various weapons of mass destruction, and not just explosives, 
quite obviously. We have developed substantial expertise in 
that component of the laboratory.
    I would prefer not to get into the specifics of what we may 
be looking at in open session, but would be happy to respond, 
whether it be in closed session or by providing a briefing, on 
exactly what we have done in that regard.

                   CONSOLIDATING INFORMATION SHARING

    Mr. Mollohan. Thank you. You have talked a lot, and I think 
you were really tracking the interest of this committee for a 
number of years, as Mr. Rogers' questioning would indicate, 
about modernizing and incorporating vetting technology in your 
operations.
    As you consolidate these main investigative functions, will 
there be a synergy with existing databases; and where will that 
exist, and what role does Criminal Justice Information Services 
(CJIS) play in that?
    Mr. Mueller. Well, we are looking at a variety of ways of 
sharing information. Let me just start with the state and local 
organizations. There is the National Crime Information Center 
NCIC, which goes down to the trooper on the highway, to the 
police officer on the street, whenever there is a stop.
    That is a substantial backbone communication system that is 
utilized by law enforcement throughout the country, and can be 
utilized to share certain specific information generally 
related to individuals. Its principle purpose is to alert 
police officers and highway troopers and the like as to the 
existence of a warrant for a particular individual.
    That has been used also to assist us in alerting persons to 
individuals who we will want to or may want to interview, 
because of possible affiliation or association with terrorist 
activity. That is one mechanism and a backbone upon which we 
can have the assistance of state and local law enforcement in 
the course of our investigations.
    As a result of a meeting that I had with several Homeland 
Security Directors about three weeks ago, who expressed a need 
for generalized information, we have started putting out a 
bulletin to state and local law enforcement on things such as 
what to look for; what did we see when we did the investigation 
of the 19 hijackers that persons could look for throughout the 
country; what kind of threats have we seen; and what can state 
and locals do in a particular scenario.
    So we have tried to provide a vehicle for that general 
information, and there are a number of mechanisms out there, 
that NCIC cannot be used for that, like Law Enforcement on Line 
LEO, which is a Internet-based method of communicating; 
Regional Information Sharing System Network RISSNET, which is a 
series of databases regionalized. There are six of them 
throughout the country that are used by many state and locals. 
We have used that.
    There are a number of states now that are putting in a 
communication system. I know New York is, where they will put a 
computer on the desktop of every police officer. We will use 
that.
    There is the NLET system, the National Law Enforcement 
Threat System, that is available also for certain pieces of 
information, but is limited in certain respects.
    I think the last one I should talk about is just e-mail on 
the outside. A number of the special agents in charge around 
the country will have a separate stand-alone computer to use 
for e-mail. You can use any of the Internet Service Provider's 
to send e-mails on the open to state and locals.
    Unfortunately, there is no one good communication system 
that allows us to communicate everything we want to communicate 
to the state and locals. What we will try to do is look at 
better ways together with State and locals, whether it be 
International Association of Chiefs of Police or others, to 
merge some of these systems to make it a better way to exchange 
information.
    But there is no really efficient way out there. We are all 
hoping that we will settle on something, and I do not care 
whose it is, so long as it works. It would make it a lot easier 
for all of us.
    So NCIC are bulletins, and then I would say, in my mind, 
one of the most effective tools is the Joint Terrorism Task 
Forces, put up in each of our 56 offices, because it has FBI 
agents sitting shoulder to shoulder with state police, local 
police, sharing information. Everybody on the Task Force 
generally has a top secret clearance.
    When you sit shoulder to shoulder, many of the walls to 
sharing break down, and the information can be pushed out 
fairly quickly from our headquarters to the Joint Terrorism 
Task Forces. That, in my mind, is a very useful mechanism for 
the sharing of information, not only with our state and local 
counterparts, but also with our federal counterparts that 
usually sit on those Task Forces.

      FY 2003 FUNDING TO SUPPORT THE COLLECTION OF TOLL FREE TIPS

    Mr. Mollohan. Thank you, Mr. Director. Your fiscal year 
2003 budget includes a request for 10 agent positions and $1.5 
million to support your toll free line for collection tips.
    Mr. Mueller. Yes, sir.
    Mr. Mollohan. It is true, is it not, that after September 
11th, a significant number of your citizen tips came through a 
web page that was put up by the Internet Fraud Complaint 
Center, which is a partnership between you and the White Collar 
Crime Division?
    Mr. Mueller. Yes, sir, we actually ran that out of Atlanta. 
We pulled people in, and I think if I recall correctly, we had 
in excess of 300,000 tips that had come in on that line.
    I will tell you another vehicle that we are using now is 
the Internet, and received a substantial number of tips through 
the Internet.
    We now are using the Internet also for recruiting. In the 
last 3 or 4 weeks since we sent out word on the Internet that 
you could file an application on the Internet, we received 
something like 11,000 applications; many of them self-
professing to have the language skills, the computer skills, 
and the engineering and scientific skills for which we are 
looking at this point.
    So we are looking at any means of communication, to assist 
us in our investigations. I will put in a plug also on the 
anthrax investigation. For instance, there is a $2.5 million 
reward out there for information that leads to the 
identification and prosecution of the individuals responsible 
for those attacks.
    We get that information out on the Internet, and we receive 
the tips on the Internet or from the toll free lines. So the 
free toll line, as well as the Internet, are useful vehicles 
for us to obtain information.
    Mr. Mollohan. So the toll line, the toll free telephone 
tips, was run out of Atlanta?
    Mr. Mueller. It was.
    Mr. Mollohan. That is the one you are referring to?
    Mr. Mueller. Yes, but with help out of CJIS.
    Mr. Mollohan. The Internet Fraud Complaint partnership 
between the FBI and the White Collar Crime Center, I 
understand, ran your web page, the TIPS program.
    Mr. Mueller. That is correct, yes.
    Mr. Mollohan. Which, as I understand it, there were about 
70,000.
    Mr. Mueller. I am not certain of the total numbers, but 
there were hundreds of thousands on both.
    Mr. Mollohan. Well, my question goes to the fact that you 
have requested $1.5 million for the TIPS, the telephone line; 
but you have not requested any funding for the web-based 
effort, which was basically financed out of the Internet Fraud 
Complaint Center. I think, if you look at it carefully, that 
generated far more tips.
    Mr. Mueller. I think I have got to go back to the drawing 
board. I am not certain why we did not focus specifically on 
that. If we could hold just one second.
    Mr. Mollohan. Well, Mr. Director, you can get back to me on 
that. That is fine.
    Mr. Mueller. I will have to get back to you.
    Mr. Mollohan. That will be fine.
    Mr. Mueller. It sounds like a good idea. I am not certain 
why we did not include the request.
    Mr. Mollohan. I think if you look at it carefully, it was 
very powerful, and provided more information than anything 
else, at the time this thing went down.
    Thank you for your testimony.
    Mr. Mueller. Thank you, sir.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Latham?
    [The information follows:]

                              TIPS Program

    The Internet Fraud Complaint Center (IFCC) received a total of 
195,080 September 11 and anthrax terrorist tips between September 11, 
2001 and March 26, 2002.
    The national telephone hotline received a total of 173,244 calls 
for the period of September 11, 2001 through December 31, 2001.
    Predicated upon the volume of leads received thus far, it is clear 
that the public views the national telephone hotline as a safe, 
reliable, and effective method to report a variety of information to 
the FBI. To continue support for this valuable tool for collecting 
information and tips on suspected terrorist activity, the FBI is 
requesting an enhancement of 10 agents and $50,000 in non-personnel 
funding for telecommunications costs to reestablish a telephone hotline 
for the public to call with information related to suspected terrorist 
activity.
    Should any additional requirements be identified for the terrorist 
tip web page, the FBI will address them as they occur.

    Mr. Latham. Thank you, Mr. Chairman, and welcome, Mr. 
Director.
    Mr. Mueller. Thank you, sir.
    Mr. Latham. We had the Attorney General here last week, and 
I thanked him for what I believe--that is that you have saved 
American lives since September 11th. We certainly want to say 
the same thing to you, and thank you for your efforts since 
then. Truly, I think Americans have been spared, because of 
what you have done since then.

     MONEY LAUNDERING AND TERRORISM FUNDED WITH ILLEGAL DRUG MONEY

    I have just two questions. One has to do with the efforts 
that we are undertaking money laundering; and I guess, more 
importantly, in a state like Iowa, with a lot of the increased 
drug activity that we are seeing, I would ask you how much of 
the worldwide terrorism is funded with illegal drug money, that 
is spent in the United States?
    Can you give us any idea of how much Americans really are 
financing terrorism through the drug use?
    Mr. Mueller. I think it is very difficult to pinpoint 
exactly how much of the money spent by Americans on illicit 
drugs does funnel into terrorism. There is no doubt but that a 
portion of it does, particularly when one looks at the fact 
that Afghanistan is the home of substantial quantities of 
heroin output.
    But I think it is very difficult for us to quantify, and it 
is very difficult for us to investigate and define the trail of 
monies that may be paid to a dealer for heroin, and then up 
through the chain, and then out through either Mexico, Canada 
or elsewhere, and over to Europe or over to Southeast Asia, and 
then back into terrorism. It is very difficult to pinpoint 
those dollars as they feed back.
    But I do believe that drug trafficking has and will 
continue, unfortunately, in the future to support terrorist 
acts.
    Mr. Latham. If you have any more information on that, I 
would really be interested. If there is anything in the agency, 
or something you can provide for the record, I would appreciate 
it.
    [The information follows:]

               Drug Trafficking and Funding for Terrorism

    On March 19, 2002, in a statement before the Drug Enforcement 
Administration, Attorney General Ashcroft reinforced that law 
enforcement has long known of the strong linkages between terrorist 
organizations and drug trafficking. Of the 28 international terrorist 
groups designated by the United States (U.S.) Department of State 
(DOS), 12 use drug smuggling as their primary source of revenue. Unlike 
Criminal Enterprises (CEs) who engage in drug trafficking for pure 
profit, these terrorist organizations rely on capital proceeds from the 
cultivation, transportation, protection and sale of drugs to attract, 
train, and retain members to support their activities in the U.S. and 
overseas. These groups include Middle Eastern organizations such as 
Hizballah, Hamas, and the Taliban, and South American organizations 
such as the Revolutionary Armed Forces of Colombia (FARC) and the 
United Self Defense Forces of Colombia (AUC). In October 2000, Wendy 
Chamberlain, DOS, Bureau for International Narcotics and Law 
Enforcement Affairs, noted that under the Taliban regime, poppy 
cultivation in Afghanistan expanded from 20,000 acres to 65,000 acres 
from 1996 to 2000, making Afghanistan the world's largest producer of 
opium and heroin. In addition, a June 21, 1999 FBI report, ``FBI 
Analysis of Terrorist-Related Kidnapping's of Americans in Colombia,'' 
estimates that roughly 50 percent of the FARC's fronts are involved in 
the drug trafficking industry. U.S. government analysts estimate that 
the FARC's annual drug trade income is approximately $300 million, 
while an estimated 70 percent of financing for the AUC is derived from 
drug trafficking.
    These findings are also supported by FBI investigations which 
increasingly identify that terrorist groups are engaged in drug 
trafficking as a financial means to their ideological, economical, and 
political ends. The FBI's criminal investigations target the drug 
trafficking activities of the aforementioned groups, as well as other 
drug trafficking CEs that are linked to international terrorist groups 
who protect drug plantations and laboratories, and facilitate the flow 
of drugs into the United States.

            THREAT OF TERRORISM ON UNITED STATES FOOD SUPPLY

    Mr. Latham. One thing that is of real importance to all 
Americans is our food supply. Obviously, in Iowa, it is also a 
big issue. You know, we have threats, as far as terrorism, from 
outside, but also there are some threats internally.
    There are certain animal rights groups that have said that 
they want to infect our animals here with hoof and mouth 
disease, or mad cow disease. People are very concerned 
obviously, about the safety of all of our foodstuffs.
    I have real concerns, and issues have been brought up here 
today by a lot of other folks, about coordination and 
communication and working together and having a similar purpose 
between agencies.
    I am just curious how much cooperation there is with USDA, 
with the food inspection people, with the FBI, with other 
agencies, to look at a problem that I think could be 
catastrophic; not only for Americans' health; but also the 
livestock industry is a $107 billion industry, which could be 
destroyed overnight, and it is both an outside and domestic 
threat.
    Mr. Mueller. I think everybody across the Federal 
government is sensitive to anything that could possibly be the 
work of terrorists.
    I know there were a couple of instances recently out on the 
west coast. I think there was one in Oregon and one outside San 
Jose, in which cattle had been adversely affected. I think one 
was determined to be pneumonia, but there was another one that 
I am not certain whether it was pneumonia or something else.
    But whenever there is an outbreak such as that, that 
affects animals, we are very quick to coordinate and determine 
whether or not this is related to any terrorist activity.
    We also have been and continue to be alert to the 
possibility of a terrorist using something along the lines of 
crop dusters or some other mechanism to distribute some sort of 
chemical or other biological mechanism, to adversely affect 
either people or farmland or animals.
    To the extent that we hear anything about a possible 
threat, it is run down immediately. To the extent that that 
happened in the Fall, we can investigate some concerns about 
the credibility of the threat before we could run it down.
    We would issue an alert, for instance, with regard to crop 
dusters, as we did shortly after September 11th, when we had 
some information which we thought warranted making certain that 
crop dusters were not used for some sort of terrorist attack.
    Mr. Latham. But you do feel comfortable with the level of 
cooperation and communication between, say, USDA and other 
agencies involved?
    Mr. Mueller. Yes, I do. I mean, it is not continuing, 
because the threat is not continuing. But to the extent that 
anything is out there that would signify something out of the 
ordinary, we get together with them very quickly.
    Mr. Latham. Good, and I thank you very much, and keep up 
the good work.
    Mr. Mueller. Thank you.
    Mr. Latham. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Cramer?
    Mr. Cramer. Thank you, Mr. Chairman.
    Mr. Director, thank you for the job you are doing, and 
welcome back before the subcommittee.
    Mr. Mueller. Thank you, sir.

                        HAZARDOUS DEVICES SCHOOL

    Mr. Cramer. I want to direct your attention to the 
Hazardous Devices School, which the FBI has operated there at 
Redstone Arsenal, which happens to be in my Congressional 
district. That school has been in operation since 1981.
    Last year, we were able to transfer funds from the 
Department of Defense to improve the training capacity of the 
school. It is, for the committee's information, the only formal 
domestic training program, where State and local bomb 
technicians can learn to locate, identify, render safe, and 
dispose of improvised explosive devices.
    We thought of those explosive devices as being your 
traditional devices that blow things up, but it could be a 
combination of explosives, as well as biological, chemical, or 
radiological elements, as well.
    I would like to ask you, in this year's budget, you are 
requesting $3.3 million. I think I read that this funding was 
for training at this particular Hazardous Devices School. Could 
you elaborate on that, if you can?
    Mr. Mueller. Well, I think in the wake of September 11th, 
we wish to put through more classes and make more state and 
local and federal officers proficient in the render safe 
techniques that are taught at the school. That is the reason 
for the monies.
    I also should add that my understanding is that in January 
of this year, along with the Army Corps of Engineers, we put 
out a bid for additional construction there, and I am sure you 
are aware of that.
    Mr. Cramer. Yes, I was reviewing that with my Commanding 
General on Monday of this week. I think that is the $23 million 
that was appropriated for even the construction of the training 
villages that are going to be used there, as well as the 
administrative buildings, as well.
    Mr. Mueller. Right.
    Mr. Cramer. So it looks like that is ongoing, and what we 
would want to do is fill up those classes.

                      JOINT TERRORISM TASK FORCES

    I want to switch over to the Joint Terrorism Task Force 
funding that you made reference to earlier. One such Task Force 
exists in my home town there in Huntsville, Alabama. They had a 
terrorism conference there, which was a model conference to 
bring local and State people together there.
    As I recall from your statement, 44 of those were in 
operation around the country, is that correct, or is it more 
than that now?
    Mr. Mueller. We had 44, and as soon as September 11th, 
happened, the direction went out to start them up in every 
field office. So every field office has one, or is in the 
process of setting one up.
    Mr. Cramer. So all the field offices now have them?
    Mr. Mueller. Yes.
    Mr. Cramer. Tell me a little bit more about them. What do 
they do; what do you want to accomplish through those Task 
Forces?
    Mr. Mueller. You know, it differs as to whether you are in 
a city or not. The New York Joint Terrorism Task has been there 
since 1982. It has members of the Port Authority, the Police 
Department, the Transit Authority, the FBI, the Secret Service, 
and others, all in one location.
    Whenever there is a threat, whether it be an anthrax threat 
or something like such as what happened on September 11th, they 
pull together jointly to combine and fuse the information and 
the intelligence, and then work together on whatever cases come 
out of it.
    If you are in a more rural area, the entities that would 
participate in the Task Force might be somewhat different, but 
the goal is the same: to prevent another terrorist attack, and 
to the extent that there is a terrorist group, whether it be a 
domestic terrorist group or an international terrorist group, 
to address that group pro-actively, and with the expectation of 
preventing additional terrorist attacks; and if, for whatever 
reason, they were unable to prevent it, to join together in the 
investigation and prosecution of it. My own belief is that Task 
Forces are good if they are relatively specific onto a 
particular target.
    Mr. Cramer. Yes, you may have it, like in my area, we have 
two nuclear plants. So you may want to mobilize and conduct 
exercises through the Joint Terrorism Task Forces that have to 
do with responding, in case there is some threat at a facility 
like that; whereas, in another jurisdiction, if it does not 
exist, you might not, of course, waste your time doing that.
    Mr. Mueller. Exactly.
    Mr. Cramer. But in your budget, you are asking for a plus-
up of more than $15 million. What will that be used for? Will 
that be to strengthen them, or to increase the number of them?
    Mr. Mueller. Well, there are three ways. One is, we have 
increased the numbers. We need space, and we need joint space. 
So space is one of the needs. Vehicles for the Task Forces are 
necessary, and overtime for state and locals. Those are the 
three components that go to putting together a strong self-
sufficient Task Force.

                         INFORMATION TECHNOLOGY

    Mr. Cramer. All right, I want to come back to your 
information technology initiative efforts, which have been 
talked about so much here today, and should be, under Mr. 
Rogers' leadership and our Chairman's leadership, as well. I am 
fairly new to this subcommittee, but I want to endorse your 
efforts to try to get a better handle on that kind of 
technology.
    I spent 10 years as a prosecutor, from 1980 to 1990. I know 
that when I was leaving there to come to Congress, we were just 
beginning to get our hands on the kind of software and 
computers that we needed in order to inform us, in our small 
systems there, on what was going on right under our noses 
there.
    Who is actually directing this effort for you? This must be 
quite an undertaking. I see in the budget, it includes that 
$145 million for critical information technology projects. That 
includes an additional six positions.
    Are those positions that would involve people in designing 
and organizing these various systems that you are talking 
about? Because this is an amazing undertaking.
    Mr. Mueller. It is a substantial undertaking. We have an 
individual by the name of Bob Dies, who is a former Vice 
President of IBM, who is exceptionally knowledgeable. He has 
been with us for about almost 2 years. He committed to 2 years 
in the Bureau, and we are probably going to lose him in the 
next month or two.
    So what I am looking for is a person to replace him, and he 
is helping me to do that. That would be a CIO, a Chief 
Information Officer, as you would have in a corporation, who 
would look at not only the projects that we are undertaking, 
but also the use of technology across the spectrum within the 
Bureau.
    Critically important is a project manager. We have hired a 
project manager, who starts next Monday, for the projects. Five 
years ago, she was touted in one such magazine that looks at 
these things as one of the 5 top Information Technology project 
managers in the country.
    She delayed coming on board, principally because she was 
involved in the Salt Lake City Olympics. So when she comes on 
next Monday, these projects will be under her as a separate 
component.
    We then need a person to head up our Information Resources 
Division, which is taking care of the computers and the Local 
Area Network System and the Wide Area Network Systems and the 
hardware, and basically putting the software in.
    We have hired an individual from the Department of Defense, 
who is a database specialist, who will be working with us on 
the database warehouse and the sharing of information. We also 
have hired, from SAIC, an individual who is a documents 
manager, to look at that particular facet of what we have to 
do.
    But they are too few, and we have to fill in under them and 
we have to fill in around them, in order to have the type of 
expertise and capability to transform the institution.

                          INFORMATION SHARING

    Mr. Cramer. Well, is it under the umbrella of Homeland 
Security now, that we will attempt to coordinate what each 
agency is doing, in order for them to cross-communicate in an 
effective way with one another?
    Mr. Mueller. That is one of the mechanisms through Homeland 
Security, but we, the agencies, are involved in that. I have 
spent substantial time talking with George Tenant at the CIA, 
and our CIOs have spent a lot of time together, looking at the 
databases that the CIA has, and how they could better talk to 
the databases that we have in the FBI.
    Also, with the Department of Defense, we have become 
familiar with the document exploitation project, for instance, 
trying to identify a vehicle to image or scan and code the 
documents coming out of Afghanistan, so that they are put on a 
net that is available to each of our institutions.
    So yes, the ultimate goal of having databases that are 
searchable or indexed and available to each of the agencies is 
the goal of Homeland Security. In the meantime, we are working 
together to try to do that information sharing with the tools 
and equipment that we currently have.
    Mr. Cramer. Very good; keep up your good work. I want to 
support you in any way that I can.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Miller?
    Mr. Miller. Thank you for staying this late.
    Mr. Mueller. It is still early. I probably should not say 
that. [Laughter.]

                     CHALLENGES AS THE FBI DIRECTOR

    Mr. Miller. When you got sworn in on September 4th, you had 
a huge, huge challenge ahead of you, let alone what happened on 
September 11th.
    But a lot of the things we talked about, and you have heard 
of this before, you know, the computer systems do not talk to 
each other. You hear about culture at the FBI, that goes back 
to the Hansen times, I guess, that had to be changed. You had 
to take on that challenge, and you did on September 4th.
    Without criticizing your predecessor and such, how did we 
get into this, you know, just the computer systems to not be 
able to work, and the culture? Is it under-funding by Congress, 
or is it mandates by Congress, or is it just a system that has 
been there for decades and could not respond to the new world?
    Mr. Mueller. I think part of the issue that is cast in a 
new light by September 11th is what I referred to in my 
statement. That is, 10, 15, 20 years ago, the FBI agent could 
do just about anything. You could train an FBI agent, who had 
computer skills, in the investigative side.
    That FBI agent would investigate bank robberies for a 
period of time, become a supervisor, do the administrative 
stuff, and then become an assistant special agent-in-charge, 
then do administration back at Headquarters, and would have 
computer expertise; but would rotate through the positions they 
had at the computer side of it, if they called it IRD 
(Information Resources Division), would rotate there for two or 
three years, but did not spend his or her life dealing with 
computers. They were not knowledgeable about what was out there 
in the arena.
    So part of it is, to the extent that the Bureau has 
believed in the past that everybody could be a generalist, that 
no longer will suffice.
    When you talk about culture, and people talk about culture 
in terms of dealing with the state and locals, I have not seen 
much of that. It was there 10, to 15 years ago.
    I think a great deal of that culture is gone, and the 
vestiges are being eradicated, particularly since September 
11th. Almost everybody, I would think, in the FBI, understands 
we have got to do it together.
    Part of the problem with technology is, and it has happened 
to me in the past, one thinks that you get the computers and 
you get the software in to do the job, and you have done your 
job.
    The fact of the matter is that everybody from the top to 
the lowest, to the person all the way down the organization 
chart, has to be engaged in the transition to new technology, 
or it will not work, it will not take place, and you will spend 
millions and millions of dollars, and it will go in a deep, 
dark black hole.
    Consequently, it is critically important, in my mind, if 
you are going to shift an institution to become more 
technologically proficient, it is important to have the user 
interfaces that everybody will use, day in and day out, that 
are easy to learn and easy to use, and once they use it, they 
become proficient in it; coupled with, it is critically 
important to have the training at the outset.
    If you do not have the training, they will not use it, it 
will not take hold, and you will have wasted a lot of money on 
a number of toys and the like that just do not give you the 
response you need.
    So while we are putting in the infrastructure, and we are 
getting the technology, and we are getting the software 
packages, as important or more important is to get the training 
and the user friendly virtual case file up, so that the 
institution, as a whole, adopts it and it becomes a foundation 
upon which there is future growth. If you do not do that, then 
you are not going to get what you should out of the money spent 
on technology.
    Mr. Miller. Let me ask the question a little bit 
differently.
    Mr. Mueller. Can I say just one other thing on that?
    Mr. Miller. Oh, yes.
    Mr. Mueller. In terms of culture, and I am not certain it 
is culture, but if one does not use a computer, day in and day 
out in a variety of ways, you do not become familiar with the 
computer. We have people that are reluctant to pick up a 
computer, because they have always used the telephone, and they 
think the computer is an enemy.
    To the extent that you are describing a culture, I have to 
break down that culture and make certain that everybody in the 
institution understands it can be your friend, if you just 
spend a little time at it.
    So that is, to a certain extent, a cultural problem, but it 
is one that is not unique to the FBI. It is one that many 
institutions face, whether they be in government or in private 
industry.

                                MEDICARE

    Mr. Miller. I was not thinking as much of technology, but 
just the interactions, and maybe a lot of it has been changing 
for years, as you said, in relationships with state and local 
people.
    There was an article a couple of months of ago, and it 
relates to Mr. Serrano. You are hiring several hundred more 
agents, but you have got 4,000 right now assigned to the 
September 11th event. So obviously, you cannot keep doing 
everything.
    This article is referring to, for example, Medicare. I 
remember visiting the U.S. Attorney's Office in Tampa. I was 
kind of amazed at what a huge Medicare Fraud Division Office 
they had there. Do you have a large amount of Medicare fraud 
people? They were talking about shifting that to the Inspector 
General of HHS or something.
    Mr. Mueller. Well, we have a Health Care Fraud Program, 
which we think is important. Health care fraud is not something 
that I think we would say we should be out of, because they are 
complex cases. They are some of the cases where they cut across 
state lines. They cut across county lines. They relate to 
Federal programs and, consequently, we should be in those 
cases.
    But by the same token, we have had successes working task 
forces. For instance, in Florida, there is a Health Care Task 
Force that is very successful, which minimizes our input in 
terms of manpower. The Task Forces gives the flexibility of the 
case going through state prosecution or Federal prosecution, 
and maximizes our impact in that particular area, but minimizes 
the number of agents we have to put on it.
    So down the road, I would look to expanding our 
capabilities by participating in task forces. Then if there is 
a particular case that the I.G. [Inspector General] cannot 
handle or should not handle, and we have the capability of 
doing it, and for whatever reasons, we should do it, then we 
would pick up on a particular case. But I look at task forces 
as a way of multiplying our capability in that area.
    Mr. Miller. Well, the field offices will kind of help guide 
on their own, for example, how many bank robberies. I mean, if 
it is a local branch bank robbery by an individual, you would 
probably not get involved in it.
    Mr. Mueller. I think there has to be a combination of input 
from the field, but also if you are going to allow the SAC to 
determine priorities, there has to be accountability and 
follow-up, and assurance that what resources are given to the 
Bureau are utilized for those investigations that are 
particularly within the expertise of the FBI.
    If the investigation can be done by another entity, whether 
it be state or local, or the I.G.'s Office, or DEA, then my own 
belief is, we ought to explore allowing that other agency to do 
it. It is where we have a particular expertise or capability, 
that I think we ought to play a role.
    The one thing about the Bureau is its flexibility, and its 
ability to address a particular challenge in a way that other 
agencies with much more limited jurisdiction cannot address. 
Consequently, I think we have to look at our jurisdictional 
efforts in somewhat of a fluid way, depending on the challenge 
of the moment.
    Clearly, the challenge of the moment right now is 
counterterrorism. Consequently, those generalized agents, who 
are very capable of doing bank robberies or counterintelligence 
investigations, can be brought on board to address the 
counterterrorism threat.
    Five or ten years down the road, it may be another savings 
and loan threat, where we would have to pull manpower from 
something else and put it there. That is one of the great 
benefits of the Bureau, in my mind.
    But that fine tuning or, how do I want to say, paring what 
we do in particular programs is a continuous process, and has 
to be looked at very carefully, so we do not over-extend it. We 
can do it and focus on our priorities, and not waste some of 
our resources in areas which are covered by our counterparts, 
whether they be federal or state or local.
    Mr. Miller. Almost a third of your agents now are assigned 
to terrorism issues.
    Mr. Mueller. That is correct.
    Mr. Miller. I think with a third of your human resources in 
one area, you have got to give somewhere else, but I guess the 
flexibility is there.

                            LEGAL ATTACHES

    Just to conclude, I have met some of your legal attaches 
around the world, and I have dealt with issues of extradition. 
I have been pleased to see that I think what it is doing is 
establishing better working relationships with their 
counterparts around the world. That is a good program to 
strengthen.
    Mr. Mueller. It has been very important to us. I will tell 
you, in the wake of September 11th, we had I think it was 87 
special agents who were on special detail overseas to assist 
our legats in running down leads with their foreign 
counterparts. Having those legats in particular cities was 
instrumental in our ability to put together the portrait of the 
19 hijackers, as quickly as we were able to do it.
    Mr. Miller. Well, we are impressed with the job you are 
doing. We are proud of you, and you make us proud. Thank you 
very much.
    Mr. Mueller. Well, thank you, but it is the people in the 
Bureau that are doing the work, working the 12 hours, and 
accomplishing that to which you advert. So they appreciate it. 
Thank you.
    Mr. Wolf. Thank you, Mr. Miller.
    On the Legats, I agree with Mr. Miller. I looked at the 
program that you are going to have, and I did not see anybody 
in West Africa. In West Africa, you have diamonds, al-Qaeda, 
Foday Sankoy, Charles Taylor. Charles Taylor books up to Libya, 
comes back. Foday Sankoy goes to Libya, comes back. The 
Lebanese market of diamonds is coming at us. Sierra Leone is 
coming at us. Angola is coming at us.
    It is not a garden spot to go to, although it is very, very 
important. I really think you cannot serve West Africa from 
Nigeria; you cannot. You have the Burkina Faso, you have Benin, 
you have that area.
    It is a very dangerous area. You know, I really think you 
ought to have somebody there. I have written you, and we have 
not received word back.
    We were in Sierra Leone two years ago with Congressman Hall 
to see the Lebanese diamond trade. A Washington Post reporter, 
Doug Farah, I think frankly ought to get a Pulitzer Prize. He 
broke that story and, frankly, I think had a lot more 
information than our people.
    That has got to be wrapped up, and I mean, absolutely, 
positively, categorically, so when someone says we cannot 
really get in there, because we do not really have somebody 
there, you cannot do that for Nigeria.
    So I did look at the Legat list. I think you are expanding 
it to the right countries, and I think Mr. Miller is right. But 
I really do think you need somebody in West Africa. If they go 
to the Ivory Coast, the living conditions might be better there 
than in other places; but I think Sierra Leone would probably 
be a good place.

                          POST HANSSEN REPORTS

    On the Webster Report, could you tell us about it? I 
appreciate that you were very candid in your opening statement. 
I did not read the books about Hanssen. I know you have former 
Director Webster looking at it and the I.G. is looking at it.
    But when I read the reports about it, the news reports and 
the magazine stories, I mean, it sickens me, it depresses me, 
it angers me. The thought that Hanssen's brother-in-law came in 
and told. I would like to know whom he told.
    If an FBI agent, of which I assume Hanssen's brother-in-law 
was, comes in to the Bureau and says, this fellow who happens 
to be my brother-in-law is doing this and the Bureau does not 
track it down, I find that is almost beyond me to understand.
    And some of the activity that Hanssen was involved in, was 
that not known? So I would like you to tell us when the Webster 
investigation will be over, or when the I.G. investigation will 
be over. Based on what you are seeing, what do you think?
    Also, the microphone in the chair molding in the State 
Department, nobody ever found out who put that in there. To 
come in and take a chair molding off and put it in there, and 
put it back on and paint it. I installed some chair molding at 
home and it is very tough, unless you have a lot of free time 
for a couple of weekends.
    So how did that happen that somebody actually came in and 
put that microphone there? He is still around here, or she is 
still here. So could you bring us up-to-date on the Hanssen 
case, and the Webster and I.G. reports?
    Mr. Mueller. Yes, Mr. Chairman, I cannot recall when the 
I.G. report will be forthcoming. I think it will be some time 
soon. I know the Webster Report will be forthcoming relatively 
shortly, I believe, within the next month or six weeks, 
perhaps.
    I will tell you that there is not an agent or an analyst or 
a support person in the FBI that is not as sickened and 
horrified by Hanssen; disgusted, embarrassed, ashamed, and 
shares your concern about what happened.
    The Webster Report, I believe, will recommend, and I have 
not seen it, but we have tried to anticipate, by looking at our 
lapses of security that were highlighted by the Hanssen case, 
and we put in place the mechanisms to try to assure that this 
does not happen again. I had mentioned a few previously. That 
is the Security Division, with Ken Sensor in charge of it from 
the CIA.
    Mr. Wolf. How long has he been with the CIA?
    Mr. Mueller. I am not certain how many years, but it was a 
substantial period of time. I believe he has briefed you, but 
if he has not briefed the subcommittee, I would be happy to 
have him come up.
    But I think you will find him to be exceptionally 
knowledgeable and professional, and is intent on establishing a 
Security Division that is equally professional and 
accomplished, putting persons in there whose background and 
experience will assure the security of this institution.
    That means not only the security with regard to the 
documents, what is spoken by agents or others in the Bureau to 
others, as well as the security on the computer, with the 
tracking of individuals as they log on/log off, the audit 
procedures which are necessary, all of which are part and 
parcel of that which we are trying to do to assure that this 
does not happen again.
    We will look, when the Webster Report does come out, to see 
what we have not yet fixed, and get it fixed quickly. I think I 
mentioned earlier that we have the polygraph program, which 
will be expanded. We have audit procedures for our current 
investigative programs that have been upgraded. We are doing 
reinvestigations on schedule.
    We are hiring security officers, thanks to the monies that 
you have given us, and there are a number of other areas where 
we are trying to assure that we can anticipate or do anticipate 
that which will come out in the Webster Report. Nonetheless, 
there may well be suggestions there that we will look at and 
discuss, and presumably thereafter adopt.
    Mr. Wolf. Will there be two versions, a public and a 
private version?
    Mr. Mueller. I am not certain. There probably will be a 
private and there probably will be a public, because it would 
relate, I imagine, to our current capabilities and anticipated 
capabilities.
    With regard to the I.G. Report, I know that the instance 
relating to the brother-in-law has been turned over to the I.G. 
to look at that. Quite obviously, when that comes out, we will 
look at what additional perspective that gives us on what 
happened with Hanssen.
    As you are aware, he has pleaded guilty, has been 
debriefed, and is scheduled for sentencing, and I am not 
certain of the particular date. There is a damage assessment 
effort that is underway by the intelligence community. We hope 
to put into place procedures so that such a thing does not 
occur again in the future.
    Mr. Wolf. Well, if you would keep us informed, I would 
appreciate it. You know, you had Ames in the CIA, and then you 
have had this. I was in Perm Camp 35, where one of the men was 
turned in by them, as a result of that.
    Of course, as you know, you have read that several of those 
people who were from Russia, who worked for us, died as a 
result of this, and then to jeopardize the national security.
    I think it also has to be looked at in addition to not only 
the former Soviet Union and some of these other countries, but 
there are some countries who now have the ability to pay people 
a lot of money, who may not be viewed as completely the enemy.
    So compared to what the Soviet Union and former Soviet 
Union was paying, these other countries could pay a lot more. 
So I think it is a long, ongoing problem, not just with regard 
to Russia or China but some other places.
    Mr. Mueller. May I just comment on one aspect of that, if 
this is an appropriate time?
    Mr. Wolf. Sure.
    Mr. Mueller. I did not mean to interrupt, sir.
    Mr. Wolf. No, go ahead.
    Mr. Mueller. But one of the things that I have come to find 
is that in my mind, most of the criminal work we do, which is 
70 percent of it on the criminal side, is generated at the 
local field level, whether it be a Medicare fraud or a bank 
robbery or some other crime. Seventy percent of it is out there 
in the field office.
    The presumption should be that the SAC should run those 
investigations, be on top of them, and I hold them accountable. 
I want to hold one person accountable, and I hold the SAC 
accountable.
    When it comes to a national program, like 
counterintelligence or counterterrorism, I hold the Assistant 
Director in charge of those divisions accountable for what 
happens around the country.
    Wen Ho Lee is an instance where there may have been some 
balls dropped between the headquarters and the field, because 
there is not one person accountable. In a national program, I 
want one person accountable, to make certain that we do things 
right.
    When it comes it espionage, I just signed off yesterday on 
a new unit within the Counterintelligence Division, that will 
be directly solely at counterespionage investigations, where we 
will pull together. In the past, they have been somewhat 
dispersed among sections.
    My hope in talking with Dave Szady, who is the new person 
that took over counterintelligence, is that this new unit will 
give a focus to counterespionage, such as we have not had in 
the past; and will enable us to not only on the one hand put in 
the security fixes, but on the other hand, give us a 
capability, my hope is, to better identify those persons who 
are committing some sort of espionage within the United States 
or against the United States.

               NORTH ATLANTIC TREATY ORGANIZATION (NATO)

    Mr. Wolf. Well, that is good. I sense that the use of 
recruitment has not been as extensive over the last couple of 
years.
    During the Reagan Administration, there was a great effort 
to recruit, and actually with the Jamestown Foundation, to 
bring people over. Many of them have used the former Polish 
Ambassador to the United States, met with Ronald Reagan and 
defected. There were a number of people who gave us a lot of 
information.
    I will not get into specific countries. I am going to ask 
you about one country later on. But my sense is that even some 
of the countries that may very well be clamoring, and perhaps 
even hiring high powered Washington lobbyists, to get them into 
NATO, were sending their foreign ministers and coming over and 
speaking to our State Department, and sending their defense 
people over to speak to our people. Many of them are good 
countries. Let me just say, they are good countries. I am not 
going to mention any names.
    My sense is on certain occasions, and I am not going to ask 
you to verify this, but I believe they have intelligence 
services working against our Government. I believe they are 
also spying against our companies. I believe they are also 
making efforts with regard to stealing high technology 
information that they take back.
    So the message should go forth, I think, before the 
Administration allows people to enter NATO. We really cannot 
have a country from a former Eastern Block, that is spying 
against us, using espionage against us, using the former 
Securitate or whatever we call it, and also trying to steal 
high technology from our high technology companies, and then 
say, we really are anxious to be part of NATO, to be defended 
should anything happen.
    I think there is a little bit of a disconnect. I know there 
are still some of these countries that are making efforts 
against us. It is almost like there is a game. Politically 
outside, we meet and we talk. You know, they go to dinners and 
they share things, and underneath, bad things are happening by 
people. Well, if you are going to join NATO, that is totally 
unacceptable.
    So the Administration needs to get a full briefing from you 
as to what these countries are doing, and what they are doing 
as of March 6th or 7th. Because if they are doing it now, you 
know, and then once they come into NATO, will they not 
continue?
    It is very hard, when the Berlin Wall fell, there were very 
few Communists truly there. A lot of the people yearned for 
freedom. I had family in Eastern Germany, and when I used to go 
Romania, they wanted to be free of the yoke of Communism.
    But some of the secret agents and the security police, all 
they did was, they changed their jerseys. They took their one 
jersey off and they put the other jersey on.
    Some of them are now back in government. Some are the 
nomenclature who are now doing great businesses, and are coming 
over here and staying at the $500 a day hotels up in New York. 
They are the same people. They were there when the Wall fell, 
and now they really have not changed. They wish us no good.
    So I think it is important to make sure these countries do 
not participate. You have to share that information with the 
Administration.
    I was told the other day that there are a large number, and 
I am going to mention the country here, of companies operating 
in the U.S. who are actually owned or controlled by the Chinese 
military, the People's Liberation Army. Are we aware of the 
number of Chinese-front companies that are coming into the 
United States operating, with the sole purpose of espionage 
against us; and also to steal high technology information from 
perhaps Northern Virginia, or the Silicone Valley?
    Keep in mind, here you have a Chinese company, perhaps 
controlled by the People's Liberation Army, and we get this 
warm and fuzzy feeling, when there are still 11 Catholic 
bishops in jail in China. There are several hundred evangelical 
house church leaders in jail in China. They have plundered 
Tibet in China.
    They have a large number of Buddhist monks and nuns that 
are in prison in the Drapchi Prison, being tortured probably as 
we now speak. They are persecuting the Muslims in that area, 
that northwest portion of the country.
    They sell organ transplantations. If you needed a new 
kidney, for $45,000, you could go over there and get a new 
kidney. They have more slave labor camps in China today than 
they had in the Soviet Union when Solzhynitsyn wrote the book, 
``Gulag Archipelago.''
    So there is almost a rebuttable presumption that a Chinese-
run company that is here in the United States may not be up to 
very much good. Are we aware of the number and the activity of 
those companies that are doing business here in the U.S.?
    Mr. Mueller. I would respectfully ask, if we could discuss 
that in something other than open session. I would be happy to 
discuss that with you, but I would prefer to do that way.

          VICTIMS OF TRAFFICKING AND MIGRANT SMUGGLING CENTERS

    Mr. Wolf. Okay. There are 50,000 women and children 
trafficked every year. The Attorney General created a new 
Victims of Trafficking and Migrant Smuggling Center.
    I know you have been active, and Director Freeh set this 
up, and I appreciate it very much, the Southeast European 
Cooperation Initiative. I think they have their headquarters in 
Bucharest.
    Can you give us some sense of how many FBI agents are 
assigned to that, and how many agents you have working on the 
issue of sexual trafficking, realizing, I understand, 911 has 
changed some things? But I just want to get some sense of the 
emphasis that the Bureau is putting on sexual trafficking.
    Mr. Mueller. Well, we have one agent detailed to the 
Southeast European Cooperative Initiative currently. We have 
authorization to place other agents in Albania, Bulgaria, 
Moldavia, and Macedonia, which we will be looking at.
    Mr. Wolf. I would hope that you would do that for several 
reasons. One, that is where the trafficking of women starts, 
coming out of Moldavia, coming out of Romania, going to 
Albania. There are fast boats crossing into Italy.
    I think also there would be a spill-over. My sense is, some 
of the groups that are doing the trafficking of women are also 
moving drugs, are also moving weapons, and are involved in 
different things.
    So I think there is an inter-relation. As you mentioned, we 
do not want to get out of drugs, and I do not think we ought to 
get out of drugs.
    Macedonia is very, very fragile. Kosovo, we know the 
problem there. There was a report out that some U.N. personnel 
were involved in trafficking of women in Kosovo. Here are the 
people that come in to help, and they are exploiting the 
people. So I think that continued emphasis in this would be a 
good idea.
    Now I know you are stretched, and to Director Freeh's 
credit, I think a lot people did not realize what a good job he 
did by putting these people abroad.
    I had even heard some criticisms of well, why have the FBI 
in that country? Well, that country, as you say, they are now 
developing the relationships with the law enforcement people, 
and have that ability to provide information. If we just sent 
somebody over here and they spent three months, they would not 
have that relationship. So I think it is a good thing.
    I do not know if you can put all five in there, but that is 
ground zero for sexual trafficking; 50,000 women and children a 
year are coming into the United States. There may be 700,000 
here in the U.S. that have been brought here. They take their 
passports away.
    Mr. Mueller. We have made a small contribution. It is not 
as large as I would like; but we participate in the Human 
Trafficking Task Force that is supported by Romania, as I think 
you are probably aware.
    Through our assistance, that Task Force has liberated 318 
exploitation victims and arrested 64 human being traffickers. 
So the work is being done. We are participating in it, and we 
want to continue to participate.
    I will say that one of the meetings I have had on this 
issue since I have been Director, was with Gary Hougan, who is 
with the International Justice Mission, who was very much 
involved in this. We sat and discussed what the FBI has done, 
and what the FBI can be doing more of to assist in addressing 
this scourge. We intend to fully participate with our 
counterparts overseas to try to address it.
    Mr. Wolf. In some of the countries, the local law 
enforcement are actually involved.
    Mr. Mueller. Yes.
    Mr. Wolf. Local law enforcement are running prostitution 
rings.
    Mr. Mueller. Yes, that is a problem.
    Mr. Wolf. Also, I think you need to go after the kingpins 
to release the women and children. That is very positive. It is 
not the person who is driving the car or the fast boat, but it 
is the guy who sits in the big fancy restaurant in Skopje or 
Bucharest, who is really the guy who needs to be caught.
    So I think your law enforcement people have to be involved 
in encouraging the Romanians. President Eliscu desperately 
wants this. He can taste it. He wants to get into NATO. Well, 
there is a report through the bill that the Congress passed 
with Congressman Chris Smith and Senator Sam Brownback that 
calls for a report.
    If your people are there, they admire the FBI. As we admire 
the FBI, they admire the FBI. I think you embolden them. I 
think there is an opportunity between now and when they begin 
to make this decision on NATO to really, really push.
    So I think you have got to get the top guys and get the 
governments to really, really be pushing, more than just 
arresting. Sometimes, they actually arrest one person or two 
people, and they have not done anything to break up the ring.

                     INFORMATION EXCHANGE WITH DEA

    Before I recognize Mr. Serrano, do your people meet 
regularly with the DEA to glean their information that they are 
getting from all of this?
    Mr. Mueller. We do meet. I am not certain that we have met 
as often as we should. I know I have had a conversation last 
week with Asa Hutchinson to address ways in which we can 
utilize our technology better together; let me just put it that 
way.
    I will tell you, in the wake of September 11th, I think we 
were very closely aligned. We had DEA and the Task Force in 
Desayak participating fully. As we have gotten further away 
from the events of September 11th, and the agencies are no 
longer co-located, that type of integrated exchange of 
information is not as easily done, and we have got to make 
better efforts to make certain we are integrated.
    Mr. Wolf. That fits in somewhat with Mr. Rogers.
    Mr. Serrano?

           TRANSLATION OF DOCUMENTS AND HIRING OF TRANSLATORS

    Mr. Serrano. Thank you, Mr. Chairman.
    There was a report, Mr. Director, that there had been a 
serious problem with getting translations for some documents. 
At one point, supposedly there were boxes of documents that had 
not been translated, that were still not dealt with.
    So part of my question is, have you had any success in 
hiring people who speak different languages? As an add-on 
question to that, what have you been doing to diversify the 
force and the number of agents you have?
    Let me just say something else. Forgive me for 
interrupting. I do not want to say that there has been anything 
positive about September 11th, but if we ever reach that 
conclusion that there was, it is the way that people have come 
together in this country, and the fact that a lot of folks who 
would have never thought of having a career in a certain agency 
of the Government now feel that is their patriotic duty.
    So for instance, I find people approaching me in the Bronx, 
asking me, how do I join the FBI; how do I join the CIA? You 
know, these are people that if I had suggested that to them 
years ago, they would probably, at a minimum, not voted for me.
    Mr. Mueller. That is what I want to hear. [Laughter.]
    Not that they are not voting for you, but that they are 
coming up and want to be FBI agents. That is what I want to 
hear.
    Mr. Serrano. So what success, if any, are we having on that 
front, and about the translators?
    Mr. Mueller. Well, let me talk first about the translators. 
Before September 11th, we did not have the numbers we needed.
    As to boxes being untranslated, well, we have to 
prioritize. There are a number of national security matters 
that we handle. It is very difficult to obtain translators for 
every word, as in real time. So we have to prioritize.
    I do believe that where we need to have the translating 
capability to assure that we are getting information in real 
time, as to the possibility of a threat, we are doing that, but 
it requires us to prioritize our translators.
    We made a substantial effort, after September 11th, to 
enhance our capabilities. We have hired, since October 1st, 39 
contractors, 33 Arabic, 4 Farsi, and 2 Pashto, and another 3 
language specialists.
    We have backgrounds completed with security adjudication 
pending on another 97, and we have 246 contract linguists going 
through background investigations currently. That is, as I say, 
in Arabic, Farsi, and a number of other languages where we need 
the specialists.
    We had what we call Tiger Teams to work with the 
individuals. We had a substantial, substantial response when we 
went out and made requests for people to volunteer. 
Unfortunately, you find that many of them do not have the level 
of skill that they think they do, and then there are maybe 
other problems with regard to background. But nonetheless, we 
are vastly improving our translating ability.
    With regard to our special agents, as I mentioned, we had 
approximately 11,000 on-line applications, since we allowed on-
line applications, which was maybe a month or two months ago, 
which is overwhelming.
    We have changed the recruiting profile from lawyers, 
accountants, former law enforcement, and military, which are 
basically the four categories that we had before, to focus on 
computer specialists, engineering, language specialists, 
physical scientists and the like.
    Of those 11,000, agent applicants for instance, through 
candidate self-assessments, there are 1,400 computer 
specialists, 600 engineering specialists, and 2,000 language 
specialists. We have to both recruit, hire, and train almost 
900 agents this year, and we are well on our way to 
accomplishing that.
    As we go further along and have focused on particular 
skills that the new Bureau needs, we will be enhancing our 
computer capabilities, language capabilities, and science 
capabilities with the new agents we are bringing on board.
    We are not there, but we are moving to the type of diverse 
special agent force, as well as the grouping of translators, as 
well as support that we need to accomplish our new missions.

                           RECRUITING ON LINE

    Mr. Serrano. Let me ask you, you spoke about on-line. That 
is almost like self-recruitment, I guess. You already sort of 
have to want to sign up.
    I remember when I was in school, the military would come 
around and try to get everybody to sign up. Do you do outreach 
in other ways that I have not noticed?
    Mr. Mueller. We do. Every field office has agents that are 
designated as recruiting agents for purposes of going around in 
all diverse elements in the community and recruiting, whether 
it be high schools or colleges, in a diverse cross section, and 
businesses.
    Currently, you have to be 23 years of age. So if you are 
coming out of college at 22, you are going to have to get a job 
and work before you can get into the FBI.
    The philosophy behind that is, we want those who join the 
FBI to be committed to staying with the FBI, once we give them 
the training, and also be mature, because you are giving them a 
weapon. You are giving them an awesome responsibility to 
investigate and adversely affect people's lives. We want the 
maturity and dedication to both learn and to exercise those 
responsibilities in a mature and appropriate fashion.

                               LAW SUITS

    Mr. Serrano. I read last week that the CIA has a couple of 
lawsuits. Both are from African Americans who felt they were 
treated improperly by the agency and were eventually let go. 
Does the FBI have any kind of issue in place regarding that? 
Are there any cases pending?
    Mr. Mueller. In the past, there have been cases and they 
have been resolved. There are procedures now in place that are 
pursuant to resolution of those cases.

                          UNDOCUMENTED ALIENS

    Mr. Serrano. Let me ask you a question. The Chairman was 
speaking about the trafficking of women and children.
    There have been quite a few cases in South Florida of 
people who have been accused of allegedly taking boats and 
going to Cuba, and bringing in undocumented aliens. But these 
were not people involved in bringing people to ``freedom,'' but 
rather getting paid to do that. Do these become your cases to 
handle, or do they go directly from the Coast Guard to a court?
    Mr. Mueller. I would have to get back to you on that. I 
know Immigration would play a role in that, quite probably; but 
in certain circumstances, I think we might, also. I would have 
to get back to you, to see exactly what our jurisdiction would 
be on that, and whether we do handle those cases. Off the top 
of my head, I just do not know.
    Mr. Serrano. All right, I would like to know that, if you 
could get that information back to me.
    [The information follows:]

                          Undocumented Aliens

    The Immigration and Naturalization Service (INS) has sole 
jurisdiction in matters related to the detention and deportation of 
aliens under Sections 284-286 of the Immigration and Nationality Act 
codified in Title 8 U.S.C. 1324-1326 and has jurisdiction to 
investigate the smuggling of aliens under Title 18 of the Federal 
Criminal Code. The Coast Guard often intercepts both illegal and 
smuggled aliens at sea and repatriates them pursuant to Executive Order 
and bilateral agreements between the United States and other nations. 
However, in certain circumstances, the Coast Guard may, at INS's 
request, land suspected smugglers for further INS investigation.
    The Federal Bureau of Investigation (FBI) gained jurisdiction under 
Title 18 U.S.C. to investigate immigration related crimes through the 
1996 Antiterrorism and Effective Death Penalty Act. This act 
specifically established alien smuggling as a Racketeer Influenced and 
Corrupt Organization predicate.
    Overall jurisdiction between INS and FBI investigative authority is 
laid out in a Memorandum of Understanding (MOU) dated June 30, 1997. 
The MOU recognizes that INS has sole investigative authority in all 
cases involving violations under Title 8. However, when an INS field 
office receives information during the course of an investigation 
indicating a possible violation of predicate offenses over which the 
FBI has primary investigation authority, such as the Racketeer 
Influenced and Corrupt Organizations Act, the FBI field division 
covering the area in which the alleged violations occur would be 
notified immediately. When alien smuggling or document fraud is the 
primary predicate violation, the INS is the lead agency in the 
investigation. The MOU serves to provide a basis for the INS and FBI to 
joint investigative forces and initiate enforcement actions designed to 
disrupt and dismantle criminal enterprises, including smuggling 
organizations.

                   PUERTO RICO AND STATEHOOD SUPPORT

    Let me take this opportunity, Mr. Director, to do what I 
have done in private and what I have done in public for the 
last couple years, and that is to thank the FBI for having made 
available to the public, and you are in the process of making 
available, 1,800,000 files that were kept from the 1930s to the 
late 1970s, mostly on the independence movement or followers of 
independence for the Commonwealth of Puerto Rico.
    Director Freeh, sitting in that chair, told us that this 
was a terrible time for the agency, and that it was not a kind 
of thing that the agency or this country should have been 
involved in. Since this, much has been published in Puerto Rico 
and throughout the Puerto Rican communities about folks whose 
lives were ruined and how horrible that was.
    It starts off in early 1930s, with one agent writing to 
Director Hoover and saying, there is a gentleman here who is a 
Harvard graduate, who speaks five or six languages, who wants 
independence for Puerto Rico, who writes for the local 
newspaper, and was going to run candidates who favor 
independence in the next election.
    That started a 60 year persecution. You wonder, you know, 
how could it have gotten so out of hand, when everything he 
accused the guy of doing was in the greatest of American 
traditions: freedom of the press and elections and that kind of 
thing?
    One, I want to thank you for continuing to release those 
files to us. Secondly, getting back to my first statement 
today, how do we make sure that during this difficult time, we 
do not begin to react to people who disagree with any bit of 
our national or foreign policy, and begin to peg them as 
enemies of the State or enemies of our country, and do this all 
over again?
    Keep in mind, there have been other cases throughout our 
history, but in this particular case, these were folks who 
simply believed that the best solution to what I consider to be 
a problem, this commonwealth status, was independence, and for 
some people, even statehood.
    The FBI files indicate that people who were strong in their 
support for statehood were also looked on as a problem. In 
other words, anybody who was against the status quo was seen as 
a problem, and it has been a very sad moment. How can we avoid 
that happening again during this period of time?
    Mr. Mueller. Well, I think there are a number of ways that 
we have to do this. One, it is important, particularly in the 
wake of September 11th and in any investigation resulting after 
that and relating to terrorism, our agents have to be, should 
be, and I think, have been, professional in their dealings with 
those that they are interviewing, those with whom they come in 
contact from the various communities in which we will have to 
operate.
    The direction has gone out to the agents to treat people as 
you would want to be treated yourself. On several occasions, 
where persons have been held, either as material witnesses, or 
in one case as we come to find out, accused based on evidence 
that was erroneous and presented to us, the individuals have 
indicated to the press and others that they were treated with 
respect and appropriately by the FBI, and that is critically 
important.
    It is important when, as in the one case in New York, where 
we got false information from the security officer from a 
hotel, and a person's life was put on hold, while that person 
was arrested, that we go back and investigate it, as we did. 
The person who gave us false information pled guilty last week. 
We have to assure that this cannot happen again.
    It is critically important, because we have the civil 
rights jurisdiction, that we aggressively investigate hate 
crime violations. In the wake of September 11th, we have put a 
priority on addressing that. We have initiated 316 hate crime 
investigations nationally involving Arab Americans since 
September 11th.
    We have brought charges, or charges are being brought, 
against nine individuals in Federal Court, and another 70 
individuals have been prosecuted in state and local courts. 
That is critically important, to send a message out that it is 
not a community, it is not a grouping of people; but that it is 
individuals who are responsible, and in your investigation of 
those individuals, you have to have predication for each 
further step of the investigation.
    Lastly, I think this is important, and I have tried to do 
this. We meet periodically with members of the Arab American, 
the Muslim American, and the Sikh American communities, to 
receive both input and suggestions; and to assure that there 
are open lines of dialogue between the communities, to assure 
that both they understand, as well as the public understands, 
that we are not looking at a community. We are not looking at a 
religion.
    We are looking at individuals who have committed acts; and 
it is important, when you look at the individuals, that there 
is adequate predication for each step of the investigation. 
That is what we are trying to do, to assure that we do not 
repeat some of the stages of the FBI's past that have not 
looked good, in retrospect.
    Mr. Serrano. I know that nothing that you have said here in 
the last couple of minutes is secret. So I would suggest to you 
that you try to publicize what you just told me. I did not know 
what you just told me. I did not know that some people had been 
prosecuted. I did not know that you meet with people from the 
various communities on a regular basis.
    If I may serve as your public relations advisor for a 
second, I think the people should know that. The people should 
know that while you are doing this, you are also doing that. 
Too many people think that it is just the INS, with your 
support, detaining thousands of people. Attorney General 
Ashcroft said it was a couple hundred.
    That is what people think is happening. But what you just 
told us today is something totally different, and I think the 
people should know that.
    Other than that, I want to, once again, echo all the folks 
who have thanked you for the work you have done for our 
country, and for the city that I was raised in and that I 
represent, and to tell you that I will join Chairman Wolf in 
doing the most that we can to make your budgetary year a 
success.
    Mr. Mueller. Thank you, sir, and I must be constrained to 
say that the agents we have up in New York City, and what they 
did, in the wake of September 11th, was truly remarkable.
    They operated out of a garage for a number of days and 
without communications. But that did not slow them down one 
iota in terms of doing the investigations that had to be done. 
It is the agents that are the agency.
    Mr. Serrano. Well, tell them, for a very grateful city, 
that we appreciate what they have done.
    Mr. Mueller. Thank you, sir.

                         POST-GRADUATE TRAINING

    Mr. Wolf. All right, I have just a couple more questions 
and then we will wrap up.
    Do you have university post-graduate courses, like the 
Army, or the Navy which allows a colonel or major to take a 
year off and go to George Washington and get an MBA, or some 
will go to the War College at Carlisle? Do you do that type of 
thing?
    Mr. Mueller. We do it, but we do not do it as much as we 
should, and I am looking to expand that program. We have 
isolated instances; for instance for the War College, I believe 
we do. But it is more isolated than it should be, and we ought 
to do more of that.
    One of the things that is critically important to me is to 
develop leaders. In my mind, everybody in the Bureau has to be 
leader. If you want to be a special agent, that is fine, but 
you had better be a leader in your community.
    Leadership is not something that is necessarily passed down 
in the genes. You have got to learn. Certainly, to the extent 
that there is anything there, I learned, and we are teaching 
that.
    We are including in our courses now, leadership training. 
It is important in developing leadership that you have a number 
of different experiences; and experiences such as going to a 
War College, or taking a year off and exploring a different 
discipline gives you that type of breadth that would make one a 
better leader, particularly in an institution that some have 
accused in the past of being insular.
    It is important to have those different experiences, so you 
bring a breadth of experience back into the Bureau, and the 
Bureau is benefited by those experiences.
    Mr. Wolf. I think the military has done that.
    On recruitment, are you having trouble with regard to 
training? I mean, you are having people apply on the web. Can 
you channel this? Do you have enough facilities? Are you able 
to train?
    Mr. Mueller. We are. It is a question of prioritization, 
but our training facilities at Quantico are very crowded. We 
are looking at coming back with expanding that facility to 
accomplish what we would like to do in training. We started 
last week a university for analysts. We started our first 
class, so we are training analysts to have the skills that we 
need in the Bureau.
    My expectation is that we will be training instructors with 
the CIA, for instance, because they are far ahead of us, in 
terms of training analysts. We would like to expand that 
training facility.
    I will tell you another aspect of it. The Bureau really is 
only as good as its relationships with state and local law 
enforcement. We are only successful to the extent that we have 
a good relationship with law enforcement at every level of the 
country.
    The National Academy, which we have run for a number of 
years, is one of those often overlooked jewels in the Bureau, 
that is respected, not only within the United States, but 
around the world, as a wonderful opportunity for persons to 
obtain training.
    I am looking to try to expand that capability; because when 
you train with others, when you work with others, you develop 
those relationships that break down the walls and allow the 
exchange of information that we are all seeking.
    Mr. Wolf. How many local law enforcement people go through 
that a year?
    Mr. Mueller. I am not certain off the top of my head, 
unfortunately. I would have to get that figure for you.
    Mr. Wolf. Is it two weeks, three weeks, or how long of a 
course is that?
    Mr. Mueller. Can you hold for just one moment?
    It is eleven weeks.
    Mr. Wolf. Eleven weeks?
    Mr. Mueller. Yes, eleven weeks, and we have the National 
Executive Institute, NEI, also. That is two week sessions, I 
think three times a year.
    [The information follows:]

                          FBI National Academy

    The following displays the number of graduates of the National 
Academy from FYs 1998-2001. Each lasts 10 weeks.
    1998-1,065.
    1999-1,069.
    2000-1,060.
    2001-1,057.

                              THE BURNHAMS

    Mr. Wolf. Well, on the Burnhams case, your people are still 
the lead negotiators, I assume?
    Mr. Mueller. We are still looking at that case; yes, sir.
    Mr. Wolf. It is still a priority?
    Mr. Mueller. It is still a priority; yes, sir.

                                GAMBLING

    Mr. Wolf. The other issue is, is there any up-tick that you 
see, or have you been looking at anything with regard to 
gambling? That is a growing concern I have with regard to the 
spread.
    We asked for an I.G. investigation in the closing days of 
the Clinton Administration on tribal recognition. We found that 
some six, I believe, were recognized, all against the 
recommendations of the professionals at the Department of 
Interior.
    One of the employees left, and you know, President Bush was 
sworn in on that snowy day on the 20th. On the 22nd, he came 
back and sat outside and signed an approval. I think there was 
a crime committed, and we are asking the Justice Department to 
look at it. But are your people looking, or have you seen 
anything out there with regard to organized crime moving into 
certain areas?
    Mr. Mueller. Well, it is something that we keep our eyes 
on. I do not have anything specific to bring to you today. I am 
aware of the incident of which you just spoke.
    One of the issues that we are looking at is, should our 
role remain the same on Indian reservations, for instance; or 
should we pull back? I think my view is that in talking to a 
number of people, we should not pull back.
    With regard to gambling, not everything can be a priority, 
but it is something particularly, when it is integrated with 
organized crime, that we have to keep on top of this and have 
to address.
    I mean, in my mind, one of the areas of expertise of the 
Bureau is putting together cases against organized crime. It is 
very difficult for state and local law enforcement to have the 
capacity to do that, whether it be investigative skills or the 
authorities that you might need to do the kind of either 
undercover or wiretapping or other work that may be necessary 
to build a case against organized crime; whether it is 
organized crime dealing with a Russian agent, organized crime, 
or gambling.
    In my mind, that is where we ought to play a substantial 
role, and we will continue to play a substantial role.
    Mr. Wolf. I agree, because particularly now, with 
technology, it is very difficult for local law enforcement to 
go across State lines and follow this. It is almost impossible, 
so I do think it is good that you stay there.

                INVESTIGATION OF AMERICAN IN AFGHANISTAN

    I wrote you a letter, and I am not going to mention the 
name. I know it was sent down to you. I do not want to mention 
it, because this story may not be accurate, in fairness to 
that. But I did send a newspaper article to the Justice 
Department.
    The letter was dated November 27th, saying, ``I just read 
in * * *'' and I will not say the name, and ``the report 
describes the actions and comments of a U.S. born man,'' and it 
says the name, ``who volunteered to fight for Osama bin Laden 
and left for Afghanistan. The individual * * *'' name not 
mentioned, and this may not be accurate, ``I will kill every 
American soldier that I see in Afghanistan, and I will kill 
every American soldier that I see in Pakistan.''
    Now we all know what happened the other day, and I heard a 
report which may or not be accurate, whereby not only with the 
one gentleman now in Alexandria, who is going to be prosecuted, 
that there may have been several others who are of American 
nationality.
    Have you pursued this? Is this accurate? Did ``X'' go to 
Afghanistan? It should be very easy to find, based on if he 
truly lived where the story said.
    Did he fight for the Taliban? Did he fight with Osama bin 
Laden? Is he one that has been caught? Has he returned now to 
return and live happily every after, with the freedom and 
liberties that we have in the United States? I mean, is there 
any validity to this?
    Mr. Mueller. Those are all very good questions. I have to 
tell you, and I appreciate your mentioning to me before that I 
would be asked about this, I am quite certain that the answer 
to your last several questions about whether we know whether he 
has fought in Afghanistan, has been picked up, might be 
involved in, or may be one of those in Guantanamo is, no.
    But in terms of the investigation that has been done to 
determine his whereabouts and identify him here, I would have 
to get back to you on that. I do not believe, to be blunt, that 
the action that should have been taken on it, perhaps has been 
taken on it, and I have to go back and check on that.
    Mr. Wolf. Well, I would appreciate it. I think you ought to 
go out to the house and say, did Joe leave the country, and did 
Joe take a flight to Islamabad, or what did he do? If he is not 
around, we would like to at least speak to him.
    I mean, as you know, yesterday, we lost seven American 
soldiers. He says, ``I will kill every American soldier that I 
see in Afghanistan, and I will kill every American soldier that 
I see in Pakistan,'' and this individual, according to the 
story, was American born.
    Mr. Mueller. I see that. I will.
    Mr. Wolf. You need to let us know, because if he did, he 
ought to be prosecuted.
    Mr. Mueller. Thank you for bringing it to our attention. We 
should have gotten back to you sooner on that.
    Mr. Wolf. The letter was actually dated November 27th.
    Mr. Mueller. I see that.
    [The information follows:]

                      Taliban Supporter Interview

    At the request of the FBI, the Department of State checked its 
database of U.S. passport holders for the name in question, with a date 
of birth ranging from 1974 through 1978.
    The FBI's National Press Office contacted the British Broadcasting 
Corporation (BBC) and inquired about the interview referred to in the 
National Review article. The BBC advised that it had not conducted an 
interview with the individual in question. The National Press Office 
also contacted Britain's second largest media outlet, ITN Channel 5, 
and learned that ITN had, in fact, conducted the interview in question. 
An immediate lead was sent to the FBI's Legal Attache in London to 
secure a copy of the tape for review and to interview the reporter. The 
Legal Attache is currently working on the lead and no results are 
currently available.
    Additionally, the New York field office requested that the New York 
Port Authority Police conduct a search of its database of all World 
Trade Center companies and their employees, as well as visitors, to 
determine if it contained any entries with the last name of the person 
in question. The database did not contain any entries, male or female, 
with the last name of the person in question as having been employed in 
or visiting the World Trade Center.

                    TECHNOLOGY INFORMATION COMPANIES

    Mr. Wolf. So I think that is all I have. We were going to 
ask you about analysts, and I think you covered it with regard 
to Mr. Serrano. The rest of the questions, we will just submit 
for the record.
    One other thing I would just say, we have asked the 
Secretary of Commerce, Secretary Evans, to consider this, and 
he has agreed, and we have talked to the White House about 
putting on, not a conference, but I am not sure what to call 
it.
    It is not a forum, but an opportunity for companies who 
have high technology information to come together and present 
what they have in a systematic way, so that INS knows what is 
available, FBI knows what is available, DEA knows what is 
available.
    Also, small- and mid-sized companies, who may not have 
Washington offices here in town, can put out standards of what 
you are thinking of doing and looking for, and whereby they 
have the opportunity to come in and demonstrate what they have. 
So I would assume you would certainly be a major participant.
    Secretary Evans said at the hearing that they were going to 
do that. I think the earlier they do it, the better.

                 SENSITIVITY TO PROTECTING CIVIL RIGHTS

    The last two comments I have, I do second what Mr. Serrano 
said though. I am very strong on law and order, but I think 
respecting the fundamental rights obviously as you have done, 
and I think frankly as this country has done, frankly, we have 
done a better job than any other country.
    We are not perfect. We made mistakes over the years, but 
when we make them, we generally move and respond, and the 
American people are good people, and your people are good. Most 
of the FBI agents that I know that are out there are good 
people.
    But I think it is really important, as we go through this 
balance. My grandfather come over from Germany. We were German, 
obviously. Being a German during World War II was very 
difficult. In World War I and World War II, my dad joined the 
military, and fought in the Pacific.
    But just that attitude of your name was German and the 
enemy was Germany, and yet the Germans and the United States 
were very, very patriotic, as were the Japanese, who fought for 
different things. So I think there is a sensitivity, but that 
diversity that we have in our country is our strength.
    If you and I were all to clean out this room quickly, and 
get the flight out to Japan tonight to stay there forever, we 
would not become Japanese. But when people come from Japan and 
from Germany and from Puerto Rico and from El Salvador and from 
wherever, and Canada, you know, when we come here, we become an 
American. It is a unique experience.
    The voting machine breaks down sometimes, but once every 2 
years, they call the names out, and there are names from all 
over the world, of people who have come here.
    So I think to balance that out, as I am very confident that 
you have, but I think I would just second what Mr. Serrano 
said.

              importance of fbi chief information officer

    Lastly, I hope your IBM guy will not leave until you have 
somebody else in there. I am not going to ask you why he is 
going or where he is going. Obviously, he is not in involuntary 
servitude to you.
    The committee has expended a lot of money on Trilogy. It 
was the subject of McVeigh investigation, which cost us a lot 
of other money and time. So I think that in the passing of the 
baton, that somebody has to be there to catch the baton, before 
he walks out of the office.
    And I really think that people have to actually be on and 
have an opportunity to be with him for a period of time or else 
you could have a lapse, and then all of the sudden the system 
has a problem. So I would hope that you are able to have the 
person on before he leaves. A lot of taxpayer money has been 
expended on this.
    Mr. Mueller. Well, we are trying to get a first class 
individual from the private industry who can fill those shoes. 
He has assured me that he will stay until such time as we need 
him, and then the baton can be passed.
    I will say that part of the passing of the baton is the 
project manager, who is starting on Monday, who will be a 
substantial support to that process. So we are gathering a 
number of persons.
    In the past, he has been the one individual to carry the 
baton. It has not really been a relay race. It has been a relay 
race of one. We have a number of people that we are bringing on 
board, in various areas, with particular skills to support the 
general knowledge that he has.
    Mr. Wolf. Thank your people again. We had the opportunity 
to visit your people. I know they are working 12 hours a day, 
and some around the clock. We thank them for the good work, and 
thank you very much. The hearing is adjourned.
    Mr. Mueller. Thank you, sir.
    [Questions and answers for the record follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                       Thursday, February 28, 2002.

                       U.S. DEPARTMENT OF JUSTICE

                                WITNESS

JOHN D. ASHCROFT, ATTORNEY GENERAL

                     Chairman Wolf Opening Remarks

    Mr. Wolf. Good afternoon, Mr. Attorney General. I don't 
know how many people are going to be here, but it is certainly 
not because they don't like you; it is because the House 
recessed, adjourned for the week, and so most Members had 
airplanes to catch and are gone.
    I am going to defer my questioning until I give some of the 
members who are here an opportunity because they live outside 
the region, and I live here and I am just an automobile drive 
home. So that is why there may not be as many here because the 
House did adjourn 2, 2\1/2\ hours ago.
    I had a long opening statement, which I am not going to 
make, and I am going to yield to Mr. Serrano. But I did want to 
make one comment to set the tone for the record.
    I appreciate the good job you are doing and I appreciate 
the good job the President is doing. This issue of terrorism 
is, as everyone would agree, very, very serious and my sense is 
that you have been given a tremendous responsibility and if 
somebody else who doesn't have that responsibility makes a 
mistake, they make a mistake. But if you make a mistake, people 
can die.
    Secondly, 27 people from my congressional district died in 
the bombing of the Pentagon. The pilot that flew the plane was 
from my area. So I appreciate that.

                          trip to afghanistan

    Thirdly, I just wanted to say, I was in Afghanistan the 
first week in January. I was with Congressman Hall and 
Congressman Pitts. We were in Kabul for 2 days. We traveled 
throughout the region. We didn't lock ourselves in Bagram Air 
Force base; we went out and saw people.
    There were about 15,000 that went to the training camps. We 
only had about 450 of them. All the women that we saw in 
Afghanistan are still wearing the burka. They are not wearing 
the burka because they like the burka; they are wearing the 
burka because they are afraid the Taliban are coming back.
    Many of the Taliban are still there. They just changed 
jerseys. They are taking this off and they are moving around. 
And we said, why don't you take the burka off; and they say, 
well, don't you understand they are still in the country. They 
are still around.
    We have not caught Osama bin Laden. We have not caught 
Mullah Omar. And if you just read what is taking place. 
Yesterday I asked the Library of Congress to give me a history 
of all the people who were involved in terrorism, activity 
against our country. And the list goes on and on.

                          terrorist incidents

    We many times forget the World Trade Center in 1993. We 
forget the USS Cole. In March of last year, I was down in Bekaa 
Valley in Lebanon where the Hezbollah were. And we went by the 
site where the American Embassy was blown up. We went by the 
site where the 243 Marines were killed.
    The Hezbollah is still in operation. Hamas is still in 
operation. The training camps in Sudan are still in operation. 
Osama bin Laden lived in Sudan from 1991 to 1996. Aideed got 
much of his support out of Sudan. Those people are still there. 
The people that tried to assassinate President Mubarak of Egypt 
are still in Sudan. The world is still a very, very dangerous 
place.

                    national commission on terrorism

    Lastly, in 1998, these acts led me to introduce the 
National Commission on Terrorism, which we later got passed. I, 
with one other person, went to Algeria. We had been the first 
Members of Congress in Algeria for years. In Algeria, over 
100,000 people have had their throats slit and their stomachs 
cut. We went into a village where they committed atrocities 
that you won't believe. Almost everyone in Algeria has had a 
family member or somebody that has been impacted.
    So this is real, and I am very, very concerned that there 
is a certain complacency that is beginning to take place.
    The war went extremely well. All the military people we 
have talked to have done a great, great job. But there are 
still other countries. There is Yemen. There is Somalia. There 
is Sudan. There is the Soviet Georgia situation. There is the 
Philippines. There are two missionaries--the Burnhams are still 
in the Philippines; they live in Mr. Tiahrt's district. And the 
world is a dangerous place and we never saw it in our shores. 
It was the bombing in Tanzania. It was the bombing in Kenya. So 
I just want to set the tone.
    I expect there will be controversies and differences as to 
what you have done, but you have been charged with a unique 
responsibility, and it is a very awesome one. And I think that 
the Administration is doing a good job.
    Also, I want to tell you that the people of Afghanistan are 
very appreciative of what the Bush Administration and our 
country--and the country is together, Republican and Democrat--
have done with regard to liberating Afghanistan. They do 
believe they have been liberated.
    Their great concern is we used Afghan blood to defeat the 
Soviet Union in the late 1980s and we left, and their great 
concern is that that will happen again. But they are 
appreciative that the Taliban and al Qaeda are not in control. 
I won't say they are not there, but they are no longer in 
control.
    So I appreciate what the Administration has done. It is 
very, very tough. But as somebody who has seen outside and has 
known people here, as all of us do in this region and New York 
City and other places, we appreciate the good job you are doing 
and what the Administration is doing.
    And with that, I will recognize Mr. Serrano for an opening 
statement and then you can open up.

                     Mr. Serrano's Opening Remarks

    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Attorney General, every so often I have told my 
colleagues that I think long and hard before I come to a 
hearing about what I will say and how I will behave. And I find 
myself in a dilemma. My dilemma is complicated by the fact that 
on the various occasions that I have met with you, the vibes 
have been good. I would personally like to thank you very much. 
And that makes it more difficult when I am troubled by what I 
may see coming out of the Attorney General's Office.
    Let me preface my comments, however, by saying that I am 
from New York City. Attending events commemorating the death of 
people, handing out American flags, has been extremely painful 
and continues to be painful. People close to me, members of my 
political organization, people who have been with me a long 
time have lost firemen, grandchildren, office workers. So I 
want to also commend you for your work and the President for 
stepping up and leading us in such a difficult time.

                      civil liberties of americans

    But my concern, Mr. Attorney General, is that during this 
time we may, without realizing it, really bring some harm on, 
the present and certainly the future of our great democracy. 
And I know that you as a man of conscience must be weighing in 
your head how you deal with these issues. So my role as a man 
of conscience is to remind you of what it is I and some other 
people fear.
    We fear for our civil liberties. We feel that during this 
moment of crisis, we may not pay enough attention to the long-
term harm that we may do.
    We know, for instance, that we paid an emotional and a 
financial, price for what we did during World War II with 
Japanese-Americans, who were as American as apple pie, but who 
we felt could be a problem or danger to our Nation, and treated 
them improperly.
    I know as a member of the Puerto Rican community, having 
been born in the Commonwealth of Puerto Rico, that right here 
in this committee room and under the support of our former 
chairman, Mr. Rogers, and under the current chairman, Mr. Wolf, 
the FBI is releasing to my office, little by little, 1,800,000 
documents of the persecution which they have admitted to for 
more than 50 years of the Puerto Rican independence movement--
people who simply said, we want the island to be independent, 
and whose lives and careers were ruined. And some people have 
been missing, and we don't know how.
    And so I wonder if anything that we are doing now could 
take us down that ugly road. And why is it that I am not saying 
this in a loud voice? Why is it that I spent so much time last 
night, this morning and this afternoon thinking about what to 
say? Because I know there is a delicate balance between 
protecting our Nation, protecting us from terrorists and making 
sure they are brought to justice, making sure that this never 
happens again; and at the same time protecting my 8-year-old 
granddaughter's future, protecting my 13-year-old son's future, 
protecting my 35-year-old daughter's future, making sure that 
what we do now does not hurt them at all.
    So what I would ask you today is, whenever you come before 
this committee, you have in so many ways an opportunity to 
speak to the American people and to--please, take seriously my 
comments. They are not from someone who is trying to undo the 
work you are doing. They are not from someone who is in any way 
trying to undercut the need for national security and defense, 
but they are from one who grew up in a community where 
sometimes law enforcement abused our rights historically and in 
some cases personally. And so I wonder where we are heading.
    I support you in your effort to get the bad guys, but in 
the process, make sure you don't hurt the good guys. I don't 
like people reading my e-mail. I don't like people listening to 
my phone calls. I don't like people getting involved in my 
personal life when my personal life is not a threat to this 
country, and neither do any of my constituents.
    And so I welcome you here. I ask for your forgiveness if in 
any way I have been disrespectful to you, but I assure you I 
thought long and hard about this and I felt it was a statement 
I had to make. Thank you.
    Mr. Wolf. Thank you.
    You can just proceed. Your full statement will appear in 
the record. You can summarize as you see fit.
    And I made a comment, I will go straight back and forth and 
I will ask questions at the end because I know members have 
airplanes to catch. So if you want to summarize, that might be 
helpful.

                   Attorney General's Opening Remarks

    Attorney General Ashcroft. While this matter is fresh in my 
mind, let me just thank Congressman Serrano for his remarks. 
Frankly, I will be happy to address them in greater 
particularity and detail. We are just many years away from and 
have virtually nothing in common with the way the Japanese were 
treated in the Second World War and the way we are treating 
individuals in America today.
    We are sensitive of these issues, and you and I have talked 
on the telephone and you have told me of these concerns. And I 
remember saying to you, I welcome these kinds of questions, 
because I believe the American people are sensitive to these 
concerns and ought to have a full understanding of the--of what 
we are doing in their behalf.
    And so it is not with any sense of offense that I receive 
these questions; it is with a sense of gratitude. I think these 
questions need to be asked frequently, and we need to rehearse 
our commitment to the kind of liberty and freedom that you know 
we all want; and I would never take offense at the raising of 
these issues, because they are very important and are at the 
core of our democracy.
    I am honored, Mr. Chairman and members of the subcommittee, 
to appear before the subcommittee to present the President's 
budget request for the Department of Justice. The first and 
overriding priority of this budget and the Department of 
Justice is to protect America against acts of terrorism, to 
bring terrorists to justice.
    Since my last appearance before you, America and the world 
have been awakened to a new threat regarding an old evil. I 
appreciate the leadership of the members of this subcommittee 
in providing the Department of Justice with the necessary 
resources to meet the terrorist threat and to improve our 
Nation's border security.
    I am grateful for the stewardship and support that you have 
provided in other areas of law enforcement, as well, for even 
as the men and women of the Department of Justice go about the 
urgent task of protecting America from terrorism, we do so 
within a framework of justice that upholds our other goals as 
well. We remain committed to enforcing gun laws, to reducing 
the demand and supply of drugs, to protecting civil rights.

                         trafficking in persons

    With your leadership and your support, we have undertaken a 
sweeping initiative to identify and prosecute those who traffic 
in human beings, overwhelmingly women and children, for 
involuntary labor and sexual exploitation.
    We are committed to seeing justice done in each of these 
areas. We recognize, however, our need to prioritize our 
commitments, to husband our resources. Today, more than ever, 
lives depend on the careful understanding of our 
responsibilities and the exemplary performance of our duties.

                          2003 budget request

    The fiscal year 2003 budget request that I present to you 
today builds upon your support for the fair and vigorous 
administration of justice. It focuses the priorities of the 
Department of Justice, and it seeks to enhance further the 
nation's ability to prevent and to combat terrorism. For the 
fiscal year 2003, the President's budget requests $30.2 billion 
for the Department of Justice, $23.1 billion in discretionary 
funding and $7.1 billion for the Department's mandatory and 
fee-funded accounts.
    Funding for federal law enforcement programs increases by 
13 percent over the funding enacted in the fiscal year 2002 
Department of Justice Appropriations Act. The Department's 
fiscal year 2003 budget seeks $2 billion for program 
improvements and ongoing activities funded in the 2002 
counterterrorism supplemental appropriation.
    Resources are also requested for improving immigration 
enforcement and services, enhancing federal detention and 
incarceration capacity, reducing the availability of illegal 
drugs and supporting proven programs aimed at reducing drug 
use, providing services for the nation's crime victims, 
protecting civil rights, ending traffic in human beings, 
providing streamlined resources to support state and local law 
enforcement and defending the interests of the United States in 
legal matters.
    To help secure our nation's borders, we are proposing 
program improvements totaling $856 million, including $51.9 
million from fee-funding for the Immigration and Naturalization 
Service. Of this amount, $734 million is dedicated to improving 
border security.
    Specifically, we are requesting $362 million to begin a 
multiyear effort to provide a comprehensive land, sea and air 
entry/exit system for the United States, which I know has been 
of particular interest to the Committee; $372 million dollars 
to hire 570 new Border Patrol agents and additional immigration 
inspectors to improve air, land and seaport inspections.

                        counterterrorism funding

    As a result of the attacks of September 11, the FBI, with 
the cooperation of other federal, state, local and 
international enforcement, is conducting the largest criminal 
investigation in the history of this country, building on the 
much-needed assistance provided to the FBI in the 2002 
counterterrorism supplemental. Our 2003 budget requests $411.6 
million, including funding for 263 new FBI Special Agents, $223 
million for increased intelligence surveillance and response 
capabilities, $109 million for information technology projects 
and $78 million for enhanced personnel and information 
security.
    The establishment of the Joint Terrorism Task Force program 
has enhanced the FBI's ability to promote coordinated terrorism 
investigations among FBI field offices and their respective 
counterparts in federal, state and local law enforcement 
agencies. Our budget seeks $15.7 million to support a total of 
56 Joint Terrorism Task Forces throughout the country, one for 
each FBI field office.
    As accused terrorists are brought to justice in the Federal 
Court system, there is increased need for enhanced security 
measures for the system to support the heightened security 
required by the United States marshals and their service at 
courthouses. Our budget seeks $34.7 million to close security 
gaps at the courthouse facilities with the greatest physical 
security deficiencies, to purchase security equipment for new 
courthouses and those undergoing significant renovation, to 
provide additional security personnel for terrorist-related 
court proceedings and to provide security staffing to keep pace 
with the opening of new courthouses and the creation of new 
judgeships.
    Another critical element in our battle against the 
terrorist threat is working to develop enhanced, interoperable 
databases and telecommunications systems for the Department's 
law enforcement activities. Our budget seeks $60 million to 
continue narrowband investment in the radio infrastructure for 
key areas, such as New York and along the northern and 
southwestern borders. Our efforts to combat terrorism not only 
help safeguard the lives and property of Americans; they 
enhance enforcement of the law across the border.
    The heightened vigilance of law enforcement, increased 
awareness and the sense of responsibility of citizens spills 
over into more effective enforcement of the law in all areas.

                            Drug Enforcement

    We are working to reduce both the demand for and 
availability of illegal drugs. Drugs not only weaken the fabric 
of our society, but also threaten our national security. The 
Organized Crime Drug Enforcement Task Force, or OCDETF program, 
is the centerpiece of the Department's drug strategy to reduce 
the availability of drugs. OCDETF combines the talent of 
experienced federal agents and prosecutors with support from 
state and local law enforcement, thereby uniquely positioning 
OCDETF to conduct multiple, coordinated investigations across 
the country to root out and eliminate all pieces of a drug 
organization.
    For fiscal year 2003, our budget seeks $14.8 million 
through OCDETF to provide field support for DEA's Special 
Operations Division's coordinated investigations. The 
Department's fiscal year 2003 budget also seeks $13 million for 
drug abuse and crime prevention programs under the Office of 
Justice programs. Our budget includes $52 million for the drug 
courts and $77 million for the Residential Substance Abuse 
Treatment program, a 10-percent increase in funding over fiscal 
year 2002.

                         Election Reform Grants

    Essential to our republic is the freedom and privilege of 
every citizen to vote. The Federal Government has become an 
active participant in establishing rules for the conduct of 
elections in matters ranging from voter registration to 
protection against discrimination. In fiscal year 2003, the 
Department requests $400 million for a new 3-year program. That 
is $400 million per year, which would be a total of $1.2 
billion to improve state and local jurisdictions' voting 
technologies and administration, including voting machines, 
registration systems, voter education and poll worker training. 
This new program will provide states with matching grants for 
election reform.

                          Civil Rights Funding

    The Department of Justice is charged with protecting the 
civil rights of all Americans. Our fiscal year 2003 budget 
seeks $3 million for the Office of the Inspector General to 
address a statutory requirement in the USA PATRIOT Act, for the 
review of complaints alleging abuses of civil rights and 
liberties and to provide oversight, an audit oversight for the 
Department's counterterrorism programs. Further, we request 
$2.8 million to promote effective investigation prosecution in 
response to hate crimes.

                 Immigration and Naturalization Service

    We are committed to building and strengthening an 
Immigration Services arm that is effective and ensures 
integrity and promotes a culture of respect. We are currently 
making good progress toward achieving President Bush's goal of 
a 6-month average processing time for all applications. To help 
ensure additional progress, our budget request seeks $40 
million to begin implementation of the Administration's 
comprehensive restructuring of the Immigration and 
Naturalization Service.

                            Detention Needs

    The Department of Justice is charged with the safe, secure 
and humane confinement of detained persons awaiting trial, 
sentencing and immigration proceedings. The need for federal 
detention bed space has more than doubled in the last 5 years 
from 32,000 detainees in 1996 to 67,000 detainees in the year 
2001.
    To enhance coordination, manage the rising detainee 
population and exercise financial control and federal detention 
operations, which are currently the responsibilities of INS, 
the Marshals Service and the Bureau of Prisons, the Office of 
Detention Trustee was created by Congress last year. As you 
recommended in the fiscal year 2002 conference report, our 
budget proposes to consolidate $1.4 billion under the Detention 
Trustee to provide bed space for the anticipated detainee 
population in custody at the U.S. Marshals Service and the INS.
    For the Bureau of Prisons, our fiscal year 2003 budget 
seeks $348.3 million for activation of prisons that have been 
constructed and for the completion of construction previously 
authorized by the United States Congress.

                          September 11 Attacks

    Following the September 11 terrorist attacks, Congress 
passed and the President signed into law legislation 
establishing the September 11 Victim Compensation Fund of 2001. 
The value of approved claims through the fund is estimated at 
$5.4 billion through fiscal year 2004. Our fiscal year 2003 
budget reflects $2.7 billion in estimated victim compensation 
payments. In addition, the Department's budget includes a total 
of $41 million for the administrative cost of the Fund's 
Special Master.
    Mr. Chairman, as you well know, September 11, 2001, changed 
our nation and redefined the mission of the Department of 
Justice. Defending our nation and its citizens against 
terrorist attacks is our top priority. To fulfill this mission, 
we are devoting all resources necessary to eliminate terrorist 
networks, prevent terrorist attacks and bring to justice all 
those who kill Americans in the name of murderous ideologies.
    Mr. Chairman, Congressman Serrano, members of the 
subcommittee, what I have outlined for you is the principal 
focus of President Bush's fiscal year 2003 budget request for 
the Department of Justice. Our request builds on the firm 
foundation laid by the Congress in the days and weeks following 
September 11, a foundation of resolve, backed by resources and 
American strength married to American purpose.
    I thank you for the leadership of this subcommittee, and I 
thank the members of your staff that have worked closely with 
the Justice Department to enhance the safety and security of 
America. Leslie Albright and John Martens of the majority staff 
and Rob Nabors and Lucy Hand of the minority staff have 
distinguished themselves in their dedication to the cause of 
justice, and I thank them.
    I thank all of you for your facilitation of this hearing 
and for your service to the people of the United States of 
America. I look forward to working with you on this budget 
proposal and other issues.
    Mr. Chairman, I am grateful for having had this opportunity 
to make those remarks and would be pleased to respond to your 
inquiries, or for that matter, to hear what you have to say. I 
believe this should be a learning experience, as well as one in 
which I answer questions.
    [The statement of Attorney General Ashcroft follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. Thank you very much, Mr. Attorney General.
    As I said, I am going to yield my time to Mr. Rogers and I 
will catch you at the end.
    Mr. Rogers. Mr. Chairman, thank you for being so courteous 
to all of us.
    General Ashcroft, we are delighted to have you before us. 
Being from your immediately previous occupation, you know that 
sometimes questions become statements and I am going to try to 
avoid that.
    However, there has not been any time in our Nation's 
history that I know of, perhaps other than the Civil War era, 
where the Attorney General of the Nation has faced the kind of 
turmoil, change, demands, and challenges that you are facing. 
You are indeed a historical figure, even beyond just occupying 
that great office. This is a great challenge, and I want to 
commend you for doing a great job.
    Attorney General Ashcroft. Thank you.

                               Oxycontin

    Mr. Rogers. I want to briefly question you about OxyContin, 
the drug, a great miracle of modern medicine that allows relief 
over a sustained period of time to people who have severe pain. 
However, in my part of the country and, increasingly, in many 
others, the abuse of this prescribed pseudonarcotic is causing 
extreme pain, ironically. Extensive federal review of autopsy 
data has found that OxyContin played a major role in over 296 
overdose deaths throughout the Nation between May 2000 and 
December of 2001.
    There were 69 deaths in Kentucky in which medical examiners 
found OxyContin in the bodies; 36 of them had toxic levels. 
Many of these deaths are being suspected of being solely the 
result of OxyContin abuse.
    We are seeing doctor-shopping and we are seeing multiple 
prescriptions being filled. We are seeing pain shops where 
these drugs are prescribed willy-nilly. In fact, there was a 
conviction last week in Kentucky of a doctor prescribing these 
drugs to people who didn't need it, by the truckload. And it 
has spread all over the country--New Jersey, and Philadelphia. 
54 people have died in Palm Beach County, Florida. In Virginia, 
49 people died between January 2000 and June 2001. And so on. 
It is a scourge. While it is a terrific drug, it is being 
abused.
    Can I ask you to respond to what you intend to do about it?
    I am delighted to see in your budget submission a big 
increase in the drug diversion account, totaling $24.6 million. 
There are only seven diversion officers in the whole State of 
Kentucky, and they are absolutely overwhelmed. Other places are 
the same in the DEA operations. Could you respond to that?
    Attorney General Ashcroft. Well, first of all, Congressman 
Rogers, I share your concern. Just 2 weeks ago, on February 19, 
a Florida physician was convicted of four counts of 
manslaughter. I hope that this conviction sends a signal to the 
individuals with access to this drug in the medical community 
that this is not an inconsequential matter. OxyContin, as you 
have said dramatically, is a matter of life and death. And for 
those who recklessly or otherwise, with disregard for the life 
and safety of others, are involved in the deaths of 
individuals, I hope that the sentence levied in that case will 
also help people understand that the particular doctor involved 
there faces up to 165 years of imprisonment, which is 
significant.
    The DEA has begun a comprehensive national action plan in 
this respect. I think there is plenty to be done here, not only 
at the federal level through the DEA, but with drug monitoring 
at the local level. And I know that we, through the Department 
of Justice, discretionary grant funding has been made available 
for the Harold Rogers Prescription Drug Monitoring program. 
There was the individual in Florida, who was convicted of the 
four manslaughter counts, who was the number one prescriber of 
the drug. So being able to identify sources that can be the 
source for diversion, as well as for therapy, is a major issue.
    The DEA, in its national action plan, will focus on 
investigations targeting key diversion points, an in-depth 
investigation of the manufacturer's practices and the 
distribution to determine compliance. DEA has increased efforts 
to gather necessary data to better define the scope of the 
problem--but the problem has been defined as overwhelming, with 
clear indications that many deaths have resulted. OxyContin's 
package insert going to doctors has been changed so as to 
reflect a notice to physicians about cautionary language on the 
drug's abuse and its diversion potential. The medical community 
has also received additional information.
    The value of the drug in therapy is very substantial, but 
the danger of the drug and abuse is something that we have to 
consider aggressively.
    Mr. Rogers. Will the money be used to hire more diversion 
agents, at least part of it?
    Attorney General Ashcroft. Yes.
    Mr. Rogers. And can I expect that some of those at least 
will be given to my State?
    Attorney General Ashcroft. From what you described to me, 
Kentucky is a very seriously affected jurisdiction. We would 
hope we would be able to mitigate some of the tragedy in 
Kentucky.
    Mr. Rogers. Thank you very much, and the young people of 
that region thank you even more. This is a drug that is being 
abused mainly by young people and these deaths are mainly kids.
    Attorney General Ashcroft. Well, the 133 positions to 
strengthen our enforcement include a significant increase in 
positions for the diversion situation, which is what we have 
here, legitimate pharmaceuticals being diverted to drug abuse.

                      prescription drug monitoring

    Mr. Rogers. Good. Chairman Wolf and myself and others have 
been pushing for Prescription Drug Monitoring programs. 
Kentucky has a program. Virginia does not. Tennessee does not. 
So Kentucky people cross the line and get a double prescription 
from one of the states that is not monitored.
    The grants that you mentioned hopefully will go to states 
to encourage them to establish their own drug monitoring 
programs so we can keep track of who is filling prescriptions 
and who is not. But it won't really work, I don't think, until 
we have a national prescription monitoring program.
    Is that something you could feel comfortable with?
    Attorney General Ashcroft. I don't want to make a comment 
on a specific program until it is specific. I do know this--
that we need far better control than we have now and far better 
information.
    The DEA has been focusing recently with the National 
Alliance for Model State Drug Laws on trying to develop 
cooperation between the states. But as you indicate, when one 
state does well, it sometimes just provides a relief valve in 
another state's jurisdiction. The five states reporting the 
lowest number of OxyContin prescriptions per capita have 
longstanding monitoring programs, and they report no 
significant diversion problems. So it is pretty clear that is 
not one of those situations where remediation is impossible.
    We had enough of what you call ``pilot programming,'' or 
what was it Mark Twain, the fellow from Missouri who said, 
``There is nothing so embarrassing as a good example.'' We have 
some good examples of states that have done good work with 
monitoring, and their problem has been reduced by the 
monitoring. And so I would hope that we would find ways to 
broaden our capacity to assess where this--where the leakage is 
in the system; and I would like to work with you in that 
respect.
    Mr. Rogers. Good. I was going to ask you if you would be 
willing to work with Chairman Wolf and myself and others to see 
if we can create a national prescription monitoring program run 
by the States, but where we escape the problem of state borders 
becoming a relief valve. This is a major problem, and I suspect 
once we whip the OxyContin problem there will be another 
similar-type thing. But a monitoring program would get to that 
as well--of abusing prescription drugs, which is a wholly 
different thing from the other problems. I thank you for that.

                           ins reorganization

    Mr. Chairman, let me quickly ask about INS, because it is 
something I have a long interest in. I will be brief.
    You have $40 million for some front-end costs associated 
with the reform of the INS that the Administration has 
undertaken. Many of us up here who have worked on this 
problem--in my case, 15 years or more--don't believe that you 
can really achieve the reform that is necessary unless you do 
some law changes here. I don't think you can do it 
administratively, although I commend you for the efforts that 
you are attempting. I don't think we can quite get there 
without doing some changes in the law.
    Would you give us a quick brief on where you are on 
reorganizing INS?
    INS is the worst-run agency in the United States 
Government. I have been saying that for 15 years, and it has 
fallen on deficient ears. But you know, the number of illegal 
aliens in the country keeps multiplying. There are 7 to 10 
million of them now. And the administration of the Service's 
branch of INS, the backlog for citizenship is 10 miles long and 
so on.
    And this agency--we poured money in it. We have doubled 
their budget in the 5 years I was chairman of this 
subcommittee, quadrupled it over the last 15 years thinking 
money was the problem.
    It is not. It is an absolutely dysfunctional agency. And I 
commend you for attempting to reorganize it. Would you work 
with the Congress in letting us also have some changes that we 
think only a law change would allow you to do?
    Attorney General Ashcroft.  Let me just indicate to you 
that I believe that the administrative effort is a monumental 
effort, but I don't believe that it represents the ultimate--we 
should always be willing, and I stand ready, to do whatever we 
can to improve--to do those things which must be done 
statutorily. The restructuring effort, which is designed to 
help address some of the problems is not held out to be total 
therapy. But I believe it is a good effort, and we would be 
happy to work with you for its improvement.
    This is a monumental job. Five hundred fifty million people 
cross the borders of the United States every year, 550 million 
people. And when people want to come to the United States to be 
reunited with their husbands and wives, it is better than a 2-
year proposition to get a husband and wife and between 3 and 4 
years to get children back with their families.
    The service side is difficult in that respect. So, frankly, 
the service side can't be totally divorced from the enforcement 
side because, as we do the servicing of these claims, we find 
some of the enforcement infractions. Fraudulent documents turn 
out to be a big problem, and we come upon those.
    The long and the short is, I think we both recognize the 
challenges, which are fundamental and substantial, faced by the 
agency; and I would be happy--I am eager to indicate that we do 
not believe that there is nothing that can be done statutorily. 
We do not believe that everything that needs to be done can 
necessarily be done only administratively. We would be happy to 
work together.

                       identification integration

    Mr. Rogers. It has taken on a new urgency, of course--the 
work of the INS. It is no longer a philosophical discussion; it 
is an absolute imperative that it be done and done right and 
quickly.
    One of the biggest headaches we have had over the years is 
getting the State Department and INS and FBI to go onto a 
common database so that when someone is entering the country 
that is on somebody's watch list, somebody knows about it. And 
at this point in time, unless you can tell me differently, it 
is just not that way.
    Attorney General Ashcroft. Let me indicate, there is some 
progress being made, as well, in that respect.
    Mr. Rogers. I have heard that for 20 years.
    Attorney General Ashcroft. I believe we will be able to 
send a list of people that have now been inventoried, now that 
we are matching the ident fingerprints of people that are being 
printed as they come across the border with the database of the 
FBI, individuals that are fugitives. And recently, with a 
consultation program with the State Department, INS is now 
being linked-up with photographs of those who apply for visas. 
So the individual who is receiving it at an INS port-of-entry 
begins the process of making sure that the person is the same 
as the person photographed at the visa application.
    Again, I don't represent that we have arrived, but you are 
right, the world changed on September 11 and there is a new 
sense of urgency and a new level of progress being made. 
Similarly, individuals who are called ``absconders from final 
adjudications of their deportation'' by INS, people--all of 
their appeals are exhausted and they have been ordered 
deported, and when you go to find them, they are gone--we are 
now entering those names in the NCIC, which is the National 
Criminal Information Center data. If other individuals or 
officials detect these individuals who are committing a crime 
by absconding after having been ordered deported, those 
individuals will have in process a way of detecting them.
    There are many miles to be traveled here. As Robert Frost 
said, ``And miles to go before I sleep, and miles to go before 
I sleep.'' But we are energizing the integration of these 
things between State Department and INS on the consultation 
regarding visas, between the FBI and INS in putting these names 
together; and we hope to continue that process, and the budget 
reflects our desire to do so.
    Mr. Rogers. I commend you for your budget request; there 
are a lot of good things in there. I really like what I am 
seeing here. However, I will believe you on the INS solutions 
when I see it. I have learned now under Attorneys generals, I 
think it is, all of whom have been dedicated supposedly to 
solving the problem, have told me time and again just what you 
told me and we are still in the dark ages. But I think you have 
got the best chance of anybody that has ever occupied that 
chair to finally redo and make effective the INS. And I wish 
you Godspeed.
    Attorney General Ashcroft. I will try not to muff it.
    Mr. Rogers. In all of your works, as well.
    Mr. Wolf. Mr. Serrano.

                           abner louima case

    Mr. Serrano. I am just going to make a brief comment 
because my opening statement covered a lot of my concerns that 
I hope you keep speaking to, not just today, but in the future.
    But I am taking the liberty, having you in front of me, to 
put forth something that you may not be aware of, but maybe you 
are. It was reported by AP at 1:03 this afternoon that a 
Federal appeals court has overturned the convictions of three 
police officers in New York having to do with the Abner Louima 
case. That was the case of the young man who was tortured and 
suffered a ruptured colon and bladder with a broomstick during 
an arrest. The person who did it is serving 30 years in prison; 
the three who are accused of obstructing justice and violating 
civil rights were also convicted.
    And the reason I am telling you this is because there is a 
call, and there will be a call officially from me now, and 
later in writing, for you to assign a Special Prosecutor to 
deal with this. And I say this to you because what we don't 
need in New York, now more than ever, is once again to go back 
to the discussion of the police and the community and the 
courts.
    New York has come together after September 11, and we need 
to continue this. And this decision today, I can tell you, is 
just going to be heard throughout the community in a very, very 
difficult way, and justice needs to be done.
    So accept this as an official request and understand that 
that will be coming to you very soon from other people, too.
    Attorney General Ashcroft. Well, let me just indicate, this 
is a tragic situation. I have just been made aware of it. The 
police officer who committed the assault pleaded guilty and was 
sentenced to 30 years in prison. That conviction is not 
affected. But you are right, the other three officers were 
charged in connection with the incident; in press accounts, it 
appears that the Second Circuit reversed these convictions.
    I am very pleased to have your request. I would like to 
look carefully at what has happened before I reach any 
conclusions in this matter.
    These are matters of great concern to us, and our 
Department has been active in investigating allegations 
regarding police conduct, patterns and practices of police 
behavior in a variety of settings; and we take these matters at 
the highest level of seriousness. And no one can deny the 
tragedy that took place in the Louima case.
    Mr. Serrano. Thank you.
    Mr. Chairman, what I wanted to do if I haven't taken too 
much time is to yield to Mr. Obey.

             fbi's antiterrorism request--pre-september 11

    Mr. Obey. Mr. Attorney General, always happy to see someone 
from the Senate side pay a visit to the House side.
    Let me ask you a question about an article that appeared in 
the New York Times this morning. That article indicated that on 
September 10, one day before the disastrous events in New York, 
Washington, and Pennsylvania, you had in the budget which you 
submitted to OMB, identified more than a dozen objectives that 
were ranked in higher priority than antiterrorism.
    But the budget that you submitted on that day contains 68 
programs for which you supported budget increases, none of 
which, with the possible exception of one, were directly 
related to counterterrorism. And in that budget, you did not 
endorse the FBI request for $58 million for 149 new 
counterterrorism field agents, 200 intelligence analysts and 54 
added translators. And that one program, of the 14 that you are 
proposing cuts for, was a $65 million cut in local 
counterterrorism grants.
    Now, I recognize that hindsight is always a lot clearer 
than foresight, but--and I don't want to get into the details 
of the article unless you want to--I guess I would simply say 
this and ask a question.
    I know that not many people in the public or on Capitol 
Hill were pushing for increases to counterterrorism prior to 
September 11. Most of them had an excuse. They hadn't known 
much about bin Laden nor what his operation was or the threat 
that he presented. They hadn't received briefings.
    But I assume that you had received briefings about Mr. bin 
Laden and his organization and the potential threat to the 
United States. I know I had. And what I don't understand is how 
someone who got briefings like those that I received, could 
actually have turned down all of those requests by the FBI for 
needed resources.
    I personally was thankful on September 11 that the damage 
wasn't worse, given what we had been told some of the likely 
efforts might be by his organization. And I guess, in light of 
the article, I am simply raising this because I think it is 
important for us to understand whether the budget decisions 
reflected in your September 10 budget submission came about 
because the Attorney General didn't get full information about 
the potential threat or whether it was simply a failure to put 
that information in proper perspective, because to be frank 
about it, the American people have a whole lot riding on your 
judgment and mine.
    And what bothers me is this: This committee and your 
predecessor made a very strong commitment to expanding our 
counterterrorism activities. Overall, we expanded those 
programs by about 15 percent a year in recent years. In 2001, 
that increase was 22 percent. Last spring--and this is before 
you took office, the President's budget proposed to cut that 
rate of growth from 22 percent to about 10 percent. And what I 
gather from the letter cited in the Times article this morning 
is that for the 2003 fiscal year, the budget submission that 
you endorsed would pretty much cut that growth to zero; and 
that bothers me.
    But what bothers me even more about it is that revelation 
comes in the context of what happened to me when I tried and 
when this committee tried and Chairman Young tried to get 
additional antiterrorism spending after September 11, and we 
had to do it over the stiff, fierce objection of the 
Administration.
    After September 11, Chairman Young and I and our staffs 
went out and for 5 days had extensive briefings all around this 
town from the agencies that are under control of the 
Administration--FBI, National Security Council, CIA, you name 
it. And we came up with a list. This is a draft of the list 
that we were preparing on a bipartisan basis of items that we 
wanted to see strengthened in terms of our antiterrorism 
capability. This is a list of the items that we eventually 
proposed above the President's budget.
    We were dismissed by Mitch Daniels, the OMB Budget Director 
as simply--well, he dismissed it as being pork. And he said 
that Congress was simply trying to pad the bill for the war on 
terrorism because it was the only way that Members feel 
relevant; their motto is, ``Just don't stand there, spend 
something.'' That is what the OMB said about our efforts to 
strengthen antiterrorism budgets.
    I will tell you if you can find a single piece of pork in 
the items that Mr. Young and I were suggesting when we went 
down to the White House that day, I will eat your honorary 
degree from Robert Jones University.
    I think it is obvious that this was a serious threat, and 
what I don't understand is why the Administration, even after 
September 11, continued their resistance to additional funding 
for antiterrorism.
    In the end, we got most of what was needed, not all what we 
should have had, but we got the most crucial items; but there 
are still a lot of items we didn't get, which means we will be 
a full year behind, assuming that we do get them this year.
    And I congratulate you and the Administration for the 
submissions you have made this year. Better late than never. 
But I am frustrated because it seems to me that the article 
this morning demonstrates that not only was your Department not 
ahead of the curve, you are light-years behind it. And the 
resistance was carried on even after September 11 by the White 
House. And I guess I would like to know, what were your reasons 
for turning down the FBI's request for those additional items 
in that September 10 budget that you submitted?
    Attorney General Ashcroft. Thank you, Congressman Obey, for 
raising this issue. It is an important issue. And more 
important than anything else is that we understand the truth of 
the situation, and I am very pleased to have the opportunity to 
address the way in which I have viewed the necessity to put a 
priority on terrorism and our fight against terrorism.
    I would indicate from the very beginning that members of 
this committee, particularly the committee leadership and those 
of Senator Judd Gregg in the United States Senate, have been 
helpful to me in sensitizing this issue for me and the need to 
increase funding in this respect.
    On May 9 of the year 2001, that is, 4, months prior to 
September 11, before the Senate Appropriations Committee, I 
made our mission very clear. Our number one goal--and I am 
quoting--is the prevention of terrorist acts. And that 
sensitization came as a result of many of the activities of 
people on this committee, as well as my own awareness.
    In responding to additional questions from the Senators on 
the topic, I stated in writing, ``The protection of this nation 
and its people from acts of terrorism is of paramount concern. 
The Department of Justice has no higher priority.''
    Now, it is true that during the attack of September 11, we 
were still operating under the budget of my predecessors. But 
for the next year, I had asked for and requested increased 
funding for counterterrorism efforts of $436 million, and that 
was for the fiscal year 2002 budget.
    Prior to the submission of the fiscal year 2003 budget and 
prior to September 11, we began to develop the fiscal year 2003 
budget, and we asked for $660 million of increased funding over 
and above the $436 million that we asked for in 2002, which 
would be an increase of a billion dollars in that 2-year frame.
    It is important to note that that $660 million, in many 
respects, was a place-holder.
    Attorney General Ashcroft. That particular item is to be 
noted on September the 11th--pardon me, September 10th, the day 
preceding the September 11th date. And it is important to note 
that the Director of the FBI, Robert Mueller, was only 
confirmed to office on September the 5th, so we had basically 
been putting in a place-holder for his coming to the agency 
and--I should say Bureau, I do not want to confuse these 
intelligence agencies--so that he could place his mark on it. 
He came afterward in that respect with a budget proposal of 
$670 million for the fiscal year 2003--pardon me; in the 2003 
supplemental he came forward with a request for $670 million. 
After we spent some time counseling together, we revised our 
request to $1.1 billion for the supplemental. I think that is 
an important part of the factual understanding to have.
    Now, we stand at the fiscal year 2003 year, and our request 
is for an additional $2 billion in counterterrorism, in 
addition to the supplemental requests that were made.
    The FBI is concerned about information technology and 
counterintelligence, and was so even prior to the September 
11th attack, in some significant measure, because of real 
problems we had with not just the McVeigh case, which was 
domestic terrorism, but with the international intelligence 
tragedy surrounding the Hanssen case.
    So to recap, on May the 9th I stated our number one goal is 
the prevention of terrorist acts. It certainly is our goal, and 
we began to shape the Department and its efforts in that 
respect.
    Now, our Department operates with a 5-year plan that is 
required to be updated every 3 years. And that 5-year plan had 
been put in place by my predecessor and did not mention 
counterterrorism. Rather than wait for 2003 to require a 
retooling of that plan, I directed that that plan be 
redeveloped. In the process of redeveloping that plan, we have 
made counterterrorism our number one priority.

                   Priority of Antiterrorism Funding

    Mr. Obey. But, Mr. Attorney General, with all due respect, 
if we are going to talk about comparing your budget request to 
your predecessor's, your predecessor's averaged 15 percent a 
year in increases. And in fiscal 2001, the increase was 22 
percent. The President's budget proposed to cut that increase 
to 10 percent in the budget he submitted.
    And the September 10th budget which you submitted would 
have cut that to zero, as I understand it, for the 
antiterrorism programs that we are talking about. It is all 
well and good to talk about making antiterrorism your number 
one priority, but budgets tell us what our priorities are. And 
you did, according to the article, turn down the FBI's request 
for $50 million for new counterterrorism field agents, 200 
intelligence analysts, and 54 additional translators.
    I would point out that you say that you got a billion and a 
half dollar increase last year. That is because the Congress 
fought like hell to give a half a billion dollar increase above 
what the White House was willing to accept. The President at 
one point told me, sitting as close to me as you are to me now, 
that if we add one dime over his request he would veto the 
bill.
    So I don't understand this footdragging on the part of your 
agency. And I do not understand the resistance to the FBI 
request, or, for that matter, the bipartisan request--and this 
isn't your fault because you did not guide that strategy, this 
falls squarely on the shoulders of OMB and the White House. But 
I guess I ask these questions not to second guess your past 
judgment, but because I would like to know that in the future 
we are going to be responding aggressively enough to these 
problems, rather than continuing to have a war between the 
Congress and the President simply because the Congress proposed 
some increases to counterterrorism that the White House 
couldn't claim authorship for.
    Attorney General Ashcroft. If I may respond, let me just 
indicate to you that maybe you and I have a different 
definition of footdragging. But when the Director of the FBI 
came to me with a $670 million request, and----
    Mr. Obey. Did you not----
    Attorney General Ashcroft. May I----
    Mr. Obey. But you have mentioned the FBI twice now. Did you 
not turn down their request on September 10th for the increases 
that the article cited?
    Attorney General Ashcroft. After 9-11, the FBI came to me 
with a $670----
    Mr. Obey. I am talking about September 11th beforehand. Is 
that allegation true or not?
    Attorney General Ashcroft. We were in the process of 
developing the budget. I can tell you the budget that we have 
submitted is for substantial increases, and they came to me 
with a $670 million request and we counseled them to take that 
to $1.1 billion.
    I would just indicate to you that in my understanding of 
the term ``footdragging,'' that does not represent 
footdragging. And then let me--I think you have said that you 
are interested in what our----
    Mr. Obey. But I would appreciate a response. Is it true 
that in your September 10th submission that you declined to 
endorse the FBI request for the items that I just mentioned?
    Attorney General Ashcroft. What I think is true is what I 
have told you, Congressman, that when they came to us with a 
request for 6----
    Mr. Obey. So you don't want to say----
    Attorney General Ashcroft [continuing]. 70----
    Mr. Obey. It is true, isn't it?
    Attorney General Ashcroft. What I think is true is what I 
have indicated to you. When they came and asked for $670 
million, we came back and asked them to move it to $1.1 
billion.
    Mr. Obey. After the fact. Do you want to stipulate that it 
is not true that you turned down the FBI request?
    Attorney General Ashcroft. You know, we were in the process 
of developing the budget----
    Mr. Obey. Did I hear a ``no'' there?
    Attorney General Ashcroft. I am not sure on what occasions 
what kinds of negotiations there were. I can tell you that when 
we made our final submission, the request for $670 million was 
a $1.1 billion request. And in my judgment--I am not trying to 
say this has to be your judgment--but in my judgment, moving 
something from $670 million to $1.1 billion is not 
footdragging.
    Mr. Obey. I am glad you did.
    Attorney General Ashcroft. Let me assure you this: We will 
ask for everything we believe to be necessary to defend the 
American people and to defend them effectively. It is not my 
intention, I don't think it would be a fair characterization at 
all to suggest that it has been in any respect our intention 
not to ask for adequate resources to defend the American 
people.
    Mr. Obey. I am going to put in the record, Mr. Chairman, 
with your permission, a chart labeled Counterterrorism 
Supplemental OMB Passback, 12 October 2001. It shows that the 
FBI request for the counterterrorism project was $1.5 billion 
and that the official budget request was not a billion-4, but 
$530 million.
    Mr. Wolf. Without objection.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Obey. I would like also to change the subject to ask 
one other question.
    Attorney General Ashcroft. May I ask the Chairman to allow 
me to provide a complete record to be a part of the record?
    Mr. Obey. Absolutely.
    Mr. Wolf. It will be together.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Obey. I am not trying to second guess your past 
decisions; I use them because they frustrate me, because to me 
it indicates that when the FBI was asking for more agents, you 
turned them down. And after September 11th, even after we saw 
what could happen, the OMB put huge roadblocks up against 
bipartisan efforts in both Chambers to more fully deal with the 
threat that was facing us. And I just use this so that I hope 
this controversy will mean that we do not have that kind of 
division again on this issue, because the country cannot afford 
it.

                        Oregon Assisted Suicide

    I would like to ask one other question with the sufferance 
of the Chair. An article appeared in The Washington Post which 
indicated that you had made a decision to use the resources of 
the Justice Department to pursue doctors in Oregon who under 
Oregon law tried to assist people who asked for a doctor's help 
to die with dignity.
    Was that article correct?
    Attorney General Ashcroft. First of all, without the 
article in front of me, I don't want to talk specifically about 
the article. But let me explain what I believe the situation is 
regarding the matters that you----
    Mr. Obey. I would appreciate a brief answer because I do 
not want to take all the committee's time. I would like to know 
whether or not you have made a decision to prosecute Oregon 
doctors if they pursue----
    Attorney General Ashcroft. Any Oregon doctor that violates 
the laws of the United States, whether it be an Oregon doctor 
or a doctor from Kentucky or Wisconsin or Virginia, I view it 
my responsibility to administer justice.
    Mr. Obey. Well, what I would like to say in that respect--
and this is a personal opinion only, I speak for no one else--
especially in light of the previous discussion about the lack 
of aggressiveness in pursuing antiterrorism or counterterrorism 
programs before September 11th, it seems to me that with scarce 
resources it is legitimate to ask whether or not your agency 
ought to be using its scarce resources to go after doctors who 
under the Oregon law are simply trying to respond with 
compassion to those who are in agony and near death and asking 
for some help.
    And I will be very blunt about it. I came into this world. 
I did not ask your permission to come into this world, and I 
did not ask anybody else's permission to come into this world. 
And if I choose to leave this world, I will be answerable to 
only one person and that is God. I won't have to ask your 
permission, I won't have to ask the permission of any 
ecclesiastical body.
    It seems to me that when we have serious problems upon 
which this country is united, it seems to me that the resources 
of your agency ought to be focused on that, rather than second 
guessing a doctor who, acting out of a mercy judgment, tries to 
help someone who is near death.
    In my view--and this is not a question of life versus 
death, this is a question of death with agony or death with 
some dignity. And while I would certainly never advise anyone 
to end their life prematurely, I believe in the end, that that 
is an individual decision and I don't think that the United 
States Government ought to stick its nose in.
    Attorney General Ashcroft. Mr. Chairman, I would be happy 
to address the issues related to assisted suicide or just 
receive the opinion of the Congressman. When I was confirmed in 
my responsibility, I swore an oath; and not only that, I 
assured Members of the Senate that I would enforce the laws of 
the United States. I intend to enforce the laws of the United 
States until they are changed. And I do not supersede my 
responsibility to enforce the law with my personal evaluation 
of one law or another.
    Mr. Obey. Mr. Attorney General, all I would say in response 
to that is that I don't argue with that statement. It is your 
obligation to enforce the law. But as the previous discussion 
on antiterrorism demonstrated, we do have questions of 
priorities in terms of where we put our dollars and resources. 
And it seems to me that while you have an obligation to enforce 
laws, one can legitimately question the emphasis that you place 
on terrorism versus other activities. And in my view, I would 
bet you that most Americans would hope that you would use every 
dollar of the resources available for counterterrorism rather 
than interfering in choices between doctors and patients.
    Mr. Wolf. Mr. Miller.
    Mr. Miller. Mr. Attorney General, let me commend you for 
the job you have done. You have risen to the challenges of 
September 11th. We are proud of the work you are doing and our 
prayers are with you.
    Attorney General Ashcroft. Thank you.

                          Boys and Girls Club

    Mr. Miller. Let me go back to some issues that I brought up 
last year at this hearing about the Boys and Girls Club. I was 
disappointed that it was not included in the budget last year, 
but, as you know, we worked to include it in the appropriation 
last year. It is a program for disadvantaged youth for after-
school programs and weekend programs. I thank you for including 
it in the budget this year. It makes it a lot easier when we 
start with your inclusion, rather than starting at our end. So 
thank you very much.

                              Extradition

    Let me switch to another issue; that is, extradition. Let 
me start off with a ``thank you'' there. There is the Ira 
Einhorn case. I know you got involved in that case and the 
Justice Department and the State Department worked very, very 
hard. You never see the work that takes place on an issue as 
difficult as that is. Ira Einhorn is accused of the brutal 
murder of his girlfriend in 1977, and is now in Philadelphia, 
in jail, getting ready to stand trial. There are a lot of 
people in the Justice Department and the State Department, both 
here in Washington and in France, that worked very hard on 
that, and I give everybody credit and thank you for personally 
getting involved in that case.
    Attorney General Ashcroft. The French authorities deserve 
our thanks and appreciation. I had to deal personally--it was 
my privilege to deal personally with those authorities, and 
they are to be commended not only on that case, but on a cop 
case, as well, where the French authorities have agreed with us 
for extradition--two very serious matters that were very 
important to the Department. I am glad that you are aware of 
them and we are pleased that they have worked out the way they 
have.
    Mr. Miller. I got involved in an extradition issue because 
of a brutal, horrible murder in Sarasota, Florida in 1977 where 
a man drove from San Antonio, Texas, to Sarasota, spent the 
night, a hired killer, murdered a mother of six, 2-year-old 
quadruplets at home that day. Shot her in the head twice and 
slit her throat twice. He drove from Sarasota back to Texas and 
then fled to Mexico. It took us a long time to extradite him 
from Mexico. We waived the death penalty.

                        Extradition From Mexico

    The problem we are challenged with now is, as you are very 
aware--I think you are aware--is that Mexico has now determined 
that a life sentence is cruel and unusual punishment, and their 
Supreme Court has ruled that they will not extradite people for 
that cause. They have continued to do that.
    I have a letter that I am going to give to you signed by a 
number of members of this committee asking you to address this 
issue with the extradition. We think it is inconsistent with 
our current extradition treaty. It challenges the legal system 
and will encourage criminals to flee.
    I have also received a letter of an organization that you 
used to be chairman of, the National Association of Attorneys 
General, signed by most of the Attorneys General of the United 
States on July 22nd, raising this exact issue.
    This may give an opportunity for you to address extradition 
issues around the world. The European Union, it is my 
understanding, after September 11th passed new extradition for 
the European Union to extradite; basically deport, like 
deporting somebody from Florida to Michigan. We have problems 
with our extradition treaties around the world. I don't even 
think we have one with Pakistan. And when you have brutal 
murderers--in the Del Toro case he pled guilty, he was hired by 
the ex-husband. In the Ira Einhorn case, he will have a fair 
trial in Philadelphia.
    But as we have potential terrorists that we may need to 
extradite to this country, I hope we can revisit extradition 
treaties. My question is, what is going to happen with the 
Mexican Supreme Court ruling? I know they have continued to 
allow some extraditions and deportations, but we cannot allow 
that to stand.
    Attorney General Ashcroft. This is a matter of particular 
concern and it is troublesome to me.
    We cannot have a situation where there is a perceived safe 
haven for serious criminals to leave the United States and hide 
in Mexico. I don't believe the Mexican authorities want this to 
be the case. We have gotten good cooperation in this 
Administration in terms of extraditions and the number of 
extraditions has gone up dramatically. But when the Supreme 
Court of Mexico has ruled that certain individuals are 
ineligible for extradition based on the penalty, including 
penalties that might be life sentences, not just capital 
penalties, it is a very, very serious matter.
    I will be raising the matter and have discussed the matter 
with Mexican authorities, and will obviously do everything that 
I can within the Administration to make sure that it is raised 
with them. But we have got to work very hard to try and 
overcome this. The fact that it is a matter from their Supreme 
Court, rather than from the legislative branch of government, 
makes remediation of it in some respects a little more 
difficult than it would if it were a part of a capacity of an 
Administration to carry forward with an initiative.
    Let me just indicate to you that we have been discussing 
our extradition matters with our European friends in regard to 
the potentials that exist, especially those following 9-11, and 
we would very much like to have the kind of benefit in 
extraditions from one European country to the United States 
that they have when they move an individual who has been 
charged from one European country to another European country.
    Mr. Miller. My understanding is that what happened with the 
European countries, they just changed that at the European 
Union level after September 11th because of the challenges that 
brought. But it is of great concern.
    Attorney General Ashcroft. They have explored and, I 
believe, begun to implement what they would refer to as a Euro 
warrant and the ability to arrest and detain based on the 
demand of one country regarding an individual alleged to have 
committed a crime within the jurisdiction of that demanding 
country.
    Mr. Miller. This may be a time and opportunity to try to 
strengthen extradition treaties so we can go for deportation 
and get people to stand trial, especially with Mexico where we 
have such a huge border. They are our neighbor and we need to 
work with them, but it cannot be a safe haven for people to 
drive to Mexico--and for the life sentence I understand the 
debate on the death penalty, but not life sentence.
    Thank you for the job that you are doing. I yield back.
    Mr. Wolf. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. Mr. Attorney 
General, welcome.
    Attorney General Ashcroft. Thank you.

                        transfer of odp to fema

    Mr. Mollohan. As you know, the President's fiscal year 03 
budget proposes a transfer of the Office of Domestic 
Preparedness from Justice to FEMA. And that has ignited a minor 
political firestorm up here. I would like for you to talk a 
little bit about that. Maybe you could start by telling us just 
what the role of the Office of Domestic Preparedness is and at 
the end I would like for you to publicly analyze this transfer 
and state your views.
    Attorney General Ashcroft. Well, the Office of Domestic 
Preparedness has been a grant-making office in the Justice 
Department to help develop, at the direction of the Congress, 
the capacity and capability of local law enforcement officials 
to participate effectively in responding to and curtailing, 
preventing, and remediating terrorist activities.
    The President of the United States has indicated that he 
believes that a number of the federal programs offering 
training and assistance to state and local organizations and 
governments be, and I am quoting, ``seamlessly integrated, 
harmonious, and comprehensive,'' to maximize their 
effectiveness. And he believes that the first responder 
community works well with FEMA. And FEMA, frequently in natural 
disasters and a variety of other settings, is working closely 
with police, fire, emergency medical folks, and first 
responders.
    I support the Administration's position in this respect, 
and the transfer will provide state and local responders with a 
single funding source for $3.5 billion in equipment grants and 
training programs and other preparedness efforts.
    During the time when this office was in the Justice 
Department, we have worked to try and train and prepare 
individuals. We believe that the record of the Justice 
Department in working together to get that done is a good 
record. But this Administration is preparing to make the 
transfer, which I support.
    Mr. Mollohan. Have you talked with Director Allbaugh about 
this transfer and the prospect of the transfer?
    Attorney General Ashcroft. I have indicated to him that the 
Administration proposal in this respect has my support.
    Mr. Mollohan. This is a large amount of money that we would 
be transferring to FEMA, $234 billion. It is a huge chunk of 
money. Does this require an authorization?
    Attorney General Ashcroft. The Administration's position is 
that it does not. But obviously the proposal and submission 
request for appropriation contemplates that it be; that is, the 
expected transfer would be facilitated. The Administration 
believes that FEMA already has the authority to administer 
these programs; therefore, the Office of Justice programs' 
budget includes a transfer in the estimates of 59 positions and 
$234,494,000 in the year 2003.
    Mr. Mollohan. So your position is that FEMA has the 
appropriate grant-making authority at this time, and this is 
simply a process that can be worked out among the various 
players in the appropriations process?
    Attorney General Ashcroft. Yes, it is.
    Mr. Mollohan. And you support the transfer?
    Attorney General Ashcroft. I support the transfer, I 
support the plan of the administration.

                          prison construction

    Mr. Mollohan. Attorney General, let me address the Bureau 
of Prisons for a moment. I note a cut in the construction 
budget for the Bureau of Prisons. It has been on a real ramp-up 
in the last few years to accommodate the rapidly increasing 
demand on the prison system because of the growth of the prison 
population. And last year, during the testimony of Ms. Sawyer, 
the Director of the Bureau of Prisons, she indicated that the 
Federal inmate population had increased more than sixfold in 
the last two decades. She further indicated that the Bureau of 
Prisons expected the prison population to continue to increase 
due to aggressive law enforcement initiatives, particularly in 
immigration areas, drugs areas, and weapons offenses, some of 
which I am sure will be impacted by your antiterrorism 
initiatives. Such growth has necessitated a really ambitious 
prison construction program.
    Your prison construction program budget is significantly 
lower in your 03 request than it was in 02. Now here is the 
problem. There are a number of outstanding construction 
projects for which partial funds have been provided in past 
years. Completion funds, as I review your budget, are not 
included in the 03 request. And I wonder if you could comment, 
and if you agree with that. And if you do not, please explain 
why that might be wrong.
    Attorney General Ashcroft. Well, the 2003 budget request 
balances the challenge of new prison space and construction 
funding with other top priorities including counterterrorism. 
There are a total of 28 federal prison facilities that the 
Bureau of Prisons plans to bring on-line through the year 2009. 
Beyond the 2003 request, the Bureau of Prisons has nine 
partially funded facilities in the pipeline which will help 
lessen crowding in the federal prison system. These nine 
projects, which will require approximately $1.1 billion to 
complete, will provide an additional 10,280 beds once 
completed.
    Mr. Mollohan. But you are asking for construction for only 
three, as I understand it.
    Attorney General Ashcroft. That is correct. In time, those 
nine would be required for completion after the 2003 year.
    There are probably one or two other things that ought to be 
mentioned, and that is that we are being asked by Members of 
the House and Senate to think carefully about building 
additional space, given the fact that there are a number of 
jurisdictions that have surplus space, and we have constituted 
a special group to look at this; because when states have 
space, it may be that there are ways for us to utilize the 
space that has been constructed pursuant to state programs to 
fulfill some of these needs.
    Mr. Mollohan. You know, this has been an ongoing topic for 
this committee for a number of years--the ability of private 
and state prisons to accommodate federal prisoners. And I think 
the consensus, after you deal with that issue for a period of 
time--for those who have dealt with it for a period of time--is 
that private prisons can handle inmates at the lowest security 
level.
    Attorney General Ashcroft. Minimum security.
    Mr. Mollohan. Yes Minimum security. Federal prisons, 
really, if they are going to have the responsibility of housing 
higher security inmates, they need to have the facilities to 
accommodate them. And I hope we do not go back and rehash that 
debate and shortchange prison construction in the meantime, 
particularly prisons that are already under construction but 
not fully funded.
    Attorney General Ashcroft. Well, I would agree with you. 
That is why we have appointed a group to study these issues. 
Standards can sometimes be substantially different. And I don't 
believe what we are studying is the rental of space. We are 
being--a number of Members of the Congress have asked us to 
consider the acquisition of space, that surplus space in state 
systems. The success----
    Mr. Mollohan. You mean to buy state prisons that the states 
built?
    Attorney General Ashcroft. Or to use state prisons instead 
of constructing additional prisons that had been, at one time, 
planned in the federal system.
    Mr. Mollohan. Thank you, General. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Latham.
    Mr. Latham. Thank you very much, Mr. Chairman. Before I 
start, Mr. Miller had asked that I submit a letter for the 
record.
    Mr. Wolf. Without objection. Sure.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Latham. Thank you. Welcome, Attorney General Ashcroft. 
It is a real pleasure and honor to have you. And I want to 
congratulate you on an outstanding job that you have done 
protecting our country. And I don't think there is any question 
that the actions that you have taken have saved American lives 
since September 11th, and we are all deeply appreciative of the 
fine work that you have done.

                           ins reorganization

    I would like to associate myself with the comments by Mr. 
Rogers and his concerns with INS. I would say in Iowa 70 to 90 
percent of our casework has to do with problems dealing with 
INS. And anything that we can do to reform INS, to secure our 
borders, as I do town meetings, it is the number one issue. 
People are very concerned about the porous borders we have. 
Dealing with the problem in Iowa and around the whole country, 
Seems to be a lack of responsiveness from INS. And a lot of it 
is just in the way the agency is made up, but systemically it 
has to be changed, I think, to separate out the enforcement and 
the administrative functions with the Border Patrol also.

                            methamphetamines

    Somewhat in that vein, and your being from Missouri, you 
are keenly aware of the problem with methamphetamines in the 
Midwest. It is a problem that continues to grow and grow, and 
is a huge problem for local law enforcement.
    That is why I guess I am concerned about the budget you are 
talking about some severe cuts or even elimination of programs 
that are important to Iowa, and to local law enforcement: the 
State prison grants--the Byrne discretionary grants, State 
Alien Assistance programs, Local Law Enforcement Block grants. 
And I have to say that this is something that we have talked 
about since I have been on this subcommittee for the last 
several years. Congress has had to deal with the 
Administration's proposals which have reduced those programs.
    But I would ask you, are you planning on making up the 
loss? We have a tremendous burden on local law enforcement 
today and also our emergency services, as you are keenly aware. 
But if we do follow your blueprint, where are these funds going 
to be made up? And when my mother in Alexander, Iowa calls 911, 
she does not get the FBI or the CIA, she gets the local fire 
department, the local police, the sheriff. Where are we going 
to make up these funds?
    Attorney General Ashcroft. Well, let me just indicate that 
I am somewhat familiar with the methamphetamine challenges. We 
are continuing the $20 million requested for meth lab cleanup, 
the most difficult part of the situation. We had an epidemic of 
methamphetamine production in Missouri before my time as 
Attorney General, and they still have a problem there. I think 
cleanup is something that the Federal government can be of 
assistance with, given the special toxicity that follows meth 
lab production.
    But we do have a change in the grant program. And we hope 
that the increased flexibility of the Justice Assistance grants 
over the Byrne grants will be of some value. However, it is 
clear that we have had to set some priorities for 
counterterrorism. And with the Federal government having to do 
more things--you have mentioned immigration and naturalization, 
securing the borders--those demands have simply made it 
impossible for us to serve all of the demands or requests that 
we would like to have otherwise been able to serve.

                                  cops

    Mr. Latham. Okay. Well, I am sure the committee will look 
at these things as we always do.
    One other concern in the COPS program; a lot of our 
agencies are having a difficult time. They will get notice of a 
grant award from the COPS program, but the money does not come 
until a year later. And obviously there is a lot of frustration 
with that--with the tight budgets everyone has today.
    Attorney General Ashcroft. Well, obviously the COPS program 
has been one of the most successful programs that we have ever 
worked with. It is a program where the Federal government 
sought to demonstrate the value of increased law enforcement 
and to fund the demonstration. Ninety-two percent of the 
jurisdictions that received money under the COPS program 
decided yes indeed, this does help reduce crime. We want to 
continue that and have decided to use local resources to 
continue those things.
    We believe that was a very successful program, and yet we 
believe that the point has been made there.
    Mr. Latham. Okay. I again congratulate you for the 
outstanding job that you have done; it is very much appreciated 
by all Iowans and the country. Thank you.
    Attorney General Ashcroft. Thank you.
    Mr. Wolf. We are just going to take a 5-minute recess.
    [Recess.]
    Mr. Wolf. We will reconvene. The committee will come to 
order. Mrs. Roybal-Allard.
    Attorney General Ashcroft. Thank you, Mr. Chairman, for the 
opportunity to take a break.
    Ms. Roybal-Allard. Thank you, Mr. Chairman. And welcome, 
Attorney General.

                           ins reorganization

    Let me begin first of all by also expressing my strong 
interest in the restructuring of the INS. And I would be very 
happy to work with you, along with the other Members of 
Congress who have a similar interest, to make sure that the 
final package is one that truly creates an agency that is just 
and fair and efficient on both the enforcement side and the 
service side.

                                 245(i)

    Last year, you, along with the President and the 
Administration, expressed strong support for a second temporary 
extension of 245(i) of the Immigration and Nationality Act. And 
this extension, as you know, would allow individuals to remain 
in this country while adjusting their status, rather than 
having to leave and go back to their country of origin, and 
thereby having to leave their family for up to 10 years.
    Can you tell me, please, if the Administration is still 
supportive of that policy, of family unification, or has there 
been a change in policy for the Administration?
    Attorney General Ashcroft. The Administration continues to 
support the extension of 245(i). We were encouraged by the 
compromise that was being worked out last year and hopefully 
the same spirit, I think, could characterize some ability to 
address the kind of relief that this represents. And it would 
be my hope that this kind of effort is something that could 
provide a basis for us working together to get something to the 
President that he could sign quickly.
    Ms. Roybal-Allard. Well, perhaps with your support and that 
of the Administration, you could work with the Congressional 
Hispanic Caucus to encourage the leadership in the House to 
bring up that very important bill.

                           scaap elimination

    I would now like to ask a question with regard to an issue 
that is extremely important to California, and that is the 
proposed--in your proposed budget, the administration 
eliminated the funding for the criminal alien assistance 
program, which is known as SCAAP. And I realize that SCAAP does 
not directly reduce violent crime and it was never intended to 
do so. But SCAAP was specifically designed as a reimbursement 
program to help states and localities offset the increasing 
costs of incarcerating criminal aliens who are the 
responsibility of the Federal Government.
    In fact, in 1995, then-Governor Bush stated his strong 
support for the SCAAP program, stating, and I quote: If the 
Federal government cannot do its job of enforcing the borders, 
then it owes the States monies to pay for its failures. End of 
quote.
    And if the SCAAP program is eliminated, state and local law 
enforcements will have to divert already very limited 
resources. Particularly, for example, in California we 
currently pay as much as $600 million annually for the 
incarceration of these individuals. And then, as Mr. Latham 
mentioned, to add to the problems of state and local law 
enforcement, the administration's budgets have cuts or 
eliminated other important programs such as Byrne and the COPS, 
technology grants, juvenile justice assistance, and meth 
enforcement.
    Now, given the fact that the intent is to eliminate this 
program, how does the Administration propose that States like 
California make up for the shortfall that they will be 
experiencing due to the elimination of SCAAP, especially in 
light of the fact that many states have their own huge budget 
deficit at this time?
    Attorney General Ashcroft. Well, the focus of the 
President's budget is on counterterrorism and the effort to 
expand that particular responsibility. There are programs like 
SCAAP that are reduced or eliminated. And as part of the 
President's emphasis on homeland security, the savings from 
SCAAP will allow resources to be redirected to the INS law 
enforcement community, and that community grows by almost a 
billion dollars in the President's 2003 budget.
    Now, doing a better job along the border is of benefit to 
the states that were in many respects very substantially 
affected by the SCAAP program. Border states, Texas, New 
Mexico, Arizona, California, will continue to be beneficiaries 
of the southwest border assistance initiative, and under OJP 
Southwest Border Initiative program for which we are requesting 
$50 million. Border states and jurisdiction offices, court 
officials, will get some assistance.
    But I think it is fair to say that this is a circumstance 
where the demand for additional Federal activity has resulted 
in a direction of the resources to the Federal law enforcement 
agencies like the Border Patrol and INS, and as a result some 
programs like SCAAP are reduced or eliminated.

                    state and local law enforcement

    Ms. Roybal-Allard. Well, Mr. Attorney General, it is my 
understanding that state and local law enforcement are a part 
of our country's first line of defense and response to 
terrorist threats or attacks. So their ability to have strong 
local law enforcement is extremely important to the whole 
effort for national security. So by making these cuts and 
eliminating some of these very important programs, do you not 
in fact weaken their ability to be that first line of defense?
    Attorney General Ashcroft. We certainly do not want to 
weaken our partners in the fight against terrorism. And there 
is no question about the terrorist threat. It requires us to be 
integrated in our approach with people at the lowest level of 
law enforcement and above the United States to that extent in 
the international community, if you wanted to have a continuum. 
We have to rely on help from other nations, but obviously we 
have to rely on help from state and local officials.
    We are doing a number of things to help state and locals, 
and if you look at the budget overall, there is a substantial 
increase to the assistance that we will bring to the state and 
local law enforcement agencies. But in this particular program, 
SCAAP, the program is eliminated.
    We are, for instance, sharing information in ways and 
providing training for sharing information and providing 
training and assistance for agencies and learning how best to 
integrate their effort and to develop interoperability of their 
communications systems so that we will work well together.
    But the particular SCAAP program is one of those programs 
reduced or eliminated as a result of the reconfiguration of the 
resources, primarily at the national level, which means that 
some of our assistance to parts of the state and local equation 
have been eliminated or reduced.
    Ms. Roybal-Allard. Mr. Attorney General, let me 
respectfully suggest that if law enforcement is expected to be 
the first line of defense and a response to terrorist attacks, 
that--for example, in California, not being able to have any 
reimbursement for the $600 million that is currently spent, 
plus all the other cuts and reductions that are being made to 
law enforcement programs--that in fact you are weakening local 
law enforcement and not strengthening them. And I don't believe 
that any of the additional monies are going to make up for that 
shortage. And I think there is tremendous concern among law 
enforcement about what has been proposed by this budget.

                      board of immigration appeals

    I also understand that the Department has recently proposed 
a regulation to streamline the Bureau of Immigration Appeals, 
known as BIA. And given the current heavy workload and backlog 
of 55,000 cases, although I agree that something needs to be 
done, how we do it I believe is extremely important, because 
the BIA is often the tribunal of last resort for thousands of 
immigrants. Therefore, some of the provisions of the 
Department's regulation are of great concern not only to me, 
but to many in my community and the district that I represent.
    For example, the proposal to cut the Immigration Appeals 
Board from 23 authorized members to just 11, which could result 
in a less than thorough review of cases because of the 
increased workload of individual judges; the proposal to reduce 
the number of judges on review panels from 3 to 1, which 
potentially places too much power in the hands of one 
individual by discouraging collaboration; and finally, the 
concern about the proposal to eliminate the de novo review, 
which would prohibit the introduction of new evidence and the 
questioning of previously presented evidence during the appeal, 
this also could discourage a full and objective review of 
cases.
    How do you propose to ensure that the thoughtful and 
thorough review of all BIA cases is not compromised for 
expediency's sake?
    Attorney General Ashcroft. Well, first of all, let me agree 
with you that we need to have a system which provides for due 
process, which treats people with fairness and dignity, which 
gives people a chance to have their cases ruled on 
expeditiously. And that is the controlling guideline that we 
would use.
    An experiment or pilot program had been started earlier by 
the previous Administration which gave us indication that we 
could provide some efficiencies. Let me just start by saying 
one of the items is to not use 3-judge panels in every case. If 
there are not novel questions or disagreements between what one 
part of the immigration system is doing and another part of the 
immigration system is doing, or there are not difficult matters 
of law, a single judge should be able to make the decision.
    And if people really deserve to have their cases ruled on 
in a timely fashion, asking three judges separately in series 
to make those decisions has prolonged the time. Most Americans, 
when they go to court, do not get three judges; they get a 
single judge to rule, and that judge makes a ruling. 
Occasionally in a U.S. district court, there is a multiple-
judge situation.
    We have reserved the opportunity for multiple-member panels 
to be used in cases that do involve disagreements between 
immigration judges or other difficult matters of law. But the 
screening panel will assign those cases which have those kinds 
of issues. The other cases should be ruled upon by single 
judges.
    You mentioned eliminating the appeal levels de novo or 
trying the case over again. It is an element of the way America 
does appeals to rely on the people who do the trial work to 
make judgments about the facts. And when an ordinary citizen of 
this country goes on appeal to an appeals court, that citizen 
does not have the right to have the appeal court redo the 
entirety of the proceeding. The appeals court is there to 
safeguard against abuses, failures to follow the law, or 
manifest clearly erroneous conclusions.
    The BIA, the Board of Immigration Appeals, under the new 
program would sort of mirror that system, where they would 
accept the factual findings of the immigration judges and 
disturb them only if they are clearly erroneous, which is 
similar to the way Americans have their cases adjudicated when 
a citizen goes to court. The appellate court only sets aside a 
factual finding if it is clearly erroneous.
    Number three, the proposed rule would establish a series of 
time limits to expedite pending cases. We have had cases that 
were pending for many, many years. One of the cases which was 
pending for over 5 years was related to an individual who had 
been charged with massive dealings in the heroin and dope 
community, and the delay in the cases by virtue of 
reconstituting the case totally with de novo appeals and delays 
that come with multiple judges in the cases simply is 
unwarranted.
    At the time that the proposed rule takes effect, the Board 
of Immigration Appeals would immediately implement some 
procedural changes. And during the transition period, the 
members of the Board of Immigration Appeals are directed to 
apply the procedures to all cases already pending so that at 
the end of the transition period, no case would be pending for 
longer than 10 months. We believe that one of the rights that 
those individuals who are in this system have is to have a 
process that provides them with a prompt, fair, resolution that 
has adequate safeguards, but that does not unduly delay their 
particular cases.
    And of the 56,000 cases in the backlog, more than 34,000 
are over a year old and more than 10,000 are over 3 years old, 
and some are more than 7 years old. And I think we need to 
reform the court because that is not the way that we should 
deal with the cases of individuals whose very lives are 
dependent upon their status as it relates to citizenship or 
eligibility to stay in the United States.
    Ms. Roybal-Allard. Let me respectfully point out that 
unlike the BIA when a citizen is before one judge, they also 
have a jury of 12 of their peers, so it is a little bit 
different.

                       reduction of judges in bia

    My second question has to do with reducing the number of 
judges from 23 positions to--I believe there is right now 19 of 
which are currently filled--to 11, and what criteria you will 
use to determine which judges stay and which judges will go.
    Attorney General Ashcroft. Well, there are likely to be 
judges that leave as a result of attrition. But we would try to 
have individuals stay who are good judges.
    Ms. Roybal-Allard. Well, is there--I guess my question is 
what kind of criteria is going to be used and is it something 
that will be available to the public to determine who are the 
good judges and who are not the good judges, and what is going 
to be the basis upon which a decision is going to be made as to 
who stays and who goes.
    Attorney General Ashcroft. Part of the decision-making 
should be judges who can make decisions within a reasonable 
time frame so that we don't have the kind of backlogs that find 
cases of 7 years old, 10,000 cases over 3 years old, and cases 
being unduly delayed. We have thoroughly analyzed the 
bottlenecks in the system and have concluded the problem is not 
one of personnel but one of procedure. So we believe change is 
one that should be made and can be made.
    Ms. Roybal-Allard. So will you be determining it by how 
fast a judge can review a case and get it out of the way, or 
quality of his decisions?
    Attorney General Ashcroft. This would be the criteria: 
those who are most respected in the field of immigration law, 
those who are the most knowledgeable and capable in applying 
the law, those who exhibit and have a judicial demeanor, those 
who perform their jobs ethically and with professionalism, and 
those who demonstrate themselves to be capable of tackling the 
workload. And in making that determination, I will solicit the 
advice of the Director of the Executive Office for Immigration 
Review--EOIR--as well as the input of the board chairman, and I 
would obviously welcome input from the Members of Congress as 
well.
    Ms. Roybal-Allard. So ultimately you will be making that 
final decision?
    Attorney General Ashcroft. We will make a decision to 
reduce the number of judges on the board to a number that is 
necessary. The number of judges went from a very small number, 
5 members in the mid-nineties, to 21 members. And in the 
expansion of the court, we found that we didn't get any 
improvement in the performance. And what we believe is that the 
system is at fault, not the personnel. We need to drive with 
reforming the system and providing a more productive approach 
so that hard-working, honest individuals are not asked to wait 
years to get an outcome. We believe that individuals can fairly 
make these decisions and ought to, and that the safeguards 
under the proposed system are very, very adequate and 
appropriate.

                    elimination of attorneys at bia

    Ms. Roybal-Allard. In last year's hearing, DOJ indicated 
that it requested--it needed 10 additional positions for the 
BIA, based on the pending backlog and anticipated workload that 
you just mentioned. These 10 new attorney positions were paid 
for with the funding the BIA received through the fiscal year 
2001 counterterrorism supplemental appropriations bill. Are you 
now planning to eliminate these staff attorney positions under 
your proposed regulation?
    Attorney General Ashcroft. We believe that the staff is not 
the problem here. We believe that the process and procedure is 
the problem and we--we are reviewing the situation in regard to 
the value of the staff and moving the caseload through, and 
have not made a decision to cut the staff as we have the 
decision to change the way the judges in the system operate. 
When you cut the number of judges on most of the original cases 
by two-thirds, that means that those cases can proceed much 
more expeditiously. But we have not come to the conclusion that 
the staff should be cut. It may well be that the staff needs to 
be maintained at this level.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Mr. Wolf.  Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman and welcome, Mr. 
Attorney General. It was an honor for me to join you not too 
long ago for the renaming of the Department of Justice in the 
memory of my late uncle, Robert F. Kennedy, and indeed you 
honored my whole family in joining with the President.
    Attorney General Ashcroft. The honor was mine, Congressman.

                   national crime information center

    Mr. Kennedy. Thank you. I wanted to go through a number of 
issues, some of them are disparate. But I wanted to start with 
an issue that came to my attention in another subcommittee that 
I attend as a member, and that is the Labor, Health and 
Education Subcommittee. Just the other day, we had the 
opportunity to meet with the Social Security administrator and 
go through a number of issues with our Social Security system. 
And of course in the national news, it has been featured 
prominently, Social Security identification fraud. The question 
that I came up with there had to do with not only homeland 
defense, but also Social Security and its financial stability. 
Particularly the discussion revolved around the fugitive felon 
program, and it was just incredible to me to learn in just this 
last year, Social Security identified over 22,000 fugitives, 
and they were paid by the Social Security Administration. These 
fugitives were paid in excess of $41 million.
    And I thought to myself, how in the world could Social 
Security be paying all these fugitives these Social Security 
checks? And it came to my attention that using the audit 
figures, that the National Crime Information Center does not 
capture all felony warrants in this country. In fact, it only 
receives only 28 percent of all felony warrants nationwide. 
Obviously that is a troubling thought, to think that not only 
are we overpaying Social Security benefits to felons, but that 
is a result of the fact that we don't even have a national 
warrant database.
    So I would like to ask you a question because the Office of 
Inspector General recommended that we have a national warrant 
database that would facilitate this information. I am wondering 
if you can comment on whether you are doing this or whether you 
would like to see this done. If you could comment on this 
briefly please.
    Attorney General Ashcroft. Frankly, I am very pleased to 
hear your expression of interest in this and I believe it is 
something that we may be able to work together to improve. We 
are starting to use the National Crime Information Center, 
NCIC, data and we are starting to check it against other 
databases, including those involved in immigration. And we have 
already found a number of hits of people trying to come in or 
leave the country that we have pulled out of the line to have 
their fingerprints examined. Having a more complete capacity in 
that database is something that I am interested in, and would 
be pleased to confer with you about it.

                     STAFFING AT LOCAL INS OFFICES

    Mr. Kennedy. Super. I think it is essential, obviously. I 
wanted to further discuss some of the INS issues that were 
brought up before. In my state, I visited our INS offices and 
they are absolutely overworked. In fact, INS agents are out on 
the job inspecting cargo ships while a backlog of cases for 
people trying to become citizens grows longer and longer. When 
you look at some of these cases of people and what they have 
been through they are just trying to formalize their paperwork. 
I might add, if they don't formalize their paperwork, then they 
are subject to all kinds of discrimination as the fact that 
they are not full citizens yet and don't enjoy all the benefits 
of full citizenship even though they pay their payroll taxes 
and everything else and are good members of our community.
    So I just reiterate the frustration I think you have seen 
expressed by other members on that issue and I would hope that 
we could staff up our local INS offices for that reason as 
well.

                    VISA WAIVER--ARGENTINA/PORTUGAL

    And in another area of the immigration, I just wanted to 
say that your review of Argentina for the Visa Waiver is 
understandable and I certainly support it. I am interested in 
the other Visa Waiver countries that we have a bilateral 
relationship with, especially Portugal. I understand that the 
support team that you sent over to Portugal found that it was 
doing everything right and, in fact, was very advanced and 
really meeting all the requirements under the Visa Waiver 
provisions, and they were anxious to work with us to enhance 
any requirements in addition to those that we thought might be 
necessary in the wake of 9-11. So given the fact that they play 
a big role in our national defense and support us unequivocally 
on every issue of national security, I just hope we keep 
Portugal in the Visa Waiver program, and given we have a close 
relationship with Portugal--and I would just leave that for 
your comment, if you would.
    Attorney General Ashcroft. I would be happy to address the 
visa waiver issue, and particularly Portugal. There are a 
number of countries that we have said, if you have a passport, 
you don't have to get a visa in order to come to the United 
States. That is known as the Visa Waiver program. If those 
countries don't have a secure passport administration so that 
there are lots of opportunities for passports to either be 
fabricated or acquired from the country in a system that lacks 
the kind of accounting integrity that would provide for 
accountability, then persons from who knows where go and get 
those passports and then are ushered into the United States 
without any of the kinds of safeguards that would normally 
attend to visas.
    It became very apparent to us, and these are some of our 
country's best friends, some of the people who are always with 
the United States, who believe what we believe, just haven't 
had a focus on their passports. The review of Portugal's status 
is expected to be completed in the next couple of months, and 
the Secretary of State and I will submit a written report to 
Congress regarding their participation. And I hope that their 
participation is as constructive as you have indicated. I have 
not reviewed their situation. We sent a pretty clear signal.
    And you mentioned Argentina; we sent signals to other 
settings, and Portugal is certainly not singled out here. I 
think we all understand the need for integrity in finding ways 
to make sure the right people with the right intentions come to 
this country. That is what this is about.

                               LIBERIANS

    Mr. Kennedy. I wanted to say something on one other area of 
concern in Rhode Island. We have the largest population of 
Liberians in this country, and they have certainly undergone 
incredible suffering in their homeland, none the least of which 
was exacerbated by the shipment of U.S. arms. So I thought 
their being given political asylum here is very appropriate 
but, as you can imagine, it is very unsettling to think that 
every year they might have to be sent back to the kind of 
terrorism that is going on in their country. It is brutal 
terrorism, kids losing arms and legs and whole families 
disappearing. So I would just say that we appreciate what the 
Administration did to allow another year to go by and would 
certainly like to work with them and try to assure that, given 
the history, rich history of our country and that of Liberia 
which was founded by former American slaves, I would hope that 
we could work together to give the Liberian community their 
just due with the uncertainty that they live with every year 
and whether they have to get sent back.
    Attorney General Ashcroft. Congressman Kennedy, I know of 
your interest and know of Senator Reed's interest in this 
matter. For about a decade now, it has been a year-to-year 
existence, and frankly the deferred enforced departure 
provision which allows me, on an annual basis, to make an 
adjustment is something that is designed to address critical 
and acute problems. I think there is a question--and I think 
you have raised this--that maybe this isn't an acute problem in 
the sense that it is something that happens and is over with. 
This is sort of a protracted and chronic thing. I told Senator 
Reed when I had a chance to speak with him, to confer with him 
about ways of dealing with this, and I am open to that. I have 
a great sense of appreciation for your compassion in this 
setting and I think it is compassion that is well placed.
    Mr. Kennedy. Thank you very much.

          BYRNE GRANTS AND LOCAL LAW ENFORCEMENT BLOCK GRANTS

    Mr. Attorney General, just two short questions, one to 
follow up on the question that was asked about the 
consolidation of the Byrne grant, and of course the Local Law 
Enforcement Block Grant. I can understand where you might want 
to consolidate, but there is a cut of $100 million, and local 
communities in my district benefit tremendously by both grant 
processes. Of course they are understandably very concerned 
about their ability to continue very valuable programs within 
our communities that help divert juvenile crime and the like 
and help our officers to be able to prosecute crime a lot 
easier. So we just express our concern over that.
    And I have a further question in that regard for the record 
that goes into some of my local communities and how they might 
be affected by this.

                            HIDTA AND OCDETF

    Then one other question. Our Department of U.S. Attorney is 
concerned, being a small state as we are, about the cooperation 
between the High-Intensity Drug Trafficking Areas and Organized 
Crime Drug Enforcement Task Force. There is some concern in our 
state that we and small states may not get the cooperation that 
we need to, and we are very much in support of the HIDTA 
program but we are worried about small states and how they 
might work together with the Organized Crime Drug Enforcement 
Task Force. I would just say that is one of the concerns that 
has been expressed to me.
    Attorney General Ashcroft. May I just make a remark on 
that? Larry Thompson, the Deputy Attorney General, served as a 
U.S. Attorney back in the mid-eighties and was one of the 
architects of OCDETF, and he is very committed to a 
comprehensive approach on drugs. And I think it is something 
that you would respond to that would address the demand and 
treatment sides of things as well as the supply side. And he 
has made this a--well, I put it this way. Michael Jordan came 
back to the Wizards; Larry Thompson came back to the Justice 
Department to work in this area. I am lucky and America is 
lucky to have him. OCDETF is a matter of his focus, and I will 
mention to him your special concerns about the special 
relationship between OCDETF and HIDTA or the High Intensity 
Drug Trafficking Area organization.

                       9/11 VICTIMS COMPENSATION

    Mr. Kennedy. I want to submit for the record additional 
questions, Mr. Chairman, and just say that it was my honor to 
work with the Department of Justice last year to have included 
in the PATRIOT Act the public safety officers benefit death 
program included in the PATRIOT Act. It was tragic in my state 
that just after that passed, one of our own officers in East 
Providence was killed, with five children. And to think that he 
was able to get the additional resources made available by this 
Congress when we passed the PATRIOT Act is very heartening. 
What does leave a lot of people with some questions is the fact 
that this additional money is counted against the compensation 
fund that you mentioned at the outset in your remarks, when it 
comes to the widows and children of 9-11, those police and 
firemen that were killed there. I don't know if the Congress 
realized it when we passed it, but unfortunately this is now 
considered part of the offset that is obviously a very 
controversial part of the Special Master's duties. But maybe if 
you could certainly convey to the Special Master that it 
certainly was not our intent to have this offset when we passed 
the PATRIOT Act, since we did it retroactively, that would be 
very much appreciated.
    Mr. Wolf.  Thank you, Mr. Attorney General.
    Mr. Kennedy. By the way, Mr. Attorney General, I didn't ask 
anything about the Rams and the Patriots. I recall joining you 
for the Super Bowl a couple of years ago with Dick Gephardt and 
seeing you----
    Attorney General Ashcroft. We were happier then, weren't 
we?
    Mr. Kennedy. I was happy for you then, but this year I was 
quite a bit more happy.
    Attorney General Ashcroft. If I might just have 20 seconds 
of personal privilege, I commend you and I commend the 
Patriots. And there was a Cinderella story there, similar to 
that of the St. Louis Rams, and you have to be in admiration of 
a quarterback who came on to do what he did with the 
intensity--and frankly, I don't like it, but I have to commend 
it.

                                LIBERIA

    Mr. Wolf. Mr. Attorney General, I have a number of 
questions to follow up on what Mr. Kennedy said about Liberia, 
and a couple of things when we go back and forth, if the 
Administration is going to do something it would be nice to let 
us know, too. I would like to ask you to go back and urge the 
Administration to deflag the Liberian tankers. What Mr. Kennedy 
said, the Kennedy Hospital in Liberia is in a terrible, 
terrible condition. The Administration allowed a member of 
Charles Taylor's Administration to travel to this country who 
is accused of doing brutal, brutal things. Charles Taylor is 
also aiding the diamond trade, and al Qaeda, which has had an 
impact with regard to supporting Hezbollah and HAMAS. The 
Administration, if it truly wants to do something to help 
Liberia deal with terrorism, ought to make a major effort to 
deflag the Liberian tankers. Most of Charles Taylor's 
government is run with the Liberian flag.
    I would like to request that you take it back to Muirat and 
whoever else is involved, and ask that the Administration make 
this a priority, if they care about Liberia, if they care about 
al Qaeda, and if they care about the severing of arms in Sierra 
Leone, that they deflag by the end of this year all of the 
Liberian tankers so that never again, until Charles Taylor 
leaves that country, do we ever have a situation where there is 
a Liberian flag running.
    If you want to change and not have to deal with what Mr. 
Kennedy was talking about, not have to do it on an annual 
basis, give those people the opportunity to go back if they 
want to be with their moms and dads. You must deflag all the 
Liberian tankers. I hope you would come back and let the 
committee know if the Administration is prepared to deflag 
Liberian tankers.
    Attorney General Ashcroft. I am not prepared to make an 
announcement in that regard except to say that I thank you for 
raising it, and I will try to get back to you.
    Mr. Wolf. I would appreciate that. I think we can go a long 
way to deal with this issue. Sierra Leone was set up by William 
Wilberforce who was a member of the British Parliament. And, as 
Mr. Kennedy talked about how Liberia was set up by American 
slaves who returned to Africa, we have a special burden for 
Liberia. Britain has a special burden for Sierra Leone. But we 
can never solve the problem of Sierra Leone until we solve the 
Charles Taylor problem. And we can solve the Charles Taylor 
problem by putting pressure on and deflagging all of those 
tankers.
    And it would be my goal that when this Congress is over 
that there is never another flag with Liberia as long as he is 
in office. I had asked yesterday at a hearing--and Secretary 
Evans agreed, and I know you will be part of it--to hold a 
technology forum, if you will, whereby all of the companies, 
small- and medium-sized companies that have technology with 
regard to fighting terrorism, can be brought together. Right 
now it is who they hire. Do they hire a big law firm? Is it a 
big company that has a Washington office that can help them win 
a contract?
    So I would hope, and Secretary Evans agreed to do it, that 
you would help participate in a forum whereby we could have an 
opportunity for all small- and medium-sized companies to come 
in and show their wares. And I think by doing this, INS would 
be talking to somebody, DEA talking to somebody, FBI talking to 
somebody, but to consolidate it and put it all together.
    Attorney General Ashcroft. Sort of an antiterrorism 
exposition?
    Mr. Wolf. Yes.
    Attorney General Ashcroft. Commercial products that would 
help us, whether it is biometrics or detection devices or what 
have you.
    Mr. Wolf. And you would put out your standards, give the 
companies 30 days, and they would come in and they would have 
their opportunity to bring their wares.
    Right now I am little bit concerned the company that gets 
in is a company that hired a powerful lobbyist in town, the 
company that has a big Washington office. Or it may be the 
little guy in his garage, or a small company with 50 people who 
really has the idea that can make a difference, but he or she 
can't get into the system.
    The Secretary of Commerce said he would do that, and I know 
the White House is interested, and I know you would play a 
major role. And I hope we can do that before we get to the end 
of spring, because I think this is important.
    And I want to reiterate for those who were not here at the 
beginning, I think you have done a marvelous job. And I think 
the responsibility you have is tremendous.

                          INTELLIGENCE SHARING

    Dietrich Bonhoeffer talked about cheap grace. You can 
criticize whatever. But you are actually there and responsible. 
But this would be an opportunity, I think, to help you in doing 
that. How are the agencies sharing--Justice, INS, FBI--sharing 
their databases? What are you doing to make sure that they can 
share back and forth?
    Attorney General Ashcroft. Well, information sharing is 
very important. It is not only important horizontally between 
the agencies but it is important, as other members of this 
subcommittee mentioned, up and down. I think we are learning 
that there are things that local law enforcement officials can 
tell us that might be helpful in the war against terror that 
they might have been overlooking, so we need to train for what 
to recognize and what to do.
    And obviously we had situations where one hand couldn't 
tell the other hand what was going on. Information obtained in 
a grand jury couldn't be shared with people in the intelligence 
community, and sometimes that is very important. Some of those 
things have been addressed and were addressed in the USA 
PATRIOT Act, but we are sharing information far more 
substantially, and we are integrating our efforts. I gave 
several examples earlier, but we are looking for ways to do 
this more pervasively. The National Crime Information Center, 
for instance, I think you pointed out, as a matter of fact--
maybe it wasn't you--a couple of months ago that we have about 
321,000 people that have absconded into the culture, having 
been adjudicated to be deported. Those people were not in the 
National Crime Information Center database so when local law 
enforcement officials would encounter them, they wouldn't know 
them to be fugitives from deportation. We have taken steps to 
include that.
    Similarly, the databases of photography that relate to 
visas hadn't been shared with the INS so that at entry points, 
ports of entry, the INS officials weren't able to match the 
person with the photograph. We have been finding, to our 
dismay, that people come through with the credentials or the 
visas of other individuals, and when there is a photographic 
match, the photograph I guess is the most primitive of all 
biometric evaluations. Your brain looks at the photograph and 
looks at the person and makes a biometric comparison. This is 
not the same person.
    So in those respects we are starting to make those kinds of 
exchanges between our agencies so that we collaborate in 
developing the best response. And with the airlines and the 
information they have; it goes beyond just something that we 
have; but if we could receive an advanced notification from the 
airlines as to who was coming on the airplane and run that 
against the database of individuals that are either suspected 
problems or else have criminal records or histories of 
problems, that really helps us integrate and help us do a 
better job.
    And each of us is on a project, working, and is in some 
stage of implementation. And I mentioned earlier that we also 
are training individuals to be able to utilize the information 
we share. It takes a while. For instance, granting clearances 
to local law enforcement firms to receive sensitive 
information. I think the FBI has done about 130 security 
clearances. We got about a thousand of them that are pending. 
So that when we ask for the cooperation of local law 
enforcement officials, they can be full cooperators.
    I don't mean to suggest that everyone who has a security 
clearance ought to have all the information, because one of the 
principles of intelligence is that you only tell people what 
they need to know, because having it known by more people than 
necessary is a liability. But we are taking these steps. The 
Department of Justice is holding seminars with local law 
enforcement officials to give them an understanding of the 
intelligence function and how to recognize things that we might 
need to know that they discover and how to handle information 
we give them. The FBI has--I believe it is a seminar, starting 
early March, so that is next week, I think. And they are 
putting some of their training on CDs so they can send these 
out to the Joint Terrorism Task Forces in each FBI district. 
There are 56 FBI offices--has what is known as a Joint 
Terrorism Task Force, and that is about sharing. And each U.S. 
Attorney has an antiterrorism task force.
    Mr. Wolf.  And I think your FBI is going to have an 
associate director for state law enforcement.
    Attorney General Ashcroft. Director Mueller has created an 
office at the highest level to be a liaison with, and to 
represent and to basically inform the development of policy at 
the FBI with the impact that such a policy would have on the 
ability of state and locals to work closely.
    Mr. Wolf.  What about visas? When somebody comes into the 
embassy and--let us say when we had an embassy in Khartoum. If 
somebody were now to come in and apply for a visa to the United 
States, would that come back to the FBI to be cleared before 
the visa would be granted?
    Attorney General Ashcroft. I know that we have adopted a 
program of sending those visa applications back to INS.
    Mr. Wolf.  Does the State Department--I talked about 
sharing. Does the State Department Consular Office in downtown 
Khartoum contact the FBI and the INS here? Rahman came in from 
Egypt through there. Do we now do that as they come in before 
we grant the visa?
    Attorney General Ashcroft. Well, the FBI's Criminal Justice 
Information Services Division is working closely with 
Department of State's Consular Affairs Section to develop the 
mechanism and policy to provide the DOS with extracts of wanted 
persons' records that come from the NCIC.
    Mr. Wolf. A lot of times they are not on the wanted list. 
Rahman was not on the wanted list. I don't want to press you 
for the answer now. I would like you to get the State 
Department person, or we will get the State Department person 
and the FBI person to come up and brief us how that is. If 
somebody is coming in from a certain country and applying for a 
visa, there ought to be a way of checking back with regard to 
the FBI and INS, particularly if you are coming from a country 
that has a history of terrorism, if you are coming from Yemen, 
if you are coming from Somalia, if you are coming from Sudan.
    So I think before a visa should be granted, and 
particularly if there is no case history of someone that you 
know of. That is how the World Trade Center bombing in 1993 
took place. So if you can have somebody come up with this next 
week or the week after to go through this so we are confident 
that the State Department that comes before this committee and 
FBI and INS are sharing that data before--particularly from 
certain countries--before the visa is granted. That can be done 
instantaneously with the communication.
    Attorney General Ashcroft. We began a new supplemental 
questionnaire after September 11 and we began a policy that 
provided for a 20-day waiting period so that the answers and 
the individuals could be further investigated. I am convinced 
that there are more things that we can do and we would be happy 
to do it. But we have taken those steps and are working towards 
those objectives.

                            airline security

    Mr. Wolf. The committee put in language mandating the 
manifest of all airlines who service. Is that totally and 
completely in operation now and what airlines are not in 
compliance, if any?
    Attorney General Ashcroft. Well, this is a matter that you 
all have appropriately foreseen and have directed the INS to 
begin getting these electronic transmissions of passenger 
manifests from airlines and from cruise ships, too.
    Mr. Wolf. Cruise ships manifests are optional.
    Attorney General Ashcroft. The INS is publishing 
regulations this year and should have the regulations out by 
July, according to their schedule, and we are receiving good 
cooperation from the airlines.
    Mr. Wolf. What airlines are not cooperating? What 
countries?
    Attorney General Ashcroft. I don't have the list of 
countries. I can make that inquiry.
    Mr. Wolf.  If somebody can get back to us tomorrow or 
Monday, because I understand there are a few that are not 
cooperating.
    [The information follows:]

                      Airline Passenger Manifests

    The Immigration and Naturalization Service (INS) is working 
closely with the airline industry on this issue. A series of 
meetings and discussions have been held. The airlines are 
concerned with programming issues and system changes, but are 
making every effort to meet the legislative requirements. The 
INS plans to publish, by early summer, 2002, the regulation 
that outlines the requirements and implementation timeframe. 
There are some countries that own and operate airlines. At this 
point, INS has been in communication with a couple of these 
countries. As we move forward with this effort, we will keep 
you informed of any problems that may arise or any 
unwillingness on behalf of airlines or countries to comply with 
the requirements of the law.

    Mr. Wolf. And I think the people ought to know. First of 
all, if you are going to be flying that airline you ought to 
know. And secondly, I think if we and another country required 
that information--and I think it is a fair and legitimate thing 
to ask, particularly coming from certain countries. So if you 
can get back to us.

                               entry/exit

    Last month we sent a letter to Mr. Ziglar, and then I saw 
the Washington Post piece about your exit and entry program. 
The Post article inferred that exit and entry program wasn't 
working and I think that your budget requests $362 million for 
an exit and entry program. How comfortable do you feel with 
that?
    Attorney General Ashcroft. Well, this is something that is 
very important and we are still developing. We were only 
capturing, I think, about 40 percent of the people who leave 
the country with the statement about their leaving the country, 
so that we know pretty much at a higher level when people come 
into the country; but when they leave the country, we do have a 
system. It is not a system that operates effectively. And our 
desire is to develop a system which gives us the capacity to 
follow people.

                             student visas

    Mr. Wolf. What about student visas? Do the students show up 
at class?
    Attorney General Ashcroft. The SEVIS program, which is 
mandated by the Congress, is something that we are getting much 
better cooperation with now. And I don't know if I have right 
before me the time lines on that program, but SEVIS is the 
Student and Exchange Visitor program. We received money to 
build an electronic tracking system, computerized database for 
that. Frankly, the university community largely opposed the 
system prior to September 11, and they have largely turned 
around on this. The university community realizes the 
importance and recognizes that there has to be a system to 
track them. We expect SEVIS to be fully functional and 
operational by the end of the year.

                          drugs and terrorism

    Mr. Wolf. Is DEA being asked to play a role linking their 
knowledge with regard to drugs and terrorism and funding? The 
ads during Super Bowl, you remember.
    Attorney General Ashcroft. First of all, those ads are to 
be commended. They are not out of DEA.
    Mr. Wolf. I know that. There was a connection between 
terrorism and----
    Attorney General Ashcroft. They point out a very important 
connection between drugs and terrorism. And DEA is being asked 
to play a role is not the vocabulary I would want to use. We 
are asking them for their cooperation and help in every respect 
to identify ways in which to use their knowledge, information, 
and expertise to curtail the money flow to terrorism and the 
drug availabilities that provide support for terrorist 
organizations.

                         afghanistan initiative

    Mr. Wolf. When I was in Afghanistan in January, the poppy 
was in the ground. It will be coming out in April. Are you 
going to have a DEA office in Afghanistan and is there a DEA 
agent over there now?
    Attorney General Ashcroft. Operation Containment is its 
Afghan initiative.
    Mr. Wolf. Is there a DEA agent in Afghanistan on the ground 
now?
    Attorney General Ashcroft. I can't tell you whether there 
is a person there.
    Mr. Wolf. I think there should be. IAD is there and other 
agencies. I think you need an IAD officer based in Afghanistan 
particularly because of the poppy trade. And I think you 
probably need a Legal Attache office over there. You have one 
in Pakistan. I know you have FBI agents who are interviewing 
people there.
    I think the Karzai government needs help in law 
enforcement, and I would hope that we would have a DEA office 
in Kabul and an FBI office in Kabul certainly on a----
    Attorney General Ashcroft. It is the intention to establish 
a permanent presence in central Asia with Operation 
Containment, and I will indicate our desire to be conversant 
with you about--you feel it ought to be in Kabul, Afghanistan?
    Mr. Wolf. I think it ought to be. That is where the poppy 
trade is.

                              diamond bill

    I have a few more, but let me recognize the other members. 
Also on the issue of the Administration being involved, the 
House has passed Tony Hall's bill on diamonds. It has yet to 
pass the Senate, and there for a while, the Administration was 
opposing it. I was hoping the Administration could get excited 
about the diamond bill and help pass it over in the Senate 
because diamonds were funding al Qaeda also. And I think the 
bill over there is sponsored by Mr. Durbin and Mr. DeWine. I 
think it is important that the Administration be excited about 
it, because I am afraid that if we run out of time and we don't 
pass it--if you say you are interested in funding financial 
resources, criminal ties, and yet we don't do anything with 
regard to the diamonds, we really haven't been effective.

                      victims compensation program

    You covered the U. S. Attorney's antiterrorism task force. 
I won't cover that. I would like to put in a victim 
compensation program. I signed a letter with some other members 
concerning the collateral source income deductions, income loss 
calculations, and noneconomic loss calculations. The 
regulations seem a little tough and I know that is a very 
difficult job, but if you could take a look at that. Have you 
signed off?
    Attorney General Ashcroft. The final regulations are being 
developed. They have been out for comment, really, and we have 
gotten I don't know how many hundreds of thousands of 
responses. And we are evaluating those responses and comments, 
and obviously comments from Members of the Congress are at the 
bottom probably. That is not what I meant to say. Just kidding.

                              hanssen case

    Mr. Wolf. The Hanssen case, you didn't mention the Hanssen 
case. There have been a number of books on it lately. I 
expressed my concern to you. I really think the Webster 
approach was not the right way to go. Nobody has spoken to me 
about the issue.
    Attorney General Ashcroft. Can I indicate----
    Mr. Wolf. There is still another spy--the person who put 
the microphone in the State Department conference room has 
never been caught. And I really think that Judge Webster is an 
outstanding individual, but Judge Webster was at the FBI when 
some of these things happened. He was at the CIA when Aldrich 
Ames was spying--and he is a good person. I think it is great 
he is being asked, but I think you need an outside team to look 
at this. This is very, very serious and you didn't cover it in 
your testimony.
    If somebody--without taking the committee's time--can come 
on up and just tell us, because it has kind of gone off the 
radar screen. The media have talked about it, and the IG was 
looking at it. It was the Webster group who were all pretty 
much Washington insiders. What is the status of the various 
reviews?
    Attorney General Ashcroft. In substantial measure as a 
result of your prompting, and others like you, I asked the 
Inspector General to make a very thorough review of this 
matter. And the review will examine the FBI's efforts to 
prevent and detect, investigate his activities, Hanssen's, over 
a 20-year period. The Inspector General hired--assembled a team 
of 10 attorneys, investigators, and analysts--to date, has 
obtained more than 250,000 pages of documents from the FBI and 
has conducted more than 100 interviews. The Inspector General's 
review will examine Hanssen's career as well as the FBI's 
efforts during the 20-year period to find the cause of massive 
loss of Soviet intelligence assets that were occasioned as a 
result of his activities. And the review will include an 
assessment of the FBI's performance in preventing, detecting, 
investigating Hanssen's espionnage activities.
    I asked the OIG about this. The OIG has done previous 
reviews like this, one of the Aldrich Ames spy matter. And he 
says that he expects to complete the Hanssen investigation and 
issue a final detailed report sometime this summer.
    Mr. Wolf.  Mr. Serrano.

                         hispanic hiring at doj

    Mr. Serrano. Thank you, Mr. Chairman. Let me, Mr. Attorney 
General, first commend the Justice Department for something I 
know was started in the last administration, but my 
understanding is that you have worked to keep it going. It has 
been recently reported that the Justice Department's share of 
Latino employees is larger than any other agency in the public 
sector, and that is something very commendable and very much 
needed.
    First of all, do you know what was done, especially what 
kind of outreach was done to accomplish this; and secondly, as 
we continue to grow in the law enforcement area and so on, how 
can we apply the lessons of the Justice Department not only to 
other parts of the Justice Department, but to the----
    Attorney General Ashcroft. Well, it may be an exercise in 
the nobility of the Justice Department, but we were asking 
people to help us who could help us and do a good job of it. We 
have probably, as a percentage of employees in the Department, 
a much higher percentage of Latino employees or Hispanic 
Americans than there is in the population generally, in part 
because we want to be able to relate effectively to people both 
in terms of language and culture that are our clients and that 
we encounter.
    Mr. Serrano. You don't have to shy away from accomplishing 
this. I am complimenting you. I know they are all qualified.
    Attorney General Ashcroft. And I think it does indicate 
that when you pursue an objective, you can get it done. These 
individuals were hired because of their high quality and their 
merit, and we are delighted that it just so happens that it 
results in having a work force that reflects probably almost 
twice as much as the population of the country does in terms of 
Hispanic Americans.
    Mr. Serrano. I would also hope that we continue to look at 
that, as I said. You know, the country obviously has been going 
through a crisis and we are all called upon to serve, and as we 
look to expand the agencies, we must try as much as possible--
perhaps we should tell other agencies to learn from what your 
Department has done--to make sure we include all Americans in 
the jobs that have to be done.
    Attorney General Ashcroft. Part of what happens is we have 
a difficult time in keeping people because they tend to be 
multi-lingual and have inordinate value, and the INS, which 
tends to be a place where a number of them work, is a place 
where the pay scale has not been as attractive as it has in 
some other agencies. So about 75 percent of our losses when we 
have attrition in the work force are losses to other government 
agencies.
    Very frankly, the folks at INS and in that community have 
become recruiters for the government generally. And what they 
have done is not merely reflect it in what remains at the 
Justice Department, but many other people in other agencies. So 
it may be that the figures understate their success in bringing 
these talented individuals into the law enforcement community 
of the Federal Government.

                      fbi and ins reorganizations

    Mr. Serrano. Mr. Attorney General, my next question touches 
on a subject that was already touched by Mr. Rogers and other 
folks. At budget time last year, there was quite a bit of 
criticism about the performance of the INS and, in all honesty, 
about the performance of the FBI in terms of how it managed its 
evidence, concerns about security, the lack of technological 
advances, and many other problems. Now these agencies are asked 
to play an even larger role than they were playing before.
    So my question to you is, what are we doing from a 
financial and management perspective to prepare them, if you 
will, to handle this new challenge? And what, if any, changes 
need to be made that you may be proposing to us in the future?
    Attorney General Ashcroft. Let me just say that you are 
right, these agencies which were the subject of questions and 
problems with the Hanssen matter and then the evidentiary 
problems related to the supporting documentation and exchange 
of evidence in the McVeigh matter, they all were big issues 
before September 11, and sometimes those recede now. But we 
have undertaken a very comprehensive review.
    I believe that we have asked a very strong American to lead 
the FBI, and he is restructuring the agency and putting the 
assets in the right places. You and Members of the Congress 
have been a part of funding a way of upgrading the information 
systems and the information technology and the analytic 
capacity of the FBI. It is very troubling to note that the FBI 
doesn't, to this day, have the ability to communicate, say via 
e-mail, because the security of its system is the result of the 
uniqueness of it. It is virtually inpenetrable, but it is 
almost unusable in terms of communicating information from one 
part of the country to the other. And as we know, not only are 
the threats to security dangerous, they are international and 
they are not localized. And that upgrade, called Trilogy, is a 
substantial investment.
    In INS, there is a major effort at restructuring and a 
recognition that we have to have personnel. The northern border 
of the United States is 5,500 miles long. The southern border 
is 2,000 miles long. We had 9,000 people on the southern border 
and fewer than 500 people on the northern border. So coming to 
grips with these issues is a substantial challenge.
    I believe we are making in this budget significant strides 
toward achieving the kind of--developing the human capacity and 
intellectual and technological capacity to do a much better 
job, but I cannot say to you we are a step away from easy 
street or having this done. And these are major, major 
challenges. I think that there are monumental changes.
    The restructuring of INS will provide a basis for an 
average service application processing time of 6 months within 
the time promised by the President. That is a major change over 
a 3- to 4-year situation a few years ago. But we still have 
miles to go before we sleep.

                            attfs and jttfs

    Mr. Serrano. It seems to me that in the aftermath of 
September 11, a lot of the duties and functions of agencies 
like these two sort of begin to mingle in a way, and even 
though they are separate agencies, they all end up working on 
the same issue or trying to solve the same problem.
    Wouldn't that in fact cause problems in terms of lines of 
authority, who is in charge of what, and how other agencies see 
what is going on in these two agencies so it doesn't create 
further confusion?
    Attorney General Ashcroft. Well, I have to really commend 
both the FBI and INS in the aftermath of September 11. They 
were federal agencies that worked especially well together and 
worked especially well with local agencies. I have been out to 
visit sites all over the country. And with these joint 
terrorism task forces and antiterrorism task forces, I meet 
with them so I get a chance to find out whether the 
coordination is there and exists, and I think it would be a 
good thing for you all to find occasions to do that. To the 
extent that we can integrate the activities of law enforcement, 
it is valuable to us. And our ability to do that after 
September 11 was extremely important to us. And I would just 
signal that any attempt to disintegrate or to separate more or 
to divide up and to make less convenient the interoperability 
and the integration of these agencies is a principle--is 
something that ought to be considered only very carefully.

                          elimination of cops

    Mr. Serrano. Let me just move on to something else here. We 
don't have to spend time discussing the respect that I know we 
all have for the New York City Police Department and what they 
went through during this whole period. But now it seems to me 
that once again the COPS program and help similar to that is 
under attack.
    Do you find a contradiction between being supportive of the 
police departments and then not allowing some Federal help to 
flow into all communities, but especially into that community, 
because as you know, because of September 11 and other factors, 
but mostly because of September 11, New York City is facing a 
$4\1/2\ billion budget gap, and the police department is there, 
overworked and running out of a lot of steam and there is no 
help for them.
    Attorney General Ashcroft. Well, you know better than I, 
and I am not able to recite with particularity, but New York 
has been the recipient of some special directed aid that is 
different than the overall sort of programs that we have around 
the country. I want to just indicate--and I think it is 
important that aid to local law enforcement agencies overall is 
going to be up about $2 billion in this budget, so that when 
you talk about one program or another, I don't want to indicate 
that there are some that are cut. The Community Oriented 
Policing, COPS, program in my understanding--and certainly was 
when I was in the Senate--this was a program to introduce law 
enforcement to the idea of what would happen if you added 
manpower on the street and we would fund that to show that it 
would really reduce crime. We did that and it was endorsed 
because it was valuable. Ninety-two percent of all the local 
agencies say it does work and we will pay for these guys when 
their term is up.
    Now, if you thought that was the purpose for the program, 
it made the point, it gave people the information upon which to 
decide how they want to spend their resources. If the purpose 
of the program was to continue providing additional help over 
time, then obviously this Administration's proposal which ends 
COPS funding for new officers but doesn't end it for those who 
are in the program, reaches a different conclusion. And 
overall, we want to help and we will continue to help local law 
enforcement. Some of the things involved are related to the 
technology that is important for interoperability and 
cooperation, and we saw the need for that. But the COPS program 
itself is not being continued for new police being added to the 
program. It was designed for 100,000. It was funded eventually 
to 111,000 or something like that, but it is a successful 
program.
    Mr. Serrano. I understand what you are saying, that the 
Administration reaches a different conclusion. I want to be on 
the record as saying that it reaches this conclusion at the 
very time when we are all giving a lot of lip service to what a 
great job police departments are doing throughout the Nation, 
not only in reducing crime but facing the threat of terrorism, 
and especially in New York City. And so there is a 
contradiction there. And, okay, so some people felt it should 
end at a certain point. But some people felt we shouldn't spend 
more money than we did last year in the supplemental, and we 
did it because it was an emergency and we had to deal with it 
and had to face it. And that is what we did as a country and as 
a Nation.
    So now the question is if you believe--I don't, but if you 
believe--it had to end at some point and that point was now, 
shouldn't you take into consideration throughout these 
different cities, and especially in New York, what are their 
needs when police are overworked and underpaid in many cases 
and just hurting and still grieving the loss of so many of 
their members?
    Attorney General Ashcroft. Well, obviously, that is an 
understandable position. The Department is requesting to 
maintain the level of funding, almost $38 million for community 
police initiatives to improve technology, but the budget does 
not, as you have pointed out, clearly provide for bringing new 
officers on under the COPS program.
    Mr. Serrano. Mr. Chairman, I have many more questions.
    Mr. Wolf. We are going to take a 2-minute break.
    [Recess.]
    Mr. Wolf. Mr. Obey.
    Mr. Obey. Mr. Chairman, before I ask a couple of questions, 
I simply want to congratulate you, because the nature of the 
questions you were asking earlier with respect to what we see 
in Kabul and other places I think demonstrates pretty clearly 
you get out in the field. You just don't sit behind your desk 
and wonder what is going on. You get out in the field and you 
pick up the knowledge that ought to be considered by the 
agencies and Congress involved. If we would have more of that, 
I think we would be better off.

                 counterterrorism supplemental funding

    I found it ironic we were talking about the Canadian 
border, because we do have many more people close to the 
Mexican border than to Canada, and yet we have some 20 
terrorist organizations that are located in Canada, and they 
regard us as easy pickings in comparison to their ability to 
get through the Southern border.
    But I think it is important for people to understand that 
when Congress voted for the PATRIOT Act which authorized 
tripling the number of border personnel at ports of entry along 
the northern border, not one additional dime was provided to an 
agency to actually hire people until the appropriation bill was 
passed. And I have to simply note that when I tried to add $145 
million to support the Customs Service in their desire to hire 
Customs agents, we virtually got a double hernia trying to get 
that money through the system and approved by OMB. And if I 
sound angry about it it is because I am.
    But I wanted to repeat what the numbers are for the fiscal 
year request. The December 10 request of the Department for the 
regular 2003 budget, which was obviously amended after the 
events of September 11, but the September 10 request, as I read 
the sheets, demonstrates the request has a letter of support 
for many items but nowhere is found a request or any indication 
or support for the FBI request of $58 million for 
counterterrorism field agents, $200 million for intelligence 
analysts, and $54 million for translators.
    We do find 68 programs for which increases were requested. 
None of those, with the possible exception of one, directly 
relates to terrorism.
    And in October the record is simply this: The October 
supplemental for the 2002 year, the FBI requested $1.5 billion, 
and I know that because that request came after the Chairman of 
the Committee and I and our staff visited the FBI both in 
Washington and in New York and asked them what they thought 
they could use immediately. And out of that came the request 
for $1.5 billion. That request was forwarded on to the Justice 
Department. The agency asked for $709 million. OMB cut that to 
$538.5 million. And again after getting double hernias, Mr. 
Young and I were able to get that up to $750 million by the 
time it passed.
    And I simply lay that out in order to demonstrate that it 
was very tough for the Congress, even when we had bipartisan 
agreement, to get the added funds that we needed. And that as 
someone who lives close to the Canadian border, I hope it will 
be easier to get cooperation between Congress and OMB and 
agencies involved than it was on the last round. It was 
something that there should have been no dispute over 
whatsoever in my view.
    And I just wanted to lay that out for the record and to 
point out one example of the difficulty we had with respect to 
the Trilogy system to correct the sad-sack state of affairs 
with the FBI computer system. For fiscal 03, the FBI's request 
to the Department of Justice was $122 million. The Department 
of Justice's September 10 request for the fiscal 03 budget in 
their letter to OMB was for $57 million rather than $122 
million. And for the fiscal 02 supplemental, which we wrestled 
with last year, the FBI for Trilogy requested $212 million from 
the Department of Justice. The Department of Justice requested 
to OMB $105 million. And the Congress finally provided $237 
million, which we were told would enable that system to be up 
and running by this summer rather than lagging another year. 
And I just wanted to make sure the record reflected that. Thank 
you.
    Mr. Wolf. Mr. Kolbe.
    Mr. Kolbe. Thank you very much, Attorney General Ashcroft. 
I am sure you are wondering when this is finally going to be 
over. And I will not be too long, I promise you, here.
    Attorney General Ashcroft. Anybody who sits here like this 
and tells you they are not wondering when it is going to be 
over, they will lie to you about other things too.
    Mr. Kolbe. Probably most of the members of the subcommittee 
are wondering the same thing.
    Attorney General Ashcroft. I will tell you what. There is 
absolutely no doubt in my mind about the intensity and 
commitment of the members of this subcommittee to these 
responsibilities.
    And the Chairman demonstrates it all over the world. So I 
am with you.

                         immigration task force

    Mr. Kolbe. Thank you very much. Most of the questions I 
have to ask are with regard to one component agency under your 
jurisdiction, and one that I would normally ask just of INS, 
and I will be asking when Commissioner Ziglar appears before 
us, but I think these are of such importance to us in our area 
along the border that I am just going to--I feel that I need to 
bring them to your attention.
    The first is a general one, and that is about the 
Immigration Task Force. President Bush and President Fox had a 
lot of discussions about immigration and whether or not there 
would be some proposals to change immigration laws. I know that 
you and Secretary Powell and your counterparts in Mexico and 
others had had discussions about this. Can you tell us what the 
status of those discussions are, or is this just permanently on 
the back burner post-9-11? Can we see any kind of report or 
recommendations coming from this task force?
    Attorney General Ashcroft. Well, you properly identified 
this situation as a matter of serious concern for the 
Administration, and we were working very aggressively to find 
ways to deal constructively with this situation. There is no 
question that the events of September the 11th and our 
subsequent responsibilities have displaced this effort, but I 
don't think they have permanently moved it to the back burner.
    It seems to me that one of the challenges for those of us 
in the justice community is to learn to meet the 
responsibilities we have regarding terrorism without forsaking 
the responsibilities we have generally. We have had some 
meetings, but we have not resumed the kind of effort with our 
counterparts and neighbors in Mexico and the Fox 
Administration. Frankly the dialogue was very rewarding, and 
with a number of things the cooperation was improving 
substantially. But there has been a serious interruption, and I 
hope we could resume our effort, and I believe we will.
    Mr. Kolbe. As you know, President Fox and President Bush 
will be holding a bilateral meeting at the conclusion of the 
Monterrey conference on development assistance in March. Would 
you expect that this will be the catalyst for returning this to 
a higher-profile issue in both bilateral--bilateral discussions 
at the Cabinet level on both sides?
    Attorney General Ashcroft. I would expect that we would 
find ourselves on an increasing level of communication to 
return toward solving some of the problems we were addressing, 
and I noted that the Administrator of the DEA was in Mexico 
recently meeting with the Attorney General Macedo de la Concha 
there, and I note that there are other officials that will be 
meeting with the Fox Administration in advance of the events 
you referenced with the President, so that, yes, I believe 
there will be increased activity and an effort to resume our 
efforts.

                             border patrol

    Mr. Kolbe. Let me turn to more specifically with the INS, 
Immigration Service, and the Border Patrol. As you pointed out 
in--your budget for this coming year proposes 2,200 new 
positions, and 570 of them are Border Patrol agents. It is the 
same number of additional agents that we funded last year.
    Just in the last 7, 8 years, I guess it is, the INS budget 
has grown from 1\1/2\ billion to $6 billion being proposed in 
this coming year. Though I certainly support these increases, I 
have real doubts about whether we are getting the bang for the 
buck, and that we have the management of these resources in 
place. You heard Congressman Rogers talk about this. It has 
been something with him. It has been an issue with me. I have 
watched it close up down along the border, and I just have to 
tell you, this is an agency over which we do not, in my 
opinion, have a good management grip, and I don't know why it 
has been--seems to have been more immune than almost any of the 
other agencies that I at least have any responsibility for, for 
providing funds for, having oversight of, but it has been--it 
seems to be continuing.
    We, in my area of the border, in Arizona, there has really 
been very little improvement. I know you have been down there, 
but I have to tell you, I think the changes that have taken 
place in the last year or so, despite the tremendous increase 
in resources, are very marginal at best. The Government Reform 
Subcommittee on Criminal Justice, Drug Policy and Human 
Resources held a hearing last Friday down there in my district, 
and although the Border Patrol is claiming some success, citing 
reduction in the apprehension statistics, I think that is 
probably more attributable to the problems in our economy and 
the events of September 11th which scared a lot of people away 
from even trying to come across the border, because certainly 
the people that are responsible for local law enforcement, the 
county sheriff, the county attorney, are saying they are seeing 
apprehensions are up. The county attorney says the number of 
Federal prosecutions being turned over to him for prosecutions 
are up. The hospital administrators are telling us they aren't 
seeing fewer illegal immigrants as before.
    The public at large sees the environmental problems that 
are occurring. We need some attention to this area, and we have 
got between 1- and 2 million illegal immigrants crossing in my 
district, in southern Arizona, every year, probably somewhere 
around--between a third and a quarter of the total number of 
immigrants coming--crossing illegally into the United States 
through Mexico every year, and I just--I guess my plea to you 
is to ask what can we do about this? What can you do to help 
us?
    Attorney General Ashcroft. I think what we do needs to be 
comprehensive. It is a little like insulating your house. You 
can't do it all with a single magic. We need to work with our 
Mexican counterparts to enlist their aid in a safe and secure 
border that facilitates the good exchange between the United 
States and Mexico, which is part of the lifeblood of North 
America. We do have very strong trade and other reasons to be 
good neighbors.
    Mr. Kolbe. Absolutely. I agree completely with that 
statement.
    Attorney General Ashcroft. So we have to have the right 
support for that.
    We also have to respect the safety of individuals. People 
who come into the United States illegally are at great risk. I 
don't think as long as I live I will forget the night when I 
was called in the middle of the night practically, by my 
Mexican counterparts about finding 14 people, I believe it was, 
dead in the desert. I spent most of the night on the phone with 
everyone from the Foreign Minister of Mexico, into the Attorney 
General's office and a variety of other settings, but this 
can't be. This is not what America stands for, people dying of 
exposure in the desert.
    So we need their cooperation and their help, and we need--
you know, we have just completed the study. I think judgment of 
your prompting with HHS, that talks about medical care, because 
there is a serious problem about people who are here who are 
burdened in communities like Douglas, Agua--what is it, the----
    Mr. Kolbe. The Douglas, Agua Prieta.
    Attorney General Ashcroft. They are overstressed, and we 
need to find the right formula for helping. I wish I were 
capable of doing more than commiserating with you on these 
problems, and that is basically what I am doing here. We have 
additional help in the budget for additional Border Patrol 
resources and other resources, but we are going to have to get 
help from our Mexican counterparts to discourage illegal 
crossings. We are going to have to adjust some of our own 
activities to regularize the capacity of individuals who are in 
the United States.
    The President has stated willing workers and willing 
employers being able to get together. These are part of the 
solution, but I can't sit here and tell you that I could even 
outline something that would solve all of these problems, but I 
can tell you this--we will work on remediating one problem at a 
time, and I wish--I know there is a problem even with things 
like fences for ranchers and whether they are susceptible to 
remediation by the Border Commission or whether they are 
something else, or how we make checks internally. I know these 
are difficult issues. There are problems about the health care 
system, and these are the subject of our attention, but they 
have not yet been solved by our attention, and we will keep 
working on them.
    Mr. Kolbe. I appreciate that. You were just mentioning the 
fences is just one example of a little tiny thing, but it is 
classic----
    Attorney General Ashcroft. It is not tiny to the people.
    Mr. Kolbe. It is not tiny to the ranchers. You are right.
    Attorney General Ashcroft. On my farm if someone comes by 
and tears down all of my fences, it is not tiny to me. If I am 
not there, and the cattle are gone when I come home, it is a 
troublesome thing.
    Mr. Kolbe. In this case you can't go to the neighboring 
farm and get the cattle back. They are gone. When they 
disappear into Mexico, they are gone. Those cattle are out of 
there.
    But it is a classic example of where you have at least 
three Federal agencies, the Department of Interior, which owns 
much of the land along the border, the International Boundary 
and Water Commission, and the Border Patrol or INS all kind of 
pointing the finger around saying, it is not my responsibility, 
I don't know whose this is, and leaving the poor ranchers as 
the one holding the bag.
    Attorney General Ashcroft. Well, we have got to develop a 
philosophy, and I hope I can be a part of developing a 
philosophy, of fixing the problem instead of fixing the blame. 
If we spend our time fixing the blame, the problem just stays 
where it is.

                         border medical issues

    Mr. Kolbe. Thank you. Your statement there leads me right 
into my next question here. It has to do with the health care 
reimbursements. This is a killer for us, and I just have to 
tell you, it is something that I--I questioned the Sector Chief 
this last week about this. Finally, after getting a runaround 
for quite a while, got him to admit that, yes, they do not take 
illegal aliens into custody, the Border Patrol, because they 
want to avoid paying the medical costs for these individuals. 
That is just plain wrong.
    Now, let me tell you my philosophy of this, and I would 
like to get your response, see what yours is. When an 
individual comes across the border and gets into the United 
States illegally, that is a Federal responsibility. We fail to 
stop that individual from coming into the United States. I am 
not personally pointing the finger at you or the agent that did 
that, but it is a Federal responsibility. I think you would 
agree that that person ended up getting into this country 
illegally. We were not able to keep that----
    Attorney General Ashcroft. I think we could stipulate that 
the control of the borders is a federal responsibility, and----
    Mr. Kolbe. When an individual is then injured in the United 
States, dropping off the fence, as a result of a high-speed 
chase by the Border Patrol, and they have to call an ambulance 
or an air ambulance and take these people to a hospital, the 
Border Patrol will take, of course, the uninjured ones into 
custody in order to transport them back to the border. They 
refuse, of course, to take the injured ones into custody in 
order to avoid paying that cost and have the--stick the 
ambulance service and the hospitals with the cost of this care.
    To compound matters, to make it even worse, when the 
treatment is finished, if you call the Border Patrol to 
transfer the person back to the border, the Border Patrol will 
not come, and I mean invariably. We were told it is the 
discretion of the agent. I checked with the hospitals. Not one 
has ever, ever had the Border Patrol come to transport an 
individual back. So the hospital calls the Mexican consulate. 
Great if it is a Mexican to transport them back to the border, 
but if it is a Salvadoran, a person with a cast on their foot 
now or a broken ankle is pushed out the front door of the 
hospital onto the street, clearly an illegal alien, but is 
pushed out the door because nobody will take the responsibility 
for that individual, General Ashcroft, this is just plain 
wrong.
    We need to have a policy where the medical costs that are 
being borne by the folks that live along that border--and I had 
last week the administrator of one of the hospitals testify 
that the hospital system--the health care system in Cochise 
County, Douglas, Bisbee, Sierra Vista, is in a state of 
collapse because of this. We have to do something about this 
problem. The University Medical Center of Tucson has $10 
million in the last 2 years of unpaid health care bills as a 
result of illegal aliens. They get the very high trauma cases 
that are brought to them. I think they have one person that has 
been there for 10 months in intensive care in the hospital, and 
they are stuck with that bill there. It is just plain wrong. We 
need to seek reimbursement for that, and you need to have a 
policy, and then you need to be able to come to Congress and 
ask Congress for the money in order to pay these bills.
    Your response, sir.
    Attorney General Ashcroft. Well, I think you did a much 
better job of describing this than I did, but I identified this 
problem in my remarks earlier. It is a problem of uncompensated 
care, and we have done some studies on it, and we are trying to 
work out a formula of some way of providing relief. Some 
uncompensated care funds that come from the Federal Government 
go to the states, and they don't always get back to the 
hospitals where----
    Mr. Kolbe. Yeah. The----
    Attorney General Ashcroft [continuing]. Uncompensated care 
takes place. And that----
    Mr. Kolbe. And that funding is not recommended in this 
year's budget for that, and frankly it doesn't bother me that 
it is not, because it never gets down to the borders. It is for 
illegal aliens that can show they are residents of the United 
States. So it goes to the people who are--the woman who is in 
Phoenix or in Chicago--excuse me for interrupting--but in 
labor, and she gets taken to the hospital. Then that hospital 
can seek compensation, because she can show she is actually 
residing in the United States at that point. Excuse me.
    Attorney General Ashcroft. Given the absence of a clear 
answer on my part, because--I would be pleased to have you 
continue interrupting. This is not an arena in which I have a 
clear response. We began a study. We have worked with HHS. They 
have developed some results of that. I will try to work with 
them to see if we can come up with a plan that will be of 
assistance.
    Mr. Kolbe. And I won't press you further than that. I 
appreciate it. The study, by the way, is simply agreed that 
they are going to come up with a way of gathering--a 
methodology for gathering more study. So it is a study to agree 
that they will come up with another study to gather more data, 
but without any recommendations for solutions to it.
    We really need to have a Federal solution to this problem. 
It is killing us along the border, and it is not just our 
hospitals, but these small rural hospitals are just dying as a 
result of this, and it is really unfair to the ambulance 
services to stick them with these costs. They can't refuse to 
take them. We have another Federal law, of course, which says 
that the hospital can't refuse to treat them, so they are 
really caught--I don't know of a hospital that would want to 
refuse to treat them. And on top of all this, I might add, you 
have the issue of compassionate care, where the woman comes to 
the border, she is in extremis, in delivery, and she is waved 
through the border. So the Border Patrol inspectors, as they 
should, properly, because they don't have the proper facilities 
on the other side, wave them through to the hospital, but then, 
of course, the hospital is yet again stuck with the cost of 
paying that bill.
    We just need to have some Federal policy on that, and I 
will be happy to work with your people on that, as well as the 
other agencies that are responsible, but I appreciate your 
listening to me on it.
    Attorney General Ashcroft. Thank you very much.

                           ins reorganization

    Mr. Kolbe. I have one final question, Mr. Chairman, and 
that is just simply--this is an easy one for you. You spoke 
about the reorganization of the INS. I happen to agree with Mr. 
Rogers that it is necessary, and you have a $40 million budget 
request for beginning the implementation of this 
reorganization. Since you did seem to agree that much of it 
would require legislative action to do that, what will the $40 
million actually be spent to do?
    Attorney General Ashcroft. Well, the $40 million will 
provide the framework of dividing the agency into two 
functional lines. One is the service part of the agency and the 
part of the agency that is enforcement-oriented. It will 
provide a basis for our getting to a 6-month processing time in 
accordance with the President's procedures for getting our 
processing down to a humane time frame, and it will improve 
accountability and lines of authority.
    People who are in the enforcement business will be 
reporting to individuals whose job it is for enforcement; 
people in service, for service. And we expect that to be 
reflected in a more enforcement-oriented side that deals with 
enforcement and a clear mission of service that deals with the 
service side.
    My view is that there are probably things that could be 
done statutorily to improve on that, but if we get that done, 
if we move the average claim--or application processing time 
down to 6 months, that is a job which we are on our way to 
doing. That is a job which people said couldn't be done a very 
short time ago, and it is going to happen.
    Mr. Kolbe. Is it mostly equipment? Is it mostly costs of 
transferring personnel, making transfers of personnel, 
equipment? Is it travel?
    Attorney General Ashcroft. There are some facilities, but 
it is mostly ramping up the human resources transfers and 
getting the reorganization to take place.
    Mr. Kolbe. But the 40 million is not additional personnel, 
is it?
    Attorney General Ashcroft. No, it is not.
    Mr. Kolbe. Transferring, moving?
    Attorney General Ashcroft. Transferring, yes, it is.
    Mr. Kolbe. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Mollohan.
    Mr. Mollohan. It is almost over now, General.

                              ident/iafis

    Looking at INS, you talked about connectivity. We have 
spent tens of millions of dollars standing up the FBI as the 
premier fingerprint identification capability in the world. 
After that got started and was doing pretty well, INS almost 
insisted that it needed a separate system. It was developed in 
a very stovepipe way, resisting any reliance upon the technical 
work that had been done by the contractor and the IAFIS system.
    I note you do have money in here to continue the 
integration process. I wondered if you were down to the level 
of detail to be able to update us on that.
    Attorney General Ashcroft. I think it is working. Now, the 
IDENT system is just the index fingers, but one finger--if you 
have got the person--will identify. And we are being able to 
cross-reference that with IAFIS. So if a person comes across 
the border and we pull them out of the line--you know, if you 
have been at a border station, there are lots of people who 
don't get pulled out of the line, put their finger in the 
reader. But if you put your finger within the reader, within a 
very short period of time, we can cross-reference that with the 
index fingerprint in IAFIS now.
    Mr. Mollohan. So the IDENT system continues to be a two-
finger print system?
    Attorney General Ashcroft. That is correct. You know, for a 
crime scene, it is good if you have all 10, because you may 
only have a ring finger on the left-hand print, and you need to 
have on file--but for identifying purposes, if you have got the 
person there, and you have got any of their other--you can just 
select the print you need to compare to, and it can work.
    Mr. Mollohan. So what needs to be done further here? You 
are requesting $23 million in part to integrate the IDENT's 
fingerprint system with the FBI's IAFIS system, and you call it 
a joint fingerprinting system. What is happening here that 
needs additional work in 2003? And you may want to submit this 
for the record, General.
    Attorney General Ashcroft. Well, frankly, I can either read 
this to you now or submit it for the record.
    Mr. Mollohan. Why don't you submit it for the record. That 
would be more merciful. You would get a better opportunity to 
explain.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Attorney General Ashcroft. Well, we are at a position--and 
we have actually--I think it has been reported to me that we 
picked up people, and we are beginning to have the feedback. 
Several hundreds have been----
    Mr. Mollohan. Well, there has been an awful lot of money 
spent. The IAFIS system is a wonderful system. I have never 
been impressed with the IDENT system.
    Attorney General Ashcroft. Well, with the IDENT system, if 
you find a fingerprint of the third finger on the right hand, 
the IDENT system will not help you at all. But if you have the 
person there, you can go to the IAFIS system and match those 
first prints pretty well. That is being--that is what we are 
doing with--what we have developed the capacity to do, and it 
may be that we have to extend that capacity.
    Mr. Mollohan. I just wonder what are the implications of 
getting a set of 10-finger prints from anybody we do 
fingerprint, whether illegal aliens or those who cross our 
borders illegally. I wonder what implications that might have 
in our overall fight against terrorism if the IDENT system were 
a 10-print system.
    Attorney General Ashcroft. Well, frankly, the 10-print 
system is of assistance when you get to a crime scene and you 
have a print that is one of the 10, but it might not be the 
index finger we record for IDENT. That has some value, and that 
is the reason the FBI has that inventory.
    If we are talking about identifying people biometrically, 
for example, if you had an identifying card, for example, that 
has a fingerprint programmed into it, and you asked the person 
to put his finger in a machine, and then you put the card in 
the machine and see if it is the same person, one print does 
that very well. And one of the problems is that the processing 
time of--you know, you have about 40--is it 40 million sets of 
prints in the IAFIS system and about 40 million or so sets of 
prints--is that what we have in IDENT? But we have--if you try 
to inventory or run 10 prints through 40 million prints, it 
takes--the return time is such that its utility at the border 
isn't as great.
    When you are trying to just match a finger print to a 
document, that is called a one-to-one match, and that can be 
done quickly. If you try to do what is called a one-to-end 
match, which is to match some biometric to the world, it takes 
a long time. There is a benefit to it, but to the extent if you 
slow things down at the border, you have a lot of other 
complications in terms of what we want to have in terms of 
access.
    I will try and respond more particularly in writing, and I 
didn't even spare you the agony. So I apologize.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Mollohan. Thank you, General.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Attorney General, I have a couple more, and 
we will try to end this at 6:00, and we will submit any we 
don't make for the record. I would say on the record----
    Attorney General Ashcroft. Is that 6:00 a.m. or p.m., Mr. 
Chairman?

                   border patrol corruption in tucson

    Mr. Wolf. I would just say I saw the 60 Minutes piece. I 
was just sitting home, and I tell people one of the reasons 
this is a great job, you can watch 60 Minutes and then come in 
the next day and do something about it. I watched the 60 
Minutes piece, and so I really hope you can kind of get your 
best people and kind of look at it. Mr. Kolbe has been very 
frustrated about it. I understand there may be another bad 
story coming out on 60 Minutes about it. It is getting a lot of 
bad press. I don't know if it is personnel. I don't know. But I 
hope you can really try to work with Mr. Kolbe to try to 
resolve it, because it doesn't seem to be in other areas. That 
seems to be the worst----
    Attorney General Ashcroft. Well, I will submit something to 
you about the 60 Minutes piece, because we got plenty of 
problems to work on that area, and some of those are real, but 
there were some things that I think I would like for you to 
know about.
    Mr. Wolf. Sure.
    Attorney General Ashcroft. So I will submit for the record 
a response to the 60 Minutes piece.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. Are you trying to say it wasn't accurate?
    Attorney General Ashcroft. No. There are----
    Mr. Wolf. No. I was just going to tell you a story, if that 
is what you are saying. You are saying it wasn't totally 
accurate?
    Attorney General Ashcroft. Yes.
    Mr. Wolf. Years ago I watched Governor Connally on 
television, 60 Minutes--CBS is right over there, so if you want 
to play this, CBS--and they went after Governor Connally over 
and over, and I was just getting involved in politics, and my 
young son turned to me and said, Dad, if 60 Minutes ever calls 
you, don't ever go on the show.
    And so I understand what you might be saying. But I think 
it is important, although I do think they do a lot of good 
things, whether it is completely true or not--I do think there 
is a problem down there, and Mr. Kolbe has raised it over and 
over.
    We are going to go through these really fast. I would like 
you to look into or let the FBI know, we would like to know how 
many Chinese companies are operating in the United States that 
are owned by the People's Liberation Army. We understand there 
are several thousand. They are conducting espionage and nothing 
else but espionage. If you can have the FBI, when they come up, 
tell us that.

                         intellectual property

    Also we are going to have a hearing on intellectual 
property in our district. Mr. Kolbe has done a great job on 
this trade issue, and the President with the Trade Promotion 
Act. But some of our companies, Microsoft, AOL, a lot of 
companies are really losing a lot from these intellectual 
property thefts. Windows 95 was available on the streets of 
Beijing before it was available here in Washington, and we are 
having a hearing, and I would like you to tell us what 
resources the Criminal Division is bringing to bear on this 
issue, because this is a criminal issue, and we have some 
figures in Vietnam who are bad about piracy. In China, it is 
unbelievable.
    So if you would look at that, I think you are going to have 
somebody from your office testify, but we would like to know 
how many cases were brought on intellectual property last year. 
If you want to tell us now, you can, but you can just have us--
somebody from Justice will be at the hearing, but it is a very 
important issue, and I am not sure you put additional money in 
this year for that issue, and that is the only segment of our 
economy--they have $11 billion surplus on balance of trade from 
the intellectual property area, and we can't afford to lose 
that. So that would be an issue that we would hope to hear 
about when your people come to the hearing to testify.

                         Victims of Trafficking

    Also the victims of trafficking--and I appreciate your 
comments earlier--does your budget eliminate the $10 million 
for grants authorized under the Trafficking Protection Act? 
There seems to be a disconnect. Maybe it is just a----
    Attorney General Ashcroft. Well, it does. I believe that--
we believe there is sufficient funding, though, to carry us 
through this year, and--so that through this year and 2003, we 
believe that there are adequate resources.
    Mr. Wolf. Well, you know, there are 50,000 people a year 
that have been trafficked in this country, women and children, 
50,000 every year, and if you can submit for the committee a 
record of all of the cases that you brought in the last year.
    Attorney General Ashcroft. Well, we can. I would say that 
we prosecuted 34 defendants in 2001, which was 4 times as many 
as 2000, and there are 91 pending trafficking investigations 
now, and we have had some very high-profile cases. I would be 
happy to provide that for the record. It is a matter of 
priority to me, and I appreciate the fact that it is a matter 
of priority to you in this committee.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. And I appreciate it. You mention it in your 
testimony. There is going to be an international conference 
here in Washington the State Department is putting on, I think, 
in August or sometime, and I think Justice will be involved in 
it.
    Attorney General Ashcroft. Yes. The President's Interagency 
Task Force met for the first time just a couple weeks ago, and 
we are working with them as well.

                           Child Pornography

    Mr. Wolf. Some of the people that are involved in this--in 
Eastern Europe are the people that have been involved in 
terrorism, and I think in drugs. It is trafficking. It is a 
whole series of things. Child pornography. Can you please 
provide the committee with an update on your efforts to 
eliminate child pornography, especially the ease with which it 
is being traded and sold on the Internet? This has to be a 
priority. You have got to be having cases that just crack down 
on this thing.
    Attorney General Ashcroft. In 2001 we brought 627 
prosecutions, including 639 defendants; 505 defendants were 
convicted.
    There is a particularly important case in this arena that 
is before the Supreme Court surrounding the issue of when is 
something child pornography if it is a computer-generated issue 
or partially computer-generated and only appears to be a real 
child? Obviously we believe that it has all the dangers--
virtually all the dangers of using real children, and we have 
argued that, but that case is to be announced by the Supreme 
Court. And frankly, it will have a serious impact on our 
ability to curtail child pornography on the Internet.
    Mr. Wolf. The argument has been made, and you are waiting 
for the decision?
    Attorney General Ashcroft. That is correct.
    Mr. Wolf. And when is that expected, this season, before 
the----
    Attorney General Ashcroft. It is in the bosom of the Court, 
and they will make their own decision about when it comes out, 
but it was a matter of high priority for us. It should be 
before May that the outcome is announced.
    Mr. Wolf. Well, I hope they rule in an appropriate way. 
This is a terrible thing, and it is a growing problem. With the 
Internet, with good comes bad, and we have this high-technology 
Internet, and now we see the garbage coming in that is creating 
tremendous problems. And I think the more you are prosecuting 
and cracking down--and hopefully the Supreme Court will 
understand that. I don't know the details of the San Diego case 
that just is in the news as we now sit, the case----
    Attorney General Ashcroft. They have discovered the----
    Mr. Wolf. I don't know the particulars but this is a high 
priority for me and I appreciate your making it a high priority 
in this Department, and hopefully, you know, the Supreme Court 
will not rule in such a way that ties your hands.

                          Operation Avalanche

    Attorney General Ashcroft. Well, we are obviously gearing 
up. I don't know whether you are familiar with Operation 
Avalanche.
    Mr. Wolf. I am not.
    Attorney General Ashcroft. Dallas, Texas, 144 searches have 
been executed in 37 states, and 100 individuals have been 
charged in that operation which flowed out of a computer setup 
that was focused there. That is just one of several of the sort 
of--a case can get pretty big pretty quickly when you have the 
infrastructure of the Internet that provides the transmission 
of pornographic material. But we seek--the budget would provide 
funds to 30 regional task forces and 24 additional 
investigative satellites to work this very important problem.

                          Gambling Prosecution

    Mr. Wolf. Okay. Well, I appreciate you staying with that.
    The next question is a little tough for you maybe, and it 
deals with gambling, and I would like you to provide the 
committee with an update regarding the Department's 
investigation of gambling activities around the country, 
particularly those involving any NCAA sports, Olympics, and 
high school events. As you know, there is a bill pending in the 
Congress that would prohibit gambling on NCAA sports and high 
school, and the Olympics. We hope to pass it in this session. 
The only State that allows gambling is Nevada, and so if you 
could give us a report on that.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                          Investigation at BIA

    Mr. Wolf. Also I put you a little bit on the spot. I sent 
you a letter today, which I don't expect you to be able to 
answer, and you should know nothing about this, but I just want 
you to look into it. I had asked earlier this year for an 
investigation of some activity of the Clinton administration at 
the BIA. They had people that were certifying Indian tribes 
that were not really Indian tribes, and we asked for an IG 
investigation. We got the investigation report back last night. 
One person, a high-level official, had left the job. On January 
20th, that seems to me to be the date--I think that is when the 
President was sworn in--I was over there. It was snowing. I 
think this person came back on the 22nd outside and signed 
papers in his car and backdated rulings on five or six tribes.
    Now, to the credit of the Secretary, she has now revoked 
those rulings, but I believe there has been some potential 
illegal activity, and what I say, dear Mr. Attorney General, 
late yesterday I received a report from the Department of the 
Interior, the Inspector General, regarding the Federal tribal 
recognition process. As you know, last year I requested the IG 
conduct a sweeping investigation into the Bureau of Indian 
Affairs after a series of articles in the Boston Globe which 
raised a number of questions about the action of two political 
appointees at the BIA. The report confirmed my suspicions that 
the Federal tribal recognition process has become compromised. 
More specifically, it documented the serious misconduct of 
Clinton political appointees at BIA.
    The IG report notes that the Department of Justice has to 
date declined to prosecute individuals despite clear evidence 
of illegal activity. I implore you to reevaluate this. I am not 
looking for blood, and I am not looking for somebody to go to 
jail or anything, but I think you really have to look at this. 
This may be a civil problem, but you really can't allow people 
to backdate things, and tribal recognition is a very serious 
thing. I worked at the Department of the Interior for five 
years. The Native Americans in America live in horrible, 
horrible conditions. We should be doing more as a Congress, 
more as a country to help the American Indian.
    If you have been on some reservations, they are absolutely 
terrible. The Congress and others felt that by having gambling 
on Indian reservations, they were helping the Indians. However, 
only about 2 percent of the Indians have received any revenue 
at all. Most Indians are living in areas where people don't go 
to gamble, and the average Indian is not receiving any revenue, 
and now you are funding non-Indians who are now fronting money 
to manipulate the recognition process at BIA, which has been a 
good process for years and years.
    And sometimes they come to this town and they hire powerful 
lobbyists, big law firms. In fact, two of these people have 
gone with a big law firm. And if they wonder who the law firm 
is, they can just call my office and get the IG report. I 
wonder if the standard of ethics of that big law firm--and if I 
said the name, everybody in this town and everybody in this 
room would know it. I wonder what the senior lawyers at that 
big law firm in Washington, D.C., think now that people are 
working in their law firm who were involved in this activity. 
And so I would like you to look at this to see if there were 
not criminal activities here.
    Again, I am not looking for prosecution. I am not looking 
to put anybody in jail, but something ought to be done whereby 
this never, ever happens again. When an Indian tribe should be 
recognized, it ought to be recognized, and I think we frankly 
ought to increase the budget. But to do this and then to run 
out and advertise that you are going to be the guy that 
lobbies. So this is a letter I have written to you. You don't 
have it. The staff has it here. We will give it to you. If you 
will look at that. I would like you to check that out.
    Attorney General Ashcroft. Thank you.

                               Oxycontin

    Mr. Wolf. Also, there were four robberies in my district a 
week and a half ago, not very far from where you are going to 
be next Wednesday night. A CVS Pharmacy, an Eckerd Pharmacy, a 
Safeway, and a pharmacy in The Plains were robbed. And what Mr. 
Rogers has said is absolutely right, and it is very hard once 
you are on it to ever get off.
    I think the Food and Drug Administration--it is a good drug 
for people who are in a lot of pain--my mom died of cancer and 
suffered. I wish there had been Oxycontin when my mother was 
sick. But the Food and Drug Administration allows it to be used 
for severe and moderate pain, and now it is running rampant. In 
Lee County in southwest Virginia, there is almost not a family 
that hasn't been devastated by it.
    I think the Justice Department and the DEA ought to sit 
down with the Food and Drug Administration and perhaps 
reevaluate this very good drug and perhaps regulate it for 
severe pain only. But when you say severe or moderate, if I go 
out and chop wood and take a tree down, I will tell you, the 
next day I am in moderate pain. I take some Advil.
    I think maybe the Food and Drug Administration didn't 
realize that this drug would be so abused. It is a good drug. 
We don't want to take it off the market, because if somebody is 
dying of cancer or is in a hospice program this drug is very 
beneficial but on the other hand, it has devastated rural 
areas, and if it comes to the big cities, I think it is going 
to be very, very dangerous.
    So I think if somebody from Justice could sit down with the 
Food and Drug Administration, maybe they ought to reevaluate, 
because there are other drugs coming along that almost fit this 
model, and if they are also available for moderate pain and 
have the same addictive power, we are going to really be in 
trouble. So if somebody could talk to the Food and Drug 
Administration about that.

                  New Prison Contruction/Privatization

    Mr. Wolf. With regard to prisons, I am one of the ones who 
has said that if there are some excess space that different 
states have, particularly medium-security and different good 
prisons--I don't want to put people in a bad prison--perhaps 
the Bureau of Prisons could contract out beds--and frankly, I 
think you all run a good Bureau of Prisons. I think that is one 
of the best run agencies in the government. Ms. Hawk does an 
outstanding job. There may be some instances whereby states 
were building all these prisons and know have excess capa city. 
Perhaps you could come in and purchase one at a very reduced 
price and save the Federal taxpayer a lot of money, and help 
some of these states that were on this prison building program, 
and now find out thank goodness they don't have to be filled.
    You said the Bureau of Prisons has 28 new prisons to come 
online. I think Mr. Mollohan is right. And I am not wild over 
the private prisons. I think prison fellowship and Chuck Colson 
coming into Federal prisons is helpful, but I am not overly 
fond of contracting out to the lowest bidder, because in the 
prison I want there to be rehabilitation, I want there to be 
job training. And your prisons are good prisons, so I don't 
want us to get where we get the lowest bid, and there is no 
rehabilitation. But there may be an opportunity for you to look 
at some of these existing prisons, get a good price from the 
state, and maybe take them over and save the taxpayer some 
money and help some of the states that are struggling.
    Attorney General Ashcroft. Mr. Chairman, it is partly 
because of your suggestions in this respect we have created 
that state and private prison assessment team to see if there 
are other resources that might be helpful to us. Our philosophy 
is the same in this respect. We just don't think a prison is a 
prison is a prison. We don't want to go buy somebody else's 
problem, but we don't want to miss the opportunity, if 
resources are available, that we should be using effectively.
    Mr. Wolf. And the states ought to give you a good price. I 
mean, this is not where they come in and see you as a cash cow 
to make money. I think it ought to be a good legitimate price.

                         Election Reform Grants

    Just two others. The election reform program, you have $400 
million. I think the Congress passed a bill to set that up some 
other place. I don't know if it is going to pass the House or 
the Senate. I guess it was put here because Justice is the best 
place.
    Attorney General Ashcroft. I think it was put in our 
jurisdiction because we prosecute violations of voting rights, 
and we also have certain responsibilities as it relates to the 
Voting Rights Act.
    Mr. Wolf. Okay.
    Attorney General Ashcroft. The $400 million is a 1-year 
figure. It would be for 3 years--and then it is expected that 
that is a match figure--so it really represents about a $2.4 
billion impact in the voting arena.
    Mr. Wolf. Well, I think it is good. Mr. Hoyer and Mr. Ney 
had a bill that passed the House, I think, and it sets up an 
Election Assistance Commission with $2.5 billion. I was just 
curious if there was any blend--you obviously were the best 
place to put it under these circumstances.
    Attorney General Ashcroft. I think absent creating a new 
commission, there was some logic in putting it with us.

                                Telework

    Mr. Wolf. Telecommuting. And I won't go into the question, 
but OPM put out a rating--I don't know where Justice came out. 
Do you know where Justice came out?
    Attorney General Ashcroft. I know we have about 1,500 
people that telework.
    Mr. Wolf. The law now requires a certain percent 
participate and I think obviously you may have jobs that are 
not quite so flexible. It is important to be promoting telework 
and telecommuting, give people more choices.
    Attorney General Ashcroft. Frankly, in some of the 
experiments that we have done, productivity has gone up.

                           Need for Expertise

    Mr. Wolf. We have found the same thing. I think that it is 
important that for the Trilogy Program, the FBI went out and 
hired an expert from IBM. I think INS has to hire somebody from 
AOL or Microsoft or somebody who can come in and understand 
systems, and I think you need a high-technology-type person. 
Until the FBI hired that person, they were having a hard time, 
and the committee has funded that program, but I think you 
really need somebody who has a tremendous understanding of that 
and somebody who may come in and be there for a year or two.
    And I think the sooner you get that on, particularly with 
all of the stuff that is coming in and all of the good work 
that you are beginning to do--I just don't think that you have 
the IT expertise. I know certainly in our office we had to go 
out and have somebody who understood technology. So I would 
hope that the INS would hire somebody too that had that 
understanding of technology. Maybe call Steve Case or Gates or 
one of those guys and say, we are looking for somebody to come 
on for two years who understands systems and who could come in 
and help us. He is good on his Palm Pilot. Maybe Mr. Serrano 
can help.
    With that, I will just end and say I do appreciate you 
coming, and now I would like to recognize Mr. Serrano for any 
last questions. And I appreciate your service. You have got a 
tough job, and I think you have handled yourself very, very 
well. You always look and see how people respond in difficult 
times. I remember your election and Mr. Carnahan was ahead of 
you, and I will tell you, the average person would have asked 
for a recount. The average person would have asked for a 
recount--you were a United States Senator. Your name was up on 
the wall. You had your desk. They still have your desk over in 
the Senate Chamber. You could have asked for a recount, and you 
didn't. And I think how people respond in those difficult 
moments really tells you more about someone than anything else. 
So I think the fact that you didn't ask for a recount was a 
good indication.
    So I appreciate your job. It is very, very tough. The 
committee has a lot of tough questions, because we all want to 
make sure that what happened at the Pentagon and what happened 
in Mr. Serrano's district with the World Trade Center and in 
Pennsylvania never happens again.
    Attorney General Ashcroft. Never happens.
    Mr. Wolf. And with what we see taking place around the 
world--I am going to put in at this point a list--I asked the 
Library of Congress for a list of all of the terrorist 
activities that have taken place, and when you look at it, it 
is awesome. I went through it last night over and over and 
over. It is pages and pages. We forget the Marine barracks. We 
forget the embassy in Beirut. We forget Khobar Towers. We 
forget the AID person that was thrown out in Pakistan. We 
forget Seaman Stethem who was thrown out of the TWA plane. I 
had forgotten a lot of them. And I just wanted to put it in the 
record so people know this is serious, and it has gone on for a 
long period of time and building up steam.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. And you have got a tough job, and your job is to 
make sure it doesn't happen again, and balancing the civil 
liberties concerns Mr. Serrano talks about. I know you feel 
that way, too. You want a good balance, but to make sure we 
never have a World Trade Center or a Pentagon or anything like 
that again.
    The rest of the questions we will just submit for the 
record, and I will recognize Mr. Serrano.

                             OLA Assistance

    Mr. Serrano. Thank you. I will be very brief, and I will 
submit the rest of my questions for the record. I just, first 
of all, would like to do a couple of housekeeping things. First 
of all, I want to congratulate you on the work that Mr. Bryant 
does in your office.
    Attorney General Ashcroft. Thank you.
    Mr. Serrano. He answers our calls immediately. He is really 
special to us in our office. We had a very difficult period, as 
you know, with a lot of my colleagues, friends, constituents in 
Federal prisons over the Vieques demonstrations, and there were 
issues about family visits and the whole thing, and he was 
very, very helpful. And the only thing I asked him that he 
couldn't deliver for me was to make you a left wing liberal, 
and he said he wouldn't touch that, and I respect that. But 
seriously, he is special, and I really respect him, and I 
wanted to say that to you in public.

                              Puerto Rico

    Mr. Serrano. Secondly, want to put in a plug in for the 
Commonwealth of Puerto Rico. I always tell people that I 
represent two districts, the South Bronx and Puerto Rico. 
Because of the lack of voting representation, I am asked--with 
Ms. Velazquez and Mr. Gutierrez--to do what we can to help. 
And it is very difficult to get dollars into the Commonwealth, 
although we have done well, because Congress tends to pay 
attention to the 50 States and tends to pay attention to voting 
members of Congress requesting for their district. I understand 
that. So I would hope that we could--your staff and I could sit 
down later and maybe work out a plan where we pay a little more 
attention to some areas, especially your agency, because they 
are out there in the Caribbean by themselves.
    You talk about border issues. Well, there they are with all 
kinds of issues surrounding them and--I just had the mayor of 
Bayamon come in to me about law enforcement issues, about 
security issues, about camera issues, sporting events and the 
whole thing. So I would like to take an opportunity to plug, 
you know, their needs and speak to your agency later on that.

                   Security at Major Sporting Events

    And just two last quick questions, one is this whole issue 
of sporting events and law enforcement coverage now as never 
before. What can you tell us? Are they coming in with a lot of 
requests? I know we heard about the Final Four. Now, during 
last year's World Series there was incredible security in the 
Bronx, as well it should be, the Super Bowl and so on. What has 
that added to the work you have to do?
    Attorney General Ashcroft. Well, the designation of an 
event as a national security event is the right thing, and--I 
ask my staff to correct me if I am wrong--is a function that is 
undertaken in cooperation with the Director of Homeland 
Security. And when national security designation has been made, 
the Secret Service organizes and directs the security around an 
event.
    My own view is it is probably not the--we shouldn't view 
only national security events as being events where we can 
help. Those are the events where the federal authorities are in 
charge, but I have instructed people at the U.S. Attorney's 
Offices to confer with and to help with events where they 
haven't put the Federal Government in charge. But that doesn't 
mean we can't play a part of the team of the law enforcement 
network that secures an event.
    Obviously in the wake of September 11, the World Series and 
its proximity required security, and the Olympics are a unique 
situation where, for me, the Olympics are special. It is a 
demonstration of people being together in a competition, but 
peaceful, and we had a special reason to secure that. And even 
more so since the story of America involves people coming from 
every country of the globe to do well here. The Olympics sort 
of represented what America is all about, people coming from 
every quadrant of the globe to do well and perform at the 
highest level possible.
    If the decision is made in the affirmative in terms of the 
FBI and Secret Service, the Homeland Security, they concur, 
they take charge of the event. I would just indicate that I 
don't think the Federal government can afford to be in charge 
of all the sporting events, but that doesn't mean that our 
resources can't participate in various times and at the local 
level. And I would just--I have seen several places where they 
have written and asked for designation, and the designation 
hasn't come, but they have found ways to work together to 
improve security. And our security effort just has to be an 
integrated effort regardless of who is in charge, and we have 
to help each other. And I think that is the best way to 
approach this thing.

                  Racial Profiling/Status of Detainees

    Mr. Serrano. My last comment and question. You pleasantly 
surprised many people in this country, and myself especially, 
when you first became Attorney General and you said that racial 
profiling was wrong, and you wanted to do whatever you could to 
end it and, I guess, make people pay a price for its practice. 
But since September 11, we have had to do some things in this 
country that worry some of us that we may be becoming guilty of 
some form of racial profiling, especially in people we detain. 
So, first of all, do you think that we could be going down that 
road and creating a problem; and secondly, are you at liberty 
to tell us how many people are being detained at this moment--I 
believe the one issue is overstaying their visas in most 
cases--and what part of the world they come from?
    Attorney General Ashcroft. Let me say that I continue to 
believe that racial profiling is wrong. This Administration has 
been opposed to racial profiling and has indicated its 
opposition to it more so than ever. The President has said it 
is wrong, and we will end it in America, and I subscribe to 
that. Using race--this is my view--as a proxy for potential 
criminal behavior is unconstitutional, and it undermines law 
enforcement by undermining the confidence that people can have 
in law enforcement. There is no success in law enforcement if 
the people you are trying to protect can't cooperate with you 
because they distrust you.
    As a matter of fact, I would point out that this 
Administration has gone beyond what the courts have held with 
regard to racial profiling there. The highest court decisions 
have been that certain kinds of racial profiling are 
appropriate, and we don't believe--they have not said they are 
appropriate, they said they are legal. I don't believe that. I 
personally believe it is an offense to the Constitution.
    We have undertaken a survey of 70 law enforcement agencies 
in the Federal Government. We were preparing a report on that 
when the September 11 incidents occurred. We have updated that 
report to the end of the year since it was deferred and will be 
delivering that to the President in the relatively near term.
    We have identified individuals based on the country of 
passport origin, but I do not believe we should identify people 
based on race in terms of using that as a proxy for criminal 
behavior.
    Let me address the issue about detention. We have in 
detention in the INS about 20,000 people total. That is because 
we have an ongoing situation. About 294--is that the right 
number as of February 22--294, were individuals of particular 
interest because of their association with individuals that 
were involved in the September 11 events. Now we have had 
others in that category before, but they have either been 
cleared, or they have been deported. We did not detain any 
people for any extended period who were not violators of their 
status. And I have kept some of those individuals in detention. 
Some are not in detention, and their status is being 
adjudicated.
    This committee has pointed out to my sorrow a fact which is 
troublesome, and that is if you don't detain some individuals 
during the adjudication of their status, they are not available 
for deportation when the adjudication is over. As a matter of 
fact, I think you all pointed out there are 321,000 absconders 
now in the country who have just left when we didn't detain 
them.
    So that we are at a level of 294 individuals who are being 
detained related to September 11 who are violators of their 
status under the immigration laws. The rest of the 20,000 are 
violators of their status, but weren't related to September 11. 
Each of these individuals has been notified of their right to 
counsel. Each has been provided with a list of pro bono counsel 
if they don't choose to hire counsel. Each of these individuals 
has been given an opportunity to communicate their detention to 
their friends, loved ones or otherwise, and we believe that 
their rights are being properly respected. The responsibility 
that I have to see to it that they don't abscond if we were to 
release them during the pendency of their adjudication is a 
responsibility that is necessary for the security of the 
national interest. They are not individuals who are detained 
based solely--they are being detained based on their violation, 
alleged violations, which we are alleging of their status and 
standing in this country.
    Mr. Serrano. Okay. I will submit, Mr. Chairman, the rest of 
these questions.
    Mr. Serrano. I want to thank you again, Mr. Attorney 
General, for being patient with us. I just want to, in closing, 
remind you what I said at the beginning. You have in your hands 
immense power to get the bad guys. Let us just protect the good 
guys in the process.
    Attorney General Ashcroft. That is good advice, and I want 
to thank the committee and thank the Chairman and Ranking 
Member. I know of no other committee that makes a commitment to 
its enterprise that is as serious and thorough as this 
committee, and this is the way it ought to operate.
    Mr. Wolf. The hearing is adjourned.
    [Questions and answers for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, March 20, 2002.

                    DRUG ENFORCEMENT ADMINISTRATION

                                WITNESS

ASA HUTCHINSON, ADMINISTRATOR

                    Opening Statement--Chairman Wolf

    Mr. Wolf. Mr. Administrator, we are going to have another 
vote. What I want to do is leave, and let Mr. Serrano continue. 
That way we will not tie you up for the whole day. And then I 
think we will be finished for a period of time.
    In the interest of time, let me welcome you to the 
committee, tell you how much I personally appreciate your 
service, particularly leaving the Congress and going into the 
Executive Branch. I want to put that on the record, my 
appreciation.
    Also, we will have a number of questions for you about 
OxyContin. I read your testimony this morning, and I know you 
cover that. As you know, we have had a particularly difficult 
problem in my area. For some reason, three weekends ago, four 
pharmacies--Eckerd, CVS, Safeway, and another one--were robbed. 
And I am going to ask you more about OxyContin and what we 
should be asking the Food and Drug Administration. Should we be 
asking the Food and Drug Administration to take another look at 
OxyContin, because they allowed it to be prescribed for severe 
and moderate pain? And also, we are going to ask you if know 
the success rate of people who are addicted to OxyContin who 
are able to kick the habit.
    So, if you would be thinking about that as we go on. And 
with that, we will have a number of other questions. And I will 
just recognize Mr. Serrano and then we can go straight to your 
testimony. The full testimony will appear in the record.
    Mr. Serrano.

                     Opening Statement--Mr. Serrano

    Mr. Serrano. Thank you, Mr. Chairman. And I welcome you, 
and also I want to join the Chairman in congratulating you, 
once again, on the work you do. It is a very difficult task 
that you have undertaken. And while, as you know, we have 
discussed in the past some disagreements I have about our lack 
of cooperation on the drug issue with Cuba and my fear of an 
involvement in Colombia under the heading of war on drugs that 
could be a military involvement, I know that your job is not to 
set that policy, but rather to carry it out and then do other 
things that you do on your own.
    So some of those questions will be geared at attempting to 
get information and, in the hope that as you are asked later on 
to advise on both of those issues, that you would carry the 
wishes of some of us who would want us, one, to cooperate with 
Cuba, and two, to be very concerned about involvement in 
Colombia.
    And with that, again, as the Chairman said, as you are 
speaking, you will be thinking about all these things. Thank 
you so much for being here.

          Opening Statement--DEA Administrator, Asa Hutchinson

    Mr. Hutchinson. Thank you, Mr. Chairman, Mr. Serrano. It is 
a pleasure to appear before your committee on behalf of the 
DEA. I will summarize my written testimony. I will not go 
through it in its entirety. But I am happy to address the 
President's 2003 budget proposal for the DEA. First, I want to 
express grateful appreciation for your long-standing support of 
our efforts to end the cycle of drug abuse, violence, and crime 
that has such a devastating impact on our communities and on 
our values.
    On February 12th, President Bush unveiled the new national 
drug control strategy, which sets very specific goals. I 
applaud him for holding us accountable by setting goals that we 
have to address. I believe that the balanced strategy that he 
outlined is what is necessary to achieve those goals.
    He stressed in announcing his drug control strategy a new 
reason for energizing our anti-drug efforts, and that is the 
link between illegal drugs and terrorism. President Bush has 
said this on a number of occasions, referencing the link, and 
has urged American citizens to take a stronger personal action 
against drugs to have a negative impact on terrorism.
    Terrorism and drug trafficking are linked by a relationship 
that includes money, geography, and weapons. Both terrorism and 
drug trafficking thrive on lawlessness, and that is why they 
move toward the same geographic areas. It is important for 
America to understand that whenever drugs are purchased, it 
very well may contribute to the financing of horrific crimes of 
violence around the world.

                           DEA BUDGET REQUEST

    The President's 2003 budget proposal for the DEA of $1.7 
billion and 8,497 positions responds to the challenges that we 
face. It supports our domestic and foreign field offices. It 
addresses the long-standing problem of cocaine, heroin, and 
methamphetamine, but it also takes a look at the new emerging 
drug concerns, OxyContin and ecstasy.
    The resources requested, which represent a 6 percent 
increase, we believe reflect the President's strong commitment 
to this mission. It breaks down, in broad terms, to securing 
our sensitive information--information security, which includes 
$6.7 million and 23 positions. It is important and critical to 
our success that we are able to maintain the security and 
integrity of the information systems that we are responsible 
for.
    Secondly, a part of the budget proposal is to reduce the 
diversion of controlled substances. DEA is requesting $24.6 
million and 133 positions under the DEA's Diversion Control Fee 
Account. This will help us address a number of diversion issues 
from OxyContin to methamphetamine as well as the E-Commerce and 
Internet Online Project initiatives. This is a very important 
part of the submission.
    Another part that ties into our concerns about the 
connection between drugs and terrorism is the effort to 
strengthen our financial investigations. The budget request 
includes $4.1 million and 27 positions, including 20 Special 
Agents, to improve our investigation of financial crimes.
    Another aspect of the budget is to protect our DEA 
personnel. Eighteen million dollars are requested to increase 
anti-terrorism security measures. This will help us upgrade X-
ray equipment to detect explosive devices, and install optical 
turnstiles and other security devices. This will help us be in 
compliance with the Inman Standards in our foreign offices.
    I also wanted to mention a part of the Department of 
Justice's budget, which includes $6.1 million and 58 positions 
for the OCDETF Program, the Organized Crime Drug Enforcement 
Task Force. This will enhance our manpower in areas of large 
illegal drug supply to conduct multi-district electronic 
surveillance investigations against the highest level of the 
drug trafficking organizations. OCDETF is a major emphasis of 
the Attorney General, and I am delighted that it is included in 
the President's budget.

           REPROGRAMMING OF FUNDS FOR AFGHANISTAN INITIATIVE

    As you know, there is a reprogramming request also before 
this committee. It is a reprogramming of $17.4 million from 
prior years' resources to implement the DEA's Afghanistan 
Initiative known as ``Operation Containment.'' This will allow 
us to establish a DEA presence in Kabul, Afghanistan. It also 
will allow us to expand our existing offices in cities where 
Afghan morphine base is transported, processed, and 
distributed. It will allow us to create three host-nation 
Sensitive Investigative Units, which are critical for the law 
enforcement structure there. It wil help us develop a 
confidential source program and a chemical control program, all 
of which are essential to reducing the flow of heroin coming 
out of Afghanistan.

                             DEA SUCCESSES

    I did want to mention some successes that I think that we 
have had recently. One of those has been the arrest of Benjamin 
Arellano-Felix. This is an extraordinary victory for President 
Vicente Fox's Administration as well as for the DEA. Benjamin's 
arrest, combined with the death of his brother Ramon, gives a 
fatal blow to the current leadership of that organization. We 
are following up quickly to take advantage of this opportunity 
in reducing the flow of cocaine coming from Mexico.
    Secondly, as the committee noted, we indicted Tomas 
Molinas, the 16th front leader of what the State Department has 
designated as a terrorist organization, the revolutionary group 
in Colombia known as the FARC. And this, without any question, 
raises to an evidentiary level the connection between the 
support of drug trafficking and the funding that goes into this 
terrorist organization in Colombia.
    We are concerned not just about Colombia and Afghanistan. 
The budget request funds the important domestic 
responsibilities that we have. Our desire in terms of the drug 
market is to disrupt it, to put a risk there, to be able to 
impact the supply that comes into the United States. We believe 
that drugs such as heroin are a commodity. When you impact the 
supply in Southwest Asia, that impacts the price and purity in 
the United States. That is one of the goals that we have in the 
DEA--to disrupt the supply chain to the United States.
    Mr. Chairman and members of the committee, thank you for 
this opportunity. This concludes my oral remarks. I look 
forward to our discussion today.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                          SPREAD OF OXYCONTIN

    Mr. Wolf. Mr. Administrator, thank you very much. Let me 
begin with OxyContin. Can you elaborate a little bit more and 
give us an update on the spread of OxyContin? Do you consider 
it to be getting worse, or do you think it has stabilized? I 
have my own opinions, but I want to hear from you.
    Mr. Hutchinson. The Chairman is as aware as anyone about 
the extraordinary problems with the diversion of OxyContin. 
Since I last testified to this committee, I personally have 
spoken to three medical groups, large numbers of doctors from 
the American Pain Society to the Cancer Institute in Florida, 
about the concerns that we have for the diversion of OxyContin.
    OxyContin is still predominantly on the Eastern Seaboard of 
the United States, but there are pockets of increased concern 
on OxyContin in places like Phoenix, and in some of the larger 
cities out West. As you know, the states that have strong 
prescription monitoring programs historically have fewer 
problems in the diversion of drugs such as OxyContin. And that, 
I think, is one of the reasons California has not been impacted 
at the same level as other states.
    OxyContin continues to be a major concern of the DEA and a 
major emphasis of our resources.

           USE OF OXYCONTIN FOR SEVERE PAIN VS. MODERATE PAIN

    Mr. Wolf. Would it not be a good idea to ask the Food and 
Drug Administration, who I believe may very well have made a 
mistake--I feel an obligation to put on the record that I 
believe this can be a very important drug, and I compliment Mr. 
Rogers, who sensitized the committee last year to this problem. 
Clearly, with someone who is dying of cancer this drug is 
helpful. I made the comment at the hearing we had that both my 
mother and father had cancer and my mom suffered incredibly 
during the last several months.
    So you understand the use of OxyContin for severe pain. 
Should the Food and Drug Administration go back and reevaluate 
the definition of ``moderate,'' and should perhaps that be 
changed? I do not know the definition of ``moderate,'' how that 
is defined. You may want to comment. Moderate pain, to me, is 
when you are out on a Saturday morning and you have been 
cutting wood or splitting wood, as I do a lot, and you come and 
in after about two or three hours, you have moderate pain. And 
you have moderate pain up through the next morning sometimes. 
And you take a couple of Advil and, usually it works its way 
out.
    I sat next to someone on Saturday night at an event down in 
the Shenandoah Valley. And the woman heard me talking to a 
deputy sheriff on this issue. She came up to tell me that her 
sister is addicted to it, and her sister's son, at age 18, had 
just overdosed and died.
    Should we be getting the Food and Drug Administration to 
review this medication? Should Secretary Thompson be addressing 
this issue, asking that maybe the definition be dropped from 
``moderate,'' to just ``severe''?
    Mr. Hutchinson. The DEA is working with, and communicating 
our concerns to the FDA. The terms ``moderate pain'' and 
``severe pain'' do have technical ramifications and meaning in 
the medical community that I am not sure fit with the common 
usage of ``moderate.'' So I think that is a factor in their 
labeling of it in that fashion.
    We do believe that OxyContin is designed for instances of 
pain which are dramatic and it takes this type of strong pain 
medication to relieve. It is up to the doctors to determine 
that and to the Food and Drug Administration to monitor it.

                  FOOD AND DRUG ADMINISTRATION'S ROLE

    I think one of the positive steps forward is the relabeling 
of the message on OxyContin, which was previously marketed in 
terms of having less potential of abuse as other Schedule II 
narcotics. It has been modified. That could have been an error 
at the beginning by the FDA in approving that particular 
advertising technique, and it has been tightened up.
    Mr. Wolf. But has the Food and Drug Administration been as 
proactive on this as they should be? Every time I see a story 
about OxyContin, I read about DEA's involvement. It is like 
Food and Drug has kind of gone under the radar. Even when I had 
them up to my office, they did not say very much. They were 
almost listening and not making any comments. Where is the Food 
and Drug Administration? Do they have a formal position on 
this?
    An 18-year-old kid overdosing is terrible. We are having a 
conference, and somebody from DEA will be at the conference on 
Friday out in my district. We have a film that Mr. Rogers 
showed me of interviews with young kids down in Southwest 
Virginia, in the Lee County area. The devastation there has 
been unbelievable. Where is the Food and Drug Administration on 
this issue?
    So, I would urge you to meet with Secretary Thompson and 
ask, where are they? The Food and Drug Administration, do they 
have an administrator yet? Did they appoint somebody yet?
    Mr. Hutchinson. The last thing I knew was that it was still 
pending.
    Mr. Wolf. Well, I would urge you to go and meet with them. 
If we had the authority, I would put some language in the bill 
legislatively saying that this is an issue FDA should address. 
Maybe we would have the authority. But I think Food and Drug 
should take responsibility. You really cannot sit by and allow 
people to die on a daily basis or allow this thing to spread. 
This thing is coming into the urban areas.

                        RECORD OF REHABILITATION

    What is the record of rehabilitation? Can you comment and 
submit for the record? Maybe I could get something by the end 
of the week. Of people who are addicted to OxyContin, what is 
the track record of them going into drug rehab programs and 
getting off of OxyContin?
    Mr. Hutchinson. I will be happy to submit a formal copy of 
that to the committee. I will say preliminarily that OxyContin 
as an opioid, an opiate-based substance, presents the same 
difficulties for rehabilitation as heroin addiction, which is a 
very entrenched addiction that is difficult to overcome. In 
many instances you have a greater will power in patients who 
have accidentally become addicted in that they are intent on 
ridding themselves of that addiction. That motivation helps in 
the rehabilitation process, in contrast to some heroin addicts 
that might not have the same level of motivation.
    But it is a very difficult addiction. I know that in our 
review of treatment facilities, one of the principal reasons 
for voluntary admissions is the OxyContin or OxyCodone 
addictions.
    [The information follows:]

                        OxyContin Rehabilitation

    The Substance Abuse and Mental Health Services 
Administration, Center for Substance Abuse (SAMSHA/CSAT) 
published an advisory,\1\ developed by polling treatment 
experts, indicating that treatment guidelines, rehabilitation, 
and recovery issues related to OxyContin<Register> and other 
prescription opioids are no different from those associated 
with illicit drugs such as heroin. The advisory states that a 
patient addicted to diverted pharmaceutical opioids continues 
to have a severe and uncontrollable craving that almost always 
leads to eventual relapse in the absence of treatment.
---------------------------------------------------------------------------
    \1\ Center for Substance Abuse Advisory on OxyContin<Register> 
Prescription Drug Abuse, April 2001, Volume 1, Issue I.
---------------------------------------------------------------------------
    The CSAT guidelines and treatment authorities cite early 
intervention during the first few months of dependence, before 
a true addiction has been established, as being the optimal 
time to achieve a drug free state through a supervised 
detoxification and monitoring program. However, after 
subsequent relapses to opioid abuse, treatment authorities 
recommend long-term maintenance therapy using methadone to 
achieve a stable life state. Benefits of continued maintenance 
treatment, or the life-long struggle that ensures without it, 
are the same whether the initial addiction is to heroin or to 
OxyContin<Register>.

                 REASON FOR INCREASED USE OF OXYCONTIN

    Mr. Wolf. Could there be a greater problem, too, since this 
is not a drug that people have to go down into the inner city 
and go into neighborhoods to buy; but the fact that they go to 
a pharmacy and it is written on a formal prescription pad from 
a doctor, whereby there is less of an awareness and therefore 
it creeps up in a different way? Could that have a bearing as 
to how this thing has taken over?
    Mr. Hutchinson. Yes, absolutely, Mr. Chairman. Whenever you 
have a pharmaceutically produced drug, such as OxyContin or 
some other pharmaceutically produced drug, teenagers and adults 
believe that it is safer than something that you would buy on 
the street, and that it is less harmful. This is a great 
concern. I think that one of the reasons it has such an 
increased usage is because of the fact that it is 
pharmaceutically produced.
    Mr. Wolf. Okay. I am going to recognize Mr. Serrano, and 
then Mr. Rogers will chair, and then I'll come right back.

         DEA COOPERATION WITH CUBA TO DISRUPT DRUG TRAFFICKING

    Mr. Serrano. Thank you, Mr. Chairman.
    As I said, I wanted to ask you a couple of questions on our 
lack of involvement with the Cuban government. As I had 
mentioned to you before, a couple of years ago, the Cuban 
government had said, We want to participate with you, the 
American government, on the issue of drug trafficking in the 
Caribbean. And our response at that point was that Congress 
held hearings on whether or not the Cuban government was 
involved in drug trafficking. So the response was just the 
opposite.
    Now, on Monday, Reuters reported that the Cuban government 
has recently taken several steps to demonstrate its willingness 
to act against drug trafficking as well as terrorism and 
illegal immigration. It has arrested a gentleman who was 
convicted in the U.S. of drug trafficking, who escaped from 
prison in 1992. It extradited another gentleman who was a 
fugitive narcotics dealer and alleged Georgia child-molester 
over to the U.S. and it offered proposals for cooperation 
agreements. The State Department's response was not 
encouraging.
    To what extent are the U.S., particularly the DEA, and Cuba 
cooperating to disrupt drug trafficking in the Caribbean, and 
do you believe that, leaving aside current U.S. policy toward 
Cuba, working on a more regular basis with Cuban authorities 
could make drug enforcement more effective?
    Mr. Hutchinson. Thank you, Mr. Serrano. And by the way, I 
understand in Congress you have a Cuba working group. They 
asked me to come before them this morning and address this 
issue, which I was happy to do.
    In reference to what is the level of drug cooperation 
between the DEA and the government of Cuba, we are handling it 
on a case-by-case basis at the present time. As you know, since 
there is not a diplomatic relationship, we do not have DEA 
personnel in Havana. We really operate by telephone and fax as 
to any assistance that is needed on a particular case.
    A good example of this is the case of Jesse James Bell, 
Jr., who was indicted in the federal grand jury in Washington 
in 1998. He was arrested in Cuba in 2001 on drug trafficking 
charges in Cuba, and Cuba ultimately cooperated with us in an 
informal extradition, where we went down and took Mr. Bell 
back. A DEA plane went to Havana and took Mr. Bell back to 
stand charges in the United States.
    Specifically, we have a United States Coast Guard liaison 
office in the Cuban Interests Section in Havana. Prior to that 
office being there, there were 144 exchanges of information 
between the United States Coast Guard and the Cuban Border 
Guard. This increased to 263 exchanges in the year 2000. You 
can see that there is a better exchange of information even 
though it is on a case-by-case basis.
    Mr. Serrano. Now, again, I do not want to put you in a 
situation where you have to speak about policy, and perhaps I 
am setting you up so you will not answer my question. But you 
are charged with a major responsibility here. And here you have 
a government in the middle of a very difficult area of the 
world, in terms of drugs, willing to cooperate. And they have 
said it so many times that most people, even people who do not 
want to get this agreement going, believe that they are willing 
to cooperate.
    Besides, as we call it around here,``Florida politics'', 
what could be holding us back from accepting their cooperation? 
I mean, they went as far a few years ago as to say--and I 
confirmed this with some of the members of the government--that 
they would be willing to have DEA agents in Havana. I mean, 
just think of it: Here is a country that is in a cold war with 
us, and vice versa, basically allowing what could be folks who 
would have two missions in life--one, to be a DEA agent, and 
two, to be something else, right? And they would accept that. 
They would take that chance. Now, does that not tell us that 
they may be serious about this issue and that we should jump on 
it and do something about it?

           IMPORTANCE OF DEA HAVING PHYSICAL PRESENCE IN CUBA

    Mr. Hutchinson. We would certainly want to believe that 
they are very serious about this issue based upon the comments 
that have been made. We can look at other nations of the world 
that we do not have diplomatic relationships with, such as 
Iran, for example. There are levels of cooperation that we 
could maintain with them in counter-narcotics, but it is 
limited because of the break in formal relationships. That is 
true with Cuba as well. It certainly would be enhanced if we 
had a physical presence in Cuba, in terms of our counter-
narcotics efforts, but that is a decision that has to be made 
by the State Department in this Administration.
    Even though there would be some benefit, it would be a 
limited benefit in terms of their resources. Cuba does not have 
the interdiction assets--the resources to respond to all of the 
intelligence requests that we might get in terms of go-fast 
boats, and other vessels out there that might be transporting 
drugs.
    Mr. Serrano. And they have admitted that. In fact, part of 
what they have said is that working with us would give them 
that advantage of them having that kind of equipment.
    Let me ask you just a personal question, if you do not 
mind. When you go into these meetings and this issue is being 
discussed, are you at liberty to tell me if you are on the side 
of let's work closer with these folks, or do you always just 
allow the State Department to tell you which way we have to go?
    Mr. Hutchinson. Well, it is my responsibility to 
communicate my personal, or my professional views on this, to 
the Administration and abide by their policy. I will 
communicate those views very frankly to the Administration. 
Certainly, with all due respect to Mike Parker, it is my 
responsibility to support the Administration's view on this.
    Mr. Serrano. I am not suggesting that you do not, and I 
would not be happy with someone who works for any 
Administration and goes around doing whatever they please. But 
I also have respect for people who, when they sit at these 
meetings, say, You know, folks, we could be going here in 
another direction. And you would not be asking for us to 
establish relations with Cuba, you would not be asking to end 
the economic embargo, you would not be asking to make any 
comments about Cuba's education or health care delivery system; 
you would be saying on this particular issue, They are telling 
us they want to work with us, let's try them out. After all, 
what is the end result--that a child in Kentucky and New York 
and California and Virginia may not get his hands on drugs in 
the future? I do not think that would be something that people 
would be that upset about.
    Mr. Hutchinson. I will express my views very clearly. But 
certainly, as I indicated to this committee, there would be 
some benefit. It would be a limited benefit because of the 
limited resources there. And finally, any enhanced commercial 
traffic with Cuba would also bring enhanced drug trafficking 
problems. That is just the nature, whether you are traveling to 
Puerto Rico or whether you are having increased commerce with 
Jamaica. That flow into the United States would bring increased 
interdiction problems for us.
    Mr. Wolf. Why not go and vote? Then I will recognize Mr. 
Rogers, then I will come back to you.
    Mr. Serrano. Unfortunately for some folks, I will be back.
    [Laughter.]
    Mr. Wolf. I am just going to comment on what he said, 
though. We have different positions on Cuba. And of course, as 
you know, I am the same way on China. On this issue, though, if 
given the opportunity to have a DEA agent in Havana, which 
would help with regard to shutting down the drugs, my sense is 
it would be worth doing. I do not want to establish diplomatic 
relations, but I think it does make a valid point, that if they 
were to take someone, for whatever it is worth, I think it 
would make sense to do it.
    All right, let me recognize Mr. Rogers.
    Mr. Rogers. Mr. Administrator, good to see you again. 
Welcome.
    Mr. Hutchinson. Good to see you, Congressman.

                  PUBLIC AWARENESS OF OXYCONTIN ABUSE

    Mr. Rogers. It is good to see a former colleague of ours 
sitting in a very high place of importance. We congratulate 
you.
    I want to follow up on what Chairman Wolf said, information 
about OxyContin. Here is another headline--this is typical: 
Thirteen-year-old girl overdoses on OxyContin. This is from the 
Hazard Herald, a small town in Southeast Kentucky, but this is 
common. I mean, it is just a common occurrence. In fact, the 
story goes on to say she, by the way, recovered, thank God. 
They got her to the hospital in time. She had ingested some 
eight OxyContin pills.
    But the story goes on to say, ``Over 20 people have been 
admitted to Hazard Hospital since January of the year''--and 
this was in March--for overdose. ``Seven Perry County 
residents, all adults, have died as the result of overdose 
within the last 10 weeks.'' This is one small town in Southeast 
Kentucky. The prosecutor says, ``I feel that drug traffickers 
should be held accountable when persons die so that they can 
make a profit.'' I will file that as a part of the record, Mr. 
Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. Without objection, yes.
    Mr. Rogers. That is not, as I say, atypical of what is 
going on. In fact, I just noticed in the news--you may 
recollect the shoplifting case of actress Winona Ryder--they 
have some fresh videotape evidence. And I am quoting from the 
BBC reports. And the videotape of the arrest, of what she was 
doing, is now public. But unbeknownst to anyone at the time, 
the story now says police said she also possessed the 
painkiller OxyCodone without a prescription at the time.
    I cite these just as evidence, as you well know, that 
OxyContin is a huge problem. And I do not know why it is not 
getting more attention in the public media. I know you are 
zeroed in on it, and I want to congratulate you for following 
up with your promises last year. You have included a 
significant increase in the drug diversion account totalling 
$24.6 million, and that is very welcome news. And I hope--well, 
that will allow you to pay, I am told, for some 133 new agents 
and strengthen your capability to prevent, detect, and 
investigate the diversion of all controlled substances, 
particularly OxyContin.
    And I congratulate you and thank you for that, and I hope 
that some of those agents are on the way to my state. And I do 
not say that in any parochial pride sense. It is a hotbed of 
activity for this insidious diversion. This is a great drug for 
people who are in severe pain, but it is causing a hell of a 
lot of pain for people who are not in pain.

       STATISTICS ON OXYCONTIN OVERDOSE, DEATHS AND RETAIL SALES

    Just for example, I want to put a few statistics on the 
record, Mr. Chairman. This is from a federal review of autopsy 
data. OxyContin played a major role in 296 overdose deaths 
around the country between May 2000 and December of 2001. 
Between January of 2000 and May of 2001, there were 69 deaths 
in Kentucky, many of them suspected of being solely the result 
of OxyContin abuse. OxyContin has been linked to more than 100 
overdose deaths in Southern New Jersey and Philadelphia in the 
last two years. In the first half of the year, 54 people died 
in Palm Beach County, Florida. In Virginia, 49 individuals died 
between January 2000 and June 2001, as a result of OxyCodone 
intoxication. Appalachian Regional Hospital in Hazard--the one 
I cited earlier in this 13-year-old girl's story--reported 
treated at least 10 OxyContin overdose cases a week last year.
    OxyContin has the highest retail sales of all the brand-
name prescription drugs. Between 1996 and 2000, during that 
four-year time, Oxy prescriptions jumped 2,000 percent, 
compared to just 23 percent increase for all other common 
opioid analgesics.
    In Kentucky, there were 9.4 million Oxy pills dispensed to 
residents from Kentucky pharmacies in the year 2000, double 
what it was the year before. And that does not include pills 
that people got at pharmacies from outside the state, which is 
substantial, as we all know.
    Drug treatment programs in Kentucky, West Virginia, 
Virginia, and Pennsylvania report that 50 to 90 percent of 
newly admitted patients identified OxyContin as their primary 
drug of abuse.
    The law enforcement people, you know, are doing the best 
they can. There was a four-month sting in this town of Hazard, 
where the young girl I mentioned to you overdosed, led by the 
local, state, and FBI in February of last year, and they 
rounded up 200 alleged dealers. Another bust in a town of some 
600 people, Bayville--50 people arrested for illegal 
distribution of OxyContin.
    You may recollect, Mr. Chairman, we had testify before the 
subcommittee six months or so ago a minister from Hazard----
    Mr. Wolf. Yes.
    Mr. Rogers [continuing]. And his young son, who was 
addicted to OxyContin but who had gone to a private 
rehabilitation place and was trying to kick the habit. And he 
boldly came before the subcommittee. And the father tearfully 
explained what he was trying to do with his young son. And the 
young son told me privately, ``I'm going to stick with this.'' 
I am sad to report to you that he did not stick with it. He is 
now in jail--back on OxyContin, caught for illegal distribution 
of OxyContin. It is an insidiously addictive pill.
    And Mr. Administrator, I know you are committed to this. 
Can you help us more with what you would like to say now?

                          COMBATING OXYCONTIN

    Mr. Hutchinson. First of all, thank you. This committee has 
done a great deal in drawing attention to this problem. Public 
awareness has been very beneficial to both the medical 
community and the general public.
    The question is, can we do more? First of all, if the 
budget resources are provided, there certainly will be 
additional diversion investigators in every district, but they 
will be particularly allocated in areas that have OxyContin 
problems. That will be the focus we have.
    Secondly, it is critically important, in my judgment, that 
the DEA be able to respond quickly to geographically sensitive 
drug problems. The problems that you describe, Mr. Rogers, are 
not the same as the problems that I hear from members of 
Congress out in California or perhaps even Nevada. But they 
have other problems. I want to be able to allocate DEA 
resources very effectively to deal with the geographically 
sensitive drug problems. If we are going to attack OxyContin, 
we have to put resources in those areas that have this problem. 
That is one of the things we will do in allocating any 
additional resources that we have.
    Mr. Rogers. I think it is more than just allocating 
resources. Local law enforcement forces are so ill-equipped to 
deal with this modern-day scourge. You have technical resources 
that they do not have. You have a broader knowledge of how this 
thing is operating than they have. If you could help your 
agents have a more direct contact with local law enforcement so 
that there is a seamless wall of law enforcement that is 
standing up to this thing across the board, I think it would be 
of enormous importance.
    I know the DEA agents are dedicated and they are hard-
working and they go through hell out there on some of this 
stuff. It is a tough way to make a living, and those people are 
dedicated. But I think if it came from the top, a drive for 
more cooperation with the local law enforcement officials on an 
organized scheme that you and your folks could help set up with 
them on an area-wide basis, it would be of a great help to us.
    Now, you are helping in the London office--in fact, you are 
one of the leading forces there--which covers the area I am 
talking about. But if we could have much more cooperation with 
the locals, I think it would be a great help to the effort.
    Mr. Hutchinson. To respond very quickly, you are absolutely 
correct. I am pleased that we have, within our existing 
resources, tripled the number of OxyContin cases in the past 
year. Part of it is the fact of the problem and part of it is 
because they have had an aggressive enforcement stance. But we 
need to do more training, and provide more support and 
coordination to our state and local counterparts in that area.

                    PRESCRIPTION MONITORING PROGRAM

    Mr. Rogers. Chairman Wolf has set up in his appropriations 
bill a pilot prescription monitoring assistance program for 
states to apply for these grants to set up a system--like 
Kentucky has, for example, similar to it--which would allow 
monitoring of prescriptions across state lines or within a 
state. Because one of the biggest problems we have faced is 
Kentucky has a prescription monitoring system, where the 
pharmacies report in to a central place the prescriptions they 
are filling. So that a pharmacy in Town A that has filled a 
prescription, goes into the machine; the same person goes to a 
pharmacy in Town B, and that pharmacist can say, well, now, 
wait a minute, you already filled this in one place. But they 
simply go across the state line into Tennessee, West Virginia, 
and Virginia, which does not have such a system. And so the 
purpose is defeated.
    Should there not be a national prescription drug monitoring 
program so that all pharmacies in any state would know whether 
or not a prescription has been filled somewhere else?
    Mr. Hutchinson. It would certainly be an extraordinary 
benefit in terms of reducing the diversion of prescription 
drugs, specifically OxyContin. As I stated earlier, the states 
that have effective prescription monitoring programs have a 
much lesser chance of having an OxyContin problem or other 
prescription drug problem, I would certainly be encouraged by 
that initiative. Virginia, for example, has a prescription 
monitoring program in the legislature right now, and we have 
worked with the State Attorney General in trying to push that 
forward.
    Mr. Wolf. Attorney General Kilgore has done a good job. But 
they have now limited it only to Southwest Virginia. And the 
problem that that is going to result--it was a good first step, 
but it is going to drive it farther up in Roanoke, in Mr. 
Goodlatte's area, and probably farther up into my area. These 
people kind of forum shop. I would have hoped that the state 
would have done it state-wide, but what Mr. Rogers is talking 
about, a national one, certainly takes care of the problem. 
They have moved, but probably not enough to make that much of a 
difference.
    Mr. Hutchinson. Some of the prescription monitoring 
programs do not give law enforcement access to the information 
we need. There should be a standard that we have to meet before 
we have access, but we have to be able to have access to be 
effective.
    Mr. Rogers. Why should there not just be a federal, a 
national database? Rather than hope that states would do it and 
have a spotty response, why do we not just create a national 
prescription monitoring program and be done with it? And give 
law enforcement access to that?
    Mr. Hutchinson. I think it would be a huge step forward in 
terms of addressing the prescription drug diversion problems in 
our country.

                           FDA RESPONSIBILITY

    Mr. Rogers. And the Chairman mentioned the FDA. Where is 
the FDA in all of this? The federal drug administration has 
been sitting silently in the corner letting people die out 
there on a drug they approved, and yet quietly do nothing about 
its absurd overuse. Do they not have authority to engage in the 
oversight of the practice of medicine or in the prescribing and 
dispensing of these controlled substances?
    Mr. Hutchinson. They have responsibility in terms of 
marketing their products, such as OxyContin, as well as the 
approval of new products and their formulation. They have a 
major role to play.
    Mr. Rogers. Are they playing any role, to your knowledge?
    Mr. Hutchinson. They are. There are working groups. They 
are very interested in our views and are responsive to us. 
Clearly, in looking back on the formulation and the marketing, 
I think everyone can see that there was not enough oversight 
early on. That has been addressed. But they have been engaged 
on the issue.
    Mr. Rogers. Well, they sure have been quiet about it. And I 
have seen no evidence of it out there where the action is. If 
they were doing their job, would we still have some doctors who 
are nothing but pill factories for OxyContin? Should they not 
have some responsibility to help curb an obvious pill factory 
that some doctors are running out there?
    Mr. Hutchinson. I believe that the oversight responsibility 
there would be on the state medical boards as well as the 
enforcement actions whenever there is a prescription without a 
legitimate and medical purpose.

              PRESCRIPTION MONITORING AND PATIENT PRIVACY

    Mr. Rogers. Mr. Chairman, I will finish, because I know 
there are others here.
    If we have a national prescription database, or even state 
databases--prescriptions oversight, some people object, 
particularly the medical professional groups are wary, at 
least, of law enforcement having access to that information, 
out of a concern for basic patient privacy. How would you 
alleviate their concerns?
    Mr. Hutchinson. The same way I did when I spoke to the 
American Pain Society--our cases overwhelmingly are not 
initiated because of a quantity issue. They are initiated 
because of a complaint, by a pharmacist, about a doctor over-
prescribing, by a patient, or we are finding the prescriptions 
at the scene of an overdose. That is what causes us to pursue a 
doctor for over-prescribing or misuse.
    The quantity and oversight would be either through help, 
from a prescription monitoring standpoint, to the state medical 
boards, or through pharmacies in checking whether there are 
double prescriptions, and then being able to enhance our 
investigative tools whenever we do have a complaint. Where we 
do have a complaint, then you can go and get the information 
you need. But that is the way I would assure the doctors. I do 
not think you can point to very many instances that the DEA has 
gone after a doctor without a complaint being the initiating 
cause for it.

                 PURCHASING OXYCONTIN VIA THE INTERNET

    Mr. Rogers. Back in December at our earlier hearing, I 
brought to your attention several one-stop pharmacy shops on 
the Internet, where they advertised OxyContin without a 
prescription. Well, I just checked yesterday. They are still 
up. They are still all over the Internet advertising--this is 
pharmacywatch.net. No doubt about who it is. I will give you 
this. ``No prescriptions required. HydroCodone, Nicodin, 
OxyCodone, OxyContin''--blah, blah, blah. ``Yes,'' it says--
asterisk, ``Yes, we have a reliable OxyContin source.'' 
``United States and foreign doctor consultation now 
available.'' And it goes on to explain. ``Seizure protection 
plan. 100 percent reimbursement if your order gets seized.''
    Here's the Mail Order Pharmacy. No prescription. OxyContin. 
Whatever. ``At last, the secrets of buying prescription drugs 
without a prescription, and it's perfectly legal.'' ``How you 
can get almost any drug you need without a prescription.'' 
``Yes, it's perfectly legal, even for non-FDA-approved drugs.'' 
And so forth and so on.
    That is all over the Internet. It is illegal, right? What 
are you going to do about it?
    Mr. Hutchinson. It is illegal when there is no doctor-
patient relationship and there is no prescription. Many of the 
illegal pharmacy sites are of foreign origin. Thailand and 
other Southeast Asian countries are often the source locations 
for these sites.
    What we are doing about it is that our Office of Diversion 
has an Online Investigations Project that is developing a 
method of detecting these Web sites that they may divert 
controlled substances. We are pushing that side of it. In 
addition, of course, that is part of the initiative in the 
budget request that has been submitted. But we are not waiting 
on that budget request. We have proceeded with that Online 
Investigations Project.
    And there has been a number of investigations being 
conducted by our field offices relating to this. Phoenix, 
Miami, San Antonio, Pittsburgh, Greensboro, Dallas, Chicago, 
Oklahoma City, and Baltimore offices all have ongoing 
investigations on Web sites pushing these pharmacies that are 
illegal.
    [The information follows:]

                  Investigation of Internet Pharmacies

    DEA will conduct preliminary checks of the web sites and 
advise the Subcommittee of the initial results of the inquiry. 
DEA is working to investigate and prosecute Internet Pharmacies 
that are operating illegally by dispensing controlled 
substances. In the FY 2003 President's Budget, DEA is 
requesting 40 Diversion Investigator positions to conduct 
Internet related investigations.
    The National Association of Boards of Pharmacy has a 
program called Verified Internet Pharmacy Practice Sites 
(VIPPS), which verifies the licensure of Internet pharmacy 
sites and can inform the public of those Web sites that are 
licensed in good standing. This information is accessible at 
www.napb.net.
    Unlicensed and unscrupulous individuals interested in quick 
profits are attracted to the Internet and may provide 
controlled substances illegally through bogus pharmacy sites. 
These sites frequently operate for a short time at a Web 
address and then disappear and move on to another Web location 
to inhibit detection by law enforcement. The typical bogus 
online pharmacy supplies controlled substances or other 
pharmaceuticals after a consultation over the Internet. There 
is no legitimate doctor-patient relationship. An individual 
fills out an online consultation form, which if forwarded to a 
physician who prescribes the requested drug for the 
``patient.''
    DEA considers the current United States law to be adequate 
to deal with Internet sites that are located within the United 
States. The investigation of Internet sites that are located in 
foreign countries depends on the cooperation of the host 
government for effective investigation and prosecution. Many of 
the illegal pharmacy sites are of foreign origin. Mexico is a 
location for Internet pharmacies along with Thailand and other 
Southeast Asian countries.
    On April 27, 2001, DEA published a Notice in the Federal 
Register providing guidance on the dispensing and purchasing of 
controlled substances of the Internet. The Notice informed 
consumers that they must have a valid prescription to obtain 
controlled substances legally and they they cannot legally 
purchase controlled substances from foreign Internet sites.
    DEA field offices are conducting several investigations 
dealing with illegal distribution of control substances from 
Web sites. Diversion Investigators in DEA's Phoenix, Miami, San 
Antonio, Pittsburgh, Greensboro, Dallas, Chicago, Oklahoma 
City, and Baltimore offices are among those who are currently 
working or have recently concluded such investigations. 
Synopsis of three such investigations follow:
    <bullet> Mainstreet Pharmacy: The DEA Oklahoma City 
Diversion Group opened an investigation into the dispensing 
practices of Ricky Joe Nelson, M.D. Dr. Nelson authorized the 
distribution of over 40,000 dosage units of schedule III 
hydrocodone combination products without physically examining a 
single person. Patients completed an on-line questionnaire 
after which Mainstreet Pharmacy mailed the drug to them. Dr. 
Nelson was convicted on January 30, 2002, of illegal 
distribution and money laundering. Jerry Shadid, the pharmacist 
in charge at Mainstreet Pharmacy had previously pled guilty to 
distribution of a schedule IV controlled substance, and he 
testified on behalf of the government. Sentencing for Dr. 
Nelson and Jerry Shadid is pending.
    <bullet> Pill Box Pharmacy: The DEA San Antonio Diversion 
Group is investigating an online pharmacy dispensing controlled 
substances without a doctor-patient relationship. Customers are 
instructed to contact one of 10 contracted physicians via 
telephone for the purpose of a ``telephonic'' exam after which 
prescriptions are faxed to the pharmacy. Customers have been 
identified throughout the United States and in many foreign 
countries. Document search warrants were served on the owner of 
the pharmacy, a physician, and another individual associated 
with the pharmacy operation. In March 2002, five individuals, 
including three physicians, were indicted on charges of 
conspiracy to dispense, possession with intent to dispense 
controlled substances, and conspiracy to commit money 
laundering. This case remains under active investigation.
    <bullet> Vitality Health Products: The Internet site 
operated out of Thailand was a source of controlled substances. 
Seizures by the United States Customs Service indicated large 
amounts of pharmaceuticals coming into the United States from 
Vitality. The DEA Baltimore and Houston Offices both opened 
criminal investigations into illegal importation of controlled 
substances from this site. The Customs Service informed DEA 
that Vitality Health Products acquired pharmaceuticals from a 
local pharmacy and moved them to another location for packaging 
and mailing to United States customers. The Government of 
Thailand conducted an investigation and requested the 
Cybersmuggling Unit of United States Customs Service to provide 
forensic computer assistance. As a result of the government's 
investigation, the Vitality Web site was shut down with the 
arrests of 22 individuals and the seizure of over one million 
controlled and non-controlled pharmaceuticals. The Government 
of Thailand's investigation also resulted in the closure of the 
web sites Pharma.com and Pharmacy International.com.

                 CRIMINAL LAW ON CRIMES ON THE INTERNET

    Mr. Rogers. Do we need to change the law? Do we need a new 
criminal law on crimes on the Internet? I mean, you say, and I 
am sure you are correct, that many of these are originating 
overseas. But there is an old tenet of criminal law from my 
days as a prosecutor that says the crime occurs where the 
injury occurs. And the injury is occurring here on our soil. 
The bullet was fired, yes, from someplace outside the country, 
but it hit somebody here. Does that not give us some 
jurisdiction to deal with that problem?
    Mr. Hutchinson. We would have the jurisdiction to deal with 
that problem, so we can pursue, and we do pursue that avenue. 
Of course, many of the difficulties are simply in terms of 
being able to catch them. They might have a Web site that is up 
for a short amount of time and then they move it and address it 
in a different way.
    Mr. Rogers. It has been around awhile. As I say, I told you 
about it in December and they are still full-blast. I do not 
know where they are, but they have their address right here, 
their Web address.
    If you do not have a law that gets at the problem, then we 
need to know about that. And if you have a law, then we want to 
know why it is not being used. If you know where these people 
are and you catch them, as I just did, advertising 
prescriptions without a doctor--medicine without a 
prescription, why can you not go after them?
    Mr. Hutchinson. I know of no reason we cannot go after 
them, and we will certainly review the law. If there are any 
deficiencies, we will report back to you. I am not aware of any 
difficulties from a substantive-law standpoint. I think 
difficulty is in building the cases that we need to go into 
court. As I said, there are numerous investigations that are 
ongoing at the present time, as we speak, and so hopefully they 
will bear fruit. As you indicated, it certainly needs to be 
done.
    Mr. Rogers. Well, let the word go forth. If you announce to 
us here today that you are going to be ordering drugs from 
people like this on the Internet for the purpose of setting up 
a case, do you think that would have any deterrent effect on 
them filling prescriptions over the Internet?
    Mr. Hutchinson. I would hope so.
    Mr. Rogers. Why do you not do that?
    Mr. Hutchinson. I would be happy to say that when we can 
identify a pharmacy that is issuing controlled substances 
without prescriptions over the Internet, we will make a 
purchase and pursue an investigation.
    Mr. Rogers. Let the word go forth. Thank you.
    Mr. Wolf. Mr. Serrano will finish it up, and then Mr. 
Vitter.

               INDICTMENT OF DRUG TRAFFICKERS IN COLOMBIA

    Mr. Serrano. Thank you. Mr. Administrator, I am very 
concerned about what I see happening in Colombia by U.S. 
involvement in what I and many people believe is a civil war. 
This year the Administration is requesting, for the first time, 
non-drug military aid to help Colombia's army guard the Cano-
Limon memorial pipeline. It appears that the Administration is 
more concerned with building special military units 
specifically to protect oil interests in Colombia, rather than 
working to improve the democratic institutions in Colombia and 
addressing counter-narcotics activities.
    Now, earlier this week, members of the FARC were indicted 
on drug trafficking charges. I am not here to defend the FARC; 
they have committed horrible acts in Colombia. But so have 
other forces in Colombia--some tied to present and past 
governments, some with right-wing paramilitary groups. It is my 
understanding that many of these groups have been connected to 
drug trafficking as well.
    There are no good guys in this fight, and if there are, 
there might be good guys on all sides and bad guys on all 
sides. And I fear we are getting ourselves involved in 
something that will undermine our credibility in Latin America, 
erode our ability to fight drug trafficking abroad, and get us 
embroiled in a conflict that is not our own.
    Now, I cannot emphasize enough to you, sir, how concerned I 
am about this. I hear it in New York, in my district; I hear 
from folks who come from different parts of Latin America who 
are, for the record, as American as apple pie, you know, but 
who know that the presence of American troops in their uniforms 
in Latin America, would destabilize a relationship that has 
been getting stronger and stronger and stronger.
    In fact, the bad joke is that the political left in Latin 
America has been dormant for quite awhile now, and the sight of 
American troops in uniform will awaken them with the comments 
and the behavior that we are not looking for as a country.
    So, could you please comment on what impact or changes 
these indictments will have on U.S. counter-narcotics 
activities in Colombia? And in addition, is it expected that 
the U.S. military will be used to carry out the indictments, or 
will that be your agents' role in some special way? And why 
now? FARC has been around for a long, long time. The 
accusations of drug involvement by them and other groups has 
been the same. So, why now?
    And then lastly, going back to my initial statement, can we 
expect members of other groups in Colombia to be indicted for 
drug trafficking in the near future?
    Mr. Hutchinson. In reference to the other groups that you 
mention, you can be assured that there are ongoing 
investigations of other groups that are engaged in drug 
trafficking. These investigations are active and ongoing as I 
have testified to Congress. You mentioned some of the 
paramilitary groups. Clearly, there is a connection between 
some of those groups and drug trafficking. That is not any 
state secret. And so when we have information, we pursue those 
investigations, and that is being done.
    In reference to the impact of the indictments on the 
involvement of the military, Congress has set restrictions on 
the use of the military in Colombia. Clearly, those 
restrictions will be followed. If Congress changes them, then 
that will be addressed accordingly. But with Tomas Molinas, the 
16th commander of the FARC that was indicted, I do hope that we 
are able to accomplish his apprehension. But his apprehension 
will be by Colombian authorities. It is the pattern that we 
have generally, and historically, operated within in the past, 
just like Benjamin Arellano-Felix was arrested by Mexican 
police. Certainly, if we have intelligence information that is 
passed on that is appropriate in the counter-narcotics arena, 
that will continue. But we look to the Colombian national 
police and the Colombian military as the responsible parties 
for pursuing these traffickers. Our role is more limited.

     HANDLING OF INDICTMENTS--UNITED STATES VS. COLOMBIA GOVERNMENT

    Mr. Serrano. Now, do these indictments come about under an 
agreement with the Colombia government? Yes, you can indict 
someone in our country and take him away? And what does that 
say, then, about Colombia's ability or inability to deal with 
its own issues? In other words, has it come to a point where 
the government cannot deal with the drug problem for whatever 
reason, either they are just fighting a losing war or they have 
some folks themselves who may be involved in this trafficking 
themselves? Is it that they have given up and now we become 
like a second government in Colombia when it comes to 
indictments?
    I mean, it is not every day, although we have done it a few 
times--I think we did it in Panama and other places--but it is 
not every day that you have a foreign government going into a 
country and indicting people and then telling the local 
authorities, we indicted them, pick them up and bring them to 
us. That seems like a classic case of some sort of colonialism, 
you know, judicial colonialism.
    Mr. Hutchinson. We do not seek their permission when we 
indict someone in the United States because it is a violation 
of United States law. It is our sovereign right to pursue those 
violations. Congress has given us jurisdiction over any 
individual or group that is importing or bringing drugs into 
the United States for delivery here, even if they do not set 
foot on United States soil. That is our basis for pursuing 
these investigations. We do not necessarily have their 
permission. Obviously, we try to give them a heads up, if an 
indictment is coming down, as a courtesy.
    In reference to the question of can they police themselves, 
I think this has been one of the successes of Plan Colombia, 
now the Andean Ridge Initiative; the criminal justice sector. 
You can talk all day about the cocoa-eradication part of it, 
but what we have done in building a stronger criminal justice 
system in Colombia has borne good fruit. For example, Fabio 
Achoa is under indictment in the United States despite his 
strong struggle to avoid extradition. He was extradited late 
last year to the United States. Despite the potential for 
violence, bribery, and corruption, the system worked in this 
case and he was extradited. Clearly, there are problems that we 
have to overcome, but there has been great progress within 
their own police organizations, through our training and 
assistance, so that they can police themselves.
    Mr. Serrano. Let me just follow this a little further, 
because it concerns me. I know someone like Chairman Rogers has 
an advantage over me in that he is a former prosecutor, so I am 
going to try to do a little of what I learned from him, 
watching him in operation.
    You are telling me now that we identify someone in Colombia 
who is a drug trafficker. Has that person also been identified 
by the Colombian government as a drug trafficker?
    Mr. Hutchinson. In some instances.
    Mr. Serrano. In some instances. So, if we identify one that 
they have not identified, is there a possibility that person is 
or is not, or is it that that government is afraid to indict 
that person? And if they can indict him and so can we, then why 
not have him tried in that country, rather than bring him here?
    I mean, I am just trying to figure out how it is that we go 
into a country and we identify someone. And I am not suggesting 
these people are not criminals, but it is a statement that that 
government cannot do what it is supposed to do, either 
politically, for whatever reasons it is hiding, or physically, 
because they just cannot do it. I want to know why we are doing 
this. You know, later on, we are going to discuss the over-
burdening of our courts here. And that is almost a sarcastic 
comment right on this major issue. But that is what we are 
doing. Pretty soon, we are going to be indicting half of 
certain groups in Latin America.
    And while I am at this, also, if we are linking terrorism 
to drug trafficking, does that mean now that we are going to 
start indicting groups that are on the State Department's 
terrorist list because of drug trafficking? I mean, I just want 
to know when this indictment ends.
    Mr. Hutchinson. Well, we are pursuing cases against other 
individuals who may be associated with terrorist organizations 
because they are engaged in drug trafficking against the United 
States. So there are other ongoing investigations. We will see 
if that level of proof is developed in those instances.
    In many cases, a drug trafficker that we target because he 
or she violated United States law is also the subject of 
investigation in another country. So they are pursuing it in 
both fashions or from both standpoints. Because of our 
capability on law enforcement and our evidence collection 
ability, many times our case moves forward quicker so we are 
able to make the charge and pursue it.
    But I mention Benjamin Arellano-Felix again. You know 
Mexico is looking at charges as well. So many times when we go 
after a trafficker in a foreign country subject to our 
indictment, as well as a case in that country we negotiate as 
to whether they are going to be tried in that country `or here 
in the United States' first.

                     TERRORISM AND DRUG TRAFFICKING

    Mr. Serrano. One last part to this question, Mr. Chairman, 
then I will give up my time.
    This is a touchy subject, Mr. Administrator, but I have to 
present it this way. If you go to the people in New York City, 
if you go to people in Northern Virginia, near the Pentagon, 
and you mention to them these days the word ``terrorism'' or 
``terrorist,'' the first thing that comes to mind, and perhaps 
the only thing that comes to mind, are people who are coming to 
this country to attack us physically, to bring harm and pain on 
us, to kill us. And every American wants those folks dealt 
with.
    But this Administration seems to be linking the words 
``narco'' and ``terrorism'' as one long, large word in two 
parts. Are we then going to try to convince the American people 
that if a person involved in the drug trade uses violence--
violence--that person is a terrorist? Because if that is the 
case, in my congressional district in the Bronx, we have on a 
weekly basis terrorists who shoot each other and, at times in 
the process, get some other people caught in the cross-fire.
    Is it now all the same kind of terrorist, or do we still 
believe there are different kinds of terrorists? And how do you 
sell to the American people that we should go start a war in 
Colombia because somehow those are terrorists that are related 
to the terrorists that attacked the World Trade Center?
    Mr. Hutchinson. Well, I think you ought to stick to the 
facts. I am not referring to you, Mr. Serrano, but I am saying 
what this Administration, and what we all should be focusing 
on, are the facts. Clearly, you know there has been, 
historically, violence associated with drugs. That is nothing 
new there. Terrorism is raising it to a different level. 
Terrorism is when there is some political motivation in it, and 
you have traditional terrorist groups, like the FARC in 
Colombia, like the Taliban in Afghanistan. I think, without any 
question, the connection between buying drugs in the United 
States that may--and underlining ``may''--fund a terrorist act 
in another country is a very real probability, whether you are 
talking about heroin or cocaine.
    So I think it is a right message. For example, when I was 
down in Mexico four weeks ago, I met with the Attorney General 
and a prosecutor in the back row who was handling a case there. 
I shook hands with him as I left. Within one hour after I left 
the airport in Mexico City, this prosecutor was assassinated. 
All the indications are that it was drug traffickers because of 
the cases that he was handling. It was a cocaine case. Does 
purchasing cocaine in the United States have an impact on 
violence in Mexico? I think you could certainly make that case: 
violence and terrorist organizations.
    Mr. Serrano. Okay, and I will close with that, just making 
the point that you put a lot of emphasis on purchasing. And 
therein lies our problem. As long as we have a market for 
drugs, there will be a supply.
    Mr. Hutchinson. Absolutely. I think that is where we agree, 
that we need to reduce the demand. That is the connection we 
are really making here that, hopefully, has an impact on the 
public. So, thank you for that.

                     THE TALIBAN AND THE DRUG TRADE

    Mr. Wolf. I just want to make a comment, though, in support 
of Mr. Hutchinson and the Administration. I am going to ask 
some questions about this as we get into it.
    The Taliban was estimated to have earned $8 billion of U.S. 
dollars a year, which was administered by Osama bin Laden. Now, 
the previous Administration failed to deal with Osama bin Laden 
when he lived in Sudan, so they took a large portion of this. 
Ahmed Rashid, who wrote the book, ``Taliban,'' who now has a 
book called ``Jihad,'' recounts a meeting with the head of the 
Taliban's anti-drug-control force in Kandahar in 1998. In it, 
he demonstrated the strange logic, the weird logic of the 
Taliban. They quote: Opium is permissible, they said, because 
it is consumed by cafirs, unbelievers in the West, and not by 
Muslims or Afghans. And the Taliban really saw the drug trade 
as a way to give them revenue. And with that they bought arms, 
they operated training camps, they had training camps all 
around Kandahar and places like that. So I think the 
Administration is right. And I think the connection is there, 
and people in the United States have to know, the purchase of 
this drug supported terrorism. And I think we have to be very 
aggressive.
    Mr. Serrano. And Mr. Chairman, that is the reason why I 
supported that action--it was the first time I supported a 
military action on the Floor--because I knew there was a 
connection between that and the World Trade Center. My point is 
that this Administration is eventually going to have to 
convince the American people that the drug war in Colombia 
merits our involvement with troops, because otherwise more 
world trade centers will be bombed in other places in this 
country.
    I am not saying they are good people. I am just asking is 
the link the same as it was with the Taliban. And right now, 
the Administration has not proven the link.
    Mr. Wolf. Well, he has a point. I think the evidence--
clearly, the Administration has to do a better job of putting 
the evidence out. You saw the latest Gallup poll. And I do not 
want to take up the time. We have a lot of questions I will get 
into. But you did see the Gallup poll showing that in the 
Middle East, our reputation was not good, and many people did 
not believe that Osama bin Laden was involved in the World 
Trade Center. And I think at times there is too much secret, 
top-secret information, the information cannot be shared. We 
are an open society and should share this.
    Now, there were some indications I had seen, and I do not 
know if it has been proven or not, that al Qaeda is down in 
Colombia, and having a relationship with the FARC?
    Mr. Hutchinson. I do not believe it did.

         THE NEED FOR THE RELIGIOUS COMMUNITY TO CONDEMN DRUGS

    Mr. Wolf. I had seen an article that they had been down 
there. But I do not know. So if you could check that for the 
record and let Mr. Serrano and me know.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. And I agree with Mr. Serrano. We need to do a 
better job in the United States. I have almost never heard a 
religious leader speak out against drugs. I have almost never 
sat in church and heard a minister talk about drug use. I 
watched a video that Mr. Rogers gave me. All of the people in 
the video were poor people from Southern Virginia who had been 
exploited by the powerful. I have not seen the church speak out 
on this, I have not seen the religious community of all the 
denominations speak out on this. They may take on some really 
very easy issues. The church ought to be speaking out on this, 
but we have to make clear, as the Administration makes the 
link, that all of us, of all faiths, should be speaking out 
against this.
    But the use of drugs in the United States, in River City, 
where we are, is furthering terrorism, whether it be in 
development in Afghanistan, development in Pakistan, or 
development in Colombia. So we have to stop using it. If 
everyone in the United States woke up tomorrow morning and said 
``never again will we ever use drugs,'' the FARC and all those 
groups would dry up because there would be no market for it.
    And so he is exactly right. But I think people in positions 
of leadership, religious leaders particularly, they ought to be 
prophetic and speak out. And if they are not speaking out, they 
are fundamentally failing. So I think they have to.
    Supply for the record the last major address by a religious 
leader in this country on the issue of drug use. Frankly, they 
do not like to go to places whereby they may be touching a 
sensitive chord of people that are in the congregation. You 
speak out. Be bold and speak out. Do it with kindness, with 
humility, but speak out.
    [The information follows:]

              Major Address by Religious Leaders on Drugs

    Several religious leaders and churches have spoken out 
against the problems associated with drugs, including Pope John 
Paul II, Billy Graham, the United Methodist Church, Religious 
Leaders for a More Just and Compassionate Drug Policy, and the 
Church of Scientology. DEA is submitting for the record Pope 
John Paul II's address for the opening of the Brotherhood 
Campaign 2001 in Brazil (January 6, 2001).

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                      ALCOHOL--GATEWAY TO DRUG USE

    And the same thing, may I say, just to give a little bit of 
a shot in, for the inconsistency of the Bush Administration. 
NBC is going to advertise hard liquor, which is a gateway to 
drug use. And the silence of the Department of HEW has been 
deafening on this issue. NBC now is running hard liquor ads. We 
cannot get the Bush Administration to speak out to urge NBC to 
go back to the voluntary ban that ABC and CBS and Fox have.
    So, there has to be a consistent policy, and I think Mr. 
Serrano makes a good point. And I would hope that I make a good 
point. The Administration ought to be speaking out on these 
other issues, too, and not just picking and choosing.
    Mr. Vitter.

                          PRAISE FOR DEA WORK

    Mr. Vitter. Thank you, Mr. Chairman. I will be brief.
    I first just want to thank Asa for all of his work in my 
state, Louisiana. He talks about it being geographically 
sensitive and specific, and in our dealings he has had that 
real sensitivity and insight into particular problems that are 
prevalent in particular parts of the country, like Louisiana. 
And I appreciate your being very attuned to that and I 
appreciate your work, particularly with local task forces who 
are working very effectively with local law enforcement.
    We had a great visit about a drug court system in 
Louisiana. Of course, that is a national issue as well. There 
are various variations on meth labs are a growing problem that 
really began north of Louisiana and they are coming south. And 
you have been very open and sensitive to working on that issue 
and, by the way, OxyContin, which we talked about here this 
morning. So I appreciate that openness and sensitivity in terms 
of working with us.
    I would just echo Mr. Rogers' comments in particular about 
OxyContin. That is an epidemic in parts of my district, clearly 
a serious problem nationally, although it is much worse and 
more prevalent in particular areas.
    And I would in particular echo his comments about a 
prescription monitoring program, because unlike pure illegal 
drugs sold on streets, almost all of the supply starts with 
prescriptions. And so there is the ability, if we get it right, 
to see, just by tracking prescriptions, to see this huge rise 
in prescriptions in a particular area that would basically have 
no legitimate explanation, the only explanation being abuse of 
the system for illegal activity. And I would really, again, 
echo that suggestion and his comments because I think that 
could be an enormously powerful tool in terms of seeing where 
the problem is, who the problem doctors are, who the problem 
pharmacists are. I mean, it is going to be there in black and 
white, in terms of data, if we just get our hands around the 
data. And that, of course, would apply to other prescription 
drugs as well, not to illegal street drugs.
    But again, thank you for your work in the areas I mentioned 
in particular, and I would commend those comments to you, 
particularly for prescription monitoring.
    Mr. Wolf. Ms. Roybal-Allard.

   DEA'S ROLE IN THE PROGRESS AGAINST THE ARELLANO-FELIX ORGANIZATION

    Ms. Roybal-Allard. Thank you, Mr. Chairman. And welcome.
    I know that in your opening statement you mentioned the 
progress that was made against the Arellano-Felix cartel with 
the arrest of Benjamin Arellano-Felix and then the confirmed 
death of his brother Ramon. In addition, just last week there 
was an arrest of Manuel Herrera Barraza, who is known as 
``Tarzan,'' the alleged overseer of the Arellano-Felix 
organization smuggling operation across the Mexican and San 
Diego border.
    News reports have alleged that this development would not 
have been possible without increased cooperation between the 
United States and Mexico. Can you discuss the DEA's role in 
this progress against the Arellano-Felix organization, and also 
the kind of increased cooperation that you are experiencing 
with the Mexican government?
    Mr. Hutchinson. Thank you. You are absolutely correct. This 
type of success could not have happened without increased 
cooperation between our government and Mexico. It starts at the 
top with President Vicente Fox and President Bush wanting that 
cooperation to happen. Even prior to the arrest of the 
Arellano-Felix leadership, there were a number of instances in 
which we shared sensitive information with Mexican authorities. 
It was not compromised. They, in turn, shared information back 
that multiplied the ability to arrest and impact organizations.
    In terms of our role, we have the strong presence of the 
DEA in Mexico City and other areas that support the local law 
enforcement by gathering intelligence in terms of trafficking 
in the United States. We pass this information along. We train 
what we call vetted units, sensitive investigative units, that 
we actually bring to Quantico, DEA's head training facility, 
and train the Mexican national police in terms of their drug 
programs. These are vetted units that have a high level of 
credibility and integrity--drug tested, polygraphed, background 
checks. They are the ones that we work the closest with in 
sharing intelligence.
    I went to Mexico City, had a great meeting with Attorney 
General Macedo de la Concha and other officials there that 
tried to build this cooperative relationship. It is at a high 
level, and we want to continue building it.

              REMOVAL OF MEXICO FROM CERTIFICATION PROCESS

    Ms. Roybal-Allard. Because of this increased cooperation 
between the United States and Mexico, some have suggested that 
Mexico be removed from the list of countries requiring 
certification by the administration. Would you agree?
    Mr. Hutchinson. Well, clearly, they are cooperating. And I 
think the certification process was correctly suspended for one 
year by this Administration. I know that it is under review, 
and one area of consideration is whether the Organization of 
American States could have a similar type review that is 
multilateral in nature, less offensive to the sovereignty of 
other countries, but has the same impact. That is under review. 
The DEA believes that Mexico is cooperating and that we want to 
be able to continue that. I think that the Administration is 
approaching it correctly by reviewing the certification process 
and whether it needs to be changed.
    Ms. Roybal-Allard. If I understand you correctly, based on 
the increased cooperation that you have been experiencing with 
Mexico, you would not be opposed to the removal of them from 
that certification list?
    Mr. Hutchinson. I would not be opposed. I would certainly 
recommend that they be indicated as a cooperative nation. I 
think there are two questions. One is whether we should even 
have the certification process in reference to Mexico. The 
second one is, if we do have it, whether they should be 
certified as cooperating or not. At the present time, they are 
certainly cooperating.

                  COMBATTING MEXICAN DRUG TRAFFICKING

    Ms. Roybal-Allard. There was a Los Angeles Times article in 
yesterday's paper that discusses the possibility that other 
drug smugglers--and they mention Miguel Lambada--could compete 
for control of the Arellano-Felix organization's turf and that 
it could create a very bloody struggle.
    What do you see are the next steps that must be taken to 
combat Mexican drug trafficking organizations?
    Mr. Hutchinson. A couple of things need to be done. First 
of all, you are correct. We have to seize this opportunity so 
that another trafficking organization does not move into the 
same territory, or the AFO--the Arellano-Felix organization--is 
not reconstructed under a different leadership. Subsequent to 
the arrest of Benjamin Arellano-Felix, we have met with our 
agency counterparts in Mexico, trying to share intelligence and 
take advantage of this opportunity.
    The second thing that we are doing, and that needs to be 
done, is to make sure that we have the capability on the 
Mexican border to gather the intelligence that we need to know 
who the organizations are, who are trying to move in, and to 
effectuate the arrest. Intelligence-gathering is critical and 
we are trying to enhance that capability.
    These are some of the discussions I had with the Attorney 
General in Mexico. We are going to follow up with other major 
traffickers that are under indictment or under investigation, 
and hopefully we can succeed in getting them.
    In my judgment the way, we have success is to show how 
great the risk is to the traffickers. If you are one of the 
younger brothers of the Arellano-Felix family, with one brother 
killed and two in jail, do you really want to take over the 
head of this organization? I hope this kind of deterrence and 
risk factor have an impact down the line.
    Ms. Roybal-Allard. It is my understanding that you have 
also been working with the Treasury Department to freeze and 
seize the assets of these organizations. Do you see that as 
playing an important role in dismantling these organizations?
    Mr. Hutchinson. I do. I see it as very beneficial. For the 
first time, we had Tier 2 designation of the affiliated 
organizations--from resort hotels to pharmacies along the 
border--that were connected to the Arellano-Felix organization. 
They were designated so that American citizens could not do 
business with them. I believe the tightening of the area of 
influence to the organization had an impact in ultimately 
arresting Benjamin Arellano-Felix. So I would certainly urge 
the Treasury Department to continue down that path and those 
designations.

                        EXTRADITION FROM MEXICO

    Ms. Roybal-Allard. The President is visiting with President 
Vicente Fox in Mexico this week. I believe it is tomorrow. On 
the list of proposed topics is a discussion of extradition to 
the United States. Now, as you know, the Mexican Supreme Court 
recently declared that a sentence of life imprisonment is a 
violation of Mexico's constitution, making extradition a lot 
more complicated.
    Can you expand on what the Administration's goals are on 
the issue of extradition, and comment on the prospect of the 
individuals of the Arellano-Felix organization being extradited 
to the United States?
    Mr. Hutchinson. In the overall extradition process, we 
certainly urge Mexico to take the necessary steps to remedy 
this Supreme Court decision that prohibits extradition in cases 
of life in prison. We respect their processes. We know that 
those fixes take some time. In the meantime, we will certainly 
continue to work with them on a case-by-case basis, measuring 
whether it is so critical to get that person back to the United 
States that we need to provide the waivers that are requested, 
or whether we should be more hard-nosed in our position. We 
take it on a case-by-case basis at the present time.
    There was one latter part to your question I think I have 
missed here. Oh, on the prospects of----
    Ms. Roybal-Allard. Oh, the prospects of the extradition.
    Mr. Hutchinson. This is where we are waiting to see whether 
Mexico pursues charges against Benjamin Arellano-Felix on their 
own. Under our agreements with them, it is my understanding 
that we allow them to proceed first if they actually have 
charges that they are going to pursue. So it is really a matter 
of negotiation with them as to whether he should be tried in 
the United States first or whether he should be tried in 
Mexico. I expect a high level of cooperation in those 
discussions.

                METHAMPHETAMINE PRODUCTION IN CALIFORNIA

    Ms. Roybal-Allard. I know that you are well aware of the 
situation regarding methamphetamines in California. State 
officials have actually told me that they have been working 
very well with you and the DEA on this issue, and I would like 
to thank you for that cooperation. As you know, it is a 
terrible situation in California, which produces 80 to 90 
percent of the nation's meth.
    According to California's attorney general, Bill Locklear, 
part of the difficulty in eliminating the meth problem is due 
to the increasing availability of precursor chemicals. I know 
the DEA has been focusing on the problem of precursor 
chemicals, and you have had some success with Operation 
Mountain Express. Can you expand on this operation and what 
else the DEA is doing to combat the availability of these 
precursor chemicals?
    Mr. Hutchinson. Yes. We all have our parochial interests. 
Coming from Arkansas, we have a meth problem, but we also 
recognize that California has an impact. Clearly, putting 
resources in California impacts many areas of the country when 
it comes to production of meth.
    We have had some successes. California has done a good job 
in regulating the retail availability of precursor products 
that could go to manufacture methamphetamine. That has forced 
the lab operators in California to look for sources of supply 
in a broader arena, and actually have gone to Canada.
    And Mountain Express was a very successful operation in 
three phases. The first two phases almost eliminated the source 
of precursor chemicals for the California lab operators, and 
that has forced them to go to Canada, which was the third phase 
of Operation Mountain Express. We arrested almost 100 
individuals, most of Middle Eastern origin, that were bringing 
in multi-ton quantities of pseudoephedrine from Canada, where 
it is not regulated, into Detroit, Chicago, and California to 
go to the labs. We are pushing Canada, very aggressively, to 
regulate pseudoephedrine so that would further eliminate that 
source of supply and, at least, help us to monitor and regulate 
it in a closer way.
    It was a very successful operation, but clearly we have to 
stay after it. There are areas, like San Diego, where the 
methamphetamine lab seizures have been reduced. Some of those 
labs have moved up into the Central Valley area. So we keep the 
pressure on in California. I think that we are going to have an 
increasing impact there in reducing methamphetamine production.
    Ms. Roybal-Allard. Mr. Chairman, can I have time for two 
more questions on this subject?
    Mr. Wolf. Sure.

               GRANT FUNDING FOR METHAMPHETAMINE CLEAN UP

    Ms. Roybal-Allard. I know you are attending a press 
conference later this afternoon in support of Rep. Ose's bill, 
the Clean Up Meth Act. The bill, as I understand it, authorizes 
$100 million in new spending for meth enforcement, education, 
and environmental cleanup. Of course, this would be 
significantly important to California. However, the 
Administration is proposing to cut the meth enforcement and 
cleanup program in the Office of Justice programs, from $70.5 
million to just $20 million. Given the significant problem that 
we were just discussing, do you know what the rationale is for 
this cut?
    Mr. Hutchinson. Actually, I----
    Ms. Roybal-Allard. This is not something that is under DEA.
    Mr. Hutchinson. The grant money is the larger amount, the 
$70, I think, that you referred to, and I will ask the Office 
of Justice program to address that. The $20 million that goes 
through the DEA is remaining at the same level. So the level of 
support for meth cleanup through the DEA is remaining constant. 
I know a huge chunk of that money is going to California.
    Ms. Roybal-Allard. I think we get about $3 million. Is that 
what that is? Last year was $3 million.
    Mr. Hutchinson. So we want to make sure that there is 
adequate cleanup money out there. My conversation with the 
states is that the budget is probably right on target in terms 
of making sure the cleanup job gets done and we give the 
support that we need to our state and local counterparts. But 
it is something we want to closely work with you on and your 
officials in California, to make sure they have adequate 
resources.
    Ms. Roybal-Allard. It is just that, you know, this grant 
money was very instrumental and helpful in some of the 
successes that we did have. So there is concern about such a 
large cut. I do not understand it, given the problem that we 
have not just in California but nationwide.

         INTEGRATED DRUG ENFORCEMENT ASSISTANCE PROGRAM (IDEA)

    My last question is that the DEA is planning to expand its 
Integrated Drug Enforcement Assistance program, which places 
DEA agents in communities to work with local law enforcement 
and community leaders on drug treatment and prevention 
initiatives. According to a recent Washington Times article, 
DEA plans to double the number of agents in the IDEA program 
and spend $5 million over the next two years.
    Can you expand a little bit on that program and what you 
hope to accomplish with the proposed expansion?
    Mr. Hutchinson. The goal is to give greater impact to our 
enforcement efforts. We are an enforcement agency. But our 
agents get frustrated when they go in and dismantle a criminal 
organization, and three months later, a new organization moves 
in. The IDEA initiative allows us to work closer with the 
community, when we dismantle an organization, by trying to make 
sure the community has the support to eliminate the possibility 
of another organization coming back in, making it much more 
difficult. To carry this out, right now we have Demand 
Reduction Agents--the ones that work with the community in 
methamphetamine summits and drug education programs. We have 
one per division so that would be 22 agents designated. I want 
to double that number and eventually get to the point that we 
have one agent in each state that can work with the communities 
in the education side of it, whether it is OxyContin, the 
problem of Ecstasy in schools, or methamphetamine.
    I think our agency is uniquely positioned, because we are 
out there in every state to work closer and to maximize the law 
enforcement efforts. So that is the goal of it. This is 
something that I initiated out of existing resources, but I 
think it is moving us in the right direction.
    Ms. Roybal-Allard. Thank you.
    Mr. Wolf. Mr. Latham.

                      SOUTHWEST BORDER INITIATIVE

    Mr. Latham. Thank you, Mr. Chairman, and welcome, Asa. We 
miss you up here, but you are doing great work and it is very 
much appreciated. I just want to compliment you and the Agency 
for all the assistance that you give us on the tri-state drug 
task force and all the work that you do in our part of the 
country, fighting primarily the meth problem, but in all areas 
it is very much appreciated.
    One concern I have is with the Southwest Border Initiative 
and how that ties in to the Administration's efforts to reform 
our borders by combining INS and Customs. With the DEA presence 
that initiative and there are various other agencies such as 
Agriculture we will still have a fragmented border presence.
    What is your take on the reform and your role and 
communications and do you have any thoughts on simplifying 
things?
    Mr. Hutchinson. The primary impact of that reorganization 
consideration is on Customs out of Treasury, INS, which would 
include the Border Patrol side, and some other border 
functions. I look at it from the DEA's perspective. If there is 
a reorganization, it probably simply means more responsibility 
that falls on our shoulders in terms of counter-narcotics.
    Customs right now plays a fairly major role in counter-
narcotics. They have the authority along the border, when they 
make a seizure, to further that investigation and have 
controlled deliveries. They work with us and keep us informed. 
But if there is a reorganization, we have to look at it as to 
who is going to pick up, not just the inspections along the 
border, but their share of the counter-narcotics 
investigations. Presumably that could very well fall in our lap 
so we have to be prepared for that.
    The second thing I would mention, and just underscore, is 
that I was down in Nogales, Arizona, right there on the border. 
And they were talking about the Border Patrol as being 
significantly enhanced, from Congress's standpoint. But every 
time the Border Patrol makes a seizure, even if it is an 
abandoned backpack of a couple of kilos of cocaine, that is put 
on our lap. So the more seizures they make, the more the Border 
Patrol is out there, we have to bag and tag more evidence, and 
we have to pursue those investigative leads. It is a huge 
pressure point for us in terms of resources.
    I would just really ask that this committee and others that 
look at this, keep in mind the impact on the other agencies, 
including the DEA.
    Mr. Latham. Is there any provision in your budget for these 
kinds of changes?
    Mr. Hutchinson. Well, the changes are prospective, they are 
still under consideration so the answer is no. We are very 
appreciative, and feel like it is right on target, the 6 
percent increase we have for a couple of new initiatives. But 
it does not include any provision for the impact on us from the 
reorganization of other agencies.

               COOPERATION AMONG AGENCIES AT THE BORDERS

    Mr. Latham. What is the situation, currently, as far as 
communications and work cooperation at the borders? I mean, Mr. 
Rogers, I know, can go on around this for days and with very 
good points, but it is so frustrating to see how the lack of 
working together impacts us, and as we know now, it is a matter 
of national security also.
    Mr. Hutchinson. Absolutely.
    You know, it is always difficult. And when you have 
different agencies accumulating their own body of intelligence, 
the sharing of it is something you have to work on day in and 
day out.
    Mr. Latham. Do you do that now?
    Mr. Hutchinson. Yes. We work on it day in and day out. That 
does not mean it is a perfect system. But my experience is that 
at the highest level of the organizations--for example, me and 
Bob Mueller, and Rob Bonner of Customs--we understand the need. 
We want to force it down our agencies to make it work.
    Mr. Latham. Is the INS in that mix?
    Mr. Hutchinson. INS----
    Mr. Latham. As far as communicating?
    Mr. Hutchinson. Well, there is communication, but they do 
not have the same body of intelligence. The Border Patrol is 
who we work with there, and we hope to be able to build a 
little bit more cooperative spirit there. What I am saying 
specifically is when they are chasing an alien coming across 
the border and this alien drops a backpack of three kilos of 
cocaine, when they pick it up at 3 a.m. in the morning, they 
call the DEA. We have to go out there and get that. It is 
abandoned evidence. It is very difficult to build a case on 
that, but we are the ones that have to go tag it, put it in, 
make sure it is destroyed properly.
    That is where the Border Patrol, with them getting 500 new 
agents can be helpful to us in some of those investigations, by 
simply tagging and logging of the evidence. That is something I 
can address to Mr. Zigler, we can work it out. But those are 
some of the needs where we can enhance our cooperative spirit 
along the border.
    Mr. Latham. Have you initiated any kind of study or 
planning for what you say are going to be additional 
responsibilities and workload for you with Customs out of the 
mix?
    Mr. Hutchinson. We are trying to anticipate. The first, 
greatest impact will be the FBI as they have already 
functionally pulled out of many task forces because their 
emphasis is on counter-terrorism. That has an impact in rural 
areas particularly. Mr. Mueller has communicated with me very 
clearly that as soon as they make a final determination as to 
what they are going to do in terms of readjustment, they will 
let me know and it will be well-documented so that we can then 
make any resource adjustments that we need.
    Customs is too premature--it may or may not happen, so we 
just have to wait and see.

                            CANADIAN BORDER

    Mr. Latham. Just one last question. We put much emphasis on 
the Southern border, but can you just give us an idea of what 
you are seeing along the Canadian border? What do you see 
happening up there?
    Mr. Hutchinson. Let me just first make two points. One, we 
do have the El Paso Intelligence Center that helps us 
coordinate things, intelligence-wise, along the border which is 
very effective. Secondly, in the Justice Department, we have 
the Strategic Management Council which is helping to coordinate 
what might happen with the FBI, INS, and DEA. So there is a lot 
of work going on on the coordination side.
    In terms of the Canadian border, I think it has been sort 
of a neglected border, understandably so. But there has been a 
shift of some resources, particularly by Customs, to make sure 
that it is adequately protected. From our standpoint, you are 
looking at Canadian marijuana that is coming in across 
Washington State and the Oregon area into California. So that 
is a major concern there. Secondly, there is the 
pseudoephedrine that is coming across, that I spoke of moments 
ago.
    Mr. Latham. Thank you, Mr. Chairman.

      DEA'S INVOLVEMENT WITH GOVERNOR RIDGE AND MEXICAN GOVERNMENT

    Mr. Wolf. Thank you, Mr. Latham.
    I know you have a press conference at 12:30, and we are 
going to finish up in time for you to go there. So maybe can we 
keep the answers relatively short, maybe submit for the record 
if you think it is appropriate.
    The conversations between Gov. Ridge and the Mexican 
government. Have you been involved in them--because drugs, 
obviously, is a major problem. Have you been involved?
    Mr. Hutchinson. Yes. Prior to his trip to Mexico City, our 
DEA Chief of Operations briefed Gov. Ridge and his staff on 
many key issues involving Mexico--from the sensitive 
investigative units to the extradition issues, and our concern 
about placing agents in additional United States consulates.

                         AFGHANISTAN INITIATIVE

    Mr. Wolf. Okay. Afghanistan, your Afghanistan initiative. 
Anybody there today, and how many will you have?
    Mr. Hutchinson. We do have agents there in Afghanistan.
    Mr. Wolf. What, in Kabul or in Islamabad?
    Mr. Hutchinson. Well, in Kandahar.
    Mr. Wolf. You have on-site in Kandahar?
    Mr. Hutchinson. Yes. Now, for----
    Mr. Wolf. How long of a term is that--three months, two 
months?
    Mr. Hutchinson. They are on temporary duty, so they are 
supposed to be coming out April 1st, and we will be putting in 
additional agents. So it is sort of on a rotation basis.
    Mr. Wolf. How many are in Kandahar now?
    Mr. Hutchinson. Less than five. We have two in Kandahar and 
they will be moving to Kabul soon, primarily because of 
security reasons.
    Mr. Wolf. How many will you have in Kabul when the Afghan 
Initiative is underway, just two?
    Mr. Hutchinson. We will be increasing that to a total of 
five personnel--three agents and two support personnel.
    Mr. Wolf. And are they advising the Afghan government at 
all?
    Mr. Hutchinson. They are working with international 
partners and with the interim government. So the answer is yes.

                ERADICATION OF POPPY CROP IN AFGHANISTAN

    Mr. Wolf. Next month, the harvest of the poppy comes in. Do 
we have any plans to work with Chairman Kharzai on both 
eradicating it, but also supplementing the income of the Afghan 
farmer at that time to transition? Because I know many have 
spent and have made loans, and poppies are now coming up.
    Mr. Hutchinson. I was sitting beside Randy Beers in a 
hearing recently, where we discussed that. Randy Beers, 
representing the State Department, has the key responsibility 
on eradication and alternative crop development. I think the 
bottom line is, because of security concerns with the aid 
workers being out in the rural areas of Afghanistan, it is 
going to be difficult to put together an effective plan on 
eradication between now and the time that crop comes up. 
Chairman Kharzai has a decree out that there will not be poppy 
cultivation, which boils it down to an enforcement effort. And 
that is where the DEA's role is critical: one, being there, and 
secondly, being able to train and build Afghan national police, 
as effective, in enforcing the law.
    Mr. Wolf. Well, you seem to be saying, then, that this crop 
will come in and be harvested.
    Mr. Hutchinson. To my great frustration--and not critical 
of anyone, but just frustrating, that we had this great 
opportunity that I am afraid will only impact a small 
percentage of the crop that is coming up.
    Mr. Wolf. You know, that is too bad. I was there in January 
with Tony Hall and Joe Pitts, and we raised that issue. And I 
think we really did miss an opportunity. Clearly, the people 
who invested, the average Afghan farmer, had to be paid; but I 
think the pain and suffering that that poppy will create now in 
Europe and Russia and here in the United States--it would have 
been a small cost.
    It still is not too late. I know it is difficult to move 
around the country. But I think if a farmer knew he had 
expended X and was going to get X plus Y, they may very well 
not harvest.
    Mr. Hutchinson. You can be sure we are going to continue to 
push in every area to enhance the percentage of that crop that 
we can dismantle.
    Mr. Wolf. How about the supplies that the Taliban had in 
warehouses? We were told stories that the Taliban was 
controlling the market. Do we know where those warehouses are, 
and have we destroyed them?
    Mr. Hutchinson. That is the reason our agents are there 
working human intelligence sources, finding out where these 
storage locations are, as well as the conversion labs. When we 
get this information, we work with the military as well as----

                      DRUG PROBLEM IN AFGHANISTAN

    Mr. Wolf. Have we taken down any drug labs?
    Mr. Hutchinson. Yes.
    Mr. Wolf. In Afghanistan?
    Mr. Hutchinson. I cannot give you the specifics, but we 
have. We have provided more information on the location of the 
labs and storage sites than we received information back as to 
the ultimate result.
    Mr. Wolf. How many Afghans are addicted to drugs?
    Mr. Hutchinson. I could not give you the percentage of it. 
I would be glad to get back with you on that.
    [The information follows:]

                  Percent of Afghans Addicted to Drugs

    There is limited information on drug abuse in Afghanistan 
other than heroin addiction is increasing. The number of 
addicts could be around 100,000, but the research methodology 
is questionable.\1\ There is no structure available in country 
to assess the extent of the problem in Afghanistan's population 
of 26.8 million.\2\ According to the United Nations 
International Drug Control Programme (UNDCP), nearly 40 percent 
of drug users in Afghanistan began their habit in neighboring 
countries like Pakistan and Iran, either as economic migrants 
or refugees fleeing war and conflict. The UNDCP also estimates 
that there are up to 2 million drug users in Afghanistan, not 
including Afghan users in the refugee camps of Pakistan and 
Iran.\3\

    \1\ Information from DEA reporting and country historical 
documents.
    \2\ CIA World Fact Book, July 2001.
    \3\ United Nations Drug Control Programme (UNDCP) Afghanistan, 
1999.

    Mr. Wolf. I understand it is quite extensive. Do you know 
how extensive drug use is at the refugee camps on the border up 
around Peshawar?
    Mr. Hutchinson. All I can say is that in that entire region 
they have an increased drug consumption problem of heroin. That 
is the reason why Pakistan and Iran have been so engaged on 
this issue.
    Mr. Wolf. How many people are in prison in Iran for drug 
use and sale?
    Mr. Hutchinson. I would have to provide that information to 
you.
    [The information follows:]

              Number of People in Prison in Iran for Drugs

    The total number of individuals in Iran's prisons on drug-
related charges is high; the Iranian Government's official 
figure is one million, but the actual number may be closer to 
two million.\1\ Iranian authorities estimate that 70 percent of 
the people in prison are there for drug-related crimes. Iran is 
very concerned with drug trafficking, drug use, and drug-
related crimes. In the past year, they have mounted a number of 
counter-drug operations throughout the country. In Tehran, 
police arrested over 35,000 individuals on drug related 
offenses during the first 6 months of 2001.

    \1\ Simpson, P. ``Poppy Power: Heroin in the Golden Crescent,'' 
Elam Review.


    Mr. Wolf. I was told the figure was 2 million. Is that 
close, or do you think that is----
    Mr. Hutchinson. I do not know.
    Mr. Wolf. How much of the opium produced in Southwest Asia 
is consumed in Pakistan, and how much is consumed in Iran?
    Mr. Hutchinson. That is the source of the consumption 
problems of Iran and Pakistan, so virtually all----
    Mr. Wolf. But a lot of that is exported to Russia and to 
Europe. But what percentage of that comes out of there and is 
consumed in Pakistan?
    Mr. Hutchinson. I do not have the percentage that is 
consumed, but that is what has led to a consumption problem in 
both of those countries.
    [The information follows:]

          Southwest Asian Opium Consumed in Pakistan and Iran

    It is believed that approximately half of the opium 
produced in Afghanistan is consumed in Afghanistan, Pakistan 
and Iran. Of the estimated 3,600 tons of opium produced in 
2000, more than 1,800 tons were consumed in the 3 countries 
over the past 2 years.\1\ DEA does not have an estimate 
breaking the consumption by country.

    \1\ Information from DEA reporting and country historical 
documents.

    Mr. Wolf. How many addicts do you think there are in 
Pakistan, and how many addicts are there in Iran?
    Mr. Hutchinson. We had a recent meeting of those countries 
in Ankara, Turkey, and they gave official government reports, 
but they all sort of winked and said: ``Well, that is just the 
government, it is really much higher than that''. So even the 
statistics that you are provided by the government are probably 
understating, the addiction problems.
    Mr. Wolf. Well, could you try to tell us what they are? We 
were told, and I saw this one that, in one area in certain 
villages, 20 to 30 percent of the population were addicted to 
drugs.
    [The information follows:]

                      Addicts in Pakistan and Iran

    The Government of Pakistan estimates it has 4 million 
addicts, approximately 3 percent of the population.\1\ Of the 4 
million, half are estimated to be heroin addicts. The 
Government of Iran estimates the number of drug (opiate) 
addicts at over 1 million with an additional 600,000 drug 
abusers. Different Iranian officials have estimated there are 
between 1.8 million and 3.3 million addicts, while the UNDCP 
estimates 1.3 million (1.5 to 2 percent of the population).

    \1\ According to the CIA World Fact Book, the population of 
Pakistan was approximately 145.0 million in July 2001.

    Mr. Hutchinson. I would be happy to get the information 
that we have made available to you.

                           DEA AGENT IN IRAN

    Mr. Wolf. Well, following through, would it not make sense 
to have a DEA agent in Iran? Would it not just make sense to 
just say--because Iran is being overrun by the drug problem, 
and they understand it. Afghanistan is sort of the core or the 
center part there--would it not make sense to say, for 
communication efforts, to get that information to shut it down, 
to have a DEA agent operating in Teheran?
    Mr. Hutchinson. There is certainly a benefit that would 
come from that.
    Mr. Wolf. Could I ask you to talk to the State Department? 
And if the staff reminds me, when Mr. Armitage comes up next 
week, we are going to ask him would they initiate the request 
with Iran to have a DEA agent based there, or two there or 
three there. I mean, it may do some good in other ways, too, 
but it helps to deal with this problem. You cannot deal with 
that problem in Afghanistan if you do not have people in 
Afghanistan. How many do you have in Pakistan? You have a 
significant number?
    Mr. Hutchinson. Yes. We have two, Islamabad and Peshawar.
    Mr. Wolf. I would assume, based on what happened Sunday, 
their families are not with them.
    Mr. Hutchinson. I have not been briefed on that, but I 
would assume that as well.
    Mr. Wolf. I think it would be very dangerous now, in light 
of what happened there. Could you see, and tell us maybe by the 
end of the week with regard to Iran--and we are going to have a 
hearing next week with Mr. Armitage.
    Mr. Hutchinson. I would be glad to get back with you on it. 
Generally we work out of the embassies.
    Mr. Wolf. We have no embassy in Afghanistan.
    Mr. Hutchinson. We have no embassy, and so we have huge 
security issues for DEA personnel there. I mean, we are open to 
it, but that is a great concern.
    Mr. Wolf. I think the DEA agent would be safe. If the 
Afghan government welcomed the DEA agent, I think the DEA agent 
would be safe.

                     DRUG TREATMENT IN AFGHANISTAN

    Is there any rehabilitation drug treatment in Afghanistan? 
I think there was one small one in Kabul that could handle 12 
people.
    Mr. Hutchinson. I am not a expert on it, but I would think 
it would be minuscule or nonexistent.
    [The information follows:]

      Availability of Drug Rehabilitation Treatment in Afghanistan

    DEA does not have information about treatment centers or 
drug rehabilitation programs in Afghanistan. There is limited 
reporting that in the past Afghan hospitals were treating 
addicts in psychiatric wards. For example, in 2001 the Kabul 
mental hospital was providing limited rehabilitation treatment 
to approximately 200 heroin addicts per month.\1\

    \1\ Information from DEA reporting and country historical 
documents.

    Mr. Wolf. Can we check to see? And maybe we should offer 
Chairman Kharzai some help and support with regard to that 
effort?
    Mr. Hutchinson. I would be happy to check that.

                     INTELLIGENCE GATHERING/SHARING

    Mr. Wolf. We have heard a lot about the FBI not knowing 
what it knows. Does DEA have the same situation--intelligence 
you have collected that has yet to be analyzed?
    Mr. Hutchinson. No, sir. We have a good handle on the 
information that is in our systems and what is being brought 
in. I think that we also, most importantly, have a good sharing 
capability with our state and local counterparts.
    Mr. Wolf. How often do you meet with Director Mueller?
    Mr. Hutchinson. On an as-needed basis. In addition, we are 
on some committees of the Attorney General together on a fairly 
regular basis.
    Mr. Wolf. So, how many times a month do you see him?
    Mr. Hutchinson. Probably two to three times a month.
    Mr. Wolf. You know, it may not be a bad idea to formalize. 
You are not very far away. Do you have any intelligence that 
you have come up with that could be telling him of a future 
terrorist attack?
    Mr. Hutchinson. We are very active in intelligence 
gathering in that arena, and it is passed immediately over to 
the FBI. There is a close relationship there because we 
understand the national security implications.
    Mr. Wolf. It does not sit on someone's desk for two or 
three months?
    Mr. Hutchinson. No. It is immediate.
    Mr. Wolf. How many people were----
    Mr. Hutchinson. That is part of why the Attorney General 
has asked for $35 million in our counterterrorism fund to help 
us on the intelligence capabilities and being able to support 
the other agencies.
    Mr. Wolf. For the record, you can tell us how DEA shares 
information with other federal law enforcement agencies and 
with the state and local. For instance, the Fairfax County 
Police, how do you share? You can briefly describe it for the 
record. How do you share with the Virginia State Police?
    Mr. Hutchinson. We have our task forces. We have over 300 
state and local task forces, which have over 1,900 offices 
nationwide. As we have the local police participate in a task 
force, they have immediate access to all of the intelligence 
that we have. Ours is on the Firebird system. They have access 
to that system--to every bit of intelligence. So if the Chief 
of Police needs to know what the DEA knows, they generally 
would call their task force officer who is there, physically 
located with us, and would have verbal communication as well as 
access to our databases.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. Do you have DEA agents still assigned to the FBI 
with regard to counterterrorism?
    Mr. Hutchinson. There are no agents----
    Mr. Wolf. You had some, did you not, earlier?
    Mr. Hutchinson. We did have agents and, more importantly, 
intelligence analysts that were there actively assisting them, 
but those have been pulled back and they are not there now. But 
the intelligence sharing goes on.

                           DRUG CZAR VS IDEA

    Mr. Wolf. On the Integrated Drug Enforcement Assistance, I 
think I understand, but is it more than just having people go 
out and speak? This whole demand reduction program, how do you 
fit in with the drug czar?
    Mr. Hutchinson. Well, the drug czar has virtually all the 
responsibility on demand reduction, particularly through the 
media campaign. But in terms of the DEA, the demand reduction 
side of our responsibility started back with Jack Lawn in the 
early 1980s during the Ronald Reagan Administration. But it 
really has not been increased at all in the last 15 years.
    Part of the responsibility is speaking, when requested, but 
the IDEA initiative is much more comprehensive than that. When 
we start an operation, from a law enforcement standpoint, we 
start then working with the community. After we leave that law 
enforcement operation, our agents stay there working with them 
to build community support to keep the drugs and the demand 
out.

                              DARE PROGRAM

    Mr. Wolf. Do you believe the new DARE program is 
successful? The previous one was really not very successful.
    Mr. Hutchinson. Well, I think it has to be tested. I think 
that they took the right steps by having a scientific review of 
that and modifying their program. So it is a step in the right 
direction. We will have to monitor it to see how successful it 
is.
    Mr. Wolf. Why do I not go vote and then you can ask him 
questions, when I come back, you can go, and then we can finish 
up. That way, you will make the 12:30. I will be right back.

               DRUG TRAFFICKING PATTERNS IN THE CARIBBEAN

    Mr. Serrano. I thank the administrator.
    In the past, we have had extensive discussions about drug 
trafficking in the Caribbean, including reports that the flow 
through the Caribbean was increasing, the quality of life 
issues for DEA agents in Puerto Rico, Puerto Rico's role as a 
transit point for drugs to land and be repackaged for shipment 
to New York and other points along the East Coast, and DEA's 
review of alleged inflation of arrest figures for the San Juan 
office, which you and I have discussed prior to this meeting.
    Would you just give us for the record an overview of where 
we are on all these issues?
    Mr. Hutchinson. First of all, in reference to the Caribbean 
as a whole, in comparison to where we were in the early 1980s, 
it is a huge success story because the percentage of drugs 
coming into the United States through the Caribbean has 
dramatically shifted. Now, the sad news is that it has shifted 
over to the Southwest border. But our presence there and 
consistency of operations are very critical to maintain and 
diminish the trafficking that comes through the Caribbean.
    One of the things that has been very successful in Puerto 
Rico is an initiative by our Special Agent In Charge there, 
Rogelio Rivera, which allows us to be more responsive to the 
different islands. As a new trafficking pattern is initiated 
for drugs coming in, we are able to, in a more quick fashion, 
respond with agents and personnel that will go to where the new 
trend is. That has been very helpful.
    You mentioned the Caribbean case reporting difficulty. 
First of all, that is reprehensible in terms of any agency, 
particularly the DEA, that would falsely report statistics. 
There was an instance of that in the Caribbean. That was 
reviewed from a management and a discipline standpoint, and the 
GAO reviewed it. It was determined not to be an agency-wide 
problem. Discipline has been carried out, as well as corrective 
action to make sure that is not duplicated anywhere else. I 
have tried to send out every signal possible that it is not 
tolerable in our agency.

         RELATIONSHIP BETWEEN PUERTO RICO AND THE UNITED STATES

    Mr. Serrano. Is there any relationship, or is there any 
worry about the relationship between Puerto Rico and the U.S. 
and how people get into the island and leave the island? Has 
that ever played into DEA's concerns? I mean, there are people 
who get on an airplane, for instance, who leave Puerto Rico, 
who are American citizens. Does DEA find that there is any 
difficulty in the way people are checked coming in? First of 
all, INS would be concerned that they are legally traveling or 
that they are American citizens. Yet it has always been a 
touchy subject, because you do not want one particular area 
where you are checking Americans to find out if they are indeed 
Americans or not. Does DEA concern itself with that, or do you 
have, obviously, your own agenda that you are concerned about?
    Mr. Hutchinson. Well, it is a reality of life that if the 
drugs get to Puerto Rico, it is like being on United States 
soil. And so the security is much less coming into the United 
States from Puerto Rico versus coming in from Colombia, for 
example. You do not have the same Customs checkpoints. That is 
why there is a very intensive effort to stop the drugs before 
they get to Puerto Rico, because once there, it becomes much 
more difficult.

                   ADEQUATE MANPOWER FOR WAR ON DRUGS

    Mr. Serrano. Let me just take you to another area here of 
great concern. Since September 11th, we have focused quite a 
bit, and rightfully so, on the whole issue of counterterrorism. 
But that means that, obviously, a lot of folks who ordinarily 
would be involved in your issues are now doing something else. 
There have been some comments in years past, you know, about an 
overlap between the FBI and DEA, but now certainly the FBI is 
shifting resources to do what they have to be doing after 
September 11th. Can we expect that the effort on the war on 
drugs in terms of manpower now will become a problem that will 
increase because you have less people? And do you have a 
situation where some of your folks are being diverted to do 
other work?
    Mr. Hutchinson. It is something that we have to watch very 
carefully. First of all, we put over 100 agents in the Sky 
Marshal program to help get our airlines going again. Those 
agents should be returned in the near future. But that hit us 
by 100 agents. We have I think over 100 agents that have been 
called up for military duty, and so you lose some there. And 
then you have the potential down the road of some of the other 
agencies, as you have mentioned, being more focused on counter-
terrorism, which leaves more responsibility in our lap.
    So it is a day-by-day monitoring of that. Thus far, I have 
been very impressed that we have been able to, through better 
intelligence, effectively respond, but it is something we are 
watching very closely.
    Mr. Serrano. Putting aside the fee account and the 
retirement shift, the increase for DEA is only 4 percent. Do 
you believe this is an adequate increase to continue our war on 
drugs?
    Mr. Hutchinson. Yes. I believe that it is important, when 
you are looking at our counternarcotics effort, that you deal 
with it effectively with proper resource allocation. I think 
the budget addresses the critical needs that we have now. I 
think it is very important, as you said, to monitor it in the 
future as to what happens with the FBI and U.S. Customs, 
whether we need to do more. But for the present, this is a 
strong statement that this is still a high-priority agenda.

                  RELATIONSHIP WITH MEXICAN GOVERNMENT

    Mr. Serrano. I have one last question, Mr. Chairman, before 
I go vote.
    We want to congratulate you on all the work that you have 
been doing with the Mexican government. I think that really 
shows some very positive signs. Can you comment--I know you 
have, but just give us recap on that relationship with the 
Mexican government and what you foresee for the future.
    [The information follows:]

                Relationship With the Mexican Government

    DEA and the Government of Mexico (GOM) have established an 
excellent relationship and DEA is experiencing the highest 
level of cooperation in its history with Mexico. The tone of 
the relationship has been set at the top with what appears to 
be a genuine friendship between Presidents Bush and Fox. 
Administrator Hutchinson and Mexico's Attorney General (AG) 
Macedo have also developed an outstanding rapport. It appears 
that because of these alliances established at the highest 
levels, the GOM directed its subordinates to make the law 
enforcement relationship with the United States work. In 
addition, DEA's Mexico City Country Office has developed close 
personal and professional relationships with key GOM contacts 
that include AG Macedo, Deputy AG Ibarrola, Organized Crime 
Unit Chief Vasconcellos, Office for Crimes Against Health Chief 
Bermudez, Federal Investigations Agency Chief Garcia-Luna, and 
Center for National Drug Control Planning Chief Luque-Luna. The 
formal Bilateral Interdiction Working Group has also helped to 
forge stronger relationships.
    Considering the depth of mutual suspicion resulting from 
the Special Agent Camarena Case, Dr. Alvarez-Machin's 
extraordinary rendition and the unilateral counter-drug 
certification, the relationship has advanced significantly and 
both nations have focused on drug enforcement issues. This 
outstanding relationship allows DEA to facilitate rapid 
clearances via Brownsville-Merida, and obtain access to 
sensitive GOM information, cooperative defendants and protected 
witnesses. DEA has had sufficient confidence in its GOM 
counterparts to share sensitive information on major 
investigations a month before a scheduled takedown without any 
compromises. This increased exchange of information has been 
mutual, with the GOM providing DEA information that facilitated 
multi-ton chemical seizures in California (Operation Lion's 
Grip). DEA has witnessed an improvement in the relationship 
with the Secretariat of Foreign Relations (SRE), an 
organization that previously harbored deep-seated distrust and 
suspicion of DEA. Administrator Hutchinson's recent visit with 
Secretary Castaneda significantly advanced DEA's cause. Rafael 
Laveaga of the SRE stated that the cap on the number of DEA 
Special Agents in Mexico may be lifted and will be considered 
at the Senior Law Enforcement Plenary in April 2002. DEA is 
very optimistic about the significant advances made in our 
relationship with Mexico and will continue to make alliances 
and increase the exchange of information with the GOM.

    Mr. Hutchinson. I am very optimistic about the future and 
our relationship with Mexico when it comes to law enforcement. 
First of all, there is a strong personal feeling from the 
President, both presidents of our countries, but also the 
Attorney General that I have met with. I developed a personal 
relationship with him. I believe there is a strong level of 
commitment both to root out corruption, to build the 
cooperation, and to enhance the arrest of these trafficking 
organizations.
    I believe that they are flying very high from a morale 
standpoint as a result of this arrest of Benjamin Arellano-
Felix. What you see in Mexico is that huge chunks of geography 
are not controlled by law enforcement, but controlled by the 
drug trafficking organizations. What this arrest did was to say 
we have a chance of reclaiming some of these plazas, some of 
these geographic areas. They are enthused with that potential, 
and I think success builds upon success. So I want to continue 
to build on that.
    Mr. Serrano. Well, and we encourage you to do so. I know 
you well, and I think that that is a very, very important part 
of what we need to do.
    Mr. Chairman, by the time I go vote and then we come back 
and you ask some questions, it will be about that time. So I 
will submit the rest of my questions for the record.
    And I want to once again commend you for the work you are 
doing. That which we disagree on is more on a national policy 
that you did not put forth. And I am not going to be on you 
until I find out that you are the leader of that policy. 
[Laughter.]
    But in the meantime, I would encourage you, when you are 
sitting at those private meetings, to remind some folks that 
the situation in Colombia, while under the heading of Fighting 
Drugs--something we all want to do--could be a very, very, very 
difficult situation for us.
    You know, in this profession--and you were in it on this 
side--you know that we love to make predictions and hope that 
we can put out a press release a year later, two years later, 
five years later and say, you see, I was right. I make a 
prediction and I am hoping that someday I have to eat that 
prediction and say I was wrong. But I think Colombia could be a 
Spanish-speaking Vietnam for us if we are not careful. It has 
all the characteristics of a civil war that we should not be 
involved in, and I am just afraid that it is being done in a 
fight against drugs, something we all support.
    So in a very interesting and bizarre way, you are very much 
at the center of what could be a major mistake we may make in 
the future. And while I understand, once again, that it is not 
your policy, it comes from a different level--not necessarily a 
higher level, but a different level--I hope that when you get 
behind closed doors, you remind some people of what I know you 
know as a former member of Congress and the kinds of fears that 
we have and concerns that we have.
    But I thank you for your testimony, and I thank you for 
your service to our country.
    Mr. Hutchinson. Thank you.
    Mr. Wolf. Thank you, Mr. Serrano. There is also going to be 
another vote, I think, after this. We will definitely get you 
out of here by 12:30.

                           EXCHANGE PROGRAMS

    Do you bring judges from Mexico and their different law 
enforcement people for exchange programs? And their DEA, do 
they come up here and go to the FBI Academy and go to the 
Judicial Conference, and do things like that?
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Hutchinson. From a law enforcement standpoint, the 
answer is yes. It is primarily training. But we also have them 
up here for planning and strategic meetings. From the 
standpoint of the judges and the prosecutors, there would be 
some training, primarily from the criminal division of the 
Justice Department. I do not know the extent of it in 
particular.
    Mr. Wolf. Well, if you let us know, we might be able to put 
some language in. I think that is a very good idea. You develop 
relationships, friendships, also the skills. Do we send them 
through the FBI Academy, like we do for state and local law 
enforcement?
    Mr. Hutchinson. The police?
    Mr. Wolf. Yes.
    Mr. Hutchinson. The DEA, they come through the DEA schools. 
So we bring Mexican national police----
    Mr. Wolf. For instance, how many went through last year?
    [The information follows:]

            Sensitive Investigative Unit Training for Mexico

    DEA trained 71 member from Mexico's SIU in FY 2001. An 
additional 40 will be trained on May 27, 2002.

    Mr. Hutchinson. This is the sensitive investigative units, 
and I went out there, personally, and spoke to them. There are 
probably 40 or 50 at a time that come through there, and I 
would just guess that we are probably in the 100-200 range of 
police that come up here every year.

               ASSASSINATION OF PROSECUTOR IN MEXICO CITY

    Mr. Wolf. What was the background of the gentleman you said 
you shook hands with and he was assassinated? When was this, 
and what happened?
    Mr. Hutchinson. He was a career prosecutor in the Attorney 
General's office----
    Mr. Wolf. From Mexico City?
    Mr. Hutchinson. From Mexico City. And he was handling a 
case that involved nine metric tons of cocaine off of a fishing 
vessel.
    Mr. Wolf. And where was he killed?
    Mr. Hutchinson. He was killed right outside of Mexico City, 
in a suburb.
    Mr. Wolf. Driving along, or at his house, or what was the 
circumstance?
    Mr. Hutchinson. He was in his vehicle, is what I 
understand, stopped, and was shot with 20-some bullets, 
according to the police report.
    Mr. Wolf. And no apprehension of who did it?
    Mr. Hutchinson. No apprehension.
    Mr. Wolf. When was that?
    Mr. Hutchinson. Well, I was there about four weeks ago. So 
it would have been that time frame.
    Mr. Wolf. They also killed the Bishop of Tijuana, did they 
not, several years ago.
    Mr. Hutchinson. Yes, and that was the Arellano-Felix 
organization.

                      Corresponding Drug Agencies

    Mr. Wolf. I hope you are successful in bringing him here.
    A couple of closing things. One other question. The heroin 
from the poppies in Afghanistan, that is going to Europe and 
Russia. Are they working side-by-side, the corresponding drug 
agencies in Europe, with us with regard to that issue?
    Mr. Hutchinson. Yes.
    Mr. Wolf. Do any other countries have DEA-type people in 
Kabul? Do the Brits? Do the French?
    Mr. Hutchinson. The Brits do and the Germans do. They are 
the lead in it. Those are the only ones I can point to. But 
here again, we took the lead in having an international meeting 
in Ankara, Turkey, that brought these people together to plan 
what we are going to do in Afghanistan. We set up a committee 
to coordinate resources, so that we are not duplicating what 
the Brits do, and the sharing of intelligence with them. We are 
working the closest with the Brits and the Germans. They have 
the greatest impact, and we are pushing them to take the lead.
    Mr. Wolf. Where are your people in Kabul? Are they at the 
embassy?
    Mr. Hutchinson. They will be working out of the embassy, 
yes.
    Mr. Wolf. Out of the embassy.
    Mr. Hutchinson. The Afghan Initiative that we are proposing 
accomplishes what you want, which is putting someone in Moscow, 
working with them, but also in Pakistan, beefing that up. So it 
is that whole region that we are looking at.
    Mr. Wolf. And rereading your testimony, are you also doing 
things in the ``stans,'' like Kazakhstan and Tajikistan and----
    Mr. Hutchinson. Yes.

                      Countries with DEA Presence

    Mr. Wolf. What countries do you have people in?
    Mr. Hutchinson. Well, we already have authorization for an 
office in Uzbekistan, and we will, under the Afghan Initiative, 
have sensitive investigative units in all three ``stans''--
Uzbekistan, Turkmenistan, and Kazakhstan.
    Mr. Wolf. You know, I think it will be demoralizing for the 
Kharzai government if they see that poppy crop come in without 
any effort from us to help. And I know how difficult it could 
be, but somehow the word has to be put in place that next time 
there is a diversion program, a payment program--I mean, they 
need wheat and they need different things like that. Many 
people are malnourished. And I understand that there is a 
street there that it is common knowledge of who is selling. We 
did not have the opportunity to go by there, but Mr. Karzai 
raised the issue with us before we raised it with him, to get 
rid of the drugs and have the people farm other crops.
    And so we really need to think this thing out. It is a very 
poor country. They do not have the resources. They watched the 
West abandon them in the late 1980s after the defeat of the 
Soviet Union. There was some feeling that we are going to 
abandon them again. As we abandon them, not only does the 
Taliban come back, which obviously we do not want to ever see, 
but also this drug trade flourishes. So they really need help. 
They need guidance. They need assistance. They need resources. 
Because we do not want it to come to our shores.
    So I think the better people you have and the more they're 
coming up with creative ideas--not just locking up somebody in 
Kabul, but how do you eradicate the market, what has worked at 
other places? You know, I think it has to be in place or else 
next year you are going to have the same problem.
    Mr. Hutchinson. Well, you can be assured that I am going to 
continue pushing the State Department to get the alternative 
crop development, the economic support that is critical, 
because that is a key part of an anti-drug strategy in 
Afghanistan. I would suspect, because of time constraints and 
security issues, this year it will be minimal. But I fully hope 
that by the time the next crop comes around, we will be fully 
engaged, and have the greater enforcement support there as 
well, to impact it.
    This year, I think the burden falls on our shoulders, the 
enforcement side, and the other nations there, and the 
interdiction as far as building a law enforcement support there 
in Afghanistan.

                            CLOSING REMARKS

    Mr. Wolf. I would urge you to see about putting somebody in 
Tehran, and we will raise that issue with Mr. Armitage. I would 
also urge you to do a letter to all of the governors on the 
prescription monitoring program, telling them how the growing 
problem of OxyContin is and what the potential is, and just to 
educate them. But I think to do a letter to every governor from 
you would carry a lot of weight.
    Also, I would ask you to meet with the acting head of the 
Food and Drug Administration. Obviously, most of the doctors 
really want to do the right thing. And I think you have to be 
careful how you go about working with OxyContin, because you do 
not want to take it off the market. But on the other hand, no 
doctor who is credible ought to want it to go into the hands of 
the 13-year-old girl. We have written the Food and Drug 
Administration almost two months ago. We have not even heard 
from them. They are silent. And they really cannot be silent, 
because the death of these people will be at their door. And, 
you know, the lady that I spoke to Saturday night, the pain and 
suffering in that family--18-year-old son, overdosed and dead.
    Maybe you could meet with the Food and Drug Administration 
and the medical profession to see if there is some way to 
change the definition to ``severe''. And also, I am concerned 
that this could be the beginning of something else coming out 
on the next level, and if we haven't learned a lesson on this, 
there will be such a bad precedent that when they come out with 
a new reformulation or some new miracle drug that will be great 
for people who are in severe pain, the same thing may happen.
    So I think, although the problem has already been developed 
around the country, I still think there is time to go back, and 
I think that would be a very powerful message. We will contact 
Food and Drug Administration. We have a GAO investigation 
asking them to look into the marketing practices of the 
company. But I think if you can meet with Food and Drug, I 
think it would be very, very helpful.
    And with that, we just look forward to trying to help you 
as much as we possibly can, and we appreciate, again, the good 
job you are doing and the people of DEA, and congratulate them 
for everything. And push harder, take the attitude that there 
will be some day you will not have this job. And you do not 
want to be at that point thinking, you know, boy, when I was 
head of DEA, if I had only . . . .
    So, do it, even if you take the pressure and the heat and 
the complaint. Because that way, when you are sitting in 
Arkansas doing whatever, you will not say, gee, I missed that 
opportunity. Take the opportunity. Use the bully pulpit. And 
you are a very talented person. You have the unique perspective 
of having been in law enforcement, but having been up here. And 
every time you put something that pushes the envelope, you in 
essence save a lot of lives.
    With that, the hearing is adjourned.
    [Questions and answers for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Thursday, March 7, 2002.

                 IMMIGRATION AND NATURALIZATION SERVICE

                                WITNESS

JAMES W. ZIGLAR, COMMISSIONER, IMMIGRATION AND NATURALIZATION SERVICE

                     Opening Remarks--Chairman Wolf

    Mr. Wolf. The hearing will come to order. I apologize for 
being late. I won't have an opening statement. We had a meeting 
with Governor Ridge on Homeland Security, which dealt with some 
of your issues, and also with the Budget Committee, Mr. Nussle 
on, again, allocations. I do apologize.
    So I am not going to have any opening statements. And I 
know Mr. Serrano is at the White House with President Bush. I 
will just go directly to the witness, and then we will go back 
and forth. And any member that has a plane to catch or has to 
go, just let us know. But you can proceed, perhaps summarize.
    And again, I apologize to you, Mr. Ziglar, knowing how busy 
you are. And then we will just go straight to the questions. 
And I will be around, because I live here and I can go through 
the questions.
    But welcome, and again, I am sorry.

                 Opening Statement--Commissioner Ziglar

    Commissioner Ziglar. Oh, thank you, Congressman. Don't 
apologize. My time is your time. I know you have a great deal 
to do.
    Thank you for the opportunity to be here today to present 
the President's fiscal year 2003 budget request. It has been a 
real pleasure getting to know you and the other members of the 
committee, those that I have gotten to know so far. I 
appreciate the help and support that you have given us. I hope 
that we are going to be able to work together to improve the 
INS in its many iterations.
    I just returned last night, as I mentioned to you, from a 
week-long trip to Canada and Mexico. I was with Governor Ridge 
down in Mexico, working with our friends, both to the north and 
the south and expanding cooperative efforts to try to secure 
North America in many ways. I am very encouraged based upon 
what happened in Vancouver, and what happened down in Mexico 
City, in terms of coming to agreement on substantive actions 
and efforts that we can make together to secure our countries 
from terrorists and other kinds of illegal activity.

                       PRESIDENT'S BUDGET REQUEST

    The President's budget request, as you know, is for $6.3 
billion in fiscal year 2003, and that is a lot of money. I 
personally feel a great burden in terms of spending that money 
because I never forget that that money doesn't come from trees. 
It comes from people out there who pay taxes and work hard to 
pay those taxes. So I hope to be a good steward, and I think 
the rest of the folks in our team believe that we have to be 
good stewards of that rather substantial amount of money.
    This money represents a substantial upgrading of our 
efforts at INS. The increases are primarily focused on 
upgrading Homeland Security in its many phases. The budget 
includes $1.2 billion and over 2,200 positions to strengthen 
security and also to upgrade our operations on the services 
side.
    On the border in particular, we are going to be enhanced by 
the hiring of 570 additional Border Patrol agents, and 1,160 
new inspectors.
    We are also requesting $362 million for an entry-exit 
system to carry out the congressional mandate and the 
President's directive. In fact, it is important enough to the 
President that he mentioned it in his State of the Union 
message. We want to create an entry-exit system so that we can 
track people that come in and know when they have left. We are 
working very hard at making good on that promise.
    We also have $100 million in the budget to eliminate 
backlogs in our processing. There is some good news on that 
which I will mention in a few seconds.
    Finally, there is $40 million in the budget to begin the 
implementation of a restructuring of the INS.
    Now, obviously, there is a lot more in the budget, but 
those are the things I wanted to highlight. My testimony, which 
I have submitted for the record, goes into much more detail.
    Mr. Wolf. It will appear there.
    Commissioner Ziglar. Thank you, sir.
    Mr. Chairman, I would like to take just a few minutes, if 
you don't mind, to talk to you about some of the initiatives 
that we have undertaken since I got here, and some of them that 
were ongoing that we have speeded up.

                           INS RESTRUCTURING

    With respect to the INS restructuring, which of course is a 
matter of some discussion on the Hill, we did, within 35 days 
of my taking office, deliver to the Attorney General a draft 
restructuring plan. I had spent a lot of time before I was 
confirmed thinking about it, and looking at it, and we came up 
with this plan and submitted it to the Attorney General, which 
was then later on, of course, released for discussion in a 
draft form.
    That restructuring provides for a fundamental change at the 
INS to divide the agency into a service bureau and an 
enforcement bureau. It is done for some very simple but very 
fundamental reasons in terms of management, and that is to have 
a clear command and control authority mechanism, and also to 
create accountability in the system.

                              9-11 EVENTS

    The 9-11 events I think fundamentally changed the way INS 
looks at the world and the way it does its business. At the 
outset of 9-11 we developed, almost, within a week, a whole 
litany of things that we thought would be important initiatives 
to be taken by the INS in the long term to enhance our homeland 
security. A number of those things have found their way into 
the plans of the President and the Homeland Security Council. 
We think that they are going to, in the long term, be very 
helpful to the United States.
    INS took a number of actions though. We have deployed 1,000 
of our investigators, our agents, to the terrorist 
investigation, both with respect to the particular events of 9-
11 and going forward. Those 1,000 agents are still deployed to 
that effort. That has obviously had some impact on other things 
that we do at the INS because we only have 2,000 agents, but it 
is a critically important part of our effort in the war on 
terrorism.
    We also went to Threat Level 1 at all of our ports of 
entry, which means that we are doing 100-percent inspections at 
most of those ports. We are very carefully vetting people who 
come through, and that has caused us to have an awful lot of 
overtime and put a lot of stress on our employees. But I have 
to tell you, they have done a magnificent job in responding to 
the events of 9-11.
    We deployed Border Patrol agents right after the event to 
about eight different airports around the country, and up to 
the northern border to supplement the inspectors on the 
northern border. So we have done a lot of things in terms of 
Homeland Security.

                     CONSOLIDATED CONSULAR DATABASE

    Some other things that we have done that I think are very 
significant is, to work with the State Department to deploy to 
every port of entry something called the Consolidated Consular 
Database. Frankly, I am a little surprised that it had never 
been done before, but it is something that is a tool that has 
been very helpful to us. And what that is, is at the State 
Department, when they issue visas now, they take the 
information about the person and they put it into an electronic 
database. They also take a digital picture of the person and 
put that into a database, and that is the same information that 
is on a card and the picture that is on the visa. Now, as a 
result of our deploying that to the ports of entry, our people 
at the port of entry can take a visa that somebody shows them, 
and they can then go into a computer and it will pop up with 
the information and a picture, digital picture of the person, 
to see if that is in fact the person that is presenting the 
visa. That has been a very effective thing in terms of document 
fraud. We have encountered and picked up a number of people, I 
don't know if ``a number'' is the right word, but several 
rather serious criminal aliens as a result of that. It took us 
less than 90 days to deploy it to all our ports of entry, and 
it was a good effort between ourselves and the Department of 
State.

                          ABSCONDER INITIATIVE

    Another initiative that I think is extremely important that 
we have undertaken is the so-called Absconder Initiative. I 
discovered, not something that wasn't known but something that 
came to my attention, that there were 321,000 people loose, if 
you will, in the United States, who had gone through the 
deportation process. These were people who were accorded due 
process under our system and they went through the deportation 
process. They went through appeals. They got a final order of 
deportation, and they jumped bail, if you will. Well, at the 
moment they jumped bail they became felons by virtue of doing 
that. And there are 321,000 of those people in the country. The 
INS and Justice Department had never put their names into the 
NCIC wants and warrants index, and I thought that was a rather 
remarkable thing. So we have now deployed people in our service 
centers to enter those names into the wants and warrants index, 
and it is beginning to show some results. We are catching some 
of those people. And it is an important issue from my point of 
view, because it is something that I pushed very hard for. I 
have to tell you, I am proud of the fact that we have done 
this, because we have to send a signal to people who are going 
to disrespect our laws, and that is if you disrespect our laws 
and you come into this country, and you think we are not going 
to enforce our laws, you've got another think coming. This is a 
beginning of just saying, you know, we are a country of laws, 
and the rule of law is important. If you want to disrespect us, 
then we will enforce the law against you.

                        STUDENT TRACKING SYSTEM

    The student tracking system is coming along very nicely 
actually. We will have, by July, the student tracking system up 
and available for universities to access it on the Internet. By 
the end of this year, it will be fully implemented and then 
about mid-year next year, the law is going to require that all 
universities will be participating in it, but it actually will 
go up this July. We have been on double time getting that one 
up and running, and I think it is going to be a very effective 
system without being terribly intrusive, but a very effective 
system for tracking students that come into the country. We 
have had a little problem in terms of students coming in. They 
get that I-20 and they get admission to a college, and they 
never show up. Now, they may not be coming in as terrorists, 
but they have decided to use that route to come into the 
country to in effect get permanent residence, and that is not 
appropriate.

                           ENTRY-EXIT SYSTEM

    The entry-exit system which I talked about earlier is well 
on track. As you know, that was a mandate from Congress under 
the DMIA of 2000, actually started in IIRIRA. However, because 
of a number of controversies involving it, it didn't really get 
any impetus until the DMIA of 2000. We are well on track to 
meet, and in fact I think we are going to beat the 
congressionally mandated deadlines. We are going to have, by 
the end of this fiscal year, the visa waiver program 
participants up and running. Then by next year we will have all 
ports of entry--I am sorry--all airport and seaport ports of 
entry covered by all people seeking admission. We believe that 
by 2004, the end of fiscal year 2004 we will be able to have 
all ports of entry, including land ports of entry, covered by 
an entry-exit system. That is clearly the biggest challenge, 
are the land ports of entry. The legislation requires that it 
be done by 2005. We are pushing to have it done by 2004. The 
White House, the President wants it done. And I am not 
confused, when the President says he wants something done, that 
is my job to see that it gets done.

                            REFUGEE PROGRAM

    We have also made some substantial changes in the refugee 
program in terms of the way we vet refugees without being 
harsh. I support the refugee program. I have supported publicly 
the idea that we should try to meet the President's ceiling on 
refugees of 70,000. I am working with the State Department to 
get that done. I am adding additional people to be circuit 
riders in the refugee program, but also we need to ensure that 
the people who present themselves as refugees are in fact 
refugees, and are in fact the people they say they are. We have 
had a problem with people being vetted out in the field. 
Somebody else shows up with their papers at the port of entry 
and there is no way of knowing whether in fact that is the 
person because we have got three different organizations 
ourselves, State Department and nongovernmental organizations 
involved. So we are now in the process of fingerprinting 
refugees, so that in fact as we go through the process we know 
who we are dealing with. There are a number of other things 
that we are doing.

                     NON-GOVERNMENTAL ORGANIZATIONS

    Some of them have to do, frankly, with adding more ports of 
entry that we can bring refugees into, so that we can, in fact 
process them more quickly, and more conveniently for example, 
for the NGOs, that are helping them resettle. So it is a 
program that verifies who they are, in fact, that they are 
refugees, but also it is a program that I think has a heart to 
it. That is making sure that the process is not onerous, that 
we welcome these people to the United States because they want 
to be here for the reasons of our values. We shouldn't make it 
hard on them, any harder than necessary, to welcome them here.

                      TALKS WITH CANADA AND MEXICO

    Our talks with Canada and Mexico I think have been very 
fruitful. We have arranged a 30-point program with Canada that 
we are making a lot of progress on implementing. In Mexico we 
came to agreement on a number of initiatives in the security 
area. INS has played a very large role in developing those 
initiatives and is in the process of implementing them. The 
National Guard is going to be helping us. We have been, for 
several months now, discussing and negotiating with DOD in 
terms of getting some help from the National Guard. They will 
be deploying starting this weekend on training National Guard 
members to the ports of entry to help us with inspections. 
Also, between the ports of entry, we are going to be getting 
some help from them both in aircraft as well as intelligence 
support.
    I want to make it clear though, because I think there has 
been some misunderstanding about the National Guard situation, 
that this is temporary. This is a way of filling the gap that 
we have been filling with overtime and seven-day work weeks and 
things with people that are exhausted. We need to give our 
people some relief. We need to get back to some kind of 
routine, and this is simply an interim thing until we can hire 
those people to replace them.

                          SERVICE SIDE OF INS

    And finally, the service side of this business is getting 
better. I know it is not better in every place, but it is 
getting better. In fact, our naturalization applications were 
taking 27 months, a few years or so ago. We are now down to 9 
months. And that is significant for one reason, or several 
reasons. One is we have done it, but secondly, the fact is that 
our naturalization applications have gone up since 9-11. So 
notwithstanding the fact that they have gone up, we have 
managed that additional work flow and are continuing to bring 
down that backlog with respect to adjustments of status. There 
are a number of those different kinds of things within that 
category. Our average processing time of a year or so ago was 
about 17 months. It is now down to 14 months. We are making 
progress. Technology, incentives, motivation, all those kinds 
of things are important. But we do feel like even though our 
focus has been on the impacts of 9-11, we continue to try to 
focus on the side of the INS that is maybe not quite as much in 
the news these days, but is very important to carrying out our 
functions.
    Mr. Chairman, changing and improving the INS is a big job, 
and it is a job that is going to take time. I can tell you that 
we have the will, myself and the employees have the will, and 
the desire to make those changes, to make the INS a better 
place. We are there to do that. We appreciate and seek your 
help and support in attempting to get that done.
    Thank you, Mr. Chairman. I appreciate the opportunity to be 
here, and I am looking forward to answering any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. Thank you for your very effective testimony.
    Mr. Rogers.
    Mr. Rogers. Mr. Chairman, thank you very much for the time. 
Good to see you, Mr. Director.
    Commissioner Ziglar. My pleasure.

                    REFORM AND REORGANIZATION OF INS

    Mr. Rogers. I am pleased that we finally have an 
administration that is at least committed to the idea of reform 
and reorganization of the INS. It is no secret that it is a 
chore that I took on many years ago to try to reorganize, 
remodel and improve INS. Over the years we have increased the 
budget by some 300 percent just the last few years, thinking 
that money was the answer. Obviously, I learned two or three 
years ago that money was not the answer, so I set upon the task 
of trying to reorganize INS, in fact to abolish the INS and to 
start afresh.
    I appreciate the fact that you are attempting to reorganize 
INS on your own. I don't agree that you can do it by yourself. 
I think it is going to require legislative action on our part, 
and I just don't think you can get truly to the root of the 
problem administratively. Other people have tried. They have 
tried since I have been here, the past 22 years. I don't know 
how many directors we have had, but we have had several, and 
all of them tried to change and reorganize INS. All of them 
failed and failed absolutely miserably to the extent now that 
we have got some, 7 million illegal aliens in the country and 
long lines of legal applicants for various services INS is 
supposed to process.
    And then we learned on 9-11 that some of those failures of 
the INS over the years have deadly consequences. Again we 
learned that. We have learned it in the past because between 
1994 and 1999 INS released some 35,000 criminal aliens; 
released them after they had them in custody. A third of them, 
about 11,600, went on to commit further crimes, including 
almost 6,000 nonviolent crimes. But more importantly, 98 
murders, 142 sexual assaults, 44 kidnappings, 346 robberies and 
1,200 assaults and so on. That is just one of the pieces of 
this sorry record.
    As you know, we have introduced restructuring bills here 
now, and I am pleased to say that we are joined now by Chairman 
Sensenbrenner of the Judiciary Committee in the House, and 
others, and so I continue to believe that abolishment is the 
only real answer.
    The INS has conflicting missions. On the one hand you are 
to punish those who violate the laws, and on the other hand you 
are supposed to help people with various rights that our 
country affords them. In many cases we are talking about the 
same people, and it is just a conflicted mission. That is no 
fault of yours. It is the Congress's fault for creating an 
agency with that conflicting dichotomy of amission. And so we 
want to try to straighten that out.

                           RESTRUCTURING PLAN

    I see where you have 40 million in your budget request for 
some front-end costs associated with your reform proposal. This 
subcommittee has not yet approved your request for 
reprogramming in order to accommodate your administrative 
reformation of the agency. How is your approach better than 
what has been proposed in the past, and how can you do it 
without the Congress changing the laws to accommodate these 
massive changes we are talking about?
    Commissioner Ziglar. Congressman, I have never suggested 
that I can do this without the help of Congress. The mere fact 
that I have submitted a restructuring, administrative 
restructuring plan to the Appropriations Committee for its 
advice and consent, is an indication certainly that we have to 
work with the Congress. Clearly, I have to have reprogramming 
to do those sorts of things. I have to have the appropriation 
of the money to do those things. So at the very outset, this is 
not a one-man effort or one Administration effort. It has got 
to be a joint effort. The goal here is to do, at its very root, 
the thing that has been suggested in almost every piece of 
legislation I have reviewed that has come out of the Congress, 
not passed, but certainly been introduced, and that fundamental 
is to have a service side of the business and enforcement side 
of the business that is not together in the sense of the chain 
of command and accountability. It also has the advantage of 
having those two bureaus, if you will, of creating career 
tracks for people so that they don't feel like they have to be 
in a constant confused mixed-up state as you mentioned.
    Mr. Rogers. Well, I think we probably agree on the two 
divisions. I think that is the one thing that most everyone 
agrees. We need to separate those two divisions and create some 
independence so that those different functions can work 
effectively, the law enforcement on one side, and services on 
the other.

                            COMPUTER SYSTEMS

    Now, let me ask you, you have mentioned the hundreds of 
millions of dollars that are requested for new computer systems 
to keep tabs on people who come into the country on a non-
citizenship visa. I salute you on that. The biggest headache 
that I have seen has been the noncooperation between the State 
Department, who issues visas all over the world in various 
embassies or consulates, and the INS, who, on our soil, 
supposedly enforces our immigration laws and our visitor 
immigrant rules. The State Department issues the visa in 
Prague, let's say. The person comes here on a six-month visa. 
INS doesn't know, ``A'' that they are here, or ``B'' when the 
six months is up, and here we are. No one knows how many people 
we have in the country that came here legally on a visa and 
just simply overstayed when their six months expired. 
Testaments are that 60 percent of the some 7 million illegal 
aliens in the country came here on a visa. So I salute you on 
the exit-entry computer operation that you are trying to put in 
place, something we have worked on now for some 15 or 16 years.

                       SHORTAGE OF INVESTIGATORS

    But even if that complex effort succeeds, according to a 
story in the ``Washington Post'' on February 25th, immigration 
officials and experts--and I quote the story--``say there is a 
gaping hole in the strategy because of a shortage of 
investigators. There are fewer people to chase foreigners 
flagged by the computers for overstaying their visas or 
dropping out of school.'' The story goes on to say that you 
have some 2,000 agents to enforce all of the immigration laws 
inside the U.S. borders, that are simply, completely outgunned. 
You have some 600,000 foreign students, who have come here 
since the 9-11 attacks, and you have millions upon millions of 
overstays. You have some 2,000 agents trying to find them and 
deport them. And of course you have to focus on the most 
dangerous, the worst offenders, right?
    Commissioner Ziglar. Absolutely.
    Mr. Rogers. Is this story right, that you are completely 
overwhelmed?
    Commissioner Ziglar. Congressman, you have clearly 
identified a very big problem. Even if we had in effect today a 
totally effective entry-exit system where we knew everybody who 
had not left under the terms of their entry, we would not have 
the resources to go out and find those people and deport them, 
because the statistics are correct. We have 2,000 agents, 
investigators. We have 1,000 of them dedicated to the terrorist 
effort, and some of that crosses over, obviously. The fact is 
that if you look at it on a per state basis, I have on average 
20 investigators per state if we apportioned it equally.
    I had one of your colleagues the other day, who is a friend 
of mine, say to me, ``Gee, you know, I could use about 30 
investigators in my district.'' And I explained to him, we only 
get 20 per state if you look at it. So I mean the magnitude of 
your problem is very large.

                      NUMBER OF ILLEGAL OVERSTAYS

    Mr. Rogers. How many illegal overstays are there in the 
country now do you think?
    Commissioner Ziglar. The estimate that we have is that it 
is approximately 40 percent of the estimated illegal 
population, so that would be----
    Mr. Rogers. How many illegals do we have here?
    Commissioner Ziglar. Pardon me?
    Mr. Rogers. How many illegals do we have?
    Commissioner Ziglar. Both the Census Bureau and ourselves 
believe it is right at 7 million, the number you just gave us.
    Mr. Rogers. But it could be give or take a million, 
couldn't it?
    Commissioner Ziglar. Yes, sure.
    Mr. Rogers. That is how accurate our records are. We do not 
even know how many illegals we have, do we?
    Commissioner Ziglar. Correct, correct.
    Mr. Rogers. Much less who they are or where they are.
    Commissioner Ziglar. I think the methodology of estimating 
is pretty good, but you are right, it is probably give or take 
maybe 500,000.
    Mr. Rogers. Well, 40 percent then of 7 million is what?
    Commissioner Ziglar. 2.8 million.
    Mr. Rogers. 2.8 million who are overstays.
    Commissioner Ziglar. That is our estimate, yes, sir.
    Mr. Rogers. People who came here legally and simply 
overstayed their visa. And you have some 2,000 agents 
countrywide?
    Commissioner Ziglar. Well, really 1,000.
    Mr. Rogers. Okay, 1,000 agents countrywide.
    Commissioner Ziglar. I mean effectively for that effort.
    Mr. Rogers. Trying to find those people. How many people 
have you found over the last year?
    Commissioner Ziglar. I am sorry, Congressman, I don't have 
that statistic in my head, but I can get it for you.
    [The information follows:]

                           Illegal Overstays

    During Fiscal Year 2001, about 8,500 overstays were removed 
from the United States.

    Mr. Rogers. Yes, but it is not very many, is it?
    Commissioner Ziglar. Well, I would suggest to you that it 
is probably a pretty good number. Let me give you just a little 
bit of an overview of how we deploy those people. We have to 
prioritize. When you only have 1,000 people, you have got to 
prioritize how you go about it.
    Our first priority, other than terrorism, obviously, is the 
breaking up of smuggling rings. They are the source of both a 
large volume of folks coming in illegally as well as the source 
of some not-very-nice folks that are coming in. Our first 
priority is to go after smuggling rings. And associated with 
that, dangerous criminal aliens that we know that are in the 
country. After that, we get down to the, you know, the sort of 
the ones and twos in terms of overstays where we have good 
information about them.
    Mr. Rogers. And then you have hundreds of thousands of 
students, foreign students who come, assumedly to attend a 
school, many whom do not, correct?
    Commissioner Ziglar. Correct.
    Mr. Rogers. In fact, was not one of the hijackers one of 
those people?
    Commissioner Ziglar. I believe there were two hijackers, as 
I recall, that were on student type visas.
    Mr. Rogers. And simply didn't go to school? They never went 
to school, did they?
    Commissioner Ziglar. Well, actually, I believe they did 
show up for flight school, unfortunately.

                        STUDENT TRACKING SYSTEM

    Mr. Rogers. Unfortunately. But we have had no way to find 
out and enforce foreign students who come and don't go to 
school?
    Commissioner Ziglar. Well, we will with the SEVIS system. 
The SEVIS system is coming online in July. It will be fully 
implemented by the end of this year.
    Mr. Rogers. What is it?
    Commissioner Ziglar. The student tracking system. It is 
called SEVIS.
    Mr. Rogers. Well, suppose a student doesn't show up? Do you 
have somebody who is going to track him down?
    Commissioner Ziglar. Well, under the new system, the school 
will be required to report their matriculation even if they 
change subject matters or majors or whatever you call it.
    Mr. Rogers. Okay. So you get a report from a school that a 
student didn't show up like they were supposed to. What are you 
going to do about it?
    Commissioner Ziglar. Well, Congressman, the answer to that 
is that we will, given the resources we have got now, my guess 
is that what will happen is we will do an assessment of the 
students and the background and that sort of thing, and decide 
whether we have got in front of us a dangerous situation and 
prioritize it. The reality is that I don't have enough people 
to go after all overstays.
    Mr. Rogers. I hear you, and that is what I was driving at. 
You simply don't have the machinery, nor the equipment to even 
know they are here, or in fact have overstayed, and if you find 
out they have, you don't have the machinery----
    Commissioner Ziglar. I am going to have the machinery to 
know whether people have overstayed. The other side of that, 
the human side of it, of finding them is another issue. And on 
that one, Congressman, you are preaching to the choir.
    Mr. Rogers. Well, I salute you because I hope you succeed. 
But I have heard five or six directors over the last 21 years 
promise me the same thing.
    Commissioner Ziglar. Congressman, I am not promising you 
anything unless I get the resources to do it.
    Mr. Rogers. Well, I will have further questions. Thank you.
    Mr. Wolf. Mr. Mollohan.
    Mr. Mollohan. Commissioner, I would like to join the 
Chairman and other members of the committee in welcoming you 
here. I think this is your first appearance before this 
subcommittee.
    Commissioner Ziglar. Yes, sir.
    Mr. Mollohan. Haven't been on duty very long.
    Commissioner Ziglar. I have been up here a lot, but this is 
my first one here.

                   IDENT/IAFIS IDENTIFICATION SYSTEMS

    Mr. Mollohan. I see. I am sure you have.
    This committee has spent an awful lot of time, collectively 
and as individual members, dealing with technology issues. 
Certainly one of the most important technology capabilities 
that the country is developing is identification technology. In 
the Justice Department we have two principal identification 
systems. We have IDENT, which is your identification system, 
and we have IAFIS, which is the FBI's identification system. 
And I emphasize that IDENT is yours and IAFIS is the FBI's.
    Commissioner Ziglar. Actually, the American people own 
them.
    Mr. Mollohan. Actually these two agencies developed them; 
one is yours and one is the FBI's. The point being that if it 
were the American people making the decision we would probably 
have only one system, and perhaps we are getting to that. The 
IDENT system, as I understand it, is essentially a two-print 
system, a separately maintained database which was developed 
totally independent of the technology and the contractor 
support from the FBI's IAFIS system, which is a 10-print system 
and a huge national database. These two databases don't speak 
to each other. We have appropriated, during the last four 
years, seven million in 2000, 2001 five, 2002 nine, and in the 
2003 request, you have a $9 million request to process a study 
for IDENT and IAFIS integration. Would you please give us a 
status report on the progress of that study and where we are 
today with regard to it?
    Commissioner Ziglar. Of course. Let me make one point. The 
IDENT system which was developed was what it says it is. It is 
an identification system, and it was used by the INS, when we 
apprehend somebody, to be able to know if we apprehend them 
again, that it happened, and who they are if they are trying to 
come back into the country under a different name or a 
different route and that sort of thing. It was developed as an 
identification system, and it is a two-print electronic system. 
And it is a flat print, by the way. The IAFIS system is a 10-
print roll system, which is really an investigative tool as 
much as it is an identification tool.
    But you are absolutely right, Congressman. If we were doing 
this today--and if I were making a decision today----

                      STATUS OF IDENT/IAFIS STUDY

    Mr. Mollohan. Actually, that is the question I was going to 
ask you after you tell us what the status of the immigration 
study is, but go ahead and tell us, because that is what I 
would like to discuss.
    Commissioner Ziglar. If I were doing it today, based upon 
the technology that we have, I would sure try to find a way of 
doing a 10-print, hopefully electronically taken 10-print 
system so that we would have total integration between the 
databases of not just the FBI but other identification 
databases, so that we would have an integrated process.
    But I take it as I find it, and figure out how we can do 
better with it. The project to integrate IAFIS/IDENT is going 
along and it is going along probably slowly, but with great 
intensity, because there are a number of issues about 
electronic flat prints versus 10-prints. We have some pilots up 
where we are trying to integrate them and we are checking, 
cross-checking between IAFIS and IDENT. The technology is being 
developed. What we have is a problem of what is the reliability 
of a cross-match between a two-print and a rolled 10-print. We 
are getting there. In this fiscal year we are deploying, I 
believe 10 test sites at ports-of-entry, and in 2003 I believe 
the number is 20 sites, where we use IAFIS and IDENT together.
    It is a project that I believe we simply must be successful 
at, and we are pushing ahead very hard on trying to get that 
done.

                            10-PRINT SYSTEM

    Mr. Mollohan. First of all, this study identifies three 
technical alternatives. It identifies the current INS practice; 
that would be Alternative 1, taking the 2 prints and putting it 
into an IDENT system. The second would be just to go with the 
IAFIS system, do 10 rolled prints, and match with the FBI 
database system, the IAFIS system. And then there is a is third 
in-between system of taking 10 prints sometimes, and then when 
you get a big influx of aliens, illegal aliens, then taking two 
prints, and being satisfied with doing that.
    Why not move to a 10-print system? It has been incredibly 
successful in the files that you have run. I am advised that 
where you have it at the Brownfield, California border patrol 
station near San Diego, that you have run a digital scanner set 
up for one week. 10 prints were taken from all suspicious 
aliens passing through that station. The hit rate against the 
IAFIS system that week was 18 percent. That means that 18 
percent of the prints that were run through IAFIS yielded some 
type of criminal hit. That is incredible. I mean if you can at 
the border identify, or wherever at one station, identify 18 
percent of those who are illegal or suspicious and get an 18 
percent hit, that seems compelling to me to move to a 10-print 
system as fast as you can. And I am just wondering to what 
extent is this pedestrian way of getting to what I consider to 
be inevitable at some point, a 10-print system in the IAFIS 
data bank, integrating all of our fingerprint identification 
systems, starting with INS. Going through alternative 1, 
alternative 2 and alternative 3, and going through this very, 
as I say, pedestrian system, is more a political process, 
accommodating the competing arguments within INS, and frankly, 
the contractor investments and vested interest, than it is 
really deciding that we need a system that identifies people at 
the border that takes those 10 prints, gets it into the system, 
and gets our hits, which are a very high rate. It is incredible 
that 1 out of 5 individuals coming across has some sort of 
criminal record that was identified in the 10-print system and 
getting them into the system.
    Commissioner Ziglar. Congressman, I have no quarrel----
    Mr. Mollohan. Why don't we do that?
    Commissioner Ziglar. Well, this process is one of trying to 
figure out how we are going to deal with the millions of 2-
prints that we have got in there, and how can we read those 
against the 10-print. But if I had my way I would be going to a 
10-print system immediately now. But one of the problems that, 
or one of the challenges--I suppose is a better word to use--is 
that when you start searching IAFIS, you are now talking about 
a minimum of a 2-hour wait time to figure what you have got in 
front of you, as opposed to IDENT, which is used at the 
Southwest border primarily, to determine whether or not the 
person you have apprehended has been through the system again, 
which is basically a 4-minute ID.

             ESTABLISHMENT OF INS SUB-DATABASE WITHIN IAFIS

    Mr. Mollohan. Yes. And, you know, if you heard that 
argument before, and if you established an INS sub-database 
within the IAFIS system and you searched on that database, the 
10-print system, why would it take any longer searching the 
same number of items in the INS IDENT database? The only 
difference you would be searching onto--do you follow that?
    Commissioner Ziglar. I am sorry. I missed that.
    Mr. Mollohan. In other words, the IAFIS system has a huge 
database.
    Commissioner Ziglar. IAFIS, yes, right. You said IAFIS, 
right.
    Mr. Mollohan. And I meant IAFIS.
    Commissioner Ziglar. Right.
    Mr. Mollohan. If you are searching the whole IAFIS 
database, you have a large full search on it perhaps. That 
takes a long time.
    Commissioner Ziglar. Right.
    Mr. Mollohan. Well, if you were to create a sub-DATA base 
at IAFIS, an INS database, and have the INS developed prints 
stored in that database as well as the full database, then it 
seems to me you would be searching on a lot smaller subset. You 
could search that sub-database just as quickly and have the 
same number of records in it as you would the IDENT. And you 
know this country is demanding an ability to identify. That is 
crucial. And just getting these 10-prints into the criminal 
justice system, in and of itself, is tremendous value. These 
people get into the population and they commit illegal crimes 
or terrorist acts or become targets for whatever reason, then 
you have got them in the database. That is of such value that 
it makes this idea of getting on board and getting these 
systems integrated very compelling. If we don't integrate these 
systems, we are missing a real bet, and the technology is 
there. You have competing technologies, competing contractors, 
competing vested interests. I think all of those issues need to 
be leapfrogged and get on with the business of getting these 
systems integrated. Thank you very much.
    Commissioner Ziglar. Congressman, let me just give you a 
quick response, and that is several things. Number one, I am 
not a technology person, so some of the challenges that are 
technological, I cannot even articulate with any understanding. 
I have absolutely no vested interest in a 2-print system or 
anything else. I have a vested interest in seeing to it that we 
can get this all integrated so that we have the most amount of 
information that we can collect to protect ourselves from not 
just terrorists but from criminals in this country.
    So I am committed to doing that with no vested interest. I 
would be happy to have some of our folks come up and sit down 
with you directly and talk about it.
    Mr. Mollohan. I would love to do that. We have done that in 
the past. I would just invite you to look at these hit rates in 
the trials that you are running and see what they are 
producing.
    Commissioner Ziglar. Okay. As you may know, the Justice 
Department itself is actually doing this issue with us. I mean 
they are the folks that are running it. We are simply a 
participant in it.
    Mr. Mollohan. You are very kind, and I have overstayed my 
time.
    Commissioner Ziglar. Well, it has been a pleasure, sir.
    Mr. Wolf. Mr. Kolbe?

                 FRUSTRATION WITH PROBLEMS ALONG BORDER

    Mr. Kolbe. Thank you, Mr. Chairman.
    Commissioner, welcome.
    Commissioner Ziglar. Thank you, sir.
    Mr. Kolbe. You have been in my office and we have had 
conversations. You know my frustration with the problems that 
we have along our border, you know, the frustration that I have 
expressed about the operation of the INS in the Tucson area, 
the Tucson Sector which includes all of Arizona, or at least 
most of the border part of Arizona, continues to be the choice 
place for illegal immigrants because of a policy we have had of 
shutting down the border fairly effectively on either side, in 
the San Diego Sector and over in the El Paso Sector. And we 
keep hearing that we are going to get the Tucson Sector under 
control, but to echo the phrase that my colleague here used, 
nothing has really changed through the years.
    Now, the INS budget justification says there is eight 
corridors within the San Diego-El Paso-Tucson-McAllen-Del Rio 
Sectors that account for 70 percent of the illegal migration 
traffic. And yet one of the things that you have here says that 
two of those corridors, I presume it is the Nogales corridor or 
the Douglas-Naco corridor, leaving the west desert corridor 
still not yet under control. But this says that these two have 
optimum deterrents there.
    We apprehended 600,000 illegals in this sector last year. 
That is four to five times as much as in San Diego City--bigger 
than the City of Tucson, more than El Paso, more than McAllen. 
70 percent of the traffic is coming through these eight sectors 
or these eight corridors, but most of it is in this Tucson 
Sector, in fact more I think than all the others put together. 
I don't know how that comes as optimum, how you decide that 
that is optimum deterrence in two of those corridors there.
    I could give you stories. In fact, I just have--I won't 
read it here now, but I have an e-mail from one of my staffers 
who runs my Southeast Arizona office, who talks about what 
numbers have came through her home, through her yard just this 
last week when she sent me this e-mail.
    At a hearing that we had in the district that the 
Government Reform Subcommittee on Criminal Justice, Drug Policy 
and Human Resources had just two weeks ago, your sector chief 
is claiming success, citing reduction in the apprehension 
statistics.
    I am not sure I agree with that. Certainly some of it may 
be from better deterrents, but we also know there is a downturn 
in the economy. We know the September 11th events caused a 
tremendous suppression of the statistics temporarily along the 
border. They are coming back up again. It is certainly not 
echoed by the County Sheriff down there who says things have 
not improved. It is not echoed by the County Attorney who says 
the prosecutions from Federal referrals are up. It is not 
echoed by the hospital administrators who say they are seeing 
just as many illegal aliens as they did before. And certainly 
if you ask the public about the people coming through their 
yards, the e-mails that I get, the cutting of fences, the 
trash, the human waste that is left behind, this is a 
catastrophe that is occurring along our border.
    One to two million illegal immigrants crossing Southern 
Arizona every year making their journeys to other parts of the 
country. It is a huge portion of the total illegal immigration 
coming into the United States.
    This is not a question. I do have some questions. But I 
will let you respond. I just want you to know what really is 
going on down there, because I will be honest with you, I 
sometimes think that the information that you get on your desk 
is filtered through so many layers that by the time it gets to 
you, you are really not getting the true story of what is going 
on along the border there. If you would like to respond, then I 
will go to a couple specific questions I have got.
    Commissioner Ziglar. Congressman, for whatever reason, 
whether it was good or bad--I have no way of making that 
judgment--but when the border strategy was put into place in 
1994, it had a number of phases. I don't know whether they 
flipped a coin or whether there was something strategic about 
it, but the fact is that over on the West Coast, San Diego and 
surrounds, was seen as the first area to attack and get under 
control, then over in Texas, which left right there in the 
middle Arizona, as the last phase of the Southwest Border to be 
brought under control. As far as I can tell, the California and 
Texas part of it has been pretty successful. Arizona became a 
frontal for those folks that cannot get through the other 
defenses, if you will. So this phase of it is focused on 
Arizona. I would not sit here and disagree with you for a 
second, that we have not gotten the Arizona, the Tucson Sector 
under control yet.

                           OPTIMUM DETERRENCE

    Mr. Kolbe. You refer to it as optimum deterrence, the 
Tucson Sector.
    Commissioner Ziglar. I am not aware of that particular 
chart, but I know that we have forward deployed our forces, 
that we are in certain places, that we have made, I think, good 
progress on stopping illegal entry. We use fences. We have done 
a lot of things. But it is by no means under control. I 
sympathize with you. I lived in Arizona, and have been a member 
of the bar of Arizona, and I have seen the implications of it 
when I was out there.
    Mr. Kolbe. All right. For the record, if you would have 
your staff give us a definition of what ``optimum deterrence'' 
does mean, I would appreciate knowing what that means.
    Commissioner Ziglar. So would I.
    [The information follows:]

                           Optimum Deterrence

    Optimum deterrence is defined as the level at which 
applying more Border Patrol agents and resources to one area 
would not yield a significant gain in arrests because the bulk 
of illegal entries have shifted from that area to another 
border location. This is a critical point in our strategy. It 
would make little sence to try to further reduce illegal 
entries in the one location while the bulk of the traffic, the 
smuggling cartels, and all their associated ill effects have 
shifted to another location.
    Attributing the term ``optimum deterrence'' to an area 
doesn't mean that the Border Patrol's job there is complete. It 
means that it is the best that we can do (optimum) given the 
need to channel resources to a border area that is in 
significantly greater need. In that respect, ``optimum'' in one 
area is relevant to the control condition of all of our 
Nation's borders.
    Our enforcement mission requires us to continually assess 
our operation and determine the best possible allocation of 
resources within the context of the threat presented throughout 
our borders. We can ill afford to spend critical time 
perfecting our control in one area while enforcement challenges 
in another area are significantly worse.
    As control of our borders is phased in throughout the 
country, the Border Patrol will continue to assess the overall 
threat and increase deterrence in areas previously designated 
as having optimum deterrence.

                   HEALTH CARE OF ILLEGAL IMMIGRANTS

    Mr. Kolbe. Let me go to--nothing, nothing frustrates me as 
much as the problem of the health care. I think it is 
indicative of the whole problem we face in our whole strategy 
of deterring illegal immigrants and the failure of the Federal 
Government, and certainly Congress has a role to play in this, 
but we have to have the leadership of the administration to do 
something about this. The unwillingness to step up to the plate 
and accept the responsibility for paying for emergency care of 
illegal immigrants who have medical problems while running away 
from the Border Patrol, I just find astonishing. We have 
compound fractures, dehydration, obstetrical care, gunshot 
wounds, injuries that result from high-speed chases. These 
people that are in the desert that have tragically died, and 
others that are near death. Yet the border patrol purposely 
does not take these injured illegal immigrants into custody in 
order to avoid reimbursing hospitals and ambulance service for 
their cost.
    Now, I can make that statement categorically because after 
a lot of going around at the hearing that we had in the 
District two weeks ago with Government Reform, I finally got 
your Sector Chief, after he talked about law enforcement 
options and discretion and so forth, to admit--when I just 
threw up my hands and said, ``Isn't the real reason to avoid 
paying the medical costs that you don't take them into 
custody?'' He said, ``Yes.'' Period, end of discussion.
    In fact you have got INS documents that say that. Let me 
just quote a couple of them here from your policy. This is 
quoting from INS. ``Where the injury is such that the alien is 
not likely to escape, the officer shall not take him into 
custody or take any action or use language from which an 
atmosphere of restraint could be conveyed to him or anyone else 
present.''
    Now, if a policeman tackles a bank robber and the bank 
robber's been shot in the leg, I don't think they are going to 
say, ``Well, we won't deter you here. We won't stop you. We 
will just let you go here, or you can walk away if you choose 
to walk away.''
    You also say, quoting again, posed in the form of a 
question: ``Must the Immigration and Naturalization Service 
take into custody those aliens injured while fleeing from the 
Border Patrol agents and thereby incur responsibility for 
payment of their medical bills? No. Aliens who are fleeing from 
Border Patrol agents generally have not yet come into custody. 
There is no obligation to pay medical injuries resulting from 
injuries that they may suffer even if those injuries result 
from seeking to avoid the pursuit of INS personnel.''
    Now, not only do you not pay the costs of them, but after 
an individual is treated, assuming they are in a condition to 
leave at that point, you won't come to pick them up, not 
sometimes as I got from your Sector Chief, but after checking 
with the hospitals, never have the Border Patrol come to any of 
the hospitals to pick up somebody and take them back to the 
border.
    We work with the--our hospitals work with the Mexican 
Consulate. They will help get them back. But of course if the 
person is a Salvadoran or Honduran, they are put out the front 
door of the hospital. How is that for compassion, with a 
fractured leg or on a crutch, they're pushed out the front door 
of the hospital? What if this person happens to be a terrorist. 
You refuse to take this person into custody. You have not had a 
chance to do any ID check on the person. He has never gotten an 
ID. I think it is a tragedy for the individuals. I think it is 
tragedy for the Government. It is certainly a tragedy for us in 
Arizona.
    I had one of my hospital administrators say to me that the 
health care system in Cochise County on the border is in a 
state of collapse, collapse, and it is because that hospital 
has had to close its obstetrical unit, it has had to close its 
long-term unit, and their cost of uncompensated care last year 
was $140,000. That doesn't sound like much, but this tiny 
little hospital has a net operating income of $290,000. 
$140,000 of uncompensated care.
    I have got a couple of pieces of legislation that could fix 
this, but I need help on this, and I would like some 
commitments by you that you are going to be willing to work 
with us to solve this problem, and I would appreciate a 
positive response to that.
    Commissioner Ziglar. Congressman, you and I had a long talk 
about this the other day. I don't know, it was two weeks ago, a 
week ago. Nothing you have said or mentioned here, based upon 
my survey after I talked to you, I find to be not correct. I 
also said to you at the time, and I will say it again here, I 
would be the world's biggest hypocrite if I sat here and said 
that the Federal government doesn't have a responsibility for 
taking care of this kind of situation, because I represented, 
when I was in Arizona, a number of hospitals there. That was 
one of my specialties. And I know what uncompensated care costs 
can do to the bottom line, indeed the viability of a health 
care institution. And I--I can't use bad words around here, but 
I used to raise hell about the fact that the Federal government 
was not somehow coming in and helping these hospitals survive 
because of their being compassionate and helping people, but 
also taking them down for the mission.
    Mr. Kolbe. If I may just interrupt. They are compassionate, 
but there is also a Federal law that requires them to provide 
that care.
    Commissioner Ziglar. Yes, I understand, but I got to tell 
you, most hospitals are pretty compassionate.
    Mr. Kolbe. They are.
    Commissioner Ziglar. The fact is that we need to deal with 
this problem. Whether or not the Border Patrol is the right 
paying agent is another question. Now, that I think, this is 
worth a lot of discussion, a lot of follow up, and more so, it 
is worth action. And I can tell you here, as I told you in your 
office, I am with you. We have got to figure out a way. I mean 
we need to do this right, but I certainly agree with you that 
we need to deal with this problem and we need to deal with it 
PDQ.
    Mr. Kolbe. Thank you. Music to my ears is the reaction 
there. I mean we have had lots of studies. We required such a 
study before, and what they came up with was an agreement--the 
study ended up with this agreement to have a study to figure 
out the methodology. So we need something more than that, 
Commissioner.
    Commissioner Ziglar. We spend a lot of time in the Federal 
government studying stuff, don't we?
    Mr. Kolbe. We do.

                 HELICOPTER DEPLOYMENT TO SIERRA VISTA

    Mr. Chairman, you are going to love this one. But this is a 
perfect example, Commissioner, of what we go through with the 
INS. I have been frustrated about the Border Patrol not moving 
helicopters near the border to reduce the response time and 
strengthen deterrence. You will have more on-flight time along 
the border, and in the 2002 Appropriations act we directed them 
to implement the negotiations to relocate some of those 
helicopter assets down to Sierra Vista, which could cover more 
of the border from a location 60 or so miles, 70 miles closer 
to the border.
    Prior to the Government Reform Subcommittee field hearing, 
my staff and two other members of Congress took a borderline 
tour of the sector with the Sector Chief and the head of Air 
Operations. And during this meeting, during that tour, the 
staff asked how many assets were assigned to Sierra Vista. The 
Sector Chief said that a majority of the assets were now 
stationed there and not in Tucson. The staff was pleasantly 
surprised at this shift in deployment, but the Chief said he 
was surprised that we didn't know this because he had relayed 
the information to two other people in my district office some 
time ago. We couldn't find that anybody had received that 
information. We just chalked it up to bad communications.
    But the next morning before the hearing took place in 
Sierra Vista, I was down there so I said, ``Let's check here.'' 
So we called out to the airport and talked to the people who 
are there and have the responsibility for managing the airport 
to find out how many Border Patrol helicopters and fixed-wing 
airplanes have been there. And they said never has there been 
more than two there.
    At the hearing I questioned the Sector Chief on this. He 
replied, for the record and under oath, that there were three 
helicopters and one fixed-wing plane stationed at Sierra Vista. 
I thought that was interesting because the people who were 
there 12, 15 hours a day said there was only two that were 
located there. But he insisted that that wasn't the case, 
though he said sometimes they went to Tucson in order to have 
maintenance.
    Well, in the following days my staff and the chief had a 
telephone conversation, and he confirmed again it was three 
helicopters and a fixed-wing asset at Sierra Vista. But a few 
days later we got notification from the INS that they needed to 
correct the record on this issue, because there were only two 
helicopters in Sierra Vista, not three, having been told at 
least three times, four times, repeatedly, that there were more 
than that. And then they changed the fact about that.
    They also said there is one helicopter and one fixed wing 
in Nogales, but we checked with Nogales and they said there 
hasn't been any air asset there since the beginning of this 
year, and they confirmed that.
    What kind of stuff is this that is going on here? Does 
anybody--I know from the people there where they are not 
located, the air assets. Does anybody in your agency know where 
these air assets are located?
    Commissioner Ziglar. Congressman, as I mentioned earlier, I 
have been out of the country for a week. I don't know the facts 
about the situation you have just described, but I will clearly 
find them. I know that we have deployed and set up a station in 
Sierra Vista that hopefully will be a material help to our 
business there. The exact number of air assets, where they are 
stationed, I am sorry I don't have them in front of me, but I 
believe you.
    Mr. Kolbe. I will submit specific questions for the record 
that your people can respond to.
    Commissioner Ziglar. That would be good. That would be 
great.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Kolbe. Mr. Chairman, can I have one more? This will be 
my last, Mr. Chairman.
    Mr. Wolf. Yes.

                              CHECKPOINTS

    Mr. Kolbe. Again, for the record, I will make this quick. 
The checkpoints, we have been around and around on this issue 
of checkpoints, and this subcommittee has taken a pretty strong 
stand on that. We have said that in our legislation, 2002 
legislation, we prohibited the INS from having a checkpoint 
operating in the same location for 7 consecutive days during a 
14-day period. The main checkpoint on the interstate that runs 
from Nogales to Tucson, I-17, around Tubac, was in the same 
location from September 10th--now the bill was enacted on 
November 28th--until January 18th, with the exception of one 
day, December 23rd, the Sunday before Christmas, 122 days in 
the same location, of which half of that or almost half of that 
was since the bill was enacted into law. It was never moved. It 
was just shut down for one day. And prior to that, I might add, 
it was at that location for 270 days before that. Do you think 
you are complying with the law, the intent of the law?
    Commissioner Ziglar. Congressman, I don't know exactly the 
situation there, but I do know that there have been some 
concerns about a lot of security on that stretch of road, as on 
other stretches of road.
    One of the problems that we face here--and you and I, as 
you know, fundamentally disagree about the issue of stationary 
or permanent checkpoints versus roving checkpoints. One is that 
the nature of the checkpoint is affected by some court cases, 
that if it is a roving checkpoint, then your issue of probable 
cause and ability to search changes, the standard changes. But 
also, just in terms of the strategy, California, Texas, if you 
look at a map we have stationary checkpoints at all of those, 
within those states. Arizona we don't. And part of the strategy 
that we have in terms of deterrence and apprehension is that 
obviously being up on the border, we forward deploy right to 
the border, but you don't always catch everyone that gets 
across. So what happens is that the people that get across, 
they don't then walk to Phoenix. It is not possible. What they 
do is they recongregate or they use vehicles to come across to 
get to Phoenix, for example.
    So our strategy has been--and this is in the other states 
and it has worked--that we want to have some place where we can 
interdict automobiles or vehicles in order to make it tough for 
people to get through those, and therefore push them out 
laterally so they have got another line to get across. And that 
has been pretty successful. I mean we have been able certainly 
in Texas and other places, to apprehend a lot of people because 
we push them out laterally and can catch them. A lot of drugs, 
for example, are interdicted.
    So on the fundamental issue of checkpoints, you and I 
disagree from a strategy point of view. I would like for us to 
be able to talk about this some more.
    Mr. Kolbe. I hope we can.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                  LEGAL ARGUMENT REGARDING CHECKPOINTS

    Mr. Chairman, this will be my last comment. The Supreme 
Court decision, this new legal argument is a new line that came 
up at the hearing the other day, the first time we had heard 
that before, so I asked the Congressional Research Service Law 
Division to analyze the rationale, and they do not agree with 
what you have said. And let me just quote very briefly from 
their report. Quote: ``The Fourth Amendment of the United 
States Constitution does not require warrants for routine stops 
and searches at or around borders because it is sovereign, and 
its public officials have a right to protect the United States 
by stopping and examining persons and property entering or 
leaving as such Immigration officials may conduct warrantless 
searches for illegal aliens at or around borders.''
    They then go on, and I won't quote it all, to analyze two 
court cases that you are referring to, that your people have 
referred to, and they have said that that is simply not the 
case.
    Mr. Chairman, that same court decision allows police 
agencies to set up DUI checkpoints, and in the paper on Friday 
or Saturday it will say they are going to set up the 
checkpoints, but they do not tell you where they are going to 
set them up. And we do not have a permanent DUI checkpoint in 
the center of the city where everybody can drive around the 
neighborhood, I guess to mow down the kids in the neighborhood 
with their drunk driving. We move that checkpoint from place to 
place. The logic of that seems apparent to me. It just somehow 
seems to have escaped INS, and, Mr. Chairman, I appreciate your 
indulgence.
    Mr. Wolf. Mr. Kennedy.

                       INS AGENTS IN RHODE ISLAND

    Mr. Kennedy. Thank you, Mr. Chairman.
    I wanted to just comment, welcome, Mr Commissioner, on the 
points that I made to you in our discussion just before the 
hearing about how we have only got a handful, if that, of INS 
agents in my district office in Rhode Island. Of course they 
are asked to do the whole world's worth of work, and of course 
that is the reason why there are so many problems that we are 
facing in Rhode Island, as I know my colleagues are facing 
everywhere else in their districts. So I just wanted to comment 
on the very obvious.
    But I also wanted to make two points. One, I wanted some 
good news, after getting beat up quite a bit today, I want to 
thank your office for some work that they did for two of my 
constituents, James Regerio, Patricia Andrews, who wanted to 
adopt their infant, Tre T, who lives in an orphanage in 
Cambodia, and I was pleased that your office, specifically Ruth 
Tinterry and also Ms. Royce Murray, both, with your other 
congressional affairs folks, helped with my office being able 
to do that. I want to thank them, make sure that they are 
acknowledged for the good work that they did.
    And the question I would like to ask has to do with DED, 
Deferred Enforcement Departure, and the fact that many offices 
in the country were not aware of the President's DED 
authorization with regard to Liberians. So what happened was 
the Liberians were not able to reapply, and then there was 
another problem, and that is that when they did get the forms, 
the forms weren't printed correctly, and that of course made 
for some problems as well. I will identify both of those issues 
with your staff for the record.

                             ASYLUM REFORM

    But can you just comment on the issue of asylum reform, 
because we have, for example, an issue in Liberia, every single 
year, and everyone knows it is going to be this way for what 
the situation is over in Liberia. Yet every year Liberians lose 
their jobs because the employers think that they are about to 
have their temporary visa expire and the like, and they lose 
their experience, they lose their time and seniority, and 
benefits, and it is just a very difficult process for the 
Liberian community. So if you can work something out, I am sure 
it won't just include them, but it will include many others 
that are also in that same refugee status.
    Commissioner Ziglar. Congressman, I am not aware of the 
problem that you mentioned about not getting notice of it. I 
will have to look into that. I know that you and Senator Reid 
have been very interested in that issue, and I talked with 
Senator Reid a time or two about it.
    As you know, the Liberians, as I recall, had temporary 
protective status for, I don't know, 10 years or something, and 
then when that was over with, they went to a deferred 
deportation, if you will, and it continues in that status. As I 
understand it under the law, the granting of asylum to them is 
not an option at this point, and so it would probably take some 
kind of legislative action to confer a different status on 
them. But I am certainly glad to help you, certainly glad to 
work with you on that, and I told Senator Reid the same thing.
    Mr. Kennedy. Thank you. I have several other questions for 
the record regarding Portugal and some other issues, but I will 
leave those for the record. Thank you very much.
    Commissioner Ziglar. Thank you, sir.
    Mr. Wolf. Mr. Miller.

                               OVERSTAYS

    Mr. Miller. Mr. Director, I congratulate you for trying to 
make the technology changes that are so necessary. We had the 
same discussion with the Director of the FBI, and it is just 
amazing how far we have to go to get into that 21st century of 
technology. I also wish you well in your reorganization effort. 
We all agree on it. Whether it can be done successfully, we 
will see, but we sure wish you well in that.
    Let me ask a question about overstays we talked about. 
Overstays are people that get a visa with a finite time, right, 
mostly student visas, tourist visas?
    Commissioner Ziglar. Yes, sir. On the tourist side the 
default is six months, and that is--I mean that is the maximum 
length, and that is generally what is given.
    Mr. Miller. Now, some states are starting to date when they 
can--a driver's license is only good as long as [visa holders] 
are staying. Are there a lot of things that can be controlled 
that way. Bank accounts, driver's license and others that 
either states can do and are doing or the government can state 
requirements so that visas are finite, that a driver's license 
expires on that date also. What can we do in that area?
    Commissioner Ziglar. Well, of course the states have 
responsibility for issuance of driver's license, for example, 
and under our Federal system they have the right to do whatever 
they want to do. An awful lot of states now are beginning to go 
to that, you know, the driver's license can't go longer than 
the period of stay that the person has, whether it is a B-1 or 
whatever it happens to be. And, frankly, Congressman, I am 
truly surprised that that hadn't been the rule before now. I 
mean that just makes common sense to me, but unless the Federal 
government wants to preempt the states, they will continue to 
have responsibility for their driver's licenses.
    Now, I understand, and I am not sure this is true, but I 
think it is true, that the states are working on a uniform code 
of some sort that would govern the issuance of licenses, 
permits and things like that, that would tailor it to the 
period of stay that a person is authorized to be here.
    Mr. Miller. I understand it is a state issue. Like a bank 
account, there are things that we can automatically flag. These 
people often get a Social Security number. Can we somehow or 
other flag tax deposits when someone gets a job, and all of a 
sudden they are still paying--the quarterly statements come in 
or whatever it is, not a W-2 but the W-1 form, the 941s, that 
get filed, that offer some red flags. The computer catches that 
person and he can't continue working on his type of visa.
    Commissioner Ziglar. Well, Congressman, if they are coming 
in here on a B-1 or a B-2 and they are going to work, they are 
in violation of the law. They have got to have a work 
authorization. So you are talking about a different class of 
people. I haven't really, to be honest with you, thought about 
how you would use the banking system as a vehicle to flag that.
    Mr. Miller. Or the tax system even.
    Commissioner Ziglar. Well, of course, they are not paying 
taxes if they are here on B-1s or B-2s, but they are if they 
had a work authorization.
    Mr. Miller. But if they had a job.
    Commissioner Ziglar. Yes, absolutely.
    Mr. Miller. And a lot of people have Social Security 
numbers because they have an interest--on a checking account or 
something, you need one to open it.
    Commissioner Ziglar. Well, unfortunately, the banks aren't 
really requiring that any more, as I understand it, a lot of 
them aren't.
    Mr. Miller. But it is easy to get a Social Security number, 
even if you are not a U.S. citizen.
    Commissioner Ziglar. That is correct.
    Mr. Miller. But then those banks have to use that Social 
Security number to file with tax purposes and all that. I don't 
know if we could have a way to red flag some of those.
    I am just reading how states are moving ahead with the 
driver's license issues, which it would seem like we should 
encourage. I don't know we can't encourage banks to stop their 
checking account privileges as of the day their visa expires. 
They have to renew their visa. They have to renew their 
checking account.
    Commissioner Ziglar. Of course, a lot of non U.S. citizens 
maintain bank accounts in the United States.
    Mr. Miller. So they have a Social Security number and----
    Commissioner Ziglar. I would have to think through that one 
because that could have a very potentially big impact on the 
banking system of the United States. But you caught me flat-
footed here.

                          ABSCONDER INITIATIVE

    Mr. Miller. I am not sure either. Let me switch over to the 
Absconder section. You have 321,000 absconders. These are 
people that are criminal?
    Commissioner Ziglar. Well, by virtue of absconding they 
are. By and large these people were not criminals when they 
went through deportation proceedings. They were in 
administrative proceedings. Some of them were being deported 
because they were criminals or are criminals.
    Mr. Miller. Ordered deported, legally ordered deported, and 
they have disappeared.
    Commissioner Ziglar. And then they took off, and the moment 
they took off they became a felon under Federal law.

                              PRISON BEDS

    Mr. Miller. How many prison beds do you contract? I know 
you have a contract facility in my town there, which from 
everything I can see is well run. But I know you contract out a 
lot and plus you operate your own, do you?
    Commissioner Ziglar. We do.
    Mr. Miller. How many prison beds do you contract out and 
own in total or about?
    Commissioner Ziglar. We have about 20,000 detention beds, 
and that is what we are authorized to have. We run a high 
occupancy rate.
    Mr. Miller. But even if you caught all these 321,000 you 
have no place to put them till you get them out of the country.
    Commissioner Ziglar. Yes, sir. It is--my dream is to be 
able to find these people and send a message to the world that 
we enforce our laws. The other side, my nightmare, is that if 
we caught them, where would we put them? Or for that matter, 
just having enough detention and removal officers and having 
the transportation available to get them out. JPATS only has so 
much ability to do it, but I think this is a situation where, 
build it and they will come. And I suspect if we are successful 
that we will figure out a way with the Congress to get the 
resources to deal with this. I am a man of great optimism.

                         NON-DEPORTABLE ALIENS

    Mr. Miller. There is one case, Bob Balisti, in my hometown 
area was a person that has been ordered deported, been all 
through the appeal process, and the problem, can't find a 
country to take him. How many do you have in that category? For 
example, a Palestinian, because there is not a country of 
Palestine, and they can't get back there. Cuba I guess is 
another situation. How many people do we have in that category 
that we can't find a country to send them to, to order legal 
deported. What do we do?
    Commissioner Ziglar. Congressman, this is a problem that 
you have identified that is one that we are making some 
progress on this in the Department. For example, Guyana was a 
big offender. Back in, I guess it was November, under Section 
243(b) of the INA, we sent them notice that we weren't issuing 
any more visas for their officials and other citizens to come 
to the United States until they started taking back people that 
we had ordered deported. They then started providing more 
travel documents. It was very effective. They got the message. 
And we have now lifted that because they have done their duty.
    We have got other countries that are in that status. We are 
in the process of explaining to them that you either work with 
us and get this done, or we do have remedies that we will 
invoke, and we are not afraid to invoke those.
    Mr. Miller. Is that because a lot of times they are 
criminal people here and they don't want to take a criminal 
back to their country? Is that what that is a lot?
    Commissioner Ziglar. That is, I would have to say, probably 
by and large the reason. Now, there are other reasons here. For 
example, you may have somebody who has been here for 20 years, 
that has been engaged in criminal conduct, and it is sort of 
like, their view is, ``Hey, that person hasn't been in our 
country for 20 years. We don't own him, you own him.'' That 
kind of attitude. But I think we are making progress.
    The Attorney General and I feel pretty strongly that when 
we deport somebody, the country of origin has a responsibility 
to take them back.
    Mr. Miller. And what country do we have the most problem 
with? Palestine is a problem because it is not a country.
    Commissioner Ziglar. Well, Palestinians, of course, travel 
on other documents. I have forgotten what you call it, but it 
is a document that a number of the Arab countries give to 
Palestinians. It is a passport, but it is a special kind of 
passport. When we do need to deport someone like that, we go 
back to the country that has issued them the original travel 
document. I can think of one where they have substantial family 
ties and they had been in that country, even though they 
weren't citizens of that country.

           CONFLICT BETWEEN ISSUANCE AND ENFORCEMENT OF VISAS

    Mr. Miller. I have visited a number of embassies around the 
world, and I always feel that one of the toughest jobs in the 
embassy is the consular job because so many people want to come 
here. And as Mr. Rogers says, one of the questions is, the 
consular office issues that visa and you have to enforce it. 
How much of a conflict is that?
    Commissioner Ziglar. Well, it is not a conflict. The visas 
are issued by the consular officer in an embassy based upon his 
or her interview and the information that they get in their 
class system about this individual. All that does is give that 
person a right to present themselves at a U.S. port of entry 
for inspection. When they get to that port-of-entry, we do an 
inspection. We interview them or whatever seems necessary, and 
we do a check of the IBIS system, which is a system that takes 
information from a number of different sources and it tells us 
whether there is any information about that person.
    I wouldn't consider that a conflict that we have with the 
State Department.
    Mr. Miller. Does the State Department have access to that 
same information?
    Commissioner Ziglar. Yes, sir.
    Mr. Miller. A consular officer sitting over in wherever?
    Commissioner Ziglar. Yes, sir. The testimony that my 
friend, Mary Ryan, who is Assistant Secretary of State for 
Consular Affairs, and I have given together on a number of 
occasions has focused on the fact that the information that we 
have in front of us, whether it is at the consular office or 
whether it is at the port-of-entry, is all that we have to go 
on to make a determination about admissibility. Unfortunately, 
up until now, I think we still have some challenges in front of 
us. All the information is not necessarily shared in a way that 
would be helpful in our making determinations at the port-of-
entry or the consular affairs officers, wherever they are 
granting the visa. One of the most important things that we can 
do, I think, in terms of enhancing homeland security is to make 
sure the CIA and the FBI and everybody else is sharing 
information or sharing enough information to let us know that 
the person that we have in front of us is a problem. Whether it 
is just a coded system or whatever it is. That is incredibly 
important to our being able to beef up our defenses at the 
border and at the consular offices. Frankly, we need to protect 
the United States, not at the port of entry at JFK in New York 
or Los Angeles, or wherever it happens to be, we need to 
protect the American people overseas. That is the first line of 
defense. The consular officer is an incredibly important 
person, and I think that that is where we need to focus.
    I am not here trying to help the State Department but I 
think the consular corps needs to be enhanced substantially. My 
view is that what I know about it is that being a consular 
officer is kind of at the bottom rung of a foreign service 
officer's career and they just want to get it over with and go 
on.
    Well, I think that we ought to do it more like they do in 
Canada, and that is their consular corps which is in their 
embassies, is truly a career position. These people stay there, 
and they have career ladders and things like that. I think 
whether you agree with Canada, who they let in or not, that 
doesn't matter. The fact is that they have a very effective 
bureaucracy in terms of doing that. So I do think that we need 
to look at this thing in a holistic way.
    Mr. Miller. Thank you very much. I agree, the consular 
corps of the State Department is really one of the toughest 
jobs. People just line up and wait for days to have that 
appointment to talk to a consular official, and they have to 
face some very, very tough decisions.
    And I wish you well as you go through this process. The 
technology is so critical to the challenge, but to separate 
legal and illegal immigration issues, for most members of 
Congress, the number one case work, without doubt, is INS 
issues, and it is the legal, you know the one that overstayed 
his visa, the marriage, and it is so frustrating. Sometimes we 
have great people to work with and sometimes it is frustrating. 
But good luck on the reorganization and everything you do. It 
is a very great challenge, and thank you.

                           BACKLOG REDUCTIONS

    Commissioner Ziglar. Congressman, I have to tell you one 
short story. When I spoke with the President about taking this 
job, he told me he wanted the backlogs reduced, you know, the 
six-months on average and then six-months for every district 
office. And I said to him, ``Mr. President, that is great, but 
I have to tell you, I spent 10 years working on the Hill. I got 
a different measure that I also want to put into place, and 
that is that when we quit getting 66,000 telephone calls a year 
from Congress, and that number goes down, then that is my 
measure of success.''
    So we are focused on that, the number of cards, letters and 
telephone calls that we are getting from Congress. I think if 
we can reduce that, we know that we are making progress on all 
fronts.
    Mr. Miller. IRS was our biggest challenge a number of years 
ago, and they have done a much better job of addressing some of 
the concerns.
    Commissioner Ziglar. Well, I hate the fact that we are now 
in the place that IRS was at one time.
    Mr. Miller. Thank you very much.
    Thank you, Mr. Chairman.
    Commissioner Ziglar. Thank you, sir.
    Mr. Wolf. Ms. Roybal-Allard.

                           INS RESTRUCTURING

    Ms. Roybal-Allard. Mr. Ziglar, let me begin first of all by 
thanking your office for providing my staff with a really an 
excellent briefing on the restructuring plan for the INS. And 
you may be getting a few less calls from my office, because as 
you know, the Los Angeles INS office had a tremendous backlog, 
and over the last few years that backlog has been significantly 
reduced, and we are hoping that the next and most recent 
backlog report that you are going to be providing will show 
that there is an even greater reduction. But there has been 
some real positive things coming out of the LA office.
    Commissioner Ziglar. Thank you. We are real excited about 
the progress we are making.
    Ms. Roybal-Allard. I am going to follow up a little bit on 
INS restructuring and the line of questioning that Mr. Hal 
Rogers earlier was addressing, particularly since I represent 
the most heavily immigrant district in the Nation.
    One of the things that I am extremely concerned about is 
that any INS restructuring that takes place, treats the service 
side with the same attention and respect that the enforcement 
side would be getting. Can you tell me how your INS 
restructuring proposal ensures that the service bureau will not 
take a back seat to the enforcement bureau?
    Commissioner Ziglar. Congresswoman, that is a concern of 
mine. I think and I have testified a number of times up here 
that we really do have to make sure that our country is secure 
to the greatest extent possible, consistent with our freedoms 
and consistent with the notion of welcoming immigrants to this 
country. They are coming here not to do bad things, but they 
are coming here to help us, to be part of us, because they 
share our values.
    Now Congress may see this differently. I am just telling 
you what I think and what the President thinks and what the 
Attorney General thinks. The INS needs to have, within one 
umbrella, a service side and an enforcement side in order to 
really bring some balance to what we do. There is no question 
about it, when you have a total law enforcement mentality in an 
organization, it takes on a certain edge that may or may not be 
a good thing. Likewise, if you are totally service oriented, 
you tend to ignore the other side of things. My view is that 
the restructuring that we plan--and nothing is perfect--will 
create some balance by having certain functions that are 
centralized and certain functions that are clearly 
differentiated, and yet one person that has to deal with the 
constant pressure from both sides of that and make those 
decisions that need to be balanced.

                IMPORTANCE OF INS COMMISSIONER POSITION

    Ms. Roybal-Allard. Well, as you know, there are some 
competing congressional proposals, and neither one of them 
maintains an INS Commissioner position, and I see that your 
proposal does. Do you see that as an important component in 
order to make sure that there is that equal treatment?
    Commissioner Ziglar. I do. I personally feel that way, and 
so does the President because he has approved this 
restructuring plan. That is just my personal opinion. The 
Congress, for which I have a great respect, represents the 
people of this country, and if the Congress says that no, we 
think it ought to be done differently, then I respect the will 
of the people as represented by their Congress person. So I am 
just simply presenting a point of view that I have.
    I have no particular interest in trying to protect the 
Commissioner's job. I came from a different world. But I am 
interested in protecting both the country and protecting 
immigration.

            CREATION OF TWO SEPARATE GENERAL COUNSEL OFFICES

    Ms. Roybal-Allard. One of the INS restructuring proposals 
that is before Congress creates two separate General Counsel 
offices. One is housed in the enforcement bureau and the other 
one is in the service bureau. There is some concern that this 
structure could result in General Counsels of each bureau 
issuing conflicting decisions on the same case. Do you see this 
as a problem, and is that why your proposal retains one office 
of the General Counsel?
    Commissioner Ziglar. Yes. Looking at this thing as a 
lawyer, I can see, given the way the INA is structured, that 
there are opinions that cross over between the Service and the 
Enforcement. If you have got two good general counsels giving 
conflicting opinions because of their interpretation of the law 
from their perspective, you could find yourself in intra-agency 
litigation. I do not think that would be healthy. I do think 
that again that balance notion that I talked about earlier is 
important.

                 TIMELY ACCESS TO IMPORTANT INFORMATION

    Ms. Roybal-Allard. Earlier we were talking about the timely 
access to important information within and between agencies. Of 
course, that has emerged as a very critical issue since 9/11. 
How does your proposal facilitate the sharing of information 
between the Bureau of Immigration Service and the Bureau of 
Enforcement, as well as other agencies when appropriate?
    Commissioner Ziglar. Well, I am hoping that, assuming that 
we get a go ahead on some kind of restructuring, that by the 
time we get down the road and have implemented something, that 
the whole issue of access to information by virtue of our 
technological structures will be something that is already 
resolved. We are working very hard now to have an integrated 
information system inside the INS. It has been very helpful 
with the progress we have made. Because, for example, on 
document fraud we find that the information that is generated 
on the services side is important to the enforcement side and 
vice versa. They will detect something, and they will give our 
Service people a heads-up that it is coming. That sharing of 
information is extremely important.
    In fact, we are putting together a system called ENFORCE. 
It is, first, putting the databases together on the Enforcement 
side, but ultimately it will be a part of the entire 
architecture of our technological enterprises.
    In restructuring, we recognize that and have one CIO to 
oversee that technology to make sure it is integrated.

                     NEED FOR ADDITIONAL RESOURCES

    Ms. Roybal-Allard. Your restructuring proposal requests a 
net addition of only 30 staff positions. It was my 
understanding that originally the INS was going to request a 
net addition of 500 staffers. Given that your restructuring 
proposal is extremely ambitious, why did you revise your 
original proposal from the 500 new staff down to 30, and is 
this going to be enough to accomplish your goals?
    Commissioner Ziglar. Well, in our discussions with the 
Appropriations Committee staff on both sides of the Hill, it 
was made fairly clear to us that 500 additions were a 
nonstarter, and we should go back to the drawing board and see 
what we can do, and we did.
    We can do it with that net addition. It will make it a 
little harder, but we can do it.
    Ms. Roybal-Allard. But you are saying that even with only 
30 additional staff that you can still implement everything in 
an efficient and an effective manner?
    Commissioner Ziglar. Well, I believe that we can. It will 
put on strains, and I would rather have 500 than 30, but we are 
going to do what we have to do to make this organization a 
better organization.
    Let me just say this about that. This is not a bad 
organization as it is now. I know that there are a lot of 
people that love to hate the INS, and I can understand that. If 
you get in the way sometimes and you get hurt, you do not like 
the organization, but in this organization there are a lot of 
very good people, and we do a lot of very good work. I mean, we 
touch 550 million people a year, and when you touch that many 
people a year, you are not always going to get the results that 
everybody wants to have.
    We also have grown like topsy because a lot of missions 
have been thrown at us. The people are overwhelmed in some of 
our offices, and we do not have the resources to address it. 
Part of it has been our problem. Looking back, I have been 
there 7 months, so I am looking at it in the rear-view mirror, 
but a lot of it has been our problem in the sense that we have 
not probably been aggressive enough in trying to institute new 
management systems and new technology information systems.
    But the fact is that I see this organization as an 
organization that has the will to change. It has a lot of very 
good people. Just like any other organization, we have people 
that are probably in the wrong spots, and we have people who 
are naysayers and negative. We need to deal with those people. 
I managed in the private sector, and I have to tell you, it is 
no different in the private sector. You have the same kind of 
challenges.
    But this is a good organization. It can be a great 
organization, and that is what we are trying to do.
    Ms. Roybal-Allard. The reason I asked that question, since 
you have heard a lot of criticism of the INS during this 
hearing, and you kept emphasizing that if you were given the 
resources that you needed, a lot of the issues that have been 
brought up probably would be nonissues the next time you came 
before this committee, to some degree.
    If next year we come back and ask you, ``Well, why did you 
not do X, Y, and Z,'' you are not getting those 500 that you 
said you needed originally is my point.
    Commissioner Ziglar. Congresswoman, let me say this. This 
is an organization with 35,000 people and about 12,000 
contractors. It is a very big organization far-flung around the 
world with a lot of missions. Money will not solve all of the 
problems in this organization. However, money will help us 
solve some of those problems. Some of the problems are not 
problems that can be solved in a year. But if we do not have a 
plan to move forward on, we cannot get started, and we will 
never get to the goal line. But the goal line is not a year 
from now to have a perfect world for the INS.
    Ms. Roybal-Allard. I understand that, but I was just trying 
to give you a little help here.
    Commissioner Ziglar. Thank you. I appreciate your help very 
much, and we are going to do our best.

                          INSPECTIONS DIVISION

    Ms. Roybal-Allard. As you know, the vast majority of people 
who cross our borders are law-abiding people with a legitimate 
right to enter and to exit the United States. In fact, of all 
of the people who sought to enter this country in 1999, only 
one-tenth of 1-percent were found to be inadmissible. That is 
why I am concerned that the Administration's proposal places 
the Inspections Divisions within the Enforcement Bureau. It is 
my understanding that inspectors not only perform enforcement 
functions, but also adjudicate applications for admission.
    By placing the Inspections Division under the Enforcement 
Bureau, will it create a force of Immigration police officers 
instead of creating a division that properly balances its 
enforcement and adjudication functions?
    Commissioner Ziglar. Congresswoman, the Inspections 
Division has always been in Enforcement. It is now, and it is 
truly an Enforcement function in the sense that those people 
there do interrogations, interviews of people to determine 
their admissibility and make decisions that are engaged in 
Enforcement. I cannot imagine how you could ever make this 
system work by having it in the Service side of it.
    Ms. Roybal-Allard. No, no. Actually, what I was going to 
ask, if it would make sense or if you would even consider 
placing the Inspections Division directly under the 
Commissioner, rather than putting it into the Enforcement 
Bureau. That is really what I was leading up to.
    Commissioner Ziglar. You know, part of what I am trying to 
do in this restructuring is to have better integration of this 
agency so that we can have a seamless delivery of service, if 
you will, both on the Enforcement and Service sides. I have to 
tell you I am not sure how that would work, and I think it 
would be very costly and awkward to try to make it work that 
way.

                             PAY INCREASES

    Ms. Roybal-Allard. As you know, many in Congress have 
expressed support for a pay increase from GS-9 to GS-11 for 
journeymen Border Patrol agents, as well as an increase for INS 
inspectors. Given the actual and anticipated loss of both 
Border Patrol agents and Immigration inspectors to the Sky 
Marshal Service, and the need for rapid hiring of all of these 
categories of employees, it seems that it would be the right 
time to grant a pay increase. Do you think that such an 
increase is warranted, and would you support it?
    Commissioner Ziglar. Congresswoman, I have used every 
opportunity I have up here on the Hill when I have testified, 
even when it was not relevant, to talk about this problem. Our 
journeymen-level agents in the Border Patrol and our 
journeymen-level inspectors are GS-9s. The other law 
enforcement agencies are GS-11 or some of them are at GS-12.
    Also, our inspectors who carry guns, who train, as law 
enforcement, do not have 6(c) coverage under Federal law. So 
they are not treated as a Federal law enforcement agency, and 
yet if you go to a border point of entry, you see what these 
folks do, and they are, in many ways, just as much at risk. I 
have been there, as an inspection agent down on the border, and 
yet they do not have 6(c) status.
    I am adamantly in favor of raising the journeymen level and 
6(c) status. It has to do not with the fact that the 
bureaucracy has captured me, because some people have accused 
me of that in only 7 months. It has to do with the fact that I 
am a businessman, and I came out of the business world, and I 
am going to tell you something, competition works.
    The fact is that our loss rate right now on the Border 
Patrol is up to 13 percent, and if you extrapolate out the year 
given the linear growth pattern, we are going to be at 20-
percent loss by the end of this fiscal year. Likewise, with 
respect to the inspectors, that has gone now up over 10 percent 
from about an 8-percent rate. We are losing them, not just to 
the Sky Marshals, we are losing them to other Federal agencies.
    In fact, as of February 12th, since the beginning of the 
fiscal year, I believe we have lost something like about 140 
Border Patrol agents to other Federal agencies, including the 
Sky Marshals program. So this is really about being able to 
recruit and being able to retain good people.
    Ms. Roybal-Allard. So what does it take to get this 
increased?
    Commissioner Ziglar. Pardon me?
    Ms. Roybal-Allard. What needs to happen in order for this 
increase to take place?
    Commissioner Ziglar. Money. Well, legislation on 6(c), but 
we have to have money, and it really would have to be earmarked 
for doing that. I think it would have to be earmarked. My 
expert tells me it would have to be earmarked.

                 PROCESSING OF INTERNATIONAL PASSENGERS

    Ms. Roybal-Allard. At last year's hearing, I highlighted a 
fact that the processing of incoming international passengers 
at LAX was taking longer than 45 minutes, which is the 
statutory requirement. In some cases, it was taking 2 and 3 
hours to process the flight. I was pleased that the processing 
times have improved, and I would like to thank the INS for 
paying attention to this important problem.
    The repeal of the 45-minute statutory time limit, which 
passed the House last December as part of the enhanced Border 
Security and Visa Entry Reform Act, has caused some concern. If 
that 45-minute statutory time limit is repealed, would you 
support making this time limit a performance measure to ensure 
the efficient processing of incoming passengers, so that that 
is still a goal? The concern that has been raised by some of 
the airports, is that if the time limit is repealed, then, we 
may go back to the 2- and 3-hour processing times.
    Commissioner Ziglar. This is one of those things about on 
the one hand and then on the other hand.
    On the one hand, I am very concerned about the notion that 
we have 45 minutes to process a 747 fully loaded coming in from 
Hong Kong, to pick someplace, on the one hand, because that 
gives us no time. If we really have to live up to that, there 
is no time to really vet the people that we need to vet.
    On the other hand, the fact that we could end up with 2- 
and 3-hour waits also is a very big deterrent to people coming 
to this country. Whether you want to admit it or not, commerce 
and the flow of people across our borders is a huge part of our 
economic well-being. To the extent that we do something that 
impedes that flow, we are basically imperiling ourselves.
    So I have this conflict. Certainly, a performance measure 
is something that we will use always in a case like this.

                       GENDER-BASED ASYLUM CLAIMS

    Ms. Roybal-Allard. Mr. Chairman, I have one last question, 
and I will submit the rest for the record.
    On December 7th, 2000, the INS published a proposed rule 
stating that gender-based persecution can be the basis of a 
valid asylum claim. This initiative is important to beginning 
the process of making asylum an option for young women and 
girls who are at risk of undergoing the horrific, and 
discriminatory, and sometimes very deadly procedure of female 
genital mutilation.
    Can you tell us why this rule has not been finalized and if 
there are plans to do so, and also if it is anticipated that 
the rule will apply the same standard to gender-based 
persecution as to other asylum claims.
    Commissioner Ziglar. Congresswoman, let me tell you what I 
know about this issue.
    I am slowly, but surely, getting an understanding about a 
lot of these issues. This is one that I spent a little time on, 
but as you probably read in the paper, I have been extremely 
involved with adoptions and refugees of late too.
    As I understand it, during the comment period, they 
received about 100 comments or so, I cannot remember the number 
now. Those comments are being analyzed and that there is a 
discussion ongoing about a lot of issues, including whether 
this is a social group or how it fits into current asylum law. 
I do not know what the answer is as to when it is going to come 
out. I understand that it is under active discussion.
    Ms. Roybal-Allard. Thank you.

                   Continuing Remarks--Chairman Wolf

    Mr. Wolf. Thank you.
    What I plan on doing, I will have a series of questions, we 
will go to Mr. Serrano, and then I will come back and try to 
finish up. You look very tired, and I understand you did get 
back late last night.
    Commissioner Ziglar. Congressman, could I ask a favor of 
you?
    Mr. Wolf. Sure.
    Commissioner Ziglar. Could I stand up just a minute? I have 
got a herniated disk, and my back is really hurting.
    Mr. Wolf. Sure.
    Commissioner Ziglar. Can I just walk?
    Mr. Wolf. Sure.
    Commissioner Ziglar. That would help me, just a second, if 
I could walk.
    [Pause.]
    Commissioner Ziglar. Thank you, sir. That helps.
    Mr. Wolf. One, you do look very tired, and I know you got 
back very, very late, so we will try to move this thing 
relatively fast.
    Secondly, I just want to go on the record, while there were 
pointed questions, and some of the questions I have are 
pointed, you have done a good job, and you have only been there 
for 7 months, and I think the Agency has had problems for years 
going back. So I do not think these are directed at you, and 
nobody should take the tone of this. I think you have done well 
today at the hearing, and I think you have done well since you 
have been in.
    Commissioner Ziglar. Thank you, sir.
    Mr. Wolf. I am certainly speaking I think for all of the 
members of the committee, but certainly for myself. So nobody 
should take this, ``Wow, did Ziglar do something bad?''
    You have a tough, tough job. You did not need this job. You 
could have gone out and made a lot of additional money. That 
has been the concern that I have always had. People who leave 
government and go out, and people who come to town to do good, 
stay to do well. And you have, meaning they go out to make 
money, and they lobby, and they do things like that. You could 
have left your position and gone out and made a lot of money, 
and you did not, and that is the way public service used to be, 
and that is the way that you are doing.
    So I think I am glad you are there, and these are not 
directed against you.
    Commissioner Ziglar. Congressman, let me put one other 
thing on the record. I never want to be a lobbyist.
    Mr. Wolf. Good. [Laughter.]
    Commissioner Ziglar. I might go back to Wall Street 
someday, but I never want to be a lobbyist.
    Mr. Wolf. I will make a commitment right here, both of us 
will never, ever go out and lobby for anybody. The only one I 
would ever lobby for would be like, you know, Dr. Dobson and a 
focus on the family or something, and that would not even 
lobby. But, no, I will do that. We will both promise that we 
will never do it.
    Commissioner Ziglar. No, no. For causes, yes, but dirty 
lucre, no.
    Mr. Wolf. We will never do that. Okay. We have resolved 
that. We have taken two people out of the market. It will leave 
more room for somebody else.
    Commissioner Ziglar. I am sure they will all be happy.

                            CRIMINAL ALIENS

    Mr. Wolf. Quickly, to go through some criminal aliens, 
there are 10 countries which we do not have agreements with to 
repatriate citizens. I know what you did on the Guyana case. I 
think we should be doing that on the other countries. There are 
some countries that I am not optimistic on, but there are 3,200 
people, I believe, who are currently in prison, these criminal 
alien categories, but we just----
    Commissioner Ziglar. You are talking about the people that 
we have to release if we cannot get them to go back?
    Mr. Wolf. Right.
    Commissioner Ziglar. I think that is about the right number 
now.
    Mr. Wolf. We just gave Vietnam special trading privileges. 
I happened to vote against it because it is still a Communist 
country, they are persecuting the Catholic Church, the 
Protestant Church. The Buddhists are being bludgeoned in the 
country, but I was in the minority. Now I think the 
Administration ought to say to Vietnam, we are asking you to 
take these people back. If you do not take it back, no visas. I 
am even thinking of offering an amendment, which I would step 
back and maybe not put it in the bill, but offer it on the 
floor and say, deal with this, Congress.
    So I would urge the Administration, in a quiet way, I think 
if you start beating people over the head, you never resolve 
anything, but there are a number of countries on that list that 
I know that if they thought that they would lose the right to 
grant visas, they would take these people back. There is only 
one or two on the list, but just for the record: Vietnam, 348; 
Laos, 145; Cambodia, 81; Somalia, 51; North Korea, 75; Cuba, 
1,717; Libya, 4; Iran, 106; Iraq, 146; and Armenia, 35.
    I think with about seven of those countries we would be 
very successful because we are looking for good relationships. 
They go back and forth. But I think we should begin the process 
now, and I am going to be writing a letter to the State 
Department asking them to begin to move it. For instance, 
Somalia, there is no reason why Somalia should not take these 
people, and so, I would hope that we could do this, and by the 
end of the year, State and Justice working together could have 
made the contact and closed this down, whereby these countries 
take----
    Commissioner Ziglar. Congressman, I agree with you. It is 
an interagency process, as you know, but I come from a place 
where, you know, if you need to get a mule's attention, you hit 
him with a two-by-four and then they listen.
    Mr. Wolf. Otherwise the American taxpayer foots the bill. 
These people were convicted. They are not innocent people. They 
were convicted, and many of violent crimes, and therefore the 
American taxpayer will continue to pay for their incarceration 
or they will be released, based on the court's decision.
    Commissioner Ziglar. Absolutely. The Zadudas decision is 
frightening to me because some of these people will have to be, 
under that ruling, released on the streets, and some of these 
people are real predators.
    Mr. Wolf. They are. And I think that we are going to have a 
real threat, and I think the State Department has to understand 
this. I was going to go to ask this question, and we ran out of 
time because of votes, with the State Department. We were going 
to raise it when the Under Secretary comes up. If these people 
get out on the street and do bad things, it will almost be 
because of the effectiveness of not us moving. Now there will 
be some countries that will say no, but I think if that is the 
case, no visas. If you live in Vietnam, you say no, you do not 
come over here on trade missions. You just do not come over 
here. That is it. If you do not want to take these people back, 
we understand, but you are not going to get a trade mission, 
period.
    Now I do not know, and I was going to ask you, with that no 
visa policy under this section, does that also impact on their 
government personnel?
    Commissioner Ziglar. Oh, absolutely.
    Mr. Wolf. Well, then, you know, that would cover them.
    Commissioner Ziglar. Absolutely.
    Mr. Wolf. We are going to push this. I am really going to 
because I think, you know, you make great points on the impact 
with regard to the crime, and I think it is their burden and 
obligation. If they want our trade, they should take these 
people back and not just talk about it.

                         INVESTIGATOR POSITIONS

    The article in the paper last week with regard to tracking 
down absconders, I think the Washington Post, you may have been 
out of----
    Commissioner Ziglar. I have not seen it.
    Mr. Wolf. I understand that INS has not requested, in the 
last 5 years, any additional money in this category with regard 
to investigator positions. I really think you ought to probably 
look at this with regard to OMB. There are several areas in the 
supplemental that I think OMB may not quite understand. If you 
are a budgetary person, you are thinking of numbers, but we 
have asked them to look at the public diplomacy area for State 
because we cannot lose the battle in the Middle East.
    The American people are good people, and foreign countries 
have to know because we have gone to the defense of Muslims, 
whether it be in Bosnia, whether it be in Kosovo, whether it be 
in Kuwait, and our number with regard to how the Kuwaitis feel 
is not very, very high. So we have not told that story. So they 
ought to put more money in there. We have also asked them to 
look at the SEC. We have asked pay parity for SEC, but there is 
no money.
    I think this is an area that you may want to explore, and I 
am not putting you in a difficult spot to break with them, you 
are part of the Administration, and you should be part, but I 
think OMB should look at this.
    Have you thought of anything whereby, by letter, you say to 
the deportee we are asking you to report and leave. Now, if you 
don't, there will be an additional criminal penalty, and with 
that there may be jail time, and so almost like you have in 
IRS, a forgiveness period. You come back, you have not paid 
your paid taxes. You give it up, and there is no penalty, the 
same way. You have this amnesty opportunity for the next 60 
days, but if you do not, based on this, there will be an 
additional criminal penalty carrying whatever would be 
appropriate.
    My sense is that I think that may bring a lot of people who 
would participate.
    Commissioner Ziglar. Well, we would need your help on that.
    Mr. Wolf. We will be glad to----
    Commissioner Ziglar. For the additional criminal penalty 
side of it.

                          IMPACT OF ATTRITION

    Mr. Wolf. We would be glad to look at that, and then on the 
issue of what Mrs. Roybal-Allard mentioned, and I think she is 
right, and you are, regarding salaries. I know you are losing 
people. I would urge you to sit down with Mr. Weldon, the 
chairman of the Authorizing Committee and see if you can get 
some agreement. We cannot as appropriators just put things on 
our bill without the authorizing legislation, but Mr. Weldon I 
know is a good man.
    He is interested in this issue. If he were supportive of 
this, I would be willing to do something in our bill to help 
you deal with this issue because otherwise we are asking you to 
do all of these assignments, and yet your people are going to 
go be an air marshal. Sitting on that plane, that is not a 
glamorous job after a while. So I think those guys may end up 
thinking that they made a mistake.
    Commissioner Ziglar. We have got a few of them that are 
already kind of sneaking around saying, ``Gee, what are the 
chances of coming back to the Border Patrol?''
    Mr. Wolf. They fly coach, do they not?
    Commissioner Ziglar. Well, some of them fly first, and some 
of them--I actually sat next to one of them coming back from 
Canada. No, it was not. I forgot where it was. But I was 
talking to the guy, and he revealed to me he was a sky marshal, 
which I thought was interesting, and he was on detail from an 
agency. I said, ``How long have you been doing this?''
    He said, ``Five months, thirteen days, and twenty-two 
hours.''
    I said, ``How much longer have you got to go?''
    And he said, you know, ``Two weeks, something,'' whatever 
it was.
    And I said, ``You really like this job, huh?''
    And the guy said, ``This is awful.'' And so I have a 
feeling we are going to see an attrition there.
    Mr. Wolf. I do too. I do too. But we will be glad to, if 
you meet with Mr. Weldon, if we can help you there.
    Commissioner Ziglar. Thank you, sir.

                      TRACKING OF FOREIGN STUDENTS

    Mr. Wolf. So we will deal with that.
    Can you elaborate a little bit more on the higher education 
community with regard to the tracking of foreign students? Are 
you going to be asking, will that be mandatory, that 
universities have to comply?
    Commissioner Ziglar. Yes, sir.
    Mr. Wolf. That legislation will be coming up, correct?
    Commissioner Ziglar. That is already in place.
    Mr. Wolf. But they are not cooperating.
    Commissioner Ziglar. They have to cooperate after October 1 
of 2003, I believe. They can no longer issue I-20s.

                          USE OF LOCAL POLICE

    Mr. Wolf. Okay. So they will be cooperating.
    Now the use of local police with regard to absconders?
    Commissioner Ziglar. The local police, because these people 
are felons, if a local police officer stops somebody, does an 
NCIC check, finds out that this person is on the wants and 
warrants list, they can hold them for us to pick them up.
    Mr. Wolf. Is there an opportunity for greater use? For 
instance, in the drug area, down in my district we have had 
cases with regard to methamphetamine, and they deputize the 
local police to be part of a team. There is almost a sharing of 
the responsibility. Are you looking to do that with regard to 
local law enforcement helping you on some of these more 
particularly difficult cases, whereby, they, are, in essence, 
deputized assist INS?
    Commissioner Ziglar. Congressman, as you know, the INA 
requires that there be a Memorandum of Understanding between 
the INS and local police forces in order to have them cooperate 
with us on immigration matters. Also, since it has been in the 
paper now, we are working on fashioning an agreement with the 
State of Florida that would allow us to do joint efforts with 
them, in a very limited way, but a very helpful way in terms of 
the cooperation between state and local officials and the INS.
    As you also know, this is an issue that is very sensitive 
at the local level. Utah thought about doing it at one time, 
Iowa thought about doing it at one time. In neither case did it 
come off because there was a lot of resistance to having local 
law enforcement enforcing the immigration laws.
    Mr. Wolf. I am concerned about it too. I am thinking more 
in the difficult cases.
    Commissioner Ziglar. Oh, yes. That is really where we are 
going with the Florida folks.

          24-HOUR PATROLLING OF NORTHERN BORDER PORTS OF ENTRY

    Mr. Wolf. The cones in the road, we have heard so much 
about that. Can you tell us if all of the ports of entry along 
the northern border are patrolled 24 hours a day, 7 days a 
week, as they are on the southern border?
    Commissioner Ziglar. Twenty-four/seven by two, two people.
    Mr. Wolf. The cone in the road is over?
    Commissioner Ziglar. Yes, sir. No more cones in the road, 
and we have taken away from Senator Dorgan his best prop. 
[Laughter.]
    He is a friend of mine, so I can joke about him.

                            DATA INTERFACING

    Mr. Wolf. Interfacing with the FBI data, State Department, 
their information?
    Commissioner Ziglar. I am sorry, sir?
    Mr. Wolf. Sharing data with FBI, State Department----
    Commissioner Ziglar. That is mandated under the PATRIOT 
Act.
    Mr. Wolf. Yes, but how it is being done? Yesterday we had 
Director Mueller up, who did a very excellent job. But they are 
having difficulty just getting the computers out into their 
field offices. And I just wondered how are you--is there 
somebody in the department who is given the responsibility for 
being sure that you and the FBI and DEA are all on the same----
    Commissioner Ziglar. Yes, sir. JMD, which is the Justice 
Management Division, is coordinating the integration of our 
systems.
    I have to tell you that, notwithstanding the perception, we 
are making a lot of progress at INS, inside the INS, of 
integrating our data systems. We have got a ways to go, but I 
see some real progress, particularly through our ENFORCE 
system.

                          PASSENGER MANIFESTS

    Mr. Wolf. The language we carried mandated that airlines 
share their manifests before the plane arrives. We understand 
there are still several airlines that are not participating.
    Commissioner Ziglar. There are actually two things going on 
here. Customs Service has some authority to mandate advance 
passenger information, and they are in the process of doing 
that. We also have authority to mandate it, ``we'' being the 
Justice Department.
    Our authority actually is much broader than Customs' 
authority, and we are going to by--I think it will be 
promulgated by June, after we go through the process. We are 
going to promulgate a regulation that will require not only 
airlines but buses, trains, and others that are going 
internationally to give us advance passenger information. That 
will then be put into the IBIS system, and it will be part of 
the watch list.
    [The information follows:]

          Advanced Passenger Manifest Regulation Promulgation

    We are going to promulgate a regulation for the airlines 
and cruiselines right now. We will issue another regulation to 
accommodate the other transportation modes (including cargo 
vessels, buses, trains, etc.) that are going internationally to 
give us advance passenger information next year as part of the 
overall integrated entry exit system.

    Mr. Wolf. And that will be mandatory.
    Commissioner Ziglar. Yes, sir.
    Mr. Wolf. There will be no waivers, no exemptions for any 
particular----
    Commissioner Ziglar. That is correct.
    Mr. Wolf. So that would be in place when?
    Commissioner Ziglar. It will in June. We will promulgate it 
probably as an interim reg, I would guess, so that it goes into 
effect immediately now.
    You are going to have to give these folks some time to get 
their systems up so that they can talk to the IBIS system.
    Mr. Wolf. But they should know it is coming. Now, one or 
two were complaining that they don't have the technology. I 
think if they don't have the technology at that time, they 
ought not be permitted to----
    Commissioner Ziglar. Well, where the airlines are 
concerned, that is a bit surprising.

                     PROBLEMS FOR FOREIGN CARRIERS

    Mr. Wolf. These are a couple foreign carriers, and I 
understand this could be a problem. But now it has been on 
notice. The conference report passed months ago, and I think 
hopefully our people are telling them this will be in effect at 
this date, and if you do not have it in effect, there will be 
no landing rights.
    Commissioner Ziglar. Well, certainly Customs--and I am not 
here shilling for Customs, but they have made it pretty darn 
clear in that range where they require it. I mean, you would 
have to have lived in a cave in Afghanistan to miss this one if 
you are in that business.
    Mr. Wolf. But I am concerned that some of the airlines may 
ask for a waiver. They may say, ``We don't have the technology 
and we can't do it,'' and I think at that time, if you are not 
in compliance, you ought not be landing. And I would like to--
if you can just submit for the record the airlines that are not 
in compliance. Now, this record will not be published probably 
until well after June for the final record, but I think people 
who are flying those airlines have to know, if your son or 
daughter or your mom or dad is flying back from wherever, they 
ought to know that Airline A is complying and we know where 
Airline B is not. So, therefore, it is a consumer choice that 
you end up with.
    [The information follows:]

                      Advanced Passenger Manifest

    The INS is working closely with the Airline industry on 
this issue. A series of meetings and discussions have been 
held. The Airlines are concerned with programming issues and 
system changes, but are making every effort to meet the 
legislative requirements. The INS plans to publish, by the end 
of March, the regulation that outlines the requirements and 
implementation timeframe. There are some countries that own and 
operate airlines. At this point, INS has been in communication 
with a couple of these countries. As we move forward with this 
effort, we will keep you informed of any problems that may 
arise or any unwillingness on behalf of airlines or countries 
to comply with the requirements of the law.

                          SENTRI-NEXUS SYSTEM

    The SENTRI program expansion of trusted traveler, can you 
tell us a little bit about that?
    Commissioner Ziglar. Our SENTRI System is deployed on the 
Southern border. We also have a system on the Northern border 
called NEXUS, which is similar.
    The SENTRI System is an ID system that allows--it is kind 
of like a FASTPASS, except that--you have to stop, and when you 
get there--you have got a card. When you get there, on the 
screen there is a picture of the people who are authorized to 
be in that vehicle. The inspector then compares the picture. 
You also swipe your card, and it compares the picture. If there 
is anybody in that car that is not authorized to be in that 
car, then they go to secondary inspection.
    Mr. Wolf. And the advantage they have, if they are, they 
just move through quickly.
    Commissioner Ziglar. Yes, sir. And it is a system that has 
been--I wouldn't say languishing on the Southwest border, but--
--
    Mr. Wolf. We had some business opposition.
    Commissioner Ziglar. We got a lot of business now. In fact, 
our applications are just coming in like crazy, and we are 
having a hard time keeping up with the applications on the 
Southwest border. But we need to expand that because it gives 
us an opportunity to easy-pass, if you will, the low-risk 
people so that we can focus our attention on the high-risk 
people.
    Mr. Wolf. Mr. Serrano.

                         CUBAN CRIMINAL ALIENS

    Commissioner Ziglar. You are saving the best for last.
    Mr. Serrano. Thank you, Mr. Chairman.
    First of all, let me apologize for being late. I was at the 
White House, name-dropper that I am, getting the final 
commitment from the President about the $21 billion for New 
York City.
    Mr. Wolf. Would the gentleman yield? How did he do? Were 
you pleased with what the President said?
    Mr. Serrano. He said anybody who, when he was the owner of 
the Texas Rangers, traded Sammy Sosa has a lot to make up for. 
[Laughter.]
    He did very well.
    Mr. Wolf. I just wanted to get that--as a loyal Republican, 
I just wanted to get that on the record. I knew the answer.
    Mr. Serrano. But I am not in yet. I don't have a nickname.
    Let me try to make a few comments on some things that we 
are going to discuss here today and one clarification that I 
think we ought to make. I try as much as possible--I had an 
ongoing issue with Chairman Rogers and Chairman Wolf about how 
often during a hearing I would bring up Puerto Rico or Cuba, 
and I always try to fit them in somehow, but this time you made 
it easy for me.
    The 1,700 number that you read off for Cuba, that really 
should not be in the same numbers with other countries because 
that is a unique situation. We don't have diplomatic relations 
with Cuba, and as such, people who come here for the most 
part--except for a few that are allowed to come here every year 
to the interest section, with an entry visa--for the most part 
are people who leave Cuba by water, no other way, show up in 
Miami, and, under our policy, as long as they say: I am here 
looking for democracy, I am running away from a Communist 
country, they will stay.
    If they come here and they say the truth, which in most 
cases is no different than when my parents came from Puerto 
Rico: I am here looking for a job, they have got to go back. 
That is our policy. That even extends to athletes. If an 
athlete ever comes here and tells you that he wants to pitch 
for the Yankees for the money, he is not going to stay. He has 
to say in Miami for political purposes that he is coming 
looking for freedom. It could be that he is, but he knows what 
he has to say--El Duque did it very well. El Duque and his 
brother Livon have not made any comments after that. That is 
why they are not that welcome in Miami.
    Secondly, we have people in this country--we have two 
people living in Virginia, one of them, I think, in Mr. Wolf's 
district, who hijacked an airplane from Cuba and came here, and 
in typical fashion we returned the airplane and kept the 
hijacker. Why? Because he said: I am running away from 
communism to a democracy.
    One of them took a commercial airliner, put a gun to the 
pilot's head, and held German and Italian tourists hostage, and 
Canadians, as he came to Miami and landed; the plane and the 
tourists went back.
    Now, I am not going to put the chairman on the spot because 
we disagree on this issue, and I respect him too much. But if 
that happened to us, we would call that guy a terrorist, and 
rightfully so, and that guy would pay a major price for putting 
a gun to a pilot's head and taking people off the route they 
were taking to Italy or Canada, to Miami.
    So that situation is a unique one. What Cuba says on this 
issue is: you always allow people to stay there that we think 
should be back here, and then when they commit a crime or you 
don't like them, or whatever, you want to send them back; well, 
let's talk about the whole immigration issue, including people 
we want back and including people you want to send back to us. 
So I think that that should be on the record.
    Now, granted that there are still Marielitos, and that is a 
shame as much on Cuba as it is on us that we have a couple of 
thousand, I think, of those people who have been in prison for 
years, and we have decided that long after they paid their 
price to society they should stay in prison because we want to 
send them back to a country where we usually applaud people who 
leave to come here.
    A couple years ago, I gave the INS hell because your 
agency--not you, not any of you folks--made a terrible on-the-
spot decision when they turned little Elian Gonzalez over to 
supposedly family in Miami. That started an international 
situation that could have been stopped if the local INS folks 
had not been politically motivated to say leave him here, he is 
a hero. No, he should have been in a hospital or with 
authorities until we decided what to do with him. Once the 
family had him, it was a major problem that will haunt Janet 
Reno forever, because the last comment I will make is the last 
comment that uncle made. He said, ``You want him, you come take 
him.'' And she did. The rest is history.

                       WORKING WITH LOCAL POLICE

    On the issue of having the police work with the INS, it 
scares me to death. More than ever in this country we need to 
have people in certain communities have trust in the police. A 
lot of our folks who have recently become Americans come from 
societies where the police were not friendly, and they come to 
a society where police are here to help us. They always see the 
INS agent, a lot of them, as someone who is out to get them, 
even if they are here legally. To now have the police stop them 
on the street to find out if they are legal or not sends a 
signal now that you can't trust the police.
    We are trying to work on getting people to trust the INS. 
We shouldn't now get people not to trust the police on this 
issue.
    In addition, I would be terrified to go to Miami because I 
am not welcome in Miami, but I would be terrified to go to 
Miami because what would stop a cop from saying, Come here. I 
say, hey, I am an American citizen, I was born in Puerto Rico. 
He would say, Show me papers. But you know something? I don't 
have any proof that I am an American citizen. I have a voting 
card from Congress. They would probably think I stole that. I 
don't have any proof that I am an American citizen, and I 
shouldn't be asked to prove that I am. No one asked me when I 
went into military service. No one asks me when I pay taxes. No 
one should ask me when I am walking down the street.
    So I don't think I have ever said this in all my years in 
Congress, but if this looks like it is going to happen, I will 
try to find some spot in some appropriation bill to keep this 
from happening, to penalize INS financially for teaming up with 
the police. You should be as far from the police as possible, 
and the police as far from you as possible.
    Now, having said all that, let me tell you that I don't 
envy you. You probably have and your folks have the most 
difficult job in this country. People on this panel dislike you 
because you leave too many people in the country, and there are 
people in the country who think you are throwing too many 
people out of the country. And no one is happy.

               Immigration Work In Congressional Offices

    We are not happy. I was just coming back from the White 
House talking to Mr. Rangel, and he didn't know I was coming to 
this hearing, but he said, you know, I have to talk to you, we 
have to do something about the fact that over 90 percent of the 
casework in both his Harlem and Washington Heights offices and 
my South Bronx office is immigration.
    Now, saying this on camera is dangerous because I don't 
want any of my constituents, whom I love, to think that I am 
saying I don't want to do this work anymore. But if you were 
going to do a cost analysis of my staff, you might say 
diversify, do something other than immigration work, because 
there are staff members that can't go out to senior centers, 
there are staff members who can't go out to visit schools or 
hospitals to find out Medicaid issues and Medicare issues. It 
is over 90 percent.
    And I don't know the answer to it other than maybe getting 
new regional INS offices in certain hot-spot areas, maybe, you 
know, high-volume areas, to take care of it. One of the 
questions he and I were having was could there be an office, 
since I am on this committee, in the South Bronx that would 
handle that whole area and Washington Heights and so on, 
because it is a problem--not a bad problem in the sense that 
these people are bad, no, not at all. But we are not doing 
other things we are supposed to be doing because 90 percent of 
the time we are doing immigration work. And the people that I 
have are fabulous people. They do great, great work. And a lot 
of people are happy, and a lot of people come to us to thank 
us. But there has got to be a way that some of this gets 
alleviated from congressional offices because we don't do the 
post office work, we don't do the Army work--we do a little of 
that stuff, but we do a lot of immigration work.
    Commissioner Ziglar. Congressman, the fact that your 
workload is that disproportionately oriented to INS is shame on 
us. Now, we are making a lot of progress, but, unfortunately, 
there are pockets where it is not working as well as it should. 
But shame on us that you have to be the intercessor between us 
and your constituents. You shouldn't have to do that. That is 
not your job. It is your job to run interference, do 
constituent casework. I know enough about the Hill to know 
that. But when it gets disproportionate like that, it is not 
fair to you and it is not fair to your constituents.
    I mentioned earlier--I don't know if you were here, but the 
President gave me some measures he wanted me to hit.
    Mr. Serrano. I heard that.
    Commissioner Ziglar. And one of them is the fact that you 
shouldn't be sending us cards and letters and telephone calls 
at that rate.

                        Restructuring of the INS

    Mr. Serrano. And I know that one of the ongoing issues is 
legislation that runs around here trying to break you up into 
two agencies. I have been quoted a couple times around here as 
saying that I am terrified of breaking you up because then 
those who support a budget aspect--enforcement--that they like 
will work hard on that, and the other aspect, which is to 
naturalize people and to help them stay in the country, will 
probably suffer during these, quote-unquote, legislatively 
conservative times. You will get a lot of money to kick people 
out of the country and very little to help people stay.
    I have also been quoted as saying that, however, doing that 
job is like having my local priest also be my local prosecutor. 
It just somehow doesn't fit to do both of these things at the 
same time, because you need to make people feel welcome, but at 
the same time you are feared by so many, and not necessarily 
only undocumented aliens, a lot of folks who just fear what 
they think it is.
    Commissioner Ziglar. Congressman, you just articulated 
extremely well my views and I think the President's views about 
why we ought to have two branches inside the INS: a service 
branch to give good service, and an enforcement branch so that 
we have got focus and a chain of command that works and we have 
got accountability. But, also--I talked about this earlier--
also that there is a balance that we achieve in that agency 
between the service and the enforcement mentalities, a little 
bit like the priest and the prosecutor, but in some ways that 
will be a way of keeping one or the other from getting out of 
sync.
    Mr. Serrano. Well, do you or the President in your 
conversations fear what I fear, that budget folks around here, 
the appropriators, favor one side of your action--see, right 
now they have to, no matter what they feel about it, fund INS. 
But if you had two separate entities and we don't set it up in 
a way where you control both entities and spread the money 
around, one could end up suffering a lot.
    Commissioner Ziglar. Congressman, I wish I had the 
opportunity to kick back and chat with the President on a 
regular basis about these things in that detail. I have not had 
that discretion.
    Mr. Serrano. You don't have a nickname? [Laughter.]
    Commissioner Ziglar. Actually, when I was Sergeant-at-Arms 
in the Senate, I actually saw him more there than I do in this 
job. He did call me ``Sarge'' once, but I don't think it stuck.
    Mr. Serrano. That fits with the INS.
    Commissioner Ziglar. Pardon?
    Mr. Serrano. That fits with the INS. [Laughter.]

                      Ability to Spread Resources

    Mr. Serrano. Let me ask you a question. We always focused, 
I think unfairly, but perhaps with a certain necessity, on our 
Southern border, the border with Mexico, Florida, the 
Caribbean. Now we found out from our latest fight, our latest 
pain, the terrorist threat, that our Northern borders are just 
as important and/or just as dangerous to us. In fact, one could 
argue that some folks came that way rather than through Mexico 
who did some of the harm or that could have done some of the 
harm.
    How are you able to spread your resources around? And what 
pressure is there on you now to do the full job that you have 
to do?
    Commissioner Ziglar. The pressure is enormous. We are 
beefing up our presence both with the Border Patrol and 
inspections on the Northern border. We also are beefing up our 
presence with respect to using technologies, sensing devices, 
more aircraft, if you will, to monitor the ports-of-entry.
    We now have a 24 by 7 by 2 policy at the ports-of-entry, 
all of the ports-of-entry. We are going to harden those ports-
of-entry and have a lot of monitoring equipment with respect to 
them, because they are not always open. They are not open 24 
hours a day, although we do have people there 24 hours a day.
    We are doing a lot of work with the Canadians to create 
things like what we call IBETs, which are integrated teams 
across the border so that we do detection and interception and 
interdiction. We have got information-sharing, intelligence-
sharing agreements that we are working out with the Canadians.
    All of those things will help us on that border, but it is 
clearly taking resources. At the same time, we can't ignore the 
Southwest border, the Southern border. Congressman Kolbe I 
think makes a very compelling case about what is happening in 
his state and the fact that we have not gotten control yet of 
those borders. But we are making progress. But to the extent 
that we divert those resources as opposed to supplementing the 
Northern border, we will delay the progress that we are making 
on the Southern border.
    I can tell you this, without disclosing any information: 
The smuggling operations that we know about that are attempting 
to come through the Southwest border, they are not just 
smuggling Mexicans and Central Americans. They are also 
smuggling some people that aren't real nice people that would 
do us harm. And we have to spend a lot of time on our 
interdiction not just at the border but working with the 
Mexicans and others to know who is coming our way so that we 
can interdict them.

                            Smuggling Issues

    Mr. Serrano. On a related smuggling issue, one of the new 
phenomena, I think, in the Cuba-U.S. relations issue in the 
last few years is smuggling for money, where people from Miami 
will go to Cuba and pick up people for money and bring them in.
    Now, when these people are caught, who arrests them? Is 
that your folks? And then who do you turn them over to?
    Commissioner Ziglar. You are talking about the smugglers?
    Mr. Serrano. Smugglers.
    Commissioner Ziglar. Yes, well, we arrest them. The Coast 
Guard sometimes catches them. Sometimes it is a joint operation 
with Customs. There are a variety of different scenarios about 
how we pick up these people. But they only are prosecuted by 
the U.S. attorneys in that particular district that they came 
from.
    Mr. Serrano. I haven't been keeping up with this. Have 
there been any successful prosecutions recently?
    Commissioner Ziglar. Of smugglers? I am trying to think. 
Well, I know we have picked up a lot and broken up a lot of 
rings. I don't know what the recent prosecution results are. 
Apparently we have. I just don't have those--but we would 
certainly be glad to give you that information.
    Mr. Serrano. Sure, I would like to know that because that 
would be a change--not a change for you, you don't prosecute. 
You don't make those decisions. But in the past, those people 
are seen as heroes, you know, even if they put other people in 
jeopardy.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                           Puerto Rico Issues

    The next question is a question that is so delicate I 
almost wish it was a closed session, only delicate in the sense 
that, again, I am in front of a camera and I don't want people 
to misunderstand what I am saying. But if you get on an 
airplane in Puerto Rico or the Virgin Islands, you should be 
and I would fight that you continue to be treated as what you 
are, an American citizen, no different than any other citizen 
traveling through the States. You are getting on an airplane to 
go to Florida or to New York, you are basically for all intents 
and purposes an American citizen going from one part of your 
country to another. But yet folks have said that it might be 
easier to get into one of those places than to get into the 
other parts of the States.
    Is that a concern? Is that something that INS deals with at 
all, short of saying show me that you are an American citizen 
when you are leaving Puerto Rico? Because you don't say that 
when a person is leaving New York to go to California, and you 
shouldn't. Is that a concern at all?
    Commissioner Ziglar. As you know, Congressman, in Puerto 
Rico we have an inspection station for people going to the 
mainland. I was down there recently, actually--well, not that 
recently, but I was there. Time flies fast when you are having 
fun.
    The fact is that we have an enormous number of people that 
land on the shores of Puerto Rico from the Dominican Republic 
and a lot of other places that come through there and then 
attempt to come into the United States through Puerto Rico. And 
it is important that we screen people and make sure that they 
have appropriate identification.
    Mr. Serrano. Now, in screening them, I have heard no 
complaints from activist groups or pro-citizenship groups in 
Puerto Rico that they are being treated badly, so I imagine 
your system has not offended any----
    Commissioner Ziglar. I have not heard any complaints 
either. That is why I was wondering where your question was 
going.
    Mr. Serrano. No, no. I was just wondering, I didn't have 
this information. No, not every question I ask you is based on 
a problem. [Laughter.]
    Please understand that. I am on your side more than you 
think. I just needed to know how that works.

                               INS Goals

    One last question. If you had to tell me, these are my 
goals, this is what I hope to accomplish, at least for the 
foreseeable future, for the time--you know, we all talk in 4-
year terms around here because that is how Presidents get 
elected. You know, one, two, three, what would you want to 
accomplish?
    Commissioner Ziglar. First I want to make sure, in terms of 
the INS function, that we fulfill that function on the 
enforcement side of our business in a way that sends a message 
that we are not going to allow people to come into this country 
who want to do harm to our country. We will do whatever we can 
to stop that. That is consistent with the Constitution and our 
values.
    At the same time, I want to have the service side, if you 
will, of the business be one that is efficient, that is not 
subject to being taken advantage of in the sense of document 
fraud and those kinds of things, that you don't have a problem 
with like you have got now. Most importantly, that the service 
side of the INS represents--the INS itself represents what this 
country, I believe, stands for. That is, we welcome people of 
good will who want to come here, who want to share in this 
country and help us build it; and that we treat those people 
with dignity and respect.
    I don't ever want us to sacrifice that part of America for 
the sake of security, and security alone. So it is that 
balancing thing that I have constantly to do. I didn't really 
realize when I took this job just what a balancing act it is 
and how difficult some of the decisions are that you have to 
make. But it is good to have to make difficult decisions at 
times.
    Mr. Serrano. Let me close by saying that you are the first 
person--not that I am saying anything negative about anyone 
else--of the folks that have been before us this year who 
volunteered the information that would have been in a question 
or my final comments to you, that is that balancing act to do 
the right thing all the time. And so I would remind you again 
of what I reminded Secretary Powell yesterday, and Director 
Mueller and Attorney General Ashcroft, that is, that this 
country is very much in favor of your efforts and the efforts 
of our Government to keep out the bad guys, to make sure that 
the bad guys don't bring any harm on this country.
    At the same time, we are terrified of the thought that 
people are being detained, perhaps unfairly, people are being 
racially profiled, definitely unfairly, and that in the process 
of protecting ourselves, we may harm our democratic freedoms 
and our Constitution. I think--I know that we all have that 
responsibility to do what is right and not to hurt our country.
    And so all I ask you or can tell you is to keep that in 
mind. Keep in mind the fact that we now feel terrible about 
what we did to Japanese Americans in World War II. I don't want 
your children and my children or your grandchildren and my 
grandchildren to be discussing years from now what we did to 
Arab Americans and what we did to other people in this country 
at this time.
    I understand the fear. Believe me, it got to a point where 
I didn't want to attend any more memorials in New York for 
constituents or to meet with any more grieving families and so 
on. In fact, my district even had one person whose death is 
still a mystery, the Vietnamese immigrant who died from 
anthrax. To this day, no one knows how she came in contact with 
it. She was from my district.
    So just keep that in mind. We support you. We support the 
work you do. We know how difficult it is. But when you are 
holding people and you are questioning people, keep in mind 
that it is possible that the person in front of you is as 
American as apple pie in their behavior and that they are not a 
bad person and you shouldn't hurt them in any way.
    Thank you.
    Commissioner Ziglar. I am going to do my best.

                              Cuban Issues

    Mr. Wolf. A couple more questions, and then we will 
conclude.
    On the issue of Cuba, on the list, you know, I think you 
ought to make an effort with regard to Cuba. Mr. Serrano and I 
have a difference of opinion, but he has been very, very 
faithful in articulating it. I have been opposed to the 
situation in Cuba, but I have been equally opposed to it in 
China. I helped lead the effort with regard to MFN. I disagreed 
with the Bush administration strongly with regard to MFN. To 
the President's credit, he is speaking out on behalf of human 
rights. There are 11 Catholic bishops in jail in China, and yet 
people are clamoring to trade with them. Think in terms of 
Dietrich Bonhoeffer, you know, in Flossenburg Prison.
    But I have said, that is why I have taken the position on 
Cuba, but I think we ought to give the Cuban Government an 
opportunity. There are people in the Congress who have made an 
effort, some in my party, to begin to improve the relations 
with Cuba. I have not been in that group for those reasons. But 
I think Mr. Castro ought to be given the opportunity to say yes 
to take these people back or to say no, because I think you can 
always find reasons why you can't do this or can't do that. But 
I think if he were to do that, that may in essence change some 
views over here. Would it change mine? I don't know yet. I 
would have to see. But I do know the Catholic Church has been 
given a very difficult time in Cuba, and I have met with some 
of the dissidents.
    But I think you still ought to even try, and maybe if 
Castro were to take them back, that might have an impact on a 
lot of the process that goes on around here.
    I agree with Mr. Serrano on the balance issue, and I know 
you do. We are a nation of immigrants.
    The fee issue on hiring additional inspectors, hopefully 
OMB will give you the opportunity to request that in a 
supplemental, because if the fee collection remains low, as 
people have explained, is not collecting because people aren't 
traveling--you have to have that flushing of money in, so 
hopefully that will be the case. The Dulles problem I do 
appreciate you and your people dealing with that.
    Commissioner Ziglar. Yes, sir.
    Mr. Wolf. That is the hub for my district and my region; I 
won't go through it, but your people were very, very helpful 
and I appreciate your helping.
    Commissioner Ziglar. Thank you, sir.

                         PREMIUM PROCESSING FEE

    Mr. Wolf. In 2001, INS was given the authority to collect a 
premium processing fee of $1,000 that would be charged to 
businesses seeking H1-B visas for highly skilled overseas 
workers. In exchange for the $1,000, businesses would have 
their applications processed in 15 days or less. Are you still 
seeing a large influx of these applications in light of the 
economy?
    Commissioner Ziglar. We are collecting a lot of those fees, 
yes, sir. It has been a very good revenue source.
    Mr. Wolf. In order to be evenhanded, do you go check with 
these companies to make sure that the people showed up at the 
companies, the same with universities?
    Commissioner Ziglar. We do not have a tracking system on 
H1-B.
    Mr. Wolf. Well, I think to be fair, you probably ought to.
    Commissioner Ziglar. I agree.
    Mr. Wolf. Because I think it is----
    Commissioner Ziglar. I think that is on the agenda.

                          SMUGGLING OF ALIENS

    Mr. Wolf. Smuggling of aliens, particularly I see the cases 
coming in from China, and the boxcars and smothering to death. 
I think the more you can do--I know Justice and the Attorney 
General is making that----
    Commissioner Ziglar. That is a high priority. That is 
really--some of the stuff that goes on there is just appalling. 
I want to find those people that are doing that and put them 
under the jail.

                           SEXUAL TRAFFICKING

    Mr. Wolf. Well, you are finding the same thing with sexual 
trafficking, too, and I think INS has to be part of that with 
the State Department and with the FBI. People are exploited. As 
you know, 50,000 people come--not come, they are brought to 
this country for sexual exploitation, women and----
    Commissioner Ziglar. Actually, I think the number is 
bigger. I think it is like 70,000, as I recall.
    Mr. Wolf. I didn't think it was that high.
    Commissioner Ziglar. I could be wrong.
    Mr. Wolf. Roughly 50,000, and 700,000 who are currently in 
the country. But you may very well be right.

                  CASE REGARDING COMMONWEALTH ATTORNEY

    We don't have to get into it, but the case with regard to 
the Commonwealth Attorney in my district, any word on----
    Commissioner Ziglar. We have not. It is odd you ask that 
because I was down on the border the other day making an 
inquiry about that case, and he has not shown up. And we 
continue to look for this guy at a fairly high level.
    Mr. Wolf. Okay. If----
    Commissioner Ziglar. That was a mistake.
    Mr. Wolf. People make mistakes.
    Commissioner Ziglar. But it was not a mistake that should 
ever happen given the nature of that individual.
    Mr. Wolf. I agree. And if you could keep us informed----
    Commissioner Ziglar. Of course, we will.
    Mr. Wolf. Bob Horan, the Commonwealth Attorney, he does a 
good job in Fairfax County. Let him know.
    Commissioner Ziglar. Yes, sir.
    Mr. Wolf. Because eventually this will come into play, I 
think, somehow, some way, and I think we want to be proactive.
    With that I will just submit other questions for the 
record. You will, too? Okay. Then Mr. Serrano will also submit 
his questions. And we thank you for your service, we thank you 
for your time.
    Commissioner Ziglar. Thank you, sir.
    Mr. Wolf. Hope you get a good night's sleep tonight.
    Commissioner Ziglar. Thank you. I have every intention of 
not working tonight, mostly because my wife has explained it to 
me. [Laughter.]
    And I am not confused.
    Mr. Wolf. Okay.
    [Questions and answers for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, April 18, 2002.

                           BUREAU OF PRISONS

                                WITNESS

KATHLEEN HAWK SAWYER, DIRECTOR, BUREAU OF PRISONS

                     Chairman Wolf Opening Remarks

    Mr. Wolf [presiding]. The hearing will come to order.
    I want to thank Dr. Sawyer for appearing before the 
Committee this morning to discuss the Bureau of Prisons' fiscal 
year 2003 budget request.
    And we thank you for the good job that you do dealing with 
a very difficult clientele, if you will. The prison population 
is not exactly easy to deal with. And so, I want you to know 
that we do appreciate how difficult it is and the good job you 
and your people do.
    You have requested a total of $4.6 billion; a 9.9 percent 
increase over the current fiscal year. This figure includes 
$4.1 billion in salaries and expenses, with increases of almost 
$112 million to support the activation of four prisons, 
including the activation of UNICOR factories at those 
facilities that will employ some 1,300 inmates and the 
expansion of another two facilities.
    You are also asking for an increase of about $31 million to 
absorb another 4,360 inmates into an already overcrowded BOP 
system. You are also requesting another $205 million for the 
construction of two prisons that were funded initially in 
fiscal year 2001, and funding for the expansion of three 
existing.
    Despite these requested increases for additional space, the 
BOP system will still be over capacity. This year your budget 
states that even with the fiscal year 2003 requested increases 
for these seven prisons that the system will still be over 35 
percent over capacity.
    Our questions will delve into trying to balance the need 
for new prisons with excess state capacity, because we are 
always hearing that there is this state, that state, my state, 
the state of Ohio with excess capacities. Our questions will 
delve into trying to balance the need for new prisons with 
excess state capacity and slowing in the growth of inmate 
populations.
    With that, I would like to recognize Ranking Member Mr. 
Serrano, and then you can proceed.
    Mr. Serrano.

                      Mr. Serrano Opening Remarks

    Mr. Serrano. Thank you so much and welcome.
    I hope when I do this again in public, I do not get you in 
any trouble, but I want to thank you once again for your 
humanity when we delved into some very difficult months--more 
than a year actually--during the many arrests that have taken 
place on the island of Vieques and the sentencing of folks to 
time in federal prison.
    Your role was to house them, and I think, even though you 
did not comment or should not comment on why they were there, I 
think your agency department understood that you were not 
housing criminals or murderers. And I think you went out of 
your way to allow families to visit and lawyers to see them and 
so on. And I want to thank you for that.
    During that period of time, you housed prominent political 
leaders, from the president of the Independence Party in Puerto 
Rico to Reverend Sharpton of New York to the head of the 
Democratic Party in the Bronx, and we always found that the 
folks who work at the bureau and the folks who work at the 
Brooklyn center really understood that we were not there to 
cause a problem.
    And I have to commend them. As you know, there was a 
demonstration outside the Brooklyn detention center every 
single day at noon, including Sundays. I know I participated in 
a lot of them. And so I just want to say that.
    And secondly, now that I have told you how great you are, 
there is still, obviously, a concern that I have, that we all 
have on this committee, but I voice it at every hearing, and 
that is that in the process of getting the bad guys who hurt us 
on September 11 we do not curtail the rights or create problems 
for the good guys, so that 40 years from now we are not sitting 
around fretting the way we do now and feeling terrible about 
what we did to Japanese-Americans during World War II.
    And so I will ask you to comment on reports that there have 
been difficulties with Arab Americans and Muslims, especially 
in the same center, in the Brooklyn center.
    So with that mixed thing but--not mixed, I am a fan of 
yours and you know that, and I appreciate all your support and 
all your help and I stand here ready to join the chairman in 
offering our support and our help for the work you do.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you.
    You can proceed.

                    Opening Remarks of BOP Director

    Ms. Sawyer. Thank you. Thank you, Mr. Chairman and 
Congressman Serrano, Congresswoman Roybal-Allard. I appreciate 
having the opportunity to appear before you again today, and I 
want to thank you all for the great support you give the Bureau 
of Prisons. You really enable us to handle the very difficult 
job that we have, and we thank you for your support.
    Today we have over 160,000 inmates in the Bureau of 
Prisons, housed in 102 of our own federal prisons and also in 
contract facilities. Most of these are all inmates that have 
been sentenced out of federal court, but approximately one-
third of the Marshals Service pre-trialers are also in our 
custody as you referenced, Congressman Serrano. We have a fair 
number of pre-trialers, as well as sentenced inmates in our 
population.

                 INMATE POPULATION GROWTH RATE SLOWING

    The interesting change this year, which is a little 
different than what we have talked about in past years, is that 
our record inmate population increases have actually started 
slowing down a little bit. We are still growing, but not quite 
at such the very dramatic rate that we were growing in the past 
years. We had been growing at the rate of about 11,000 inmates 
per year for several years in a row. This year, and in the out-
years, we anticipate growing at something more like about 7,000 
inmates a year. So we are actually having less inmates at the 
end of this fiscal year than we had anticipated because the 
growth has slowed down.

                       BOP FY 2003 BUDGET REQUEST

    As you indicated, Mr. Chairman, we are asking for $4.6 
billion this year: $4.1 billion for operations, about $400 
million for capital budget, and another $128 million for 
retirement system and health benefit costs.
    The operations budget will help us cover an average daily 
population that we are projecting at this point to be about 
166,000 for 2003. Our capital budget includes $206 million to 
continue construction of the projects that have already been 
partially funded, as you indicated, sir. And the new projects 
will be a secure female facility, one medium security male 
facility and the expansion of three of our existing facilities. 
With all of this capacity, we are still going to be running 
around 30 percent over capacity as we move into 2005.

                          REDUCING RECIDIVISM

    The budget request is going to allow us to continue our 
vast array of educational, occupational and vocational training 
programs for the inmates that we have found and research shows 
have a direct impact upon reducing recidivism. We are committed 
to addressing educational deficits of inmates that they bring 
to us when they are first incarcerated. We hope to send them 
back to the community better prepared to live law-abiding 
lives, both in terms of education--we require mandatory 
education for those individuals who do not have their high 
school diploma or their GED.
    We also mandate work. All of our inmates who are medically 
able, do work. Most of those work in institution jobs like 
orderly or food service workers or plumbers or partners or 
groundskeepers, but 25 percent of our population work in 
Federal Prison Industries, which I know is well known to all of 
you.
    It is a program that is very critical to us. It enables us 
to keep the inmates constructively occupied and has been found 
through very vigorous research to have a dramatic impact upon 
recidivism. It is our most important program, we believe, in 
terms of preparing inmates for release.
    And there are some bills on the Hill right now that look at 
modifying and changing Federal Prison Industries. Some of those 
we embrace very much in terms of the impact they will have on 
us, in terms of enabling us to stay very viable and employ 
inmates. Others concern us because they will have a devastating 
impact and we will not be able to employ inmates at the rate we 
do right now and be able to prepare them as well for release.

                   RESIDENTIAL DRUG TREATMENT PROGRAM

    Drug abuse treatment is the other program area that we feel 
is a very critical program for us. About a third of our inmates 
come into us with drug abuse histories and serious diagnosable 
drug abuse problems, and our Residential Drug Treatment program 
is available to all inmates who have a need and who volunteer 
for the program. We have graduated tens of thousands of inmates 
in our Residential Drug Abuse program over the last few years.
    The budget request that we have in line, we know, is large, 
but we also realize that it is the basic minimum that we really 
need to run a safe system and continue to offer the kinds of 
programs that we feel can have an impact upon these inmates and 
prepare them for release.
    And with that, again, I thank you very much for your 
support. And I am ready to answer any questions you might have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                  SLOWING OF INMATE POPULATION GROWTH

    Mr. Wolf. Sure, and we have a number. And let me begin, I 
have some prepared here, but just your testimony, you thought 
11,000, now there are only 7,000 coming in. What is the basic 
reason for that?
    Ms. Sawyer. The primary change is the immigration cases 
coming in were a little less than we had anticipated. For the 
last few years we were growing in immigration cases at the rate 
of about 30 percent increase per year, which was very dramatic. 
And those numbers have just not been quite as high in the first 
half of this fiscal year. And actually a little bit of the 
latter half of last fiscal year, not coming in at quite the 
rate they had been.
    We have met with the Department of Justice, with 
Immigration, with Border Patrol, and we are all looking very 
seriously at trying to understand that analysis, because there 
are still lots of folks working the border and they are very 
aggressive in apprehending cases.
    And I am understanding that it is a very complex situation 
and sometimes influenced by what might be happening in the home 
countries. Most of our inmates coming in are coming through 
South America, through Mexico, and some of the things that are 
factors that might be happening in the country at the time, 
some of it varies, in terms of how many cases are picked up by 
the local prosecution, arrested and apprehended and prosecuted 
locally versus in the federal courts. We are really trying to 
analyze what exactly is driving those numbers.
    It seems to be a little more than a blip; it seems to be a 
more extended trend. And so, we have factored that lessening of 
number into our projections for the out-years and have dropped 
down those growth rates a little bit. Again, we are still going 
to grow at the rate of about 7,000 inmates a year, but just not 
growing quite as fast as we thought we were going to grow.
    Mr. Wolf. But that is a positive sign.
    Ms. Sawyer. One would hope. One would hope it is a very 
positive sign.

                          INMATE DRUG PROBLEM

    Mr. Wolf. You said one-third of your prisoners enter with a 
serious drug problem.
    Ms. Sawyer. Yes, sir.
    Mr. Wolf. So that would be roughly 50,000--some that come 
in?
    Ms. Sawyer. On average, yes.
    Mr. Wolf. And what percentage of your prisoners are in 
there for drug-related crime?
    Ms. Sawyer. Almost 60 percent are in for drug crime. But 
many of those were just involved in the distribution and sale 
of drugs and did not really have a drug abuse history.
    Mr. Wolf. So they did not use it.
    Ms. Sawyer. Exactly.
    Mr. Wolf. So 60 percent of all the people in the prison 
system today, in federal prisons, are drug-related?
    Ms. Sawyer. Yes, about 58 percent to be precise.
    Mr. Wolf. Fifty-eight. And roughly half of that have a drug 
problem.
    Ms. Sawyer. Actually, some of those that come to us not for 
a drug offense, but end up having the drug problem, also.
    Mr. Wolf. Right.
    Ms. Sawyer. They came in for robbery or other kinds of 
things. And so, we really look at the two issues separately.
    We review it. We evaluate every inmate coming in the door, 
regardless of what their offense is, for whether or not they 
might have substance abuse history and drug treatment need. But 
it ends up being about a third of our total population.
    Mr. Wolf. If there were some way, which obviously you 
cannot legislate, but if someone were able to, effective a 
certain time, eliminate the drug problem from our country--and 
let me just say, I am absolutely, positively, categorically 
opposed to legalization. I mean, to legalize drugs and allow 
young people--what that would tell young people--if you are 13 
and it is legal for people 18. If something were to happen in 
America, and the drug problem were to go away, we would really 
be able to reduce crime and prisons. And that is the major 
issue then, isn't it?
    Ms. Sawyer. It sure is, in terms of our population and the 
number of convictions we have for drugs, yes.
    Mr. Wolf. Now, how would that hold on the state level? Do 
you think that is similar?
    Ms. Sawyer. Their proportion is not quite as high as ours, 
in terms of the proportion of drug offenders, because they get 
more of the street crime offenders; the robberies and 
burglaries. But it would still dramatically reduce them. This 
is just a professional guess. I would guess their numbers are 
probably closer to about 40 to 50 percent that might be drug-
related.
    Mr. Wolf. Of the crimes are drug-related.
    Ms. Sawyer. Yes.

                   STATE PRISONS WITH EXCESS CAPACITY

    Mr. Wolf. Okay. Well, that is interesting.
    The Department of Justice has convened a high-level working 
group to address the issues of states that have built too many 
prisons and are now faced with excess capacity. Can you tell us 
what states are in trouble, and what role the Bureau of Prisons 
can play in working with states that have existing capacity, 
given your system will be over capacity by 35 percent, even 
with the fiscal 2003 request increases in expenses?
    Ms. Sawyer. Yes, sir. This is a relatively new phenomenon 
for states to suddenly have prison beds vacant and be closing 
down institutions. It has not been more than a year or so ago 
that everyone was still clamoring because they were grossly 
overcrowded and looking to build new beds, and it is a 
relatively new phenomenon.
    Several of the large states across the country's 
populations----
    Mr. Wolf. Can you tell us where?
    Ms. Sawyer. California, Texas, New York, Ohio, Michigan; I 
am not sure about Illinois. But at least those I know and some 
of the smaller states have gone down also.
    And what they are having now, just as you indicate, prison 
beds that they no longer need. Other states are having economic 
problems. And so, they are looking to close down some of their 
institutions and consolidate their activities.
    Mr. Wolf. So is this a real drop of crime or is this an 
economic issue that people say, ``Well, let's not, because we 
cannot afford it''?
    Ms. Sawyer. Well, in talking with our state counterparts 
and with the Bureau of Justice Statistics that have been doing 
a lot of the work looking at what these population changes 
mean, there seems to be a number of different factors.
    Some of the states have reexamined their sentencing 
procedures; believing that they were being much too harsh in 
sentencing and putting people in prison for too long periods of 
time. So, it was not a lessening of convictions, it was a 
lessening of sentence length, and so that had an impact.
    Some of it had to do with reexamining their drug laws. I 
know California changed their laws on drug arrests, and so some 
of the lesser drug offenders--they have been pushing much more 
into drug treatment, and not going after them as a criminal 
activity.

                      DRUG REHABILITATION PROGRAM

    Mr. Wolf. Has anyone looked to see how that is working? 
Obviously the preferable treatment would be if you could get 
somebody in a drug rehabilitation program, particularly early 
in the game versus late. Has anyone looked at a state that has 
changed to see what the impact has been on the crime rate?
    Ms. Sawyer. I am sure it is being looked at, but I do not 
know.
    Mr. Wolf. Because I do not think that prisons serving the 
population is always the answer. What has the impact been on 
the good of the state? Has anyone looked at that?
    Ms. Sawyer. I would imagine they are looking at that, 
because it is getting a lot of attention right now. And a 
number of other states are saying, ``Well, if that is enabling 
some states to bring their populations down,'' others are 
wanting to look at it too. I do not know the outcomes of any of 
those studies yet. And it will probably take a little while to 
look at them.
    Mr. Wolf. I am sure you read all the literature. So if you 
see anything, if you will let the committee know.
    Ms. Sawyer. Okay. Sure will, sir.

                PURCHASE OF OVER-CAPACITY STATE PRISONS

    Mr. Wolf. You have some 20 prisons set to come on-line 
through fiscal year 2005. Does this mean that you will still 
have an overcrowding problem even with all of the additional 
capacity? And I guess the question is, would not it really make 
sense to work with the states to place some of your overcrowded 
population there?
    Ms. Sawyer. Yes, sir.
    Mr. Wolf. To go in and just say to state X, ``You have a 
prison and we want to buy it. We are going to take it over. We 
are going to give you--'' It is like somebody is leaving the 
area and has to sell a car. You get a good price sometimes. You 
come in, offer a low price, representing the taxpayer of the 
United States, get a good price, in order to keep from having 
to build other prisons and then find out that some of these 
states that went off in the mid-1990s building all these 
prisons, and now they are over capacity--although the 
circumstances are a little bit different at the federal level--
we are not in that same boat.
    Or that we can also help some of those states by taking 
some of those prisons over. I do not mean bad prisons in 
downtown someplace that they do not want, that are rat-infested 
and the pipes are leaking, and they are just trying to dump it. 
I mean something that would fit in with what the Bureau of 
Prisons is honestly trying to do with regard to prison 
industries, room for expansion. Could you not do that?
    Ms. Sawyer. Yes, sir. And we are working with the 
Department of Justice. As you indicated, they have created a 
work group to go out and look at a number of the facilities 
that are either up for sale or that are looking for us to 
contract with them for beds.
    A lot of the states do not really want to sell their 
prisons, because they are fully staffed, and they do not want 
to have to lay off their staff. They would much rather be able 
to contract for beds with us and house the inmates for us, for 
INS or U.S. Marshals, because there are three entities in the 
Department of Justice that need bed space capacity. So the 
Department has a work group that involves all three of the 
agencies, with the Detention Trustee, going out and looking at 
any facility that the Department is made aware of around the 
country that may either be up for contract use to buy beds and 
let them run it for us or to actually purchase the facility.
    As you indicate, oftentimes the ones that the state is 
willing to sell, are usually not the ones they just built in 
the last few years. There are usually the ancient ones that are 
very old, rather falling apart, causing a drain for them on 
utilities and everything. So we may or may not find a facility 
that we could buy. But there are those that are up for contract 
and for beds also.
    And so the three components of the Department with the 
Detention Trustee are going to be looking at all of the beds 
that might be available all around the country.
    We do not want to end up in a situation where we build 
prisons that we have no idea what we are going to do with down 
the road. And we try to keep that in mind as we move along, and 
we try to move forward prudently. Our contracts help us have 
that buffer.
    One of the other things we are doing when we do build a new 
one in some locations, we are building a brand new facility 
next to a very old facility. So that if when the day comes we 
do not need both of those, we will be able to shift our staff 
in such a way that we will not have to lay people off. We can 
blend the staff into the newer facility and be able to, 
perhaps, take some of the older facilities off-line.
    It is kind of like at the same time we are growing so much 
and building, we kind of have these other thoughts going at the 
same time about how might this facility be used down the road 
for another use. And we do not want to go to any more beds than 
we ever need.

                         COST FOR CONTRACT BEDS

    Mr. Wolf. Are you getting a better price from the states 
now to take prisons? Like three years ago, didn't they say X 
dollars, and now they have this empty space and they are 
worried about laying off people?
    Ms. Sawyer. We have not found any of those deals yet. You 
know, maybe no one is hurting that badly yet. We have not 
gotten a really good deal, because usually they are having to 
offset their own costs in terms of contracting with them. So, 
whatever staffing levels that they have, whatever operational 
costs they have, we have not found any real good deals yet.
    We keep looking for one, and we are hoping that maybe as 
people become a little more concerned that they are not going 
to be able to find an alternative use for the facility that 
they may be willing to give us a better deal.
    Mr. Wolf. Well, couldn't you help bring that about? I mean, 
your people must know that in facility A, wherever that is, it 
is costing the state of--whatever that state is--so much per 
year for a prisoner. You then come and say, ``Hey we know what 
you are doing here, and if you take X dollars, you are going to 
be able to pay for this plus have a little bit, versus what you 
have been charging us in the past.''
    Ms. Sawyer. We are very willing to negotiate with them and 
help them to address what the real costs are, because we are 
very willing to pay the real costs. If the costs end up being 
more than we are charging or more than some of our other 
contracts that we have out there that are less expensive, I 
know you want us to look at what is the best deal for the 
taxpayer.
    But we are working with every one of them, sir, trying to 
figure out what is the best deal. If we can get away without 
using new capital money and building new facilities, we would 
love to be able to do that.
    Mr. Wolf. Have you thought of doing a request, a proposal, 
maybe a letter to every state corrections officer, or maybe 
every governor maybe would be better?
    Ms. Sawyer. No, we have not done that.
    Mr. Wolf. And just say that, ``We are in the situation of 
looking for additional space. These are the standards that we 
are looking for: One, it is not a prison where we are not 
looking 1910 Fulsom, we are looking for this; or we are looking 
to house people and this is roughly what we are willing to pay 
and not any more.''
    But I think to flush it out would almost require some of 
these people to come in, and I think it would be more 
appropriate to do the letter to the governor than it would be--
or maybe both to the governor and to the director--maybe the 
secretary of corrections. Because I think a lot of governors 
are really feeling this pressure, and, you know, it may be a 
great opportunity.
    And also, I think, if you could take a prison over and you 
have it and be yours, or even a long-term lease, that way you 
could put your system in. One of the concerns is, you might put 
your people in a prison that you do not really want them in 
because of the operation of it. If you could take a large 
portion of it over, or lease it for 15, 20 years, you could 
then put in your programs, so that the person you put into 
prison, they would have drug rehab and all those things.
    But I would urge you to contact the different states and 
put it out there on the shelf that they can look at, either say 
yes or say no.
    But I really think we have to do that. Otherwise, if we 
build these, I think we are going to be subject to criticism 
that we did not even try, did not look. And I think it would be 
a prudent thing to do.
    Ms. Sawyer. We have not reached out to the states in the 
way you are suggesting, and we can certainly consider that.
    We have really only had, I think, three states come to us, 
asking us if we were interested in using their beds; only 
three. Most of the requests we have gotten are from private 
contractors or communities on behalf of private contractors, 
because the community was hoping for the jobs that the private 
institution may be able to bring to their community.
    Three states made contact with us about the possibility of 
using their beds, but we have not really reached out in the 
other direction, as you are suggesting, to the states and 
asking them, and that is something we will certainly consider 
looking at.

                      CLASSIFICATION OF PRISONERS

    Mr. Wolf. Okay. The one last question before I recognize 
Mr. Serrano is, how do you go about classifying inmates with 
regard to the security level? Because I know that makes a 
difference as to what type of facility you put them in.
    Ms. Sawyer. Yes, sir. We have five different security 
levels, from minimum, which is a camp with no real fence or 
anything around it; then there are low; medium; high is our 
regular penitentiaries; and then there is the super max at 
Florence, which houses about 400 and some inmates.
    Mr. Wolf. Where is Florence?
    Ms. Sawyer. Florence, Colorado. I am sorry.
    Mr. Wolf. Colorado.
    Ms. Sawyer. And that is our super max facility. So we have 
five different security levels.
    And we have a clear formula that is utilized to determine 
what security level an inmate would best be served in. It has 
to do with their offense, the length of time they are doing, 
their history of past offenses, any history of escapes, and 
their demonstrated level of responsibility. All of those 
factors are weighed.
    And our classification system has been developed over years 
with very good research. We continually monitor to make sure 
that is our assessment of risk from these inmates that we use 
to place them in different security levels, does that play out 
in terms of their conduct within the prison as well as their 
conduct after release?
    And we feel pretty confident. We adjust it and tweak it 
every once in a while to make sure it is current. But it really 
depends upon primarily the offense they committed, how much 
time they are looking at, whether there is violence involved, 
and what their history has been in terms of past offenses and 
past escapes.

                      ATTACKS ON PRISON PERSONNEL

    Mr. Wolf. Could you just comment briefly, maybe submit it 
for the record; show us the attacks on your personnel, the 
guards over the last 10 years? How many guards have you lost 
over the last 10 years? How many serious attacks? Roughly, have 
you lost many?
    Ms. Sawyer. I have been Director now, it will be 10 years 
in December. And in my term as Director, I have lost two 
correctional officers.
    Mr. Wolf. Where? Which facilities?
    Ms. Sawyer. D'Antonio Washington was killed at United 
States Penitentiary in Atlanta, and Officer Scott Williams was 
killed at United States Penitentiary in Lompoc, California.
    We also had another officer very severely injured in MCC 
New York a year or so ago by one of the original World Trade 
bomber suspects who stabbed a comb through the eyes and into 
the brain of our officer.
    Mr. Wolf. How is he?
    Ms. Sawyer. He is going to live, but he will have permanent 
brain damage. And so, he will never be able to function the 
same as he was able to before.
    Those are the three most severe instances. We have also had 
staff assaulted different times. Usually it is a striking kind 
of an event, where they will hit them with something or hit 
them with their fist.
    But the good news in all of that is, even despite our high 
levels of crowding and getting a more and more violent inmate 
population, our rate of assault on staff has been going down 
for the last several years. I think we have a lot of good 
procedures in place. We have a lot of good security measures in 
place to protect our staff.
    And even though they do get assaulted periodically by 
inmates--I do not have the full number of assaults; we can get 
those for you--but those numbers actually are getting better 
and better, even though our number of inmates are getting 
larger and larger.
    [The information follows:]

                      Assaults on Prison Personnel

    Two BOP employees have been killed in the line of duty in 
the last 10 years. The Chronological Disciplinary Record was 
initiated in March 1997, to identify the number of serious 
assaults on staff, information which was not available before 
that time.

Number of serious assualts on BOP staff since March 1997 (by calendar 
year)

March--December 1997..............................................    67
January--December 1998............................................    74
January--December 1999............................................    87
January--December 2000............................................    67
January--December 2001............................................    96
January--March 2002...............................................    27
    Mr. Wolf. And what is the worst prison uprising in a 
federal prison, say, in modern times? Not talking about 
states----
    Ms. Sawyer. The worst in modern times would----
    Mr. Wolf [continuing]. In federal prisons.
    Ms. Sawyer [continuing]. Have been our Atlanta and Oakdale 
disturbances in 1987.
    Mr. Wolf. Now, how many people died in that?
    Ms. Sawyer. No one died in that. But we had 100-and-some 
staff taken hostage for, actually, a multiple-week siege down 
in Atlanta. Those were Mariel Cubans, you may recall, who got 
word that they were going to be transported back to Cuba and 
they were concerned about that at that time, because they 
feared they were going to be harmed in some way when they went 
back. And so, the inmates there rose up against staff.
    And at the same time, our institution in Oakdale, 
Louisiana, right after that, had Mariel Cubans located there 
also, and there was an uprising. And over 100-some of our staff 
were taken hostage in a very frightening ordeal of, I think, it 
was up to 20 days. But no one was seriously injured; no one 
lost their life; and it was resolved peacefully.
    Mr. Wolf. Mr. Serrano, I think we are going to have two 
votes. So we will just go right up to end go vote in two votes.
    Mr. Serrano. To the bitter end.
    Mr. Wolf. No, but with one minute left.
    Mr. Serrano. Trying to get along with him is easy. Great 
guy. [Laughter.]

                  TREATMENT OF CONFINED ARAB-AMERICANS

    The whole issue that I brought up before, it strikes me as 
a contradiction to what I know, because, again, we dealt 
through a very difficult period and I saw certain behavior. I 
realize that emotions of September 11 a high everywhere in this 
country, which we all are involved in that.
    But this article in The Washington Post, dated the 17th, 
that you saw, and the comments we keep hearing describe a whole 
different situation, a very violent situation against Muslims, 
Arabs; people who eventually may be deported for over-staying 
their visa, who eventually, may be detained in other ways for 
violating our immigration laws, but who little by little are 
all being realized as not having had anything to do against our 
country.
    Now, I personally, for the record, realize that someone who 
over-stays a visa, whatever, has broken the law, but I would 
not consider them criminals. You know, they violated the law 
and deal with them.
    But the stories in this article, and which I want you to 
comment on, about people are being pushed against the wall and 
teeth being broken and are being told that they are there 
because they are World Trade Center suspects when they claim, 
``I over-stayed my visa,'' is this really going on, and is it 
serious enough that it merits what we understand is the 
investigation by the Justice Department?
    Now, this Justice Department, I do not think, reacts 
quickly to these kinds of allegations, as this Justice 
Department may be involved in some of that stuff themselves, 
you know, and some of this misbehavior. So why are they doing 
this and what can you tell us is happening in these prisons?
    Ms. Sawyer. I appreciate you asking about the article, sir, 
because there has been so much in the paper about what is 
happening in Brooklyn. And I would ask you all to reserve your 
final response to that when the facts are finally able to come 
forward.
    Because there really are two different issues going on, in 
terms of the issues raised by the offenders at Brooklyn. There 
are conditions of confinement issues, which have to do with 
their placement. And there is no question, but that when these 
individuals were brought in to us--and the number right now is 
less than 20. We have 17 people in this status. The number was 
never more than about 80 that have ever been housed during this 
entire time period that we are holding for the FBI or 
Immigration Service or thought that had anything to do with the 
World Trade Center bombings or the attacks.
    The conditions of confinement issue have to do with the 
fact that we do house them separately. Since it was unknown 
when they were brought to us what they exactly were being 
charged with or what their involvement may or may not have 
been, we did not want to risk placing them out in open 
population. We did not know what the inmates' reaction was 
going to be to them either, because the inmates had a whole lot 
of feelings about the events. We did not want to jeopardize 
these new detainees' safety, so we placed them in our 
administrative detention areas, where they were housed 
individually. They do have less movement about the institution, 
but they have showers in their cells. And so when I hear them 
complaining about they did not have access to a shower, it 
mystifies me, because there are showers and sinks and bathrooms 
right in their bathroom facility. But they are housed in there 
as much for their protection, as they are for other security 
reasons.
    Now, once it was determined on any of them that they were 
guilty of something, perhaps they over-stayed their visa, but 
not involved in terrorist activity, then we released them from 
that cell out into the open population there in the MCC.
    Regarding the issue of lights being left on, it was one of 
the things that we did in the very beginning, because we knew 
these inmates were going to be high-profile, and there could be 
accusations made very easily against our staff of abuse of 
inmates because of all the emotion around the situation. 
Whenever those kind of things occur, we put cameras in our cell 
areas and we aim them down the range. Sometimes we even put the 
cameras in the cells themselves, partly to protect the inmate, 
so that if any abuse should occur or any staff member would 
think of abusing them, you know, they are protected; but also 
to protect our staff against false accusations of abuse by the 
inmates.
    We did leave the lights on over a longer period of time 
than we normally would have, because the cameras do not work 
without the lights. And so, their accusation of us leaving the 
lights on in some way to harm them was really intended to leave 
enough light on in the area that the camera would work. We were 
able to get those lights off a few months back and we have put 
in just small, little night lights in order to give the folks 
enough light to be able to get to the bathroom and the showers, 
so they would not be moving about in the dark. But they are not 
the bright lights left on all the time. So the condition of 
confinement issues are one thing.
    For all of our inmates, even when we got the inmates from 
Vieques, we separated their housing. We held them in different 
places. The strip searches after visits occur for every inmate 
in our institution, because any contact that an inmate has with 
someone from outside our secure perimeter poses a risk and, we 
always do strip searches.
    So some of these things we did were not anything new and 
different because of the World Trade Center bombing, they were 
simply our standard security procedures. So there are 
conditions of confinement issues that they have raised.
    The other set of issues, though, I think are the ones that 
are more troubling--clearly troubling for us, and those are the 
claims of physical abuse of these inmates. We have absolutely 
no tolerance for such activity. Our staff know that. Our staff, 
for the most part, are very professional, as you witnessed in 
your dealing with them when we held the Vieques case inmates.
    I will not say that sometimes a staff member does not step 
outside of the bounds, but we are very much looking forward to 
the Inspector General's investigation going in there. We have 
looked at and investigated every accusation that has come up, 
and found absolutely no evidence to corroborate the claims of 
abuse.
    Staff interact with these inmates on a regular basis. When 
they are in the administrative detention area, medical staff 
come by three times a day. On each shift, medical staff, 
usually physician's assistants, come by and check these 
inmates. If there had been any evidence of a physical abuse 
with a bleeding lip or loose teeth or any of that, it would 
clearly come to our medical staff's attention. There is 
absolutely no evidence or indication that any of that has 
occurred.
    Again, we put cameras in there when we get these high-
profile cases, intentionally to protect the inmate from abuse, 
and also to protect our staff from false accusations.
    So we invite the Inspector General to come in. We have 
looked at these cases ourselves; we see no evidence of abuse at 
all. And we look forward to the Inspector General to come in so 
that the public record can then be a record of fact, and not 
just accusation.
    And if there is any indication that our staff have done 
anything wrong here, then we will pursue them aggressively. And 
if they physically abuse an inmate, we will pursue prosecution. 
But I believe the story in the end, when the facts come 
completely out, is going to be a quite different one than some 
of the accusations that have been made through the media.

                 CIVIL LIBERTIES VIOLATIONS IN PRISONS

    Mr. Serrano. I do not doubt that you believe strongly that 
in the end this will not look bad for the Bureau. However, I go 
back to my earlier point that I am not confident that the 
Justice Department is focusing in right now on civil liberties 
issues. I think they are focusing more on getting the bad guys. 
And my second part, part B, do not hurt the good guys. And I do 
not think this department is focusing on that right now.
    Ms. Sawyer. Well, I think the Inspector General's Office, 
though----
    Mr. Serrano. Well, that is my point to you, my question. 
What would prompt a department that right now, in my opinion, 
is not paying attention to civil liberties violations, to come 
in and investigate the Bureau of Prisons? What do they know? 
What did they hear?
    Ms. Sawyer. We made the referrals. All the referrals.
    Mr. Serrano. You invited them in?
    Ms. Sawyer. We invited them in. When we get accusations of 
abuse of an inmate, we immediately refer them to the Inspector 
General's Office--immediately. And I know that they are coming 
is partly because we have made the referral, also partly 
because it in getting a lot of attention, and I think the 
Department of Justice, in support of the Bureau of Prisons, 
wants to be able to get the record straight: get the facts out, 
let it get investigated thoroughly, and let the facts fall 
where the facts should fall.
    And if there is any indication that we have done anything 
wrong inside the Bureau of Prisons, then we need to take action 
on that. You must remember also that a lot of these accusations 
are not only looking at Brooklyn; there are a number of other 
facilities that are contract facilities that are housing some 
of these inmates also. And I am not at all trying to cast 
aspersions on the other facilities, claiming that it is not 
happening in ours, but it is happening in theirs. But I know 
some of the discussions of the conditions of confinement and 
the abuse cases, they all get mooshed in together with whether 
they happened in a federal facility or they happened in an INS 
contract facility, and the IG's office is really wanting to 
look too at not only what we are doing in the Bureau of 
Prisons, but also making sure that these contract locations are 
doing everything that they should be doing also.
    But we invite the IG's office in. Whenever we get an abuse 
complaint, we refer it immediately to the IG. We think that is 
our best defense, that if our staff are doing anything wrong, 
then we want to be the first ones to know and we want to take 
action. If they are not doing anything wrong, then the staff 
have every right in this world to have it looked at thoroughly 
and have them exonerated if that is the correct outcome.

            TRAINING FOR STAFF GUARDING PRISONERS POST 9/11

    Mr. Serrano. Let me ask you one last question on this 
issue. During this special period in our nation's history, as 
pertains to people who work at these facilities, have there 
been any kind of seminars, special training, advice given 
saying, ``Listen, folks, we all have very deep emotions about 
what happened September 11; however, your job here is to house 
this person the same way you house a member of organized crime 
or someone who is there for selling drugs or whatever. You are 
not supposed to take it out on them''?
    Because what these stories indicate--if it is true, and I 
am just pursuing for a second that some of this is true, just 
for a second, let me assume that--then who is telling some 
folks, ``You have to deal with your emotions. You cannot as a 
guard in this institution assume that that guy was one of the 
people who bombed the World Trade Center where you lost a 
neighbor''?
    Because all of us, there is not a person here--Chairman 
Wolf lost people at the Pentagon, you know, I lost constituents 
and neighbors. So we all might imagine taking certain behavior 
into our hands if we allow it to happen.
    So who is talking to these guards to make sure that they 
know what their role has to be?
    Ms. Sawyer. You are absolutely right, Congressman. When the 
staff at Brooklyn in New York knew that they were going to be 
housing these inmates, number one, we selected the individuals 
who were going to work in these cell blocks that house these 
inmates carefully. We did training with our staff to help them 
deal with the emotional side of things, because there was a lot 
of emotion running rampant.
    We did not just do that at Brooklyn and MCC New York, we 
did it all over the Bureau of Prisons. All of our staff had 
discussions. We had discussions with the inmates across the 
institutions, saying, ``Hey, folks, don't blame,'' because we 
have Arab Americans in all of our institutions for one offense 
or another scattered around. We really very actively went out 
and worked with staff and inmates to make sure we did not allow 
our emotions to overcome our professionalism.
    I guess I would ask you, Congressman, to let our history, 
kind of, help inform this thing a little bit, too. We housed 
all the individuals that were involved in the Oklahoma City 
bombings. We housed McVeigh and we housed the other two that 
were involved. We housed them in Oklahoma, because that is 
where they were held for quite a while. And we worked with our 
staff to make sure their emotions did not get involved and that 
they did it professionally, and there was never an accusation 
of any type of abuse.
    In fact, at one point the individuals were commenting so 
favorably through their attorneys about their care that we were 
afraid we were going to be chastised on the other side by the 
public because we were treating them too nicely. We were trying 
to treat them fairly, as we do every inmate.
    We also housed all the individuals involved in the first 
World Trade Center bombings right up there in New York City. 
One of them went in and stabbed Officer Pepe through the eye 
and has created permanent brain damage for him, and those 
inmates are still at MCC New York. And there are no indications 
of us doing anything untoward these inmates.
    So I guess I am getting a little emotional here myself, but 
I am concerned that our staff, who do a wonderfully 
professional job all the time--I will never say that there may 
not be one individual out there that gets carried away and 
makes a wrong judgment. But I will bet that at the end of this 
investigation it will come out, as with the other inmates we 
have housed that have done horribly heinous things, that our 
staff are able to sort out the difference between their 
emotions and their professional role, and in the vast majority 
of all instances, if not all instances in this case, they have 
behaved professionally. And if they have not, then we will be 
the first ones who want to know about and want to take action 
on it.
    Mr. Serrano. And I just, for the record, Mr. Chairman, I am 
not aligning myself in any way with this article. Just 
concerned that the job you have done in the last few years may 
be tainted by what we are reading, and so we have to get to the 
bottom of it.
    Ms. Sawyer. Absolutely, sir. We agree with you.
    Mr. Wolf. We will recess for about 10 minutes.
    Ms. Sawyer. Okay.
    [Recess.]

                         INMATE CLASSIFICATION

    Mr. Wolf. Mr. Serrano is on his way back, and I am going to 
recognize him as soon as he comes in. But in the interim maybe 
I will just take this time and ask you one other question on 
the classification.
    Can you tell us what security level the some 5,000 inmates 
per year that you expect to absorb will be classified at? And 
could some of these, if it is a low classification--this gets 
back to my original question--be housed in a state prison? But 
what would be the classification?
    Ms. Sawyer. I do not have those specific numbers with me 
here today, but I know it is going to be, kind of, a mixed bag. 
Most of the criminal alien inmates that come in, and where 
those numbers have dropped down somewhat, most of those would 
have been low security inmates. Most of our criminal aliens 
that are just picked up for illegal entry or illegal reentry or 
some of those kind of things, that bulk of that population 
tends to be greatly low. Their sentences tend to be pretty 
short, and they tend to go in low security institutions.
    If you look at our drug and weapons offenders, most of 
those come in because their sentences are longer, oftentimes 
with the weapons offenses, obviously there are weapons 
involved, they tend to be more medium and high security 
inmates.
    Mr. Wolf. So if the bulk would be low, that would make it 
easier?
    Ms. Sawyer. Well, for the low security, in terms of our 
private contracts, we have taken the position that private 
contracts will only place low or minimum security inmates in 
there.
    The mediums and highs we keep in our own institutions. But 
if we look at our state counterparts, who also had years of 
history running correctional systems. We are comfortable 
putting medium and high inmates with state prison systems 
because they have had long years of performance base. And if 
they have a good track record and a good history of managing 
good prisons, we would not be deterred from putting medium and 
high security inmates in state prisons.
    It is just the private contracts--we have tended to try to 
keep those solely low security. Because history shows when they 
have gotten into dealing with higher security inmates, that is 
where they run into some problems with institution 
disturbances, violence, dangerous assaults on staff and 
escapes.

                        NEW PRISON CONSTRUCTION

    Mr. Wolf. Okay. I have a couple more. We will just ask the 
next for the record with regard to that.
    Last year, the committee provided partial site and planning 
funds for four new prisons; based on the downward revision of 
expected inmates, will you still need those facilities? And my 
sense is, with what is going on, you will. But what is the 
status of the projects, and are you going to follow it with 
planning?
    Ms. Sawyer. On the four, we have----
    Mr. Wolf. I will recognize Mrs. Roybal-Allard since she has 
not had a chance, and then we will come back.
    Ms. Sawyer. Okay.

                  DECREASE IN INMATE POPULATION GROWTH

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Dr. Sawyer, welcome. And in response to one of the 
questions the chairman asked about the decrease in the inmate 
population, although it is still continuing to grow----
    Ms. Sawyer. Just a slower growth.
    Ms. Roybal-Allard. Right. You said that right now, that you 
are conducting some kind of a study to see what is contributing 
to----
    Ms. Sawyer. The Department of Justice is----
    Ms. Roybal-Allard. The Department of Justice?
    Ms. Sawyer [continuing]. Analyzing the changes in the 
numbers of immigration cases.
    Ms. Roybal-Allard. Okay, well, then maybe I should be 
asking this of them. But one of the things that I would like to 
know from the study is if the decrease is primarily among the 
male population or the female population, and why that is 
happening.

                              MINT PROGRAM

    Last year, we discussed the MINT program, the Mothers and 
Infants Together program, in which minimum security female 
inmates are housed in contracted community correction centers, 
or I guess somehow also in halfway houses, during the last two 
months of their pregnancy and for three months after their 
babies are born in order to bond with their children. And you 
indicated that this was a successful program, and it is 
administered and partially funded by community organizations 
because the Bureau of Prisons was unable to pay for any of the 
costs associated with caring for the housing of these babies.
    You also said that you were hoping to work with these 
community organizations to try to lengthen the amount of time 
that these mothers can stay with their babies.
    How has this effort been going and were you able to extend 
the length of allowable time under this MINT program?
    Ms. Sawyer. We are expanding the amount of time. We are 
still actively negotiating part of it. We have made the 
decision to go up to at least nine months and possibly longer. 
If an inmate is close to release after the nine months is over, 
if we are getting close, it is just going to be a few months, 
we will be able to extend that time really and carry them out 
until they are going to be released from our custody.
    We are still working out some of the final details, but all 
of the indications from the contractors who are providing the 
beds and where the money is coming from for the babies all seem 
to be working out just fine. So we believe we are going to be 
able to expand those times.
    We are also loosening a little bit our criteria for getting 
in. We are pretty restrictive, in that they have to have 
community custody and this individual has to be able to go out 
into the community. We were going to back off a little bit on 
those parameters to see if we cannot get more numbers, not only 
for a longer period of time, but more numbers of the women to 
be eligible to go out into those facilities also.
    Ms. Roybal-Allard. You mentioned that you are looking into 
possibly expanding it into higher risk inmates.
    Ms. Sawyer. We really have been studying this a lot, and 
sometimes we have studied things a long, long time, and it 
takes a while to make them happen. We have been working very 
carefully with a number of the state prison systems now, just 
in the last couple of years, that have been developing more and 
more programs where they allow the inmate, even if it is a 
higher security inmate, to have the baby inside the prison 
setting. They have the baby in the hospital, but they bring it 
back into the prison setting.
    And they are enabling them to keep that baby with them for 
up to three years, which seems to be the maximum length of 
time. Some allow them to keep them up to 18 months, some two 
years. But the maximum seems to be three years.
    If an individual is going to be released within that three 
years, they are allowing them to actually keep the baby inside 
the prison with them while they are serving out their sentence, 
even in a higher security institution. Now on the one hand, 
that makes us very nervous in the Bureau of Prisons to have 
babies in prison; there are a whole lot of reasons why that 
causes concern. But a couple of states, Nebraska, Washington 
state and Ohio are now beginning to look at it, and they are 
having some good success with it.
    So our first attempt was to see if we could buy some beds 
in those facilities, because our women come from all over the 
country. And if we just do a program in one location, then it 
really narrows the number of women that can be involved.
    We were working very hard to see if we could buy some beds 
from California, which has some good programs, and from New 
York. And it looked as though they were going to let us buy 
some beds, but then their numbers went up. And they filled 
those programs with their own inmates, and now we cannot buy 
any of those beds. So we are back now to looking at trying to 
create such a program in one of our own facilities. We are 
first looking at a contract facility that may be coming on-line 
for us in Philipsburg, Pennsylvania. It was part of the D.C. 
Revitalization Act; we were asked to privatize so many of the 
D.C. inmates.
    We were going to put the females there. If that contract 
becomes a reality in the next several months, we are looking to 
perhaps put that program there. If that does not work, then we 
are looking to develop it within our own Bureau of Prisons.
    And no question, we have some real mixed feelings about 
babies inside secure prisons. And there are a lot of 
precautions you need to build in the facilities. But Nebraska 
seems to be doing very well with their program, and California 
has done it for a while.
    So we are going to have it happen one way or another, 
whether it is through a contract or doing in our own 
institution. It will be happening in the not too long-off 
future.
    Ms. Roybal-Allard. Is there anything that we can do as 
members of Congress to help in terms of this type of program?
    Ms. Sawyer. Probably as much as anything is just supporting 
it. You know, you can, if you feel favorably about it, support 
it as you talk with community groups or whatever.
    The biggest problem for us is that we are not able to spend 
any of our dollars on the children. And that is okay. I 
understand that our budget is to handle the inmate population.
    But we need community groups who are concerned about women 
that are in prison, that are concerned about the babies, that 
are concerned about the fact that these children of inmates 
oftentimes become inmates of the future. We need them to stand 
up and do more that just support it with words. They need to be 
able to support it financially. Because one of the problems for 
us is that if the state runs the program, the Medicaid and the 
child costs would have been paid in that state, by the state, 
to house the child. If it is a federal inmate, and a federal 
child, we may be wanting to put that inmate with the mother, in 
our prisons in West Virginia, and the baby is from Ohio, so 
Ohio will not pay for that child. West Virginia does not want 
to take responsibility for the child.
    And that is when you need, then, some of these community 
groups out there who, you know, decry the plight of these 
babies, but need to step forward, being willing to really, in 
some material way, be able to help out. And so far, that has 
been coming through fairly well. But I think just your vocal 
support of these kind of programs enables us to have people 
step up to the plate and to be able to provide some assistance 
with the children.
    Ms. Roybal-Allard. Yes, and I think a lot of that support 
comes, actually, from the success of the program.
    Ms. Sawyer. Exactly.
    Ms. Roybal-Allard. So if you continue to provide us with 
information that shows how successful the program has been, and 
what it has meant to the mothers and to the child as well, I 
think that would be very helpful in being able to advocate for 
this type of program.

                      SENTENCING OF FEMALE INMATES

    On the topic of women inmates, two years ago, during your 
testimony before this subcommittee, you said that ``70-some 
percent of the female prison population are low-level 
nonviolent offenders,'' and that ``the fact that they even have 
come to prison is a question mark to me.''
    Has the percentage of low-level nonviolent female prisoners 
changed in the past two years, and if not, do you think that 
Congress should examine sentencing reforms that would address 
the incarceration of so many women who fall into this low-level 
category?
    Ms. Sawyer. The elements that you quoted there have been 
used in different contexts from my testimony over the last 
couple of years, and I have taken a little bit of heat for 
those comments. I guess I would like to provide the broader 
context, especially the one when I said is a question to me.
    And my comment is that, prior to the sentencing guidelines 
and the mandatory minimum sentencing, a lot of those women, you 
know, 10 years ago, would have gotten probation for the 
offense.
    And so my comment, in terms of it, is that, not too many 
years ago, their offenses would have led to probation. With the 
changes in sentencing guidelines, changes in mandatory 
minimums, they resulted now in getting, some of them pretty 
substantial sentence lengths. And so that was the question that 
I had of jumping all the way from probation to some pretty 
hefty sentences.
    I think there has not been a dramatic change in those 
numbers. We may have seen a lessening somewhat from that 70 
percent. And partly where my numbers came from is that we only 
have two classification levels for females anymore. One is 
minimum security, which means that there is absolutely no 
violence in their history for the most part, and they are very 
low-level. And then low-security inmates that still do not have 
a lot of violence in their records.
    We have a very small percentage of our female inmates that 
really have a significantly violent history. And so the largest 
percentage of our female offenders still are relatively low-
level by sentencing guideline standards. And also, for the most 
part, involved in nonviolent offenses. And I would say that has 
not changed a whole lot.
    Ms. Roybal-Allard. If you had to provide us----
    Ms. Sawyer. We can get you the absolute numbers, yes.
    [The information follows:]

                        NUMBER OF FEMALE INMATES
------------------------------------------------------------------------
                                                         Minimum & Low
            Fiscal Year               Female Inmates        Security
------------------------------------------------------------------------
1999..............................              8,663        7,546 (87%)
2000..............................              9,227        7,953 (86%)
2001..............................              9,182        7,709 (84%)
------------------------------------------------------------------------

    Ms. Roybal-Allard. Thank you.

                              BOP OVERTIME

    The Board of Prisons fiscal year 2003 request for salaries 
and expenses is approximately $4.08 billion, which is a slight 
increase over the 2002 appropriation of $3.8 billion, and only 
a very slight increase over the current service baseline 
figure.
    I am sure you share my concern about federal prison 
overcrowding, and you addressed that earlier, and particularly 
its effect on federal correctional officers. In fact, 
correctional officers in California have expressed concerns to 
me about the funding problem in the Bureau of Prisons' overtime 
accounts. And they tell me that in 2001, overtime funds at some 
correctional facilities actually ran out in April, and that 
they expect the same kind of thing to happen this year. And the 
only way that they were able to get paid was by the bureau's, 
you know, pulling money from different places in order to pay 
them. Will the $4.08 billion that you are requesting for 
salaries and expenses in this coming fiscal year be enough to 
cover all your anticipated expenses including the overtime?
    Ms. Sawyer. Yes. If we are able to get the amount of money 
that we are requesting, then we should be in pretty good shape.
    The concern that happened last year was that last year, as 
you may recall, we talked about the utilities issue, and our 
utility bills ran $40 million more than we expected. And we did 
not have anywhere to go for that $40 million except to dip into 
our operating budget, which caused that money to have to come 
out of salaries and expenses, which ran us much shorter in that 
area than we had had before.
    With this fiscal year we are in right now, we did not get 
the full amount of the president's budget. We took a $21 
million cut before we actually received our funding for this 
fiscal year. We also then had to absorb $11 million of extra 
cost that came out as a result of 9/11 with a lot of extra 
security issues, a lot of extra overtime for staff. Two of our 
institutions were right next to the World Trade Center, and so 
they had a lot of extra expenses incurred.
    So, since we started out $21 million short, we took $11 
million extra expenditure on account of terrorism thus far this 
year--and we are not even complete with the year--and then we 
also had to absorb $17 million for the pay raise. You know, we 
were budgeted for 3.6 percent, the pay raise was 4.6 percent, 
and we had to absorb that $17 million.
    Now, I know part of that was assuming that we were going to 
have a $15 million carry-over from last year, and we only ended 
up having a $4 million carry-over. So coming into this fiscal 
year, we are, kind of, at this point, in about a $49 million 
shortfall. And so, again, the only place we have to dip is into 
some of our salary monies.
    So, again, for the 2003 budget, if we are able to get from 
the appropriations what we are asking for, and nothing 
extraordinarily unusual occurs that causes us to have to dip 
into that budget, then that should be sufficient for us to 
cover our salary costs.

                SEXUAL ABUSE OF INMATES BY PRISON STAFF

    Ms. Roybal-Allard. Another area of concern is the problem 
of sexual abuse----
    Ms. Sawyer. Yes.
    Ms. Roybal-Allard [continuing]. Of inmates by prison staff. 
And last year we discussed some new procedures that were being 
instituted by the bureau, and they were designed to increase 
reporting of sexual abuse and misconduct and to appropriately 
deal with those kinds of allegations.
    Can you tell the committee if these procedures have been 
actually successful in addressing this problem?
    Ms. Sawyer. They certainly seem to be. And I never want to 
be too idealistic, in terms of looking at numbers.
    We had 22 sustained allegations in 2000 for sexual abuse. 
Now, 10 of those were contractors. They were folks that worked 
in contract facilities, but they were our contracts and so we 
are responsible for their conduct. And 12 of those were our 
staff. In 2001, that dropped down to 14 sustained allegations.
    Now, before I get real excited about that dramatic drop, I 
think it certainly is somewhat representative of the actions we 
have taken and the systems we have put in place to better 
inform the inmates that they should never tolerate such 
advances and they need to let us know right away when something 
occurs so that we can act on it very aggressively. We have 
educated staff all the time, over and over again, about the 
consequences of them getting too close to inmates or attempting 
to take advantage of the inmates. And if we learn of any 
problem, we have it aggressively investigated, and if it is 
found to be true, then we go after prosecutions right away.
    The number dropped from 22 to 14 sustained allegations, and 
from 9 to 7 convictions in one year, but I know that that is a 
little bit of an inflated decrease, because there were some 
other cases that the U.S. attorney chose not to prosecute. Or 
there were some who were plea-bargained down to a much lesser 
offense, and so they could do some other kinds of thing as a 
consequence rather than getting a charge on their record.
    So I think it is still more than 7 prosecutable cases that 
occurred in 2001, but I think the numbers are getting better. 
And I think not only do the staff fully understand what the 
consequences are going to be, but we also work with a lot of 
those staff whom we realize we are placing in very vulnerable 
positions. For the officers on the midnight shift, the only 
ones they interact with all night long are inmates. And some of 
these abuses really are relationships that develop where there 
is actually a caring there, but because of their role as a 
correctional staff member and these inmates being wards of the 
Bureau of Prisons, it is still an illegal action for them to 
get involved in any relationship.
    So we have tried to do some things in terms of really 
reaching out to those staff whom we realize are in vulnerable 
posts to try to strengthen them to realize that they cannot 
allow themselves to slip into these kinds of involvements.
    We have been doing a lot of things, and I think it is 
having an impact, but the numbers are not pure enough for me 
yet to really measure what the absolute impact has been.
    Ms. Roybal-Allard. Can you provide us with the number of 
actual allegations?
    Ms. Sawyer. Yes, we can.
    [The information follows:]

                 ALLEGATIONS OF SEXUAL ABUSE IN PRISONS

    During FY 2001, a total of 149 allegations of inappropriate 
sexual behavior by staff were reported, including verbal and 
other sexually suggestive behavior. As of March 30, 2002, 
fourteen allegations were sustained (7 Bureau of Prisons staff; 
7 contract staff).

    Ms. Roybal-Allard. Okay, thank you.
    Ms. Sawyer. We can give you allegations sustained and how 
many ended up in convictions.
    Ms. Roybal-Allard. Okay.
    And also, right now you mentioned that some of these 
allegations of misconduct had to do with contractors.
    Ms. Sawyer. Yes.

                     STANDARDS OF CONTRACTOR GUARDS

    Ms. Roybal-Allard. Now, how are the guards of these 
contracted companies reviewed? You know, do they have to follow 
your standards in terms of these guards, or do they have their 
own standards and you play no role in that?
    Ms. Sawyer. It is kind of a little bit of both. We do 
require them to have NCIC checks to make sure there is no 
criminal background. We require certain types of training and 
understandings of some of the areas that could be troublesome 
for them, and this is one of those.
    But I cannot say that they do exactly the same kind of 
training that we do or that they do things exactly as we do. We 
give them a little bit of liberty in the contracts to maybe do 
things better than we do, and use their own initiative.
    But we also hold them to the same base, minimum standard, 
in terms of no history of such occurrences. And they do NCIC 
checks to make sure there is no criminal behavior in their 
backgrounds.
    Ms. Roybal-Allard. Because I am just wondering, if we start 
to see a trend where guards that are contracted have higher 
rates of abuse, you might want to look at that.
    Ms. Sawyer. Absolutely. If we see a pattern where we are 
seeing them occurring in some settings versus others, then we 
would definitely go after those contracts.
    And we monitor the contracts on site all the time, but if 
we see patterns occurring where it seems to be happening more 
often in one location than another, then we would very 
definitely go and try to have them improve what they are doing 
with their staff, either in the selection process or the 
training process, to try to address the concern.

                        TELEPHONE USE BY INMATES

    Ms. Roybal-Allard. The 300-minute per month limit on 
telephone calls takes a particularly hard toll on prisoners who 
are housed so far from their families that routine visits are 
sometimes almost impossible. And it is especially hard on women 
prisoners who receive far fewer visits than men and maintaining 
ties to their children and their family even more difficult. 
And it is well-known that prisoners who maintain family contact 
are at lower risk for trouble while they are being 
incarcerated.
    Given this fact, can you explain why the time limit is in 
place and if we are not punishing all prisoners because of the 
abuses of some?
    Ms. Sawyer. Yes. That is a very good question. We moved to 
the 300-minute time limit on one hand to deal with concerns 
about inmates abusing the telephones and getting involved in 
illegal activity on the phones. We monitor phone calls, and we 
tape all the phone calls. We are required by the inspector 
general's office to monitor a fair proportion of those. And 
with the volume of inmates, if they were allowed to make 
unlimited numbers of phone calls, then it would be just an 
extraordinary drain to stay on top of enough of those to keep 
illegal activity from occurring.
    We looked at the numbers of minutes inmates made phone 
calls. And we found that the vast majority of our inmates--and 
I believe it is like 75, 80 percent of them--already made 300 
or less minutes of phone calls already. They did not make calls 
of more than 300 minutes; even though they had an unlimited 
amount to make, they only made 300 minutes or less. And so, we 
went with a number that we felt was going to enable us to cut 
off some of the huge numbers of calls that put a drain on us 
for monitoring, but really knew we were going to be able to 
accommodate the vast majority of the inmates with the same 
amount of minutes or more than they had already been calling. 
So the number affected was really a relatively small 
percentage.
    Some of those in that upper percentage were extraordinary 
users. They were on the phone much of the time to the point 
that they were preventing other inmates from getting access to 
the telephone. And what really made that clear to us was when 
we made the announcement at some of our institutions in town 
hall meetings that we were going to cut back and limit all the 
inmates to 300 calls, in some of the institutions the inmates 
applauded. And so, what that said to us was there were even 
more people hogging the phone than we had thought. And that by 
going to a 300-minute limit, it had allowed every inmate to 
have access to their 300 minutes or there had been some making 
a whole lot more phone calls and a lot making less.
    Now, we know there are concerns about the female inmates 
and them having access to their children. So we said to some of 
the folks that raised that issue with us that, we would watch 
the phone patterns of our female inmates. If there were nowhere 
near the preponderance of phone abuses occurring among female 
inmates, that that was primarily a male issue, then we would go 
back and reconsider raising that 300-minute limit with the 
females.
    Well, we were really surprised to find that there were just 
as many phone abuses. Now, not to the point of the illegal 
stuff where they were doing drug trades, but there was a lot of 
three-way calling, a lot of abuses of phone access and all of 
that.
    And so, until we can honestly say that there is a gender 
difference here or that we can carve out some portions of the 
population to make sure we are not punishing all for the acts 
of a few, we have not figured out the way yet to carve that 
out, but we are still looking at that critically to see if 
there is some way to balance that somewhat.
    Ms. Roybal-Allard. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Serrano.
    Mr. Serrano. Thank you. I am going to have to be leaving a 
little early, Mr. Chairman. I think Ms. Roybal-Allard will 
also. We have a very important meeting to go to; not as 
important as this one, but it's just timing.

                                 HIRING

    So I am going to combine a couple of questions here. On the 
issue of hiring, minority hiring and hiring in general, could 
you tell us what progress you are making in hiring qualified 
detention officers and other professional staff? Also, what are 
you doing in the area of reaching out to minorities to continue 
to improve on the progress you have made?
    And lastly, just about every agency has been getting some 
dollars in supplementals since September 11, and yet it has 
been noted that you have not been included in the 
counterterrorism initiative, if you will, at that level. So 
with other folks getting dollars to hire new personnel, we 
understand a bidding war has erupted at the federal level. Is 
that affecting you also?
    So what are you doing about hiring minorities, what are you 
doing about hiring in general, and are you losing people to 
other agencies under these new dollars?
    Ms. Sawyer. Okay. First, the question on minorities: We are 
doing pretty well. We can always do better. We always strive to 
do better. If we just match our numbers for a moment, for 
African-Americans, for example, 21 percent in our work force 
are African-American. And if you match that to the United 
States work force in 2000, there were 12 percent African-
American. So we actually have more African-Americans in our 
system as staff than are in the total work force.
    For Hispanics, we have 11 percent in our system that are 
Hispanic. And if you match that to the work force, it is 12 
percent. So we are running a little low there.
    And we continually do everything we can possibly do to try 
to attract minorities into our system, partly because diversity 
is essential to us in terms of being the right thing to do in 
our country.
    The other issue for us is, that we believe staff in the 
institutions need to match the population that the inmates are 
coming back to and that the inmates come from. And they are 
very diverse communities that our inmates are coming from, and 
so our institution staff should represent that same diversity.
    We also, unfortunately, have a larger preponderance of 
minority inmates in our institutions as inmates than are 
represented in many of the communities, too. And so we feel 
that just sticking to the work force numbers is not adequate 
for us. We need to fall somewhere between matching the number 
of minorities in the work force and the number of minorities 
that exist in our institutions, so that we are very 
representative and there is a real cultural understanding and 
an identification of staff with inmates.
    And, as I say, I think we are doing relatively well. It is 
never good enough. We always strive to do better. And we are 
very closely aligned with the NABCJ, National Association of 
Blacks in Criminal Justice, with the NAACP on the African-
American side.
    We work very closely with LULAC. We are great partners with 
LULAC and have been for many years. And they assist us in any 
areas that we are missing, in terms of recruitment.
    We work with FAPAC on Asian-Pacific Islanders trying to 
attract more in that area.
    We go to schools that are heavily diverse, in terms of the 
college population. And we will take any suggestions that 
anybody has of any place we are missing, because we really try 
to be as diverse as we possibly can for multiple reasons.

                        COUNTERTERRORISM FUNDING

    On the counterterrorism thing, you are right; we have not 
gotten any money in the counterterrorism budget. And although 
on one hand we feel, you know, that is not fair, we have been 
left out, we have needs, too. But on the other hand, we also 
know that there are a whole lot of folks, and much more demand 
out there for funding in this area than exists. So our requests 
have not made it to the top of the list just yet.
    We have taken some significant hits, in terms of what the 
counterterrorism effects have cost us. As I indicated, since up 
until March of this fiscal year we have spent $11 million extra 
on effects of 9/11, and we have not gotten any monies to offset 
that; much of that is salary money, in terms of overtime and 
extra security we have had to put in place. We have some 
equipment things we would like to put in place. We would like 
to intensify the security around our institutions that are 
housing some of the terrorists.
    So we do definitely have needs, but we understand that lots 
of other folks have needs too and ours just have not quite 
floated to the top yet. And we hope that they will get there at 
some point.
    Mr. Serrano. If I may interrupt you and just suggest to the 
chairman he and I work very closely together on these issues--
that perhaps we should look at the fact that they are an agency 
that has not been reimbursed for taking a financial hit during 
this period of time.
    Ms. Sawyer. And in terms of numbers of staff, sir, we have 
lost 262 of our staff to the Air Marshal Program, which is a 
pretty good number.
    Mr. Serrano. How many?
    Ms. Sawyer. Two hundred and sixty-two to the Air Marshal 
program. In addition, 400 of our staff have been called up to 
active duty who were in the Reserves.
    Mr. Serrano. Four hundred?
    Ms. Sawyer. Four hundred. So we have had to cover the 400 
with a lot of overtime. We have had to come in and replace the 
air marshal folks that leave us, and that is somewhat of where 
that $11 million comes in.
    Mr. Serrano. Pretty high number, 400.
    Ms. Sawyer. Yes, it is. Yes, it is.
    We have approximately 2,000 of our staff who are 
reservists. And of that 2,100, 400 have been called to active 
duty.

                      EFFECTS OF 9/11 ON RESOURCES

    Mr. Serrano. But what I was suggesting, Mr. Chairman, was 
in any supplemental that may show up we would probably have a 
little more freedom to suggest numbers than we do in our 
regular budget, and I think it would be a fair thing to do.
    Is there anything being done or has anything been suggested 
to agency heads, such as yourself, as to how to deal with the 
fact that this bidding war has started amongst agencies? 
Because this is going to go on for a while. Certainly out of 
this tragedy positions are going to be available that are, 
within the whole painful situation, sexier than others, even 
some that may be seen as a growth-type situation, and everybody 
is going to get hit hard.
    Has anyone had any meetings with agency heads agreeing that 
we have to deal with that so certain agencies do not get eaten 
up? Because I can see where you would be hit harder than a lot 
of other folks.
    Ms. Sawyer. There is certainly a lot of discussion going on 
at the Department of Justice, and I think one of the things 
that happens with us, is when we see, as a result of 9/11, a 
large increase in federal law enforcement, there is a little 
bit of a lag time before we actually feel the impact of that.
    Now, we are feeling some impact now with overtime and 
increasing our own security and losing folks to air marshals. 
But when the fruits of the labors of all of these new law 
enforcement personnel that are now being placed out there, we 
feel the fruits of that labor a little later on. By the time 
they are apprehended, convicted, prosecuted, when they come to 
us, it is usually a year or so later.
    So we envision that we may see some of this impact a year 
or so from now in terms of all these new law enforcement 
positions being placed out there. Some of it is going to be 
preventive, preventing bad things from happening, but some is 
obviously going to be apprehending and convicting the bad guys.
    And so we envision that the real bulk of our workload that 
is going to be driven by 9/11 is probably going to come about a 
year after all these resources kick in gear. So you may be 
seeing us come back next year at this time with a much clearer 
indication of what the impact of all of these current resources 
going out there, what the impact will be on us.
    Right now we simply need help in covering those costs that 
we have had to spend that we were not anticipating this year 
that were the result of September the 11th.
    Mr. Serrano. Well, that said, Mr. Chairman, I have to run 
now.
    I want to just thank you for your testimony, and wish you 
the best of luck in your job.
    Ms. Sawyer. Thank you, sir.
    Mr. Serrano. And we will certainly try to make it as easy 
as possible.
    But I do note, Mr. Chairman, that on our side you will not 
be left alone. The legendary Patrick Kennedy will be here, 
legendary in his own right and in his legendary family.
    I should take a moment to say that, if it were not for his 
family, I would say about 80 percent of Latinos who are in 
politics today would not be in politics. It was their vision 
and their work that inspired us to enter politics. So if you 
want to blame somebody, that is the guy right there. 
[Laughter.]
    Thank you so much, Mr. Chairman.

                        NEW PRISON CONSTRUCTION

    Mr. Wolf. Before I recognize Mr. Kennedy, let me go back 
and finish what we had before I recognized Mrs. Roybal-Allard.
    Do you remember the question? Let me just read it to you 
again.
    Last year the committee provided partial site and planning 
funds for four new prisons. Based on a downward revision of 
expected inmates, will we still need the facilities?
    Then we were talking about being in the same position as 
the states.
    Then we said you were also requesting $66 million to begin 
construction of a medium security facility down in the South. 
We realize that you have already expended funds to go through 
site selection and design, but do you really think you need the 
facilities given the excess state capacity?
    Ms. Sawyer. On the preliminary site and planning money on 
all of those, we are continuing to go ahead and explore the 
sites for potential use down the road. We will never come back 
in here and ask for any construction money on those unless we 
have exhausted all the state possibilities and the private 
possibilities out there, and only if our population, you know, 
continues to move skyward.
    But the site and planning money--I think it is about $5 
million for each--gives us a chance to keep a pool of possible 
sites out there, do some initial work of looking at what sites 
might be available to us. We are going to go ahead and continue 
that work just to make sure we have those ready should we need 
the construction down the road. But you will not see me back in 
here asking for any construction dollars on those unless I can 
absolutely demonstrate to you that the need is there.

                       FEMALE INMATES WITH BABIES

    Mr. Wolf. Okay. Before Mr. Kennedy, two other questions 
that Mrs. Roybal-Allard asked.
    On the babies, what are the number of female inmates who 
have babies, that category that you were talking about with 
regard to having them in the prison? What would the number be 
if you were to enable that?
    Ms. Sawyer. It really varies year to year, because it just 
depends upon how many come in pregnant in the front door, 
because these are only about babies----
    Mr. Wolf. No, I understand that.
    Ms. Sawyer [continuing]. That get impregnated before they 
come in the front door. We should not have any others.
    In 2001, for example, we had 154 babies born while the 
inmate was in our custody. In 2002, to date, we only have 43. 
And so if that continues out this year as it did, it will be 
about 80-some. So it is almost half. So it really varies a lot 
year to year, but I would say you can always depend on us 
having somewhere between 50 to 200 at any time, and an average 
is probably about 75.
    Mr. Wolf. And what is the cost per child? I guess that 
depends if it is an infant versus 1-year-old or 2-year. I mean, 
what is the average cost?
    Ms. Sawyer. I honestly do not know the cost per child, 
because we really do not get involved in the cost of the baby. 
That really is worked out with the contractor and the funds 
they can get from outside.
    Mr. Wolf. Does Prison Fellowship participate in that or do 
any of the churches?
    Ms. Sawyer. I do not think they are involved. Well, there 
are churches involved, but I do not think specifically Prison 
Fellowship. There are some religious groups that get involved 
and assist there for sure.
    Mr. Wolf. Well, I think there is merit at that initial age 
with regard to the bonding that takes place.
    Ms. Sawyer. Yes.
    Mr. Wolf. The bonding actually begins immediately upon the 
first breath.
    Ms. Sawyer. Yes.

                       SAFETY OF BABIES IN PRISON

    Mr. Wolf. And knowing the history of generation after 
generation, to just rip the baby away and not sure where you 
are going to put it, it does not make sense.
    What is the concern of doing that? I know it is cumbersome 
perhaps, but you said it is a difficult, divided issue.
    Ms. Sawyer. Well, the idea of having babies in prison, 
because you have, you know, other inmates in prison. You know, 
they have a prison setting, and we have a lot of concerns for 
ensuring that we can keep the baby safe.
    Take the Nebraska system, for example, that has a program 
that we really look at very favorably. The inmates that have 
the baby, the mothers, are still required to go to school and 
to work just as if they were out in the community. And they 
then train a cadre of child care workers who the mothers then 
basically have to hire one of these other inmate child care 
workers to provide care for the baby, much as you do on the 
outside. So it is a very real-life kind of an environment.
    But, you know, we have to make sure that the ones who get 
into the child care program are good inmates and are not going 
to do anything negative.
    Mr. Wolf. Sure.
    Ms. Sawyer. And you do not want to have the babies in a 
real restrictive environment, they need to be out and get fresh 
air and play outside, especially if they get up at 2 and 3 
o'clock and run about. You want them to have a relatively 
normalized environment, but you are in a setting where you have 
a lot of other inmates, some of which you do not want to have 
contact.
    Now, minimum security is not as troubling. Halfway houses 
are even less troubling. It is when you get into the secure 
facilities. And there you get into the rub, too, in terms of 
the bonding thing, because if I am going to allow you to keep 
your child for the first three years, but you have 10 more 
years left on your sentence, well, after that three years, when 
they have really bonded closely to that mother, they are going 
to have to leave and go out and be with somebody else for the 
next 7 years or 10 years.
    And what best serves that child? Is it best that they have 
bonded to a mother whom they are not going to be able to be 
raised by? And that is one of the dilemmas that everyone is 
dealing with.
    And so all of the programs right now, none of them enable 
the mother to keep the child beyond 3 years of age, and so most 
of them are limiting the involvement in the program to women 
who only have sentences of about three to five years left to do 
after the baby is born.
    So it just gets real complicated. We want to do what is 
best for the baby, and there are a lot of different opinions 
about what that right answer is, and we really continue to 
research it and try to get the best information that is there 
on what is best for the child.
    Mr. Wolf. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman.
    It is fascinating to me that there is not, kind of, more 
definitive research on just what is the best thing for a child 
in terms of the development of that child and what we know now 
about a child's development, emotionally, socially and 
cognitively.
    It seems to me we have a big problem in our country, too, 
with overnight placement in these. My state is being sued by a 
child protection officer because we have an excessive number of 
overnight, you know, placements for kids in the foster care 
system that are being bounced around, one after the other.
    And our ``policy'' about reunification and so forth is 
cumbersome in that process, because children are brought back 
with family and then ripped away and brought back.
    And I see it as a major problem, that we do not have--and, 
you know, this is a much broader issue that comes to my other 
committee, HHS. But it would seem to me that science should be 
shared with you as to what is best, in other words, whether you 
let the child bond with the parent initially or whether you 
have a permanent adoption or something of that sort. Because, 
you know, these children are the ones that we have really got 
to worry about at that point.
    And in any event, I am just concerned that we do not have a 
better social policy, in terms of these things, because right 
now kids are getting bounced around and we know it cannot be 
good. But why we do not have a more definitive policy, I am 
troubled by.
    So maybe we could talk some more later on----
    Ms. Sawyer. Yes, sir.

                       REHABILITATION OF INMATES

    Mr. Kennedy [continuing]. About what might be available, 
what you could take advantage of that may be available to HHS 
with our foster care system and stuff like that.
    But I know that your system often gets dramatically 
different results from the states' system. And I would like to 
have you comment maybe on what it is that you think the basic 
differences are between their systems. Because in terms of the 
result of successful rehabilitation, it seems you have a much 
better record. Maybe you could comment on that.
    Ms. Sawyer. The thing is, it is, kind of, difficult when 
you contrast us with the states, because when you say ``the 
states,'' there are 50 of them. And some of them do an 
extraordinarily good job in terms of rehabilitation, if you 
will, or habilitation and preparing inmates for release, some 
of them do an outstanding job. Then there are some that, 
because of resource issues or philosophy issues or whatever it 
might be, do a not-so-good job. And there is a whole lot in the 
middle there.
    Mr. Kennedy. Right.
    Ms. Sawyer. So it is hard when you contrast us with the 
states, because you have a real mixed bag of states. Some of 
them do very, very well.
    But in terms of, I think, what we do that does have a good 
impact, we absolutely embrace our programs. And the three areas 
that have been shown by research to have a direct relationship 
between criminality and our inmates: one is education, one is 
work skills development, and the third one is drug treatment. 
And we emphasize those very strongly.
    Any inmate that comes to us that does not have a GED or a 
high school diploma, they are mandatorily required to be 
involved in education for at least 240 hours. And then we allow 
them to choose whether they are going to stay longer.
    And that is one of the rubs in prison; You can make inmates 
do anything you want to make them do, but on the street, they 
have to make decisions for themselves. So we try to balance how 
much we mandate of them and how much individual decision-making 
we, kind of, put upon them to be responsible and make good 
decisions.
    But education is very critical. We have lots of other 
vocational training programs and work development programs. It 
is the second area that is so critical. Our Federal Prison 
Industries program is our absolute most critical program in 
terms of developing good work skills.
    In our Prison Industries program, researchers track inmates 
for 12 years after they get out of our Prison Industries 
program, and find that they are 24 percent less likely to 
recidivate if they have been through the Prison Industries 
program and involved in vocational training than if they had 
not.
    And these are not just the good inmates. We do not cream 
off the best to put in Prison Industries. It is open to all 
inmates.
    And the third area is drug treatment. Our Residential Drug 
Treatment program was designed with the National Institute of 
Drug Abuse to look very carefully at what programs on drug 
abuse have a positive impact.
    We have developed, I think, a state-of-the-art cognitive 
restructuring program that really gets into how inmates think, 
how they approach the world around them, how they make 
decisions, what their values base is. And our Residential Drug 
Program is having a significant impact.
    And then, in addition to those three that research shows 
are directly related, we offer a plethora of other programs to 
try to deal with issues that might be more directly related to 
the inmate. We provide parenting skills for every inmate that 
we have. We provide trauma programs for all of the female 
inmates who have experienced trauma in their lives. And that is 
a major, driving force for a lot of the female inmates. We have 
anger management programs, social development programs. We have 
programs that address those inmates who are lower functioning; 
they are not exactly retarded or not mentally ill, but they are 
just, kind of, like borderline cases, and they can easily get 
lost in a big prison system. We try to focus on those very 
specifically.
    I mean, we take our responsibility very seriously that what 
we are supposed to do is provide a safe environment while we 
have them, and then send them back out into the community truly 
better prepared to live law-abiding lives.
    We are not perfect. We do not touch them all in the way we 
would like to. We do not have enough resources to do everything 
we would like to do. But I think we do a very good job with 
what we have available to us, to really try to touch as many 
inmates as we can in a positive way.

                   RESIDENTIAL DRUG TREATMENT PROGRAM

    Mr. Kennedy. Could you maybe go through what percentage of 
the prison population you touch through the education, 
vocational and substance abuse programs--that are in need, not 
overall population, but the population in need?
    Ms. Sawyer. For substance abuse, I have those numbers with 
me. I do not have the others, so I will have to answer those in 
a little more generalized terms, and I can get those numbers to 
you.
    Substance abuse: In 2001, we had 15,000 inmates go through 
the Residential Drug Treatment Program, 10,000 went through our 
non-residential drug program, 17,000 went through drug 
education. That is when they first come in the front door, we 
require every inmate to get at least 40 hours of education if 
there is any indication they have had any drug use, to try to 
encourage them to get involved in drug treatment.
    Now, to say how that matches up to need, of those 15,000 
that took the residential program, we are actually mandated by 
Congress that any inmate that comes to us that has a drug 
treatment need, as we diagnose them in terms of their substance 
abuse need, we are mandatorily required to place them in 
residential drug treatment.
    Now, we allow the inmate to voluntarily opt to get in or to 
not get in, and we encourage, we nudge, we cajole, we provide 
lots of incentives and disincentives to get them in. Ninety-
three percent of all those inmates with a substance abuse 
need--we get them through drug treatment before their release 
from the Bureau of Prisons.
    Now you will sometimes see a number that says, the Bureau 
of Prisons has 70,000 inmates who need drug treatment, but only 
15,000 of them are going to get treatment this year. Well, that 
is because we focus our treatment at the end of their sentence. 
To do the treatment when they first walk in the door and they 
are not going to get out for 10 years, they are not getting the 
treatment when they need it most. And that is when you are most 
vulnerable.
    We focus the treatment on the last three years of your 
sentence. And our goal is that every inmate who has a need gets 
drug treatment before they walk out the door. And so we succeed 
93 percent of the time, and the others are those who no matter 
what we have tried to do either drop out or they fail the 
program, or just do not complete it.

                     RECIDIVISM POST DRUG TREATMENT

    Mr. Kennedy. What is the reduction in recidivism?
    Ms. Sawyer. Fifteen percent are less likely to be 
rearrested if they go through the drug treatment program, than 
if a like inmate who has a similar history does not go for the 
drug treatment program.

                         EDUCATION FOR INMATES

    Now, for education, again, any inmate who comes in has to 
go through GED for at least the first 240 hours, and there 
again we target our emphasis on making sure--we do not have 
enough resources to put every inmate in class at this moment.
    Mr. Kennedy. Right. Right.
    Ms. Sawyer. But our target is to make sure we get them 
increased educational skills by the time they are released. And 
our result rate, I would say, is pretty close to our drug 
treatment rate. And we can get you the exact number. It is 
probably close to about 90 percent who need a GED and who can 
get one.
    [The information follows:]

  Inmate Participation in Drug, Educational, Vocational Training, and 
                             Work Programs

    Approximately one-third of sentenced Bureau of Prisons 
inmates participate in education and vocational training 
programs. During FY 2001, 100 percent of all eligible inmates 
(15,441) enrolled in residential drug treatment programs. 
Nearly 25 percent of eligible inmates worked in Federal Prison 
Industries (UNICOR).

    Ms. Sawyer. There are some inmates no matter how hard they 
work, they may not ever achieve the GED. But as long as we can 
raise their skill level somewhat and give them the kind of 
survival skills they are going to need to make it on the 
street, we try to emphasize those.

                    VOCATIONAL PROGRAMS FOR INMATES

    And then in the work skills program, again since we have 
Prison Industries, and add to that our vocational training and 
our own training programs with the plumbers and the 
electricians and the inmates who work those jobs, we touch a 
fairly good number. Probably I would guess about 50 percent of 
the inmates have access to some real work skills development 
program.
    Some who come in do not need it. I mean, some are white-
collar offenders who are very accomplished and do not need us 
to teach them work skills. But I would say we probably touch 
about 50 percent.
    Mr. Kennedy. But those that do not, you do not require 
them.
    Ms. Sawyer. We do not require in terms of mandatorily 
placing you in a particular program, but we do an assessment of 
your needs when you come in the front door. And if you do not 
have a good history of work, and if you do not have a good 
track record, then we list that as one of your program goals 
and objectives. And we will do everything possible to get you 
in a work skills program.
    Now you are going to work. You are going to work. I mean, 
all of our inmates have to work, but whether it is working 
washing dishes in food service, or it is working as a plumber, 
so that you learn the plumbing trade, or it is working in 
Prison Industries, or it is attending a vocational training 
class, you have some choices in there as the inmate.
    And we try to encourage you to make the right choices. But 
we do not mandatorily place them in any particular----
    Mr. Kennedy. What happens to the highly intelligent inmate, 
you know, the drug dealer who has got great entrepreneurial 
skill who has just gotten their education on the street, but if 
they went through Harvard, would have been magna cum laude, and 
what happens to them?
    Ms. Sawyer. We certainly encourage them to get involved in 
educational programs too, but there is a whole other group of 
things you can do with those because we want to try to keep 
them positively motivated. Because if they have that high of an 
intelligence, they can use it to work against us while they are 
in our system.
    So for example, we have what we call Adult Continuing 
Education process, which are taught by inmates. So the inmate 
comes in. We have had classes on opera. We have had classes in 
French. We have had classes in understanding the ballet. We 
have classes in literature, and these are no credit classes, 
but they are classes for the inmates who have these particular 
interests, talents, skills and intelligence. They will teach 
business, entrepreneurship, those kinds of things, not to do 
drugs, hopefully, to do other things.
    But we allow them to teach classes, and they have to give 
us a curriculum. We monitor the class. We allow them to teach 
classes.
    We also have some very sophisticated work programs. We do 
braille transcription for the blind. We do reading for the 
blind. We do tape books. And we have a number of very 
interesting different types of programs for those inmates that 
are more intelligent than the average inmate that do not need a 
high school education. We really try to capture their energy 
and their intelligence, and use it in a productive way while 
they are with us. I do not say we catch them all, but we try 
very hard.
    Mr. Kennedy. In terms of the education versus vocational, 
they are both really effective in reducing recidivism.
    Ms. Sawyer. The research would say they are both still very 
significant, yes.

                     INMATES WITH MENTAL ILLNESSES

    Mr. Kennedy. And then when we identify people with mental 
illnesses in the system, how do we transition them out of the 
system? What is that process like?
    Ms. Sawyer. I think we talked about that last year, and I 
shared with you at that point one of my frustrations. You know, 
we have psychologists in all of our institutions. We have 
inpatient and outpatient psychiatric beds. We do a fairly good 
job, I think, as good as the state-of-the-art right now allows 
us to do in corrections with these offenders.
    Where it gets very frustrating is when you are trying to 
then transition them back into the community. Many of these 
offenders have severe mental illness, and the resources in the 
community are very lacking.
    Mr. Kennedy. And----
    Ms. Sawyer. And we are releasing them. We work with the 
federal probation staff. We are going to be picking them up on 
supervision to try to develop a plan for them when they get 
out. And the sad thing is that oftentimes the resources 
available to them in prison in the mental health arena are far 
more accessible than the resources that are going to be 
available to them when they hit the streets.
    So we work very carefully with probation. We are trying to 
always improve in that area and do a better job and assist them 
in knowing as much as they can about the offender. But the real 
frustrating thing is that oftentimes there are not affordable 
treatment programs available to these inmates as they leave 
prison, and they end up coming out now as an ex-offender and a 
mental health case which gives them a double burden. And the 
communities are usually not very ready to receive them.

                          REENTRY PREPARATION

    Mr. Kennedy. If you could go into that, because how many 
people are being released from federal or state prisons, you 
know, in the next several years? I mean, I know it is a big 
phenomenon. We have nearly 2 million people incarcerated, but 
they have to come out at some point.
    And I know the chairman has made this point many times. 
What are we doing to prepare for that? I mean as systemically? 
Have we got a big plan together to deal with that?
    Because if we have problems placing mentally ill ex-
offenders in the community, and they have probably the most 
acute need and the highest, they should be the priority in 
terms of trying to make sure they get situated, because we know 
they are probably the highest risk, how are we dealing with 
everyone else?
    Ms. Sawyer. Well, this year alone there are going to be 600 
and some thousand inmates released from prisons and jails; 
40,000 of those are federal inmates. The others are coming out 
of state and local jails across the country.
    How ready we are to receive them? I would say not very 
ready. Because a few years ago, there was this big move to lock 
everybody up, be tough on crime, put them away, and in some 
instances, unfortunately--we did not have to go there at the 
federal level, but in some states they were forced to minimize 
a lot of program offerings because of this much tougher 
attitude about prisons.
    Now that a lot of inmates are coming back, a lot of folks 
are now concerned about, ``Oops, wait a minute. What are we to 
do with these inmates while we have them? Are they going to 
come back out better prepared to live in our communities?'' And 
I think we are going to get caught behind the curve again.
    Now, I know with the help of Congress, the Office of 
Justice Programs is going to be awarding a lot. And the Federal 
Government and the Department of Justice are going to be 
awarding some sizable grants this year to states and local 
communities to help them with their re-entry efforts of really 
trying to help a community, kind of, coalesce their resources 
and bring their ideas together, and also the federal resources, 
whether it is housing resources or it is labor resources, 
whether it is drug treatment or mental health issues, trying to 
bring all those folks to the table together and talk about how 
are we going to receive and be ready for all these inmates 
coming back.
    But there is no question that the inmates are coming back 
quicker than the communities are ready for them. And I think 
there is a big focus on re-entry. There is a lot of money going 
out on the federal level to try to assist that. I would hope 
the state and local communities are also concerned about the 
inmates coming back from their systems. But I think there is no 
question that many communities are not really ready to receive 
these inmates back.
    Mr. Kennedy. Do you share the successful practices that 
work in, you know, bureau prisons, federally, you know, with 
all the state prisons? I mean, is there, like, a clearinghouse 
of what works the best throughout the prison system?
    Ms. Sawyer. There actually is. The American Correctional 
Association published a couple of documents in the last couple 
of years, and this is simply entitled ``What Works.'' And every 
correctional system that had some really good programs or 
ideas, innovative things, things that had impact, and they 
pooled those all together and published them in a couple of 
different editions of ``What Works.''
    I am also part of an Association of State Correctional 
Administrators. And it involves the 50 State Administrators and 
myself in some of the big cities like New York and 
Philadelphia, I think they are involved in that. And we are 
sharing--of the members who come. Now, not every state Director 
of Corrections is actively involved in that; some do not come 
or get involved.
    Mr. Kennedy. What can we do on the federal level to 
encourage states to employ the best practices, what works? I 
mean, how can we just incent a little bit, you know, that to 
take place if we--you know, it seems, like you said, sometimes 
our policies go to the more punitive approach and that limits 
our programs. But if we know what works, we should be really 
trying to encourage that throughout the system.
    Ms. Sawyer. Well, money always talks. And so, in terms of 
any of the monies that are going out to states to assist in the 
corrections area--and I know there is always a concern about 
putting conditions on funds--but, kind of, I think, through 
that mechanism really supporting that program.
    But every member here is from a state. And I think getting 
to know what is going on in everyone's home state and how their 
systems are being run and whether they are using--I think, 
there is a way there to--you all, obviously, have great 
influence in your states or you would not be here. That is 
another way to try to touch what is happening back there.
    Mr. Kennedy. Great. Well, you know, obviously, looking 
forward to have some. And I am sure you have a lot to share 
with us.
    And let me say that I look forward to, with the chairman, 
maybe doing some hearings on those Department of Justice re-
entry grants that are going out into the community to help our 
country better be able to deal with the enormous influx of ex-
prison inmates into our communities; how we are prepared or not 
prepared to deal with that. Because, as you pointed out, that 
is something that is in the institute of justice. And that 
would be interesting for me, at least, to see what happens with 
that.
    Thank you very much for your good work.
    Ms. Sawyer. Thank you, sir.

                          FAITH-BASED PROGRAMS

    Mr. Wolf. Just two other issues before we end this. Can you 
tell us a little bit about where you are with regard to the 
programs?
    Ms. Sawyer. Yes, sir, I sure can. We are a little bit late. 
We had hoped to get the first couple up and running by the 1st 
of June. That is going be delayed now until probably about 
August. And there was just some work with the Department of 
Justice and the Administration to make sure that we were very 
careful not to, in any way, negatively impact any inmate, and 
that the programs were open to all inmates and that there was 
no question that some would be favored over others.
    And so, we now have the go-ahead to move forward. We are 
going to be hiring the staff at the institution, as well as 
letting the contracts or putting out for bids on the contracts. 
So we envision that three of our programs should be up and 
running by about mid-summer.
    Mr. Wolf. Where are they?
    Ms. Sawyer. Those three are Petersburg, Virginia; Milan; 
Michigan; and Carswell, Texas; that is the female facility, 
would be in Carswell, Texas.
    The two that will be coming a little after that, one is in 
Kansas at Leavenworth, which is a little different twist, 
because it is going to be inside a federal penitentiary. And 
so, we want to do a little more work with that one before we 
move forward on it. It will still be before the year is out; 
but it just will not happen by mid-summer. And then one in 
California that will be coming.
    Mr. Wolf. Are they going to keep us informed? I will go 
down and take a look.
    Ms. Sawyer. We would love to have you come down, sir.
    Mr. Wolf. There are some other issues. And you did not 
mention the faith-based issue when you talked about the 
recidivism rate, you talked about the drug rehab and education. 
How important is faith involved in that; whether people 
participate in chapel, do not participate in chapel?
    Ms. Sawyer. There is not good research yet on that. I 
think, you know, anecdotally speaking, professionally speaking, 
we have had a strong chaplaincy program in the Bureau of 
Prisons for years. And anecdotally speaking, you know, we 
believe it does have a very positive impact. If you look at the 
faith-based programs that exist around the country, they are 
still a little new yet to have good long-term evidence in terms 
of what the impact is, in terms of----
    Mr. Wolf. What about the Texas one?
    Ms. Sawyer. The research is not in yet, but again, 
anecdotally speaking, and everyone believes that they are 
having a good impact, and they seem to be doing good things. 
Unfortunately, you have to watch those long enough in terms of 
when the inmate goes back to the community, to really be able 
to have good sound research.
    But the general consensus is that they are going to have a 
very positive impact. We just do not have the pure numbers yet 
to know.
    Mr. Wolf. What is the best study out on that? Is there any?
    Ms. Sawyer. I do not think there are any yet that have been 
published that are really considered good pure research.
    Mr. Wolf. Now, I read an article about one prison down in--
was it Paraguay or Ecuador?--and are they used fairly 
prominently in other countries?
    Ms. Sawyer. The only one that I actually know of--and you 
had brought it to my attention is in Brazil, that Prison 
Fellowship was running before, and I honestly do not know about 
what internationally might be occurring. We can check into that 
for you and see what information is out there.
    [The information follows:]

                Faith-Based Programs in Other Countries

    The Bureau of Prisons (BOP) has reached out for information 
to many organizations associated with religious programs for 
inmates. Staff from the International Prison Chaplains 
Association referred the BOP to officials in South Africa, 
England, and New Zealand, and the BOP is currently waiting for 
responses. The National Institute of Corrections has advised 
that there is a faith-based program in the Eucador prison 
system which was established as a result of the program in 
Brazil run by Prison Fellowship Ministries, and the BOP is 
continuing to follow-up. There is an organization in Canada 
which provides ministry in 32 community sites with 35 community 
chaplains and more than 1,400 volunteers for families and 
offender reintegration. They work with over 11,000 individuals 
annually, the majority of whom are offenders or ex-offenders. 
The BOP has also contacted officials at the National Institute 
of Justice to explore other faith-based activities.

    Mr. Wolf. I think it will have an impact. I just have to 
believe it will. If it does not, then, you know, I will be 
really very, very seriously surprised.
    Also, if you have anything in writing on the Texas program.
    Ms. Sawyer. In terms of the research?
    Mr. Wolf. Yes, like how long has it been in effect? Four 
years, five years?
    Ms. Sawyer. I think it is probably about three to four 
years. And one study was published, but the methodology was not 
real sound, and so everyone was, kind of, suspicious of it.
    There is another one that is being done now by the state of 
Texas, their criminal justice arena. And the methodology is 
sound, so that the results will be very much embraced and I 
think it is going to be very positive.
    Mr. Wolf. What classification of prisoners are they?
    Ms. Sawyer. Minimum. They are pre-release. They are minimum 
security pre-release. And that is why, you know, as we had 
talked with you, we really want to try above minimum with 
this----
    Mr. Wolf. I think you have to.
    Ms. Sawyer. Our recidivism rates are so low already with 
our minimum security inmates, that if you want to see an 
impact, you really need to jump a notch above that. So we are 
going to do it in low, we are going to do it in medium, and we 
are going to do it at the penitentiary.
    Mr. Wolf. Yes. I think you have to do that.
    Ms. Sawyer. So, it will take us longer to get the results, 
because they do not get out as quickly, and it will take a 
while to watch them. But I think that is where you are really 
going to be able to see some dramatic effects.
    Mr. Wolf. You know, I do.
    Last major category is Federal Prison Industries. We have 
spoken a lot about it. We have some questions we will just 
submit for the record. I know what your position is with regard 
to that. I hope the administration is very forceful in opposing 
the Hoekstra bill if it does not also have a program to back-
fill.
    And it is interesting to see some of the members who are 
for the Hoekstra bill, and yet, if you talk in terms of the 
impact on recidivism and the impact on crime--I am a very 
conservative member of the Congress. My voting record indicates 
that; there is no question about it. But you cannot put a 
person away for 12 years and not give them any work or any 
dignity. They are just going to be more angry.
    That was one of the reasons I was one of the first people 
to lead the effort with regard to closing the Lorton 
Reformatory. It would never, never, ever close. There never was 
really any rehabilitation or work down at Lorton. Now, they may 
have told you there was, and they made some license plates, 
which is not exactly a big industry when you get out. They did 
a little furniture manufacturing. But it was one of the most 
poorly run prisons in the country.
    But you cannot put a person away for all that period of 
time and not give them work.
    So, I am not going to pin you down on some of these 
questions, because I know how you feel. But Attorney General 
Ashcroft, who I support on most of these issues, and OMB and 
the White House are really going to have to come out. Those of 
us who would label ourselves, as I support the President very 
strongly on compassionate conservatism, taking our faith as to 
how we respond, but being truly conservative, really have an 
obligation on this issue, not to just kind of, you know, say, 
okay. Because I would venture to guess, there may be a 
furniture manufacturer lobbyist here, but there are not many 
lobbyists here who are advocating for the prisons in the sense 
that by giving work to prisons, we are going to have less 
crime.
    I think if we reduce the work of prisoners in prisons, and, 
based on your answers to a number of the questions today, you 
are going to have these people come out of prison, and they are 
going to commit crime. More crime. And it is going to be 
serious crime.
    I went down to Lorton once and came away absolutely 
astounded.
    They were lifting weights, benchpressing phenomenal weight. 
And those people who got out with no training, no 
rehabilitation, no effective drug program, no work, the first 
person that they bumped into, the first violent crime that they 
took place could be anybody on the street.
    So we really need the administration--and I think the 
President agrees--but to really be very, very bold and say, 
``You really cannot pass this bill that is going to take away 
the work responsibility and opportunities unless you are 
prepared to back-fill it.''
    Now, I can understand how the furniture manufacturing 
industry has felt sensitive that they may have been more 
impacted than others. And I told Mr. Hoekstra the other day, I 
am not critical of that. But just to take everything away and 
not replace it with another program, I think will result in 
certainly no rehabilitation. You are in essence training people 
then to come out and commit a crime.
    And lastly, I think it will make it much more difficult to 
manage the prisons, to run the prisons. You give me a hot day 
in August someplace, and people are not working, and it is--so 
the Attorney General has to really make this case.

                           THE HOEKSTRA BILL

    The Hoekstra bill has some very positive things. We had 
worked out a compromise. And I like Mr. Hoekstra; we are really 
good friends. And I understand what he is trying to do on the 
side. But I think it is like bookends. This one bookend is a 
great bookend, but we need another bookend.
    If you cannot back-fill those jobs, I think it is going to 
lead to more crime out on the streets, and I think you are 
going to have a more difficult time of administrating the 
prisons.
    And so, if you want to make any comment about that issue. 
But I would ask you to take the word back to the Attorney 
General.
    Ms. Sawyer. We really appreciate your concern of the impact 
of some of the bills on us. And you are right, if the current 
authority is taken away from us with no new authorities, no 
ability to, kind of, seek new markets or find other ways to 
manufacture products or provide services or whatever it might 
be to keep the inmates busy, we are very concerned about the 
negative impact it will have both on our ability to run our 
institutions and on recidivism rates.
    And we have communicated that to the department. The 
department is very supportive of our Prison Industries program. 
They agree that it needs to change. They agree that there are 
some things we need to do to make some changes that will meet 
the concerns of our detractors for sure. But they also support 
us, and the attorney general supports, that we need to have 
something constructive for inmates to do to develop good work 
skills and to affect recidivism.
    Mr. Wolf. I would say--and I am not going to ask everybody 
in the audience to tell me who they are--but some clearly are 
with the industry groups. There always is. They ought to go 
back and know that they have a moral responsibility for back-
fill.
    If there is not a back-fill, I am going to write to the 
President myself and tell him that to sign the bill is going to 
bring about more crime, more rape, more robbery, more havoc.
    And these are all delayed reactions. You never see things 
the next day. And anybody in the administration or anybody who 
is for this bill ought to go spend a day in a prison. That is 
what they ought to do. They ought to go spend a day and talk to 
some of these prisoners.
    So the industry has some legitimate points, but just to 
say, ``We are going to just take care of this problem with 
regard to the furniture business, and we are not going to care 
about what takes place when more people come out to rob and 
rape and do those things, and we are not going to care if there 
is a prison riot and the prisoners are up in arms''--if it is 
not changed, then I think the Administration ought to veto the 
bill.
    And if the Administration does not veto the bill, then I 
think the Attorney General is going to have a very difficult, 
difficult time. Because what happens at the federal level sends 
a signal down to the state and local. And you will begin to 
find the same thing happen there. And I think it will be one of 
the most single devastating things.
    And as a conservative Republican member who, once again, my 
sympathy is not with the prisoner. My sympathy is with the 
conditions that we create, so that the prisoner does not go out 
and kill somebody or rape somebody or rob somebody. But lastly, 
obviously, you have to treat everybody with dignity, and you 
can't just put somebody away for 12 years and not give them 
that work.
    And, you know, I hope the President understands this, 
because I think he clearly would agree; I do not think there is 
any question on that. And I just think there is this gap, and 
maybe you have a couple industry people speaking out who have 
somewhat of a legitimate basis, but they are thinking in terms 
of their vested interest in the industry that they represent 
and not thinking in terms of how you back-fill. If there is not 
a back-fill, a substitution, I think we are going to have a 
terrible, terrible, terrible time.
    So if you could just take that back.
    Ms. Sawyer. Yes, sir.

                             LORTON CLOSING

    Mr. Wolf. And I am just going to submit some of these for 
the record.
    Lorton being closed, you are ahead of schedule obviously.
    Ms. Sawyer. Just finished, yes, sir. Our staff just did a 
magnificent job on closing Lorton, on putting all the inmates--
--
    Mr. Wolf. You were not wild about that, too, I remember.
    Ms. Sawyer. Well, the main problem I had was the timing, 
because, as you know, sir, the new prisons that you all gave us 
the money to build to absorb the prison D.C. population, were 
not built in time for us to absorb these inmates by the time-
line that Congress ended up giving us. We were asking that it 
not be finally implemented until the end of 2003, and that got 
moved up to the end of 2001. So we really had to rush.
    We also were able to buy beds, as you know, from the state 
of Virginia, to help us offset 2,000 of those inmates that we 
did not have the new prisons constructed for yet.
    So we were very concerned about the time-line. But our 
staff just did an extraordinary, magnificent job at absorbing 
the inmates, finding beds, capacity or contracting them out if 
necessary, working with the institutions that were going to be 
receiving the D.C. inmates, and working with the D.C. inmates 
to make sure of the emotional flow, the impact of bringing in 
7,000 new inmates who had done time in the D.C. system with 
their way of doing business, suddenly absorbing them into our 
own institutions with our own inmate population, it can throw 
off your power balance, as in all things.
    And the staff just did a masterful job, and we did it ahead 
of schedule. So if I may say, we are very proud of our staff 
for having done that.
    Mr. Wolf. Have you ever been down in Lorton?
    Ms. Sawyer. Yes. Yes.
    Mr. Wolf. Unbelievable. Unbelievable.
    Ms. Sawyer. It was a difficult system to run and to work in 
and to do anything positive in.
    Mr. Wolf. A felon that is now convicted in the District of 
Columbia, where are they now sent? Somebody who would be 
convicted today and sentenced right away, where would that 
person probably go?
    Ms. Sawyer. They would go to one of our institutions. You 
know, our ultimate goal, once the new prisons are all built--
and some of those are still under construction--our ultimate 
goal is to initially designate every one of them within 500 
miles of the District. Because that is our average for all of 
our other inmates around the country.
    Right now, since those new prisons are not built yet 
completely--some of them are, and some of them are not--about 
25 percent of the inmates are having to go farther than 500 
miles from home for that initial designation. Then we try to 
work them back closer to D.C.
    But we just draw a 500-mile radius around D.C. where they 
would all be housed throughout those institutions.
    Mr. Wolf. If you have any articles, too, along the lines of 
the recidivism and the different issues, if you could send up 
to the committee in maybe the next week or something like that, 
I would appreciate it.
    Ms. Sawyer. Okay.
    Mr. Wolf. With that, we will just give the rest for the 
record.
    Ms. Sawyer. Okay. Very good.
    Mr. Wolf. We are adjourned.
    Ms. Sawyer. Thank you, sir.
    [Questions and answers for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              

                                          Wednesday, March 6, 2002.

                    FEDERAL BUREAU OF INVESTIGATION

                                WITNESS

ROBERT S. MUELLER, III, DIRECTOR, FEDERAL BUREAU OF INVESTIGATION

                  Opening Remarks of Congressman Wolf

    Mr. Wolf. The committee will come to order. We welcome you 
to the subcommittee today. We would like to hear from you, to 
the extent you can, in this open forum. Maybe there will be an 
opportunity to have you back sometime in a closed forum whereby 
you may feel more comfortable speaking on this issue.
    But if you could, give us a brief update on the terrorism 
investigation, anthrax and all of the other issues that are 
going on. To the best of your ability in open session, if you 
can do that today, we would appreciate it.
    Your first few months as director were baptism by fire. The 
world changed dramatically on September 11th, just a few short 
weeks after you were sworn in as director.
    The FBI is our Nation's premier law enforcement agency. I 
want to put on the record and urge you to go back and tell your 
people that we appreciate very much the dedication, the hard 
work and the effectiveness that your agents and support staff 
do. Please thank them on behalf of the committee and certainly 
for myself.


                         FY 2003 BUDGET REQUEST


    This afternoon we are here to talk about the Bureau's 
fiscal year 2003 budget request. The FBI is requesting a total 
of $4.2 billion in appropriations, a programmatic increase of 
$446 million, or about a 20 percent increase.
    You have requested an increase of 887 new positions 
including 181 new agent positions. This new funding is in 
addition to the $745 million and 823 new positions, including 
266 new agents that the FBI received in the Counter-terrorism 
Supplemental that was passed by the Congress in December.
    Your request in the Supplemental was for $539 million. The 
Congress provided you with $207 million more, actually, than 
you requested. These are significant increases in resources and 
the committee would like to be fully informed as to the 
obligation of these funds, particularly on all the issues, 
especially Trilogy, and with regard to hiring.
    It is now up to you, obviously, and your leadership and the 
28,000 employees, to make sure that these funds are put to 
proper use in the fight with regard to terrorism.
    So, I do welcome you and I thank you. You really came on at 
a very difficult time. I remember reading that you had just had 
an operation and you just came into this job, I think, a few 
days later. I think you have handled yourself very, very well. 
I want to thank you personally and thank the men and women that 
work with you.
    I now recognize Mr. Serrano.

                 Opening Remarks of Congressman Serrano

    Mr. Serrano. Thank you, Mr. Chairman. I am sorry that I 
arrived a little late. I was on the House Floor. As you know, 
we spent a lot of time this morning, Mr. Chairman, speaking 
about Colombia. There was a resolution on the Floor that I was 
trying to get to speak on, but I ran out of time before I 
could.
    I want to welcome you, sir, and I have enjoyed the many 
conversations that we have had. I will be very brief. I know 
that your task and the task of the agency now more than ever 
has all Americans doing all that they can do. As I have said to 
you in private, the concern that I would voice for a while now 
is that in the process of doing what the FBI has to do, that we 
make sure that we don't sacrifice anybody's civil liberties, 
that we not create a situation which will make us feel bad 
about it years from now.
    I know that you are as much interested in the future of the 
agency as you are interested in knowing the past. We discussed 
that. The past at times has had some very bad results for some 
Americans. How you balance it is a very difficult job to do and 
I understand that. That is why I am not criticizing in any way, 
just reminding us all. I say ``us'' rather than ``you.'' During 
this very difficult time, when we know that there is an enemy 
that we have to get and that the situation, the terrorist 
attacks that we have had should never occur again, at the same 
time we don't think that gives us an excuse or an opportunity 
to trample on civil liberties.
    What a tragedy it would be if we got rid of terrorism and 
at the same time lost part of our democracy.
    Thank you.
    Mr. Mueller. Mr. Chairman, I do have a short statement. I 
have submitted with the pleasure of the subcommittee a longer 
statement.
    Mr. Wolf. Your full statement will appear in the record.

                    FBI Director's Opening Statement

    Mr. Mueller. I want to say good afternoon Mr. Chairman, 
Congressman Serrano and members of the subcommittee. I want to 
thank you for all of the support that each of you have provided 
to the FBI both before September 11th but also in the wake of 
September 11th.
    As the Chairman pointed out, I started in this job shortly 
before the attacks of September 11th. Since the attacks, the 
subcommittee and the committee have provided the FBI with 
unstinting support.
    A national crisis such as this offers the country an 
opportunity to unite and to move forward together to meet the 
challenge. Your support has allowed the FBI to focus its full 
attention on preventing future terrorist attacks against those 
in the United States and future attacks against American 
interests around the world.
    But I would, by the same token, say in response to the 
opening remarks of Congressman Serrano that it is equally 
important that as we address terrorism around the world that we 
take into account our Constitution and the privileges that 
attend to that Constitution so that when we address terrorism 
around the world we always keep in mind the civil rights of the 
individuals in the United States, whether they be citizens or 
non-citizens.


                  SEPTEMBER 11TH IMPACT ON THE BUREAU


    I will say that the attacks of September 11th have had a 
profound impact on the Bureau, underscoring the urgency for 
change. We know at the Bureau that the old ways will not 
suffice, no office, no program, no procedure is beyond 
scrutiny. 9/11 has become a new word in the FBI lexicon as it 
has become a new word in the lexicon of our nation.
    For the Bureau I believe when future historians look back, 
they will see it as a watershed moment in our history. I will 
say prior to September 11th there was substantial recognition 
both up on the Hill and off the Hill of the need for change at 
the FBI and I have said also that many times, and I have said 
this many times, the FBI's greatest resource is its people and 
they certainly have risen to the challenge in the wake of 
September 11th. They are superb individuals who have, 
unfortunately, increasingly been straight-jacketed by 
management organizational structures that lacked clear focus 
and were unable to adequately support a larger, more complex 
FBI and we have not kept pace, as I believe the subcommittee 
know, technologically.


                       CHALLENGES FACING THE FBI


    Pre-September 11th, the Bureau was facing other problems 
that had been building over a period of time. In terms of our 
workforce, we lack a sufficient number of employees with a full 
range of skills, especially technical skills that we need and 
in addition our agents are not diverse enough to serve a 
diverse America.
    We lack a sufficient number of agents and analysts with a 
full range of language skills as we require today. In part this 
was because we operated largely under the assumption that 
agents, as general purpose investigators, could and should be 
place in highly technical positions because of their 
investigative expertise.
    However, in many areas, this assumption no longer accords 
with reality, given that we have a world where specialists have 
become absolutely necessary. Perhaps nowhere is this more 
evident than with the information infrastructure technology. We 
have allowed ourselves to become out of date with respect to 
our in-house technology, but at the same time we provide 
cutting edge support to other law enforcement, as we see with 
our fingerprint systems and other systems out at the Criminal 
Justice Information Services (CJIS) and in our laboratory.
    There are other problems as well. As the Hanssen case 
showed, our security systems were not up the trust the American 
people had placed in us.
    As the McVeigh documents problem showed, our records 
administration left a great deal to be desired. Both issues 
were discussed at your hearing last year and the Bureau at that 
time and even before, began to fix these problems.
    These were some of the problems that faced us prior to 9/11 
and it was a daunting challenge even then. But September 11th 
did two things. It substantially increased the urgency for 
solving these existing problems, and it added as an over-
arching challenge the need to substantially shift resources 
devoted to counterterrorism as we shift our focus from 
prosecution to prevention.
    This need also increases the emphasis on another challenge 
we face and that is the need to increase our cooperation with 
our federal counterparts and our state and local law 
enforcement partners. We need to acknowledge that at times the 
Bureau has not been as forthcoming as it should be with our law 
enforcement partners. I do think we have made substantial 
improvements in recent years, but we still have a ways to go.
    I want to emphasize that these challenges or problems are 
our responsibility. This committee and Congress as a whole has 
been very generous to the Bureau. Most recently you have given 
us the resources and the support needed to get the 
infrastructure back on track and have created the opportunity 
for us to acquire the people and the skill sets we desperately 
need in a number of areas critical to counterterrorism, 
prevention, and in support of our technical needs. We are 
grappling with these problems and we appreciate the help you 
have given us in fixing them.
    I can assure you that there is an unmistakable sense of 
urgency to get these things done.
    In my view, remaking the FBI to meet these challenges has 
four major overlapping components. One is structural 
reorganization. Two is re-focused priorities. Three is improved 
technology. And four is an operational commitment to cooperate 
with other federal, state and local law enforcement officials.


                             REORGANIZATION


    The first of these, the structural reorganization, is under 
way. In December of last year we implemented Phase I of the 
organization, and I am grateful to the subcommittee for its 
advice and prompt approval of this reorganization. The purpose 
of this first phase was relatively simple, greater 
accountability, increased management oversight and better 
coordination and information sharing.
    As I believe the subcommittee is aware, rather than one 
deputy, I have four Executive Assistant Deputies with a range 
of responsibilities in particular areas and we also created in 
that reorganization a Security Division, Cyber Crime Division, 
a Records Management Division, an Office of Law Enforcement 
Coordination, as well as an Office of Intelligence.
    We are currently working on the next phase of this 
reorganization. Its basic thrust is to develop a comprehensive 
strategy for combating, and more importantly, preventing 
terrorism.


                         REFOCUS FBI PRIORITIES


    This phase brings into play the second element of the 
reform that I mentioned, which is the need for the FBI to 
refocus its priorities, a comprehensive strategy for combating 
terrorism will mean not only new resources, but given the size 
of the effort, a permanent reallocation of existing resources.
    It will mean no longer doing some of the things we are 
currently doing and that will not be without its costs. Let me 
give you some sense of the magnitude of the task. At the peak 
of the FBI's investigation of the September 11th attacks, 
approximately 6,000, or almost 60 percent of our 11,000 Special 
Agents were dedicated to the investigation.
    In recent days, our ongoing September 11th efforts have 
involved approximately 4,000 agents. It is my hope that with 
the reforms of the second phase of the reorganization that the 
FBI will commit a permanent cadre of at least 2,000 agents 
along with appropriate analytic and support staff, essentially 
doubling our pre-9/11 effort in terms of numbers of agents and 
going far beyond that with huge increases in our analytical 
capability.
    I hope that other changes we will be making, especially in 
terms of technology and increased cooperation with other law 
enforcement counterparts, will serve as a substantial force 
multiplier in this area.
    Mr. Wolf. Mr. Director, excuse me. We have only five 
minutes for a vote. Why don't we recess for 15 minutes and then 
we can come back.
    Mr. Mueller. Thank you, Mr. Chairman.
    Mr. Wolf. I think that is the last vote for today, so we 
should not be interrupted.
    Mr. Mueller. Thank you, Mr. Chairman.
    [Recess]
    Mr. Wolf. All right, you may proceed.


               PHASE II REORGANIZATION AND FY 2003 BUDGET


    Mr. Mueller. As I was mentioning before the recess, 
refocusing our priorities in the second part of this 
reorganization raises complex issues. What will the FBI not do? 
This is an issue we are currently debating. This will be an 
important national discussion and during our trying to figure 
out what we will not be doing, I welcome the views of members 
of this subcommittee.
    It is my expectation that in the near future I will return 
to discuss with you the outline of our initial thinking on this 
phase and its implications to include a new strategic plan more 
reflective of today's realities.
    The FBI's budget request for fiscal year 2003 in 
conjunction with its fiscal year 2002 budget and a 
counterterrorism supplemental is designed to set the stage for 
this reorganization and allow the FBI to refocus its mission. 
For fiscal year 2003, over 673 new positions, 181 of them 
agents and $225 million in incremental spending are targeted 
for counterterrorism programs.
    When added to the resources provided by the subcommittee in 
the Supplemental, the fiscal year 2003 budget request will 
provide the Bureau with the capability and the analytic skills 
to make a major step forward in refocusing its priorities to 
thwarting future terrorist attacks.


                           TECHNOLOGY REFORM


    The fiscal year 2003 budget also provides additional 
resources to another FBI priority and that is technology 
excellence. Indeed, the importance of technology is so 
pervasive in everything we need to do and our need to improve 
our technological infrastructure is so extreme, I consider it 
to be the second major area of reform. Make no mistake about 
it, technological investments are investments in 
counterterrorism.
    We simply cannot be fully effective in this area without 
vast improvements in our technology. That is critical to allow 
us to collect, to analyze and to share information, which is 
the lifeblood of any successful effort to prevent terrorism.
    By adding $145 million to funds provided last fall, the 
fiscal year 2003 budget will allow the Bureau to deploy its 
Trilogy Program and to upgrade the Bureau's core information 
technology infrastructure. This effort has served as a lever 
through which the Bureau has begun assembling the technical 
expertise it needs to keep pace with rapid change in 
technology.
    Let me make one more point on technology before I leave 
this area. As I indicated, we have let ourselves fall behind in 
this area. I know we have been asking for a lot. This 
subcommittee has been very generous. But we will be asking for 
more. Trilogy is only part of what we need to do to bring 
ourselves up to date.
    There will be substantial additional needs, including in 
our Personnel and Budget systems. Then there will be ongoing 
expenditures for technology refreshment so that we do not find 
ourselves back in this situation in 5 or 10 years. I am 
committed to the normal business practice of incremental 
improvements, so complete rebuilds with the associated costs 
and risks can be avoided in the future.
    The third major priority of the fiscal year 2003 budget is 
security. In the wake of the Hanssen case the FBI has created a 
new Security Division and we are requesting an additional $78 
million to upgrade security within the Bureau. This improvement 
not only consists of resources and new leadership, but also a 
more proactive, integrated approach on initiatives such as 
financial disclosure, the use of polygraphs, security 
education, and a comprehensive information assurance program.
    With additional funds for counterterrorism, information 
technology and security, the fiscal year 2003 budget is a 
commitment to a new refocused FBI.


            COOPERATION WITH OTHER LAW ENFORCEMENT OFFICIALS


    The fourth and last major component of the reform and 
restructuring involves our relationship with other federal, 
state and local law enforcement officials. The job we have is 
simply too big for any one entity to do alone. We need help and 
we need to work in a more cooperative manner to obtain it.
    To this end we have established a new office of Law 
Enforcement Coordination to coordinate the Bureau's efforts 
with our state and local officials.
    We are also expanding our Joint Terrorism Task Forces into 
all 56 field offices. I am committed to making our 
relationships with our law enforcement partners a true 
partnership. Six hundred and fifty thousand state and local law 
enforcement officers represent an asset that the Bureau must 
take advantage of if future terrorist attacks are to be 
prevented.
    September 11th was a sophisticated attack, planned and 
financed overseas and executed in the United States. It was the 
product of years of effort that included al-Qaeda training 
camps in Afghanistan, sophisticated financing arrangements in 
the Middle East and a planning unit in Hamburg, Germany that 
then executed its plan on American soil.
    In the face of such a sophisticated, determined adversary, 
all of the nation's resources, federal, state and local, must 
be marshaled. There is simply no room for turf battles. The 
demands the nation is placing on the Bureau, prevention of 
further devastating acts of terrorism, have never been greater. 
The challenges we face are substantial. But with the help of 
this subcommittee, the help that this subcommittee has given in 
the past, for which we are extremely thankful, and the help of 
the subcommittee in the future and with the dedication of our 
employees, I am confident that the dedicated men and women of 
the FBI are up to those challenges.
    Thank you very much for the opportunity to give these short 
remarks.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. As part of your statement, if you could, I would 
ask, can we hear from you a brief update on the terrorism 
investigation, as well as an update on the anthrax case, as you 
saw in the paper yesterday or the other day, President Mubarak 
talked about sleeper cells operating here in the United States.
    I understand we are in open session and there may be some 
things you can't go into, but can you, for the good of the 
order or for the good of the public, just comment on them 
before we go to the questions?


                         ANTHRAX INVESTIGATION


    Mr. Mueller. Yes. If I might at the outset, talk briefly 
about the anthrax investigation. That has proceeded in a number 
of avenues. We do not discount any possibility. I know there 
have been statements out there in the press about we are 
looking at individuals from laboratories or we are looking 
overseas. We have not excluded any possibility at this point.
    The investigation is going on several paths. We have 
conducted more than 500 interviews of individuals at various 
laboratories around the United States and overseas. We have 
engaged a number of laboratories to assist us in looking at the 
anthrax that was contained in the Leahy letter which we found 
after reviewing that batch of correspondence that has been 
sequestered subsequent to the receipt of the Daschle letter.
    We are looking at that anthrax to determine its strain, its 
genetic profiling and its sequencing. Those laboratory tests 
are ongoing. We have, over a period of time, looked at a number 
of individuals who both have the capacity and have had the 
accessibility to the type of equipment that would be necessary 
to commit this type of crime.
    I will tell you that we have no one person specifically 
that stands out above others at this juncture. That is to say, 
contrary to what some reports have been that we are focusing on 
a particular individual and for whatever reasons we are not 
pursuing, we are not pursuing that individual. That is just 
false.
    We are still looking at a number of individuals. As I say, 
it is proceeding on the track of interviewing a number of 
persons related to various laboratories in the United States 
and also pursuing what would be identified as something close 
to fingerprinting with regard to the anthrax that was contained 
in the Leahy letter.
    We periodically receive information about individuals who 
are either, according to the information, motivated to 
undertake this type of attack, have the experience and the 
background to undertake this type of attack, and also have the 
access to the type of equipment that would be necessary to 
manufacture this anthrax.
    Whenever we get those reports, we take them exceptionally 
seriously and do a full-scale investigation on those 
individuals. There are a number of those that are currently 
being undertaken. I am confident that we will determine who is 
responsible for this and I am confident that when we do so the 
investigation that we have conducted to date will produce the 
evidence necessary to present in court so that the person can 
be successfully prosecuted.
    That is a broad-brush overview of where we are on the 
anthrax investigation.


              INVESTIGATIONS SUBSEQUENT TO SEPTEMBER 11TH


    With regard to the attacks of September 11, our initial 
thrust of our investigation subsequent to September 11th was to 
identify those responsible for the attacks and within several 
weeks after that, by going through the manifests and by 
investigating in every nook and cranny of this country and 
overseas, we are quite confident that we identified the 19 
individuals who were responsible for the attacks of 9/11.
    We also are confident that 15 of them were from Saudi 
Arabia. One was from Egypt. One was from Lebanon and I believe 
two from the United Arab Emirates. We also learned during the 
course of the investigation that they had come into this 
country a year or longer or six months or longer prior to the 
attack with the expectation of raising no concern in any 
aspects of the community, whether it be law enforcement or 
otherwise, and for the sole purpose of committing this attack.
    We also learned that the planning for it, quite probably, 
was undertaken overseas, principally in Hamburg, Germany. In 
close association and working with our counterparts overseas, 
we were able to paint the picture of the planning phase as well 
as the execution phase by these 19 individuals.
    Our principal concerns in the wake of September 11th was 
that other individuals might be in the United States, part of 
the same cadre of individuals who were seeking to undertake a 
similar plan, hijacking, and for one reason or other may not 
have made the planes that day or were looking to execute a 
second wave.
    Consequently, we undertook, subsequent to September 11th, a 
nationwide investigation to determine whether there were any 
associates, supporters, and financial supporters of these 
individuals in the United States who were intent on replicating 
what had happened on September 11th.
    That investigation has been ongoing. The 4,000 agents that 
are still assigned to portions of the investigation are still 
following leads to determine whether or not there are any 
associates, financial supporters or others that are in the 
United States, intent on committing the same acts.
    At the same time, we have throughout understood that it is 
critically important for us to prevent the next attack, whether 
it be by associates of the 19 or by others who were sent in 
unbeknownst to or not knowledgeable to the 19 or having no 
association with the 19.
    So, every threat we received, every piece of information we 
or the CIA receives with regard to a possible attack is 
immediately investigated until we can determine the credibility 
of the threat, whether it is credible or not credible, and to 
the extent that it has any credibility whatsoever, we move 
heaven and earth to try to diffuse the situation.
    Whether it be in the United States or around the world, 
there have been successes. But the mere fact that there have 
been successes does not in any way, shape or form mean that we 
are confident that there will not be another attack. To the 
contrary, we believe that we are still targeted, that there are 
al-Qaeda associated individuals around the world, some in the 
United States, that are intent on committing terrorist acts 
within the country.
    One of the areas where we have expanded the investigation 
has been with the assistance of the CIA and the Defense 
Department and that is the exploitation of the documents and 
witnesses coming out of Afghanistan. We have, along with the 
military, and the CIA, put in place a document exploitation 
procedure to be sure that we scrutinize every document and 
every other piece of evidence that comes out of Afghanistan to 
determine whether it has any intelligence, any intelligence 
worth and to assure that whether it bears on the military 
mission or the CIA's mission or a law enforcement mission, that 
it is understood, utilized, and to the extent that it assists 
us in understanding what is happening, put into that matrix.
    Likewise, we have with the military and the CIA undertaken 
initial questioning of those individuals who have been 
detained, al-Qaeda individuals where they have been detained in 
Afghanistan or transported from Afghanistan to Guantanamo Bay 
in an effort again to gather what information is available on 
al-Qaeda, the intentions of al-Qaeda, the individuals who are 
members of al-Qaeda and the future intentions of al-Qaeda.
    That again is a brief overview of where we have been and 
where we are, Mr. Chairman.

              THE TEAM REVIEWING INTELLIGENCE/INFORMATION

    Mr. Wolf. The team is made up of military, CIA, FBI and 
others, so all documents are examined, they look at it for all 
of the aspects?
    Mr. Mueller. That's correct. Quite obviously, the first cut 
is for the military in Afghanistan. Everyone wants to assure 
that any tactical information that may be helpful to saving the 
lives of our military in Afghanistan is not overlooked. Then it 
is looked at for intelligence value in the effort in 
Afghanistan and then is looked at for law enforcement purposes 
also. By law enforcement I don't mean to exclude the role of 
either the Defense Department, the CIA, or the FBI in looking 
at information coming out and putting it into an intelligence 
matrix that would give us some idea from whence we can expect 
an attack and who might be involved in such an attack.

             PLACEMENT OF FBI AGENTS IN 9/11 INVESTIGATION

    Mr. Wolf. Are you still interviewing the people that were 
arrested in Afghanistan? Do you still have agents in 
Afghanistan?
    Mr. Mueller. We still have agents in Afghanistan, yes. They 
are working exceptionally cooperatively with their 
counterparts, with the military and with the CIA.
    Mr. Wolf. So, they are interviewed there and then when they 
come to wherever they come, Guantanamo Bay, the interrogation 
begins, correct?
    Mr. Mueller. Correct. We have had agents in Bagram. We have 
had agents in Kandahar and we have agents down in Guantanamo 
Bay.
    Mr. Wolf. Are you going to have a permanent legal attache 
office in Afghanistan?
    Mr. Mueller. I would hope to eventually, yes.
    Mr. Wolf. When the group came in that committed the crimes 
on 9/11, did they specifically come in for that act?
    Mr. Mueller. We have to look at circumstantial evidence 
because they are all dead, quite obviously. But in looking at 
the circumstantial evidence, they had no jobs and they were 
financed from overseas. The monies that were sent to bank 
accounts here were sent in denominations that were under 
$10,000 so it would raise no flags.
    Their time in the United States was spent, as far as we can 
tell, in making preparations for the attacks. As I say, none of 
them had jobs here. So, based on the circumstantial evidence 
and what we know and have learned subsequent to that, it is our 
belief that they came here solely for the purpose of committing 
this act.
    Mr. Wolf. Do you believe there was another aircraft or do 
you think this was the sum total of that group?
    Mr. Mueller. There have been periodic reports as to the 
possibility of another aircraft. We have not identified 
additional persons who would have been the team for that other 
aircraft. That does not mean to say that there could not have 
been another team in the United States of which we are not 
aware and for some reason aborted the attack and then left the 
country.

        EGYPT'S PRESIDENT ON SLEEPER CELLS IN THE UNITED STATES

    Mr. Wolf. Without getting into too much detail publicly, do 
you believe there is credibility in what President Mubarak said 
two days ago in the Washington Times with regard to sleeper 
cells? I was wondering, did he just give that interview sitting 
in his office in Cairo or was it well thought-out that he knew 
precisely what he was talking about?
    Mr. Mueller. I confess, Mr. Chairman, I do not recall 
specifically what he said.
    Mr. Wolf. It was in the Washington Times on Monday or 
Tuesday. They interviewed President Mubarak in his office in 
Cairo as he was preparing to come here to the United States. He 
said, it is a long interview, but the top of the story that 
there are sleeper cells in the United States, he said, and they 
are just waiting for a period of calm before they respond.
    Mr. Mueller. I am not certain upon what he bases that 
opinion.
    Mr. Wolf. Well, I just have to ask it. You can get back to 
us privately. I would hope that our people have picked up the 
phone and said, please tell us, you said that, is this sort of 
a feeling that you had because you understand the society or do 
you know and do your intelligence people know because of your 
work with regard to their plans?
    But give us a readout. I think that has to be solid because 
it is very, very specific. I would urge your people to get the 
interview from the Times. That was Monday or Tuesday.
    Mr. Mueller. If I may just response briefly on that, I know 
that we had a very close relationship with our counterparts 
overseas. The extent to which he had specific information upon 
which to base that opinion, I am quite confident that we would 
have had access to that.
    Mr. Wolf. Do you have an office there?
    Mr. Mueller. We do. We have a legal attache in Egypt. When 
I was there I stopped in, maybe a month or a month and a half 
ago, and met with our counterparts over there. We have a very 
good relationship with our counterparts there.

                                TRILOGY

    Mr. Wolf. Okay. I will just ask one question on a budgetary 
matter and then I will recognize Mr. Serrano.
    One other thing, too, I just went through your statement 
and obviously I was impressed. It was very non-typical of 
testimony. You said on Page 3, ``We allowed ourselves to become 
out of date.'' You also went on to say, ``There were other 
problems as well. As the Hanssen case showed, our security 
systems were not up to par.''
    In another paragraph, you say, ``We need to acknowledge 
that at times the FBI is not as forthcoming as it should be 
with our law enforcement partners.''
    You then went on to say, ``I want to emphasize that these 
challenges and problems are our responsibility.'' And there are 
some other phrases which I won't read. But I want to commend 
you on this candor. Constructive mistakes that I make, 
sometimes it is just better to tell people, you know, I made a 
mistake. I'm sorry. I wish I could have done better. But I am 
not going to rest with that. I am going to change.
    I commend you for your testimony. I think it is very, very 
refreshing to hear. Generally, people will be saying, ``Well, 
the reason this happened was because of this or because of 
this.'' So, I think it is very, very refreshing.
    The one question on Trilogy: The committee has given you a 
large amount of money and Mr. Rogers, when he was chairman, 
also did the same thing. It should be funded. Actually, I think 
you were given $132 million, more than your actual request. 
Congress actually gave you more than you asked for.
    Can you bring us up to speed on Trilogy, when it is going 
to be in all the field offices, when will it be in effect? I 
know you still have the gentleman from IBM. Do you, on a period 
basis, go out and talk to some of the top technology people in 
the country on a kind of ad hoc basis to say, here is where we 
are, this is what we were thinking of doing. Does this make 
sense? Do you bounce ideas off of them?
    Mr. Mueller. Surely. My goal for the Bureau is to move it 
from a paper-reliant organization into a paperless 
organization. A lot flows from that. Were we able to do that, 
we would be much better able to gather digitally the 
information from our various offices better than we have today. 
Also we would be able to analyze it better and we would be able 
to disseminate it better.
    What I have come to find is Trilogy as was defined prior to 
September really was the backbone of a computer system. The 
WANS, the wide area networks, local area networks, desktop 
computers, printers and scanners were in that project that was 
identified as being a Trilogy along with the migration of five 
of the investigative software programs.
    The timeframe and the funding that was initially laid out 
for Trilogy prior to September 11, in my mind was just too 
long. We cannot afford to wait. To the extent that we are not 
technologically proficient, we are not doing our job. We cannot 
call ourselves the premier law enforcement agency in the world 
if our agents do not have the tools with which to do the job, 
analytical tools and the like.
    So, one of our first challenges was to speed up the 
process, to get the computers on the desks of the agents and 
the support staff and the analysts. We moved up the first stage 
of what we will call the Trilogy Project. That is the area 
networks, the servers, the desktop computers, the printers and 
the scanners, which will all be in by July of this year.
    In addition to that, there will be an upgrade to the 
Windows 2000 operating system and Office 2000 software 
packages, which includes the spreadsheets, Word, and the like. 
It is replacing computers that are 4 to 8 years old in many of 
the FBI offices throughout the country. An agent would have to 
wait a minute or more given the antiquated computers, 386s, 
486s, he might have to wait for a minute or so to get a piece 
of information out of the computer. It is just unacceptable.
    So, the first phase of putting in the new computers, the 
scanners, the printers and the like is ongoing. We'll finish 
that in July. I was just up in New York yesterday. We had just 
done that office. With that comes the upgrading operating 
system and the office software packages.

                         AUTOMATED CASE SYSTEM

    What is critical to a law enforcement agency is what is 
called in the FBI the ``automated case system'' where all your 
information, your reports go in and from that database of 
reports, and they call them 302s, the Bureau's write-ups of the 
interviews, comes your ability to dissect and analyze 
information.
    Our automated case system is antiquated and is not 
susceptible to analytical review as many other systems. For 
instance, and I will give you an example, we don't have a 
capability for a soundex search. If you put in a name like 
mine, Mueller, you can spell it M-u-e-l-l-e-r, you can spell it 
M-u-l-l-e-r. What you would want to be able to do is put in a 
search item, M-u-l-l-e-r and M-e-l-l-e-r, anything that sounds 
the same. The CIA has that. We do not have that. You have to 
put in M-u-e-l-l-e-r. You will just pull up that. If you get it 
misspelled, M-u-l-l-e-r then you will pull up all that, but you 
don't get them both. That really inhibits our analytical 
capacity.
    Consequently, we have to take our databases and migrate 
them into a modern database structure. We are going to an 
Oracle 9-I, which is one of the more modern database 
architectures. Hopefully, that will be completed by May of next 
year. I had hoped to get it up. I had pressed and beat up on 
people, including Mr. Dies, who is maybe about a foot taller 
than I am, and he knows far more about this than I do, but I 
pressed hard to get this on line earlier.
    But the fact of the matter is, when you are going through a 
process such as this, it is critically important that you have 
the adequate security. You make certain that all of the data is 
migrated over in such a way that you do not lose it. You have 
to do it in such a way that you don't have to go back and 
replicate it because you have messed it up.
    To assure all of those things are accomplished, we had to 
extend the timeframe until May of next year. I will tell you in 
the same vein, we can get the hardware and put new hardware in. 
You can put new software in, but you have to make it user 
friendly for the agents and the support staff and everybody 
else who is going to use this computer system.
    What we are in the process of doing is developing a virtual 
case file, which replicates the case file, the paper case file, 
that the FBI agent would be using, on the screen. So, it will 
be digital and user-friendly so that it will be simple for the 
older, I should not put it this way, but the less-
technologically efficient agent to use, as well as the support 
staff and everybody else. If you have that user-friendly system 
and everybody uses it, then you can move to a paperless office. 
That is the way we are going, but it takes time to develop the 
user interface to make certain that when you do your file 
reviews, when you get a lead that there is some way of 
monitoring.
    If I get a lead, if I am an agent in the Washington field 
and I get it from Seattle, when it comes in the lead is 
assigned by a supervisor digitally. It is assigned to an agent 
digitally. Then there is a tracking system so that that lead is 
followed up on within a certain amount of time and there is an 
automatic tickler that kicks up on the computer if that lead 
has not been processed in a particular period of time. That 
requires us to take the workings of the Bureau and digitize it. 
We are in the process of doing it, but it is not a simple 
process. But we are getting there.
    Mr. Wolf. Mr. Serrano.

                       NEW CHALLENGES FOR THE FBI

    Mr. Serrano. Thank you so much. Let me first also join the 
chairman in commending you for the work you have done. Those of 
us from New York City know how much you have been working and 
your agency has been working. I commend not only you, but your 
staff and all of the force for the service you have given New 
York.
    You know, I listened to you about the computer. Try putting 
in Serrano. You come up with Saran Wrap, and Cyrano de Bergerac 
and the Sierra Club. I could go on for days.
    Before September 11th, well, after September 11th also, the 
FBI has always been seen as the premier law enforcement agency 
in the country. Some people loved you. Some feared you. But 
everyone knew that you were the law enforcement agency in the 
country.
    You also dealt with everything from bank robberies to the 
winter Olympics and drugs and cyber crime in the last few 
years. Now, with this whole new undertaking, both friends and 
foes are questioning whether you are either spread out too thin 
or whether you are in fact prepared to continue to do what you 
did before and also take on a new challenge.
    So, my question to you is what can you tell me about that? 
What should we be nervous about or not nervous about? That 
leads to a second question. That is: Is the concentration on 
terrorism going to allow some very bad guys in the society, or 
women, to get a way with things ordinarily they wouldn't get 
away with?
    Mr. Mueller. This is a difficult and complex question that 
we are wrestling with. I start from the premise that we need to 
put whatever resources are necessary to respond, to be 
preemptive as opposed to reactive when it comes to addressing 
the terrorist threat.
    I have had lengthy discussions with the special agents in 
charge. Twice they came in to discuss this issue. We are 
looking at what we need, office by office, to address the 
challenges of being proactive in each of the various offices 
around the country. We have come up with a figure of additional 
man and woman power that we need to assign to the 
counterterrorism cases, whether it be special agent, analytical 
or support staff.
    Where are we going to get those individuals? Some of you 
have given us additional positions, but we also have to look at 
whatever responsibilities we have. My own view is we look at 
each of the districts in the past, the Bureau I think, and 
perhaps in part attributable to funding, has taken a cookie 
cutter approach to its programs across the country without 
being sufficiently sensitive to what are the threats in a 
particular field office.
    In other words, the threats in New York City are different 
than what I saw when I was out in San Francisco, for instance, 
where they have Silicon Valley. Also, they would be different 
from what you see in Des Moines or San Antonio.
    If you are the special agent in charge, you know you have 
to take ten agents from some place and put them on 
counterterrorism because you perceive that threat there. The 
issue is where are you going to take them. In many of the 
districts around the country they will be taken from a number 
of our programs. It may well be narcotics. In my own view, we 
should stay in narcotics. We should stay in Organized Crime 
Drug Enforcement Task Force YOSDEF cases and the High Intensity 
Drug Trafficking area HIDA Program, because we leverage our 
particular capabilities.
    We have some strengths and we have some weaknesses, but 
there are those cases where we have expertise that can be 
helpful and we ought to stay in those task forces. Where we 
overlap with the DEA, for instance, in doing cartel cases or on 
smaller narcotics cases, we ought to allow and assist our 
brother agencies or sister agencies to do those cases.
    We mentioned bank robberies. I had a recent discussion with 
Bill Berger who is the current head of the International 
Association of Chiefs of Police, ICAP, who said, amongst other 
things, that you have to stay in bank robberies that cut across 
county lines because you are the only agency that really can do 
that, and in armed bank robberies. We probably will not have to 
do one-note robberies that can be handled by the state and 
locals.
    So, going down category by category, we are going to be 
looking to see where we can take our resources with a paring 
knife, as opposed to a cleaver and say, ``Okay, we are not 
going to do narcotics, we are not going to do this and we are 
not going to do that'' and see if we can come up with those 
resources. We are in the process of doing that now.
    I also understand that if we are not going to do anything, 
if we are going to take persons off, then we have an obligation 
to sit down and discuss with state and locals or with the DEA 
or with the Secret Service or some other agency that has to 
pick up the slack on what we are not doing and what impact it 
will have on that agency. That is part of the dialogue that we 
are currently having.
    Coupled with that is our programs that come from Congress 
and to the extent that we are participating in a program and 
have jurisdiction, it has been at the will of Congress. 
Consequently, if we are not going to do as much as we have in a 
particular area, we must come and explain what our plan is, our 
strategy is, and obtain input from the Hill.
    So, we are in the process of trying to put together the 
strategy, talking to both the state and locals as well as our 
sister agencies with the expectation in the next month or so, 
coming up and soliciting your input.

                 AGENCIES SHARING CREDIBLE INFORMATION

    Mr. Serrano. Let me take you on to another area. I am going 
to ask these questions one after the other because if I ask 
them at different times I will be accused of contradicting 
myself, so I don't want to do that. On one hand, there are 
folks that are saying, ``The FBI every so often in the last few 
months has come forward and said, 'This Saturday could be a bad 
day for this country,' '' and what kind of information did we 
have to put that out? Some people claimed that that created 
situations that were expensive to localities, perhaps, or to 
the FBI. What was it based on?
    On the other hand, you have a situation where Time Magazine 
reports that in October high-ranking Federal officials became 
aware of the possibility that a terrorist might smuggle a 
nuclear device into New York City and detonate it, with the 
potential of enormous loss of life. Yet this threat was not 
shared with government officials in New York, who are outraged 
and you can understand that.
    My understanding is that this threat was also not shared 
with the FBI. So, my questions here are: What is the FBI doing 
to deal with the criticism in some circles that you are not 
being responsible, you know, alerting us to something that may 
not be an issue for the public to be that concerned about.
    Secondly, is it true that the FBI was not informed of this 
situation in New York and if you were, then how do we explain 
not telling at least New York City officials? Now, listen, I 
didn't need to know. As a member of Congress representing the 
Bronx, if you want to tell me I will be sick for the next two 
weeks, but I didn't need to know.
    But some folks needed to know. The Police Department needed 
to know. The police commissioner needed to know.
    What do you know and what can you tell us?
    Mr. Mueller. Let me start with the previous warnings, the 
general warnings that have been issued. There have been several 
occasions where we have received exceptionally credible 
information from overseas that the United States can expect to 
be attacked. The only further information we have is that it 
would be in a window of time. I think the first alert we put 
out was for a three-day period, maybe the second one for a 
four-day period. The third one was towards the end of Ramadan. 
In each of those cases, there has been information from an 
exceptionally credible source that this would happen. The 
credibility had been vetted. But there was no specificity as to 
place, no specificity as to particular time.
    The decision was made that with that credible information 
the country should be alerted, understanding the frustration 
that we all feel, including myself, as to the lack of 
specifics. The question immediately rises in your mind, well, 
okay, what do we as the FBI do with this credible information 
being responsible for protecting the United States, but without 
any specificity as to place or mechanism.
    The belief was on these occasions, because of the 
credibility of the information and because there were time 
frames, and it is important to put the United States on alert 
and consequently the alerts were put out.
    In the case of Ramadan, particularly towards the end of 
Ramadan, it was not just one credible report, but a number of 
credible reports. Consequently, again, under those 
circumstances a warning was put out.
    With regard to the last warning which identified an 
individual and several associates with their pictures, the 
information came from several sources. The information came 
together the day before February 12th. The information was 
specific as to the day the attack would take place, but again 
there was not specificity as to the mechanism. There was no 
specificity as to the place. But there was specificity as to 
the individual. We had a picture of the individual and there 
was specificity as to the specific day.
    Under those circumstances, because we had a photograph of 
the individual and his associates, we believed it was important 
to alert law enforcement within the United States and 
consequently that alert was put out.
    I will tell you generally, without talking specifics of any 
particular instance reported, even those reported recently, 
that whenever we have specific and credible information of an 
attack on a particular locality or place, we have provided that 
information immediately to the special agent in charge with 
instructions for the special agent in charge to pass that 
information on to state and locals and to immediately work 
together with the state and local law enforcement to put 
together a plan to prevent that attack from happening.
    Whenever we have received specific and credible information 
and in those instances where we may have received information 
that is specific and we do not know the credibility, but the 
timeframe is such that we have been unable to determine the 
credibility, we nonetheless have taken precautions to prevent 
that attack.
    In those instances where we have the opportunity to 
undertake and look at the credibility of the individual threat 
and it is washed out, there may be occasions where we believe 
that it has washed out. In those circumstances, we may or may 
not inform others.
    Lastly, we realize that the system is not perfect. I 
shouldn't say ``perfect.'' It is so far from perfect that 
everybody is frustrated by the warning system out there. 
Governor Ridge is working on input not only from us but from 
law enforcement around the country. A threat warning system 
that would be graduated and would also have attendant to each 
level of threat proposed steps to be taken with each threat 
level. We are hopeful that that will be out relatively shortly.
    Mr. Serrano. Well, you have certainly, Mr. Director, 
answered forcefully and eloquently the first part of the 
question. The second part, however, am I then to assume that 
the lack of involvement with the New York City authorities 
meant that you didn't take that particular one that has been 
reported in Time Magazine as a credible threat?
    Mr. Mueller. No. I wouldn't. I would be happy to discuss 
this but I think it would be difficult for me to do so in open 
session.
    Mr. Serrano. I understand.
    Mr. Mueller. So, I don't mean to have anybody read into 
what I am saying any comment on the report in Time Magazine. I 
do want to make it clear, however, that where we have specific 
and credible threats, we have on each occasion that I am aware 
of informed the state and locals of that threat.
    Mr. Serrano. Thank you.
    Mr. Wolf. Mr. Rogers?

           SOLVING THE LACK OF DATA SHARING BETWEEN AGENCIES

    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Director, welcome to your first appearance before this 
subcommittee. I have been on the subcommittee 19 years, and 
chairman of it the last six before Mr. Wolf.
    One of the biggest headaches that we have attempted to try 
to solve is the lack of data sharing between agencies of 
government. I want to talk to you about that briefly here. We 
gather information from all sorts of places. The government, 
the CIA, FBI, the INS, the State Department, the military and 
so on. It all comes from various agencies. We pick up some 
important information about somebody that might be a threat. 
But in the past that information was not shared with other 
agencies that might be able to prevent the threat.
    9/11 was a little bit about that. In the past we have tried 
to force-feed the State Department and INS, for example, to 
share data and information to help prevent illegal aliens from 
coming across the border.
    We never could get INS and State to merge their data bases, 
much less the law enforcement agencies and the intelligence 
community, and then share that data with people like the FAA at 
airports so we could watch out for these people or share that 
with local police forces. So when we stop somebody for a 
traffic ticket they find out they are a big time terrorist 
possibility.
    So, reassure me that we are going to start sharing data 
across agencies in a shared database and then share that with 
people in the country that can use it for great worth.
    Mr. Mueller. I would like to. I can give you some 
reassurance, but I can tell you that the relationships, 
certainly since September, since I have been here, with CIA and 
other agencies has been remarkable in terms of our working 
together and sharing.
    The exchange of personnel, we do a joint threat matrix 
which requires us to merge any information on threats and then 
address threats together. But information sharing is difficult 
without the technology to support it. The fact of the matter is 
we need in the Bureau to put into place the databases that will 
give us the capability of better sharing information with other 
agencies.
    But it is not going to happen overnight. What one has to do 
is have a database that allows one to put meta data in another 
database that is accessible by other agencies who have their 
own databases, some sort of meta indexing systems so that 
somebody from the CIA, when they put in the name Mueller, will 
understand that not only is it hitting on the databases in CIA, 
but also in INS and also in the FBI.
    But I have to put in place a data base structure that 
enables us to do that as a platform for that kind of digital 
exchange which we all want and we are all driving towards. But, 
as I said, I have to clean up our own house before we can do 
what I would like to do tomorrow.
    Mr. Rogers. Is that being worked on?
    Mr. Mueller. It is absolutely being worked on. Trilogy and 
the monies you have given us will put us in the position to be 
able to do that. I also have had numerous discussions, for 
instance, with George Tenant. I have gone over on numerous 
occasions to see their computer systems and make certain that 
what we put into place will speak with what they have in place.
    I will tell you that I look at state and local law 
enforcement and as I think we may have discussed, it may be 
unique in your state. There is the capability of 2 police 
departments talking to each other because quite often they put 
in different data elements in their police reports. If you put 
in different data elements, while their software package is out 
there that will convert data elements to another data element 
in another program, it is difficult to set up.
    So, on the one hand there is absolutely the willingness and 
the desire to share. I would say also that there are dramatic 
improvements that we have done to share information, but we 
still have a ways to make it go to make it technologically 
seamless.

                           HOMELAND SECURITY

    Mr. Rogers. Is this something the Homeland Security Agency 
is working on?
    Mr. Mueller. It is.
    Mr. Rogers. There has to be a holistic approach and it has 
to be a government-wide system into which each of its principal 
parts, like yourself, can feed and be communicable.
    Mr. Mueller. That is absolutely right. The Homeland 
Security is working on that umbrella system.
    Mr. Rogers. Well, it has not happened because of a lack of 
money. We have shoveled money at Justice, State, and others to 
do this very thing for years. I remember talking to the 
Attorney General, the head of INS, the Secretary of State. In 
1985 or '86, at the beginning of this, we shoveled money at 
them and nothing ever happened.
    Are you telling me that finally the barriers are now broken 
down bureaucratically so that we will see something happen?
    Mr. Mueller. Yes, I do think they are broken down 
bureaucratically. I think everybody in the wake of 9/11 
understands the mandate and the necessity and the urgency of 
accomplishing this.
    Mr. Rogers. Well, we will see. I just think it is 
absolutely imperative that that happen. So that the person 
screening a person going on planes, knows that when such and so 
tries to get on, we have a hit on him, we have turned up some 
intelligence there.
    You ought not let that person on that plane or on that 
cruise ship or if somebody is arrested for a traffic ticket in 
Western Kentucky, that we know that they are wanted somewhere 
else for a national security violation. That is vitally 
important, would you not agree?
    Mr. Mueller. I absolutely agree. I would at the same time 
say that we have to be careful when we develop these systems, 
to make certain that we maintain them and oversee them because 
if you get false information into a database that requires a 
person to be stopped, or a person has been interviewed and no 
longer is a person that law enforcement wants to interview, it 
is critically important that the systems are overseen so that 
that person's name comes out of it.
    While we can have the technology to bring the information 
together, we also must be caretakers of that information to 
assure that it is not abused, to assure that it is overseen so 
that innocent people or persons with a similar but different 
name are not stopped or do not suffer the indignities of being 
barred from taking a plane.
    So, we are looking at it from both sides. We want the 
exchange of information. We also want to make certain that we 
do it in a responsible fashion.

            VIRTUAL KNOWLEDGE DATABASE 2003 FUNDING REQUEST

    Mr. Rogers. Well now, you have a $53 million request to 
integrate from the remaining FBI systems and other applications 
into what you call a Virtual Knowledge Database. What is that 
for?
    Mr. Mueller. We have in the FBI what I would have to call 
stovepipe systems. In fact, one of the things I will remember 
is going into the FBI Building and going down to the computer 
center on the ground floor. Their servers have gotten smaller, 
so part of that computer center there are a lot of small 
servers there that are doing a heck of a job.
    On the other side, there was all this computer equipment. 
You had Gateway there; you had Apples, using a variety of 
operating systems all in this area. I said, ``What is that?''
    He said, ``Well, these are the computer systems from the 
various divisions, whether it be criminal, intelligence, or 
counterterrorism. They had developed their own computer systems 
that could not talk to each other.'' The data elements that are 
in their separate computer systems are unavailable. If you were 
in a computer system for counterterrorism, you couldn't talk to 
the computer system for counterintelligence or criminal.
    The data warehouse puts those data elements in one location 
on a server. A person with a particular need to pull out pieces 
of that information uses a software interface that will provide 
them the information they need off of that data warehouse. It 
is important that a data warehouse be built with the 
appropriate security safeguards, since you don't want somebody 
who was not granted access to counterintelligence information 
to go in that data warehouse and pull out the information.
    But nonetheless, you can have a number of ways of getting 
into that data warehouse to pull out pieces of information that 
may be useful for a variety of different applications, whether 
it be a counterintelligence or a criminal investigation. That 
is where we have to be down the road and it is where we have to 
be if we want to build a platform upon which we set another 
database that is accessible by CIA or even state and locals 
ultimately, with some sort of indexing system or pointer system 
in it.
    Mr. Rogers. How soon will that happen?
    Mr. Mueller. Well, if I recall correctly, we hope to have 
our database migrated into what I call a data warehouse by, I 
believe, it is May of 2003.

              INFORMATION TECHNOLOGY 2003 FUNDING REQUEST

    Mr. Rogers. You have also got $145 million in your request 
for Information Technology. What is that money for?
    Mr. Mueller. Would you excuse me one second and let me 
check on that particular figure.
    Mr. Rogers. You and I have talked about the need for law 
enforcement at all levels, particularly local law enforcement 
and first responders like emergency technicians or fire 
departments, to be able to talk to each other locally or even 
across county or city lines or with the Federal agencies.
    Is this money aimed at that problem?
    Mr. Mueller. I'm having trouble tying in the $145 million. 
I think you said $145 million.
    Mr. Rogers. Yes.
    Mr. Mueller. Excuse me just one second.
    Mr. Rogers. It is on Page 91.
    Mr. Mueller. It is a number of items that we are asking for 
in that $145 million. Let me just back off and say that what 
you were talking about, I believe, in terms of the ability to 
communicate with federal law enforcement, with state and local, 
as we discussed the other day, is a communication system which 
means we are all on the same bandwidth or have the capability 
of speaking across the same bandwidths, whether it be a first 
responder or FBI agent or Secret Service Agent. I know that is 
a huge issue also.
    I also was led to believe that what is being undertaken in 
Kentucky is putting our computers in squad cars in various 
counties and those computers presumably will have the same 
software packages and the same data will be input into those 
computers in the same way, regardless of which county you are 
in, which gives you the capability then of analyzing data 
across all the counties, which is, a goal, I think, for law 
enforcement around the country.
    Going to what we have in that $145 million, one of the 
items is $8 million for computer specialists to upgrade our 
systems; $11 million to enable us to talk to the outside world, 
as I have indicated elsewhere in the past, that we still don't 
have e-mail in or out of the building because we have to put up 
special precautions to assure that our computers are not 
accessible from hackers on the outside.
    Part of that money goes to digital storage and retrieval. 
One of the things in my mind we have to do in getting away from 
paper is having the scanning and coding capabilities so that if 
an agent takes notes in the course of an interview, those notes 
are then written up, and scanned in. They are handwritten, so 
they are scanned into a database, coded to the report that is 
based on those notes and readily available at a push of the 
button down the road.
    Mr. Rogers. That would get at the problem that we had in 
the McVeigh investigation, would it not?
    Mr. Mueller. Yes, absolutely.
    Mr. Rogers. Where you mistakenly overlooked some documents 
that were to have been delivered to the court, they simply 
weren't found.
    Mr. Mueller. That should assist in that, absolutely. Part 
of it goes to our continuity of operations. What you put in a 
computer system, you have to make absolutely certain that there 
is a plan to back it up and have the same capacity and data at 
a backup facility, so if one goes down, the other one can kick 
in or if one is lost, the backup facility is available.
    Generally, what we have as well, I probably shouldn't go 
into in open session, but we have put into place plans to 
assure appropriate backup. Our legal attaches around the world 
need the same information technology that we have here in the 
United States.
    I talked about the data warehousing, and secure video 
teleconferencing. If you are trying to run a Bureau with 56 
offices, quite often, both to assure accountability, but also 
to be brought up to date on what is happening in a particular 
office, rather than traveling to that office, video 
teleconferencing is critically important.
    If you have an incident, a substantial incident elsewhere 
in the country, you would want video conferencing to bring all 
minds to bear on how to resolve it. Then just another aspect of 
it are the analytical tools that I talked about. One of them is 
Soundex. There are also analytical tools that we can utilize to 
analyze telephone toll records and other bits and pieces of 
information that are critical to painting a picture of those 
who might be intent on committing another terrorist act among 
other crimes.
    Mr. Rogers. Thank you, Mr. Director.
    Mr. Wolf. Thank you, Mr. Rogers.

               SECURITY OF SHARING SENSITIVE INFORMATION

    I am going to recognize Mr. Mollohan. Before I do, I just 
want to say this and you don't even have to answer, 
necessarily, now. I listened to all of this, which we commend 
you for, the sharing and everything. But there ought to be some 
mechanism to safeguard information. Several years ago there was 
a story that happened to be made public, that IRS employees 
were acquiring data and files of individuals. They were looking 
at them or sharing them, if you will.
    I think it ought to be very clear, particularly since you 
are going to be sharing very sensitive information, that there 
be some mechanism to be sure it is not abused and secondly, 
that if it is there is severe punishment, because I know you 
are broadening out to the number of local law enforcement 
people that will be available, squad cars and things like that.
    It is good. I think it is necessary. Mr. Rogers was really 
in the forefront of this. But I think you have to make sure 
that there is no opportunity for somebody and I know your 
people are good people, but you find one person who goes out, 
ala Hanssen, who goes out and all of a sudden he begins to 
breach security.
    So, I really think there must be some clear message that 
any violation of this----
    Mr. Mueller. May I respond to that briefly if I might have 
a moment?
    Mr. Wolf. Yes.
    Mr. Mueller. We recognize, particularly in the wake of the 
Hanssen matter, the necessity for security. Security had been 
lodged in one of the divisions in the past and perhaps it was 
not a principal focus, which is why we have established a 
Security Division with a very experienced individual from the 
CIA who is steeped in not only the physical security of 
documents, but also computer security because it is critically 
important that the safeguards be placed, as we develop the 
technology, that the safeguards be there, the audit trails, the 
computer audit trails be there. You couple that with 
polygraphs. You couple that with financial disclosure 
statements and an emphasis on security throughout the 
organization.
    That is what we are trying to do to assure that we try to 
prevent another Hanssen.
    Mr. Wolf. If you had that you would have prevented Hanssen. 
He was in there looking at things.
    Mr. Mollohan?
    Mr. Mollohan. Thank you, Mr. Chairman.

                    EXPLOSIVES DETECTION TECHNOLOGY

    Mr. Director, I understand that there has been a crash 
program put on for substance identification purposes, vehicular 
explosives, and the President has directed a couple of labs to 
move forward. I actually read that, I think, in a department 
report.
    In 1998, the committee put a directive in the conference 
report, and I will read it into the record. ``In addition, the 
conferees note the importance and usefulness of the development 
of explosives detection technology in assisting law enforcement 
personnel in the detection of explosive materials before a 
bombing incident.''
    Then it was directed within the amount provided, ``The 
conferees expect the Federal Bureau of Investigation to pursue 
research and development of explosives detection technology.''
    For the record, I would like for you to bring us up-to-date 
on that effort.
    Mr. Mueller. Well, we have a very substantial Weapons of 
Mass Destruction Unit in our laboratory that is looking at 
various weapons of mass destruction, and not just explosives, 
quite obviously. We have developed substantial expertise in 
that component of the laboratory.
    I would prefer not to get into the specifics of what we may 
be looking at in open session, but would be happy to respond, 
whether it be in closed session or by providing a briefing, on 
exactly what we have done in that regard.

                   CONSOLIDATING INFORMATION SHARING

    Mr. Mollohan. Thank you. You have talked a lot, and I think 
you were really tracking the interest of this committee for a 
number of years, as Mr. Rogers' questioning would indicate, 
about modernizing and incorporating vetting technology in your 
operations.
    As you consolidate these main investigative functions, will 
there be a synergy with existing databases; and where will that 
exist, and what role does Criminal Justice Information Services 
(CJIS) play in that?
    Mr. Mueller. Well, we are looking at a variety of ways of 
sharing information. Let me just start with the state and local 
organizations. There is the National Crime Information Center 
NCIC, which goes down to the trooper on the highway, to the 
police officer on the street, whenever there is a stop.
    That is a substantial backbone communication system that is 
utilized by law enforcement throughout the country, and can be 
utilized to share certain specific information generally 
related to individuals. Its principle purpose is to alert 
police officers and highway troopers and the like as to the 
existence of a warrant for a particular individual.
    That has been used also to assist us in alerting persons to 
individuals who we will want to or may want to interview, 
because of possible affiliation or association with terrorist 
activity. That is one mechanism and a backbone upon which we 
can have the assistance of state and local law enforcement in 
the course of our investigations.
    As a result of a meeting that I had with several Homeland 
Security Directors about three weeks ago, who expressed a need 
for generalized information, we have started putting out a 
bulletin to state and local law enforcement on things such as 
what to look for; what did we see when we did the investigation 
of the 19 hijackers that persons could look for throughout the 
country; what kind of threats have we seen; and what can state 
and locals do in a particular scenario.
    So we have tried to provide a vehicle for that general 
information, and there are a number of mechanisms out there, 
that NCIC cannot be used for that, like Law Enforcement on Line 
LEO, which is a Internet-based method of communicating; 
Regional Information Sharing System Network RISSNET, which is a 
series of databases regionalized. There are six of them 
throughout the country that are used by many state and locals. 
We have used that.
    There are a number of states now that are putting in a 
communication system. I know New York is, where they will put a 
computer on the desktop of every police officer. We will use 
that.
    There is the NLET system, the National Law Enforcement 
Threat System, that is available also for certain pieces of 
information, but is limited in certain respects.
    I think the last one I should talk about is just e-mail on 
the outside. A number of the special agents in charge around 
the country will have a separate stand-alone computer to use 
for e-mail. You can use any of the Internet Service Provider's 
to send e-mails on the open to state and locals.
    Unfortunately, there is no one good communication system 
that allows us to communicate everything we want to communicate 
to the state and locals. What we will try to do is look at 
better ways together with State and locals, whether it be 
International Association of Chiefs of Police or others, to 
merge some of these systems to make it a better way to exchange 
information.
    But there is no really efficient way out there. We are all 
hoping that we will settle on something, and I do not care 
whose it is, so long as it works. It would make it a lot easier 
for all of us.
    So NCIC are bulletins, and then I would say, in my mind, 
one of the most effective tools is the Joint Terrorism Task 
Forces, put up in each of our 56 offices, because it has FBI 
agents sitting shoulder to shoulder with state police, local 
police, sharing information. Everybody on the Task Force 
generally has a top secret clearance.
    When you sit shoulder to shoulder, many of the walls to 
sharing break down, and the information can be pushed out 
fairly quickly from our headquarters to the Joint Terrorism 
Task Forces. That, in my mind, is a very useful mechanism for 
the sharing of information, not only with our state and local 
counterparts, but also with our federal counterparts that 
usually sit on those Task Forces.

      FY 2003 FUNDING TO SUPPORT THE COLLECTION OF TOLL FREE TIPS

    Mr. Mollohan. Thank you, Mr. Director. Your fiscal year 
2003 budget includes a request for 10 agent positions and $1.5 
million to support your toll free line for collection tips.
    Mr. Mueller. Yes, sir.
    Mr. Mollohan. It is true, is it not, that after September 
11th, a significant number of your citizen tips came through a 
web page that was put up by the Internet Fraud Complaint 
Center, which is a partnership between you and the White Collar 
Crime Division?
    Mr. Mueller. Yes, sir, we actually ran that out of Atlanta. 
We pulled people in, and I think if I recall correctly, we had 
in excess of 300,000 tips that had come in on that line.
    I will tell you another vehicle that we are using now is 
the Internet, and received a substantial number of tips through 
the Internet.
    We now are using the Internet also for recruiting. In the 
last 3 or 4 weeks since we sent out word on the Internet that 
you could file an application on the Internet, we received 
something like 11,000 applications; many of them self-
professing to have the language skills, the computer skills, 
and the engineering and scientific skills for which we are 
looking at this point.
    So we are looking at any means of communication, to assist 
us in our investigations. I will put in a plug also on the 
anthrax investigation. For instance, there is a $2.5 million 
reward out there for information that leads to the 
identification and prosecution of the individuals responsible 
for those attacks.
    We get that information out on the Internet, and we receive 
the tips on the Internet or from the toll free lines. So the 
free toll line, as well as the Internet, are useful vehicles 
for us to obtain information.
    Mr. Mollohan. So the toll line, the toll free telephone 
tips, was run out of Atlanta?
    Mr. Mueller. It was.
    Mr. Mollohan. That is the one you are referring to?
    Mr. Mueller. Yes, but with help out of CJIS.
    Mr. Mollohan. The Internet Fraud Complaint partnership 
between the FBI and the White Collar Crime Center, I 
understand, ran your web page, the TIPS program.
    Mr. Mueller. That is correct, yes.
    Mr. Mollohan. Which, as I understand it, there were about 
70,000.
    Mr. Mueller. I am not certain of the total numbers, but 
there were hundreds of thousands on both.
    Mr. Mollohan. Well, my question goes to the fact that you 
have requested $1.5 million for the TIPS, the telephone line; 
but you have not requested any funding for the web-based 
effort, which was basically financed out of the Internet Fraud 
Complaint Center. I think, if you look at it carefully, that 
generated far more tips.
    Mr. Mueller. I think I have got to go back to the drawing 
board. I am not certain why we did not focus specifically on 
that. If we could hold just one second.
    Mr. Mollohan. Well, Mr. Director, you can get back to me on 
that. That is fine.
    Mr. Mueller. I will have to get back to you.
    Mr. Mollohan. That will be fine.
    Mr. Mueller. It sounds like a good idea. I am not certain 
why we did not include the request.
    Mr. Mollohan. I think if you look at it carefully, it was 
very powerful, and provided more information than anything 
else, at the time this thing went down.
    Thank you for your testimony.
    Mr. Mueller. Thank you, sir.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Latham?
    [The information follows:]

                              TIPS Program

    The Internet Fraud Complaint Center (IFCC) received a total of 
195,080 September 11 and anthrax terrorist tips between September 11, 
2001 and March 26, 2002.
    The national telephone hotline received a total of 173,244 calls 
for the period of September 11, 2001 through December 31, 2001.
    Predicated upon the volume of leads received thus far, it is clear 
that the public views the national telephone hotline as a safe, 
reliable, and effective method to report a variety of information to 
the FBI. To continue support for this valuable tool for collecting 
information and tips on suspected terrorist activity, the FBI is 
requesting an enhancement of 10 agents and $50,000 in non-personnel 
funding for telecommunications costs to reestablish a telephone hotline 
for the public to call with information related to suspected terrorist 
activity.
    Should any additional requirements be identified for the terrorist 
tip web page, the FBI will address them as they occur.

    Mr. Latham. Thank you, Mr. Chairman, and welcome, Mr. 
Director.
    Mr. Mueller. Thank you, sir.
    Mr. Latham. We had the Attorney General here last week, and 
I thanked him for what I believe--that is that you have saved 
American lives since September 11th. We certainly want to say 
the same thing to you, and thank you for your efforts since 
then. Truly, I think Americans have been spared, because of 
what you have done since then.

     MONEY LAUNDERING AND TERRORISM FUNDED WITH ILLEGAL DRUG MONEY

    I have just two questions. One has to do with the efforts 
that we are undertaking money laundering; and I guess, more 
importantly, in a state like Iowa, with a lot of the increased 
drug activity that we are seeing, I would ask you how much of 
the worldwide terrorism is funded with illegal drug money, that 
is spent in the United States?
    Can you give us any idea of how much Americans really are 
financing terrorism through the drug use?
    Mr. Mueller. I think it is very difficult to pinpoint 
exactly how much of the money spent by Americans on illicit 
drugs does funnel into terrorism. There is no doubt but that a 
portion of it does, particularly when one looks at the fact 
that Afghanistan is the home of substantial quantities of 
heroin output.
    But I think it is very difficult for us to quantify, and it 
is very difficult for us to investigate and define the trail of 
monies that may be paid to a dealer for heroin, and then up 
through the chain, and then out through either Mexico, Canada 
or elsewhere, and over to Europe or over to Southeast Asia, and 
then back into terrorism. It is very difficult to pinpoint 
those dollars as they feed back.
    But I do believe that drug trafficking has and will 
continue, unfortunately, in the future to support terrorist 
acts.
    Mr. Latham. If you have any more information on that, I 
would really be interested. If there is anything in the agency, 
or something you can provide for the record, I would appreciate 
it.
    [The information follows:]

               Drug Trafficking and Funding for Terrorism

    On March 19, 2002, in a statement before the Drug Enforcement 
Administration, Attorney General Ashcroft reinforced that law 
enforcement has long known of the strong linkages between terrorist 
organizations and drug trafficking. Of the 28 international terrorist 
groups designated by the United States (U.S.) Department of State 
(DOS), 12 use drug smuggling as their primary source of revenue. Unlike 
Criminal Enterprises (CEs) who engage in drug trafficking for pure 
profit, these terrorist organizations rely on capital proceeds from the 
cultivation, transportation, protection and sale of drugs to attract, 
train, and retain members to support their activities in the U.S. and 
overseas. These groups include Middle Eastern organizations such as 
Hizballah, Hamas, and the Taliban, and South American organizations 
such as the Revolutionary Armed Forces of Colombia (FARC) and the 
United Self Defense Forces of Colombia (AUC). In October 2000, Wendy 
Chamberlain, DOS, Bureau for International Narcotics and Law 
Enforcement Affairs, noted that under the Taliban regime, poppy 
cultivation in Afghanistan expanded from 20,000 acres to 65,000 acres 
from 1996 to 2000, making Afghanistan the world's largest producer of 
opium and heroin. In addition, a June 21, 1999 FBI report, ``FBI 
Analysis of Terrorist-Related Kidnapping's of Americans in Colombia,'' 
estimates that roughly 50 percent of the FARC's fronts are involved in 
the drug trafficking industry. U.S. government analysts estimate that 
the FARC's annual drug trade income is approximately $300 million, 
while an estimated 70 percent of financing for the AUC is derived from 
drug trafficking.
    These findings are also supported by FBI investigations which 
increasingly identify that terrorist groups are engaged in drug 
trafficking as a financial means to their ideological, economical, and 
political ends. The FBI's criminal investigations target the drug 
trafficking activities of the aforementioned groups, as well as other 
drug trafficking CEs that are linked to international terrorist groups 
who protect drug plantations and laboratories, and facilitate the flow 
of drugs into the United States.

            THREAT OF TERRORISM ON UNITED STATES FOOD SUPPLY

    Mr. Latham. One thing that is of real importance to all 
Americans is our food supply. Obviously, in Iowa, it is also a 
big issue. You know, we have threats, as far as terrorism, from 
outside, but also there are some threats internally.
    There are certain animal rights groups that have said that 
they want to infect our animals here with hoof and mouth 
disease, or mad cow disease. People are very concerned 
obviously, about the safety of all of our foodstuffs.
    I have real concerns, and issues have been brought up here 
today by a lot of other folks, about coordination and 
communication and working together and having a similar purpose 
between agencies.
    I am just curious how much cooperation there is with USDA, 
with the food inspection people, with the FBI, with other 
agencies, to look at a problem that I think could be 
catastrophic; not only for Americans' health; but also the 
livestock industry is a $107 billion industry, which could be 
destroyed overnight, and it is both an outside and domestic 
threat.
    Mr. Mueller. I think everybody across the Federal 
government is sensitive to anything that could possibly be the 
work of terrorists.
    I know there were a couple of instances recently out on the 
west coast. I think there was one in Oregon and one outside San 
Jose, in which cattle had been adversely affected. I think one 
was determined to be pneumonia, but there was another one that 
I am not certain whether it was pneumonia or something else.
    But whenever there is an outbreak such as that, that 
affects animals, we are very quick to coordinate and determine 
whether or not this is related to any terrorist activity.
    We also have been and continue to be alert to the 
possibility of a terrorist using something along the lines of 
crop dusters or some other mechanism to distribute some sort of 
chemical or other biological mechanism, to adversely affect 
either people or farmland or animals.
    To the extent that we hear anything about a possible 
threat, it is run down immediately. To the extent that that 
happened in the Fall, we can investigate some concerns about 
the credibility of the threat before we could run it down.
    We would issue an alert, for instance, with regard to crop 
dusters, as we did shortly after September 11th, when we had 
some information which we thought warranted making certain that 
crop dusters were not used for some sort of terrorist attack.
    Mr. Latham. But you do feel comfortable with the level of 
cooperation and communication between, say, USDA and other 
agencies involved?
    Mr. Mueller. Yes, I do. I mean, it is not continuing, 
because the threat is not continuing. But to the extent that 
anything is out there that would signify something out of the 
ordinary, we get together with them very quickly.
    Mr. Latham. Good, and I thank you very much, and keep up 
the good work.
    Mr. Mueller. Thank you.
    Mr. Latham. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Cramer?
    Mr. Cramer. Thank you, Mr. Chairman.
    Mr. Director, thank you for the job you are doing, and 
welcome back before the subcommittee.
    Mr. Mueller. Thank you, sir.

                        HAZARDOUS DEVICES SCHOOL

    Mr. Cramer. I want to direct your attention to the 
Hazardous Devices School, which the FBI has operated there at 
Redstone Arsenal, which happens to be in my Congressional 
district. That school has been in operation since 1981.
    Last year, we were able to transfer funds from the 
Department of Defense to improve the training capacity of the 
school. It is, for the committee's information, the only formal 
domestic training program, where State and local bomb 
technicians can learn to locate, identify, render safe, and 
dispose of improvised explosive devices.
    We thought of those explosive devices as being your 
traditional devices that blow things up, but it could be a 
combination of explosives, as well as biological, chemical, or 
radiological elements, as well.
    I would like to ask you, in this year's budget, you are 
requesting $3.3 million. I think I read that this funding was 
for training at this particular Hazardous Devices School. Could 
you elaborate on that, if you can?
    Mr. Mueller. Well, I think in the wake of September 11th, 
we wish to put through more classes and make more state and 
local and federal officers proficient in the render safe 
techniques that are taught at the school. That is the reason 
for the monies.
    I also should add that my understanding is that in January 
of this year, along with the Army Corps of Engineers, we put 
out a bid for additional construction there, and I am sure you 
are aware of that.
    Mr. Cramer. Yes, I was reviewing that with my Commanding 
General on Monday of this week. I think that is the $23 million 
that was appropriated for even the construction of the training 
villages that are going to be used there, as well as the 
administrative buildings, as well.
    Mr. Mueller. Right.
    Mr. Cramer. So it looks like that is ongoing, and what we 
would want to do is fill up those classes.

                      JOINT TERRORISM TASK FORCES

    I want to switch over to the Joint Terrorism Task Force 
funding that you made reference to earlier. One such Task Force 
exists in my home town there in Huntsville, Alabama. They had a 
terrorism conference there, which was a model conference to 
bring local and State people together there.
    As I recall from your statement, 44 of those were in 
operation around the country, is that correct, or is it more 
than that now?
    Mr. Mueller. We had 44, and as soon as September 11th, 
happened, the direction went out to start them up in every 
field office. So every field office has one, or is in the 
process of setting one up.
    Mr. Cramer. So all the field offices now have them?
    Mr. Mueller. Yes.
    Mr. Cramer. Tell me a little bit more about them. What do 
they do; what do you want to accomplish through those Task 
Forces?
    Mr. Mueller. You know, it differs as to whether you are in 
a city or not. The New York Joint Terrorism Task has been there 
since 1982. It has members of the Port Authority, the Police 
Department, the Transit Authority, the FBI, the Secret Service, 
and others, all in one location.
    Whenever there is a threat, whether it be an anthrax threat 
or something like such as what happened on September 11th, they 
pull together jointly to combine and fuse the information and 
the intelligence, and then work together on whatever cases come 
out of it.
    If you are in a more rural area, the entities that would 
participate in the Task Force might be somewhat different, but 
the goal is the same: to prevent another terrorist attack, and 
to the extent that there is a terrorist group, whether it be a 
domestic terrorist group or an international terrorist group, 
to address that group pro-actively, and with the expectation of 
preventing additional terrorist attacks; and if, for whatever 
reason, they were unable to prevent it, to join together in the 
investigation and prosecution of it. My own belief is that Task 
Forces are good if they are relatively specific onto a 
particular target.
    Mr. Cramer. Yes, you may have it, like in my area, we have 
two nuclear plants. So you may want to mobilize and conduct 
exercises through the Joint Terrorism Task Forces that have to 
do with responding, in case there is some threat at a facility 
like that; whereas, in another jurisdiction, if it does not 
exist, you might not, of course, waste your time doing that.
    Mr. Mueller. Exactly.
    Mr. Cramer. But in your budget, you are asking for a plus-
up of more than $15 million. What will that be used for? Will 
that be to strengthen them, or to increase the number of them?
    Mr. Mueller. Well, there are three ways. One is, we have 
increased the numbers. We need space, and we need joint space. 
So space is one of the needs. Vehicles for the Task Forces are 
necessary, and overtime for state and locals. Those are the 
three components that go to putting together a strong self-
sufficient Task Force.

                         INFORMATION TECHNOLOGY

    Mr. Cramer. All right, I want to come back to your 
information technology initiative efforts, which have been 
talked about so much here today, and should be, under Mr. 
Rogers' leadership and our Chairman's leadership, as well. I am 
fairly new to this subcommittee, but I want to endorse your 
efforts to try to get a better handle on that kind of 
technology.
    I spent 10 years as a prosecutor, from 1980 to 1990. I know 
that when I was leaving there to come to Congress, we were just 
beginning to get our hands on the kind of software and 
computers that we needed in order to inform us, in our small 
systems there, on what was going on right under our noses 
there.
    Who is actually directing this effort for you? This must be 
quite an undertaking. I see in the budget, it includes that 
$145 million for critical information technology projects. That 
includes an additional six positions.
    Are those positions that would involve people in designing 
and organizing these various systems that you are talking 
about? Because this is an amazing undertaking.
    Mr. Mueller. It is a substantial undertaking. We have an 
individual by the name of Bob Dies, who is a former Vice 
President of IBM, who is exceptionally knowledgeable. He has 
been with us for about almost 2 years. He committed to 2 years 
in the Bureau, and we are probably going to lose him in the 
next month or two.
    So what I am looking for is a person to replace him, and he 
is helping me to do that. That would be a CIO, a Chief 
Information Officer, as you would have in a corporation, who 
would look at not only the projects that we are undertaking, 
but also the use of technology across the spectrum within the 
Bureau.
    Critically important is a project manager. We have hired a 
project manager, who starts next Monday, for the projects. Five 
years ago, she was touted in one such magazine that looks at 
these things as one of the 5 top Information Technology project 
managers in the country.
    She delayed coming on board, principally because she was 
involved in the Salt Lake City Olympics. So when she comes on 
next Monday, these projects will be under her as a separate 
component.
    We then need a person to head up our Information Resources 
Division, which is taking care of the computers and the Local 
Area Network System and the Wide Area Network Systems and the 
hardware, and basically putting the software in.
    We have hired an individual from the Department of Defense, 
who is a database specialist, who will be working with us on 
the database warehouse and the sharing of information. We also 
have hired, from SAIC, an individual who is a documents 
manager, to look at that particular facet of what we have to 
do.
    But they are too few, and we have to fill in under them and 
we have to fill in around them, in order to have the type of 
expertise and capability to transform the institution.

                          INFORMATION SHARING

    Mr. Cramer. Well, is it under the umbrella of Homeland 
Security now, that we will attempt to coordinate what each 
agency is doing, in order for them to cross-communicate in an 
effective way with one another?
    Mr. Mueller. That is one of the mechanisms through Homeland 
Security, but we, the agencies, are involved in that. I have 
spent substantial time talking with George Tenant at the CIA, 
and our CIOs have spent a lot of time together, looking at the 
databases that the CIA has, and how they could better talk to 
the databases that we have in the FBI.
    Also, with the Department of Defense, we have become 
familiar with the document exploitation project, for instance, 
trying to identify a vehicle to image or scan and code the 
documents coming out of Afghanistan, so that they are put on a 
net that is available to each of our institutions.
    So yes, the ultimate goal of having databases that are 
searchable or indexed and available to each of the agencies is 
the goal of Homeland Security. In the meantime, we are working 
together to try to do that information sharing with the tools 
and equipment that we currently have.
    Mr. Cramer. Very good; keep up your good work. I want to 
support you in any way that I can.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Miller?
    Mr. Miller. Thank you for staying this late.
    Mr. Mueller. It is still early. I probably should not say 
that. [Laughter.]

                     CHALLENGES AS THE FBI DIRECTOR

    Mr. Miller. When you got sworn in on September 4th, you had 
a huge, huge challenge ahead of you, let alone what happened on 
September 11th.
    But a lot of the things we talked about, and you have heard 
of this before, you know, the computer systems do not talk to 
each other. You hear about culture at the FBI, that goes back 
to the Hansen times, I guess, that had to be changed. You had 
to take on that challenge, and you did on September 4th.
    Without criticizing your predecessor and such, how did we 
get into this, you know, just the computer systems to not be 
able to work, and the culture? Is it under-funding by Congress, 
or is it mandates by Congress, or is it just a system that has 
been there for decades and could not respond to the new world?
    Mr. Mueller. I think part of the issue that is cast in a 
new light by September 11th is what I referred to in my 
statement. That is, 10, 15, 20 years ago, the FBI agent could 
do just about anything. You could train an FBI agent, who had 
computer skills, in the investigative side.
    That FBI agent would investigate bank robberies for a 
period of time, become a supervisor, do the administrative 
stuff, and then become an assistant special agent-in-charge, 
then do administration back at Headquarters, and would have 
computer expertise; but would rotate through the positions they 
had at the computer side of it, if they called it IRD 
(Information Resources Division), would rotate there for two or 
three years, but did not spend his or her life dealing with 
computers. They were not knowledgeable about what was out there 
in the arena.
    So part of it is, to the extent that the Bureau has 
believed in the past that everybody could be a generalist, that 
no longer will suffice.
    When you talk about culture, and people talk about culture 
in terms of dealing with the state and locals, I have not seen 
much of that. It was there 10, to 15 years ago.
    I think a great deal of that culture is gone, and the 
vestiges are being eradicated, particularly since September 
11th. Almost everybody, I would think, in the FBI, understands 
we have got to do it together.
    Part of the problem with technology is, and it has happened 
to me in the past, one thinks that you get the computers and 
you get the software in to do the job, and you have done your 
job.
    The fact of the matter is that everybody from the top to 
the lowest, to the person all the way down the organization 
chart, has to be engaged in the transition to new technology, 
or it will not work, it will not take place, and you will spend 
millions and millions of dollars, and it will go in a deep, 
dark black hole.
    Consequently, it is critically important, in my mind, if 
you are going to shift an institution to become more 
technologically proficient, it is important to have the user 
interfaces that everybody will use, day in and day out, that 
are easy to learn and easy to use, and once they use it, they 
become proficient in it; coupled with, it is critically 
important to have the training at the outset.
    If you do not have the training, they will not use it, it 
will not take hold, and you will have wasted a lot of money on 
a number of toys and the like that just do not give you the 
response you need.
    So while we are putting in the infrastructure, and we are 
getting the technology, and we are getting the software 
packages, as important or more important is to get the training 
and the user friendly virtual case file up, so that the 
institution, as a whole, adopts it and it becomes a foundation 
upon which there is future growth. If you do not do that, then 
you are not going to get what you should out of the money spent 
on technology.
    Mr. Miller. Let me ask the question a little bit 
differently.
    Mr. Mueller. Can I say just one other thing on that?
    Mr. Miller. Oh, yes.
    Mr. Mueller. In terms of culture, and I am not certain it 
is culture, but if one does not use a computer, day in and day 
out in a variety of ways, you do not become familiar with the 
computer. We have people that are reluctant to pick up a 
computer, because they have always used the telephone, and they 
think the computer is an enemy.
    To the extent that you are describing a culture, I have to 
break down that culture and make certain that everybody in the 
institution understands it can be your friend, if you just 
spend a little time at it.
    So that is, to a certain extent, a cultural problem, but it 
is one that is not unique to the FBI. It is one that many 
institutions face, whether they be in government or in private 
industry.

                                MEDICARE

    Mr. Miller. I was not thinking as much of technology, but 
just the interactions, and maybe a lot of it has been changing 
for years, as you said, in relationships with state and local 
people.
    There was an article a couple of months of ago, and it 
relates to Mr. Serrano. You are hiring several hundred more 
agents, but you have got 4,000 right now assigned to the 
September 11th event. So obviously, you cannot keep doing 
everything.
    This article is referring to, for example, Medicare. I 
remember visiting the U.S. Attorney's Office in Tampa. I was 
kind of amazed at what a huge Medicare Fraud Division Office 
they had there. Do you have a large amount of Medicare fraud 
people? They were talking about shifting that to the Inspector 
General of HHS or something.
    Mr. Mueller. Well, we have a Health Care Fraud Program, 
which we think is important. Health care fraud is not something 
that I think we would say we should be out of, because they are 
complex cases. They are some of the cases where they cut across 
state lines. They cut across county lines. They relate to 
Federal programs and, consequently, we should be in those 
cases.
    But by the same token, we have had successes working task 
forces. For instance, in Florida, there is a Health Care Task 
Force that is very successful, which minimizes our input in 
terms of manpower. The Task Forces gives the flexibility of the 
case going through state prosecution or Federal prosecution, 
and maximizes our impact in that particular area, but minimizes 
the number of agents we have to put on it.
    So down the road, I would look to expanding our 
capabilities by participating in task forces. Then if there is 
a particular case that the I.G. [Inspector General] cannot 
handle or should not handle, and we have the capability of 
doing it, and for whatever reasons, we should do it, then we 
would pick up on a particular case. But I look at task forces 
as a way of multiplying our capability in that area.
    Mr. Miller. Well, the field offices will kind of help guide 
on their own, for example, how many bank robberies. I mean, if 
it is a local branch bank robbery by an individual, you would 
probably not get involved in it.
    Mr. Mueller. I think there has to be a combination of input 
from the field, but also if you are going to allow the SAC to 
determine priorities, there has to be accountability and 
follow-up, and assurance that what resources are given to the 
Bureau are utilized for those investigations that are 
particularly within the expertise of the FBI.
    If the investigation can be done by another entity, whether 
it be state or local, or the I.G.'s Office, or DEA, then my own 
belief is, we ought to explore allowing that other agency to do 
it. It is where we have a particular expertise or capability, 
that I think we ought to play a role.
    The one thing about the Bureau is its flexibility, and its 
ability to address a particular challenge in a way that other 
agencies with much more limited jurisdiction cannot address. 
Consequently, I think we have to look at our jurisdictional 
efforts in somewhat of a fluid way, depending on the challenge 
of the moment.
    Clearly, the challenge of the moment right now is 
counterterrorism. Consequently, those generalized agents, who 
are very capable of doing bank robberies or counterintelligence 
investigations, can be brought on board to address the 
counterterrorism threat.
    Five or ten years down the road, it may be another savings 
and loan threat, where we would have to pull manpower from 
something else and put it there. That is one of the great 
benefits of the Bureau, in my mind.
    But that fine tuning or, how do I want to say, paring what 
we do in particular programs is a continuous process, and has 
to be looked at very carefully, so we do not over-extend it. We 
can do it and focus on our priorities, and not waste some of 
our resources in areas which are covered by our counterparts, 
whether they be federal or state or local.
    Mr. Miller. Almost a third of your agents now are assigned 
to terrorism issues.
    Mr. Mueller. That is correct.
    Mr. Miller. I think with a third of your human resources in 
one area, you have got to give somewhere else, but I guess the 
flexibility is there.

                            LEGAL ATTACHES

    Just to conclude, I have met some of your legal attaches 
around the world, and I have dealt with issues of extradition. 
I have been pleased to see that I think what it is doing is 
establishing better working relationships with their 
counterparts around the world. That is a good program to 
strengthen.
    Mr. Mueller. It has been very important to us. I will tell 
you, in the wake of September 11th, we had I think it was 87 
special agents who were on special detail overseas to assist 
our legats in running down leads with their foreign 
counterparts. Having those legats in particular cities was 
instrumental in our ability to put together the portrait of the 
19 hijackers, as quickly as we were able to do it.
    Mr. Miller. Well, we are impressed with the job you are 
doing. We are proud of you, and you make us proud. Thank you 
very much.
    Mr. Mueller. Well, thank you, but it is the people in the 
Bureau that are doing the work, working the 12 hours, and 
accomplishing that to which you advert. So they appreciate it. 
Thank you.
    Mr. Wolf. Thank you, Mr. Miller.
    On the Legats, I agree with Mr. Miller. I looked at the 
program that you are going to have, and I did not see anybody 
in West Africa. In West Africa, you have diamonds, al-Qaeda, 
Foday Sankoy, Charles Taylor. Charles Taylor books up to Libya, 
comes back. Foday Sankoy goes to Libya, comes back. The 
Lebanese market of diamonds is coming at us. Sierra Leone is 
coming at us. Angola is coming at us.
    It is not a garden spot to go to, although it is very, very 
important. I really think you cannot serve West Africa from 
Nigeria; you cannot. You have the Burkina Faso, you have Benin, 
you have that area.
    It is a very dangerous area. You know, I really think you 
ought to have somebody there. I have written you, and we have 
not received word back.
    We were in Sierra Leone two years ago with Congressman Hall 
to see the Lebanese diamond trade. A Washington Post reporter, 
Doug Farah, I think frankly ought to get a Pulitzer Prize. He 
broke that story and, frankly, I think had a lot more 
information than our people.
    That has got to be wrapped up, and I mean, absolutely, 
positively, categorically, so when someone says we cannot 
really get in there, because we do not really have somebody 
there, you cannot do that for Nigeria.
    So I did look at the Legat list. I think you are expanding 
it to the right countries, and I think Mr. Miller is right. But 
I really do think you need somebody in West Africa. If they go 
to the Ivory Coast, the living conditions might be better there 
than in other places; but I think Sierra Leone would probably 
be a good place.

                          POST HANSSEN REPORTS

    On the Webster Report, could you tell us about it? I 
appreciate that you were very candid in your opening statement. 
I did not read the books about Hanssen. I know you have former 
Director Webster looking at it and the I.G. is looking at it.
    But when I read the reports about it, the news reports and 
the magazine stories, I mean, it sickens me, it depresses me, 
it angers me. The thought that Hanssen's brother-in-law came in 
and told. I would like to know whom he told.
    If an FBI agent, of which I assume Hanssen's brother-in-law 
was, comes in to the Bureau and says, this fellow who happens 
to be my brother-in-law is doing this and the Bureau does not 
track it down, I find that is almost beyond me to understand.
    And some of the activity that Hanssen was involved in, was 
that not known? So I would like you to tell us when the Webster 
investigation will be over, or when the I.G. investigation will 
be over. Based on what you are seeing, what do you think?
    Also, the microphone in the chair molding in the State 
Department, nobody ever found out who put that in there. To 
come in and take a chair molding off and put it in there, and 
put it back on and paint it. I installed some chair molding at 
home and it is very tough, unless you have a lot of free time 
for a couple of weekends.
    So how did that happen that somebody actually came in and 
put that microphone there? He is still around here, or she is 
still here. So could you bring us up-to-date on the Hanssen 
case, and the Webster and I.G. reports?
    Mr. Mueller. Yes, Mr. Chairman, I cannot recall when the 
I.G. report will be forthcoming. I think it will be some time 
soon. I know the Webster Report will be forthcoming relatively 
shortly, I believe, within the next month or six weeks, 
perhaps.
    I will tell you that there is not an agent or an analyst or 
a support person in the FBI that is not as sickened and 
horrified by Hanssen; disgusted, embarrassed, ashamed, and 
shares your concern about what happened.
    The Webster Report, I believe, will recommend, and I have 
not seen it, but we have tried to anticipate, by looking at our 
lapses of security that were highlighted by the Hanssen case, 
and we put in place the mechanisms to try to assure that this 
does not happen again. I had mentioned a few previously. That 
is the Security Division, with Ken Sensor in charge of it from 
the CIA.
    Mr. Wolf. How long has he been with the CIA?
    Mr. Mueller. I am not certain how many years, but it was a 
substantial period of time. I believe he has briefed you, but 
if he has not briefed the subcommittee, I would be happy to 
have him come up.
    But I think you will find him to be exceptionally 
knowledgeable and professional, and is intent on establishing a 
Security Division that is equally professional and 
accomplished, putting persons in there whose background and 
experience will assure the security of this institution.
    That means not only the security with regard to the 
documents, what is spoken by agents or others in the Bureau to 
others, as well as the security on the computer, with the 
tracking of individuals as they log on/log off, the audit 
procedures which are necessary, all of which are part and 
parcel of that which we are trying to do to assure that this 
does not happen again.
    We will look, when the Webster Report does come out, to see 
what we have not yet fixed, and get it fixed quickly. I think I 
mentioned earlier that we have the polygraph program, which 
will be expanded. We have audit procedures for our current 
investigative programs that have been upgraded. We are doing 
reinvestigations on schedule.
    We are hiring security officers, thanks to the monies that 
you have given us, and there are a number of other areas where 
we are trying to assure that we can anticipate or do anticipate 
that which will come out in the Webster Report. Nonetheless, 
there may well be suggestions there that we will look at and 
discuss, and presumably thereafter adopt.
    Mr. Wolf. Will there be two versions, a public and a 
private version?
    Mr. Mueller. I am not certain. There probably will be a 
private and there probably will be a public, because it would 
relate, I imagine, to our current capabilities and anticipated 
capabilities.
    With regard to the I.G. Report, I know that the instance 
relating to the brother-in-law has been turned over to the I.G. 
to look at that. Quite obviously, when that comes out, we will 
look at what additional perspective that gives us on what 
happened with Hanssen.
    As you are aware, he has pleaded guilty, has been 
debriefed, and is scheduled for sentencing, and I am not 
certain of the particular date. There is a damage assessment 
effort that is underway by the intelligence community. We hope 
to put into place procedures so that such a thing does not 
occur again in the future.
    Mr. Wolf. Well, if you would keep us informed, I would 
appreciate it. You know, you had Ames in the CIA, and then you 
have had this. I was in Perm Camp 35, where one of the men was 
turned in by them, as a result of that.
    Of course, as you know, you have read that several of those 
people who were from Russia, who worked for us, died as a 
result of this, and then to jeopardize the national security.
    I think it also has to be looked at in addition to not only 
the former Soviet Union and some of these other countries, but 
there are some countries who now have the ability to pay people 
a lot of money, who may not be viewed as completely the enemy.
    So compared to what the Soviet Union and former Soviet 
Union was paying, these other countries could pay a lot more. 
So I think it is a long, ongoing problem, not just with regard 
to Russia or China but some other places.
    Mr. Mueller. May I just comment on one aspect of that, if 
this is an appropriate time?
    Mr. Wolf. Sure.
    Mr. Mueller. I did not mean to interrupt, sir.
    Mr. Wolf. No, go ahead.
    Mr. Mueller. But one of the things that I have come to find 
is that in my mind, most of the criminal work we do, which is 
70 percent of it on the criminal side, is generated at the 
local field level, whether it be a Medicare fraud or a bank 
robbery or some other crime. Seventy percent of it is out there 
in the field office.
    The presumption should be that the SAC should run those 
investigations, be on top of them, and I hold them accountable. 
I want to hold one person accountable, and I hold the SAC 
accountable.
    When it comes to a national program, like 
counterintelligence or counterterrorism, I hold the Assistant 
Director in charge of those divisions accountable for what 
happens around the country.
    Wen Ho Lee is an instance where there may have been some 
balls dropped between the headquarters and the field, because 
there is not one person accountable. In a national program, I 
want one person accountable, to make certain that we do things 
right.
    When it comes it espionage, I just signed off yesterday on 
a new unit within the Counterintelligence Division, that will 
be directly solely at counterespionage investigations, where we 
will pull together. In the past, they have been somewhat 
dispersed among sections.
    My hope in talking with Dave Szady, who is the new person 
that took over counterintelligence, is that this new unit will 
give a focus to counterespionage, such as we have not had in 
the past; and will enable us to not only on the one hand put in 
the security fixes, but on the other hand, give us a 
capability, my hope is, to better identify those persons who 
are committing some sort of espionage within the United States 
or against the United States.

               NORTH ATLANTIC TREATY ORGANIZATION (NATO)

    Mr. Wolf. Well, that is good. I sense that the use of 
recruitment has not been as extensive over the last couple of 
years.
    During the Reagan Administration, there was a great effort 
to recruit, and actually with the Jamestown Foundation, to 
bring people over. Many of them have used the former Polish 
Ambassador to the United States, met with Ronald Reagan and 
defected. There were a number of people who gave us a lot of 
information.
    I will not get into specific countries. I am going to ask 
you about one country later on. But my sense is that even some 
of the countries that may very well be clamoring, and perhaps 
even hiring high powered Washington lobbyists, to get them into 
NATO, were sending their foreign ministers and coming over and 
speaking to our State Department, and sending their defense 
people over to speak to our people. Many of them are good 
countries. Let me just say, they are good countries. I am not 
going to mention any names.
    My sense is on certain occasions, and I am not going to ask 
you to verify this, but I believe they have intelligence 
services working against our Government. I believe they are 
also spying against our companies. I believe they are also 
making efforts with regard to stealing high technology 
information that they take back.
    So the message should go forth, I think, before the 
Administration allows people to enter NATO. We really cannot 
have a country from a former Eastern Block, that is spying 
against us, using espionage against us, using the former 
Securitate or whatever we call it, and also trying to steal 
high technology from our high technology companies, and then 
say, we really are anxious to be part of NATO, to be defended 
should anything happen.
    I think there is a little bit of a disconnect. I know there 
are still some of these countries that are making efforts 
against us. It is almost like there is a game. Politically 
outside, we meet and we talk. You know, they go to dinners and 
they share things, and underneath, bad things are happening by 
people. Well, if you are going to join NATO, that is totally 
unacceptable.
    So the Administration needs to get a full briefing from you 
as to what these countries are doing, and what they are doing 
as of March 6th or 7th. Because if they are doing it now, you 
know, and then once they come into NATO, will they not 
continue?
    It is very hard, when the Berlin Wall fell, there were very 
few Communists truly there. A lot of the people yearned for 
freedom. I had family in Eastern Germany, and when I used to go 
Romania, they wanted to be free of the yoke of Communism.
    But some of the secret agents and the security police, all 
they did was, they changed their jerseys. They took their one 
jersey off and they put the other jersey on.
    Some of them are now back in government. Some are the 
nomenclature who are now doing great businesses, and are coming 
over here and staying at the $500 a day hotels up in New York. 
They are the same people. They were there when the Wall fell, 
and now they really have not changed. They wish us no good.
    So I think it is important to make sure these countries do 
not participate. You have to share that information with the 
Administration.
    I was told the other day that there are a large number, and 
I am going to mention the country here, of companies operating 
in the U.S. who are actually owned or controlled by the Chinese 
military, the People's Liberation Army. Are we aware of the 
number of Chinese-front companies that are coming into the 
United States operating, with the sole purpose of espionage 
against us; and also to steal high technology information from 
perhaps Northern Virginia, or the Silicone Valley?
    Keep in mind, here you have a Chinese company, perhaps 
controlled by the People's Liberation Army, and we get this 
warm and fuzzy feeling, when there are still 11 Catholic 
bishops in jail in China. There are several hundred evangelical 
house church leaders in jail in China. They have plundered 
Tibet in China.
    They have a large number of Buddhist monks and nuns that 
are in prison in the Drapchi Prison, being tortured probably as 
we now speak. They are persecuting the Muslims in that area, 
that northwest portion of the country.
    They sell organ transplantations. If you needed a new 
kidney, for $45,000, you could go over there and get a new 
kidney. They have more slave labor camps in China today than 
they had in the Soviet Union when Solzhynitsyn wrote the book, 
``Gulag Archipelago.''
    So there is almost a rebuttable presumption that a Chinese-
run company that is here in the United States may not be up to 
very much good. Are we aware of the number and the activity of 
those companies that are doing business here in the U.S.?
    Mr. Mueller. I would respectfully ask, if we could discuss 
that in something other than open session. I would be happy to 
discuss that with you, but I would prefer to do that way.

          VICTIMS OF TRAFFICKING AND MIGRANT SMUGGLING CENTERS

    Mr. Wolf. Okay. There are 50,000 women and children 
trafficked every year. The Attorney General created a new 
Victims of Trafficking and Migrant Smuggling Center.
    I know you have been active, and Director Freeh set this 
up, and I appreciate it very much, the Southeast European 
Cooperation Initiative. I think they have their headquarters in 
Bucharest.
    Can you give us some sense of how many FBI agents are 
assigned to that, and how many agents you have working on the 
issue of sexual trafficking, realizing, I understand, 911 has 
changed some things? But I just want to get some sense of the 
emphasis that the Bureau is putting on sexual trafficking.
    Mr. Mueller. Well, we have one agent detailed to the 
Southeast European Cooperative Initiative currently. We have 
authorization to place other agents in Albania, Bulgaria, 
Moldavia, and Macedonia, which we will be looking at.
    Mr. Wolf. I would hope that you would do that for several 
reasons. One, that is where the trafficking of women starts, 
coming out of Moldavia, coming out of Romania, going to 
Albania. There are fast boats crossing into Italy.
    I think also there would be a spill-over. My sense is, some 
of the groups that are doing the trafficking of women are also 
moving drugs, are also moving weapons, and are involved in 
different things.
    So I think there is an inter-relation. As you mentioned, we 
do not want to get out of drugs, and I do not think we ought to 
get out of drugs.
    Macedonia is very, very fragile. Kosovo, we know the 
problem there. There was a report out that some U.N. personnel 
were involved in trafficking of women in Kosovo. Here are the 
people that come in to help, and they are exploiting the 
people. So I think that continued emphasis in this would be a 
good idea.
    Now I know you are stretched, and to Director Freeh's 
credit, I think a lot people did not realize what a good job he 
did by putting these people abroad.
    I had even heard some criticisms of well, why have the FBI 
in that country? Well, that country, as you say, they are now 
developing the relationships with the law enforcement people, 
and have that ability to provide information. If we just sent 
somebody over here and they spent three months, they would not 
have that relationship. So I think it is a good thing.
    I do not know if you can put all five in there, but that is 
ground zero for sexual trafficking; 50,000 women and children a 
year are coming into the United States. There may be 700,000 
here in the U.S. that have been brought here. They take their 
passports away.
    Mr. Mueller. We have made a small contribution. It is not 
as large as I would like; but we participate in the Human 
Trafficking Task Force that is supported by Romania, as I think 
you are probably aware.
    Through our assistance, that Task Force has liberated 318 
exploitation victims and arrested 64 human being traffickers. 
So the work is being done. We are participating in it, and we 
want to continue to participate.
    I will say that one of the meetings I have had on this 
issue since I have been Director, was with Gary Hougan, who is 
with the International Justice Mission, who was very much 
involved in this. We sat and discussed what the FBI has done, 
and what the FBI can be doing more of to assist in addressing 
this scourge. We intend to fully participate with our 
counterparts overseas to try to address it.
    Mr. Wolf. In some of the countries, the local law 
enforcement are actually involved.
    Mr. Mueller. Yes.
    Mr. Wolf. Local law enforcement are running prostitution 
rings.
    Mr. Mueller. Yes, that is a problem.
    Mr. Wolf. Also, I think you need to go after the kingpins 
to release the women and children. That is very positive. It is 
not the person who is driving the car or the fast boat, but it 
is the guy who sits in the big fancy restaurant in Skopje or 
Bucharest, who is really the guy who needs to be caught.
    So I think your law enforcement people have to be involved 
in encouraging the Romanians. President Eliscu desperately 
wants this. He can taste it. He wants to get into NATO. Well, 
there is a report through the bill that the Congress passed 
with Congressman Chris Smith and Senator Sam Brownback that 
calls for a report.
    If your people are there, they admire the FBI. As we admire 
the FBI, they admire the FBI. I think you embolden them. I 
think there is an opportunity between now and when they begin 
to make this decision on NATO to really, really push.
    So I think you have got to get the top guys and get the 
governments to really, really be pushing, more than just 
arresting. Sometimes, they actually arrest one person or two 
people, and they have not done anything to break up the ring.

                     INFORMATION EXCHANGE WITH DEA

    Before I recognize Mr. Serrano, do your people meet 
regularly with the DEA to glean their information that they are 
getting from all of this?
    Mr. Mueller. We do meet. I am not certain that we have met 
as often as we should. I know I have had a conversation last 
week with Asa Hutchinson to address ways in which we can 
utilize our technology better together; let me just put it that 
way.
    I will tell you, in the wake of September 11th, I think we 
were very closely aligned. We had DEA and the Task Force in 
Desayak participating fully. As we have gotten further away 
from the events of September 11th, and the agencies are no 
longer co-located, that type of integrated exchange of 
information is not as easily done, and we have got to make 
better efforts to make certain we are integrated.
    Mr. Wolf. That fits in somewhat with Mr. Rogers.
    Mr. Serrano?

           TRANSLATION OF DOCUMENTS AND HIRING OF TRANSLATORS

    Mr. Serrano. Thank you, Mr. Chairman.
    There was a report, Mr. Director, that there had been a 
serious problem with getting translations for some documents. 
At one point, supposedly there were boxes of documents that had 
not been translated, that were still not dealt with.
    So part of my question is, have you had any success in 
hiring people who speak different languages? As an add-on 
question to that, what have you been doing to diversify the 
force and the number of agents you have?
    Let me just say something else. Forgive me for 
interrupting. I do not want to say that there has been anything 
positive about September 11th, but if we ever reach that 
conclusion that there was, it is the way that people have come 
together in this country, and the fact that a lot of folks who 
would have never thought of having a career in a certain agency 
of the Government now feel that is their patriotic duty.
    So for instance, I find people approaching me in the Bronx, 
asking me, how do I join the FBI; how do I join the CIA? You 
know, these are people that if I had suggested that to them 
years ago, they would probably, at a minimum, not voted for me.
    Mr. Mueller. That is what I want to hear. [Laughter.]
    Not that they are not voting for you, but that they are 
coming up and want to be FBI agents. That is what I want to 
hear.
    Mr. Serrano. So what success, if any, are we having on that 
front, and about the translators?
    Mr. Mueller. Well, let me talk first about the translators. 
Before September 11th, we did not have the numbers we needed.
    As to boxes being untranslated, well, we have to 
prioritize. There are a number of national security matters 
that we handle. It is very difficult to obtain translators for 
every word, as in real time. So we have to prioritize.
    I do believe that where we need to have the translating 
capability to assure that we are getting information in real 
time, as to the possibility of a threat, we are doing that, but 
it requires us to prioritize our translators.
    We made a substantial effort, after September 11th, to 
enhance our capabilities. We have hired, since October 1st, 39 
contractors, 33 Arabic, 4 Farsi, and 2 Pashto, and another 3 
language specialists.
    We have backgrounds completed with security adjudication 
pending on another 97, and we have 246 contract linguists going 
through background investigations currently. That is, as I say, 
in Arabic, Farsi, and a number of other languages where we need 
the specialists.
    We had what we call Tiger Teams to work with the 
individuals. We had a substantial, substantial response when we 
went out and made requests for people to volunteer. 
Unfortunately, you find that many of them do not have the level 
of skill that they think they do, and then there are maybe 
other problems with regard to background. But nonetheless, we 
are vastly improving our translating ability.
    With regard to our special agents, as I mentioned, we had 
approximately 11,000 on-line applications, since we allowed on-
line applications, which was maybe a month or two months ago, 
which is overwhelming.
    We have changed the recruiting profile from lawyers, 
accountants, former law enforcement, and military, which are 
basically the four categories that we had before, to focus on 
computer specialists, engineering, language specialists, 
physical scientists and the like.
    Of those 11,000, agent applicants for instance, through 
candidate self-assessments, there are 1,400 computer 
specialists, 600 engineering specialists, and 2,000 language 
specialists. We have to both recruit, hire, and train almost 
900 agents this year, and we are well on our way to 
accomplishing that.
    As we go further along and have focused on particular 
skills that the new Bureau needs, we will be enhancing our 
computer capabilities, language capabilities, and science 
capabilities with the new agents we are bringing on board.
    We are not there, but we are moving to the type of diverse 
special agent force, as well as the grouping of translators, as 
well as support that we need to accomplish our new missions.

                           RECRUITING ON LINE

    Mr. Serrano. Let me ask you, you spoke about on-line. That 
is almost like self-recruitment, I guess. You already sort of 
have to want to sign up.
    I remember when I was in school, the military would come 
around and try to get everybody to sign up. Do you do outreach 
in other ways that I have not noticed?
    Mr. Mueller. We do. Every field office has agents that are 
designated as recruiting agents for purposes of going around in 
all diverse elements in the community and recruiting, whether 
it be high schools or colleges, in a diverse cross section, and 
businesses.
    Currently, you have to be 23 years of age. So if you are 
coming out of college at 22, you are going to have to get a job 
and work before you can get into the FBI.
    The philosophy behind that is, we want those who join the 
FBI to be committed to staying with the FBI, once we give them 
the training, and also be mature, because you are giving them a 
weapon. You are giving them an awesome responsibility to 
investigate and adversely affect people's lives. We want the 
maturity and dedication to both learn and to exercise those 
responsibilities in a mature and appropriate fashion.

                               LAW SUITS

    Mr. Serrano. I read last week that the CIA has a couple of 
lawsuits. Both are from African Americans who felt they were 
treated improperly by the agency and were eventually let go. 
Does the FBI have any kind of issue in place regarding that? 
Are there any cases pending?
    Mr. Mueller. In the past, there have been cases and they 
have been resolved. There are procedures now in place that are 
pursuant to resolution of those cases.

                          UNDOCUMENTED ALIENS

    Mr. Serrano. Let me ask you a question. The Chairman was 
speaking about the trafficking of women and children.
    There have been quite a few cases in South Florida of 
people who have been accused of allegedly taking boats and 
going to Cuba, and bringing in undocumented aliens. But these 
were not people involved in bringing people to ``freedom,'' but 
rather getting paid to do that. Do these become your cases to 
handle, or do they go directly from the Coast Guard to a court?
    Mr. Mueller. I would have to get back to you on that. I 
know Immigration would play a role in that, quite probably; but 
in certain circumstances, I think we might, also. I would have 
to get back to you, to see exactly what our jurisdiction would 
be on that, and whether we do handle those cases. Off the top 
of my head, I just do not know.
    Mr. Serrano. All right, I would like to know that, if you 
could get that information back to me.
    [The information follows:]

                          Undocumented Aliens

    The Immigration and Naturalization Service (INS) has sole 
jurisdiction in matters related to the detention and deportation of 
aliens under Sections 284-286 of the Immigration and Nationality Act 
codified in Title 8 U.S.C. 1324-1326 and has jurisdiction to 
investigate the smuggling of aliens under Title 18 of the Federal 
Criminal Code. The Coast Guard often intercepts both illegal and 
smuggled aliens at sea and repatriates them pursuant to Executive Order 
and bilateral agreements between the United States and other nations. 
However, in certain circumstances, the Coast Guard may, at INS's 
request, land suspected smugglers for further INS investigation.
    The Federal Bureau of Investigation (FBI) gained jurisdiction under 
Title 18 U.S.C. to investigate immigration related crimes through the 
1996 Antiterrorism and Effective Death Penalty Act. This act 
specifically established alien smuggling as a Racketeer Influenced and 
Corrupt Organization predicate.
    Overall jurisdiction between INS and FBI investigative authority is 
laid out in a Memorandum of Understanding (MOU) dated June 30, 1997. 
The MOU recognizes that INS has sole investigative authority in all 
cases involving violations under Title 8. However, when an INS field 
office receives information during the course of an investigation 
indicating a possible violation of predicate offenses over which the 
FBI has primary investigation authority, such as the Racketeer 
Influenced and Corrupt Organizations Act, the FBI field division 
covering the area in which the alleged violations occur would be 
notified immediately. When alien smuggling or document fraud is the 
primary predicate violation, the INS is the lead agency in the 
investigation. The MOU serves to provide a basis for the INS and FBI to 
joint investigative forces and initiate enforcement actions designed to 
disrupt and dismantle criminal enterprises, including smuggling 
organizations.

                   PUERTO RICO AND STATEHOOD SUPPORT

    Let me take this opportunity, Mr. Director, to do what I 
have done in private and what I have done in public for the 
last couple years, and that is to thank the FBI for having made 
available to the public, and you are in the process of making 
available, 1,800,000 files that were kept from the 1930s to the 
late 1970s, mostly on the independence movement or followers of 
independence for the Commonwealth of Puerto Rico.
    Director Freeh, sitting in that chair, told us that this 
was a terrible time for the agency, and that it was not a kind 
of thing that the agency or this country should have been 
involved in. Since this, much has been published in Puerto Rico 
and throughout the Puerto Rican communities about folks whose 
lives were ruined and how horrible that was.
    It starts off in early 1930s, with one agent writing to 
Director Hoover and saying, there is a gentleman here who is a 
Harvard graduate, who speaks five or six languages, who wants 
independence for Puerto Rico, who writes for the local 
newspaper, and was going to run candidates who favor 
independence in the next election.
    That started a 60 year persecution. You wonder, you know, 
how could it have gotten so out of hand, when everything he 
accused the guy of doing was in the greatest of American 
traditions: freedom of the press and elections and that kind of 
thing?
    One, I want to thank you for continuing to release those 
files to us. Secondly, getting back to my first statement 
today, how do we make sure that during this difficult time, we 
do not begin to react to people who disagree with any bit of 
our national or foreign policy, and begin to peg them as 
enemies of the State or enemies of our country, and do this all 
over again?
    Keep in mind, there have been other cases throughout our 
history, but in this particular case, these were folks who 
simply believed that the best solution to what I consider to be 
a problem, this commonwealth status, was independence, and for 
some people, even statehood.
    The FBI files indicate that people who were strong in their 
support for statehood were also looked on as a problem. In 
other words, anybody who was against the status quo was seen as 
a problem, and it has been a very sad moment. How can we avoid 
that happening again during this period of time?
    Mr. Mueller. Well, I think there are a number of ways that 
we have to do this. One, it is important, particularly in the 
wake of September 11th and in any investigation resulting after 
that and relating to terrorism, our agents have to be, should 
be, and I think, have been, professional in their dealings with 
those that they are interviewing, those with whom they come in 
contact from the various communities in which we will have to 
operate.
    The direction has gone out to the agents to treat people as 
you would want to be treated yourself. On several occasions, 
where persons have been held, either as material witnesses, or 
in one case as we come to find out, accused based on evidence 
that was erroneous and presented to us, the individuals have 
indicated to the press and others that they were treated with 
respect and appropriately by the FBI, and that is critically 
important.
    It is important when, as in the one case in New York, where 
we got false information from the security officer from a 
hotel, and a person's life was put on hold, while that person 
was arrested, that we go back and investigate it, as we did. 
The person who gave us false information pled guilty last week. 
We have to assure that this cannot happen again.
    It is critically important, because we have the civil 
rights jurisdiction, that we aggressively investigate hate 
crime violations. In the wake of September 11th, we have put a 
priority on addressing that. We have initiated 316 hate crime 
investigations nationally involving Arab Americans since 
September 11th.
    We have brought charges, or charges are being brought, 
against nine individuals in Federal Court, and another 70 
individuals have been prosecuted in state and local courts. 
That is critically important, to send a message out that it is 
not a community, it is not a grouping of people; but that it is 
individuals who are responsible, and in your investigation of 
those individuals, you have to have predication for each 
further step of the investigation.
    Lastly, I think this is important, and I have tried to do 
this. We meet periodically with members of the Arab American, 
the Muslim American, and the Sikh American communities, to 
receive both input and suggestions; and to assure that there 
are open lines of dialogue between the communities, to assure 
that both they understand, as well as the public understands, 
that we are not looking at a community. We are not looking at a 
religion.
    We are looking at individuals who have committed acts; and 
it is important, when you look at the individuals, that there 
is adequate predication for each step of the investigation. 
That is what we are trying to do, to assure that we do not 
repeat some of the stages of the FBI's past that have not 
looked good, in retrospect.
    Mr. Serrano. I know that nothing that you have said here in 
the last couple of minutes is secret. So I would suggest to you 
that you try to publicize what you just told me. I did not know 
what you just told me. I did not know that some people had been 
prosecuted. I did not know that you meet with people from the 
various communities on a regular basis.
    If I may serve as your public relations advisor for a 
second, I think the people should know that. The people should 
know that while you are doing this, you are also doing that. 
Too many people think that it is just the INS, with your 
support, detaining thousands of people. Attorney General 
Ashcroft said it was a couple hundred.
    That is what people think is happening. But what you just 
told us today is something totally different, and I think the 
people should know that.
    Other than that, I want to, once again, echo all the folks 
who have thanked you for the work you have done for our 
country, and for the city that I was raised in and that I 
represent, and to tell you that I will join Chairman Wolf in 
doing the most that we can to make your budgetary year a 
success.
    Mr. Mueller. Thank you, sir, and I must be constrained to 
say that the agents we have up in New York City, and what they 
did, in the wake of September 11th, was truly remarkable.
    They operated out of a garage for a number of days and 
without communications. But that did not slow them down one 
iota in terms of doing the investigations that had to be done. 
It is the agents that are the agency.
    Mr. Serrano. Well, tell them, for a very grateful city, 
that we appreciate what they have done.
    Mr. Mueller. Thank you, sir.

                         POST-GRADUATE TRAINING

    Mr. Wolf. All right, I have just a couple more questions 
and then we will wrap up.
    Do you have university post-graduate courses, like the 
Army, or the Navy which allows a colonel or major to take a 
year off and go to George Washington and get an MBA, or some 
will go to the War College at Carlisle? Do you do that type of 
thing?
    Mr. Mueller. We do it, but we do not do it as much as we 
should, and I am looking to expand that program. We have 
isolated instances; for instance for the War College, I believe 
we do. But it is more isolated than it should be, and we ought 
to do more of that.
    One of the things that is critically important to me is to 
develop leaders. In my mind, everybody in the Bureau has to be 
leader. If you want to be a special agent, that is fine, but 
you had better be a leader in your community.
    Leadership is not something that is necessarily passed down 
in the genes. You have got to learn. Certainly, to the extent 
that there is anything there, I learned, and we are teaching 
that.
    We are including in our courses now, leadership training. 
It is important in developing leadership that you have a number 
of different experiences; and experiences such as going to a 
War College, or taking a year off and exploring a different 
discipline gives you that type of breadth that would make one a 
better leader, particularly in an institution that some have 
accused in the past of being insular.
    It is important to have those different experiences, so you 
bring a breadth of experience back into the Bureau, and the 
Bureau is benefited by those experiences.
    Mr. Wolf. I think the military has done that.
    On recruitment, are you having trouble with regard to 
training? I mean, you are having people apply on the web. Can 
you channel this? Do you have enough facilities? Are you able 
to train?
    Mr. Mueller. We are. It is a question of prioritization, 
but our training facilities at Quantico are very crowded. We 
are looking at coming back with expanding that facility to 
accomplish what we would like to do in training. We started 
last week a university for analysts. We started our first 
class, so we are training analysts to have the skills that we 
need in the Bureau.
    My expectation is that we will be training instructors with 
the CIA, for instance, because they are far ahead of us, in 
terms of training analysts. We would like to expand that 
training facility.
    I will tell you another aspect of it. The Bureau really is 
only as good as its relationships with state and local law 
enforcement. We are only successful to the extent that we have 
a good relationship with law enforcement at every level of the 
country.
    The National Academy, which we have run for a number of 
years, is one of those often overlooked jewels in the Bureau, 
that is respected, not only within the United States, but 
around the world, as a wonderful opportunity for persons to 
obtain training.
    I am looking to try to expand that capability; because when 
you train with others, when you work with others, you develop 
those relationships that break down the walls and allow the 
exchange of information that we are all seeking.
    Mr. Wolf. How many local law enforcement people go through 
that a year?
    Mr. Mueller. I am not certain off the top of my head, 
unfortunately. I would have to get that figure for you.
    Mr. Wolf. Is it two weeks, three weeks, or how long of a 
course is that?
    Mr. Mueller. Can you hold for just one moment?
    It is eleven weeks.
    Mr. Wolf. Eleven weeks?
    Mr. Mueller. Yes, eleven weeks, and we have the National 
Executive Institute, NEI, also. That is two week sessions, I 
think three times a year.
    [The information follows:]

                          FBI National Academy

    The following displays the number of graduates of the National 
Academy from FYs 1998-2001. Each lasts 10 weeks.
    1998-1,065.
    1999-1,069.
    2000-1,060.
    2001-1,057.

                              THE BURNHAMS

    Mr. Wolf. Well, on the Burnhams case, your people are still 
the lead negotiators, I assume?
    Mr. Mueller. We are still looking at that case; yes, sir.
    Mr. Wolf. It is still a priority?
    Mr. Mueller. It is still a priority; yes, sir.

                                GAMBLING

    Mr. Wolf. The other issue is, is there any up-tick that you 
see, or have you been looking at anything with regard to 
gambling? That is a growing concern I have with regard to the 
spread.
    We asked for an I.G. investigation in the closing days of 
the Clinton Administration on tribal recognition. We found that 
some six, I believe, were recognized, all against the 
recommendations of the professionals at the Department of 
Interior.
    One of the employees left, and you know, President Bush was 
sworn in on that snowy day on the 20th. On the 22nd, he came 
back and sat outside and signed an approval. I think there was 
a crime committed, and we are asking the Justice Department to 
look at it. But are your people looking, or have you seen 
anything out there with regard to organized crime moving into 
certain areas?
    Mr. Mueller. Well, it is something that we keep our eyes 
on. I do not have anything specific to bring to you today. I am 
aware of the incident of which you just spoke.
    One of the issues that we are looking at is, should our 
role remain the same on Indian reservations, for instance; or 
should we pull back? I think my view is that in talking to a 
number of people, we should not pull back.
    With regard to gambling, not everything can be a priority, 
but it is something particularly, when it is integrated with 
organized crime, that we have to keep on top of this and have 
to address.
    I mean, in my mind, one of the areas of expertise of the 
Bureau is putting together cases against organized crime. It is 
very difficult for state and local law enforcement to have the 
capacity to do that, whether it be investigative skills or the 
authorities that you might need to do the kind of either 
undercover or wiretapping or other work that may be necessary 
to build a case against organized crime; whether it is 
organized crime dealing with a Russian agent, organized crime, 
or gambling.
    In my mind, that is where we ought to play a substantial 
role, and we will continue to play a substantial role.
    Mr. Wolf. I agree, because particularly now, with 
technology, it is very difficult for local law enforcement to 
go across State lines and follow this. It is almost impossible, 
so I do think it is good that you stay there.

                INVESTIGATION OF AMERICAN IN AFGHANISTAN

    I wrote you a letter, and I am not going to mention the 
name. I know it was sent down to you. I do not want to mention 
it, because this story may not be accurate, in fairness to 
that. But I did send a newspaper article to the Justice 
Department.
    The letter was dated November 27th, saying, ``I just read 
in * * *'' and I will not say the name, and ``the report 
describes the actions and comments of a U.S. born man,'' and it 
says the name, ``who volunteered to fight for Osama bin Laden 
and left for Afghanistan. The individual * * *'' name not 
mentioned, and this may not be accurate, ``I will kill every 
American soldier that I see in Afghanistan, and I will kill 
every American soldier that I see in Pakistan.''
    Now we all know what happened the other day, and I heard a 
report which may or not be accurate, whereby not only with the 
one gentleman now in Alexandria, who is going to be prosecuted, 
that there may have been several others who are of American 
nationality.
    Have you pursued this? Is this accurate? Did ``X'' go to 
Afghanistan? It should be very easy to find, based on if he 
truly lived where the story said.
    Did he fight for the Taliban? Did he fight with Osama bin 
Laden? Is he one that has been caught? Has he returned now to 
return and live happily every after, with the freedom and 
liberties that we have in the United States? I mean, is there 
any validity to this?
    Mr. Mueller. Those are all very good questions. I have to 
tell you, and I appreciate your mentioning to me before that I 
would be asked about this, I am quite certain that the answer 
to your last several questions about whether we know whether he 
has fought in Afghanistan, has been picked up, might be 
involved in, or may be one of those in Guantanamo is, no.
    But in terms of the investigation that has been done to 
determine his whereabouts and identify him here, I would have 
to get back to you on that. I do not believe, to be blunt, that 
the action that should have been taken on it, perhaps has been 
taken on it, and I have to go back and check on that.
    Mr. Wolf. Well, I would appreciate it. I think you ought to 
go out to the house and say, did Joe leave the country, and did 
Joe take a flight to Islamabad, or what did he do? If he is not 
around, we would like to at least speak to him.
    I mean, as you know, yesterday, we lost seven American 
soldiers. He says, ``I will kill every American soldier that I 
see in Afghanistan, and I will kill every American soldier that 
I see in Pakistan,'' and this individual, according to the 
story, was American born.
    Mr. Mueller. I see that. I will.
    Mr. Wolf. You need to let us know, because if he did, he 
ought to be prosecuted.
    Mr. Mueller. Thank you for bringing it to our attention. We 
should have gotten back to you sooner on that.
    Mr. Wolf. The letter was actually dated November 27th.
    Mr. Mueller. I see that.
    [The information follows:]

                      Taliban Supporter Interview

    At the request of the FBI, the Department of State checked its 
database of U.S. passport holders for the name in question, with a date 
of birth ranging from 1974 through 1978.
    The FBI's National Press Office contacted the British Broadcasting 
Corporation (BBC) and inquired about the interview referred to in the 
National Review article. The BBC advised that it had not conducted an 
interview with the individual in question. The National Press Office 
also contacted Britain's second largest media outlet, ITN Channel 5, 
and learned that ITN had, in fact, conducted the interview in question. 
An immediate lead was sent to the FBI's Legal Attache in London to 
secure a copy of the tape for review and to interview the reporter. The 
Legal Attache is currently working on the lead and no results are 
currently available.
    Additionally, the New York field office requested that the New York 
Port Authority Police conduct a search of its database of all World 
Trade Center companies and their employees, as well as visitors, to 
determine if it contained any entries with the last name of the person 
in question. The database did not contain any entries, male or female, 
with the last name of the person in question as having been employed in 
or visiting the World Trade Center.

                    TECHNOLOGY INFORMATION COMPANIES

    Mr. Wolf. So I think that is all I have. We were going to 
ask you about analysts, and I think you covered it with regard 
to Mr. Serrano. The rest of the questions, we will just submit 
for the record.
    One other thing I would just say, we have asked the 
Secretary of Commerce, Secretary Evans, to consider this, and 
he has agreed, and we have talked to the White House about 
putting on, not a conference, but I am not sure what to call 
it.
    It is not a forum, but an opportunity for companies who 
have high technology information to come together and present 
what they have in a systematic way, so that INS knows what is 
available, FBI knows what is available, DEA knows what is 
available.
    Also, small- and mid-sized companies, who may not have 
Washington offices here in town, can put out standards of what 
you are thinking of doing and looking for, and whereby they 
have the opportunity to come in and demonstrate what they have. 
So I would assume you would certainly be a major participant.
    Secretary Evans said at the hearing that they were going to 
do that. I think the earlier they do it, the better.

                 SENSITIVITY TO PROTECTING CIVIL RIGHTS

    The last two comments I have, I do second what Mr. Serrano 
said though. I am very strong on law and order, but I think 
respecting the fundamental rights obviously as you have done, 
and I think frankly as this country has done, frankly, we have 
done a better job than any other country.
    We are not perfect. We made mistakes over the years, but 
when we make them, we generally move and respond, and the 
American people are good people, and your people are good. Most 
of the FBI agents that I know that are out there are good 
people.
    But I think it is really important, as we go through this 
balance. My grandfather come over from Germany. We were German, 
obviously. Being a German during World War II was very 
difficult. In World War I and World War II, my dad joined the 
military, and fought in the Pacific.
    But just that attitude of your name was German and the 
enemy was Germany, and yet the Germans and the United States 
were very, very patriotic, as were the Japanese, who fought for 
different things. So I think there is a sensitivity, but that 
diversity that we have in our country is our strength.
    If you and I were all to clean out this room quickly, and 
get the flight out to Japan tonight to stay there forever, we 
would not become Japanese. But when people come from Japan and 
from Germany and from Puerto Rico and from El Salvador and from 
wherever, and Canada, you know, when we come here, we become an 
American. It is a unique experience.
    The voting machine breaks down sometimes, but once every 2 
years, they call the names out, and there are names from all 
over the world, of people who have come here.
    So I think to balance that out, as I am very confident that 
you have, but I think I would just second what Mr. Serrano 
said.

              IMPORTANCE OF FBI CHIEF INFORMATION OFFICER

    Lastly, I hope your IBM guy will not leave until you have 
somebody else in there. I am not going to ask you why he is 
going or where he is going. Obviously, he is not in involuntary 
servitude to you.
    The committee has expended a lot of money on Trilogy. It 
was the subject of McVeigh investigation, which cost us a lot 
of other money and time. So I think that in the passing of the 
baton, that somebody has to be there to catch the baton, before 
he walks out of the office.
    And I really think that people have to actually be on and 
have an opportunity to be with him for a period of time or else 
you could have a lapse, and then all of the sudden the system 
has a problem. So I would hope that you are able to have the 
person on before he leaves. A lot of taxpayer money has been 
expended on this.
    Mr. Mueller. Well, we are trying to get a first class 
individual from the private industry who can fill those shoes. 
He has assured me that he will stay until such time as we need 
him, and then the baton can be passed.
    I will say that part of the passing of the baton is the 
project manager, who is starting on Monday, who will be a 
substantial support to that process. So we are gathering a 
number of persons.
    In the past, he has been the one individual to carry the 
baton. It has not really been a relay race. It has been a relay 
race of one. We have a number of people that we are bringing on 
board, in various areas, with particular skills to support the 
general knowledge that he has.
    Mr. Wolf. Thank your people again. We had the opportunity 
to visit your people. I know they are working 12 hours a day, 
and some around the clock. We thank them for the good work, and 
thank you very much. The hearing is adjourned.
    Mr. Mueller. Thank you, sir.
    [Questions and answers for the record follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                       Thursday, February 28, 2002.

                       U.S. DEPARTMENT OF JUSTICE

                                WITNESS

JOHN D. ASHCROFT, ATTORNEY GENERAL

                     Chairman Wolf Opening Remarks

    Mr. Wolf. Good afternoon, Mr. Attorney General. I don't 
know how many people are going to be here, but it is certainly 
not because they don't like you; it is because the House 
recessed, adjourned for the week, and so most Members had 
airplanes to catch and are gone.
    I am going to defer my questioning until I give some of the 
members who are here an opportunity because they live outside 
the region, and I live here and I am just an automobile drive 
home. So that is why there may not be as many here because the 
House did adjourn 2, 2\1/2\ hours ago.
    I had a long opening statement, which I am not going to 
make, and I am going to yield to Mr. Serrano. But I did want to 
make one comment to set the tone for the record.
    I appreciate the good job you are doing and I appreciate 
the good job the President is doing. This issue of terrorism 
is, as everyone would agree, very, very serious and my sense is 
that you have been given a tremendous responsibility and if 
somebody else who doesn't have that responsibility makes a 
mistake, they make a mistake. But if you make a mistake, people 
can die.
    Secondly, 27 people from my congressional district died in 
the bombing of the Pentagon. The pilot that flew the plane was 
from my area. So I appreciate that.

                          TRIP TO AFGHANISTAN

    Thirdly, I just wanted to say, I was in Afghanistan the 
first week in January. I was with Congressman Hall and 
Congressman Pitts. We were in Kabul for 2 days. We traveled 
throughout the region. We didn't lock ourselves in Bagram Air 
Force base; we went out and saw people.
    There were about 15,000 that went to the training camps. We 
only had about 450 of them. All the women that we saw in 
Afghanistan are still wearing the burka. They are not wearing 
the burka because they like the burka; they are wearing the 
burka because they are afraid the Taliban are coming back.
    Many of the Taliban are still there. They just changed 
jerseys. They are taking this off and they are moving around. 
And we said, why don't you take the burka off; and they say, 
well, don't you understand they are still in the country. They 
are still around.
    We have not caught Osama bin Laden. We have not caught 
Mullah Omar. And if you just read what is taking place. 
Yesterday I asked the Library of Congress to give me a history 
of all the people who were involved in terrorism, activity 
against our country. And the list goes on and on.

                          TERRORIST INCIDENTS

    We many times forget the World Trade Center in 1993. We 
forget the USS Cole. In March of last year, I was down in Bekaa 
Valley in Lebanon where the Hezbollah were. And we went by the 
site where the American Embassy was blown up. We went by the 
site where the 243 Marines were killed.
    The Hezbollah is still in operation. Hamas is still in 
operation. The training camps in Sudan are still in operation. 
Osama bin Laden lived in Sudan from 1991 to 1996. Aideed got 
much of his support out of Sudan. Those people are still there. 
The people that tried to assassinate President Mubarak of Egypt 
are still in Sudan. The world is still a very, very dangerous 
place.

                    NATIONAL COMMISSION ON TERRORISM

    Lastly, in 1998, these acts led me to introduce the 
National Commission on Terrorism, which we later got passed. I, 
with one other person, went to Algeria. We had been the first 
Members of Congress in Algeria for years. In Algeria, over 
100,000 people have had their throats slit and their stomachs 
cut. We went into a village where they committed atrocities 
that you won't believe. Almost everyone in Algeria has had a 
family member or somebody that has been impacted.
    So this is real, and I am very, very concerned that there 
is a certain complacency that is beginning to take place.
    The war went extremely well. All the military people we 
have talked to have done a great, great job. But there are 
still other countries. There is Yemen. There is Somalia. There 
is Sudan. There is the Soviet Georgia situation. There is the 
Philippines. There are two missionaries--the Burnhams are still 
in the Philippines; they live in Mr. Tiahrt's district. And the 
world is a dangerous place and we never saw it in our shores. 
It was the bombing in Tanzania. It was the bombing in Kenya. So 
I just want to set the tone.
    I expect there will be controversies and differences as to 
what you have done, but you have been charged with a unique 
responsibility, and it is a very awesome one. And I think that 
the Administration is doing a good job.
    Also, I want to tell you that the people of Afghanistan are 
very appreciative of what the Bush Administration and our 
country--and the country is together, Republican and Democrat--
have done with regard to liberating Afghanistan. They do 
believe they have been liberated.
    Their great concern is we used Afghan blood to defeat the 
Soviet Union in the late 1980s and we left, and their great 
concern is that that will happen again. But they are 
appreciative that the Taliban and al Qaeda are not in control. 
I won't say they are not there, but they are no longer in 
control.
    So I appreciate what the Administration has done. It is 
very, very tough. But as somebody who has seen outside and has 
known people here, as all of us do in this region and New York 
City and other places, we appreciate the good job you are doing 
and what the Administration is doing.
    And with that, I will recognize Mr. Serrano for an opening 
statement and then you can open up.

                     Mr. Serrano's Opening Remarks

    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Attorney General, every so often I have told my 
colleagues that I think long and hard before I come to a 
hearing about what I will say and how I will behave. And I find 
myself in a dilemma. My dilemma is complicated by the fact that 
on the various occasions that I have met with you, the vibes 
have been good. I would personally like to thank you very much. 
And that makes it more difficult when I am troubled by what I 
may see coming out of the Attorney General's Office.
    Let me preface my comments, however, by saying that I am 
from New York City. Attending events commemorating the death of 
people, handing out American flags, has been extremely painful 
and continues to be painful. People close to me, members of my 
political organization, people who have been with me a long 
time have lost firemen, grandchildren, office workers. So I 
want to also commend you for your work and the President for 
stepping up and leading us in such a difficult time.

                      CIVIL LIBERTIES OF AMERICANS

    But my concern, Mr. Attorney General, is that during this 
time we may, without realizing it, really bring some harm on, 
the present and certainly the future of our great democracy. 
And I know that you as a man of conscience must be weighing in 
your head how you deal with these issues. So my role as a man 
of conscience is to remind you of what it is I and some other 
people fear.
    We fear for our civil liberties. We feel that during this 
moment of crisis, we may not pay enough attention to the long-
term harm that we may do.
    We know, for instance, that we paid an emotional and a 
financial, price for what we did during World War II with 
Japanese-Americans, who were as American as apple pie, but who 
we felt could be a problem or danger to our Nation, and treated 
them improperly.
    I know as a member of the Puerto Rican community, having 
been born in the Commonwealth of Puerto Rico, that right here 
in this committee room and under the support of our former 
chairman, Mr. Rogers, and under the current chairman, Mr. Wolf, 
the FBI is releasing to my office, little by little, 1,800,000 
documents of the persecution which they have admitted to for 
more than 50 years of the Puerto Rican independence movement--
people who simply said, we want the island to be independent, 
and whose lives and careers were ruined. And some people have 
been missing, and we don't know how.
    And so I wonder if anything that we are doing now could 
take us down that ugly road. And why is it that I am not saying 
this in a loud voice? Why is it that I spent so much time last 
night, this morning and this afternoon thinking about what to 
say? Because I know there is a delicate balance between 
protecting our Nation, protecting us from terrorists and making 
sure they are brought to justice, making sure that this never 
happens again; and at the same time protecting my 8-year-old 
granddaughter's future, protecting my 13-year-old son's future, 
protecting my 35-year-old daughter's future, making sure that 
what we do now does not hurt them at all.
    So what I would ask you today is, whenever you come before 
this committee, you have in so many ways an opportunity to 
speak to the American people and to--please, take seriously my 
comments. They are not from someone who is trying to undo the 
work you are doing. They are not from someone who is in any way 
trying to undercut the need for national security and defense, 
but they are from one who grew up in a community where 
sometimes law enforcement abused our rights historically and in 
some cases personally. And so I wonder where we are heading.
    I support you in your effort to get the bad guys, but in 
the process, make sure you don't hurt the good guys. I don't 
like people reading my e-mail. I don't like people listening to 
my phone calls. I don't like people getting involved in my 
personal life when my personal life is not a threat to this 
country, and neither do any of my constituents.
    And so I welcome you here. I ask for your forgiveness if in 
any way I have been disrespectful to you, but I assure you I 
thought long and hard about this and I felt it was a statement 
I had to make. Thank you.
    Mr. Wolf. Thank you.
    You can just proceed. Your full statement will appear in 
the record. You can summarize as you see fit.
    And I made a comment, I will go straight back and forth and 
I will ask questions at the end because I know members have 
airplanes to catch. So if you want to summarize, that might be 
helpful.

                   Attorney General's Opening Remarks

    Attorney General Ashcroft. While this matter is fresh in my 
mind, let me just thank Congressman Serrano for his remarks. 
Frankly, I will be happy to address them in greater 
particularity and detail. We are just many years away from and 
have virtually nothing in common with the way the Japanese were 
treated in the Second World War and the way we are treating 
individuals in America today.
    We are sensitive of these issues, and you and I have talked 
on the telephone and you have told me of these concerns. And I 
remember saying to you, I welcome these kinds of questions, 
because I believe the American people are sensitive to these 
concerns and ought to have a full understanding of the--of what 
we are doing in their behalf.
    And so it is not with any sense of offense that I receive 
these questions; it is with a sense of gratitude. I think these 
questions need to be asked frequently, and we need to rehearse 
our commitment to the kind of liberty and freedom that you know 
we all want; and I would never take offense at the raising of 
these issues, because they are very important and are at the 
core of our democracy.
    I am honored, Mr. Chairman and members of the subcommittee, 
to appear before the subcommittee to present the President's 
budget request for the Department of Justice. The first and 
overriding priority of this budget and the Department of 
Justice is to protect America against acts of terrorism, to 
bring terrorists to justice.
    Since my last appearance before you, America and the world 
have been awakened to a new threat regarding an old evil. I 
appreciate the leadership of the members of this subcommittee 
in providing the Department of Justice with the necessary 
resources to meet the terrorist threat and to improve our 
Nation's border security.
    I am grateful for the stewardship and support that you have 
provided in other areas of law enforcement, as well, for even 
as the men and women of the Department of Justice go about the 
urgent task of protecting America from terrorism, we do so 
within a framework of justice that upholds our other goals as 
well. We remain committed to enforcing gun laws, to reducing 
the demand and supply of drugs, to protecting civil rights.

                         TRAFFICKING IN PERSONS

    With your leadership and your support, we have undertaken a 
sweeping initiative to identify and prosecute those who traffic 
in human beings, overwhelmingly women and children, for 
involuntary labor and sexual exploitation.
    We are committed to seeing justice done in each of these 
areas. We recognize, however, our need to prioritize our 
commitments, to husband our resources. Today, more than ever, 
lives depend on the careful understanding of our 
responsibilities and the exemplary performance of our duties.

                          2003 BUDGET REQUEST

    The fiscal year 2003 budget request that I present to you 
today builds upon your support for the fair and vigorous 
administration of justice. It focuses the priorities of the 
Department of Justice, and it seeks to enhance further the 
nation's ability to prevent and to combat terrorism. For the 
fiscal year 2003, the President's budget requests $30.2 billion 
for the Department of Justice, $23.1 billion in discretionary 
funding and $7.1 billion for the Department's mandatory and 
fee-funded accounts.
    Funding for federal law enforcement programs increases by 
13 percent over the funding enacted in the fiscal year 2002 
Department of Justice Appropriations Act. The Department's 
fiscal year 2003 budget seeks $2 billion for program 
improvements and ongoing activities funded in the 2002 
counterterrorism supplemental appropriation.
    Resources are also requested for improving immigration 
enforcement and services, enhancing federal detention and 
incarceration capacity, reducing the availability of illegal 
drugs and supporting proven programs aimed at reducing drug 
use, providing services for the nation's crime victims, 
protecting civil rights, ending traffic in human beings, 
providing streamlined resources to support state and local law 
enforcement and defending the interests of the United States in 
legal matters.
    To help secure our nation's borders, we are proposing 
program improvements totaling $856 million, including $51.9 
million from fee-funding for the Immigration and Naturalization 
Service. Of this amount, $734 million is dedicated to improving 
border security.
    Specifically, we are requesting $362 million to begin a 
multiyear effort to provide a comprehensive land, sea and air 
entry/exit system for the United States, which I know has been 
of particular interest to the Committee; $372 million dollars 
to hire 570 new Border Patrol agents and additional immigration 
inspectors to improve air, land and seaport inspections.

                        COUNTERTERRORISM FUNDING

    As a result of the attacks of September 11, the FBI, with 
the cooperation of other federal, state, local and 
international enforcement, is conducting the largest criminal 
investigation in the history of this country, building on the 
much-needed assistance provided to the FBI in the 2002 
counterterrorism supplemental. Our 2003 budget requests $411.6 
million, including funding for 263 new FBI Special Agents, $223 
million for increased intelligence surveillance and response 
capabilities, $109 million for information technology projects 
and $78 million for enhanced personnel and information 
security.
    The establishment of the Joint Terrorism Task Force program 
has enhanced the FBI's ability to promote coordinated terrorism 
investigations among FBI field offices and their respective 
counterparts in federal, state and local law enforcement 
agencies. Our budget seeks $15.7 million to support a total of 
56 Joint Terrorism Task Forces throughout the country, one for 
each FBI field office.
    As accused terrorists are brought to justice in the Federal 
Court system, there is increased need for enhanced security 
measures for the system to support the heightened security 
required by the United States marshals and their service at 
courthouses. Our budget seeks $34.7 million to close security 
gaps at the courthouse facilities with the greatest physical 
security deficiencies, to purchase security equipment for new 
courthouses and those undergoing significant renovation, to 
provide additional security personnel for terrorist-related 
court proceedings and to provide security staffing to keep pace 
with the opening of new courthouses and the creation of new 
judgeships.
    Another critical element in our battle against the 
terrorist threat is working to develop enhanced, interoperable 
databases and telecommunications systems for the Department's 
law enforcement activities. Our budget seeks $60 million to 
continue narrowband investment in the radio infrastructure for 
key areas, such as New York and along the northern and 
southwestern borders. Our efforts to combat terrorism not only 
help safeguard the lives and property of Americans; they 
enhance enforcement of the law across the border.
    The heightened vigilance of law enforcement, increased 
awareness and the sense of responsibility of citizens spills 
over into more effective enforcement of the law in all areas.

                            Drug Enforcement

    We are working to reduce both the demand for and 
availability of illegal drugs. Drugs not only weaken the fabric 
of our society, but also threaten our national security. The 
Organized Crime Drug Enforcement Task Force, or OCDETF program, 
is the centerpiece of the Department's drug strategy to reduce 
the availability of drugs. OCDETF combines the talent of 
experienced federal agents and prosecutors with support from 
state and local law enforcement, thereby uniquely positioning 
OCDETF to conduct multiple, coordinated investigations across 
the country to root out and eliminate all pieces of a drug 
organization.
    For fiscal year 2003, our budget seeks $14.8 million 
through OCDETF to provide field support for DEA's Special 
Operations Division's coordinated investigations. The 
Department's fiscal year 2003 budget also seeks $13 million for 
drug abuse and crime prevention programs under the Office of 
Justice programs. Our budget includes $52 million for the drug 
courts and $77 million for the Residential Substance Abuse 
Treatment program, a 10-percent increase in funding over fiscal 
year 2002.

                         Election Reform Grants

    Essential to our republic is the freedom and privilege of 
every citizen to vote. The Federal Government has become an 
active participant in establishing rules for the conduct of 
elections in matters ranging from voter registration to 
protection against discrimination. In fiscal year 2003, the 
Department requests $400 million for a new 3-year program. That 
is $400 million per year, which would be a total of $1.2 
billion to improve state and local jurisdictions' voting 
technologies and administration, including voting machines, 
registration systems, voter education and poll worker training. 
This new program will provide states with matching grants for 
election reform.

                          Civil Rights Funding

    The Department of Justice is charged with protecting the 
civil rights of all Americans. Our fiscal year 2003 budget 
seeks $3 million for the Office of the Inspector General to 
address a statutory requirement in the USA PATRIOT Act, for the 
review of complaints alleging abuses of civil rights and 
liberties and to provide oversight, an audit oversight for the 
Department's counterterrorism programs. Further, we request 
$2.8 million to promote effective investigation prosecution in 
response to hate crimes.

                 Immigration and Naturalization Service

    We are committed to building and strengthening an 
Immigration Services arm that is effective and ensures 
integrity and promotes a culture of respect. We are currently 
making good progress toward achieving President Bush's goal of 
a 6-month average processing time for all applications. To help 
ensure additional progress, our budget request seeks $40 
million to begin implementation of the Administration's 
comprehensive restructuring of the Immigration and 
Naturalization Service.

                            Detention Needs

    The Department of Justice is charged with the safe, secure 
and humane confinement of detained persons awaiting trial, 
sentencing and immigration proceedings. The need for federal 
detention bed space has more than doubled in the last 5 years 
from 32,000 detainees in 1996 to 67,000 detainees in the year 
2001.
    To enhance coordination, manage the rising detainee 
population and exercise financial control and federal detention 
operations, which are currently the responsibilities of INS, 
the Marshals Service and the Bureau of Prisons, the Office of 
Detention Trustee was created by Congress last year. As you 
recommended in the fiscal year 2002 conference report, our 
budget proposes to consolidate $1.4 billion under the Detention 
Trustee to provide bed space for the anticipated detainee 
population in custody at the U.S. Marshals Service and the INS.
    For the Bureau of Prisons, our fiscal year 2003 budget 
seeks $348.3 million for activation of prisons that have been 
constructed and for the completion of construction previously 
authorized by the United States Congress.

                          September 11 Attacks

    Following the September 11 terrorist attacks, Congress 
passed and the President signed into law legislation 
establishing the September 11 Victim Compensation Fund of 2001. 
The value of approved claims through the fund is estimated at 
$5.4 billion through fiscal year 2004. Our fiscal year 2003 
budget reflects $2.7 billion in estimated victim compensation 
payments. In addition, the Department's budget includes a total 
of $41 million for the administrative cost of the Fund's 
Special Master.
    Mr. Chairman, as you well know, September 11, 2001, changed 
our nation and redefined the mission of the Department of 
Justice. Defending our nation and its citizens against 
terrorist attacks is our top priority. To fulfill this mission, 
we are devoting all resources necessary to eliminate terrorist 
networks, prevent terrorist attacks and bring to justice all 
those who kill Americans in the name of murderous ideologies.
    Mr. Chairman, Congressman Serrano, members of the 
subcommittee, what I have outlined for you is the principal 
focus of President Bush's fiscal year 2003 budget request for 
the Department of Justice. Our request builds on the firm 
foundation laid by the Congress in the days and weeks following 
September 11, a foundation of resolve, backed by resources and 
American strength married to American purpose.
    I thank you for the leadership of this subcommittee, and I 
thank the members of your staff that have worked closely with 
the Justice Department to enhance the safety and security of 
America. Leslie Albright and John Martens of the majority staff 
and Rob Nabors and Lucy Hand of the minority staff have 
distinguished themselves in their dedication to the cause of 
justice, and I thank them.
    I thank all of you for your facilitation of this hearing 
and for your service to the people of the United States of 
America. I look forward to working with you on this budget 
proposal and other issues.
    Mr. Chairman, I am grateful for having had this opportunity 
to make those remarks and would be pleased to respond to your 
inquiries, or for that matter, to hear what you have to say. I 
believe this should be a learning experience, as well as one in 
which I answer questions.
    [The statement of Attorney General Ashcroft follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. Thank you very much, Mr. Attorney General.
    As I said, I am going to yield my time to Mr. Rogers and I 
will catch you at the end.
    Mr. Rogers. Mr. Chairman, thank you for being so courteous 
to all of us.
    General Ashcroft, we are delighted to have you before us. 
Being from your immediately previous occupation, you know that 
sometimes questions become statements and I am going to try to 
avoid that.
    However, there has not been any time in our Nation's 
history that I know of, perhaps other than the Civil War era, 
where the Attorney General of the Nation has faced the kind of 
turmoil, change, demands, and challenges that you are facing. 
You are indeed a historical figure, even beyond just occupying 
that great office. This is a great challenge, and I want to 
commend you for doing a great job.
    Attorney General Ashcroft. Thank you.

                               Oxycontin

    Mr. Rogers. I want to briefly question you about OxyContin, 
the drug, a great miracle of modern medicine that allows relief 
over a sustained period of time to people who have severe pain. 
However, in my part of the country and, increasingly, in many 
others, the abuse of this prescribed pseudonarcotic is causing 
extreme pain, ironically. Extensive federal review of autopsy 
data has found that OxyContin played a major role in over 296 
overdose deaths throughout the Nation between May 2000 and 
December of 2001.
    There were 69 deaths in Kentucky in which medical examiners 
found OxyContin in the bodies; 36 of them had toxic levels. 
Many of these deaths are being suspected of being solely the 
result of OxyContin abuse.
    We are seeing doctor-shopping and we are seeing multiple 
prescriptions being filled. We are seeing pain shops where 
these drugs are prescribed willy-nilly. In fact, there was a 
conviction last week in Kentucky of a doctor prescribing these 
drugs to people who didn't need it, by the truckload. And it 
has spread all over the country--New Jersey, and Philadelphia. 
54 people have died in Palm Beach County, Florida. In Virginia, 
49 people died between January 2000 and June 2001. And so on. 
It is a scourge. While it is a terrific drug, it is being 
abused.
    Can I ask you to respond to what you intend to do about it?
    I am delighted to see in your budget submission a big 
increase in the drug diversion account, totaling $24.6 million. 
There are only seven diversion officers in the whole State of 
Kentucky, and they are absolutely overwhelmed. Other places are 
the same in the DEA operations. Could you respond to that?
    Attorney General Ashcroft. Well, first of all, Congressman 
Rogers, I share your concern. Just 2 weeks ago, on February 19, 
a Florida physician was convicted of four counts of 
manslaughter. I hope that this conviction sends a signal to the 
individuals with access to this drug in the medical community 
that this is not an inconsequential matter. OxyContin, as you 
have said dramatically, is a matter of life and death. And for 
those who recklessly or otherwise, with disregard for the life 
and safety of others, are involved in the deaths of 
individuals, I hope that the sentence levied in that case will 
also help people understand that the particular doctor involved 
there faces up to 165 years of imprisonment, which is 
significant.
    The DEA has begun a comprehensive national action plan in 
this respect. I think there is plenty to be done here, not only 
at the federal level through the DEA, but with drug monitoring 
at the local level. And I know that we, through the Department 
of Justice, discretionary grant funding has been made available 
for the Harold Rogers Prescription Drug Monitoring program. 
There was the individual in Florida, who was convicted of the 
four manslaughter counts, who was the number one prescriber of 
the drug. So being able to identify sources that can be the 
source for diversion, as well as for therapy, is a major issue.
    The DEA, in its national action plan, will focus on 
investigations targeting key diversion points, an in-depth 
investigation of the manufacturer's practices and the 
distribution to determine compliance. DEA has increased efforts 
to gather necessary data to better define the scope of the 
problem--but the problem has been defined as overwhelming, with 
clear indications that many deaths have resulted. OxyContin's 
package insert going to doctors has been changed so as to 
reflect a notice to physicians about cautionary language on the 
drug's abuse and its diversion potential. The medical community 
has also received additional information.
    The value of the drug in therapy is very substantial, but 
the danger of the drug and abuse is something that we have to 
consider aggressively.
    Mr. Rogers. Will the money be used to hire more diversion 
agents, at least part of it?
    Attorney General Ashcroft. Yes.
    Mr. Rogers. And can I expect that some of those at least 
will be given to my State?
    Attorney General Ashcroft. From what you described to me, 
Kentucky is a very seriously affected jurisdiction. We would 
hope we would be able to mitigate some of the tragedy in 
Kentucky.
    Mr. Rogers. Thank you very much, and the young people of 
that region thank you even more. This is a drug that is being 
abused mainly by young people and these deaths are mainly kids.
    Attorney General Ashcroft. Well, the 133 positions to 
strengthen our enforcement include a significant increase in 
positions for the diversion situation, which is what we have 
here, legitimate pharmaceuticals being diverted to drug abuse.

                      PRESCRIPTION DRUG MONITORING

    Mr. Rogers. Good. Chairman Wolf and myself and others have 
been pushing for Prescription Drug Monitoring programs. 
Kentucky has a program. Virginia does not. Tennessee does not. 
So Kentucky people cross the line and get a double prescription 
from one of the states that is not monitored.
    The grants that you mentioned hopefully will go to states 
to encourage them to establish their own drug monitoring 
programs so we can keep track of who is filling prescriptions 
and who is not. But it won't really work, I don't think, until 
we have a national prescription monitoring program.
    Is that something you could feel comfortable with?
    Attorney General Ashcroft. I don't want to make a comment 
on a specific program until it is specific. I do know this--
that we need far better control than we have now and far better 
information.
    The DEA has been focusing recently with the National 
Alliance for Model State Drug Laws on trying to develop 
cooperation between the states. But as you indicate, when one 
state does well, it sometimes just provides a relief valve in 
another state's jurisdiction. The five states reporting the 
lowest number of OxyContin prescriptions per capita have 
longstanding monitoring programs, and they report no 
significant diversion problems. So it is pretty clear that is 
not one of those situations where remediation is impossible.
    We had enough of what you call ``pilot programming,'' or 
what was it Mark Twain, the fellow from Missouri who said, 
``There is nothing so embarrassing as a good example.'' We have 
some good examples of states that have done good work with 
monitoring, and their problem has been reduced by the 
monitoring. And so I would hope that we would find ways to 
broaden our capacity to assess where this--where the leakage is 
in the system; and I would like to work with you in that 
respect.
    Mr. Rogers. Good. I was going to ask you if you would be 
willing to work with Chairman Wolf and myself and others to see 
if we can create a national prescription monitoring program run 
by the States, but where we escape the problem of state borders 
becoming a relief valve. This is a major problem, and I suspect 
once we whip the OxyContin problem there will be another 
similar-type thing. But a monitoring program would get to that 
as well--of abusing prescription drugs, which is a wholly 
different thing from the other problems. I thank you for that.

                           INS REORGANIZATION

    Mr. Chairman, let me quickly ask about INS, because it is 
something I have a long interest in. I will be brief.
    You have $40 million for some front-end costs associated 
with the reform of the INS that the Administration has 
undertaken. Many of us up here who have worked on this 
problem--in my case, 15 years or more--don't believe that you 
can really achieve the reform that is necessary unless you do 
some law changes here. I don't think you can do it 
administratively, although I commend you for the efforts that 
you are attempting. I don't think we can quite get there 
without doing some changes in the law.
    Would you give us a quick brief on where you are on 
reorganizing INS?
    INS is the worst-run agency in the United States 
Government. I have been saying that for 15 years, and it has 
fallen on deficient ears. But you know, the number of illegal 
aliens in the country keeps multiplying. There are 7 to 10 
million of them now. And the administration of the Service's 
branch of INS, the backlog for citizenship is 10 miles long and 
so on.
    And this agency--we poured money in it. We have doubled 
their budget in the 5 years I was chairman of this 
subcommittee, quadrupled it over the last 15 years thinking 
money was the problem.
    It is not. It is an absolutely dysfunctional agency. And I 
commend you for attempting to reorganize it. Would you work 
with the Congress in letting us also have some changes that we 
think only a law change would allow you to do?
    Attorney General Ashcroft.  Let me just indicate to you 
that I believe that the administrative effort is a monumental 
effort, but I don't believe that it represents the ultimate--we 
should always be willing, and I stand ready, to do whatever we 
can to improve--to do those things which must be done 
statutorily. The restructuring effort, which is designed to 
help address some of the problems is not held out to be total 
therapy. But I believe it is a good effort, and we would be 
happy to work with you for its improvement.
    This is a monumental job. Five hundred fifty million people 
cross the borders of the United States every year, 550 million 
people. And when people want to come to the United States to be 
reunited with their husbands and wives, it is better than a 2-
year proposition to get a husband and wife and between 3 and 4 
years to get children back with their families.
    The service side is difficult in that respect. So, frankly, 
the service side can't be totally divorced from the enforcement 
side because, as we do the servicing of these claims, we find 
some of the enforcement infractions. Fraudulent documents turn 
out to be a big problem, and we come upon those.
    The long and the short is, I think we both recognize the 
challenges, which are fundamental and substantial, faced by the 
agency; and I would be happy--I am eager to indicate that we do 
not believe that there is nothing that can be done statutorily. 
We do not believe that everything that needs to be done can 
necessarily be done only administratively. We would be happy to 
work together.

                       IDENTIFICATION INTEGRATION

    Mr. Rogers. It has taken on a new urgency, of course--the 
work of the INS. It is no longer a philosophical discussion; it 
is an absolute imperative that it be done and done right and 
quickly.
    One of the biggest headaches we have had over the years is 
getting the State Department and INS and FBI to go onto a 
common database so that when someone is entering the country 
that is on somebody's watch list, somebody knows about it. And 
at this point in time, unless you can tell me differently, it 
is just not that way.
    Attorney General Ashcroft. Let me indicate, there is some 
progress being made, as well, in that respect.
    Mr. Rogers. I have heard that for 20 years.
    Attorney General Ashcroft. I believe we will be able to 
send a list of people that have now been inventoried, now that 
we are matching the ident fingerprints of people that are being 
printed as they come across the border with the database of the 
FBI, individuals that are fugitives. And recently, with a 
consultation program with the State Department, INS is now 
being linked-up with photographs of those who apply for visas. 
So the individual who is receiving it at an INS port-of-entry 
begins the process of making sure that the person is the same 
as the person photographed at the visa application.
    Again, I don't represent that we have arrived, but you are 
right, the world changed on September 11 and there is a new 
sense of urgency and a new level of progress being made. 
Similarly, individuals who are called ``absconders from final 
adjudications of their deportation'' by INS, people--all of 
their appeals are exhausted and they have been ordered 
deported, and when you go to find them, they are gone--we are 
now entering those names in the NCIC, which is the National 
Criminal Information Center data. If other individuals or 
officials detect these individuals who are committing a crime 
by absconding after having been ordered deported, those 
individuals will have in process a way of detecting them.
    There are many miles to be traveled here. As Robert Frost 
said, ``And miles to go before I sleep, and miles to go before 
I sleep.'' But we are energizing the integration of these 
things between State Department and INS on the consultation 
regarding visas, between the FBI and INS in putting these names 
together; and we hope to continue that process, and the budget 
reflects our desire to do so.
    Mr. Rogers. I commend you for your budget request; there 
are a lot of good things in there. I really like what I am 
seeing here. However, I will believe you on the INS solutions 
when I see it. I have learned now under Attorneys generals, I 
think it is, all of whom have been dedicated supposedly to 
solving the problem, have told me time and again just what you 
told me and we are still in the dark ages. But I think you have 
got the best chance of anybody that has ever occupied that 
chair to finally redo and make effective the INS. And I wish 
you Godspeed.
    Attorney General Ashcroft. I will try not to muff it.
    Mr. Rogers. In all of your works, as well.
    Mr. Wolf. Mr. Serrano.

                           ABNER LOUIMA CASE

    Mr. Serrano. I am just going to make a brief comment 
because my opening statement covered a lot of my concerns that 
I hope you keep speaking to, not just today, but in the future.
    But I am taking the liberty, having you in front of me, to 
put forth something that you may not be aware of, but maybe you 
are. It was reported by AP at 1:03 this afternoon that a 
Federal appeals court has overturned the convictions of three 
police officers in New York having to do with the Abner Louima 
case. That was the case of the young man who was tortured and 
suffered a ruptured colon and bladder with a broomstick during 
an arrest. The person who did it is serving 30 years in prison; 
the three who are accused of obstructing justice and violating 
civil rights were also convicted.
    And the reason I am telling you this is because there is a 
call, and there will be a call officially from me now, and 
later in writing, for you to assign a Special Prosecutor to 
deal with this. And I say this to you because what we don't 
need in New York, now more than ever, is once again to go back 
to the discussion of the police and the community and the 
courts.
    New York has come together after September 11, and we need 
to continue this. And this decision today, I can tell you, is 
just going to be heard throughout the community in a very, very 
difficult way, and justice needs to be done.
    So accept this as an official request and understand that 
that will be coming to you very soon from other people, too.
    Attorney General Ashcroft. Well, let me just indicate, this 
is a tragic situation. I have just been made aware of it. The 
police officer who committed the assault pleaded guilty and was 
sentenced to 30 years in prison. That conviction is not 
affected. But you are right, the other three officers were 
charged in connection with the incident; in press accounts, it 
appears that the Second Circuit reversed these convictions.
    I am very pleased to have your request. I would like to 
look carefully at what has happened before I reach any 
conclusions in this matter.
    These are matters of great concern to us, and our 
Department has been active in investigating allegations 
regarding police conduct, patterns and practices of police 
behavior in a variety of settings; and we take these matters at 
the highest level of seriousness. And no one can deny the 
tragedy that took place in the Louima case.
    Mr. Serrano. Thank you.
    Mr. Chairman, what I wanted to do if I haven't taken too 
much time is to yield to Mr. Obey.

             FBI'S ANTITERRORISM REQUEST--PRE-SEPTEMBER 11

    Mr. Obey. Mr. Attorney General, always happy to see someone 
from the Senate side pay a visit to the House side.
    Let me ask you a question about an article that appeared in 
the New York Times this morning. That article indicated that on 
September 10, one day before the disastrous events in New York, 
Washington, and Pennsylvania, you had in the budget which you 
submitted to OMB, identified more than a dozen objectives that 
were ranked in higher priority than antiterrorism.
    But the budget that you submitted on that day contains 68 
programs for which you supported budget increases, none of 
which, with the possible exception of one, were directly 
related to counterterrorism. And in that budget, you did not 
endorse the FBI request for $58 million for 149 new 
counterterrorism field agents, 200 intelligence analysts and 54 
added translators. And that one program, of the 14 that you are 
proposing cuts for, was a $65 million cut in local 
counterterrorism grants.
    Now, I recognize that hindsight is always a lot clearer 
than foresight, but--and I don't want to get into the details 
of the article unless you want to--I guess I would simply say 
this and ask a question.
    I know that not many people in the public or on Capitol 
Hill were pushing for increases to counterterrorism prior to 
September 11. Most of them had an excuse. They hadn't known 
much about bin Laden nor what his operation was or the threat 
that he presented. They hadn't received briefings.
    But I assume that you had received briefings about Mr. bin 
Laden and his organization and the potential threat to the 
United States. I know I had. And what I don't understand is how 
someone who got briefings like those that I received, could 
actually have turned down all of those requests by the FBI for 
needed resources.
    I personally was thankful on September 11 that the damage 
wasn't worse, given what we had been told some of the likely 
efforts might be by his organization. And I guess, in light of 
the article, I am simply raising this because I think it is 
important for us to understand whether the budget decisions 
reflected in your September 10 budget submission came about 
because the Attorney General didn't get full information about 
the potential threat or whether it was simply a failure to put 
that information in proper perspective, because to be frank 
about it, the American people have a whole lot riding on your 
judgment and mine.
    And what bothers me is this: This committee and your 
predecessor made a very strong commitment to expanding our 
counterterrorism activities. Overall, we expanded those 
programs by about 15 percent a year in recent years. In 2001, 
that increase was 22 percent. Last spring--and this is before 
you took office, the President's budget proposed to cut that 
rate of growth from 22 percent to about 10 percent. And what I 
gather from the letter cited in the Times article this morning 
is that for the 2003 fiscal year, the budget submission that 
you endorsed would pretty much cut that growth to zero; and 
that bothers me.
    But what bothers me even more about it is that revelation 
comes in the context of what happened to me when I tried and 
when this committee tried and Chairman Young tried to get 
additional antiterrorism spending after September 11, and we 
had to do it over the stiff, fierce objection of the 
Administration.
    After September 11, Chairman Young and I and our staffs 
went out and for 5 days had extensive briefings all around this 
town from the agencies that are under control of the 
Administration--FBI, National Security Council, CIA, you name 
it. And we came up with a list. This is a draft of the list 
that we were preparing on a bipartisan basis of items that we 
wanted to see strengthened in terms of our antiterrorism 
capability. This is a list of the items that we eventually 
proposed above the President's budget.
    We were dismissed by Mitch Daniels, the OMB Budget Director 
as simply--well, he dismissed it as being pork. And he said 
that Congress was simply trying to pad the bill for the war on 
terrorism because it was the only way that Members feel 
relevant; their motto is, ``Just don't stand there, spend 
something.'' That is what the OMB said about our efforts to 
strengthen antiterrorism budgets.
    I will tell you if you can find a single piece of pork in 
the items that Mr. Young and I were suggesting when we went 
down to the White House that day, I will eat your honorary 
degree from Robert Jones University.
    I think it is obvious that this was a serious threat, and 
what I don't understand is why the Administration, even after 
September 11, continued their resistance to additional funding 
for antiterrorism.
    In the end, we got most of what was needed, not all what we 
should have had, but we got the most crucial items; but there 
are still a lot of items we didn't get, which means we will be 
a full year behind, assuming that we do get them this year.
    And I congratulate you and the Administration for the 
submissions you have made this year. Better late than never. 
But I am frustrated because it seems to me that the article 
this morning demonstrates that not only was your Department not 
ahead of the curve, you are light-years behind it. And the 
resistance was carried on even after September 11 by the White 
House. And I guess I would like to know, what were your reasons 
for turning down the FBI's request for those additional items 
in that September 10 budget that you submitted?
    Attorney General Ashcroft. Thank you, Congressman Obey, for 
raising this issue. It is an important issue. And more 
important than anything else is that we understand the truth of 
the situation, and I am very pleased to have the opportunity to 
address the way in which I have viewed the necessity to put a 
priority on terrorism and our fight against terrorism.
    I would indicate from the very beginning that members of 
this committee, particularly the committee leadership and those 
of Senator Judd Gregg in the United States Senate, have been 
helpful to me in sensitizing this issue for me and the need to 
increase funding in this respect.
    On May 9 of the year 2001, that is, 4, months prior to 
September 11, before the Senate Appropriations Committee, I 
made our mission very clear. Our number one goal--and I am 
quoting--is the prevention of terrorist acts. And that 
sensitization came as a result of many of the activities of 
people on this committee, as well as my own awareness.
    In responding to additional questions from the Senators on 
the topic, I stated in writing, ``The protection of this nation 
and its people from acts of terrorism is of paramount concern. 
The Department of Justice has no higher priority.''
    Now, it is true that during the attack of September 11, we 
were still operating under the budget of my predecessors. But 
for the next year, I had asked for and requested increased 
funding for counterterrorism efforts of $436 million, and that 
was for the fiscal year 2002 budget.
    Prior to the submission of the fiscal year 2003 budget and 
prior to September 11, we began to develop the fiscal year 2003 
budget, and we asked for $660 million of increased funding over 
and above the $436 million that we asked for in 2002, which 
would be an increase of a billion dollars in that 2-year frame.
    It is important to note that that $660 million, in many 
respects, was a place-holder.
    Attorney General Ashcroft. That particular item is to be 
noted on September the 11th--pardon me, September 10th, the day 
preceding the September 11th date. And it is important to note 
that the Director of the FBI, Robert Mueller, was only 
confirmed to office on September the 5th, so we had basically 
been putting in a place-holder for his coming to the agency 
and--I should say Bureau, I do not want to confuse these 
intelligence agencies--so that he could place his mark on it. 
He came afterward in that respect with a budget proposal of 
$670 million for the fiscal year 2003--pardon me; in the 2003 
supplemental he came forward with a request for $670 million. 
After we spent some time counseling together, we revised our 
request to $1.1 billion for the supplemental. I think that is 
an important part of the factual understanding to have.
    Now, we stand at the fiscal year 2003 year, and our request 
is for an additional $2 billion in counterterrorism, in 
addition to the supplemental requests that were made.
    The FBI is concerned about information technology and 
counterintelligence, and was so even prior to the September 
11th attack, in some significant measure, because of real 
problems we had with not just the McVeigh case, which was 
domestic terrorism, but with the international intelligence 
tragedy surrounding the Hanssen case.
    So to recap, on May the 9th I stated our number one goal is 
the prevention of terrorist acts. It certainly is our goal, and 
we began to shape the Department and its efforts in that 
respect.
    Now, our Department operates with a 5-year plan that is 
required to be updated every 3 years. And that 5-year plan had 
been put in place by my predecessor and did not mention 
counterterrorism. Rather than wait for 2003 to require a 
retooling of that plan, I directed that that plan be 
redeveloped. In the process of redeveloping that plan, we have 
made counterterrorism our number one priority.

                   Priority of Antiterrorism Funding

    Mr. Obey. But, Mr. Attorney General, with all due respect, 
if we are going to talk about comparing your budget request to 
your predecessor's, your predecessor's averaged 15 percent a 
year in increases. And in fiscal 2001, the increase was 22 
percent. The President's budget proposed to cut that increase 
to 10 percent in the budget he submitted.
    And the September 10th budget which you submitted would 
have cut that to zero, as I understand it, for the 
antiterrorism programs that we are talking about. It is all 
well and good to talk about making antiterrorism your number 
one priority, but budgets tell us what our priorities are. And 
you did, according to the article, turn down the FBI's request 
for $50 million for new counterterrorism field agents, 200 
intelligence analysts, and 54 additional translators.
    I would point out that you say that you got a billion and a 
half dollar increase last year. That is because the Congress 
fought like hell to give a half a billion dollar increase above 
what the White House was willing to accept. The President at 
one point told me, sitting as close to me as you are to me now, 
that if we add one dime over his request he would veto the 
bill.
    So I don't understand this footdragging on the part of your 
agency. And I do not understand the resistance to the FBI 
request, or, for that matter, the bipartisan request--and this 
isn't your fault because you did not guide that strategy, this 
falls squarely on the shoulders of OMB and the White House. But 
I guess I ask these questions not to second guess your past 
judgment, but because I would like to know that in the future 
we are going to be responding aggressively enough to these 
problems, rather than continuing to have a war between the 
Congress and the President simply because the Congress proposed 
some increases to counterterrorism that the White House 
couldn't claim authorship for.
    Attorney General Ashcroft. If I may respond, let me just 
indicate to you that maybe you and I have a different 
definition of footdragging. But when the Director of the FBI 
came to me with a $670 million request, and----
    Mr. Obey. Did you not----
    Attorney General Ashcroft. May I----
    Mr. Obey. But you have mentioned the FBI twice now. Did you 
not turn down their request on September 10th for the increases 
that the article cited?
    Attorney General Ashcroft. After 9-11, the FBI came to me 
with a $670----
    Mr. Obey. I am talking about September 11th beforehand. Is 
that allegation true or not?
    Attorney General Ashcroft. We were in the process of 
developing the budget. I can tell you the budget that we have 
submitted is for substantial increases, and they came to me 
with a $670 million request and we counseled them to take that 
to $1.1 billion.
    I would just indicate to you that in my understanding of 
the term ``footdragging,'' that does not represent 
footdragging. And then let me--I think you have said that you 
are interested in what our----
    Mr. Obey. But I would appreciate a response. Is it true 
that in your September 10th submission that you declined to 
endorse the FBI request for the items that I just mentioned?
    Attorney General Ashcroft. What I think is true is what I 
have told you, Congressman, that when they came to us with a 
request for 6----
    Mr. Obey. So you don't want to say----
    Attorney General Ashcroft [continuing]. 70----
    Mr. Obey. It is true, isn't it?
    Attorney General Ashcroft. What I think is true is what I 
have indicated to you. When they came and asked for $670 
million, we came back and asked them to move it to $1.1 
billion.
    Mr. Obey. After the fact. Do you want to stipulate that it 
is not true that you turned down the FBI request?
    Attorney General Ashcroft. You know, we were in the process 
of developing the budget----
    Mr. Obey. Did I hear a ``no'' there?
    Attorney General Ashcroft. I am not sure on what occasions 
what kinds of negotiations there were. I can tell you that when 
we made our final submission, the request for $670 million was 
a $1.1 billion request. And in my judgment--I am not trying to 
say this has to be your judgment--but in my judgment, moving 
something from $670 million to $1.1 billion is not 
footdragging.
    Mr. Obey. I am glad you did.
    Attorney General Ashcroft. Let me assure you this: We will 
ask for everything we believe to be necessary to defend the 
American people and to defend them effectively. It is not my 
intention, I don't think it would be a fair characterization at 
all to suggest that it has been in any respect our intention 
not to ask for adequate resources to defend the American 
people.
    Mr. Obey. I am going to put in the record, Mr. Chairman, 
with your permission, a chart labeled Counterterrorism 
Supplemental OMB Passback, 12 October 2001. It shows that the 
FBI request for the counterterrorism project was $1.5 billion 
and that the official budget request was not a billion-4, but 
$530 million.
    Mr. Wolf. Without objection.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Obey. I would like also to change the subject to ask 
one other question.
    Attorney General Ashcroft. May I ask the Chairman to allow 
me to provide a complete record to be a part of the record?
    Mr. Obey. Absolutely.
    Mr. Wolf. It will be together.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Obey. I am not trying to second guess your past 
decisions; I use them because they frustrate me, because to me 
it indicates that when the FBI was asking for more agents, you 
turned them down. And after September 11th, even after we saw 
what could happen, the OMB put huge roadblocks up against 
bipartisan efforts in both Chambers to more fully deal with the 
threat that was facing us. And I just use this so that I hope 
this controversy will mean that we do not have that kind of 
division again on this issue, because the country cannot afford 
it.

                        Oregon Assisted Suicide

    I would like to ask one other question with the sufferance 
of the Chair. An article appeared in The Washington Post which 
indicated that you had made a decision to use the resources of 
the Justice Department to pursue doctors in Oregon who under 
Oregon law tried to assist people who asked for a doctor's help 
to die with dignity.
    Was that article correct?
    Attorney General Ashcroft. First of all, without the 
article in front of me, I don't want to talk specifically about 
the article. But let me explain what I believe the situation is 
regarding the matters that you----
    Mr. Obey. I would appreciate a brief answer because I do 
not want to take all the committee's time. I would like to know 
whether or not you have made a decision to prosecute Oregon 
doctors if they pursue----
    Attorney General Ashcroft. Any Oregon doctor that violates 
the laws of the United States, whether it be an Oregon doctor 
or a doctor from Kentucky or Wisconsin or Virginia, I view it 
my responsibility to administer justice.
    Mr. Obey. Well, what I would like to say in that respect--
and this is a personal opinion only, I speak for no one else--
especially in light of the previous discussion about the lack 
of aggressiveness in pursuing antiterrorism or counterterrorism 
programs before September 11th, it seems to me that with scarce 
resources it is legitimate to ask whether or not your agency 
ought to be using its scarce resources to go after doctors who 
under the Oregon law are simply trying to respond with 
compassion to those who are in agony and near death and asking 
for some help.
    And I will be very blunt about it. I came into this world. 
I did not ask your permission to come into this world, and I 
did not ask anybody else's permission to come into this world. 
And if I choose to leave this world, I will be answerable to 
only one person and that is God. I won't have to ask your 
permission, I won't have to ask the permission of any 
ecclesiastical body.
    It seems to me that when we have serious problems upon 
which this country is united, it seems to me that the resources 
of your agency ought to be focused on that, rather than second 
guessing a doctor who, acting out of a mercy judgment, tries to 
help someone who is near death.
    In my view--and this is not a question of life versus 
death, this is a question of death with agony or death with 
some dignity. And while I would certainly never advise anyone 
to end their life prematurely, I believe in the end, that that 
is an individual decision and I don't think that the United 
States Government ought to stick its nose in.
    Attorney General Ashcroft. Mr. Chairman, I would be happy 
to address the issues related to assisted suicide or just 
receive the opinion of the Congressman. When I was confirmed in 
my responsibility, I swore an oath; and not only that, I 
assured Members of the Senate that I would enforce the laws of 
the United States. I intend to enforce the laws of the United 
States until they are changed. And I do not supersede my 
responsibility to enforce the law with my personal evaluation 
of one law or another.
    Mr. Obey. Mr. Attorney General, all I would say in response 
to that is that I don't argue with that statement. It is your 
obligation to enforce the law. But as the previous discussion 
on antiterrorism demonstrated, we do have questions of 
priorities in terms of where we put our dollars and resources. 
And it seems to me that while you have an obligation to enforce 
laws, one can legitimately question the emphasis that you place 
on terrorism versus other activities. And in my view, I would 
bet you that most Americans would hope that you would use every 
dollar of the resources available for counterterrorism rather 
than interfering in choices between doctors and patients.
    Mr. Wolf. Mr. Miller.
    Mr. Miller. Mr. Attorney General, let me commend you for 
the job you have done. You have risen to the challenges of 
September 11th. We are proud of the work you are doing and our 
prayers are with you.
    Attorney General Ashcroft. Thank you.

                          Boys and Girls Club

    Mr. Miller. Let me go back to some issues that I brought up 
last year at this hearing about the Boys and Girls Club. I was 
disappointed that it was not included in the budget last year, 
but, as you know, we worked to include it in the appropriation 
last year. It is a program for disadvantaged youth for after-
school programs and weekend programs. I thank you for including 
it in the budget this year. It makes it a lot easier when we 
start with your inclusion, rather than starting at our end. So 
thank you very much.

                              Extradition

    Let me switch to another issue; that is, extradition. Let 
me start off with a ``thank you'' there. There is the Ira 
Einhorn case. I know you got involved in that case and the 
Justice Department and the State Department worked very, very 
hard. You never see the work that takes place on an issue as 
difficult as that is. Ira Einhorn is accused of the brutal 
murder of his girlfriend in 1977, and is now in Philadelphia, 
in jail, getting ready to stand trial. There are a lot of 
people in the Justice Department and the State Department, both 
here in Washington and in France, that worked very hard on 
that, and I give everybody credit and thank you for personally 
getting involved in that case.
    Attorney General Ashcroft. The French authorities deserve 
our thanks and appreciation. I had to deal personally--it was 
my privilege to deal personally with those authorities, and 
they are to be commended not only on that case, but on a cop 
case, as well, where the French authorities have agreed with us 
for extradition--two very serious matters that were very 
important to the Department. I am glad that you are aware of 
them and we are pleased that they have worked out the way they 
have.
    Mr. Miller. I got involved in an extradition issue because 
of a brutal, horrible murder in Sarasota, Florida in 1977 where 
a man drove from San Antonio, Texas, to Sarasota, spent the 
night, a hired killer, murdered a mother of six, 2-year-old 
quadruplets at home that day. Shot her in the head twice and 
slit her throat twice. He drove from Sarasota back to Texas and 
then fled to Mexico. It took us a long time to extradite him 
from Mexico. We waived the death penalty.

                        Extradition From Mexico

    The problem we are challenged with now is, as you are very 
aware--I think you are aware--is that Mexico has now determined 
that a life sentence is cruel and unusual punishment, and their 
Supreme Court has ruled that they will not extradite people for 
that cause. They have continued to do that.
    I have a letter that I am going to give to you signed by a 
number of members of this committee asking you to address this 
issue with the extradition. We think it is inconsistent with 
our current extradition treaty. It challenges the legal system 
and will encourage criminals to flee.
    I have also received a letter of an organization that you 
used to be chairman of, the National Association of Attorneys 
General, signed by most of the Attorneys General of the United 
States on July 22nd, raising this exact issue.
    This may give an opportunity for you to address extradition 
issues around the world. The European Union, it is my 
understanding, after September 11th passed new extradition for 
the European Union to extradite; basically deport, like 
deporting somebody from Florida to Michigan. We have problems 
with our extradition treaties around the world. I don't even 
think we have one with Pakistan. And when you have brutal 
murderers--in the Del Toro case he pled guilty, he was hired by 
the ex-husband. In the Ira Einhorn case, he will have a fair 
trial in Philadelphia.
    But as we have potential terrorists that we may need to 
extradite to this country, I hope we can revisit extradition 
treaties. My question is, what is going to happen with the 
Mexican Supreme Court ruling? I know they have continued to 
allow some extraditions and deportations, but we cannot allow 
that to stand.
    Attorney General Ashcroft. This is a matter of particular 
concern and it is troublesome to me.
    We cannot have a situation where there is a perceived safe 
haven for serious criminals to leave the United States and hide 
in Mexico. I don't believe the Mexican authorities want this to 
be the case. We have gotten good cooperation in this 
Administration in terms of extraditions and the number of 
extraditions has gone up dramatically. But when the Supreme 
Court of Mexico has ruled that certain individuals are 
ineligible for extradition based on the penalty, including 
penalties that might be life sentences, not just capital 
penalties, it is a very, very serious matter.
    I will be raising the matter and have discussed the matter 
with Mexican authorities, and will obviously do everything that 
I can within the Administration to make sure that it is raised 
with them. But we have got to work very hard to try and 
overcome this. The fact that it is a matter from their Supreme 
Court, rather than from the legislative branch of government, 
makes remediation of it in some respects a little more 
difficult than it would if it were a part of a capacity of an 
Administration to carry forward with an initiative.
    Let me just indicate to you that we have been discussing 
our extradition matters with our European friends in regard to 
the potentials that exist, especially those following 9-11, and 
we would very much like to have the kind of benefit in 
extraditions from one European country to the United States 
that they have when they move an individual who has been 
charged from one European country to another European country.
    Mr. Miller. My understanding is that what happened with the 
European countries, they just changed that at the European 
Union level after September 11th because of the challenges that 
brought. But it is of great concern.
    Attorney General Ashcroft. They have explored and, I 
believe, begun to implement what they would refer to as a Euro 
warrant and the ability to arrest and detain based on the 
demand of one country regarding an individual alleged to have 
committed a crime within the jurisdiction of that demanding 
country.
    Mr. Miller. This may be a time and opportunity to try to 
strengthen extradition treaties so we can go for deportation 
and get people to stand trial, especially with Mexico where we 
have such a huge border. They are our neighbor and we need to 
work with them, but it cannot be a safe haven for people to 
drive to Mexico--and for the life sentence I understand the 
debate on the death penalty, but not life sentence.
    Thank you for the job that you are doing. I yield back.
    Mr. Wolf. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. Mr. Attorney 
General, welcome.
    Attorney General Ashcroft. Thank you.

                        TRANSFER OF ODP TO FEMA

    Mr. Mollohan. As you know, the President's fiscal year 03 
budget proposes a transfer of the Office of Domestic 
Preparedness from Justice to FEMA. And that has ignited a minor 
political firestorm up here. I would like for you to talk a 
little bit about that. Maybe you could start by telling us just 
what the role of the Office of Domestic Preparedness is and at 
the end I would like for you to publicly analyze this transfer 
and state your views.
    Attorney General Ashcroft. Well, the Office of Domestic 
Preparedness has been a grant-making office in the Justice 
Department to help develop, at the direction of the Congress, 
the capacity and capability of local law enforcement officials 
to participate effectively in responding to and curtailing, 
preventing, and remediating terrorist activities.
    The President of the United States has indicated that he 
believes that a number of the federal programs offering 
training and assistance to state and local organizations and 
governments be, and I am quoting, ``seamlessly integrated, 
harmonious, and comprehensive,'' to maximize their 
effectiveness. And he believes that the first responder 
community works well with FEMA. And FEMA, frequently in natural 
disasters and a variety of other settings, is working closely 
with police, fire, emergency medical folks, and first 
responders.
    I support the Administration's position in this respect, 
and the transfer will provide state and local responders with a 
single funding source for $3.5 billion in equipment grants and 
training programs and other preparedness efforts.
    During the time when this office was in the Justice 
Department, we have worked to try and train and prepare 
individuals. We believe that the record of the Justice 
Department in working together to get that done is a good 
record. But this Administration is preparing to make the 
transfer, which I support.
    Mr. Mollohan. Have you talked with Director Allbaugh about 
this transfer and the prospect of the transfer?
    Attorney General Ashcroft. I have indicated to him that the 
Administration proposal in this respect has my support.
    Mr. Mollohan. This is a large amount of money that we would 
be transferring to FEMA, $234 billion. It is a huge chunk of 
money. Does this require an authorization?
    Attorney General Ashcroft. The Administration's position is 
that it does not. But obviously the proposal and submission 
request for appropriation contemplates that it be; that is, the 
expected transfer would be facilitated. The Administration 
believes that FEMA already has the authority to administer 
these programs; therefore, the Office of Justice programs' 
budget includes a transfer in the estimates of 59 positions and 
$234,494,000 in the year 2003.
    Mr. Mollohan. So your position is that FEMA has the 
appropriate grant-making authority at this time, and this is 
simply a process that can be worked out among the various 
players in the appropriations process?
    Attorney General Ashcroft. Yes, it is.
    Mr. Mollohan. And you support the transfer?
    Attorney General Ashcroft. I support the transfer, I 
support the plan of the administration.

                          PRISON CONSTRUCTION

    Mr. Mollohan. Attorney General, let me address the Bureau 
of Prisons for a moment. I note a cut in the construction 
budget for the Bureau of Prisons. It has been on a real ramp-up 
in the last few years to accommodate the rapidly increasing 
demand on the prison system because of the growth of the prison 
population. And last year, during the testimony of Ms. Sawyer, 
the Director of the Bureau of Prisons, she indicated that the 
Federal inmate population had increased more than sixfold in 
the last two decades. She further indicated that the Bureau of 
Prisons expected the prison population to continue to increase 
due to aggressive law enforcement initiatives, particularly in 
immigration areas, drugs areas, and weapons offenses, some of 
which I am sure will be impacted by your antiterrorism 
initiatives. Such growth has necessitated a really ambitious 
prison construction program.
    Your prison construction program budget is significantly 
lower in your 03 request than it was in 02. Now here is the 
problem. There are a number of outstanding construction 
projects for which partial funds have been provided in past 
years. Completion funds, as I review your budget, are not 
included in the 03 request. And I wonder if you could comment, 
and if you agree with that. And if you do not, please explain 
why that might be wrong.
    Attorney General Ashcroft. Well, the 2003 budget request 
balances the challenge of new prison space and construction 
funding with other top priorities including counterterrorism. 
There are a total of 28 federal prison facilities that the 
Bureau of Prisons plans to bring on-line through the year 2009. 
Beyond the 2003 request, the Bureau of Prisons has nine 
partially funded facilities in the pipeline which will help 
lessen crowding in the federal prison system. These nine 
projects, which will require approximately $1.1 billion to 
complete, will provide an additional 10,280 beds once 
completed.
    Mr. Mollohan. But you are asking for construction for only 
three, as I understand it.
    Attorney General Ashcroft. That is correct. In time, those 
nine would be required for completion after the 2003 year.
    There are probably one or two other things that ought to be 
mentioned, and that is that we are being asked by Members of 
the House and Senate to think carefully about building 
additional space, given the fact that there are a number of 
jurisdictions that have surplus space, and we have constituted 
a special group to look at this; because when states have 
space, it may be that there are ways for us to utilize the 
space that has been constructed pursuant to state programs to 
fulfill some of these needs.
    Mr. Mollohan. You know, this has been an ongoing topic for 
this committee for a number of years--the ability of private 
and state prisons to accommodate federal prisoners. And I think 
the consensus, after you deal with that issue for a period of 
time--for those who have dealt with it for a period of time--is 
that private prisons can handle inmates at the lowest security 
level.
    Attorney General Ashcroft. Minimum security.
    Mr. Mollohan. Yes Minimum security. Federal prisons, 
really, if they are going to have the responsibility of housing 
higher security inmates, they need to have the facilities to 
accommodate them. And I hope we do not go back and rehash that 
debate and shortchange prison construction in the meantime, 
particularly prisons that are already under construction but 
not fully funded.
    Attorney General Ashcroft. Well, I would agree with you. 
That is why we have appointed a group to study these issues. 
Standards can sometimes be substantially different. And I don't 
believe what we are studying is the rental of space. We are 
being--a number of Members of the Congress have asked us to 
consider the acquisition of space, that surplus space in state 
systems. The success----
    Mr. Mollohan. You mean to buy state prisons that the states 
built?
    Attorney General Ashcroft. Or to use state prisons instead 
of constructing additional prisons that had been, at one time, 
planned in the federal system.
    Mr. Mollohan. Thank you, General. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Latham.
    Mr. Latham. Thank you very much, Mr. Chairman. Before I 
start, Mr. Miller had asked that I submit a letter for the 
record.
    Mr. Wolf. Without objection. Sure.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Latham. Thank you. Welcome, Attorney General Ashcroft. 
It is a real pleasure and honor to have you. And I want to 
congratulate you on an outstanding job that you have done 
protecting our country. And I don't think there is any question 
that the actions that you have taken have saved American lives 
since September 11th, and we are all deeply appreciative of the 
fine work that you have done.

                           INS REORGANIZATION

    I would like to associate myself with the comments by Mr. 
Rogers and his concerns with INS. I would say in Iowa 70 to 90 
percent of our casework has to do with problems dealing with 
INS. And anything that we can do to reform INS, to secure our 
borders, as I do town meetings, it is the number one issue. 
People are very concerned about the porous borders we have. 
Dealing with the problem in Iowa and around the whole country, 
Seems to be a lack of responsiveness from INS. And a lot of it 
is just in the way the agency is made up, but systemically it 
has to be changed, I think, to separate out the enforcement and 
the administrative functions with the Border Patrol also.

                            METHAMPHETAMINES

    Somewhat in that vein, and your being from Missouri, you 
are keenly aware of the problem with methamphetamines in the 
Midwest. It is a problem that continues to grow and grow, and 
is a huge problem for local law enforcement.
    That is why I guess I am concerned about the budget you are 
talking about some severe cuts or even elimination of programs 
that are important to Iowa, and to local law enforcement: the 
State prison grants--the Byrne discretionary grants, State 
Alien Assistance programs, Local Law Enforcement Block grants. 
And I have to say that this is something that we have talked 
about since I have been on this subcommittee for the last 
several years. Congress has had to deal with the 
Administration's proposals which have reduced those programs.
    But I would ask you, are you planning on making up the 
loss? We have a tremendous burden on local law enforcement 
today and also our emergency services, as you are keenly aware. 
But if we do follow your blueprint, where are these funds going 
to be made up? And when my mother in Alexander, Iowa calls 911, 
she does not get the FBI or the CIA, she gets the local fire 
department, the local police, the sheriff. Where are we going 
to make up these funds?
    Attorney General Ashcroft. Well, let me just indicate that 
I am somewhat familiar with the methamphetamine challenges. We 
are continuing the $20 million requested for meth lab cleanup, 
the most difficult part of the situation. We had an epidemic of 
methamphetamine production in Missouri before my time as 
Attorney General, and they still have a problem there. I think 
cleanup is something that the Federal government can be of 
assistance with, given the special toxicity that follows meth 
lab production.
    But we do have a change in the grant program. And we hope 
that the increased flexibility of the Justice Assistance grants 
over the Byrne grants will be of some value. However, it is 
clear that we have had to set some priorities for 
counterterrorism. And with the Federal government having to do 
more things--you have mentioned immigration and naturalization, 
securing the borders--those demands have simply made it 
impossible for us to serve all of the demands or requests that 
we would like to have otherwise been able to serve.

                                  COPS

    Mr. Latham. Okay. Well, I am sure the committee will look 
at these things as we always do.
    One other concern in the COPS program; a lot of our 
agencies are having a difficult time. They will get notice of a 
grant award from the COPS program, but the money does not come 
until a year later. And obviously there is a lot of frustration 
with that--with the tight budgets everyone has today.
    Attorney General Ashcroft. Well, obviously the COPS program 
has been one of the most successful programs that we have ever 
worked with. It is a program where the Federal government 
sought to demonstrate the value of increased law enforcement 
and to fund the demonstration. Ninety-two percent of the 
jurisdictions that received money under the COPS program 
decided yes indeed, this does help reduce crime. We want to 
continue that and have decided to use local resources to 
continue those things.
    We believe that was a very successful program, and yet we 
believe that the point has been made there.
    Mr. Latham. Okay. I again congratulate you for the 
outstanding job that you have done; it is very much appreciated 
by all Iowans and the country. Thank you.
    Attorney General Ashcroft. Thank you.
    Mr. Wolf. We are just going to take a 5-minute recess.
    [Recess.]
    Mr. Wolf. We will reconvene. The committee will come to 
order. Mrs. Roybal-Allard.
    Attorney General Ashcroft. Thank you, Mr. Chairman, for the 
opportunity to take a break.
    Ms. Roybal-Allard. Thank you, Mr. Chairman. And welcome, 
Attorney General.

                           INS REORGANIZATION

    Let me begin first of all by also expressing my strong 
interest in the restructuring of the INS. And I would be very 
happy to work with you, along with the other Members of 
Congress who have a similar interest, to make sure that the 
final package is one that truly creates an agency that is just 
and fair and efficient on both the enforcement side and the 
service side.

                                 245(i)

    Last year, you, along with the President and the 
Administration, expressed strong support for a second temporary 
extension of 245(i) of the Immigration and Nationality Act. And 
this extension, as you know, would allow individuals to remain 
in this country while adjusting their status, rather than 
having to leave and go back to their country of origin, and 
thereby having to leave their family for up to 10 years.
    Can you tell me, please, if the Administration is still 
supportive of that policy, of family unification, or has there 
been a change in policy for the Administration?
    Attorney General Ashcroft. The Administration continues to 
support the extension of 245(i). We were encouraged by the 
compromise that was being worked out last year and hopefully 
the same spirit, I think, could characterize some ability to 
address the kind of relief that this represents. And it would 
be my hope that this kind of effort is something that could 
provide a basis for us working together to get something to the 
President that he could sign quickly.
    Ms. Roybal-Allard. Well, perhaps with your support and that 
of the Administration, you could work with the Congressional 
Hispanic Caucus to encourage the leadership in the House to 
bring up that very important bill.

                           SCAAP ELIMINATION

    I would now like to ask a question with regard to an issue 
that is extremely important to California, and that is the 
proposed--in your proposed budget, the administration 
eliminated the funding for the criminal alien assistance 
program, which is known as SCAAP. And I realize that SCAAP does 
not directly reduce violent crime and it was never intended to 
do so. But SCAAP was specifically designed as a reimbursement 
program to help states and localities offset the increasing 
costs of incarcerating criminal aliens who are the 
responsibility of the Federal Government.
    In fact, in 1995, then-Governor Bush stated his strong 
support for the SCAAP program, stating, and I quote: If the 
Federal government cannot do its job of enforcing the borders, 
then it owes the States monies to pay for its failures. End of 
quote.
    And if the SCAAP program is eliminated, state and local law 
enforcements will have to divert already very limited 
resources. Particularly, for example, in California we 
currently pay as much as $600 million annually for the 
incarceration of these individuals. And then, as Mr. Latham 
mentioned, to add to the problems of state and local law 
enforcement, the administration's budgets have cuts or 
eliminated other important programs such as Byrne and the COPS, 
technology grants, juvenile justice assistance, and meth 
enforcement.
    Now, given the fact that the intent is to eliminate this 
program, how does the Administration propose that States like 
California make up for the shortfall that they will be 
experiencing due to the elimination of SCAAP, especially in 
light of the fact that many states have their own huge budget 
deficit at this time?
    Attorney General Ashcroft. Well, the focus of the 
President's budget is on counterterrorism and the effort to 
expand that particular responsibility. There are programs like 
SCAAP that are reduced or eliminated. And as part of the 
President's emphasis on homeland security, the savings from 
SCAAP will allow resources to be redirected to the INS law 
enforcement community, and that community grows by almost a 
billion dollars in the President's 2003 budget.
    Now, doing a better job along the border is of benefit to 
the states that were in many respects very substantially 
affected by the SCAAP program. Border states, Texas, New 
Mexico, Arizona, California, will continue to be beneficiaries 
of the southwest border assistance initiative, and under OJP 
Southwest Border Initiative program for which we are requesting 
$50 million. Border states and jurisdiction offices, court 
officials, will get some assistance.
    But I think it is fair to say that this is a circumstance 
where the demand for additional Federal activity has resulted 
in a direction of the resources to the Federal law enforcement 
agencies like the Border Patrol and INS, and as a result some 
programs like SCAAP are reduced or eliminated.

                    STATE AND LOCAL LAW ENFORCEMENT

    Ms. Roybal-Allard. Well, Mr. Attorney General, it is my 
understanding that state and local law enforcement are a part 
of our country's first line of defense and response to 
terrorist threats or attacks. So their ability to have strong 
local law enforcement is extremely important to the whole 
effort for national security. So by making these cuts and 
eliminating some of these very important programs, do you not 
in fact weaken their ability to be that first line of defense?
    Attorney General Ashcroft. We certainly do not want to 
weaken our partners in the fight against terrorism. And there 
is no question about the terrorist threat. It requires us to be 
integrated in our approach with people at the lowest level of 
law enforcement and above the United States to that extent in 
the international community, if you wanted to have a continuum. 
We have to rely on help from other nations, but obviously we 
have to rely on help from state and local officials.
    We are doing a number of things to help state and locals, 
and if you look at the budget overall, there is a substantial 
increase to the assistance that we will bring to the state and 
local law enforcement agencies. But in this particular program, 
SCAAP, the program is eliminated.
    We are, for instance, sharing information in ways and 
providing training for sharing information and providing 
training and assistance for agencies and learning how best to 
integrate their effort and to develop interoperability of their 
communications systems so that we will work well together.
    But the particular SCAAP program is one of those programs 
reduced or eliminated as a result of the reconfiguration of the 
resources, primarily at the national level, which means that 
some of our assistance to parts of the state and local equation 
have been eliminated or reduced.
    Ms. Roybal-Allard. Mr. Attorney General, let me 
respectfully suggest that if law enforcement is expected to be 
the first line of defense and a response to terrorist attacks, 
that--for example, in California, not being able to have any 
reimbursement for the $600 million that is currently spent, 
plus all the other cuts and reductions that are being made to 
law enforcement programs--that in fact you are weakening local 
law enforcement and not strengthening them. And I don't believe 
that any of the additional monies are going to make up for that 
shortage. And I think there is tremendous concern among law 
enforcement about what has been proposed by this budget.

                      BOARD OF IMMIGRATION APPEALS

    I also understand that the Department has recently proposed 
a regulation to streamline the Bureau of Immigration Appeals, 
known as BIA. And given the current heavy workload and backlog 
of 55,000 cases, although I agree that something needs to be 
done, how we do it I believe is extremely important, because 
the BIA is often the tribunal of last resort for thousands of 
immigrants. Therefore, some of the provisions of the 
Department's regulation are of great concern not only to me, 
but to many in my community and the district that I represent.
    For example, the proposal to cut the Immigration Appeals 
Board from 23 authorized members to just 11, which could result 
in a less than thorough review of cases because of the 
increased workload of individual judges; the proposal to reduce 
the number of judges on review panels from 3 to 1, which 
potentially places too much power in the hands of one 
individual by discouraging collaboration; and finally, the 
concern about the proposal to eliminate the de novo review, 
which would prohibit the introduction of new evidence and the 
questioning of previously presented evidence during the appeal, 
this also could discourage a full and objective review of 
cases.
    How do you propose to ensure that the thoughtful and 
thorough review of all BIA cases is not compromised for 
expediency's sake?
    Attorney General Ashcroft. Well, first of all, let me agree 
with you that we need to have a system which provides for due 
process, which treats people with fairness and dignity, which 
gives people a chance to have their cases ruled on 
expeditiously. And that is the controlling guideline that we 
would use.
    An experiment or pilot program had been started earlier by 
the previous Administration which gave us indication that we 
could provide some efficiencies. Let me just start by saying 
one of the items is to not use 3-judge panels in every case. If 
there are not novel questions or disagreements between what one 
part of the immigration system is doing and another part of the 
immigration system is doing, or there are not difficult matters 
of law, a single judge should be able to make the decision.
    And if people really deserve to have their cases ruled on 
in a timely fashion, asking three judges separately in series 
to make those decisions has prolonged the time. Most Americans, 
when they go to court, do not get three judges; they get a 
single judge to rule, and that judge makes a ruling. 
Occasionally in a U.S. district court, there is a multiple-
judge situation.
    We have reserved the opportunity for multiple-member panels 
to be used in cases that do involve disagreements between 
immigration judges or other difficult matters of law. But the 
screening panel will assign those cases which have those kinds 
of issues. The other cases should be ruled upon by single 
judges.
    You mentioned eliminating the appeal levels de novo or 
trying the case over again. It is an element of the way America 
does appeals to rely on the people who do the trial work to 
make judgments about the facts. And when an ordinary citizen of 
this country goes on appeal to an appeals court, that citizen 
does not have the right to have the appeal court redo the 
entirety of the proceeding. The appeals court is there to 
safeguard against abuses, failures to follow the law, or 
manifest clearly erroneous conclusions.
    The BIA, the Board of Immigration Appeals, under the new 
program would sort of mirror that system, where they would 
accept the factual findings of the immigration judges and 
disturb them only if they are clearly erroneous, which is 
similar to the way Americans have their cases adjudicated when 
a citizen goes to court. The appellate court only sets aside a 
factual finding if it is clearly erroneous.
    Number three, the proposed rule would establish a series of 
time limits to expedite pending cases. We have had cases that 
were pending for many, many years. One of the cases which was 
pending for over 5 years was related to an individual who had 
been charged with massive dealings in the heroin and dope 
community, and the delay in the cases by virtue of 
reconstituting the case totally with de novo appeals and delays 
that come with multiple judges in the cases simply is 
unwarranted.
    At the time that the proposed rule takes effect, the Board 
of Immigration Appeals would immediately implement some 
procedural changes. And during the transition period, the 
members of the Board of Immigration Appeals are directed to 
apply the procedures to all cases already pending so that at 
the end of the transition period, no case would be pending for 
longer than 10 months. We believe that one of the rights that 
those individuals who are in this system have is to have a 
process that provides them with a prompt, fair, resolution that 
has adequate safeguards, but that does not unduly delay their 
particular cases.
    And of the 56,000 cases in the backlog, more than 34,000 
are over a year old and more than 10,000 are over 3 years old, 
and some are more than 7 years old. And I think we need to 
reform the court because that is not the way that we should 
deal with the cases of individuals whose very lives are 
dependent upon their status as it relates to citizenship or 
eligibility to stay in the United States.
    Ms. Roybal-Allard. Let me respectfully point out that 
unlike the BIA when a citizen is before one judge, they also 
have a jury of 12 of their peers, so it is a little bit 
different.

                       REDUCTION OF JUDGES IN BIA

    My second question has to do with reducing the number of 
judges from 23 positions to--I believe there is right now 19 of 
which are currently filled--to 11, and what criteria you will 
use to determine which judges stay and which judges will go.
    Attorney General Ashcroft. Well, there are likely to be 
judges that leave as a result of attrition. But we would try to 
have individuals stay who are good judges.
    Ms. Roybal-Allard. Well, is there--I guess my question is 
what kind of criteria is going to be used and is it something 
that will be available to the public to determine who are the 
good judges and who are not the good judges, and what is going 
to be the basis upon which a decision is going to be made as to 
who stays and who goes.
    Attorney General Ashcroft. Part of the decision-making 
should be judges who can make decisions within a reasonable 
time frame so that we don't have the kind of backlogs that find 
cases of 7 years old, 10,000 cases over 3 years old, and cases 
being unduly delayed. We have thoroughly analyzed the 
bottlenecks in the system and have concluded the problem is not 
one of personnel but one of procedure. So we believe change is 
one that should be made and can be made.
    Ms. Roybal-Allard. So will you be determining it by how 
fast a judge can review a case and get it out of the way, or 
quality of his decisions?
    Attorney General Ashcroft. This would be the criteria: 
those who are most respected in the field of immigration law, 
those who are the most knowledgeable and capable in applying 
the law, those who exhibit and have a judicial demeanor, those 
who perform their jobs ethically and with professionalism, and 
those who demonstrate themselves to be capable of tackling the 
workload. And in making that determination, I will solicit the 
advice of the Director of the Executive Office for Immigration 
Review--EOIR--as well as the input of the board chairman, and I 
would obviously welcome input from the Members of Congress as 
well.
    Ms. Roybal-Allard. So ultimately you will be making that 
final decision?
    Attorney General Ashcroft. We will make a decision to 
reduce the number of judges on the board to a number that is 
necessary. The number of judges went from a very small number, 
5 members in the mid-nineties, to 21 members. And in the 
expansion of the court, we found that we didn't get any 
improvement in the performance. And what we believe is that the 
system is at fault, not the personnel. We need to drive with 
reforming the system and providing a more productive approach 
so that hard-working, honest individuals are not asked to wait 
years to get an outcome. We believe that individuals can fairly 
make these decisions and ought to, and that the safeguards 
under the proposed system are very, very adequate and 
appropriate.

                    ELIMINATION OF ATTORNEYS AT BIA

    Ms. Roybal-Allard. In last year's hearing, DOJ indicated 
that it requested--it needed 10 additional positions for the 
BIA, based on the pending backlog and anticipated workload that 
you just mentioned. These 10 new attorney positions were paid 
for with the funding the BIA received through the fiscal year 
2001 counterterrorism supplemental appropriations bill. Are you 
now planning to eliminate these staff attorney positions under 
your proposed regulation?
    Attorney General Ashcroft. We believe that the staff is not 
the problem here. We believe that the process and procedure is 
the problem and we--we are reviewing the situation in regard to 
the value of the staff and moving the caseload through, and 
have not made a decision to cut the staff as we have the 
decision to change the way the judges in the system operate. 
When you cut the number of judges on most of the original cases 
by two-thirds, that means that those cases can proceed much 
more expeditiously. But we have not come to the conclusion that 
the staff should be cut. It may well be that the staff needs to 
be maintained at this level.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Mr. Wolf.  Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman and welcome, Mr. 
Attorney General. It was an honor for me to join you not too 
long ago for the renaming of the Department of Justice in the 
memory of my late uncle, Robert F. Kennedy, and indeed you 
honored my whole family in joining with the President.
    Attorney General Ashcroft. The honor was mine, Congressman.

                   NATIONAL CRIME INFORMATION CENTER

    Mr. Kennedy. Thank you. I wanted to go through a number of 
issues, some of them are disparate. But I wanted to start with 
an issue that came to my attention in another subcommittee that 
I attend as a member, and that is the Labor, Health and 
Education Subcommittee. Just the other day, we had the 
opportunity to meet with the Social Security administrator and 
go through a number of issues with our Social Security system. 
And of course in the national news, it has been featured 
prominently, Social Security identification fraud. The question 
that I came up with there had to do with not only homeland 
defense, but also Social Security and its financial stability. 
Particularly the discussion revolved around the fugitive felon 
program, and it was just incredible to me to learn in just this 
last year, Social Security identified over 22,000 fugitives, 
and they were paid by the Social Security Administration. These 
fugitives were paid in excess of $41 million.
    And I thought to myself, how in the world could Social 
Security be paying all these fugitives these Social Security 
checks? And it came to my attention that using the audit 
figures, that the National Crime Information Center does not 
capture all felony warrants in this country. In fact, it only 
receives only 28 percent of all felony warrants nationwide. 
Obviously that is a troubling thought, to think that not only 
are we overpaying Social Security benefits to felons, but that 
is a result of the fact that we don't even have a national 
warrant database.
    So I would like to ask you a question because the Office of 
Inspector General recommended that we have a national warrant 
database that would facilitate this information. I am wondering 
if you can comment on whether you are doing this or whether you 
would like to see this done. If you could comment on this 
briefly please.
    Attorney General Ashcroft. Frankly, I am very pleased to 
hear your expression of interest in this and I believe it is 
something that we may be able to work together to improve. We 
are starting to use the National Crime Information Center, 
NCIC, data and we are starting to check it against other 
databases, including those involved in immigration. And we have 
already found a number of hits of people trying to come in or 
leave the country that we have pulled out of the line to have 
their fingerprints examined. Having a more complete capacity in 
that database is something that I am interested in, and would 
be pleased to confer with you about it.

                     STAFFING AT LOCAL INS OFFICES

    Mr. Kennedy. Super. I think it is essential, obviously. I 
wanted to further discuss some of the INS issues that were 
brought up before. In my state, I visited our INS offices and 
they are absolutely overworked. In fact, INS agents are out on 
the job inspecting cargo ships while a backlog of cases for 
people trying to become citizens grows longer and longer. When 
you look at some of these cases of people and what they have 
been through they are just trying to formalize their paperwork. 
I might add, if they don't formalize their paperwork, then they 
are subject to all kinds of discrimination as the fact that 
they are not full citizens yet and don't enjoy all the benefits 
of full citizenship even though they pay their payroll taxes 
and everything else and are good members of our community.
    So I just reiterate the frustration I think you have seen 
expressed by other members on that issue and I would hope that 
we could staff up our local INS offices for that reason as 
well.

                    VISA WAIVER--ARGENTINA/PORTUGAL

    And in another area of the immigration, I just wanted to 
say that your review of Argentina for the Visa Waiver is 
understandable and I certainly support it. I am interested in 
the other Visa Waiver countries that we have a bilateral 
relationship with, especially Portugal. I understand that the 
support team that you sent over to Portugal found that it was 
doing everything right and, in fact, was very advanced and 
really meeting all the requirements under the Visa Waiver 
provisions, and they were anxious to work with us to enhance 
any requirements in addition to those that we thought might be 
necessary in the wake of 9-11. So given the fact that they play 
a big role in our national defense and support us unequivocally 
on every issue of national security, I just hope we keep 
Portugal in the Visa Waiver program, and given we have a close 
relationship with Portugal--and I would just leave that for 
your comment, if you would.
    Attorney General Ashcroft. I would be happy to address the 
visa waiver issue, and particularly Portugal. There are a 
number of countries that we have said, if you have a passport, 
you don't have to get a visa in order to come to the United 
States. That is known as the Visa Waiver program. If those 
countries don't have a secure passport administration so that 
there are lots of opportunities for passports to either be 
fabricated or acquired from the country in a system that lacks 
the kind of accounting integrity that would provide for 
accountability, then persons from who knows where go and get 
those passports and then are ushered into the United States 
without any of the kinds of safeguards that would normally 
attend to visas.
    It became very apparent to us, and these are some of our 
country's best friends, some of the people who are always with 
the United States, who believe what we believe, just haven't 
had a focus on their passports. The review of Portugal's status 
is expected to be completed in the next couple of months, and 
the Secretary of State and I will submit a written report to 
Congress regarding their participation. And I hope that their 
participation is as constructive as you have indicated. I have 
not reviewed their situation. We sent a pretty clear signal.
    And you mentioned Argentina; we sent signals to other 
settings, and Portugal is certainly not singled out here. I 
think we all understand the need for integrity in finding ways 
to make sure the right people with the right intentions come to 
this country. That is what this is about.

                               LIBERIANS

    Mr. Kennedy. I wanted to say something on one other area of 
concern in Rhode Island. We have the largest population of 
Liberians in this country, and they have certainly undergone 
incredible suffering in their homeland, none the least of which 
was exacerbated by the shipment of U.S. arms. So I thought 
their being given political asylum here is very appropriate 
but, as you can imagine, it is very unsettling to think that 
every year they might have to be sent back to the kind of 
terrorism that is going on in their country. It is brutal 
terrorism, kids losing arms and legs and whole families 
disappearing. So I would just say that we appreciate what the 
Administration did to allow another year to go by and would 
certainly like to work with them and try to assure that, given 
the history, rich history of our country and that of Liberia 
which was founded by former American slaves, I would hope that 
we could work together to give the Liberian community their 
just due with the uncertainty that they live with every year 
and whether they have to get sent back.
    Attorney General Ashcroft. Congressman Kennedy, I know of 
your interest and know of Senator Reed's interest in this 
matter. For about a decade now, it has been a year-to-year 
existence, and frankly the deferred enforced departure 
provision which allows me, on an annual basis, to make an 
adjustment is something that is designed to address critical 
and acute problems. I think there is a question--and I think 
you have raised this--that maybe this isn't an acute problem in 
the sense that it is something that happens and is over with. 
This is sort of a protracted and chronic thing. I told Senator 
Reed when I had a chance to speak with him, to confer with him 
about ways of dealing with this, and I am open to that. I have 
a great sense of appreciation for your compassion in this 
setting and I think it is compassion that is well placed.
    Mr. Kennedy. Thank you very much.

          BYRNE GRANTS AND LOCAL LAW ENFORCEMENT BLOCK GRANTS

    Mr. Attorney General, just two short questions, one to 
follow up on the question that was asked about the 
consolidation of the Byrne grant, and of course the Local Law 
Enforcement Block Grant. I can understand where you might want 
to consolidate, but there is a cut of $100 million, and local 
communities in my district benefit tremendously by both grant 
processes. Of course they are understandably very concerned 
about their ability to continue very valuable programs within 
our communities that help divert juvenile crime and the like 
and help our officers to be able to prosecute crime a lot 
easier. So we just express our concern over that.
    And I have a further question in that regard for the record 
that goes into some of my local communities and how they might 
be affected by this.

                            HIDTA AND OCDETF

    Then one other question. Our Department of U.S. Attorney is 
concerned, being a small state as we are, about the cooperation 
between the High-Intensity Drug Trafficking Areas and Organized 
Crime Drug Enforcement Task Force. There is some concern in our 
state that we and small states may not get the cooperation that 
we need to, and we are very much in support of the HIDTA 
program but we are worried about small states and how they 
might work together with the Organized Crime Drug Enforcement 
Task Force. I would just say that is one of the concerns that 
has been expressed to me.
    Attorney General Ashcroft. May I just make a remark on 
that? Larry Thompson, the Deputy Attorney General, served as a 
U.S. Attorney back in the mid-eighties and was one of the 
architects of OCDETF, and he is very committed to a 
comprehensive approach on drugs. And I think it is something 
that you would respond to that would address the demand and 
treatment sides of things as well as the supply side. And he 
has made this a--well, I put it this way. Michael Jordan came 
back to the Wizards; Larry Thompson came back to the Justice 
Department to work in this area. I am lucky and America is 
lucky to have him. OCDETF is a matter of his focus, and I will 
mention to him your special concerns about the special 
relationship between OCDETF and HIDTA or the High Intensity 
Drug Trafficking Area organization.

                       9/11 VICTIMS COMPENSATION

    Mr. Kennedy. I want to submit for the record additional 
questions, Mr. Chairman, and just say that it was my honor to 
work with the Department of Justice last year to have included 
in the PATRIOT Act the public safety officers benefit death 
program included in the PATRIOT Act. It was tragic in my state 
that just after that passed, one of our own officers in East 
Providence was killed, with five children. And to think that he 
was able to get the additional resources made available by this 
Congress when we passed the PATRIOT Act is very heartening. 
What does leave a lot of people with some questions is the fact 
that this additional money is counted against the compensation 
fund that you mentioned at the outset in your remarks, when it 
comes to the widows and children of 9-11, those police and 
firemen that were killed there. I don't know if the Congress 
realized it when we passed it, but unfortunately this is now 
considered part of the offset that is obviously a very 
controversial part of the Special Master's duties. But maybe if 
you could certainly convey to the Special Master that it 
certainly was not our intent to have this offset when we passed 
the PATRIOT Act, since we did it retroactively, that would be 
very much appreciated.
    Mr. Wolf.  Thank you, Mr. Attorney General.
    Mr. Kennedy. By the way, Mr. Attorney General, I didn't ask 
anything about the Rams and the Patriots. I recall joining you 
for the Super Bowl a couple of years ago with Dick Gephardt and 
seeing you----
    Attorney General Ashcroft. We were happier then, weren't 
we?
    Mr. Kennedy. I was happy for you then, but this year I was 
quite a bit more happy.
    Attorney General Ashcroft. If I might just have 20 seconds 
of personal privilege, I commend you and I commend the 
Patriots. And there was a Cinderella story there, similar to 
that of the St. Louis Rams, and you have to be in admiration of 
a quarterback who came on to do what he did with the 
intensity--and frankly, I don't like it, but I have to commend 
it.

                                LIBERIA

    Mr. Wolf. Mr. Attorney General, I have a number of 
questions to follow up on what Mr. Kennedy said about Liberia, 
and a couple of things when we go back and forth, if the 
Administration is going to do something it would be nice to let 
us know, too. I would like to ask you to go back and urge the 
Administration to deflag the Liberian tankers. What Mr. Kennedy 
said, the Kennedy Hospital in Liberia is in a terrible, 
terrible condition. The Administration allowed a member of 
Charles Taylor's Administration to travel to this country who 
is accused of doing brutal, brutal things. Charles Taylor is 
also aiding the diamond trade, and al Qaeda, which has had an 
impact with regard to supporting Hezbollah and HAMAS. The 
Administration, if it truly wants to do something to help 
Liberia deal with terrorism, ought to make a major effort to 
deflag the Liberian tankers. Most of Charles Taylor's 
government is run with the Liberian flag.
    I would like to request that you take it back to Muirat and 
whoever else is involved, and ask that the Administration make 
this a priority, if they care about Liberia, if they care about 
al Qaeda, and if they care about the severing of arms in Sierra 
Leone, that they deflag by the end of this year all of the 
Liberian tankers so that never again, until Charles Taylor 
leaves that country, do we ever have a situation where there is 
a Liberian flag running.
    If you want to change and not have to deal with what Mr. 
Kennedy was talking about, not have to do it on an annual 
basis, give those people the opportunity to go back if they 
want to be with their moms and dads. You must deflag all the 
Liberian tankers. I hope you would come back and let the 
committee know if the Administration is prepared to deflag 
Liberian tankers.
    Attorney General Ashcroft. I am not prepared to make an 
announcement in that regard except to say that I thank you for 
raising it, and I will try to get back to you.
    Mr. Wolf. I would appreciate that. I think we can go a long 
way to deal with this issue. Sierra Leone was set up by William 
Wilberforce who was a member of the British Parliament. And, as 
Mr. Kennedy talked about how Liberia was set up by American 
slaves who returned to Africa, we have a special burden for 
Liberia. Britain has a special burden for Sierra Leone. But we 
can never solve the problem of Sierra Leone until we solve the 
Charles Taylor problem. And we can solve the Charles Taylor 
problem by putting pressure on and deflagging all of those 
tankers.
    And it would be my goal that when this Congress is over 
that there is never another flag with Liberia as long as he is 
in office. I had asked yesterday at a hearing--and Secretary 
Evans agreed, and I know you will be part of it--to hold a 
technology forum, if you will, whereby all of the companies, 
small- and medium-sized companies that have technology with 
regard to fighting terrorism, can be brought together. Right 
now it is who they hire. Do they hire a big law firm? Is it a 
big company that has a Washington office that can help them win 
a contract?
    So I would hope, and Secretary Evans agreed to do it, that 
you would help participate in a forum whereby we could have an 
opportunity for all small- and medium-sized companies to come 
in and show their wares. And I think by doing this, INS would 
be talking to somebody, DEA talking to somebody, FBI talking to 
somebody, but to consolidate it and put it all together.
    Attorney General Ashcroft. Sort of an antiterrorism 
exposition?
    Mr. Wolf. Yes.
    Attorney General Ashcroft. Commercial products that would 
help us, whether it is biometrics or detection devices or what 
have you.
    Mr. Wolf. And you would put out your standards, give the 
companies 30 days, and they would come in and they would have 
their opportunity to bring their wares.
    Right now I am little bit concerned the company that gets 
in is a company that hired a powerful lobbyist in town, the 
company that has a big Washington office. Or it may be the 
little guy in his garage, or a small company with 50 people who 
really has the idea that can make a difference, but he or she 
can't get into the system.
    The Secretary of Commerce said he would do that, and I know 
the White House is interested, and I know you would play a 
major role. And I hope we can do that before we get to the end 
of spring, because I think this is important.
    And I want to reiterate for those who were not here at the 
beginning, I think you have done a marvelous job. And I think 
the responsibility you have is tremendous.

                          INTELLIGENCE SHARING

    Dietrich Bonhoeffer talked about cheap grace. You can 
criticize whatever. But you are actually there and responsible. 
But this would be an opportunity, I think, to help you in doing 
that. How are the agencies sharing--Justice, INS, FBI--sharing 
their databases? What are you doing to make sure that they can 
share back and forth?
    Attorney General Ashcroft. Well, information sharing is 
very important. It is not only important horizontally between 
the agencies but it is important, as other members of this 
subcommittee mentioned, up and down. I think we are learning 
that there are things that local law enforcement officials can 
tell us that might be helpful in the war against terror that 
they might have been overlooking, so we need to train for what 
to recognize and what to do.
    And obviously we had situations where one hand couldn't 
tell the other hand what was going on. Information obtained in 
a grand jury couldn't be shared with people in the intelligence 
community, and sometimes that is very important. Some of those 
things have been addressed and were addressed in the USA 
PATRIOT Act, but we are sharing information far more 
substantially, and we are integrating our efforts. I gave 
several examples earlier, but we are looking for ways to do 
this more pervasively. The National Crime Information Center, 
for instance, I think you pointed out, as a matter of fact--
maybe it wasn't you--a couple of months ago that we have about 
321,000 people that have absconded into the culture, having 
been adjudicated to be deported. Those people were not in the 
National Crime Information Center database so when local law 
enforcement officials would encounter them, they wouldn't know 
them to be fugitives from deportation. We have taken steps to 
include that.
    Similarly, the databases of photography that relate to 
visas hadn't been shared with the INS so that at entry points, 
ports of entry, the INS officials weren't able to match the 
person with the photograph. We have been finding, to our 
dismay, that people come through with the credentials or the 
visas of other individuals, and when there is a photographic 
match, the photograph I guess is the most primitive of all 
biometric evaluations. Your brain looks at the photograph and 
looks at the person and makes a biometric comparison. This is 
not the same person.
    So in those respects we are starting to make those kinds of 
exchanges between our agencies so that we collaborate in 
developing the best response. And with the airlines and the 
information they have; it goes beyond just something that we 
have; but if we could receive an advanced notification from the 
airlines as to who was coming on the airplane and run that 
against the database of individuals that are either suspected 
problems or else have criminal records or histories of 
problems, that really helps us integrate and help us do a 
better job.
    And each of us is on a project, working, and is in some 
stage of implementation. And I mentioned earlier that we also 
are training individuals to be able to utilize the information 
we share. It takes a while. For instance, granting clearances 
to local law enforcement firms to receive sensitive 
information. I think the FBI has done about 130 security 
clearances. We got about a thousand of them that are pending. 
So that when we ask for the cooperation of local law 
enforcement officials, they can be full cooperators.
    I don't mean to suggest that everyone who has a security 
clearance ought to have all the information, because one of the 
principles of intelligence is that you only tell people what 
they need to know, because having it known by more people than 
necessary is a liability. But we are taking these steps. The 
Department of Justice is holding seminars with local law 
enforcement officials to give them an understanding of the 
intelligence function and how to recognize things that we might 
need to know that they discover and how to handle information 
we give them. The FBI has--I believe it is a seminar, starting 
early March, so that is next week, I think. And they are 
putting some of their training on CDs so they can send these 
out to the Joint Terrorism Task Forces in each FBI district. 
There are 56 FBI offices--has what is known as a Joint 
Terrorism Task Force, and that is about sharing. And each U.S. 
Attorney has an antiterrorism task force.
    Mr. Wolf.  And I think your FBI is going to have an 
associate director for state law enforcement.
    Attorney General Ashcroft. Director Mueller has created an 
office at the highest level to be a liaison with, and to 
represent and to basically inform the development of policy at 
the FBI with the impact that such a policy would have on the 
ability of state and locals to work closely.
    Mr. Wolf.  What about visas? When somebody comes into the 
embassy and--let us say when we had an embassy in Khartoum. If 
somebody were now to come in and apply for a visa to the United 
States, would that come back to the FBI to be cleared before 
the visa would be granted?
    Attorney General Ashcroft. I know that we have adopted a 
program of sending those visa applications back to INS.
    Mr. Wolf.  Does the State Department--I talked about 
sharing. Does the State Department Consular Office in downtown 
Khartoum contact the FBI and the INS here? Rahman came in from 
Egypt through there. Do we now do that as they come in before 
we grant the visa?
    Attorney General Ashcroft. Well, the FBI's Criminal Justice 
Information Services Division is working closely with 
Department of State's Consular Affairs Section to develop the 
mechanism and policy to provide the DOS with extracts of wanted 
persons' records that come from the NCIC.
    Mr. Wolf. A lot of times they are not on the wanted list. 
Rahman was not on the wanted list. I don't want to press you 
for the answer now. I would like you to get the State 
Department person, or we will get the State Department person 
and the FBI person to come up and brief us how that is. If 
somebody is coming in from a certain country and applying for a 
visa, there ought to be a way of checking back with regard to 
the FBI and INS, particularly if you are coming from a country 
that has a history of terrorism, if you are coming from Yemen, 
if you are coming from Somalia, if you are coming from Sudan.
    So I think before a visa should be granted, and 
particularly if there is no case history of someone that you 
know of. That is how the World Trade Center bombing in 1993 
took place. So if you can have somebody come up with this next 
week or the week after to go through this so we are confident 
that the State Department that comes before this committee and 
FBI and INS are sharing that data before--particularly from 
certain countries--before the visa is granted. That can be done 
instantaneously with the communication.
    Attorney General Ashcroft. We began a new supplemental 
questionnaire after September 11 and we began a policy that 
provided for a 20-day waiting period so that the answers and 
the individuals could be further investigated. I am convinced 
that there are more things that we can do and we would be happy 
to do it. But we have taken those steps and are working towards 
those objectives.

                            AIRLINE SECURITY

    Mr. Wolf. The committee put in language mandating the 
manifest of all airlines who service. Is that totally and 
completely in operation now and what airlines are not in 
compliance, if any?
    Attorney General Ashcroft. Well, this is a matter that you 
all have appropriately foreseen and have directed the INS to 
begin getting these electronic transmissions of passenger 
manifests from airlines and from cruise ships, too.
    Mr. Wolf. Cruise ships manifests are optional.
    Attorney General Ashcroft. The INS is publishing 
regulations this year and should have the regulations out by 
July, according to their schedule, and we are receiving good 
cooperation from the airlines.
    Mr. Wolf. What airlines are not cooperating? What 
countries?
    Attorney General Ashcroft. I don't have the list of 
countries. I can make that inquiry.
    Mr. Wolf.  If somebody can get back to us tomorrow or 
Monday, because I understand there are a few that are not 
cooperating.
    [The information follows:]

                      Airline Passenger Manifests

    The Immigration and Naturalization Service (INS) is working 
closely with the airline industry on this issue. A series of 
meetings and discussions have been held. The airlines are 
concerned with programming issues and system changes, but are 
making every effort to meet the legislative requirements. The 
INS plans to publish, by early summer, 2002, the regulation 
that outlines the requirements and implementation timeframe. 
There are some countries that own and operate airlines. At this 
point, INS has been in communication with a couple of these 
countries. As we move forward with this effort, we will keep 
you informed of any problems that may arise or any 
unwillingness on behalf of airlines or countries to comply with 
the requirements of the law.

    Mr. Wolf. And I think the people ought to know. First of 
all, if you are going to be flying that airline you ought to 
know. And secondly, I think if we and another country required 
that information--and I think it is a fair and legitimate thing 
to ask, particularly coming from certain countries. So if you 
can get back to us.

                               ENTRY/EXIT

    Last month we sent a letter to Mr. Ziglar, and then I saw 
the Washington Post piece about your exit and entry program. 
The Post article inferred that exit and entry program wasn't 
working and I think that your budget requests $362 million for 
an exit and entry program. How comfortable do you feel with 
that?
    Attorney General Ashcroft. Well, this is something that is 
very important and we are still developing. We were only 
capturing, I think, about 40 percent of the people who leave 
the country with the statement about their leaving the country, 
so that we know pretty much at a higher level when people come 
into the country; but when they leave the country, we do have a 
system. It is not a system that operates effectively. And our 
desire is to develop a system which gives us the capacity to 
follow people.

                             STUDENT VISAS

    Mr. Wolf. What about student visas? Do the students show up 
at class?
    Attorney General Ashcroft. The SEVIS program, which is 
mandated by the Congress, is something that we are getting much 
better cooperation with now. And I don't know if I have right 
before me the time lines on that program, but SEVIS is the 
Student and Exchange Visitor program. We received money to 
build an electronic tracking system, computerized database for 
that. Frankly, the university community largely opposed the 
system prior to September 11, and they have largely turned 
around on this. The university community realizes the 
importance and recognizes that there has to be a system to 
track them. We expect SEVIS to be fully functional and 
operational by the end of the year.

                          DRUGS AND TERRORISM

    Mr. Wolf. Is DEA being asked to play a role linking their 
knowledge with regard to drugs and terrorism and funding? The 
ads during Super Bowl, you remember.
    Attorney General Ashcroft. First of all, those ads are to 
be commended. They are not out of DEA.
    Mr. Wolf. I know that. There was a connection between 
terrorism and----
    Attorney General Ashcroft. They point out a very important 
connection between drugs and terrorism. And DEA is being asked 
to play a role is not the vocabulary I would want to use. We 
are asking them for their cooperation and help in every respect 
to identify ways in which to use their knowledge, information, 
and expertise to curtail the money flow to terrorism and the 
drug availabilities that provide support for terrorist 
organizations.

                         AFGHANISTAN INITIATIVE

    Mr. Wolf. When I was in Afghanistan in January, the poppy 
was in the ground. It will be coming out in April. Are you 
going to have a DEA office in Afghanistan and is there a DEA 
agent over there now?
    Attorney General Ashcroft. Operation Containment is its 
Afghan initiative.
    Mr. Wolf. Is there a DEA agent in Afghanistan on the ground 
now?
    Attorney General Ashcroft. I can't tell you whether there 
is a person there.
    Mr. Wolf. I think there should be. IAD is there and other 
agencies. I think you need an IAD officer based in Afghanistan 
particularly because of the poppy trade. And I think you 
probably need a Legal Attache office over there. You have one 
in Pakistan. I know you have FBI agents who are interviewing 
people there.
    I think the Karzai government needs help in law 
enforcement, and I would hope that we would have a DEA office 
in Kabul and an FBI office in Kabul certainly on a----
    Attorney General Ashcroft. It is the intention to establish 
a permanent presence in central Asia with Operation 
Containment, and I will indicate our desire to be conversant 
with you about--you feel it ought to be in Kabul, Afghanistan?
    Mr. Wolf. I think it ought to be. That is where the poppy 
trade is.

                              DIAMOND BILL

    I have a few more, but let me recognize the other members. 
Also on the issue of the Administration being involved, the 
House has passed Tony Hall's bill on diamonds. It has yet to 
pass the Senate, and there for a while, the Administration was 
opposing it. I was hoping the Administration could get excited 
about the diamond bill and help pass it over in the Senate 
because diamonds were funding al Qaeda also. And I think the 
bill over there is sponsored by Mr. Durbin and Mr. DeWine. I 
think it is important that the Administration be excited about 
it, because I am afraid that if we run out of time and we don't 
pass it--if you say you are interested in funding financial 
resources, criminal ties, and yet we don't do anything with 
regard to the diamonds, we really haven't been effective.

                      VICTIMS COMPENSATION PROGRAM

    You covered the U. S. Attorney's antiterrorism task force. 
I won't cover that. I would like to put in a victim 
compensation program. I signed a letter with some other members 
concerning the collateral source income deductions, income loss 
calculations, and noneconomic loss calculations. The 
regulations seem a little tough and I know that is a very 
difficult job, but if you could take a look at that. Have you 
signed off?
    Attorney General Ashcroft. The final regulations are being 
developed. They have been out for comment, really, and we have 
gotten I don't know how many hundreds of thousands of 
responses. And we are evaluating those responses and comments, 
and obviously comments from Members of the Congress are at the 
bottom probably. That is not what I meant to say. Just kidding.

                              HANSSEN CASE

    Mr. Wolf. The Hanssen case, you didn't mention the Hanssen 
case. There have been a number of books on it lately. I 
expressed my concern to you. I really think the Webster 
approach was not the right way to go. Nobody has spoken to me 
about the issue.
    Attorney General Ashcroft. Can I indicate----
    Mr. Wolf. There is still another spy--the person who put 
the microphone in the State Department conference room has 
never been caught. And I really think that Judge Webster is an 
outstanding individual, but Judge Webster was at the FBI when 
some of these things happened. He was at the CIA when Aldrich 
Ames was spying--and he is a good person. I think it is great 
he is being asked, but I think you need an outside team to look 
at this. This is very, very serious and you didn't cover it in 
your testimony.
    If somebody--without taking the committee's time--can come 
on up and just tell us, because it has kind of gone off the 
radar screen. The media have talked about it, and the IG was 
looking at it. It was the Webster group who were all pretty 
much Washington insiders. What is the status of the various 
reviews?
    Attorney General Ashcroft. In substantial measure as a 
result of your prompting, and others like you, I asked the 
Inspector General to make a very thorough review of this 
matter. And the review will examine the FBI's efforts to 
prevent and detect, investigate his activities, Hanssen's, over 
a 20-year period. The Inspector General hired--assembled a team 
of 10 attorneys, investigators, and analysts--to date, has 
obtained more than 250,000 pages of documents from the FBI and 
has conducted more than 100 interviews. The Inspector General's 
review will examine Hanssen's career as well as the FBI's 
efforts during the 20-year period to find the cause of massive 
loss of Soviet intelligence assets that were occasioned as a 
result of his activities. And the review will include an 
assessment of the FBI's performance in preventing, detecting, 
investigating Hanssen's espionnage activities.
    I asked the OIG about this. The OIG has done previous 
reviews like this, one of the Aldrich Ames spy matter. And he 
says that he expects to complete the Hanssen investigation and 
issue a final detailed report sometime this summer.
    Mr. Wolf.  Mr. Serrano.

                         HISPANIC HIRING AT DOJ

    Mr. Serrano. Thank you, Mr. Chairman. Let me, Mr. Attorney 
General, first commend the Justice Department for something I 
know was started in the last administration, but my 
understanding is that you have worked to keep it going. It has 
been recently reported that the Justice Department's share of 
Latino employees is larger than any other agency in the public 
sector, and that is something very commendable and very much 
needed.
    First of all, do you know what was done, especially what 
kind of outreach was done to accomplish this; and secondly, as 
we continue to grow in the law enforcement area and so on, how 
can we apply the lessons of the Justice Department not only to 
other parts of the Justice Department, but to the----
    Attorney General Ashcroft. Well, it may be an exercise in 
the nobility of the Justice Department, but we were asking 
people to help us who could help us and do a good job of it. We 
have probably, as a percentage of employees in the Department, 
a much higher percentage of Latino employees or Hispanic 
Americans than there is in the population generally, in part 
because we want to be able to relate effectively to people both 
in terms of language and culture that are our clients and that 
we encounter.
    Mr. Serrano. You don't have to shy away from accomplishing 
this. I am complimenting you. I know they are all qualified.
    Attorney General Ashcroft. And I think it does indicate 
that when you pursue an objective, you can get it done. These 
individuals were hired because of their high quality and their 
merit, and we are delighted that it just so happens that it 
results in having a work force that reflects probably almost 
twice as much as the population of the country does in terms of 
Hispanic Americans.
    Mr. Serrano. I would also hope that we continue to look at 
that, as I said. You know, the country obviously has been going 
through a crisis and we are all called upon to serve, and as we 
look to expand the agencies, we must try as much as possible--
perhaps we should tell other agencies to learn from what your 
Department has done--to make sure we include all Americans in 
the jobs that have to be done.
    Attorney General Ashcroft. Part of what happens is we have 
a difficult time in keeping people because they tend to be 
multi-lingual and have inordinate value, and the INS, which 
tends to be a place where a number of them work, is a place 
where the pay scale has not been as attractive as it has in 
some other agencies. So about 75 percent of our losses when we 
have attrition in the work force are losses to other government 
agencies.
    Very frankly, the folks at INS and in that community have 
become recruiters for the government generally. And what they 
have done is not merely reflect it in what remains at the 
Justice Department, but many other people in other agencies. So 
it may be that the figures understate their success in bringing 
these talented individuals into the law enforcement community 
of the Federal Government.

                      FBI AND INS REORGANIZATIONS

    Mr. Serrano. Mr. Attorney General, my next question touches 
on a subject that was already touched by Mr. Rogers and other 
folks. At budget time last year, there was quite a bit of 
criticism about the performance of the INS and, in all honesty, 
about the performance of the FBI in terms of how it managed its 
evidence, concerns about security, the lack of technological 
advances, and many other problems. Now these agencies are asked 
to play an even larger role than they were playing before.
    So my question to you is, what are we doing from a 
financial and management perspective to prepare them, if you 
will, to handle this new challenge? And what, if any, changes 
need to be made that you may be proposing to us in the future?
    Attorney General Ashcroft. Let me just say that you are 
right, these agencies which were the subject of questions and 
problems with the Hanssen matter and then the evidentiary 
problems related to the supporting documentation and exchange 
of evidence in the McVeigh matter, they all were big issues 
before September 11, and sometimes those recede now. But we 
have undertaken a very comprehensive review.
    I believe that we have asked a very strong American to lead 
the FBI, and he is restructuring the agency and putting the 
assets in the right places. You and Members of the Congress 
have been a part of funding a way of upgrading the information 
systems and the information technology and the analytic 
capacity of the FBI. It is very troubling to note that the FBI 
doesn't, to this day, have the ability to communicate, say via 
e-mail, because the security of its system is the result of the 
uniqueness of it. It is virtually inpenetrable, but it is 
almost unusable in terms of communicating information from one 
part of the country to the other. And as we know, not only are 
the threats to security dangerous, they are international and 
they are not localized. And that upgrade, called Trilogy, is a 
substantial investment.
    In INS, there is a major effort at restructuring and a 
recognition that we have to have personnel. The northern border 
of the United States is 5,500 miles long. The southern border 
is 2,000 miles long. We had 9,000 people on the southern border 
and fewer than 500 people on the northern border. So coming to 
grips with these issues is a substantial challenge.
    I believe we are making in this budget significant strides 
toward achieving the kind of--developing the human capacity and 
intellectual and technological capacity to do a much better 
job, but I cannot say to you we are a step away from easy 
street or having this done. And these are major, major 
challenges. I think that there are monumental changes.
    The restructuring of INS will provide a basis for an 
average service application processing time of 6 months within 
the time promised by the President. That is a major change over 
a 3- to 4-year situation a few years ago. But we still have 
miles to go before we sleep.

                            ATTFS AND JTTFS

    Mr. Serrano. It seems to me that in the aftermath of 
September 11, a lot of the duties and functions of agencies 
like these two sort of begin to mingle in a way, and even 
though they are separate agencies, they all end up working on 
the same issue or trying to solve the same problem.
    Wouldn't that in fact cause problems in terms of lines of 
authority, who is in charge of what, and how other agencies see 
what is going on in these two agencies so it doesn't create 
further confusion?
    Attorney General Ashcroft. Well, I have to really commend 
both the FBI and INS in the aftermath of September 11. They 
were federal agencies that worked especially well together and 
worked especially well with local agencies. I have been out to 
visit sites all over the country. And with these joint 
terrorism task forces and antiterrorism task forces, I meet 
with them so I get a chance to find out whether the 
coordination is there and exists, and I think it would be a 
good thing for you all to find occasions to do that. To the 
extent that we can integrate the activities of law enforcement, 
it is valuable to us. And our ability to do that after 
September 11 was extremely important to us. And I would just 
signal that any attempt to disintegrate or to separate more or 
to divide up and to make less convenient the interoperability 
and the integration of these agencies is a principle--is 
something that ought to be considered only very carefully.

                          ELIMINATION OF COPS

    Mr. Serrano. Let me just move on to something else here. We 
don't have to spend time discussing the respect that I know we 
all have for the New York City Police Department and what they 
went through during this whole period. But now it seems to me 
that once again the COPS program and help similar to that is 
under attack.
    Do you find a contradiction between being supportive of the 
police departments and then not allowing some Federal help to 
flow into all communities, but especially into that community, 
because as you know, because of September 11 and other factors, 
but mostly because of September 11, New York City is facing a 
$4\1/2\ billion budget gap, and the police department is there, 
overworked and running out of a lot of steam and there is no 
help for them.
    Attorney General Ashcroft. Well, you know better than I, 
and I am not able to recite with particularity, but New York 
has been the recipient of some special directed aid that is 
different than the overall sort of programs that we have around 
the country. I want to just indicate--and I think it is 
important that aid to local law enforcement agencies overall is 
going to be up about $2 billion in this budget, so that when 
you talk about one program or another, I don't want to indicate 
that there are some that are cut. The Community Oriented 
Policing, COPS, program in my understanding--and certainly was 
when I was in the Senate--this was a program to introduce law 
enforcement to the idea of what would happen if you added 
manpower on the street and we would fund that to show that it 
would really reduce crime. We did that and it was endorsed 
because it was valuable. Ninety-two percent of all the local 
agencies say it does work and we will pay for these guys when 
their term is up.
    Now, if you thought that was the purpose for the program, 
it made the point, it gave people the information upon which to 
decide how they want to spend their resources. If the purpose 
of the program was to continue providing additional help over 
time, then obviously this Administration's proposal which ends 
COPS funding for new officers but doesn't end it for those who 
are in the program, reaches a different conclusion. And 
overall, we want to help and we will continue to help local law 
enforcement. Some of the things involved are related to the 
technology that is important for interoperability and 
cooperation, and we saw the need for that. But the COPS program 
itself is not being continued for new police being added to the 
program. It was designed for 100,000. It was funded eventually 
to 111,000 or something like that, but it is a successful 
program.
    Mr. Serrano. I understand what you are saying, that the 
Administration reaches a different conclusion. I want to be on 
the record as saying that it reaches this conclusion at the 
very time when we are all giving a lot of lip service to what a 
great job police departments are doing throughout the Nation, 
not only in reducing crime but facing the threat of terrorism, 
and especially in New York City. And so there is a 
contradiction there. And, okay, so some people felt it should 
end at a certain point. But some people felt we shouldn't spend 
more money than we did last year in the supplemental, and we 
did it because it was an emergency and we had to deal with it 
and had to face it. And that is what we did as a country and as 
a Nation.
    So now the question is if you believe--I don't, but if you 
believe--it had to end at some point and that point was now, 
shouldn't you take into consideration throughout these 
different cities, and especially in New York, what are their 
needs when police are overworked and underpaid in many cases 
and just hurting and still grieving the loss of so many of 
their members?
    Attorney General Ashcroft. Well, obviously, that is an 
understandable position. The Department is requesting to 
maintain the level of funding, almost $38 million for community 
police initiatives to improve technology, but the budget does 
not, as you have pointed out, clearly provide for bringing new 
officers on under the COPS program.
    Mr. Serrano. Mr. Chairman, I have many more questions.
    Mr. Wolf. We are going to take a 2-minute break.
    [Recess.]
    Mr. Wolf. Mr. Obey.
    Mr. Obey. Mr. Chairman, before I ask a couple of questions, 
I simply want to congratulate you, because the nature of the 
questions you were asking earlier with respect to what we see 
in Kabul and other places I think demonstrates pretty clearly 
you get out in the field. You just don't sit behind your desk 
and wonder what is going on. You get out in the field and you 
pick up the knowledge that ought to be considered by the 
agencies and Congress involved. If we would have more of that, 
I think we would be better off.

                 COUNTERTERRORISM SUPPLEMENTAL FUNDING

    I found it ironic we were talking about the Canadian 
border, because we do have many more people close to the 
Mexican border than to Canada, and yet we have some 20 
terrorist organizations that are located in Canada, and they 
regard us as easy pickings in comparison to their ability to 
get through the Southern border.
    But I think it is important for people to understand that 
when Congress voted for the PATRIOT Act which authorized 
tripling the number of border personnel at ports of entry along 
the northern border, not one additional dime was provided to an 
agency to actually hire people until the appropriation bill was 
passed. And I have to simply note that when I tried to add $145 
million to support the Customs Service in their desire to hire 
Customs agents, we virtually got a double hernia trying to get 
that money through the system and approved by OMB. And if I 
sound angry about it it is because I am.
    But I wanted to repeat what the numbers are for the fiscal 
year request. The December 10 request of the Department for the 
regular 2003 budget, which was obviously amended after the 
events of September 11, but the September 10 request, as I read 
the sheets, demonstrates the request has a letter of support 
for many items but nowhere is found a request or any indication 
or support for the FBI request of $58 million for 
counterterrorism field agents, $200 million for intelligence 
analysts, and $54 million for translators.
    We do find 68 programs for which increases were requested. 
None of those, with the possible exception of one, directly 
relates to terrorism.
    And in October the record is simply this: The October 
supplemental for the 2002 year, the FBI requested $1.5 billion, 
and I know that because that request came after the Chairman of 
the Committee and I and our staff visited the FBI both in 
Washington and in New York and asked them what they thought 
they could use immediately. And out of that came the request 
for $1.5 billion. That request was forwarded on to the Justice 
Department. The agency asked for $709 million. OMB cut that to 
$538.5 million. And again after getting double hernias, Mr. 
Young and I were able to get that up to $750 million by the 
time it passed.
    And I simply lay that out in order to demonstrate that it 
was very tough for the Congress, even when we had bipartisan 
agreement, to get the added funds that we needed. And that as 
someone who lives close to the Canadian border, I hope it will 
be easier to get cooperation between Congress and OMB and 
agencies involved than it was on the last round. It was 
something that there should have been no dispute over 
whatsoever in my view.
    And I just wanted to lay that out for the record and to 
point out one example of the difficulty we had with respect to 
the Trilogy system to correct the sad-sack state of affairs 
with the FBI computer system. For fiscal 03, the FBI's request 
to the Department of Justice was $122 million. The Department 
of Justice's September 10 request for the fiscal 03 budget in 
their letter to OMB was for $57 million rather than $122 
million. And for the fiscal 02 supplemental, which we wrestled 
with last year, the FBI for Trilogy requested $212 million from 
the Department of Justice. The Department of Justice requested 
to OMB $105 million. And the Congress finally provided $237 
million, which we were told would enable that system to be up 
and running by this summer rather than lagging another year. 
And I just wanted to make sure the record reflected that. Thank 
you.
    Mr. Wolf. Mr. Kolbe.
    Mr. Kolbe. Thank you very much, Attorney General Ashcroft. 
I am sure you are wondering when this is finally going to be 
over. And I will not be too long, I promise you, here.
    Attorney General Ashcroft. Anybody who sits here like this 
and tells you they are not wondering when it is going to be 
over, they will lie to you about other things too.
    Mr. Kolbe. Probably most of the members of the subcommittee 
are wondering the same thing.
    Attorney General Ashcroft. I will tell you what. There is 
absolutely no doubt in my mind about the intensity and 
commitment of the members of this subcommittee to these 
responsibilities.
    And the Chairman demonstrates it all over the world. So I 
am with you.

                         IMMIGRATION TASK FORCE

    Mr. Kolbe. Thank you very much. Most of the questions I 
have to ask are with regard to one component agency under your 
jurisdiction, and one that I would normally ask just of INS, 
and I will be asking when Commissioner Ziglar appears before 
us, but I think these are of such importance to us in our area 
along the border that I am just going to--I feel that I need to 
bring them to your attention.
    The first is a general one, and that is about the 
Immigration Task Force. President Bush and President Fox had a 
lot of discussions about immigration and whether or not there 
would be some proposals to change immigration laws. I know that 
you and Secretary Powell and your counterparts in Mexico and 
others had had discussions about this. Can you tell us what the 
status of those discussions are, or is this just permanently on 
the back burner post-9-11? Can we see any kind of report or 
recommendations coming from this task force?
    Attorney General Ashcroft. Well, you properly identified 
this situation as a matter of serious concern for the 
Administration, and we were working very aggressively to find 
ways to deal constructively with this situation. There is no 
question that the events of September the 11th and our 
subsequent responsibilities have displaced this effort, but I 
don't think they have permanently moved it to the back burner.
    It seems to me that one of the challenges for those of us 
in the justice community is to learn to meet the 
responsibilities we have regarding terrorism without forsaking 
the responsibilities we have generally. We have had some 
meetings, but we have not resumed the kind of effort with our 
counterparts and neighbors in Mexico and the Fox 
Administration. Frankly the dialogue was very rewarding, and 
with a number of things the cooperation was improving 
substantially. But there has been a serious interruption, and I 
hope we could resume our effort, and I believe we will.
    Mr. Kolbe. As you know, President Fox and President Bush 
will be holding a bilateral meeting at the conclusion of the 
Monterrey conference on development assistance in March. Would 
you expect that this will be the catalyst for returning this to 
a higher-profile issue in both bilateral--bilateral discussions 
at the Cabinet level on both sides?
    Attorney General Ashcroft. I would expect that we would 
find ourselves on an increasing level of communication to 
return toward solving some of the problems we were addressing, 
and I noted that the Administrator of the DEA was in Mexico 
recently meeting with the Attorney General Macedo de la Concha 
there, and I note that there are other officials that will be 
meeting with the Fox Administration in advance of the events 
you referenced with the President, so that, yes, I believe 
there will be increased activity and an effort to resume our 
efforts.

                             BORDER PATROL

    Mr. Kolbe. Let me turn to more specifically with the INS, 
Immigration Service, and the Border Patrol. As you pointed out 
in--your budget for this coming year proposes 2,200 new 
positions, and 570 of them are Border Patrol agents. It is the 
same number of additional agents that we funded last year.
    Just in the last 7, 8 years, I guess it is, the INS budget 
has grown from 1\1/2\ billion to $6 billion being proposed in 
this coming year. Though I certainly support these increases, I 
have real doubts about whether we are getting the bang for the 
buck, and that we have the management of these resources in 
place. You heard Congressman Rogers talk about this. It has 
been something with him. It has been an issue with me. I have 
watched it close up down along the border, and I just have to 
tell you, this is an agency over which we do not, in my 
opinion, have a good management grip, and I don't know why it 
has been--seems to have been more immune than almost any of the 
other agencies that I at least have any responsibility for, for 
providing funds for, having oversight of, but it has been--it 
seems to be continuing.
    We, in my area of the border, in Arizona, there has really 
been very little improvement. I know you have been down there, 
but I have to tell you, I think the changes that have taken 
place in the last year or so, despite the tremendous increase 
in resources, are very marginal at best. The Government Reform 
Subcommittee on Criminal Justice, Drug Policy and Human 
Resources held a hearing last Friday down there in my district, 
and although the Border Patrol is claiming some success, citing 
reduction in the apprehension statistics, I think that is 
probably more attributable to the problems in our economy and 
the events of September 11th which scared a lot of people away 
from even trying to come across the border, because certainly 
the people that are responsible for local law enforcement, the 
county sheriff, the county attorney, are saying they are seeing 
apprehensions are up. The county attorney says the number of 
Federal prosecutions being turned over to him for prosecutions 
are up. The hospital administrators are telling us they aren't 
seeing fewer illegal immigrants as before.
    The public at large sees the environmental problems that 
are occurring. We need some attention to this area, and we have 
got between 1- and 2 million illegal immigrants crossing in my 
district, in southern Arizona, every year, probably somewhere 
around--between a third and a quarter of the total number of 
immigrants coming--crossing illegally into the United States 
through Mexico every year, and I just--I guess my plea to you 
is to ask what can we do about this? What can you do to help 
us?
    Attorney General Ashcroft. I think what we do needs to be 
comprehensive. It is a little like insulating your house. You 
can't do it all with a single magic. We need to work with our 
Mexican counterparts to enlist their aid in a safe and secure 
border that facilitates the good exchange between the United 
States and Mexico, which is part of the lifeblood of North 
America. We do have very strong trade and other reasons to be 
good neighbors.
    Mr. Kolbe. Absolutely. I agree completely with that 
statement.
    Attorney General Ashcroft. So we have to have the right 
support for that.
    We also have to respect the safety of individuals. People 
who come into the United States illegally are at great risk. I 
don't think as long as I live I will forget the night when I 
was called in the middle of the night practically, by my 
Mexican counterparts about finding 14 people, I believe it was, 
dead in the desert. I spent most of the night on the phone with 
everyone from the Foreign Minister of Mexico, into the Attorney 
General's office and a variety of other settings, but this 
can't be. This is not what America stands for, people dying of 
exposure in the desert.
    So we need their cooperation and their help, and we need--
you know, we have just completed the study. I think judgment of 
your prompting with HHS, that talks about medical care, because 
there is a serious problem about people who are here who are 
burdened in communities like Douglas, Agua--what is it, the----
    Mr. Kolbe. The Douglas, Agua Prieta.
    Attorney General Ashcroft. They are overstressed, and we 
need to find the right formula for helping. I wish I were 
capable of doing more than commiserating with you on these 
problems, and that is basically what I am doing here. We have 
additional help in the budget for additional Border Patrol 
resources and other resources, but we are going to have to get 
help from our Mexican counterparts to discourage illegal 
crossings. We are going to have to adjust some of our own 
activities to regularize the capacity of individuals who are in 
the United States.
    The President has stated willing workers and willing 
employers being able to get together. These are part of the 
solution, but I can't sit here and tell you that I could even 
outline something that would solve all of these problems, but I 
can tell you this--we will work on remediating one problem at a 
time, and I wish--I know there is a problem even with things 
like fences for ranchers and whether they are susceptible to 
remediation by the Border Commission or whether they are 
something else, or how we make checks internally. I know these 
are difficult issues. There are problems about the health care 
system, and these are the subject of our attention, but they 
have not yet been solved by our attention, and we will keep 
working on them.
    Mr. Kolbe. I appreciate that. You were just mentioning the 
fences is just one example of a little tiny thing, but it is 
classic----
    Attorney General Ashcroft. It is not tiny to the people.
    Mr. Kolbe. It is not tiny to the ranchers. You are right.
    Attorney General Ashcroft. On my farm if someone comes by 
and tears down all of my fences, it is not tiny to me. If I am 
not there, and the cattle are gone when I come home, it is a 
troublesome thing.
    Mr. Kolbe. In this case you can't go to the neighboring 
farm and get the cattle back. They are gone. When they 
disappear into Mexico, they are gone. Those cattle are out of 
there.
    But it is a classic example of where you have at least 
three Federal agencies, the Department of Interior, which owns 
much of the land along the border, the International Boundary 
and Water Commission, and the Border Patrol or INS all kind of 
pointing the finger around saying, it is not my responsibility, 
I don't know whose this is, and leaving the poor ranchers as 
the one holding the bag.
    Attorney General Ashcroft. Well, we have got to develop a 
philosophy, and I hope I can be a part of developing a 
philosophy, of fixing the problem instead of fixing the blame. 
If we spend our time fixing the blame, the problem just stays 
where it is.

                         BORDER MEDICAL ISSUES

    Mr. Kolbe. Thank you. Your statement there leads me right 
into my next question here. It has to do with the health care 
reimbursements. This is a killer for us, and I just have to 
tell you, it is something that I--I questioned the Sector Chief 
this last week about this. Finally, after getting a runaround 
for quite a while, got him to admit that, yes, they do not take 
illegal aliens into custody, the Border Patrol, because they 
want to avoid paying the medical costs for these individuals. 
That is just plain wrong.
    Now, let me tell you my philosophy of this, and I would 
like to get your response, see what yours is. When an 
individual comes across the border and gets into the United 
States illegally, that is a Federal responsibility. We fail to 
stop that individual from coming into the United States. I am 
not personally pointing the finger at you or the agent that did 
that, but it is a Federal responsibility. I think you would 
agree that that person ended up getting into this country 
illegally. We were not able to keep that----
    Attorney General Ashcroft. I think we could stipulate that 
the control of the borders is a federal responsibility, and----
    Mr. Kolbe. When an individual is then injured in the United 
States, dropping off the fence, as a result of a high-speed 
chase by the Border Patrol, and they have to call an ambulance 
or an air ambulance and take these people to a hospital, the 
Border Patrol will take, of course, the uninjured ones into 
custody in order to transport them back to the border. They 
refuse, of course, to take the injured ones into custody in 
order to avoid paying that cost and have the--stick the 
ambulance service and the hospitals with the cost of this care.
    To compound matters, to make it even worse, when the 
treatment is finished, if you call the Border Patrol to 
transfer the person back to the border, the Border Patrol will 
not come, and I mean invariably. We were told it is the 
discretion of the agent. I checked with the hospitals. Not one 
has ever, ever had the Border Patrol come to transport an 
individual back. So the hospital calls the Mexican consulate. 
Great if it is a Mexican to transport them back to the border, 
but if it is a Salvadoran, a person with a cast on their foot 
now or a broken ankle is pushed out the front door of the 
hospital onto the street, clearly an illegal alien, but is 
pushed out the door because nobody will take the responsibility 
for that individual, General Ashcroft, this is just plain 
wrong.
    We need to have a policy where the medical costs that are 
being borne by the folks that live along that border--and I had 
last week the administrator of one of the hospitals testify 
that the hospital system--the health care system in Cochise 
County, Douglas, Bisbee, Sierra Vista, is in a state of 
collapse because of this. We have to do something about this 
problem. The University Medical Center of Tucson has $10 
million in the last 2 years of unpaid health care bills as a 
result of illegal aliens. They get the very high trauma cases 
that are brought to them. I think they have one person that has 
been there for 10 months in intensive care in the hospital, and 
they are stuck with that bill there. It is just plain wrong. We 
need to seek reimbursement for that, and you need to have a 
policy, and then you need to be able to come to Congress and 
ask Congress for the money in order to pay these bills.
    Your response, sir.
    Attorney General Ashcroft. Well, I think you did a much 
better job of describing this than I did, but I identified this 
problem in my remarks earlier. It is a problem of uncompensated 
care, and we have done some studies on it, and we are trying to 
work out a formula of some way of providing relief. Some 
uncompensated care funds that come from the Federal Government 
go to the states, and they don't always get back to the 
hospitals where----
    Mr. Kolbe. Yeah. The----
    Attorney General Ashcroft [continuing]. Uncompensated care 
takes place. And that----
    Mr. Kolbe. And that funding is not recommended in this 
year's budget for that, and frankly it doesn't bother me that 
it is not, because it never gets down to the borders. It is for 
illegal aliens that can show they are residents of the United 
States. So it goes to the people who are--the woman who is in 
Phoenix or in Chicago--excuse me for interrupting--but in 
labor, and she gets taken to the hospital. Then that hospital 
can seek compensation, because she can show she is actually 
residing in the United States at that point. Excuse me.
    Attorney General Ashcroft. Given the absence of a clear 
answer on my part, because--I would be pleased to have you 
continue interrupting. This is not an arena in which I have a 
clear response. We began a study. We have worked with HHS. They 
have developed some results of that. I will try to work with 
them to see if we can come up with a plan that will be of 
assistance.
    Mr. Kolbe. And I won't press you further than that. I 
appreciate it. The study, by the way, is simply agreed that 
they are going to come up with a way of gathering--a 
methodology for gathering more study. So it is a study to agree 
that they will come up with another study to gather more data, 
but without any recommendations for solutions to it.
    We really need to have a Federal solution to this problem. 
It is killing us along the border, and it is not just our 
hospitals, but these small rural hospitals are just dying as a 
result of this, and it is really unfair to the ambulance 
services to stick them with these costs. They can't refuse to 
take them. We have another Federal law, of course, which says 
that the hospital can't refuse to treat them, so they are 
really caught--I don't know of a hospital that would want to 
refuse to treat them. And on top of all this, I might add, you 
have the issue of compassionate care, where the woman comes to 
the border, she is in extremis, in delivery, and she is waved 
through the border. So the Border Patrol inspectors, as they 
should, properly, because they don't have the proper facilities 
on the other side, wave them through to the hospital, but then, 
of course, the hospital is yet again stuck with the cost of 
paying that bill.
    We just need to have some Federal policy on that, and I 
will be happy to work with your people on that, as well as the 
other agencies that are responsible, but I appreciate your 
listening to me on it.
    Attorney General Ashcroft. Thank you very much.

                           INS REORGANIZATION

    Mr. Kolbe. I have one final question, Mr. Chairman, and 
that is just simply--this is an easy one for you. You spoke 
about the reorganization of the INS. I happen to agree with Mr. 
Rogers that it is necessary, and you have a $40 million budget 
request for beginning the implementation of this 
reorganization. Since you did seem to agree that much of it 
would require legislative action to do that, what will the $40 
million actually be spent to do?
    Attorney General Ashcroft. Well, the $40 million will 
provide the framework of dividing the agency into two 
functional lines. One is the service part of the agency and the 
part of the agency that is enforcement-oriented. It will 
provide a basis for our getting to a 6-month processing time in 
accordance with the President's procedures for getting our 
processing down to a humane time frame, and it will improve 
accountability and lines of authority.
    People who are in the enforcement business will be 
reporting to individuals whose job it is for enforcement; 
people in service, for service. And we expect that to be 
reflected in a more enforcement-oriented side that deals with 
enforcement and a clear mission of service that deals with the 
service side.
    My view is that there are probably things that could be 
done statutorily to improve on that, but if we get that done, 
if we move the average claim--or application processing time 
down to 6 months, that is a job which we are on our way to 
doing. That is a job which people said couldn't be done a very 
short time ago, and it is going to happen.
    Mr. Kolbe. Is it mostly equipment? Is it mostly costs of 
transferring personnel, making transfers of personnel, 
equipment? Is it travel?
    Attorney General Ashcroft. There are some facilities, but 
it is mostly ramping up the human resources transfers and 
getting the reorganization to take place.
    Mr. Kolbe. But the 40 million is not additional personnel, 
is it?
    Attorney General Ashcroft. No, it is not.
    Mr. Kolbe. Transferring, moving?
    Attorney General Ashcroft. Transferring, yes, it is.
    Mr. Kolbe. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Mollohan.
    Mr. Mollohan. It is almost over now, General.

                              IDENT/IAFIS

    Looking at INS, you talked about connectivity. We have 
spent tens of millions of dollars standing up the FBI as the 
premier fingerprint identification capability in the world. 
After that got started and was doing pretty well, INS almost 
insisted that it needed a separate system. It was developed in 
a very stovepipe way, resisting any reliance upon the technical 
work that had been done by the contractor and the IAFIS system.
    I note you do have money in here to continue the 
integration process. I wondered if you were down to the level 
of detail to be able to update us on that.
    Attorney General Ashcroft. I think it is working. Now, the 
IDENT system is just the index fingers, but one finger--if you 
have got the person--will identify. And we are being able to 
cross-reference that with IAFIS. So if a person comes across 
the border and we pull them out of the line--you know, if you 
have been at a border station, there are lots of people who 
don't get pulled out of the line, put their finger in the 
reader. But if you put your finger within the reader, within a 
very short period of time, we can cross-reference that with the 
index fingerprint in IAFIS now.
    Mr. Mollohan. So the IDENT system continues to be a two-
finger print system?
    Attorney General Ashcroft. That is correct. You know, for a 
crime scene, it is good if you have all 10, because you may 
only have a ring finger on the left-hand print, and you need to 
have on file--but for identifying purposes, if you have got the 
person there, and you have got any of their other--you can just 
select the print you need to compare to, and it can work.
    Mr. Mollohan. So what needs to be done further here? You 
are requesting $23 million in part to integrate the IDENT's 
fingerprint system with the FBI's IAFIS system, and you call it 
a joint fingerprinting system. What is happening here that 
needs additional work in 2003? And you may want to submit this 
for the record, General.
    Attorney General Ashcroft. Well, frankly, I can either read 
this to you now or submit it for the record.
    Mr. Mollohan. Why don't you submit it for the record. That 
would be more merciful. You would get a better opportunity to 
explain.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Attorney General Ashcroft. Well, we are at a position--and 
we have actually--I think it has been reported to me that we 
picked up people, and we are beginning to have the feedback. 
Several hundreds have been----
    Mr. Mollohan. Well, there has been an awful lot of money 
spent. The IAFIS system is a wonderful system. I have never 
been impressed with the IDENT system.
    Attorney General Ashcroft. Well, with the IDENT system, if 
you find a fingerprint of the third finger on the right hand, 
the IDENT system will not help you at all. But if you have the 
person there, you can go to the IAFIS system and match those 
first prints pretty well. That is being--that is what we are 
doing with--what we have developed the capacity to do, and it 
may be that we have to extend that capacity.
    Mr. Mollohan. I just wonder what are the implications of 
getting a set of 10-finger prints from anybody we do 
fingerprint, whether illegal aliens or those who cross our 
borders illegally. I wonder what implications that might have 
in our overall fight against terrorism if the IDENT system were 
a 10-print system.
    Attorney General Ashcroft. Well, frankly, the 10-print 
system is of assistance when you get to a crime scene and you 
have a print that is one of the 10, but it might not be the 
index finger we record for IDENT. That has some value, and that 
is the reason the FBI has that inventory.
    If we are talking about identifying people biometrically, 
for example, if you had an identifying card, for example, that 
has a fingerprint programmed into it, and you asked the person 
to put his finger in a machine, and then you put the card in 
the machine and see if it is the same person, one print does 
that very well. And one of the problems is that the processing 
time of--you know, you have about 40--is it 40 million sets of 
prints in the IAFIS system and about 40 million or so sets of 
prints--is that what we have in IDENT? But we have--if you try 
to inventory or run 10 prints through 40 million prints, it 
takes--the return time is such that its utility at the border 
isn't as great.
    When you are trying to just match a finger print to a 
document, that is called a one-to-one match, and that can be 
done quickly. If you try to do what is called a one-to-end 
match, which is to match some biometric to the world, it takes 
a long time. There is a benefit to it, but to the extent if you 
slow things down at the border, you have a lot of other 
complications in terms of what we want to have in terms of 
access.
    I will try and respond more particularly in writing, and I 
didn't even spare you the agony. So I apologize.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Mollohan. Thank you, General.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Attorney General, I have a couple more, and 
we will try to end this at 6:00, and we will submit any we 
don't make for the record. I would say on the record----
    Attorney General Ashcroft. Is that 6:00 a.m. or p.m., Mr. 
Chairman?

                   BORDER PATROL CORRUPTION IN TUCSON

    Mr. Wolf. I would just say I saw the 60 Minutes piece. I 
was just sitting home, and I tell people one of the reasons 
this is a great job, you can watch 60 Minutes and then come in 
the next day and do something about it. I watched the 60 
Minutes piece, and so I really hope you can kind of get your 
best people and kind of look at it. Mr. Kolbe has been very 
frustrated about it. I understand there may be another bad 
story coming out on 60 Minutes about it. It is getting a lot of 
bad press. I don't know if it is personnel. I don't know. But I 
hope you can really try to work with Mr. Kolbe to try to 
resolve it, because it doesn't seem to be in other areas. That 
seems to be the worst----
    Attorney General Ashcroft. Well, I will submit something to 
you about the 60 Minutes piece, because we got plenty of 
problems to work on that area, and some of those are real, but 
there were some things that I think I would like for you to 
know about.
    Mr. Wolf. Sure.
    Attorney General Ashcroft. So I will submit for the record 
a response to the 60 Minutes piece.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. Are you trying to say it wasn't accurate?
    Attorney General Ashcroft. No. There are----
    Mr. Wolf. No. I was just going to tell you a story, if that 
is what you are saying. You are saying it wasn't totally 
accurate?
    Attorney General Ashcroft. Yes.
    Mr. Wolf. Years ago I watched Governor Connally on 
television, 60 Minutes--CBS is right over there, so if you want 
to play this, CBS--and they went after Governor Connally over 
and over, and I was just getting involved in politics, and my 
young son turned to me and said, Dad, if 60 Minutes ever calls 
you, don't ever go on the show.
    And so I understand what you might be saying. But I think 
it is important, although I do think they do a lot of good 
things, whether it is completely true or not--I do think there 
is a problem down there, and Mr. Kolbe has raised it over and 
over.
    We are going to go through these really fast. I would like 
you to look into or let the FBI know, we would like to know how 
many Chinese companies are operating in the United States that 
are owned by the People's Liberation Army. We understand there 
are several thousand. They are conducting espionage and nothing 
else but espionage. If you can have the FBI, when they come up, 
tell us that.

                         INTELLECTUAL PROPERTY

    Also we are going to have a hearing on intellectual 
property in our district. Mr. Kolbe has done a great job on 
this trade issue, and the President with the Trade Promotion 
Act. But some of our companies, Microsoft, AOL, a lot of 
companies are really losing a lot from these intellectual 
property thefts. Windows 95 was available on the streets of 
Beijing before it was available here in Washington, and we are 
having a hearing, and I would like you to tell us what 
resources the Criminal Division is bringing to bear on this 
issue, because this is a criminal issue, and we have some 
figures in Vietnam who are bad about piracy. In China, it is 
unbelievable.
    So if you would look at that, I think you are going to have 
somebody from your office testify, but we would like to know 
how many cases were brought on intellectual property last year. 
If you want to tell us now, you can, but you can just have us--
somebody from Justice will be at the hearing, but it is a very 
important issue, and I am not sure you put additional money in 
this year for that issue, and that is the only segment of our 
economy--they have $11 billion surplus on balance of trade from 
the intellectual property area, and we can't afford to lose 
that. So that would be an issue that we would hope to hear 
about when your people come to the hearing to testify.

                         Victims of Trafficking

    Also the victims of trafficking--and I appreciate your 
comments earlier--does your budget eliminate the $10 million 
for grants authorized under the Trafficking Protection Act? 
There seems to be a disconnect. Maybe it is just a----
    Attorney General Ashcroft. Well, it does. I believe that--
we believe there is sufficient funding, though, to carry us 
through this year, and--so that through this year and 2003, we 
believe that there are adequate resources.
    Mr. Wolf. Well, you know, there are 50,000 people a year 
that have been trafficked in this country, women and children, 
50,000 every year, and if you can submit for the committee a 
record of all of the cases that you brought in the last year.
    Attorney General Ashcroft. Well, we can. I would say that 
we prosecuted 34 defendants in 2001, which was 4 times as many 
as 2000, and there are 91 pending trafficking investigations 
now, and we have had some very high-profile cases. I would be 
happy to provide that for the record. It is a matter of 
priority to me, and I appreciate the fact that it is a matter 
of priority to you in this committee.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. And I appreciate it. You mention it in your 
testimony. There is going to be an international conference 
here in Washington the State Department is putting on, I think, 
in August or sometime, and I think Justice will be involved in 
it.
    Attorney General Ashcroft. Yes. The President's Interagency 
Task Force met for the first time just a couple weeks ago, and 
we are working with them as well.

                           Child Pornography

    Mr. Wolf. Some of the people that are involved in this--in 
Eastern Europe are the people that have been involved in 
terrorism, and I think in drugs. It is trafficking. It is a 
whole series of things. Child pornography. Can you please 
provide the committee with an update on your efforts to 
eliminate child pornography, especially the ease with which it 
is being traded and sold on the Internet? This has to be a 
priority. You have got to be having cases that just crack down 
on this thing.
    Attorney General Ashcroft. In 2001 we brought 627 
prosecutions, including 639 defendants; 505 defendants were 
convicted.
    There is a particularly important case in this arena that 
is before the Supreme Court surrounding the issue of when is 
something child pornography if it is a computer-generated issue 
or partially computer-generated and only appears to be a real 
child? Obviously we believe that it has all the dangers--
virtually all the dangers of using real children, and we have 
argued that, but that case is to be announced by the Supreme 
Court. And frankly, it will have a serious impact on our 
ability to curtail child pornography on the Internet.
    Mr. Wolf. The argument has been made, and you are waiting 
for the decision?
    Attorney General Ashcroft. That is correct.
    Mr. Wolf. And when is that expected, this season, before 
the----
    Attorney General Ashcroft. It is in the bosom of the Court, 
and they will make their own decision about when it comes out, 
but it was a matter of high priority for us. It should be 
before May that the outcome is announced.
    Mr. Wolf. Well, I hope they rule in an appropriate way. 
This is a terrible thing, and it is a growing problem. With the 
Internet, with good comes bad, and we have this high-technology 
Internet, and now we see the garbage coming in that is creating 
tremendous problems. And I think the more you are prosecuting 
and cracking down--and hopefully the Supreme Court will 
understand that. I don't know the details of the San Diego case 
that just is in the news as we now sit, the case----
    Attorney General Ashcroft. They have discovered the----
    Mr. Wolf. I don't know the particulars but this is a high 
priority for me and I appreciate your making it a high priority 
in this Department, and hopefully, you know, the Supreme Court 
will not rule in such a way that ties your hands.

                          Operation Avalanche

    Attorney General Ashcroft. Well, we are obviously gearing 
up. I don't know whether you are familiar with Operation 
Avalanche.
    Mr. Wolf. I am not.
    Attorney General Ashcroft. Dallas, Texas, 144 searches have 
been executed in 37 states, and 100 individuals have been 
charged in that operation which flowed out of a computer setup 
that was focused there. That is just one of several of the sort 
of--a case can get pretty big pretty quickly when you have the 
infrastructure of the Internet that provides the transmission 
of pornographic material. But we seek--the budget would provide 
funds to 30 regional task forces and 24 additional 
investigative satellites to work this very important problem.

                          Gambling Prosecution

    Mr. Wolf. Okay. Well, I appreciate you staying with that.
    The next question is a little tough for you maybe, and it 
deals with gambling, and I would like you to provide the 
committee with an update regarding the Department's 
investigation of gambling activities around the country, 
particularly those involving any NCAA sports, Olympics, and 
high school events. As you know, there is a bill pending in the 
Congress that would prohibit gambling on NCAA sports and high 
school, and the Olympics. We hope to pass it in this session. 
The only State that allows gambling is Nevada, and so if you 
could give us a report on that.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                          Investigation at BIA

    Mr. Wolf. Also I put you a little bit on the spot. I sent 
you a letter today, which I don't expect you to be able to 
answer, and you should know nothing about this, but I just want 
you to look into it. I had asked earlier this year for an 
investigation of some activity of the Clinton administration at 
the BIA. They had people that were certifying Indian tribes 
that were not really Indian tribes, and we asked for an IG 
investigation. We got the investigation report back last night. 
One person, a high-level official, had left the job. On January 
20th, that seems to me to be the date--I think that is when the 
President was sworn in--I was over there. It was snowing. I 
think this person came back on the 22nd outside and signed 
papers in his car and backdated rulings on five or six tribes.
    Now, to the credit of the Secretary, she has now revoked 
those rulings, but I believe there has been some potential 
illegal activity, and what I say, dear Mr. Attorney General, 
late yesterday I received a report from the Department of the 
Interior, the Inspector General, regarding the Federal tribal 
recognition process. As you know, last year I requested the IG 
conduct a sweeping investigation into the Bureau of Indian 
Affairs after a series of articles in the Boston Globe which 
raised a number of questions about the action of two political 
appointees at the BIA. The report confirmed my suspicions that 
the Federal tribal recognition process has become compromised. 
More specifically, it documented the serious misconduct of 
Clinton political appointees at BIA.
    The IG report notes that the Department of Justice has to 
date declined to prosecute individuals despite clear evidence 
of illegal activity. I implore you to reevaluate this. I am not 
looking for blood, and I am not looking for somebody to go to 
jail or anything, but I think you really have to look at this. 
This may be a civil problem, but you really can't allow people 
to backdate things, and tribal recognition is a very serious 
thing. I worked at the Department of the Interior for five 
years. The Native Americans in America live in horrible, 
horrible conditions. We should be doing more as a Congress, 
more as a country to help the American Indian.
    If you have been on some reservations, they are absolutely 
terrible. The Congress and others felt that by having gambling 
on Indian reservations, they were helping the Indians. However, 
only about 2 percent of the Indians have received any revenue 
at all. Most Indians are living in areas where people don't go 
to gamble, and the average Indian is not receiving any revenue, 
and now you are funding non-Indians who are now fronting money 
to manipulate the recognition process at BIA, which has been a 
good process for years and years.
    And sometimes they come to this town and they hire powerful 
lobbyists, big law firms. In fact, two of these people have 
gone with a big law firm. And if they wonder who the law firm 
is, they can just call my office and get the IG report. I 
wonder if the standard of ethics of that big law firm--and if I 
said the name, everybody in this town and everybody in this 
room would know it. I wonder what the senior lawyers at that 
big law firm in Washington, D.C., think now that people are 
working in their law firm who were involved in this activity. 
And so I would like you to look at this to see if there were 
not criminal activities here.
    Again, I am not looking for prosecution. I am not looking 
to put anybody in jail, but something ought to be done whereby 
this never, ever happens again. When an Indian tribe should be 
recognized, it ought to be recognized, and I think we frankly 
ought to increase the budget. But to do this and then to run 
out and advertise that you are going to be the guy that 
lobbies. So this is a letter I have written to you. You don't 
have it. The staff has it here. We will give it to you. If you 
will look at that. I would like you to check that out.
    Attorney General Ashcroft. Thank you.

                               Oxycontin

    Mr. Wolf. Also, there were four robberies in my district a 
week and a half ago, not very far from where you are going to 
be next Wednesday night. A CVS Pharmacy, an Eckerd Pharmacy, a 
Safeway, and a pharmacy in The Plains were robbed. And what Mr. 
Rogers has said is absolutely right, and it is very hard once 
you are on it to ever get off.
    I think the Food and Drug Administration--it is a good drug 
for people who are in a lot of pain--my mom died of cancer and 
suffered. I wish there had been Oxycontin when my mother was 
sick. But the Food and Drug Administration allows it to be used 
for severe and moderate pain, and now it is running rampant. In 
Lee County in southwest Virginia, there is almost not a family 
that hasn't been devastated by it.
    I think the Justice Department and the DEA ought to sit 
down with the Food and Drug Administration and perhaps 
reevaluate this very good drug and perhaps regulate it for 
severe pain only. But when you say severe or moderate, if I go 
out and chop wood and take a tree down, I will tell you, the 
next day I am in moderate pain. I take some Advil.
    I think maybe the Food and Drug Administration didn't 
realize that this drug would be so abused. It is a good drug. 
We don't want to take it off the market, because if somebody is 
dying of cancer or is in a hospice program this drug is very 
beneficial but on the other hand, it has devastated rural 
areas, and if it comes to the big cities, I think it is going 
to be very, very dangerous.
    So I think if somebody from Justice could sit down with the 
Food and Drug Administration, maybe they ought to reevaluate, 
because there are other drugs coming along that almost fit this 
model, and if they are also available for moderate pain and 
have the same addictive power, we are going to really be in 
trouble. So if somebody could talk to the Food and Drug 
Administration about that.

                  New Prison Contruction/Privatization

    Mr. Wolf. With regard to prisons, I am one of the ones who 
has said that if there are some excess space that different 
states have, particularly medium-security and different good 
prisons--I don't want to put people in a bad prison--perhaps 
the Bureau of Prisons could contract out beds--and frankly, I 
think you all run a good Bureau of Prisons. I think that is one 
of the best run agencies in the government. Ms. Hawk does an 
outstanding job. There may be some instances whereby states 
were building all these prisons and know have excess capa city. 
Perhaps you could come in and purchase one at a very reduced 
price and save the Federal taxpayer a lot of money, and help 
some of these states that were on this prison building program, 
and now find out thank goodness they don't have to be filled.
    You said the Bureau of Prisons has 28 new prisons to come 
online. I think Mr. Mollohan is right. And I am not wild over 
the private prisons. I think prison fellowship and Chuck Colson 
coming into Federal prisons is helpful, but I am not overly 
fond of contracting out to the lowest bidder, because in the 
prison I want there to be rehabilitation, I want there to be 
job training. And your prisons are good prisons, so I don't 
want us to get where we get the lowest bid, and there is no 
rehabilitation. But there may be an opportunity for you to look 
at some of these existing prisons, get a good price from the 
state, and maybe take them over and save the taxpayer some 
money and help some of the states that are struggling.
    Attorney General Ashcroft. Mr. Chairman, it is partly 
because of your suggestions in this respect we have created 
that state and private prison assessment team to see if there 
are other resources that might be helpful to us. Our philosophy 
is the same in this respect. We just don't think a prison is a 
prison is a prison. We don't want to go buy somebody else's 
problem, but we don't want to miss the opportunity, if 
resources are available, that we should be using effectively.
    Mr. Wolf. And the states ought to give you a good price. I 
mean, this is not where they come in and see you as a cash cow 
to make money. I think it ought to be a good legitimate price.

                         Election Reform Grants

    Just two others. The election reform program, you have $400 
million. I think the Congress passed a bill to set that up some 
other place. I don't know if it is going to pass the House or 
the Senate. I guess it was put here because Justice is the best 
place.
    Attorney General Ashcroft. I think it was put in our 
jurisdiction because we prosecute violations of voting rights, 
and we also have certain responsibilities as it relates to the 
Voting Rights Act.
    Mr. Wolf. Okay.
    Attorney General Ashcroft. The $400 million is a 1-year 
figure. It would be for 3 years--and then it is expected that 
that is a match figure--so it really represents about a $2.4 
billion impact in the voting arena.
    Mr. Wolf. Well, I think it is good. Mr. Hoyer and Mr. Ney 
had a bill that passed the House, I think, and it sets up an 
Election Assistance Commission with $2.5 billion. I was just 
curious if there was any blend--you obviously were the best 
place to put it under these circumstances.
    Attorney General Ashcroft. I think absent creating a new 
commission, there was some logic in putting it with us.

                                Telework

    Mr. Wolf. Telecommuting. And I won't go into the question, 
but OPM put out a rating--I don't know where Justice came out. 
Do you know where Justice came out?
    Attorney General Ashcroft. I know we have about 1,500 
people that telework.
    Mr. Wolf. The law now requires a certain percent 
participate and I think obviously you may have jobs that are 
not quite so flexible. It is important to be promoting telework 
and telecommuting, give people more choices.
    Attorney General Ashcroft. Frankly, in some of the 
experiments that we have done, productivity has gone up.

                           Need for Expertise

    Mr. Wolf. We have found the same thing. I think that it is 
important that for the Trilogy Program, the FBI went out and 
hired an expert from IBM. I think INS has to hire somebody from 
AOL or Microsoft or somebody who can come in and understand 
systems, and I think you need a high-technology-type person. 
Until the FBI hired that person, they were having a hard time, 
and the committee has funded that program, but I think you 
really need somebody who has a tremendous understanding of that 
and somebody who may come in and be there for a year or two.
    And I think the sooner you get that on, particularly with 
all of the stuff that is coming in and all of the good work 
that you are beginning to do--I just don't think that you have 
the IT expertise. I know certainly in our office we had to go 
out and have somebody who understood technology. So I would 
hope that the INS would hire somebody too that had that 
understanding of technology. Maybe call Steve Case or Gates or 
one of those guys and say, we are looking for somebody to come 
on for two years who understands systems and who could come in 
and help us. He is good on his Palm Pilot. Maybe Mr. Serrano 
can help.
    With that, I will just end and say I do appreciate you 
coming, and now I would like to recognize Mr. Serrano for any 
last questions. And I appreciate your service. You have got a 
tough job, and I think you have handled yourself very, very 
well. You always look and see how people respond in difficult 
times. I remember your election and Mr. Carnahan was ahead of 
you, and I will tell you, the average person would have asked 
for a recount. The average person would have asked for a 
recount--you were a United States Senator. Your name was up on 
the wall. You had your desk. They still have your desk over in 
the Senate Chamber. You could have asked for a recount, and you 
didn't. And I think how people respond in those difficult 
moments really tells you more about someone than anything else. 
So I think the fact that you didn't ask for a recount was a 
good indication.
    So I appreciate your job. It is very, very tough. The 
committee has a lot of tough questions, because we all want to 
make sure that what happened at the Pentagon and what happened 
in Mr. Serrano's district with the World Trade Center and in 
Pennsylvania never happens again.
    Attorney General Ashcroft. Never happens.
    Mr. Wolf. And with what we see taking place around the 
world--I am going to put in at this point a list--I asked the 
Library of Congress for a list of all of the terrorist 
activities that have taken place, and when you look at it, it 
is awesome. I went through it last night over and over and 
over. It is pages and pages. We forget the Marine barracks. We 
forget the embassy in Beirut. We forget Khobar Towers. We 
forget the AID person that was thrown out in Pakistan. We 
forget Seaman Stethem who was thrown out of the TWA plane. I 
had forgotten a lot of them. And I just wanted to put it in the 
record so people know this is serious, and it has gone on for a 
long period of time and building up steam.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. And you have got a tough job, and your job is to 
make sure it doesn't happen again, and balancing the civil 
liberties concerns Mr. Serrano talks about. I know you feel 
that way, too. You want a good balance, but to make sure we 
never have a World Trade Center or a Pentagon or anything like 
that again.
    The rest of the questions we will just submit for the 
record, and I will recognize Mr. Serrano.

                             OLA Assistance

    Mr. Serrano. Thank you. I will be very brief, and I will 
submit the rest of my questions for the record. I just, first 
of all, would like to do a couple of housekeeping things. First 
of all, I want to congratulate you on the work that Mr. Bryant 
does in your office.
    Attorney General Ashcroft. Thank you.
    Mr. Serrano. He answers our calls immediately. He is really 
special to us in our office. We had a very difficult period, as 
you know, with a lot of my colleagues, friends, constituents in 
Federal prisons over the Vieques demonstrations, and there were 
issues about family visits and the whole thing, and he was 
very, very helpful. And the only thing I asked him that he 
couldn't deliver for me was to make you a left wing liberal, 
and he said he wouldn't touch that, and I respect that. But 
seriously, he is special, and I really respect him, and I 
wanted to say that to you in public.

                              Puerto Rico

    Mr. Serrano. Secondly, want to put in a plug in for the 
Commonwealth of Puerto Rico. I always tell people that I 
represent two districts, the South Bronx and Puerto Rico. 
Because of the lack of voting representation, I am asked--with 
Ms. Velazquez and Mr. Gutierrez--to do what we can to help. 
And it is very difficult to get dollars into the Commonwealth, 
although we have done well, because Congress tends to pay 
attention to the 50 States and tends to pay attention to voting 
members of Congress requesting for their district. I understand 
that. So I would hope that we could--your staff and I could sit 
down later and maybe work out a plan where we pay a little more 
attention to some areas, especially your agency, because they 
are out there in the Caribbean by themselves.
    You talk about border issues. Well, there they are with all 
kinds of issues surrounding them and--I just had the mayor of 
Bayamon come in to me about law enforcement issues, about 
security issues, about camera issues, sporting events and the 
whole thing. So I would like to take an opportunity to plug, 
you know, their needs and speak to your agency later on that.

                   Security at Major Sporting Events

    And just two last quick questions, one is this whole issue 
of sporting events and law enforcement coverage now as never 
before. What can you tell us? Are they coming in with a lot of 
requests? I know we heard about the Final Four. Now, during 
last year's World Series there was incredible security in the 
Bronx, as well it should be, the Super Bowl and so on. What has 
that added to the work you have to do?
    Attorney General Ashcroft. Well, the designation of an 
event as a national security event is the right thing, and--I 
ask my staff to correct me if I am wrong--is a function that is 
undertaken in cooperation with the Director of Homeland 
Security. And when national security designation has been made, 
the Secret Service organizes and directs the security around an 
event.
    My own view is it is probably not the--we shouldn't view 
only national security events as being events where we can 
help. Those are the events where the federal authorities are in 
charge, but I have instructed people at the U.S. Attorney's 
Offices to confer with and to help with events where they 
haven't put the Federal Government in charge. But that doesn't 
mean we can't play a part of the team of the law enforcement 
network that secures an event.
    Obviously in the wake of September 11, the World Series and 
its proximity required security, and the Olympics are a unique 
situation where, for me, the Olympics are special. It is a 
demonstration of people being together in a competition, but 
peaceful, and we had a special reason to secure that. And even 
more so since the story of America involves people coming from 
every country of the globe to do well here. The Olympics sort 
of represented what America is all about, people coming from 
every quadrant of the globe to do well and perform at the 
highest level possible.
    If the decision is made in the affirmative in terms of the 
FBI and Secret Service, the Homeland Security, they concur, 
they take charge of the event. I would just indicate that I 
don't think the Federal government can afford to be in charge 
of all the sporting events, but that doesn't mean that our 
resources can't participate in various times and at the local 
level. And I would just--I have seen several places where they 
have written and asked for designation, and the designation 
hasn't come, but they have found ways to work together to 
improve security. And our security effort just has to be an 
integrated effort regardless of who is in charge, and we have 
to help each other. And I think that is the best way to 
approach this thing.

                  Racial Profiling/Status of Detainees

    Mr. Serrano. My last comment and question. You pleasantly 
surprised many people in this country, and myself especially, 
when you first became Attorney General and you said that racial 
profiling was wrong, and you wanted to do whatever you could to 
end it and, I guess, make people pay a price for its practice. 
But since September 11, we have had to do some things in this 
country that worry some of us that we may be becoming guilty of 
some form of racial profiling, especially in people we detain. 
So, first of all, do you think that we could be going down that 
road and creating a problem; and secondly, are you at liberty 
to tell us how many people are being detained at this moment--I 
believe the one issue is overstaying their visas in most 
cases--and what part of the world they come from?
    Attorney General Ashcroft. Let me say that I continue to 
believe that racial profiling is wrong. This Administration has 
been opposed to racial profiling and has indicated its 
opposition to it more so than ever. The President has said it 
is wrong, and we will end it in America, and I subscribe to 
that. Using race--this is my view--as a proxy for potential 
criminal behavior is unconstitutional, and it undermines law 
enforcement by undermining the confidence that people can have 
in law enforcement. There is no success in law enforcement if 
the people you are trying to protect can't cooperate with you 
because they distrust you.
    As a matter of fact, I would point out that this 
Administration has gone beyond what the courts have held with 
regard to racial profiling there. The highest court decisions 
have been that certain kinds of racial profiling are 
appropriate, and we don't believe--they have not said they are 
appropriate, they said they are legal. I don't believe that. I 
personally believe it is an offense to the Constitution.
    We have undertaken a survey of 70 law enforcement agencies 
in the Federal Government. We were preparing a report on that 
when the September 11 incidents occurred. We have updated that 
report to the end of the year since it was deferred and will be 
delivering that to the President in the relatively near term.
    We have identified individuals based on the country of 
passport origin, but I do not believe we should identify people 
based on race in terms of using that as a proxy for criminal 
behavior.
    Let me address the issue about detention. We have in 
detention in the INS about 20,000 people total. That is because 
we have an ongoing situation. About 294--is that the right 
number as of February 22--294, were individuals of particular 
interest because of their association with individuals that 
were involved in the September 11 events. Now we have had 
others in that category before, but they have either been 
cleared, or they have been deported. We did not detain any 
people for any extended period who were not violators of their 
status. And I have kept some of those individuals in detention. 
Some are not in detention, and their status is being 
adjudicated.
    This committee has pointed out to my sorrow a fact which is 
troublesome, and that is if you don't detain some individuals 
during the adjudication of their status, they are not available 
for deportation when the adjudication is over. As a matter of 
fact, I think you all pointed out there are 321,000 absconders 
now in the country who have just left when we didn't detain 
them.
    So that we are at a level of 294 individuals who are being 
detained related to September 11 who are violators of their 
status under the immigration laws. The rest of the 20,000 are 
violators of their status, but weren't related to September 11. 
Each of these individuals has been notified of their right to 
counsel. Each has been provided with a list of pro bono counsel 
if they don't choose to hire counsel. Each of these individuals 
has been given an opportunity to communicate their detention to 
their friends, loved ones or otherwise, and we believe that 
their rights are being properly respected. The responsibility 
that I have to see to it that they don't abscond if we were to 
release them during the pendency of their adjudication is a 
responsibility that is necessary for the security of the 
national interest. They are not individuals who are detained 
based solely--they are being detained based on their violation, 
alleged violations, which we are alleging of their status and 
standing in this country.
    Mr. Serrano. Okay. I will submit, Mr. Chairman, the rest of 
these questions.
    Mr. Serrano. I want to thank you again, Mr. Attorney 
General, for being patient with us. I just want to, in closing, 
remind you what I said at the beginning. You have in your hands 
immense power to get the bad guys. Let us just protect the good 
guys in the process.
    Attorney General Ashcroft. That is good advice, and I want 
to thank the committee and thank the Chairman and Ranking 
Member. I know of no other committee that makes a commitment to 
its enterprise that is as serious and thorough as this 
committee, and this is the way it ought to operate.
    Mr. Wolf. The hearing is adjourned.
    [Questions and answers for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Ashcroft, J. D...................................................    95
Hutchinson, Asa..................................................   273
Mueller, R. S., III..............................................     1
Ziglar, J. W.....................................................   355
Sawyer, K. H.....................................................   485


                               I N D E X

                              ----------                              --
--------
                                                                   Page
Federal Bureau of Investigation (FBI)............................     1
    Analytical Tools.............................................

21, 85

    Anthrax Investigation........................................

8, 25, 83

    Biography, FBI Director, Robert S. Mueller, III..............    24
    Budget:
        Analytical Resources.....................................    73
        Toll Free TIPS, Collection of............................    42
        Counterterrorism Supplemental............................    12
        Funding for Terrorism....................................

17, 44

        Request, FY 2003......................................... 1, 14
        Reorganization...........................................     5
        Shortfalls...............................................

88, 91

        Technology...............................................

6, 19, 21, 38, 83, 86

        Data Warehouse...........................................    37
    Burnhams Case................................................    65
    CALEA........................................................

89, 91

    Caseload.....................................................    87
    Challenges...................................................

3, 31, 49

    Chief Information Officer....................................    68
    Civil Rights.................................................

60, 67, 88

    Continuity Operations........................................

20, 84

    Cooperation, State and Local Officials....................... 6, 75
    Countermeasures..............................................

22, 86

    Counterterrorism Initiative..................................

15, 17

    Crimes Against Children......................................    88
    Cybercrime...................................................    80
    Crisis Response..............................................    16
    Data Collection Facility.....................................    17
    Data Warehousing.............................................

19, 37, 71, 84

    Drug Trafficking.............................................

44, 77

    Diamonds, Sale of............................................

52, 80

    Digital Storage and Retrieval................................

20, 84

    Dismantling Organized Crime..................................    88
    DNA Program..................................................    16
    Electronic Surveillance (EDMS)...............................    17
    Explosives Detection.........................................    40
    FBI Facilities...............................................

20, 22, 85, 86

    Gambling.....................................................    65
    Hanssen Case.................................................

3, 13, 22, 53

    Hazardous Devices School.....................................

19, 46

    Hiring: Initiative...........................................

40, 60, 72

        Translators..............................................    59
    Homeland Security............................................

36, 48

    Intellectual Property........................................    80
    Information Assurance........................................

22, 86

    Information Sharing:
        Consolidating Information Sharing........................

33, 41, 48, 86

        Data Sharing, Lack of....................................    35
        DEA......................................................

58, 77

        Security.................................................    39
    Information Technology.......................................

6, 19, 38, 47, 84

    Interagency Coordination.....................................    75
    Jewelry and Gem (JAG) Program................................    81
    Joint Terrorism Task Force...................................

6, 18, 46, 76, 92

    Legal Attaches..............................................

20, 52, 75, 84

    Management...................................................    82
    Medicare.....................................................    50
    Migrant Smuggling Centers....................................    57
    National Domestic Preparedness Office........................    76
    National Infrastructure Projection Center (NIPC):
        Budget Request...........................................    15
        Cyber Division...........................................    83
    New York Operations Center Upgrades..........................    18
    North Atlantic Treaty Organization (NATO)....................    55
    Opening Remarks:
        Chairman Wolf............................................     1
        Congressman Serrano......................................     2
        Mueller, Robert S., III..................................     2
    PENTTBOM.....................................................    83
    Polygraphy...................................................

22, 86

    Post Graduate Training.......................................    63
    Protecting Civil Rights......................................    67
    Puerto Rico..................................................    61
    Questions for the Record.....................................    70
    Recruiting...................................................    60
    Reorganization...............................................

4, 5, 9, 14

    Reviewing Intelligence Information...........................    27
        Initiative...............................................    21
        Staffing.................................................

22, 86

    September 11th: Impact on the Bureau.........................

3, 8, 87

        Agent Replacement........................................    27
        Investigation............................................    26
    Sleeper Cell in United States................................    28
    State and Local Law Enforcement..............................  6, 9
    Strategic Information and Operations Center..................    17
    Statement, Mueller, Robert S., III:
        Formal...................................................     9
        Opening..................................................     8
    Surveillance Support.........................................    16
    Tactical Operations..........................................    16
    Taliban Supporter, Investigation of..........................    66
    Technically Trained Agents...................................

9, 16

    Technology:
        Automated Case System....................................    30
        Budget Request...........................................

6, 19, 38

        Chief Technology Officer.................................    10
        Collaborative Capabilities...............................

19, 84

        Explosives Detection Technology..........................    40
        Information Companies....................................    67
        Initiatives..............................................

19, 47, 83, 86

        Reform...................................................  6, 9
    TIPS Program.................................................

17, 42

    Terrorism:
        Domestic.................................................    92
        ECO......................................................    92
        Financing................................................

44, 52, 80

        Focus on.................................................    31
        Food Supply..............................................    45
        September 11th...........................................

3, 8, 26, 87

    Trafficking, Victims of......................................

57, 79

    Translation Capabilities.....................................

59, 73, 74

    Trilogy......................................................

6, 12, 19, 29, 70, 84

    Undocumented Aliens..........................................    61
    Video Conferencing/Internet Connectivity.....................

20, 85

    Workforce Restructuring and Administrative Support Systems...

20, 85

Attorney General.................................................    95
    Abner Louima Case............................................   120
    Afghanistan:
        Initiative, Operation Containment........................

112, 155

        Trip, to.................................................    95
    Airline Security.............................................   153
    Aliens, Non-Deportable.......................................   222
    Antiterrorism Task Force.....................................

159, 216

    Antitrust Division...........................................   246
    Board of Immigration Appeals:
        Streamlining.............................................   143
        Attorneys, Elimination of................................   145
        Investigation, at........................................   185
        Judges, Reduction of.....................................   144
    Border Patrol................................................

100, 106, 163, 174, 215

    Border Security..............................................   104
    Boys and Girls Club..........................................   131
    Brady Act Requirements.......................................   213
    Budget Request...............................................

99, 104

    Bureau of Prisons:
        Budget Request...........................................   111
        Prison Construction/Privatization........................

111, 134, 186

        Prison Rape..............................................   223
    Child Abuse..................................................   256
    Child Pornography............................................

182, 218

    Civil Liberties, Americans of................................    97
    Civil Rights:
        Advancing................................................   113
        Budget Request...........................................

101, 113

    Community Oriented Policing Service (COPS):
        Elimination, of..........................................

159, 225

        Program..................................................

140, 255

    Community Relations Service..................................

233, 263

    Counterterrorism:
        Coordination, Department of Justice, in..................   109
        FBI, Funding.............................................   107
        Funding..................................................

100, 109

        Supplemental, FY 2002....................................

99, 105, 107, 108, 161

    Detention and Incarceration..................................   102
    Detention Trustee............................................

102, 111

    Diamond Bill.................................................   155
    Drug Enforcement Administration:
        OxyContin................................................   116
        Prescription Drug Monitoring.............................   118
    Drug Enforcement Funding:
        Diversion Control Fee....................................   112
        Organized Crime Drug Enforcement Task Force..............

101, 112, 149

        Office of Justice Programs...............................

101, 113

    Drugs and Terrorism..........................................   155
    Election Reform Grants.......................................

101, 187

    Extradition..................................................

131, 137, 228

    Federal Bureau of Investigation:
        Antiterrorism Funding, Priority of.......................   124
        Antiterrorism Request, Pre-September 11..................   121
        Budget Request...........................................

101, 115, 128

        Counterterrorism Funding.................................   100
        Identification Integration...............................

119, 151

        Intelligence Sharing.....................................   153
        Reorganizations..........................................   158
    Gambling Prosecution.........................................

183, 220

    Hanssen Case.................................................   156
    High Intensity Drug Trafficking Areas........................   149
    Hispanic Hiring, Department of Justice.......................   157
    Liberians....................................................

148, 150

    IDENT/IAFIS:
        10-Point System, Implications............................   172
        Integration..............................................   168
        Status, Integration, of..................................   169
    Immigration and Naturalization Service:
        245(i)...................................................   140
        Aliens, Non-Deportable...................................   222
        Border Medical Issues....................................   165
        Border Patrol............................................

100, 106, 163

        Border Patrol, Tucson, Corruption in.....................   174
        Border Security..........................................

100, 104

        Budget Request...........................................   105
        Detainees................................................

212, 231, 261

        Detention................................................

102, 111

        Entry/Exit...............................................

100, 105, 106, 154, 213

        Identification Integration...............................

119, 151

        Immigration Task Force...................................   162
        Intelligence Sharing.....................................

106, 151

        Restructuring............................................

102, 111, 118, 139, 140, 158, 167

        Staffing, Local Offices..................................   146
    Information Technology, Expertise............................   188
    Intellectual Property........................................   177
    Joint Terrorism Task Force...................................

100, 106, 108, 159

    Law Enforcement Block Grant, Consolidation...................

245, 255

    Legal Activities, Enhancing the Department...................   113
    Methamphetamine..............................................

139, 251

    Narrowband Communications....................................

100, 109

    National Crime Information Center (NCIC).....................   146
    Office of Domestic Preparedness, Transfer of.................   138
    Office of Justice Programs:
        Byrne Discretionary Elimination..........................

224, 225

        Byrne Grants/Local Law Enforcement Block Grants..........

148, 245, 255

        Child Abuse..............................................   256
        State Criminal Alien Assistance Program (SCAAP), 
          Elimination of.........................................   141
    Office of the Inspector General..............................

101, 113

    Office of Legislative Affairs Assistance.....................   208
    Official Time, Department of Justice Employees...............   230
    Operation Avalanche..........................................   182
    Oregon Assisted Suicide......................................   130
    OxyContin....................................................

116, 186

    Parole Commission, Extension Legislation.....................   221
    Public Safety Officers Death Benefit.........................

242, 224

    Puerto Rico..................................................   208
    Questions for the Record.....................................   212
    Racial profiling.............................................   209
    September 11 Victim's Compensation Fund......................

102, 110, 149, 156, 217, 244

    Sporting Events, Security at.................................   208
    State and Local Law Enforcement, Streamlining Assistance.....

114, 142, 225, 255

    State Criminal Alien Assistance Program (SCAAP), Elimination 
      of.........................................................   141
    Statement:
        Formal, Attorney General John Ashcroft...................   104
        Opening, Attorney General John Ashcroft..................    98
        Opening, Chairman Wolf...................................    95
        Opening, Mr. Serrano.....................................    97
    Telework.....................................................

188, 226

    Terrorism:
        Chronology, Terrorist Incidents..........................   190
        Diamond Bill.............................................   155
        Drugs....................................................   155
        Incidents................................................    96
        National Commission......................................    96
    Trafficking:
        Cases....................................................   179
        Persons, in..............................................    99
        Victims, of..............................................

177, 217

    U.S. Marshals, Courthouse Security...........................

100, 109

    USA PATRIOT Act..............................................

101, 105, 113, 115, 149, 161

    Visa:
        Data Sharing.............................................   212
        Student..................................................   154
        Waiver, Argentina/Portugal...............................

147, 249

Drug Enforcement Administration (DEA)............................   273
    Afghanistan Initiative:
        Activities...............................................   338
        Agents...................................................   320
        Drug Problem.............................................   321
        Drug Rehabilitation......................................   324
        Drug Treatment...........................................   324
        Percent Addicted to Drugs................................   322
        Poppy Crop, Eradication..................................

321, 334

        Reprogramming............................................   275
    Alabama, Methamphetamine Epidemic............................   347
    Alcohol, Gateway to Drug Use.................................   312
    Arellano-Felix Organization..................................   313
    Assassination, Prosecutor in Mexico City.....................   333
    Budget:
        Counterterrorism Intelligence Support....................

281, 324

        OCDE Task Force..........................................   281
        Operation Containment....................................   281
        President's Request......................................

274, 279

    California, Methamphetamine Production.......................   315
    Canadian Border..............................................   319
    Caribbean Trafficking........................................   327
    Cocaine......................................................   285
    Colombia:
        Al Qaeda & FARC..........................................   309
        Drug Traffickers, Indictment of..........................   303
        Indictments, Handling of.................................   305
    Counterterrorism Intelligence Support........................

281, 324

    Countries with Presence:
        Southwest Asia...........................................   334
        Tehran, Station in.......................................

323, 337

    Cuba:
        Drug Trafficking Cooperation.............................   292
        Physical Presence........................................   294
    DARE Program.................................................   327
    Demand Reduction Program.....................................

282, 342

    Diversion Control Fee Account................................   338
    Domestic Enforcement.........................................   345
    Drug Czar....................................................   327
    Drugs:
        Colombia, Indictment of Traffickers......................   303
        Current Threats..........................................   283
        Patterns in the Caribbean................................   327
        Religious Community, Condemn.............................   308
        Seizures in National Forests.............................   346
        Terrorism................................................   306
        Trade and Taliban........................................   307
        Trafficking..............................................

292, 314

    Ecstasy......................................................

284, 306

    Extradition Policy...........................................

315, 343

    Foreign Drug Agencies........................................   334
    Hazardous Waste Removal/Cleanup..............................   350
    Heroin.......................................................   286
    Homeland Security and Mexico.................................   338
    Integrated Drug Enforcement Assistance program (IDEA)........

317, 327, 342

    Intelligence Gathering/Sharing:
        Analysis of Data.........................................

324, 340

        Corresponding Drug Agencies..............................   334
        El Paso Intelligence Center..............................   326
        Information Sharing......................................   326
        National Drug Pointer Index (NDPIX)......................   326
        OCDE Task Force..........................................   326
        Task Force Program.......................................   326
    International Drug Trafficking Organizations.................   278
    Internet:
        Criminal Law, Crimes.....................................   302
        Pharmacies, Investigation of.............................   301
        Purchasing of OxyContin..................................   301
    Iran:
        Addicts..................................................   323
        Agents...................................................

323, 337

        Inmates With Drug-Related Charges........................   322
        Southwest Asian Opium Consumed...........................   323
    Marijuana....................................................   288
    Methamphetamine:
        California, Production in................................   315
        Grant Funding............................................   316
        Jackson County, Alabama..................................   347
        Lab Cleanups.............................................   316
        Toxic Labs...............................................   348
        Trafficking Organizations................................   347
        Use......................................................   287
    Mexico:
        Arellano-Felix Organization..............................   313
        Assassination of Prosecutor in Mexico City...............   333
        Certification Process, Removal...........................   313
        Combating Drug Trafficking...............................   314
        Exchange Programs........................................   331
        Extradition..............................................

315, 343

        Governor Ridge & Mexican Government......................   320
        Homeland Security........................................   338
        Relationship with United States..........................   329
        Sensitive Investigative Unit Training....................   333
    Mission......................................................   278
    Narco-Terrorism..............................................   278
    National Drug Control Strategy...............................   277
    National Forest Drug Seizures................................   346
    North Carolina Satellite Office..............................   345
    Operation Containment........................................   281
    Organized Crime Drug Enforcement Task Force..................

281, 326

    OxyContin:
        Combating................................................   298
        Food & Drug Administration's Role........................   291
        Internet, Purchasing.....................................   301
        National Plan............................................   351
        Public Awareness of Abuse................................

295, 296

        Rehabilitation...........................................

291, 292

        Spread...................................................   290
        Statistics, Deaths & Sales...............................   297
        Use......................................................

284, 290, 292

    Pakistan:
        Addicts..................................................   323
        Southwest Asian Opium Consumed...........................   323
    Praise.......................................................   312
    Prescription Monitoring:
        FDA Responsibility.......................................   300
        Patient Privacy..........................................   300
        Program..................................................   299
    President's National Drug Control Strategy...................   277
    Puerto Rico..................................................   328
    Questions for the Record.....................................   337
    Religious Community and Leaders..............................

308, 310, 311

    Reprogramming Afghanistan Initiative.........................   275
    Southwest Border, Agencies Cooperation.......................

317, 318

    Statement:
        Formal, Asa Hutchinson, Administrator....................   277
        Opening, Asa Hutchinson, Administrator...................   274
    Strategic Plan...............................................   278
    Successes....................................................   275
    Taliban Drug Trade...........................................   307
    Terrorism and Drug Trafficking...............................

306, 309

    Training:
        Foreign Law Enforcement Counterparts.....................   332
        Sensitive Investigative Unit Training....................   333
        Site Safety Course.......................................   350
    War on Drugs, Adequate Manpower..............................   328

Immigration and Naturalization Services (INS)....................   355
    Absconder Initiative.........................................

357, 407

    Adoption Initiative..........................................   380
    Agents, Border Patrol:
        Additional...............................................   366
        Hiring Efforts...........................................   441
        Northern Border..........................................   421
        Pay Reform...............................................   414
    Aliens:
        Criminal.................................................

417, 447

        Cuban....................................................   423
        Non-Deportable...........................................   407
        Smuggling................................................

428, 430, 435, 447

    Anti-Smuggling and Anti-Fraud Investigations.................   373
    Asylum and Refugee Initiatives...............................   379
        Claims, Gender-Based.....................................   416
        Local Cases..............................................   482
        National Cases...........................................   483
        Reform...................................................   405
        Rule.....................................................   480
    Attribution, Impact..........................................   419
    Backlog:
        Application..............................................   444
        Elimination, Six-Month Processing........................   377
        Reductions...............................................   410
    Beds, Prison.................................................   407
    Benefit Fraud................................................

459, 468

    Border Crossing Card.........................................   452
    Border Enforcement:
        Coordination and Cooperation.............................

363, 370

        Fences...................................................   451
        Interior.................................................   371
        Problems.................................................   393
    Border Patrol:
        Agents...................................................

366, 414, 421, 441

        Budget...................................................

455, 464

        Checkpoints..............................................   400
        Facilities and Infrastructure............................   367
        Helicopter Deployment to Sierra Vista....................   397
        Helicopters, New.........................................   367
        Police and Border Patrol Checkpoints.....................   401
        Tucson Sector Air Assets.................................

399, 449

    Border Security Strategy.....................................   368
    Budget:
        Border Patrol............................................   455
        Immigration Services.....................................

377, 457, 466

        Improved Statistics Development..........................   383
        Information Resources Management.........................   380
        Infrastructure Administration and Support................   382
        Legal Support............................................   383
        Physical Security and Staffing...........................   383
        President's Request......................................

355, 361

        Support Staff............................................   478
    Canada and Mexico Meetings...................................

359, 444

    Checkpoints..................................................   400
        Police and Border Patrol.................................   401
        Legal Argument Regarding.................................   404
    Commissioner Position, Importance............................   411
    Commonwealth Attorney........................................   435
    Computer Systems.............................................   387
    Congressional Offices, Immigration Work......................   426
    Consolidated Consular Database...............................   357
    Criminal Aliens:
        Cuban....................................................   423
        Enforcement..............................................   417
        Release of...............................................   447
    Cuban Issues.................................................

423, 434

    Detention:
        Alternatives.............................................   375
        Beds.....................................................   407
        Child....................................................   475
        Detention and Removals...................................   375
        Facilities...............................................   375
        Program..................................................   477
        Removals.................................................   376
        Standards................................................   376
    Deterrence, Optimum..........................................

395, 449

    ENFORCE/IDENT................................................   867
        Data Interfacing.........................................   421
    Enforcement, Interior........................................   440
    Entry-Exit System............................................

358, 365, 443, 461, 470

    Expenditure Report...........................................   450
    Fees:
        Increase.................................................   446
        Participation in Anti-Gang Task Forces...................   478
    Gender-Based Asylum Claims...................................

416, 480

    General Counsel Offices:
        Creation of Two Separate.................................   411
        Goals....................................................   432
    IDENT/IAFIS:
        Establishment of Sub-Database within IAFIS...............   392
        Identification Systems...................................   390
        Status of Study..........................................   391
    Illegal Immigrants:
        Census Bureau Budget.....................................   463
        Health Care..............................................   395
        Overstays................................................

388, 389, 405

        Tucson Sector............................................   449
    Immigration Inspectors, Additional...........................

364, 441

    Immigration Services.........................................

360, 377, 378, 457, 466

    Immigration Work in Congressional Offices....................   426
    Information Technology:
        Access to Important Information..........................   412
        Information Resources Management.........................   380
    Infrastructure, Administration and Support...................   382
    Initiatives:
        Administration and Support...............................   382
    Initiatives:
        Absconder................................................

357, 407

        Absconder/NCIC...........................................   377
        Adoption.................................................   380
        Asylum and Refugee.......................................   379
        Backlog Elimination, Six-Month Processing................   377
    Inspections:
        Accomplishments..........................................   365
        Facilities...............................................   365
        Secondary................................................   438
    Intelligence Staff, Increases................................   372
    International Passengers, Processing.........................   415
    Investigations, Anti-Smuggling and Anti-Fraud................   373
    Investigators:
        Positions................................................   419
        Shortage.................................................   387
    Joint Terrorism Task Force (JTTF)............................   372
    Local Police Use.............................................

420, 425

    Mexico and Canada Meetings...................................

359, 444

    Naturalization, Adjustment of Status.........................   378
    Northern Border:
        Ports-of-Entry...........................................   442
        24-Hour Patrolling.......................................   421
    Optimum Deterrence...........................................

395, 449

    Organizations, Non-Governmental..............................   359
    Passenger Manifests..........................................   421
        Advanced.................................................   423
        Advanced Regulation Promulgation.........................   422
        Problems for Foreign Carriers............................   422
    Pay Reform for Border Patrol Agents..........................   414
    Ports of Entry, 24-Hour Patrolling...........................

421, 442

    Prison Beds..................................................   407
    Processing Backlog...........................................   377
    Processing of International Passengers.......................   415
    Puerto Rico Issues...........................................   432
    Questions for the Record.....................................   437
    Quick Response Teams (QRT)...................................   374
    Reform and Reorganization....................................   386
    Refugee:
        Admissions...............................................   476
        Program..................................................   359
        Re-settlement............................................   452
    Removal, Illegal Aliens......................................   376
    Resource Deployment..........................................   427
    Restructuring:
        Additional Resources, Need...............................   412
        INS......................................................

356, 384, 410, 426, 484

        Inspections Division.....................................   413
        Plan.....................................................   386
    Rhode Island INS Agents......................................   404
    September 11th Events........................................   356
    Sexual Trafficking...........................................   435
    Sierra Vista, Helicopter Deployment..........................   397
    SENTRI-NEXUS.................................................   423
    SEVIS........................................................   380
    Smuggling Issues.............................................

428, 435, 447

    Statement:
        Formal, James W. Ziglar, Commissioner....................   361
        Opening, James W. Ziglar, Commissioner...................   355
    Systems:
        Computer.................................................   387
        Entry-Exit...............................................

358, 365, 443, 461, 470

        IDENT/IAFIS Identification...............................   390
        SENTRI-NEXUS.............................................   423
        Student Tracking.........................................

358, 389

        Student and Exchange Visitor Information System (SEVIS)..   380
        10-Print.................................................   391
    Trafficking, Sexual..........................................   435
    Training, Victims of Trafficking and Violence Protection Act 
      (VTVPA)....................................................   373
    Tracking System:
        Foreign Students.........................................   420
        Local Police Use.........................................   420
        Student..................................................   358
    Visas:
        Conflict Between Issuance and Enforcement................   408
        Overlays.................................................

388, 389, 405

        Student..................................................   437
        Tracking.................................................   472
Bureau of Prisons................................................   485
    Abuse of Inmates:
        Contract Guard, Standards of.............................   514
        Inspector General Review.................................   505
        Prison Staff.............................................   513
        September 11th, Effect of................................

491, 505

        Sexual, Allegations of...................................   514
    Arab-Americans, Treatment of.................................   503
    Babies:
        Female Inmates, with.....................................

509, 520

        Safety of................................................   520
    Budget:
        Congressional Funding, Issues............................   547
        Counterterrorism Funding.................................   517
        Five Existing Prisons....................................   535
        Increased Funding........................................   536
        Request, FY 2003.........................................

487, 490

        Overtime.................................................   512
    Capacity, State Prisons......................................   497
        BOP Facilities...........................................   534
        Contract Beds............................................   499
        Prison Personnel, Attacks on.............................

501, 502, 507

        State Prisons, Purchase of...............................   498
    Construction:
        Fully-Funded.............................................   534
        New Prisons..............................................

508, 519, 536

        Repair...................................................   546
    Contract Guard Standards.....................................   514
    Counterterrorism.............................................

491, 517

    Civil Liberties, Violation in Prisons........................   505
    Criminal Alien Requirement, Procurement......................   542
    CRIPA Funding, Civil Rights Division.........................   544
    Detention Trustee............................................   499
    Drug Treatment:
        Inmates..................................................

493, 496

        Rehabilitation...........................................

493, 498

        Residential Program......................................

488, 523

        Post, Recidivism Drug Treatment..........................   524
    Federal Prison Industries....................................

492, 522, 530, 538

    Femal Inmates, Sentencing of.................................   511
    Health Care..................................................   544
    Hiring.......................................................   516
    Hoekstra Bill................................................   531
    Inmate Population:
        Classification, Security Level...........................

501, 507, 536

        Decrease.................................................

508, 536

        Growth Rate..............................................

487, 491, 496

        Programs.................................................   492
    Inmate Programs:
        Drug.....................................................

488, 493, 496, 523

        Education................................................

492, 524

        Faith-Based..............................................

528, 529, 537

        Federal Prison Industries................................

492, 522, 530, 538

        Pre-Release..............................................   494
        Reentry, Preparation.....................................   526
        Rehabilitation...........................................   522
        Substance Abuse..........................................

488, 493, 496, 523

        Mother and Infants Together (MINT).......................

509, 520

        Vocational Training......................................

524, 525

        Work.....................................................

492, 524

    Lorton, Closing..............................................   532
    Mental Illnesses, Inmates....................................   526
    New Facilities Needed/Status of..............................   536
    Opening Remarks:
        Chairman Wolf............................................   485
        Congressman Serrano......................................   485
        Sawyer, Kathleen Hawk....................................   486
    Personnel, Attacks on........................................   502
    Prison Construction, New.....................................   519
    Prison Population (See Inmate Population)
    Privatization, D.C. Inmates..................................

510, 540

    Questions for the Record.....................................   534
    Recidivism...................................................

487, 524

    September 11th:
        Guard Training...........................................   506
        Impact...................................................

491, 517

    Sexual Abuse in Prison By Prison Staff.......................   513
        Allegations..............................................   514
    State Prisons................................................

497, 498, 535

    Statement, Kathleen Hawk Sawyer:
        Formal...................................................   489
        Opening..................................................   486
    Statistics, Inmates into System Revision of..................   537
    Telephone Use................................................   515
    Violations...................................................   505

                                <greek-d>

</pre></body></html>
